<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2004</title>
<body><pre>[Senate Hearing 108-206]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 108-206
 
  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2004
=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   on

                               H.R. 2555

 AN ACT MAKING APPROPRIATIONS FOR THE DEPARTMENT OF HOMELAND SECURITY 
 FOR THE FISCAL YEAR ENDING SEPTEMBER 30, 2004, AND FOR OTHER PURPOSES

                               __________

                    Department of Homeland Security
                   Science and Technology Directorate
                            U.S. Coast Guard
                          U.S. Secret Service
                       Nondepartmental witnesses

                               __________

         Printed for the use of the Committee on Appropriations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                                 ______



                       U.S. GOVERNMENT PRINTING OFFICE
85-926                     WASHINGTON : 2003
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001










                      COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            TOM HARKIN, Iowa
CONRAD BURNS, Montana                BARBARA A. MIKULSKI, Maryland
RICHARD C. SHELBY, Alabama           HARRY REID, Nevada
JUDD GREGG, New Hampshire            HERB KOHL, Wisconsin
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
SAM BROWNBACK, Kansas                MARY L. LANDRIEU, Louisiana
                    James W. Morhard, Staff Director
                 Lisa Sutherland, Deputy Staff Director
              Terrence E. Sauvain, Minority Staff Director
                                 ------                                

          Subcommittee on the Department of Homeland Security

                  THAD COCHRAN, Mississippi, Chairman
TED STEVENS, Alaska                  ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
MITCH McCONNELL, Kentucky            PATRICK J. LEAHY, Vermont
RICHARD C. SHELBY, Alabama           TOM HARKIN, Iowa
JUDD GREGG, New Hampshire            BARBARA A. MIKULSKI, Maryland
BEN NIGHTHORSE CAMPBELL, Colorado    HERB KOHL, Wisconsin
LARRY CRAIG, Idaho                   PATTY MURRAY, Washington

                           Professional Staff
                             Rebecca Davies
                               Les Spivey
                           Rachelle Schroeder
                              James Hayes
                              Carol Cribbs
                       Charles Kieffer (Minority)
                        Chip Walgren (Minority)
                        Alexa Sewell (Minority)
                         Scott Nance (Minority)

                         Administrative Support

                             Joshua Manley











                            C O N T E N T S

                              ----------                              

                         Tuesday, April 8, 2003

                                                                   Page
Department of Homeland Security..................................     1

                        Tuesday, April 10, 2003

Department of Homeland Security: Science and Technology 
  Directorate....................................................    45

                        Tuesday, April 30, 2003

Department of Homeland Security..................................    83

                         Thursday, May 1, 2003

Department of Homeland Security:
    U.S. Coast Guard.............................................   185
    U.S. Secret Service..........................................   185

                          Tuesday, May 6, 2003

Department of Homeland Security..................................   263

                         Tuesday, May 13, 2003

Department of Homeland Security..................................   331
Nondepartmental Witnesses........................................   439














  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2004

                              ----------                              


                         TUESDAY, APRIL 8, 2003

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:15 p.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Thad Cochran (chairman) presiding.
    Present: Senators Cochran, Gregg, Craig, Byrd, Harkin, 
Kohl, and Murray.

                    DEPARTMENT OF HOMELAND SECURITY

STATEMENT OF HON. MICHAEL BROWN, UNDER SECRETARY, 
            EMERGENCY PREPAREDNESS AND RESPONSE 
            DIRECTORATE


               opening statement of senator thad cochran


    Senator Cochran. The hearing will please come to order.
    The subject of today's hearing is the fiscal year 2004 
budget request for the Emergency Preparedness and Response 
Directorate of the Department of Homeland Security.
    We appreciate the attendance of Under Secretary Michael 
Brown. We thank you for your attendance today and welcome you 
and those who have accompanied you to this hearing.
    The President's budget request for Emergency Preparedness 
and Response totals $5.96 billion. We have a copy of the 
statement you have prepared for the committee, which we will 
make a part of the record in full. And we will invite you to 
make any explanation of the budget request which you think 
would be helpful to the committee as we review this request for 
appropriations.
    But before proceeding, I want to recognize my good friend, 
the distinguished Senator from West Virginia and the ranking 
Democrat on the committee, for any opening statement that he 
would wish to make.
    Senator Byrd.


                  statement of senator robert c. byrd


    Senator Byrd. Well, thank you, Mr. Chairman. This is the 
first witness to testify before the recently established 
Homeland Security Subcommittee of the Senate Appropriations 
Committee, the subcommittee that is tasked with making careful 
choices about how best to take care of our Nation. Is this 
working?
    We have been able to send a person to the moon and bring 
him back safely again, but we have never been able to perfect a 
good public address system.
    So this subcommittee has to find the proper balance. How do 
we make America safe without fundamentally changing the quality 
of a free society? How do we protect ourselves from a threat 
within our borders, while protecting our privacy rights, and 
our freedom to move about this great country? How do we invest 
the resources and organize our efforts to catch terrorists 
without throwing out The Constitution? How do we make sure that 
the agencies that have been merged into the new Department of 
Homeland Security and that have specific missions unrelated to 
homeland security, such as preventing and responding to natural 
disasters, have the resources to effectively accomplish those 
missions?
    Over the last 10 years, the Federal Emergency Management 
Agency has earned the reputation as the Federal agency that 
extends help to Americans in their darkest hour. Time and 
again, when Americans have been struck by hurricanes, when West 
Virginians have been struck by floods, and when Americans have 
been struck by earthquakes, FEMA has been the Federal agency 
that was the firm shoulder that disaster victims could lean on.
    That is not to say that FEMA's response has always been 
without problems, but in recent years, FEMA has been organized 
as, and has been very adept at, helping the victims of national 
emergencies. I know a good many families and communities in 
West Virginia who look at FEMA and wonder where they would be, 
how they might have survived, without the aid of FEMA.
    In your testimony today, please explain to the subcommittee 
what you expect the impact will be of the merger of FEMA into 
the Department of Homeland Security. Under the umbrella of the 
new Department of Homeland Security, with so much emphasis on 
homeland security, can the recently created Emergency 
Preparedness and Response Directorate continue to provide the 
victims of natural disasters with the same kind of rapid and 
organized assistance?
    FEMA was formed in 1979 by merging into one agency five 
agencies from existing Federal departments. And it took 15 
years for FEMA to work through organizational glitches and 
internal bickering at times. I have been on this committee 
since FEMA was created, and I do not want to see this very 
important agency go through more growing pains.
    While learning to prepare for and to respond to all 
hazards, the Emergency Preparedness and Response Directorate 
must not lose its capacity to respond effectively to natural 
disasters.
    Now, the Homeland Security Act places new responsibilities 
on your agency, including program transfers from the FBI--it is 
that broccoli I had for lunch. Gives you trouble. Does it give 
you trouble?
    Mr. Brown. Not too often, Senator.
    Senator Byrd. The Homeland Security Act places new 
responsibilities on your agency, including program transfers 
from the FBI, health and human services, and the commerce 
department. It is this subcommittee's job to ensure that you 
have adequate resources to maintain your past level of activity 
and to take on these new responsibilities.
    I hope that in your testimony today, you will address 
whether the President's budget provides the resources to 
address these new responsibilities without undermining your 
missions related to responding and preventing natural 
disasters. I will look forward to your testimony.
    Senator Cochran. Thank you very much, Senator. Senator 
Gregg.
    Senator Gregg. Mr. Chairman, I will look forward to hearing 
the witness.
    Senator Cochran. Mr. Secretary, you may proceed.


                       statement of michael brown


    Mr. Brown. Thank you, Senator. Good afternoon, Mr. 
Chairman, Senator Byrd, Senator Gregg. It is certainly my 
pleasure to be here.
    I am Michael Brown, the Under Secretary for the Emergency 
Preparedness and Response Directorate (EP&R) of the Department 
of Homeland Security. On March 1 of this year, the Federal 
Emergency Management Agency (FEMA) became part of the 
Department of Homeland Security. We at FEMA are honored and 
excited to be a part of this DHS mission to prepare and protect 
our Nation.
    However, I want to assure the members of this subcommittee 
that FEMA will not lose sight of its responsibility to help 
people and communities affected by natural disasters. During my 
tenure at FEMA, I have developed an acute appreciation for its 
all-hazards mission.
    To underscore that point, it is useful to examine our 
mission statement. The mission statement of the Emergency 
Preparedness and Response Directorate is to lead the Nation to 
prepare for, mitigate the effects of, respond to, and recover 
from major domestic disasters, both natural and manmade, 
including incidents of terrorism. It still contains the core 
responsibilities that guided FEMA as an independent agency.
    Since March 1 and the standing up of the Department of 
Homeland Security, we have responded to disasters caused by 
snowstorms, ice storms, flooding and the Columbia Space Shuttle 
disaster.
    We have not changed how we respond. The core competencies 
of my dedicated staff have not changed, nor have the experience 
and expertise that they bring to the table.
    We embrace our new homeland security responsibilities. 
Those responsibilities will be folded into our long-standing, 
well-tested organization and will not replace it.
    As we moved into the Department of Homeland Security, I 
ordered an internal reorganization of the directorate. We look 
forward to submitting those changes to you once we have 
completed our realignment.
    FEMA will be divided into four disciplines: preparedness, 
mitigation, response and recovery. This reorganization reflects 
the traditional areas of emergency management. It also 
resembles the organizational flow used by many States who must 
continue to be our partners in incident management.
    The changes that FEMA has undergone, both external and 
internal, have not changed its focus. And as part of DHS, we 
will continue FEMA's tradition to be there whenever disaster 
strikes, whatever its nature.
    The Emergency Preparedness and Response Directorate faces 
serious challenges in achieving this mission. Chief among those 
challenges is increased risk. America's metropolitan areas 
continue to grow in size and density, with many of the largest 
situated in coastal regions, along earthquake faults, or in 
other high-risk areas. Commercial and residential development 
have progressed at a rapid pace across the Nation, expanding 
into previously unsettled or sparsely populated areas, and 
exposing growing communities to new risks, especially wildfire, 
flooding, and erosion.
    To address these growing risks, EP&R will act accordingly. 
We are working to consolidate the multiple Federal response 
plans into a single national response plan governing our 
emergency activities across all levels of Government.
    We are augmenting and maintaining the Nation's 
pharmaceutical and vaccine stockpiles and strengthening their 
future capacity to ensure adequate supplies in the event of a 
national emergency.
    We are committing ourselves to recruiting, training and 
retaining a top-notch workforce and developing a staff with the 
talent, skills, competencies and dedication necessary to meet 
the demands of the future.
    We are working to further develop State, local and 
volunteer readiness strategies through planning, mitigation, 
preparedness, response and recovery activities.
    Finally, we are providing critical information to the 
public, the media and the emergency management community by 
maintaining public information programs and by building 
partnerships with and among Government entities, other 
responder organizations and the private sector.
    Toward these goals, the President's Budget for Fiscal Year 
2004 requests resources to address these areas. Approximately 
$900 million is proposed for Project BioShield for a new 
permanent authority that would allow the Government to secure 
medical countermeasures to strengthen the Nation's preparedness 
against bioterror attacks.
    There is $400 million to be spent to augment and maintain 
the Strategic National Stockpile of drugs and vaccines in order 
to expand and strengthen America's capability to respond to a 
bioterrorism threat.
    $300 million is proposed to continue the pre-disaster 
hazard mitigation program, ensuring that the most worthwhile 
and cost-effective mitigation programs are funded.
    $200 million is proposed to correct, update and digitally 
distribute the Nation's flood insurance rate maps, identifying 
areas at risk. These maps will guide future development and 
flood mitigation efforts.
    Finally, $1.9 billion will provide disaster relief under 
those primary assistance programs that provide a significant 
portion of the total Federal response to victims in 
presidentially declared major disasters and emergencies.
    These programs reflect FEMA's commitment to performing its 
mission of leading America to prepare for, mitigate the effects 
of, respond to and recover from disasters, both natural and 
manmade, including those acts of terrorism. Successfully 
implementing these missions is key to our Nation's well-being.
    Finally, one of the strategies the Department of Homeland 
Security will employ to implement its broad agenda is the 
consolidation of the Department's grant processes within a 
single directorate to allow its State and local partners one-
stop shopping for all homeland security needs.
    The President's Budget consolidates grants for first 
responders in the Office for Domestic Preparedness (ODP) within 
the Border and Transportation Security Directorate. The 
assistance to firefighters, State and local all-hazards 
emergency operations planning, interoperable communications 
equipment and Emergency Management Performance Grants all move 
from FEMA to ODP.
    Because of the proposed transfer of these grant programs, 
those resources are now shown in the Border and Transportation 
Security/ODP budget instead of the FEMA budget.
    In closing, I would like to thank the members of this 
subcommittee for the opportunity to speak about some of our 
successes over the last year, and our challenges ahead in the 
fiscal year 2004 budget.

                           prepared statement

    FEMA joins DHS with great faith that we now have an entire 
department helping us secure the Nation against all hazards, 
whether natural or manmade. We will do our part by responding 
to disasters wherever they strike and whatever causes them. And 
with that, Mr. Chairman, I am happy to answer any questions.
    [The statement follows:]

                  Prepared Statement of Michael Brown

                              introduction
    Good afternoon, Chairman Cochran and Members of the Subcommittee. I 
am Michael Brown, Under Secretary for the Emergency Preparedness and 
Response Directorate (EP&R) of the Department of Homeland Security.
    On March 1 of this year, the Federal Emergency Management Agency, 
FEMA, became part of the Emergency Preparedness and Response 
Directorate of the Department of Homeland Security (DHS). We are proud 
to join the new Department and are determined to do our part to help 
Secretary Ridge and the Department succeed. I want to assure the 
Members of this Subcommittee that EP&R will not lose sight of its 
responsibility to help people and communities affected by disasters. I 
served as the General Counsel of FEMA when I first arrived in 
Washington, D.C. and, at the time of the creation of DHS, as the Deputy 
Director. Given that experience, I have an acute appreciation for 
EP&R's mission and its important role in the Department. To underscore 
that point, it is useful to examine our mission statement. The mission 
statement of EP&R,

    To lead the Nation to prepare for, mitigate the effects of, respond 
to, and recover from major domestic disasters, both natural and 
manmade, including incidents of terrorism still contains the same core 
responsibilities that guided FEMA as an independent agency. Since March 
1, DHS/EP&R has responded to disasters caused by snowstorms, ice storms 
and flooding. We have not changed how we respond.

    As we moved into DHS, I ordered an internal reorganization of EP&R. 
We look forward to submitting those changes to you once we have 
completed our realignment. EP&R will be divided into four disciplines--
preparedness, mitigation, response and recovery. This reorganization 
reflects the traditional areas of emergency management. It also 
resembles the organizational flow used by many States, who continue to 
be our partners in emergency management.
    The changes FEMA has undergone--both external and internal--have 
not changed our focus. As part of DHS, EP&R will continue FEMA's 
tradition to be there whenever disasters strike.
                    fiscal year 2002 accomplishments
    During fiscal year 2002, the Federal Emergency Management Agency 
(FEMA) expended nearly $3.9 billion in disaster funds to aid people and 
communities overwhelmed by disasters, which included earthquakes, 
floods, ice and winter storms, fires, hurricanes, tornadoes, and 
tropical storms. FEMA responded to 42 major disasters involving 28 
States and 4 U.S. Territories.
    FEMA also provided assistance for a near-record 83 fire events that 
affected 18 States, with the western part of the Nation experiencing 
one of the worst fire seasons in U.S. history. In fiscal year 2002, 
FEMA received $360 million in Assistance to Firefighter Grants for 
equipment, safety and prevention programs and vehicles. We received 
$745 million for that purpose in fiscal year 2003. Late in fiscal year 
2002, FEMA was appropriated $225 million to distribute to States in 
fiscal year 2003 to modernize their emergency operations centers, 
update their emergency response plans, and improve their emergency 
preparedness.
    In addition to the numerous disasters that struck in fiscal year 
2002, FEMA continued its full support to the City and State of New York 
in their recovery efforts from the terrorist attacks of September 11, 
2001. This includes distributing the $9 billion allotted by President 
Bush and Congress.
                               challenges
    The Emergency Preparedness and Response Directorate faces serious 
challenges in achieving its mission. Chief among those challenges is 
increased risk. America's metropolitan areas continue to grow in size 
and density, with many of the largest situated in coastal regions, 
along earthquake faults, or in other high-risk areas. Commercial and 
residential development have progressed at a rapid pace across the 
Nation, expanding into previously unsettled or sparsely settled areas, 
and exposing growing communities to new risks, especially wildfire, 
flooding and erosion. To address these growing risks, EP&R will 
continue to emphasize pre-disaster mitigation and insurance.
    The risks associated with acts of terrorism also pose a significant 
challenge for EP&R. FEMA's rapid and decisive response to the events of 
September 11 demonstrated the Agency's role in consequence management. 
As a result, the Nation is looking to the emergency management 
community--and EP&R in particular--to meet this challenge. Creating a 
single, all-incident management plan from the multiple Federal response 
plans currently operating is an important step in ensuring EP&R meets 
the challenge. Maintaining the Nation's pharmaceutical and vaccine 
stockpiles, and strengthening their future capacity to ensure adequate 
supplies in the event of a national emergency are additional activities 
we will undertake.
    EP&R also faces serious challenges in maintaining and developing 
its workforce. Within the next 5 years, 48 percent of the EP&R 
workforce is projected to become eligible for retirement. Given this, 
EP&R has committed itself to recruiting, training, and retaining a top-
notch workforce and developing a staff with the talent, skills, 
competencies, and dedication necessary to meet the demands of the 
future.
    Meeting multiple demands with limited resources, a problem familiar 
to all Federal agencies, is another obstacle EP&R will have to overcome 
to achieve its mission of protecting the lives and property of the 
American people.
                               activities
    Specific mission activities include:
  --Improving the Nation's disaster response capabilities and those of 
        State and local governments by developing and maintaining an 
        integrated, nationwide operational capability to respond to and 
        recover from disasters and emergencies, regardless of their 
        cause, in partnership with other Federal agencies, State and 
        local governments, volunteer organizations, and the private 
        sector.
  --Assisting all levels of government, first responders, volunteer 
        groups, and the public in meeting the responsibilities of 
        domestic emergencies and challenges, especially incidents that 
        are fire-related or chemical/biological in nature through 
        planning, mitigation, preparedness, response, and recovery 
        activities.
  --Using risk management strategies to reduce and eliminate the long-
        term risk to life and property from natural and technological 
        hazards such as floods, earthquakes, hurricanes, and dam 
        failures.
  --Ensuring the adequacy of the Nation's pharmaceutical and vaccine 
        stockpiles and other medical supplies that can be delivered to 
        emergency sites in 12 hours.
  --Providing critical information to the public, the media, and the 
        emergency management community by maintaining public 
        information programs and by building partnerships with and 
        among government entities, other responder organizations, and 
        the private sector.
                            2004 highlights
    The President's Budget for 2004 includes several areas of emphasis:
  --$890 million is proposed for a new, permanent authority that would 
        allow the Government to secure medical countermeasures to 
        strengthen the Nation's preparedness against bioterror attacks.
  --$400 million would be spent to maintain the Strategic National 
        Stockpile of drugs and vaccines in order to expand and 
        strengthen America's capability to respond to a bioterrorism 
        threat.
  --$300 million is proposed to continue the pre-disaster hazard 
        mitigation program to ensure that the most worthwhile and cost-
        effective mitigation programs are funded.
  --$200 million is proposed to correct, update, and digitally 
        distribute the Nation's flood insurance rate maps, to 
        identifying areas at risk. The maps will guide future 
        development and flood mitigation efforts.
  --$1.9 billion will provide disaster relief under the primary 
        assistance programs that provide a significant portion of the 
        total Federal response to victims in presidentially declared 
        major disasters and emergencies.
    EP&R's 2004 programs reflect its commitment to performing its 
mission of leading America to prepare for, mitigate the effects of, 
respond to, and recover from disasters, both natural and manmade, 
including incidents of terrorism. Successfully implementing the EP&R 
missions is key to our Nation's well being.
                              preparedness
    The mission and overriding objective of the Preparedness Division 
is to help the Nation better prepare to respond to emergencies and 
disasters of all kinds, including those resulting from acts of 
terrorism and involving weapons of mass destruction (WMD).
    The fiscal year 2004 budget request for the Preparedness Division 
is contained in our $1.652 billion operating expense account. 
Preparedness priorities include:
  --Strengthening the ability of State and local emergency managers and 
        responders to prepare for and respond to all hazards, including 
        terrorist attacks;
  --Building and sustaining a national preparedness and response 
        capability.
    The Preparedness Division is responsible for Federal, State, local, 
and community preparedness programs; assessments and exercises; the 
Radiological Emergency Preparedness program and the Chemical Stockpile 
Emergency Preparedness Program; and emergency management and first 
responder grants administration.
    The Preparedness Division also includes the U.S. Fire 
Administration, whose mission is to reduce life and economic losses due 
to fire and related emergencies. Fire death rates in the United States 
are among the highest in the industrialized world, but many of these 
deaths are preventable. The U.S. Fire Administration works to prevent 
these deaths and the damage to property through leadership, advocacy, 
coordination and support. The training programs offered at the National 
Fire Academy and the Emergency Management Institute to promote the 
professional development of command level firefighters, emergency 
managers and emergency responders are an important aspect of the U.S. 
Fire Administration's duties.
    Another training program in the Preparedness Division is the Noble 
Training Center located at Ft. McClellan, Alabama. Noble Training 
Center is the only hospital facility in the U.S. devoted entirely to 
medical training for WMD. The Noble Training Center trains medical 
personnel for State and local hospitals, emergency medical services, 
the National Disaster Medical System and the Metropolitan Medical 
Response System.
    The Preparedness Division will provide the expertise to develop the 
National Incident Management System (NIMS) and the National Response 
Plan (NRP). The objective of both of these tasks is to ensure that all 
levels of government across the Nation work efficiently and effectively 
together, using a national approach to domestic incident management.
    NIMS will provide a consistent nationwide approach for Federal, 
State, and local governments to work effectively and efficiently 
together to prepare for, respond to, and recover from all domestic 
incidents. To provide for interoperability and compatibility among 
Federal, State, and local capabilities, the NIMS will include a core 
set of concepts, principles, terminology, and technologies covering the 
incident command system; multi-agency coordination systems; unified 
command; training; identification and management of resources 
(including systems for classifying types of resources); qualifications 
and certification; and the collection, tracking, and reporting of 
incident information and incident resources.
    The Preparedness Division will continue to provide the States with 
technical assistance in their all hazards planning. As part of our 
effort to prepare our citizens for all disasters, the Division will 
oversee the Community Emergency Response Teams, or CERT. This program, 
begun as a civilian training program by the Los Angeles Fire 
Department, has become a nationwide effort to train citizens in first 
aid and basic firefighting and emergency response techniques. CERT 
trained citizens are able to provide those basic emergency services 
that would otherwise occupy the first responders. EP&R provides train-
the-trainer programs to allow as many citizens as possible to receive 
this training across the country. Currently, over 200,000 citizens have 
received CERT training; our goal is to train 400,000 citizens by the 
end of 2003.
    Preparedness is also responsible for the Metropolitan Medical 
Response System (MMRS). The MMRS consists of 120 teams of medical 
responders located in major metropolitan areas. The primary focus of 
the MMRS program is to develop or enhance existing emergency 
preparedness systems to effectively respond to a public health crisis, 
especially a WMD event. Through preparation and coordination, the local 
law enforcement, fire, hazmat, EMS, hospital, public health, and other 
``first response'' personnel are better able to effectively respond in 
the first 48 hours of a public health crisis.
                               mitigation
    Our mitigation efforts are an essential cornerstone of the 
Department of Homeland Security's resolve to protect the lives and 
property of Americans from the ravages of disasters. Mitigation 
programs provide us the opportunity not only to develop plans to reduce 
risks, but to actually implement those plans before a disaster occurs.
    In fiscal year 2003, Congress supported the President's efforts to 
promote disaster mitigation by creating and funding two initiatives: 
pre-disaster mitigation grants and flood map modernization. We are 
moving quickly to implement both of these important initiatives.
    The Pre-Disaster Mitigation program supports the goals of disaster 
mitigation partnerships. The competitive nature of this funding source 
encourages communities to assess their risks, evaluate their 
vulnerabilities and incorporate an action plan into the ongoing 
planning processes.
    As an annual grant program, the Pre-Disaster Mitigation program 
gives States and communities the opportunity to develop plans to reduce 
risks. States will no longer need a presidentially declared disaster 
before they can receive mitigation funding to reduce their most 
significant risks. Mitigation of the most hazardous risks should be a 
regular investment priority, and not contingent upon a disaster 
declaration.
    This competitive program will help ensure that the most worthwhile 
and most cost-effective projects are funded. The goal is to fund 
activities that will reduce the risks of future damage in hazard-prone 
areas, thereby reducing the need for future disaster assistance.
    The States play an essential role in the implementation of all of 
our mitigation programs, and they will be prominent in the pre-disaster 
mitigation program.
    With respect to the pre-disaster mitigation grants, we have already 
announced the availability of funds for pre-disaster mitigation 
planning grants based on the fiscal year 2003 appropriation. The 
application deadline for these grants is April 30, 2003, and we will 
award these grants to the approved States and territories soon 
thereafter.
    The fiscal year 2004 budget proposal includes $300 million: an 
appropriation request of $280 million for the Pre-Disaster Mitigation 
program coupled with $20 million transferred from the National Flood 
Insurance Fund for flood mitigation grants.
    The fiscal year 2004 request also includes $200 million for the 
Flood Map Modernization Program which is also well underway. Flood maps 
have been produced for over 19,000 communities. Communities, lenders, 
insurance agents and others use the maps and the flood data 
approximately 20 million times a year to make critical decisions on 
land development, community redevelopment, insurance coverage, and 
insurance premiums.
    Now, however, more than two-thirds of the maps are more than 10 
years old. Many do not accurately reflect the change in flood risk due 
to increased development over the years. Nearly all of the maps have 
out-dated streets that make it difficult to precisely determine if a 
property is located in a floodplain. Of additional concern is that the 
vast majority of the existing maps are not compatible with today's 
Geographic Information System (GIS) technology. This further 
complicates communities' efforts to implement mitigation strategies 
through building code and planning and zoning enforcement.
    We will continue implementing a two-pronged approach, begun in 
fiscal year 2003, for updating the Nation's flood hazard data. With 
buy-in from our State and local partners, we are focusing first on 
high-risk areas. This will best serve our mission to reduce losses of 
life and property. In addition, to take advantage of economies of scale 
in these areas, we are emphasizing basin wide studies, where they are 
feasible and cost effective. Secondly, we plan to capitalize on areas 
that have existing data that can be quickly and efficiently converted 
to up-to-date flood studies supporting the National Flood Insurance 
Program (NFIP). This approach provides a framework for prioritizing 
projects and is scalable to accommodate available funding in fiscal 
year 2004 and subsequent years.
    One reason the NFIP flood hazard data is out of date is the lack of 
ownership at the State and local levels. Our strategy for map 
modernization seeks to change this pattern. We will engage in 
partnerships and establish a process that enables State, regional, and 
local entities to manage their flood hazard data. Many local 
governments already implement the floodplain management standards of 
the NFIP. So, where the interest and capability exist, hazard 
identification activities should also be accomplished locally. We will 
provide flood hazard identification training and technical assistance 
to those interested in flood hazard identification. This training will 
increase the capability of States, regional planning commissions, flood 
control districts, and local governments to produce and maintain flood 
hazard studies. The end result will be a decentralized system for 
producing data by those most affected by the flood hazard.
    A key component of the flood map modernization initiative is 
improving e-Government processes for flood hazard data creation and 
distribution. Through the Flood Map Modernization Program, we will 
enable easy access and exchange of flood hazard data through the 
Internet. This system will provide tools allowing the effective use of 
information for making decisions that reduce vulnerability to flood 
risk.
    It is critical that the new flood maps be maintained. We will work 
closely with the States and local communities to do so. By moving to a 
web-based distribution system and using technology to adjust the maps, 
we will provide timely, accurate flood risk information to communities 
that wish to make development and redevelopment decisions without the 
risk of increasing flood damages.
    So far, in fiscal year 2003, we have implemented a performance-
based acquisition strategy for modernizing the Nation's flood maps. Our 
``results oriented'' approach leverages the industry's innovations and 
``best business practices'' to deliver new flood maps in the most cost 
effective and timely manner possible. In addition, we are implementing 
an integrated acquisition strategy that will leverage expertise and 
resources with other Federal agencies and our State and local partners.
    Mr. Chairman, I am also happy to report that the National Flood 
Insurance Program, the largest single-line property insurance writer in 
the country, is once again debt-free and stands on solid financial 
ground as we begin a new era in emergency management.
    In June of 2001, Tropical Storm Allison battered the Gulf Coast and 
East Coast States. After the final losses were tallied, Allison had the 
dubious distinction of becoming our first billion-dollar tropical 
storm, and we borrowed $660 million from the U.S. Treasury to pay for 
losses that exceeded our reserves. We have repaid that debt, with 
interest, as of October 2002.
    Approximately 30,000 families, business, and other victims of 
flooding from Allison received payments from the National Flood 
Insurance Program rather than relying on disaster relief. This example 
proves again the value of the flood insurance program, which helps 
America recover from the devastating effects of flood, while minimizing 
the burden on the taxpayer.
                                response
    The Response Division coordinates and implements the Federal 
response to presidentially declared disasters. The budget for the 
Response Division is contained in the Operating Expenses account and in 
the Disaster Relief Fund.
    We will continue to improve our disaster response capabilities--and 
those of State and local governments--through the efficient and 
effective delivery of disaster assistance to victims, while also 
reducing costs and ensuring accountability of response assets and 
equipment. The Response Division is charged with developing and 
maintaining an integrated, nationwide operational capability to respond 
to and recover from disasters and emergencies, regardless of their 
cause, in partnership with other Federal agencies, State and local 
governments, volunteer organizations, and the private sector.
    As one of its new initiatives, the Response Division will 
streamline capabilities by merging the Federal interagency response 
plans into one national response plan. The National Response Plan will 
encompass the Federal Response Plan, the National Contingency Plan, the 
Federal Radiological Response Plan and the Interagency Concept of 
Operations Plan.
    We also recognize that disasters, such as an earthquake on the New 
Madrid fault, have the potential of affecting tens of thousands of 
people. While the emergency management community is well-trained to 
handle day-to-day disasters, we are not adequately prepared to handle a 
truly catastrophic event. In order to respond to such events, the 
Response Division will pursue comprehensive, all hazards catastrophic 
planning. The goal is to ensure an integrated Federal, State, local and 
private sector response and an efficient mobilization of resources in 
the event of a catastrophic disaster. The first area of concentration 
will be catastrophic housing.
    As part of the EP&R budget, $400 million is requested to maintain 
the Strategic National Stockpile. The Strategic National Stockpile is 
made up of pharmaceuticals, vaccines and medical supplies housed in 
various areas around the country in case of emergencies. By dispersing 
the assets, we are able to get the necessary supplies to a disaster 
site in 12 hours.
    The Administration is requesting $890 million is requested for a 
new authority to allow the Federal government to purchase vaccines and 
medication for biodefense. EP&R is beginning its work in this arena by 
developing a bio-terrorism response plan, Bio-Watch; participating in 
Metropolitan Washington Council of Governments Bio-terrorism Task 
force; and participating in major bio-terrorism response exercises such 
as TOPOFF 2 and Exercise Silent Night.
    The Response Division will take operational control over three 
separate teams of specialists that can be rapidly mobilized in times of 
disaster: the Domestic Emergency Support Team (DEST) from the Federal 
Bureau of Investigations (FBI); the National Disaster Medical System 
(NDMS) from the Department of Health and Human Services; and the 
Nuclear Incident Response Teams (NIRT) from the Department of Energy.
    DEST provides expert advice, guidance and support to the FBI On-
Scene Commander (OSC) during a WMD incident or credible threat. It is a 
specialized interagency U.S. Government team comprised of crisis and 
consequence management components. The DEST augments the FBI's Joint 
Operations Center (JOC) with tailored expertise, assessment and 
analysis capabilities.
    NDMS is a nationwide medical response system to supplement State 
and local medical resources during disasters and emergencies and to 
provide backup medical support to the Departments of Defense and 
Veterans Affairs medical care systems during an overseas conflict.
    The final new team, the NIRT, was established to provide a 
versatile nuclear and radiological emergency response and management 
capability.
                                recovery
    The disaster relief activities of EP&R are financed primarily from 
the Disaster Relief Fund (DRF) with funding for permanent staff in the 
Operating Expenses appropriation. The 2004 budget request for the DRF 
includes $1.934 billion which will help insure that we meet outstanding 
obligations from previous disasters, and have the funds needed to 
handle events in fiscal year 2004.
    The Recovery Division administers the programs that help States, 
local governments, communities and individuals recover after the 
President has determined supplemental Federal assistance is needed. The 
Individual and Public Assistance programs will remain our primary 
commitment to communities, individuals, and families affected by 
disasters. To provide assistance as quickly as possible, we coordinate 
closely with our regional offices, disaster field offices, other 
Federal agencies, our State partners and voluntary organizations.
    The Individual Assistance Program provides individuals and families 
affected by disasters with a full range of available programs in a 
timely manner. This assistance varies from tangible help such as 
providing funds to repair homes, to the more intangible programs 
providing emotional support through State crisis counseling programs. 
When disaster strikes, individuals and families need immediate 
information and help. Once the President declares a disaster, 
applications for individual assistance are taken and centrally 
processed to get money into the hands of the victims as soon as 
possible, generally within 7 to 10 days. Through timely home 
inspections and nationwide call centers, disaster victims are able to 
obtain the information and assistance needed to recover.
    The Public Assistance Program is the primary means for community 
recovery. This program provides cost-shared grants to States and local 
governments and to certain private non-profit organizations for debris 
removal, emergency protective measures, and repair or replacement of 
damaged facilities, such as roads, buildings, and utility systems. A 
recent example with which you may be familiar was the removal of 
approximately1.8 million tons of debris from the World Trade Center 
attack. This enormous effort was completed both ahead of schedule and 
under budget. Also, we were better able to address the complex transit 
issues in New York City following 9/11 by collaborating with other 
Federal agencies. Specifically, integrating FEMA's programs with those 
of the Federal Transit Administration improved the means in which 
financial assistance was provided to the City.
    In order to promote a more efficient use of Federal and State 
resources, we work with State and local applicants to evaluate damage 
to facilities and estimate the cost to repair them. In addition, we 
encourage communities to include mitigation measures in repairs to 
reduce future damages to facilities. Finally, EP&R encourages States 
with adequate resources to assume a larger role in managing the Public 
Assistance program in their States.
    The Fire Management Assistance Program is another key resource for 
States and local governments to mitigate, manage, and control forest or 
grassland fires to prevent damages that result in a major disaster 
declaration. This past year's drought spawned many fires, and the 
financial assistance we provided through more than 80 fire declarations 
saved millions of dollars in damages to private properties and public 
facilities.
    We take our mission to help communities and citizens recover very 
seriously. We continuously survey our customers and evaluate the 
effectiveness of our Recovery Programs to help communities and disaster 
victims and, at the same time, ensure the proper stewardship of Federal 
taxpayer dollars.
                               conclusion
    In closing, I would like to thank the Members of the Subcommittee 
for the opportunity to speak about some of our successes over the last 
year, our challenges ahead and the fiscal year 2004 budget for the 
Emergency Preparedness and Response Directorate of the Department of 
Homeland Security. We join DHS with great faith that we now have an 
entire department helping us secure the Nation against all hazards, 
both natural and man made. We will do our part by preparing for, 
mitigating against, responding to and recovering from disasters. I 
would now be pleased to answer any questions you may have.

                          DISASTER RELIEF FUND

    Senator Cochran. Thank you very much, Mr. Secretary, for 
summarizing your statement and explaining the highlights of the 
President's budget request for 2004.
    As you know, we just completed action here in the Senate on 
a supplemental appropriations bill. I wonder if you have any 
comments about the sufficiency of the funds that have been 
included in the Senate supplemental appropriations bill in 
helping meet the needs of this directorate for the balance of 
this fiscal year?
    Mr. Brown. Senator, I think that the supplemental goes a 
long way to meeting some of our unmet needs. As you know, when 
the threat advisory level changes and we go to different 
colors, and right now we are in Code Orange, it causes agencies 
like FEMA to go through a checklist of different actions that 
we think are appropriate to take both within the National 
Capital Region and out among our regional directorates across 
the country.
    We do not just summarily go through and implement 
everything that is on that checklist, but only those which we 
think are appropriate. So consequently, our operational budget 
increases dramatically. And I think the increase in the War 
Supplemental from $15 million to $45 million is a very 
significant help to us.
    I will tell you, however, we are still short in the 
Disaster Relief Fund. We would appreciate any help you could 
give us in that area.
    Senator Cochran. Well, in that connection, I recall the 
other day when you came by my office, which I appreciated very 
much that we talked about how it is hard to predict how much 
money is going to be needed for disaster relief because none of 
us knows what the nature of the disaster situation is going to 
be from 1 month to the next, or 1 year to the next. And we can 
pick out a number, the administration can or the committee can, 
and put it in a bill, hoping that will take care of the needs. 
What happens, though, if we get to the point where obviously we 
are today--and your answer suggests we may be about to run out 
of money in the disaster relief account--what happens when you 
do run out of money and Congress has not put sufficient funds 
in a supplemental or provided them to your office?
    Mr. Brown. Historically, Mr. Chairman, yearly 
appropriations average approximately $3 billion for the 
Disaster Relief Fund, the DRF. That normally gets us through a 
typical year of covering ongoing disasters. For example, right 
now we have, approximately 50 open disasters on which we are 
expending funds, either in individual assistance or public 
assistance.
    That assistance may include things like payments to 
individuals for repairs to homes, payments to State and local 
governments for repair of buildings, roads and bridges and so 
forth.
    What normally happens is that the Office of Management and 
Budget (OMB) will keep the Disaster Relief Fund at about a 
half-billion-dollar level. A couple of days ago, it was down to 
about $28 million, the lowest in the history of the agency, I 
believe. It is now back up today, I think, to about $44 
million.
    If OMB does not release the funds soon to the DRF, EP&R 
will probably have to delay the start of some projects or 
postpone the completion of other projects until we do receive 
the needed funds.
    Senator Cochran. Am I correct in assuming that many of 
these projects you are talking about are projects that are 
really under the purview of local governments, counties or 
States, where they are rebuilding a bridge or repairing 
infrastructure of one kind or another?
    Mr. Brown. Yes. Either assistance to individuals as a 
result of a disaster or public assistance to State and local 
governments. We provide funds through the State governments and 
they pass it to the entities in the declared disaster area. But 
primarily we are talking about public assistance projects, 
which would be the buildings and that type of thing that would 
have been damaged in a disaster.
    Senator Cochran. Yes. So if those local Governments are 
deprived of funds, particularly over a long period of time, we 
are going to run the risk of creating some more problems and 
hazards for the people who live in those communities, or 
States, is that correct?
    Mr. Brown. That is correct. We will reach some go point 
where I will have to have my financial people and others 
through to see what projects have been obligated and which ones 
we need to pare back until we either get a release of funds 
from OMB or additional funding in the DRF.

                    ASSISTANCE TO FIREFIGHTER GRANTS

    Senator Cochran. I want to ask one other question. Then I 
am going to yield to other members of the committee for any 
questions that they have. Can you tell us why the budget 
request shifts the assistance to firefighter grants from 
Emergency Preparedness and Response to the Office for Domestic 
Preparedness?
    Mr. Brown. The President's original proposal recommended 
that the entire first responder grantmaking process in the 
Department of Homeland Security be moved to FEMA, the Emergency 
Preparedness and Response Directorate. Congress chose not to do 
that, and instead chose to split the first responder grants 
between FEMA and ODP. As we move through the transition, all of 
the normal first responder grantmaking processes that FEMA 
performs will go into ODP within the Border and Transportation 
Security Directorate to create a one-stop shop for first 
responders.
    Senator Cochran. Do you have any concerns regarding the 
shift in the administration of this important grant program--if 
so, what are they?
    Mr. Brown. I think the record would show that, as Senator 
Byrd has commented, FEMA had some glitches in the beginning. I 
also think the record would show that over the past 10 to 12 
years, FEMA has done an exceptional job of processing those 
grants in a very timely and organized fashion.
    I am committed to making certain that if the grants do move 
to ODP, that we will provide whatever resources we need to 
provide to ODP to allow them that same culture and that same 
ability.
    Senator Cochran. Thank you. Senator Byrd.

                          DISASTER RELIEF FUND

    Senator Byrd. You have said that your current balance is 
about $44 million?
    Mr. Brown. Yes, sir.
    Senator Byrd. And, what is the amount that can be made 
available on a contingent basis? Have you made a request to 
OMB?
    Mr. Brown. Yes, Senator, we have asked OMB to release the 
funds to get us back up to at least the $500 million level.
    We started that process in early February.
    Senator Byrd. Given the fact that in an average month FEMA 
pays out $250 million from the Disaster Relief Fund, $544 
million does not seem like enough to get you through the end of 
fiscal year 2003. Will the President send up a supplemental 
funding request?
    Mr. Brown. I do not know, sir. You will have to ask him.
    Senator Byrd. Well, why would I have to ask him?
    Mr. Brown. I do not know if the Administration plans on 
submitting another supplemental request.
    Senator Byrd. Well, do not give me a flippant response like 
that.
    Mr. Brown. I am not, Senator. I am just saying I really do 
not know whether or not they are going to request another 
supplemental.
    Senator Byrd. Okay. You do not have to say to me, ``You 
will have to ask him.'' I know how to ask the President a 
question.
    Mr. Brown. Yes, sir.
    Senator Byrd. And I know how to ask agency heads questions. 
What will happen if you run out of money?
    Mr. Brown. We will have to start delaying projects.

                    ASSISTANCE TO FIREFIGHTER GRANTS

    Senator Byrd. Recently, the U.S. Fire Administration 
released a report that concluded that only 13 percent of the 
fire departments are trained and equipped to deal with 
biological, chemical or radiological weapons. With this 
striking weakness in the ability of our first responders to 
respond to a known threat, I am disappointed to see that the 
President's fiscal year 2004 budget proposes to cut grants to 
fire departments from $745 million to $500 million.
    I am disappointed by the fact that the administration has 
continued to represent its $3.5 billion proposal for first 
responders as an adequate level, when it in fact provides no 
more resources than that enacted in fiscal year 2003 for 
similar programs.
    Given that your agency identified the weakness in 
firefighting programs, do you believe that the President's 
request is adequate?
    Mr. Brown. What we are trying to do, Senator, is to make 
certain that through the Assistance to Firefighters Grant 
Program, we get the money to where it is most needed, where 
there is the greatest risk.
    One of the things I have talked about is that we need to 
take the funds we get from Congress and the Administration for 
the fire program, and make sure that they are used as wisely as 
possible.
    One way I am trying to do that is to get the different fire 
departments to stop competing against one another, particularly 
when they are located close to one another or when there is 
some way that they can cooperate on a regional basis to better 
utilize taxpayer dollars.
    I often use my home State of Colorado as an example. There 
is no reason why Denver, Boulder and Fort Collins, all located 
right together on the front range, should each be applying for 
the same equipment. What they should do is get together and 
figure out what their vulnerabilities are, then apply for 
funding based on cooperative resolution of those 
vulnerabilities.
    I think that is a better way for the fire departments that 
are inadequately prepared to get the equipment that they need.
    The $3.5 billion funds the grant programs that award monies 
for training and equipment to combat terrorism. The purpose for 
which the funds are requested to be used is one of the factors 
considered in the peer review process to decide who should or 
should not be getting a grant.
    Senator Byrd. So I take it that you do not believe that the 
President's request is adequate?
    Mr. Brown. There will always be more requests than 
available funds. For example, Senator, with the current $750 
million appropriation for the firefighter grants, we have well 
over 20,000 applications in the pipeline representing almost $2 
billion worth of requests.
    Senator Byrd. Do I have any more time? Are you----
    Senator Cochran. Can we move to these others, and come back 
to you?
    Senator Byrd. Yes. Let us do that. Thank you.
    Senator Cochran. Thank you, Senator.
    Senator Craig.
    Senator Craig. Well, thank you very much, Mr. Chairman. I 
will be brief. I do not have any detailed questions, but, Mr. 
Secretary, I thank you for being before this committee. I am 
telling you as a member of the Senate, I am one who--while I 
supported and will support Homeland Security as an agency and 
worked with everyone here to get it stood up and operating 
from, at least, a legal and structural point of view and a 
policy point of view, I was one of those that was concerned 
that FEMA get buried and not be as effective as I believe it 
has been over the last good number of years.
    It is one of those agencies that I think did have the 
credibility in the turn-around time and did not get caught up, 
it seemed, in so many ways that other agencies seem to as it 
related to getting to its mission at hand and executing it.
    I hope that does remain the case. We will continue to work 
closely with you on it in serving on this new committee. I am 
anxious to work with the chairman to make sure all of that 
happens, at least from the funding side that which is 
appropriate.
    I also do not believe in backing so much money up you 
cannot get it out the door. I also recognize that sometimes it 
is important, even in critical times, that folks stand in line 
and wait just a little bit. It makes them a bit more efficient 
in the current operations and--but I will tell you that the 
fire money that comes to our departments across rural Idaho and 
across Idaho itself has been very, very effective, and I think 
put to use wisely and appropriately. And it has made those 
departments more responsive under the new responsibilities we 
are giving them. They are obviously going to need some help in 
developing the expertise necessary, so these grants are 
important. Thank you.
    Thank you, Mr. Chairman.
    Mr. Brown. We thank you for those compliments, Senator. I 
appreciate that.
    Senator Cochran. Thank you, Senator Craig.
    Senator Kohl.

                   HOMELAND SECURITY ADVISORY SYSTEM

    Senator Kohl. Thank you very much, Senator Cochran.
    Mr. Brown, the current terror alert system, as it is 
intended to do, is causing people to be considerably alarmed 
and to come to attention, as well as causing considerable 
expense inevitably across many parts of our country. At a time 
when budgets are squeezed, a higher alert status has, in many 
cases, resulted in an increased overtime and anxiety.
    Many areas of our 50 States are beginning to not take the 
system seriously enough, because they believe that the threat 
does not apply to them. This alert system could easily turn 
into the boy who cried wolf in that people will not take it 
seriously enough until it is too late.
    What changes to the system is the Department considering 
and can we, in fact, expect changes in the future?
    Mr. Brown. I think Secretary Ridge has addressed that by 
trying to emphasize that the color-coded system is really 
geared toward the law enforcement and professional communities 
to give them an idea of where they need to be in their states 
of readiness. And I would use FEMA, again, as an example of 
what to do. We are trying to get States and locals to adopt a 
similar type of program.
    We have in our operations manual the different steps we 
would take at the different threat levels. Rather than 
implement every single one of those steps, we implement what is 
important based on the particular threat. We do this so that we 
do not have just these huge operational expenses for 
everything, but only for what we specifically need based on the 
threat.
    What we would like to do is educate the State and locals to 
do the same thing, that whether they ratchet up completely or 
not is something that they can certainly do on their own. But 
they should consider ratcheting up only as it applies to the 
particular threat and to what is needed in their particular 
community.
    As Secretary Ridge continues to push down the idea that the 
alert system is for the professionals, I think we will avoid 
your concern about crying wolf.
    Senator Kohl. Well, what I was referring to is any code. 
Let us take the second highest, which I believe is--is that 
code orange?
    Mr. Brown. Yes.
    Senator Kohl. Yes. Well, when we issue a code orange alert, 
are we intending that every community in every State across the 
entire 50 States are at the same level of risk and should 
respond?
    Mr. Brown. When the Secretary and the Attorney General make 
the decision to change the threat level, they are doing that 
based on specific intelligence that they receive----
    Senator Kohl. Yes.
    Mr. Brown [continuing]. About the threat. And I would say, 
Senator, that based on the intelligence that the Secretary and 
that the Under Secretaries have received that caused the threat 
level to go up to orange, there is a very credible threat out 
there. I think it is incumbent upon us to convey that to the 
State and local governments as succinctly and as appropriately 
as we can.
    Senator Kohl. What we are asking them to do is go, all--
asking then all parts in all 50 States to go on an alert, and 
to do those things and spend that kind of money, which is 
consistent with the code orange----
    Mr. Brown. Yes, sir.
    Senator Kohl [continuing]. Are we suggesting that Rawlings, 
Wyoming is at the same level of risk as Washington, D.C. and 
New York City?
    Mr. Brown. No. But I think where I am miscommunicating is 
what Rawlings, Wyoming, should do. Let us say there are 40 
items that you can do at Code Orange. Rock Springs or Rawlings 
or some place in Wyoming instead ought to decide that they are 
going to do only 2 or 3 of those things, because they do not 
need to do all 40 of them. So they can hold down their costs by 
implementing that kind of system.
    Senator Kohl. And so then you are suggesting that every 
community should make a decision?
    Mr. Brown. Absolutely.
    Senator Kohl. Well, then would Los Angeles make a decision 
or can--are they in a position to make a decision any less than 
Washington, D.C. or New York?
    Mr. Brown. If I----
    Senator Kohl. Because--in other words, what I am suggesting 
to you--and it is okay because you are just starting, or we are 
just starting as a country and we need refinement. It seems to 
me that there needs to be considerable thought, as I presume 
and hope will be given, and some specific direction and 
guidance so that all States and communities within all States 
can be helped to make particular and specific decisions on what 
these alert systems really mean and how they should be applied 
and how they do not apply in many cases. In fact, you know, 
most parts of America are very unlikely to be hit in time of 
terrorism.
    And I have not yet heard from the Department an 
understanding and a recognition of that as some kind of an 
alert system that will account for the fact that most parts of 
our country are really at low risk even at times of high risk.
    Mr. Brown. Your point is very well taken, and I think it is 
incumbent upon FEMA, which is now part of the Department, to 
take its protocols and the way we decide what we should be 
doing or should not be doing and help the State and locals do 
the same thing, by giving them the tools they need to prepare 
based on the risk that they may face in their unique community. 
As you say, there may be a community that looks around and 
says, ``Our risk really is a dam that might be blown up. So 
when we change threat levels we need to focus our energy on 
that particular vulnerability.'' They might not need to do 
everything that FEMA suggests should be done when we go from 
one level to another.

                            TRAINING GRANTS

    Senator Kohl. Thank you. Last question: As you know, State 
and local governments are struggling with budget cuts. Many are 
also working with reduced staffs because of call-ups of the 
Guard or Reserve; and add to this the seemingly constant 
elevated security alert level at times, and the Governments are 
struggling with skyrocketing overages, overtime costs, local 
and State Governments, associated with our new security threat.
    As a result, many fire departments and emergency managers 
are not sending their people to training, because those extra 
hours mean even more overtime and overtime that they are not in 
a position to account for.
    So my question is, will the Department allow the use of 
training grants to reimburse for overtime?
    Mr. Brown. Senator, I think I will be corrected or somebody 
will kick me in the chair if I say this incorrectly, but I am 
pretty certain that we are restricted from using the grant 
money for overtime. I think what we want to do instead is to 
try to get as much of that grant money out to the localities as 
possible for ``train the trainer'' programs. By doing so, we 
can push the training down to the State and local levels and 
not require them to go some place else for the training. I 
think that would help alleviate part of that problem.
    Senator Kohl. Well, I think what you are saying is true, 
and that is what I am referring to. I am suggesting that 
because those training grants cannot be used for overtime----
    Mr. Brown. Right.
    Senator Kohl [continuing]. And because overtime is being 
expended, so I am asking--and they do not have the money to 
compensate for that overtime----
    Mr. Brown. That is correct.
    Senator Kohl [continuing]. So that they do not send their 
people in many cases to these training programs, which you 
definitely want them to do.
    Mr. Brown. That is right.
    Senator Kohl. They cannot pay for it.
    Mr. Brown. That is right.
    Senator Kohl. So aside from, you know, throwing up your 
hands and saying, ``Well, you will just have to make do the 
best you can with these increased emergency problems and 
training problems,'' which is not something we want to do, how 
else are they going to pay for this overtime----
    Mr. Brown. Well----
    Senator Kohl [continuing]. Use some of this training money. 
You know, maybe you would suggest, well, you can use 20 percent 
of it or 10 percent or 5 percent, not all of it, but something 
that would give the States and the local governments access to 
some additional funding to pay for the training that is being 
required.
    Mr. Brown. Right. I mean, you are absolutely correct. And 
absent that statutory ability to do that, then what we do is 
try to push the training down to them to minimize and mitigate 
the cost of that overtime.
    Senator Kohl. Say that again.
    Mr. Brown. To the extent that we have some statutory 
relief, which would allow us to do that----
    Senator Kohl. Yes.
    Mr. Brown [continuing]. What we do in the alternative is to 
push the training down to the State and local levels, take it 
as close to that recipient as possible to minimize the amount 
of overtime that they have to incur in order to receive the 
training.
    I mean, we could consider that in the 2004 grants, but we 
cannot do it in the 2003 grants.
    Senator Kohl. Thank you.
    Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator Kohl.
    Senator Murray.

                     NATIONAL STRATEGY ON TRAINING

    Senator Murray. Thank you very much, Mr. Chairman.
    And Mr. Brown, thank you for being here today. I think the 
training we do for first responders is extremely important. I 
think we need to do everything we can to better prepare our 
communities for natural disasters or terrorist acts or 
whatever, you know, is out there. And I know that several 
directors within the Department are working on the training 
issue. I have talked to Secretary Ridge about this as well.
    Last year, there was a lot of talk about the importance of 
developing a national strategy on training, and I am curious 
what happened to that national strategy, if you can give us an 
update on that.
    Mr. Brown. That is still in the works. That is one of the 
things that EP&R is taking on within the Department to develop. 
Just like we are trying to develop and put together the 
national response plan, we are also trying to put together a 
national training program at the same time.
    Senator Murray. But we have not developed a national 
strategy on training as of yet?
    Mr. Brown. Not yet.
    Senator Murray. How can----
    Mr. Brown. We still have the training programs within FEMA 
that will be transferring; and we are now trying to develop 
those kinds of strategies across all directorates.
    Senator Murray. Well, how do we know what an appropriate 
level of funding is unless we know what the national strategy 
is on that?
    Mr. Brown. I am not sure I am equipped to answer that for 
you, Senator.
    Senator Murray. Well, we will be having to make a decision 
on this committee on how much to put into training. And unless 
we know what the national strategy is it is----
    Mr. Brown. Right.
    Senator Murray [continuing]. Going to be difficult to do.
    Mr. Brown. I will be happy to take that back and formulate 
an answer for you.

                  HAMMER TRAINING AND EDUCATION CENTER

    Senator Murray. Okay. Last year, Mike Byne visited my home 
State of Washington to see the HAMMER Training and Educational 
Facility that is located in Richland, Washington. That is a 
training facility that is used by FEMA already. It is used by 
the Department of State, the Marine Corps, Army National Guard, 
Department of Energy, local law enforcement. It is an excellent 
facility. Can you give me an update on what the 
administration's consideration of HAMMER is for training 
purposes?
    Mr. Brown. We want to take all of the assets that we have 
in Homeland Security and expand those. We have not only 
Emmitsburg, we have the Noble Training Center. We have your 
facility in Washington. We want to take all of those and 
enhance them as much as possible, because I believe, and I 
think departmentwide we all agree, that whatever facilities we 
currently have we must expand and make them as efficient as 
possible and utilize them as best as possible.
    Senator Murray. Do you have a timeline for when you will be 
making those decisions; and, again, I ask because we are going 
to have to be making some decisions about funding and 
management that we need to move forward on. So do you have a 
timeline on when you would?
    Mr. Brown. Okay. I am told that the timeline is now out to 
the States for them to look at to see what kind of timeline 
they need. There is apparently some money in ODP now, for them 
to develop what they want to do with the facility.
    Senator Murray. So are the States going to be responsible 
for the training, or is your agency?
    Mr. Brown. We would be responsible for providing the money. 
But the training is actually done at the State and local 
levels.
    Senator Murray. Well, the HAMMER Facility is a national 
facility. It is not just Washington State. It is for training 
for nationally.
    Mr. Brown. We have to confess we are not familiar with that 
one and all the programs in it, but we will look into it.
    Senator Murray. Well, if you could, and if you could talk 
to Mike Byrne, because he had been out--but we cannot just say 
Washington State, you are going to do HAMMER.
    Mr. Brown. Right.
    Senator Murray. It is a national training facility. It is 
going to take Federal funds. And we need direction on that.
    Mr. Brown. Yes, we will find out.

                   COMMUNITY EMERGENCY RESPONSE TEAMS

    Senator Murray. Okay. In your testimony you talked about 
Community Emergency Response Teams, the CERT, which I was happy 
to hear you reference, because I know that that is a very 
valuable program for training.
    I recently spoke with some of the emergency management 
facilities--officials actually from my State about CERT, and I 
got to tell you the answer I got from the ones in my State 
reinforces to me that the Federal Government is not doing 
enough in this area to prevent another attack on our country. I 
was told that Washington State got $70,000 for CERT training 
from FEMA in 2002, and amazingly the State only recently got 
approval from the Department to spend the fiscal year 2002 
money on training.
    You--we are here today to talk about the 2004 budget. Can 
you explain to me why the 2002 money is just now going out the 
door?
    Mr. Brown. That money, Senator, was from the supplemental 
in August, so that is maybe why it is just now hitting the 
streets.
    Senator Murray. Well, actually, my State was supposed to 
get $70,000 from the 2002 budget, FEMA 2002 budget----
    Mr. Brown. Yes.
    Senator Murray [continuing]. For CERT training. They just 
got approval from the Department right now to spend that 2002 
money. So I am just wondering what--you know, why it is taking 
so long. This is from 2 years ago. It was not from the 
supplemental.
    And my next question was going to be what about the 2003 
money. Are you getting that out the door? I heard Senator Kohl 
talk about training and using some of that money for overtime; 
and I would just caution us that if the money is not getting 
out there for training, it is not that it is not needed for 
training. It is just for some reason there has been some 
bureaucratic hang-ups in getting it out there.
    Mr. Brown. Well, I am determined to go back and find out 
why, because we have an excellent reputation of getting the 
money out the door. I want to find out specifically why this 
money has taken longer than normal to distribute.
    Senator Murray. I would----
    Mr. Brown. I will find out and get that answer back to you.
    Senator Murray. Because I think those training dollars are 
extremely important, right?
    Mr. Brown. I could not agree more.
    Senator Murray. Okay. Thank you.
    Thank you, Mr. Chairman.

                      INTEROPERABLE COMMUNICATIONS

    Senator Cochran. Thank you, Senator Murray.
    When we were considering the supplemental appropriations 
bill, Mr. Secretary, in the Senate, money was added for the 
Emergency Preparedness and Response Directorate's disaster 
relief account for interoperable communications. I wonder if 
you could tell us if in the conference report we do make these 
funds available, whether they can be spent in this fiscal year.
    Mr. Brown. Senator, I have discussed that with the staff, 
and they assure me that we can get the interoperability funds 
out by the end of this calendar year. The firefighter grants 
will be out by the end of the fiscal year 2004.
    Senator Cochran. How does the agency plan to deal with the 
fact that the budget request for 2004 does not include any 
funding for interoperable communications equipment within your 
directorate's account? But it includes it within the Office for 
Domestic Preparedness. How is this going to be resolved?
    Mr. Brown. We will provide ODP with program support or 
whatever it takes to help them, one, get the money out the 
door; and, two, to use it effectively.
    Senator Cochran. Yes. Well, I assume then that other 
agencies within the Department can obtain the use of funds that 
are appropriated to the Office for Domestic Preparedness for 
this purpose. Is that your understanding?
    Mr. Brown. That is my understanding.

           OPERATION OF EMERGENCY RESPONSE AND SUPPORT TEAMS

    Senator Cochran. In the response division, you talk about 
gaining operational control--your directorate having 
operational control over three teams, the Domestic Emergency 
Support Team from the FBI, the National Disaster Medical System 
from the Department of Health and Human Services, and the 
Nuclear Incident Response Teams from the Department of Energy. 
How is this going to work? Will these teams essentially remain 
under the jurisdiction of their departments as they now exist, 
but simply receive funds that are allocated to them through the 
Department of Homeland Security?
    Mr. Brown. Well, it is a mishmash. Generally, the 
operational control of those different teams falls under 
Emergency Preparedness and Response. So, for example, the 
Nuclear Incident Response Teams, we will deploy those as 
needed. But the training and the money to fund and manage those 
will actually come from the Department of Energy.
    Then you take the Domestic Emergency Support Team from the 
FBI. Again, we deploy it, but there is no money that comes over 
with it from the FBI. We have not yet quite figured out how we 
would actually deploy it and find the money to manage that 
deployment.
    Regarding the National Disaster Medical System (NDMS), we 
have entered into a memorandum of agreement with HHS to have 
operational control of it, but to rely upon HHS again for the 
management and--what is the word I am looking for--to manage 
and----
    Oh, right. Okay. I am being corrected. I am talking about 
the Strategic National Stockpile. In terms of the Stockpile, we 
do have the operational control of it, and we do have an 
agreement with HHS.
    Back to the NDMS, we would deploy the Disaster Medical 
Assistance Teams in it but they do not come with any sort of 
money to manage or train or do anything in particular with 
them. We would have to enter into an MOA or MOU with HHS to do 
that.
    Senator Cochran. And the NDMS is the National Disaster 
Medical System, right?
    Mr. Brown. That is correct. Those are the DMATS and the 
DMORTS.

                    PROJECTS BIOSHIELD AND BIOWATCH

    Senator Cochran. Well, this fits in with what we have 
become familiar with as project BioShield. You referred to 
BioWatch in your statement. Is this the same thing, or are 
these two different things?
    Mr. Brown. Two different things.
    BioShield is the President's $900 million proposal for the 
creation of the experimental or the new vaccines, and BioWatch 
is the program by which we are trying in several selected 
places to implement new monitoring and detection systems.
    Senator Cochran. What will the role of your directorate be 
with respect to BioShield if it is enacted?
    Mr. Brown. We will simply act as the middle man and at some 
point NIH and CDC would come to us and say we think we have a 
product here.
    On the other side, we would say we have identified a 
specific threat, a specific biothreat that needs to be 
addressed, and we would marry those two up. We would actually 
simply act as the middle man, the contract and the funnel for 
the money.

                      STRATEGIC NATIONAL STOCKPILE

    Senator Cochran. Well, in terms of your relationship with 
the Department of HHS, will Homeland Security have the final 
decision-making authority over what goes into the National 
Pharmaceutical Stockpile?
    Mr. Brown. This is the National Pharmaceutical Stockpile, 
which is now called the Strategic National Stockpile. And we 
will rely on HHS's expertise to tell us what needs to go in 
there.
    Senator Cochran. Well, will they decide what comes out or 
how you get access to----
    Mr. Brown. No. We will do that.
    Senator Cochran. You will decide that.
    Mr. Brown. We will control the operations and deployment of 
the stockpile.
    Senator Cochran. Yes. Well, does your directorate have the 
expertise to make these decisions, do you think?
    Mr. Brown. I think we do, in terms of the deployment and 
the response, because we have the National Disaster Medical 
System on our team now, thus we have already had meetings with 
the Surgeon General about creating within Emergency 
Preparedness and Response a medical advisory team for that very 
specific purpose.
    Senator Cochran. Thank you very much. I am going to yield 
to others on the committee now for any other questions they may 
have and I may have a few in conclusion.
    Senator Byrd.

                        FLOOD MAP MODERNIZATION

    Senator Byrd. Thank you, Mr. Chairman.
    West Virginia has suffered immeasurably from flooding and 
other natural disasters. My home State is under a disaster 
declaration right now due to flooding. The West Virginia Flood 
Prevention Task Force, which I convened, has identified 
strengthening the floodplain management program as the most 
effective way to stop the vicious cycle of repetitive flooding 
in West Virginia.
    One of the most important tools to floodplain management is 
to have accurate, up-to-date flood maps. Last year, Congress 
appropriated $150 million to the Flood Mapping Program at FEMA. 
This was the largest appropriation to the Flood Mapping Program 
in its history.
    But by your own estimates, it will cost $950 million to 
modernize all flood maps in the country, so it is important 
that these funds be targeted to the communities that are most 
at risk. I believe that flood map modernization funds should be 
targeted to the most flood-prone communities. And in the past, 
FEMA has administered the flood map modernization program by a 
population-based formula. Can you tell the subcommittee how you 
plan to administer the fiscal year 2003 and 2004 funds?
    Mr. Brown. Yes, Senator, I can. I would say that I think 
the task force and the effort that your State is making is 
commendable. We wish we could get all States to recognize that 
if they could get together and start doing that kind of 
planning, it would help us do our job even better.
    We are currently doing a modernization on a strategy that 
was developed by a stakeholders meeting on February 5 and 6 of 
this year. It is based on high-population density, high-growth 
areas, high-risk areas; but most importantly, history of 
repetitive loss claims and what the policy base is, plus the 
ability to leverage and cost-share with the State and locals.
    So while population density is important, we are trying at 
the same time to weigh that against the high-risk and high-
prone areas.
    Senator Byrd. Are you saying that you will be moving from a 
population-based formula for funding this program? You will be 
moving away from that?
    Mr. Brown. No. Population is just one criterion now.
    Senator Byrd. Yes. The West Virginia Flood Prevention Task 
Force concluded that 18 full-time staff would be needed to 
properly implement flood plain management activities. But, the 
State can only afford to pay for one full-time staff. How would 
you ensure that you do not penalize States that desperately 
need flood-mapping resources, but whose financial straits 
hinder their sophistication?
    Mr. Brown. Because we want to look, Senator, at where the 
flood maps need to be done first based on that--those different 
criteria. We are not going to penalize a State simply because 
they may not be, for example, like North Carolina, which has a 
very robust program, versus a State that cannot afford to do a 
whole lot. We want to do it where it is going to have the most 
effect in terms of getting the maps out the door.
    Senator Byrd. Given West Virginia's history of flooding and 
how outdated its flood maps are, this is a very important 
program to the State. The West Virginia Senate and the West 
Virginia House passed resolutions in January of 2003 calling on 
FEMA to expedite the process of updating West Virginia's flood 
insurance rate maps.
    In the past, FEMA has used the population-based formula to 
distribute the flood-mapping funds. That approach does not take 
risk into account. This hurts States like West Virginia that 
are small in population, but they are at disproportionate risk 
of flood damage.
    I understand that you intend to change the way the program 
is administered and take risk into account, is that correct?
    Mr. Brown. That is correct. We also increased the State 
funding for State flood plain management to $1 million in 
fiscal years 2002 and 2003. So there should be additional 
resources coming for that purpose.
    Senator Byrd. Very well. So, you do intend to take risk 
into account?
    Mr. Brown. That is correct.
    Senator Byrd. All right. Thank you.
    Mr. Chairman.
    Senator Cochran. Thank you, Senator Byrd.
    Senator Harkin, we welcome you as a member of our 
subcommittee.
    Senator Harkin. Thank you.
    Senator Cochran. You may proceed with any questions or 
statements you might have.

                              FOOD SAFETY

    Senator Harkin. Thank you, Mr. Chairman. I have no 
statement, Mr. Chairman, just two little points that I would 
like to be able to get a response on, Mr. Brown.
    And one is food security. We have talked about this. I have 
talked about it with Secretary Ridge. And from my--my 
standpoint on the Agriculture Committee and just looking, I do 
not see a lot really being done there. I do not know what kind 
of plans are being made. Maybe they are. I just--I just do not 
know about them. But, you know, we have so many entry points 
for contamination of our food supply in this country.
    And I know that if it were caught, it might--you know, if 
something--if somebody worked to invade the food supply at one 
of these entry points, they probably--because of the system we 
have set up--it probably could be contained fairly rapidly.
    However, it is the psychological impact that happens when 
something gets in the food supply like that, and God forbid 
some people die of that, what happens to the rest of this 
country? Because as you know, some food--let us say a meat or a 
meat product could enter at some point--just a couple three 
points, and it could be all over the United States in the next 
24 hours the way the delivery system is right now.
    And yet we still continue with the same basic system that 
we have had for a long time. And I just want your response as 
to whether you think this is being due--given due consideration 
at the--at your department.
    Mr. Brown. I think that it is. I mean, I do not know that 
much about it, simply because it is something that is not in my 
area.
    Senator Harkin. Yes.
    Mr. Brown. But I do know that APHIS falls now under Border 
and Transportation Security and that Under Secretary Hutchinson 
is taking it very, very seriously.
    But I would like to comment on a point that you made about 
the terror aspect. I think the mitigation factor is one 
important thing that FEMA brings to the table in the Department 
of Homeland Security. When terrorists do something, they are 
looking for two effects. They are looking for the immediate 
effect their act has, such as blowing up something or killing 
people.
    Senator Harkin. Yes.
    Mr. Brown. But beyond that, they are looking for the terror 
that act imposed, and the disruption in the economy, or society 
that it causes.
    FEMA, I think, is well placed to mitigate those effects. If 
you take a natural disaster or a manmade disaster, whether it 
be the chemical truck that spills over accidentally or spills 
over on purpose because of a terrorist incident, to the extent 
that we can train firefighters and other first responders to 
minimize the effect of that chemical truck spilling over, we 
have taken away one of the tools of the terrorists.
    Senator Harkin. All right.
    Mr. Brown. We have mitigated against that.
    Senator Harkin. Correct.
    Mr. Brown. I want to emphasize that is the same attitude 
that I know Under Secretary Hutchinson takes when he is 
addressing the bioterror aspects of food and other agricultural 
products.

                        FLOOD MAP MODERNIZATION

    Senator Harkin. The second part is probably maybe a little 
bit more in your area, but I wanted to get that in about the 
food supply. I will every time we have a hearing on this.
    And I do not know if Senator Byrd asked--I heard him talk 
about flooding in West Virginia, but in the--did you mention in 
the 2003 appropriations bill, we had put in $150 million in 
additional funds for flood plain mapping. And the need for 
updated maps has been a long-term need across the country, and 
when will those funds be released? Was that the question that 
was asked? I do not know if that was asked. If it was not, I 
would like--if it was----
    Mr. Brown. Yes. Right. The Senator referred to the 
additional $150 million.
    Senator Harkin. Well, when will the funds be released?
    Mr. Brown. We now have a process in place. I have learned a 
lot just in the past couple of weeks about panels and how we 
are putting different panels together around the country----
    Senator Harkin. Yes.
    Mr. Brown [continuing]. And then implementing this strategy 
of defining the population, the risk areas, where the 
repetitive losses are occurring, prioritizing those and 
starting to get the funds out.
    The funds are going out in two different mechanisms. They 
are either going directly to the States which already have 
their own programs, or to private companies which have their 
own programs, so I think the funding has already started in 
terms of modernizing those maps.
    Senator Harkin. Well, I was not aware of that.
    Mr. Brown. I am also told that those particular funds have 
not been released from OMB yet. We have the strategy in place, 
but the funds have not been released.
    Senator Harkin. Okay. Well--and no time when, huh? And also 
will the funds be allocated nationally so that each region can 
meets its highest needs? What kind of--do you know anything 
about the allocation of those funds?
    Mr. Brown. Yes. It is going to be.
    Senator Harkin. Okay.
    Mr. Brown [continuing]. When I outlined the strategy to 
Senator Byrd earlier, that was done with the stakeholders' 
input and they have outlined on a national basis how we start 
this. We jump start it all over the country.
    Senator Harkin. Thank you very much, Mr. Brown. Thank you.
    Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator.
    Senator Byrd, do you have any additional questions?

                   EMERGENCY FOOD AND SHELTER PROGRAM

    Senator Byrd. Thank you, Mr. Chairman.
    I would like to ask a question about the Emergency Food and 
Shelter Program. It has been well run, well managed by FEMA. 
Now that FEMA has moved to the new department, the President 
has proposed to move the program to the Department of Housing 
and Urban Development.
    Could you state what the rationale for moving a program 
that had been effectively administered by FEMA to HUD may be?
    Mr. Brown. The administration's position was that the 
Emergency Food and Shelter Program was really not quite in sync 
with the traditional role of FEMA, and more appropriately 
belonged in Housing and Urban Development.
    Senator Byrd. And Congress specifically chose to keep the 
program in FEMA in the fiscal year 2003 omnibus appropriations 
bill and rejected the President's proposal to move the program 
to HUD. Are you committed to implementing the program in fiscal 
year 2003?
    Mr. Brown. Absolutely, Senator. If it stays with FEMA, we 
will continue to implement it. If it moves, we will do 
everything in our power to assist HUD in keeping that same 
high-level standard of operation.
    Senator Byrd. Well, I hope that the program does not fall 
through the cracks at the Department. It is a popular program 
in our communities. And it helps to address the growing crisis 
of homelessness.

                      INTEGRATION OF FEMA INTO DHS

    I have one more comment, then one more question, Mr. 
Chairman.
    In the past, the vast majority of FEMA's activities have 
been in preparation for and in response to natural disasters. 
FEMA is an all-hazards agency. But like many other Federal 
agencies since September 11, FEMA has provided increased 
resources to responding to terrorist threats.
    What steps are you taking within the new Department to make 
sure that your new agency's ability to respond to natural 
disasters is not affected by its integration into the 
Department of Homeland Security?
    Mr. Brown. A couple of things, Senator. First of all, I 
want to just state for the record that I am absolutely 
personally committed to making certain that we do not lose that 
capability and that approach.
    But to specifically give you some examples of how we are 
doing that, first and foremost, in the realignment that I am 
taking FEMA through right now, we are realigning it along the 
traditional lines of emergency management--preparation, 
response, recovery, and mitigation. Those will be the four main 
functions of this particular directorate.
    I think it is important, secondly, that you understand that 
I am going to do everything in my power to maintain our 
relationship with State and local governments. I think you have 
heard Director Albaugh say this, and I think Secretary Ridge 
has said it. I want to repeat it, that when there is an 
emergency, they do not dial 202, they dial 911.
    The people who respond are the State and local governments. 
We must continue to keep them in the loop and recognize that 
they are the first responders. Those are the ones that we have 
to make certain are prepared and know how to respond.
    I cannot resist giving the example of the barge that 
started burning in New York Harbor a few months ago and there 
was a feeling that we ought to go do something, when, in fact, 
it was a simple barge fire. I mean, not to minimize the effect 
of a barge fire, but it was a barge fire in New York Harbor, 
and it is something that the State and locals are trained to 
respond to and which they did quite well.
    We must maintain that focus. FEMA's focus must be on 
responding when something is beyond the State and local 
capability.
    Senator Byrd. Well, there has been a great deal of concern 
that State and local preparedness for natural disasters could 
be impacted adversely by the integration of FEMA into the new 
Homeland Security Department. In my own case, I am very 
conscious of the natural disasters that occur so often, coming 
from a mountainous country as I do, and having experienced so 
many times over these past 50 years, Mr. Chairman, responding 
to communities that have been stricken in those flood-prone 
valleys; and having responded by seeking appropriations for 
water resources projects, reservoirs, and so on. My 
constituents and I are very concerned about this.
    The Homeland Security Act instructs FEMA to maintain its 
all-hazards focus. But, the threat of terrorism and the 
Department's emphasis on it could overshadow the emphasis on 
natural disasters. I have been comforted by the responses given 
by Mr. Brown to my questions.

                  EMERGENCY RESPONSE AND SUPPORT TEAMS

    You have not requested funding for the National Domestic 
Preparedness Office, the Domestic Emergency Support Teams, or 
for the Metropolitan Medical Response System; but your 
directorate is responsible for administering these programs. 
How will you pay for them?
    Mr. Brown. We are currently going through a process of 
analyzing what is actually in the budgets of those particular 
programs in the other departments, and seeing what we can get 
out of those departments to help fund those.

                   PRE- AND POST-DISASTER MITIGATION

    Senator Byrd. Will pre-disaster mitigation and disaster 
relief activities suffer in your judgment?
    Mr. Brown. No, sir. They will not.
    Senator Byrd. What makes you think that?
    Mr. Brown. Because I think that the State and locals 
recognize that pre-disaster and post-disaster mitigation are 
both viable programs, and that in either direction we go, pre-
disaster or post-disaster, we can minimize the effects of 
disasters. If we do it pre-disaster, we can do it based on our 
longstanding understanding of where the risks are, of 
encouraging the States to come in with plans, with the best 
mitigation programs for their States and for their risks.
    If we do it post-disaster, we will continue to do the same 
thing we have done in the past, to go into a place where it has 
been hit hard, where there is the motivation to do mitigation 
programs. Either way, we can make it work.
    Senator Byrd. Thank you, Mr. Secretary. I want to help you 
when I can.
    And I want to thank you, Mr. Chairman, for having a good 
initial hearing. I think it has been a good one. You have been 
most fair. I appreciate the time you have allotted me to ask 
questions.
    Senator Cochran. Thank you, Senator Byrd. We appreciate 
your being here today and contributing to the hearing in the 
way that you have, as well.

                   SEVERE ACUTE RESPIRATORY SYNDROME

    Mr. Secretary, earlier today, I attended a hearing of the 
subcommittee that appropriates money for the Department of 
Labor, Health and Human Services, and we had before the 
committee the heads of the National Institutes of Health and 
the Centers for Disease Control and Prevention. Dr. Gerberding, 
who is the head of CDC, answered some questions, a few of which 
I asked, about this Severe Acute Respiratory Syndrome (SARS) 
virus that is scaring everybody from China to Mississippi and 
West Virginia. People are concerned about it, and they are 
fearful about what the consequences could be and how widespread 
it is going to be and who all is going to be affected and what 
we can do about it.
    And the medical community, of course, is talking about 
precautions that ought to be taken, and she responded to some 
questions on that subject. My question is what is the 
interaction that you expect to occur between the Centers for 
Disease Control and your directorate in the investigation of 
sudden disease outbreaks such as this?
    Mr. Brown. I think we have already established a very good 
precedent. When SARS initially broke out three or four weeks 
ago, we had conference calls--I believe it was a Saturday or a 
Sunday--where we started immediate interaction with them. Do we 
need to deploy anything from the stockpile? What do we need to 
do in terms of responding at all?
    I think we have already established those great lines of 
communication.
    Senator Cochran. Does this relationship relate to both 
terrorist activity, bioterrorism, as well as naturally 
occurring virus outbreaks such as SARS? Is this handled in any 
different way between you and the Centers for Disease Control?
    Mr. Brown. No. I think SARS is a good example of the 
biomedical programs and material that are coming into FEMA. It 
shows that we are able to respond and communicate regardless of 
what the source of the disease or the outbreak is; and that we 
are willing to open those lines of communications and discuss 
what is appropriate for the response.
    Should FEMA and EP&R be doing something? Should the CDC or 
NIH be doing something? I think it is just a good precedent we 
started with the SARS outbreak.

                EMERGENCY MANAGEMENT PERFORMANCE GRANTS

    Senator Cochran. Yes. Let me ask you about another subject, 
the Emergency Management Performance Grants. This is a program 
that was funded in fiscal year 2003 in the amount of $165 
million, which was $49 million over what was requested by the 
President. But in this budget request, there is no money being 
proposed, as I understand it. Are we missing something? Is it 
somewhere else in the budget and we just cannot find it, or is 
there no request for the Emergency Management Performance Grant 
program? Do you know?
    Mr. Brown. I have not found it, Senator, and I think that 
we need to recognize that the Emergency Management Performance 
Grants are something that is vital to State and local 
governments for them to operate and maintain their emergency 
operation centers and their staffs. I just think it is a very 
important program. We very much appreciate the additional money 
you gave us.
    Sixty percent of the $165 million is already out the door.
    Senator Cochran. Yes. Well, it seems to me that this 
program could contribute significantly to the challenge of 
securing our homeland, because these funds are used by local 
governments, as I understand it, to improve the capacity of 
State and local emergency management systems to function in 
times of emergency and in first responder situations.
    Do you share my views of the importance of the program and 
that it could be very useful in helping to secure our homeland?
    Mr. Brown. I think it is very good for State and local 
governments, yes.

                          DISASTER RELIEF FUND

    Senator Cochran. My last concern is that you mentioned 
earlier there was a shortfall in funding of the Disaster Relief 
Fund. That is a little troubling to me; because this last 
weekend, when I was in Mississippi on my way back to 
Washington, there were a lot of thunderstorms throughout our 
State, the mid-part of Mississippi. It was under thunderstorm 
warnings for the better part of the afternoon, and a tornado 
hit Meridian, Mississippi. And I was headed north to fly out of 
the northern part of the State.
    But my question is, if funds are needed for assisting local 
governments like that and you say there is a shortage of 
funding for the Disaster Relief Fund, I am worried that if we 
do not put something in the supplemental, we are going to be 
neglecting our responsibilities to these local governments.
    You pointed out how there were funds in the pipeline. There 
were needs out there and that OMB might be called upon to 
reallocate or do something to make up the shortfall. My 
question is, are supplemental appropriations required at this 
time for the Disaster Relief Fund? There is no request for the 
funds. What is the supplemental appropriation requirement?
    Mr. Brown. Senator, if you wanted to go back to the 
historical traditional funding of the Disaster Relief Fund, it 
would probably be somewhere in the ballpark of, I think, $1.4 
billion.
    It would be $1.4 billion to get us back up to where we 
were.
    Senator Cochran. That is in addition to what has already 
been spent in this fiscal year?
    Mr. Brown. Correct. That is correct.
    Senator Cochran. Well, I thank you very much. I think your 
responses and your enthusiasm for the challenges of this job 
are reassuring, certainly to me, and I think we are in good 
hands with you serving as Under Secretary of this Department's 
Emergency Prepardness and Response Directorate, as it is now 
called.
    I remember when James Lee Witt came before the Governmental 
Affairs Committee. He came up for confirmation, and he had been 
a local office holder in Arkansas. President Clinton had named 
him as his first administrator of FEMA. And he came by to make 
a courtesy call to talk about what he could expect and what 
would be asked of him, and what he needed to prepare to do at 
his confirmation hearing. And he was really kind of nervous 
about the whole prospect.
    He had seen things on TV that had scared him about what 
could happen to you in hearings like that. But I could tell 
right away he had the kind of disposition and commitment that 
was probably going to equip him to be an excellent 
administrator.
    And as it turned out, well, he handled himself very well at 
that hearing. I just said, ``Be yourself. Do not worry about 
it. Just try to be as direct and candid with your responses as 
you can. Nobody is going to be out to embarrass you. They all 
understand that you have never been at a hearing like this.'' 
And he did perform well.
    And he performed well as an administrator, because he 
really sincerely cared about the people that needed help from 
that Federal agency. And I think we have been blessed over time 
with a lot of people like him. Joe Albaugh was like that. He 
really wanted to make sure that when people needed help from 
the Federal Government, from his agency, they were going to get 
the help they needed.
    And he was personally out there seeing that they got it. 
And I think you are that same kind of person too. And I am 
pleased to see you serving in this position, and I wish you 
well. And you can be assured that our committee is going to 
support you and try to help you do your job and to do it well.
    Senator Byrd. Mr. Chairman, I wonder if the Secretary feels 
the $1.4 billion that he said is needed to bring it up is 
necessary. Does he feel it is needed? Does he feel that the 
supplemental should carry that?

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Cochran. I do not want to answer his question again 
for him, but he said yes.
    Senator Byrd. He did?
    Senator Cochran. Yes.
    Senator Byrd. I did not hear him say yes.
    Senator Cochran. Well, he did.
    Senator Byrd. Did he?
    Senator Cochran. Is that what you said?
    Mr. Brown. Yes, sir.
    Senator Byrd. Okay. I do not have any hearing aid.
    Okay. I--did you say yes?
    Mr. Brown. Yes, sir.
    Senator Byrd. Okay.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

              Questions Submitted by Senator Thad Cochran

                          all-hazards approach
    Question. Please explain the steps you are taking to ensure those 
non-homeland security functions within the Emergency Preparedness and 
Response directorate are being preserved.
    Answer. The Emergency Preparedness and Response Directorate was 
created to ensure that the Department maintains its ability to respond 
to emergencies and disasters of all types. The Directorate is composed 
of the primary disaster response, recovery, mitigation, and 
preparedness programs formerly provided by the Federal Emergency 
Management Agency.
    While terrorism requires immediate and direct attention in the 
present environment, our core mission is to provide leadership and 
support to reduce the loss of life and property, and to protect our 
Nation's institutions from all types of hazards through a 
comprehensive, risk-based, all-hazards approach. The Emergency 
Preparedness and Response Directorate continues to take an all-hazards 
approach to preparedness, response, mitigation, and recovery, and we 
continue to work with State and local governments, as well as the first 
responder community, to this end. This consolidation of national 
response assets allows the Federal Government not only to provide the 
services that the American people have become accustomed to during 
emergencies and disasters and which existed prior to the establishment 
of the Department, but also enhances our ability to maximize Federal 
resources, streamline delivery processes, and focus programs and assets 
on State and local needs.
    However, we are not resting on our past achievements. We will be 
working with the Congress, other Federal partners, State and local 
leaders, and other affected stakeholders to continue to enhance our 
ability to respond effectively to all types of disasters.
    The focus of the disaster programs formerly within FEMA was one of 
an all-hazards approach. The all-hazards approach remains the focus and 
benefits from the more global perspective of the Department and its 
related components.
    Question. How has Operation Liberty Shield and the increased needs 
associated with elevating the terrorist threat level to orange affected 
the non-homeland security functions of Emergency Preparedness and 
Response?
    Answer. The Emergency Preparedness and Response Directorate's 
Response Division maintains the ability to monitor, analyze, and 
respond to situations resulting from any type of incident. Our response 
programs are designed in an all-hazard manner to allow for timely and 
effective response to emergencies and disasters. With the realignment 
of Federal response assets into one centralized operational component, 
this capability is enhanced.
    With Operation Liberty Shield, we have experienced increased costs 
associated with the protection of our facilities, as well as with 
enhanced operational readiness. At the same time, we have also 
maintained a more robust monitoring and assessment operation in support 
of the Department's overall activities.
                        internal reorganization
    Question. Where are you in the process of internal reorganization? 
When can we expect to receive notice of the changes you are making?
    Answer. The Emergency Preparedness and Response Directorate has 
been assertively pursuing internal reorganization as an effective means 
of supporting the DHS mission and commitment to the American public as 
well as the President's Management Agenda. Under Secretary Brown has 
met individually with senior leadership/management of the Directorate 
to discuss internal strategic goals, related priorities, and proposed 
restructuring designed to enhance capabilities and effectiveness linked 
directly to the overall DHS mission.
    The Emergency Preparedness and Response Directorate is finalizing 
its realignment plan, which integrates the Federal disaster response, 
recovery, mitigation and preparedness assets. Our main focus during 
this process has centered on taking a careful look at the effectiveness 
of existing programs, the processes necessary to fully integrate 
disaster response programs from other Federal agencies, and meeting the 
President's direction to establish a National Incident Management 
System while maintaining full mission readiness to respond to 
emergencies and disasters regardless of origin.
    We expect to initiate this realignment in the near future, but 
achievement of the full realignment may not realized until later this 
year in order to ensure that we maintain our capabilities during the 
upcoming hurricane season. Pending the official realignment of 
operations within the Directorate, we will be working to affect the 
immediate aligning of personnel to meet mission critical requirements 
and maintain our response readiness capabilities.
    Question. Will the Department seek to change the account structure 
for Emergency Preparedness and Response to reflect this reorganization? 
Would it be beneficial to restructure the accounts?
    Answer. We have no plans to change the appropriation account 
structure beyond what has already been proposed in the fiscal year 2004 
Budget. However, as we realign our organization, we may change the 
budget activity breakdown that is shown within an account for the 
fiscal year 2005 budget request.
                    assistance to firefighter grants
    Question. Can you explain why the fiscal year 2004 budget request 
shifts the Assistance to Firefighter Grants program from FEMA to the 
Office for Domestic Preparedness?
    Answer. Financial assistance to States for State and local first 
responder terrorism preparedness is being consolidated through the 
Office for Domestic Preparedness. For years, States and localities have 
asked for a one-stop shop for grants. The proposal to shift grants for 
first responders, including those for firefighters, to ODP will 
accomplish this goal. This shift will also allow these grants to be 
more focused on terrorism preparedness and better integrated with other 
State and local funding priorities. However, key aspects of the current 
program, peer review of competitive funding proposals and direct grants 
to fire departments, will be retained in ODP. The move to ODP will 
enhance program coordination with DHS' first responder programs, which 
is the key goal of the move.
    Question. What concerns do you have regarding this shift in the 
administration of such an important grant program?
    Answer. We believe that ODP will ensure that the program maintains 
its high level of efficiency and cost effectiveness. EP&R looks forward 
to working closely with ODP to make sure that this program will succeed 
in enhancing the terrorism preparedness of our Nation's firefighters.
    Question. What has been the demand for these grants?
    Answer. In its first year (when departments were allowed to submit 
two applications) the program received grant requests from about 18,980 
departments totaling approximately $3 billion. In fiscal year 2002 
(when only one application per department was allowed), the program 
received requests from approximately 19,550 departments totaling $1.9 
billion in Federal dollars. This year, the program received more than 
19,950 requests totaling approximately $2.1 billion. However, it should 
be noted that most major Federal grant programs receive more funding 
requests than they can fund.
                      interoperable communications
    Question. When can we expect to receive a plan for how the $25 
million for interoperable communications equipment will be allocated? 
Please give us an update on your progress.
    Answer. The implementation of the fiscal year 2003 interoperable 
communications equipment grant program will be coordinated between the 
Department of Homeland Security and the Department of Justice, Office 
of Community Oriented Policing Services (COPS); both departments 
received funding in fiscal year 2003 for interoperable communications 
equipment grants, with the direction to coordinate their efforts. In 
the fiscal year 2003 Consolidated Omnibus Appropriation, EP&R received 
$25 million for this purpose, and COPS received $20 million (out of 
this, $5 million will go to the National Institute of Standards and 
Technology (NIST) and $3 million to the National Institute for 
Justice's AGILE Program).
    We are aware that Congress has expressed interest in providing 
additional funds for interoperability communications as part of the 
Wartime Supplemental. If additional funding is provided, we believe it 
would be advisable to run a single application process for all 2003 
funds. We will work with COPS to provide an allocation plan as soon as 
possible.
    Question. Have you obligated any of the $25 million that was 
appropriated for fiscal year 2003?
    Answer. No. All COPS and EP&R funding for interoperability will be 
awarded through a coordinated process which includes peer review. Grant 
awards will be made in the fourth quarter of the fiscal year. EP&R and 
COPS anticipate that awards will range from $50,000 to $2 million per 
proposal, and expect the funds to be distributed in September.
    Question. How does the agency plan to address this issue in fiscal 
year 2004, since no funding was requested in the Emergency Preparedness 
and Response budget?
    Answer. The funding that will be awarded in fiscal year 2003 
through the coordinated COPS/EP&R effort will provide funding to 
jurisdictions across the Nation for demonstration projects that will 
explore uses of equipment and technologies to increase interoperability 
among the fire service, law enforcement, and emergency medical service 
communities. These demonstration projects will illustrate and encourage 
the acceptance of new technologies and operating methods to assist 
communities in achieving interoperability.
    Once technology is proven and accepted, standards will result that 
will serve as the basis for future communication equipment purchases. 
We anticipate that in future years, all equipment that would be 
purchased by the first responder community would meet the requirements 
of the standard. Funding for this equipment may be provided through the 
$3.247 billion in first responder grants in the Office for Domestic 
Preparedness. Over the last few years, approximately 17 percent of ODP 
grant funds has been used for communications equipment. If this average 
holds true in fiscal year 2004, the result will be a nearly four-fold 
increase in the interoperability funding.
    Question. How will FEMA continue the implementation and operation 
of the systems put in place with the funding provided in fiscal year 
2003 if no funding is provided in fiscal year 2004?
    Answer. While there is a maintenance financial obligation 
associated with all equipment purchases, the Administration believes 
Federal grant funding should be focused on enhancing and improving 
communications, not maintaining current investments. The funding 
available in fiscal year 2003 will be used to demonstrate the 
technologies and operating methods that will best assist communities in 
achieving interoperability. Office for Domestic Preparedness grant 
funds can support additional enhancements, but maintenance of these 
systems is largely a State and local responsibility.
    Question. Does the Department of Homeland Security anticipate 
developing a system that allows other agencies from within the 
Department to access funding for interoperable communications through 
the Office for Domestic Preparedness?
    Answer. The Department of Homeland Security does not anticipate 
developing a system that allows other agencies from within the 
Department to access funding for interoperable communications. The 
purpose of this funding is to allow local governments and first 
responders to demonstrate interoperable communication equipment to help 
DHS benchmark an acceptable standard. Federal agencies' 
interoperability needs should be addressed as part of their ongoing 
equipment acquisition process.
                          mitigation division
    Question. Please give us an update on the implementation of the two 
pre-disaster mitigation grants and flood map modernization.
    Answer. The fiscal year 2003 Omnibus appropriations bill provided 
$149 million to the National Pre-Disaster Mitigation Fund to initiate a 
competitive grant program for pre-disaster mitigation planning and 
projects for State, Tribal, and local governments. Such hazard 
mitigation plans and projects will reduce overall risks to the 
population and structures and, in the long term, will reduce reliance 
on funding from disasters declared by the President.
    As part of the fiscal year 2003 appropriations, EP&R was directed 
to provide grants of $250,000 to each of the 50 States and five other 
recognized entities for hazard mitigation planning, for a total 
allocation of $13.75 million. The Notice of Availability of Funds for 
the planning grants was published on March 3, 2003. Applications are 
due to EP&R by April 30, 2003.
    EP&R currently is putting in final form the fiscal year 2003 
guidance for the competitive Pre-disaster Mitigation (PDM) Grant 
Program, with an emphasis on factors such as cost-effectiveness, 
States' priority ranking, technical feasibility, and consistency with 
other Federal programs.
    EP&R is also finalizing the guidance for the Flood Mitigation 
Assistance (FMA) Program for fiscal year 2003. As in prior years, EP&R 
will award planning, technical assistance, and flood mitigation project 
grants under the FMA program. For fiscal year 2003, we have established 
(as a national priority) mitigating repetitive flood loss properties, 
insured under the National Flood Insurance Program, through the PDM and 
FMA programs.
    EP&R's fiscal year 2003 appropriations included $149 million for 
Flood Map Modernization. In March, program staff met with key 
stakeholders to finalize the approach for the inaugural-year 
implementation. In April, the synopsis for a performance-based 
management contract was published. The implementation strategy for this 
initiative includes an emphasis on partnering with Federal, State, and 
local organizations to accomplish three things: 1. Leverage Federal and 
other public funds; 2. Increase local capability to produce and 
maintain flood and other hazard data; and 3. Facilitate data management 
by those who will benefit most from the information.
    The National Flood Map Modernization strategy will be implemented 
through two approaches. The first approach focuses on highest-risk 
areas, as identified by our State and local partners, immediately 
supporting our goal to reduce losses of life and property. Highest risk 
areas are those with high growth, high population, and a history of 
significant flood losses. We are investigating the feasibility of 
basin-wide studies to take advantage of economies of scale in these 
areas. The second approach involves capitalizing on areas that have 
data that can be quickly and efficiently leveraged into usable flood 
hazard data.
    Question. What has been the response to date for pre-disaster 
mitigation grant applications?
    Answer. The Notice of Availability of Funds (NOFA) for the planning 
grants was published on March 3, 2003. Applications are due to EP&R by 
April 30, 2003.
    EP&R is currently finalizing guidance for the competitive Pre-
disaster Mitigation (PDM) Grant Program and the Flood Mitigation 
Assistance (FMA) Program. Applications for the competitive PDM will be 
due 90 days after the publication of the NOFA, and we expect to begin 
awarding PDM grants in September 2003.
    Since the FMA funding is 2-year funding, applications will be 
accepted from the date of publication of the fiscal year 2003 guidance 
until March 2004. We expect to award FMA grants beginning in July 2003.
    While none of the application periods for the various grants has 
closed, we have received numerous inquiries and expect States to 
actively pursue grants through these programs.
    Question. What are the funding needs to continue these initiatives 
in fiscal year 2004? Is the President's budget request sufficient to 
meet these needs?
    Answer. In fiscal year 2003, Congress provided $20 million for the 
Flood Mitigation Assistance Program (FMA), $149 million for the Pre-
disaster Mitigation (PDM) Grant Program, and reduced the standard 
formula for the Hazard Mitigation Grant Program (HMGP) from 15 percent 
to 7.5 percent. The increase in the PDM program for fiscal year 2003 
offsets the reduction in the HMGP, based on average annual HMGP funding 
levels.
    For fiscal year 2004, the President's budget proposes a level of 
funding similar to that provided in fiscal year 2003, with a total of 
$300 million proposed for the FMA and PDM programs combined. The FMA 
and PDM programs provide a significant opportunity to raise awareness 
of risks, and reduce the Nation's disaster losses through risk 
assessment and mitigation planning. These programs will permit the 
implementation of pre-identified, cost-effective mitigation measures 
before disasters occur. Examples of these measures include establishing 
disaster-resistant building codes, and retrofitting structures to 
protect against wind, seismic, or flood hazards.
    The Administration is requesting $200 million in Flood Map 
Modernization funding for fiscal year 2004. Multi-year funding is 
needed to update the entire national flood map inventory to digital 
format.
                           response division
    Question. Which functions (budgets, personnel, daily operations, 
etc.) of the Domestic Emergency Support Team, the National Disaster 
Medical System and the Nuclear Incident Response Teams transferred from 
the Federal Bureau of Investigation, the Department of Health and Human 
Services and the Department of Energy to the Department of Homeland 
Security (DHS)? What is meant by operational control?
    Answer. The National Disaster Medical System's (NDMS) operations, 
budgets, and authorities have been transferred into the DHS. DHS and 
the Department of Health and Human Services (HHS) have entered into a 
memorandum of understanding that provides the basis for HHS continued 
administrative support for personnel, procurement, finance, and other 
administrative systems until these functions can be moved to DHS or 
beginning in fiscal year 2004, whichever is sooner. HHS continues to 
support the personnel system used for the activation of approximately 
8,000 civilian volunteers. Although the personnel system continues to 
reside within HHS, this has not adversely affected the readiness of the 
NDMS. The NDMS legislative authorities (Public Law 107-188) transferred 
to DHS, and the Under Secretary for Emergency Preparedness and Response 
became the head of NDMS. For NDMS, operational control means managing 
the System on a day-to-day basis, including authority to activate and 
deploy, and to direct and manage response teams when they are deployed 
to an incident. DHS is also responsible for the strategic development 
of the response teams.
    The Domestic Emergency Support Team (DEST) is a multi-agency 
response element. The operational control of the DEST transferred from 
the FBI to DHS on March 1st. While each agency supplies their own 
personnel and equipment to the DEST, DHS has assumed the administrative 
and logistical responsibilities for the team.
    All program management responsibilities for the Nuclear Incident 
Response Teams, including budgeting, staffing, training, equipping, 
strategic planning, and maintenance, remain with the Department of 
Energy. The responsibility for establishing standards, certifying 
accomplishment of those standards, conducting joint and other exercises 
and training, evaluating performance, and providing funding for 
homeland security planning, exercises and training, and equipment is 
now the responsibility of the Department of Homeland Security.
    The emergency response assets of the Department of Energy's 
National Nuclear Security Administration (NNSA) will deploy at the 
direction of the Secretary of Homeland Security, through the Under 
Secretary for EP&R, with the exception of the regional Radiological 
Assistance Program (RAP) teams, which retain the authority to self-
deploy. While deployed, the emergency response assets fall under the 
operational control of the Secretary of Homeland Security for the 
length of the deployment. Operational control is the authoritative 
direction over all aspects of nuclear/radiological operations and 
provides the authority to perform those functions of command and 
control over the response assets involving planning, deploying, 
assigning tasks, designating objectives, and giving authoritative 
direction necessary to accomplish the mission. Operational control 
provides full authority to organize the deployed assets as the 
Secretary of Homeland Security, through the Under Secretary for EP&R, 
or his designee, considers necessary to accomplish assigned missions. 
It does not, in and of itself, include authoritative direction for 
logistics or matters of administration, discipline or internal 
organization. All operational functions will be coordinated through the 
Under Secretary for EP&R or his designee, and will be consistent with 
current Presidential Decision Directives, Executive Orders, and 
interagency contingency plans. All deployed assets will support the 
designated Lead Federal Agency and the On-Scene Commander.
    Question. Will the three teams essentially remain at their current 
departments but receive funding through the Department of Homeland 
Security?
    Answer. The Emergency Preparedness and Response Directorate is 
undertaking the integration of these programs within the overall 
Federal response structure to ensure that these programs are mission 
capable to operate within the National Incident Management System. As 
such, the Department will fund these programs to mission capability 
standards. We will also be looking for ways to achieve cost savings 
during this process. The integration of these teams, as well as the 
capabilities of the Urban Search and Rescue Teams, offers the Federal 
Government the overall capability to meet emergency and disaster 
requirements in a more efficient and effective manner.
    Question. Do you foresee any obstacles in this arrangement to the 
successful operation of these vital systems?
    Answer. The integration of operations, personnel and assets will 
present challenges, but it will also create opportunities for 
enhancement of programs and processes to better meet the needs of our 
clients.
    Question. What will the Emergency Preparedness and Response role be 
with respect to BioShield if enacted into law?
    Answer. The DHS role with respect to BioShield, if enacted, will be 
to: assess current and emerging threats of use of chemical, biological, 
radiological or nuclear agents; to determine which of such agents 
present a material risk of use against the population; and to act as a 
prudent manager of any funds made available through the BioShield 
authority. The Emergency Preparedness and Response role would be to 
ensure the timely inclusion of items procured through Project BioShield 
into the Strategic National Stockpile, and in cooperation with HHS, to 
ensure that Federal and State partners are well equipped to receive and 
distribute allotments of these new countermeasures, as necessary.
    The SNS will be able to maintain and deploy the innovative/new 
medications and vaccines that become available under Project BioShield. 
NDMS medical response teams will be able to utilize any new or 
innovative vaccines and medications in their response to the event.
    Question. Does the Department of Homeland Security have final 
decision making authority over what products go into the stockpile, and 
what products will be dispensed from the stockpile?
    Answer. No. Under the law, the Department of Health and Human 
Services (HHS) is responsible for determining the content and quantity 
of items that go into the SNS. DHS, however, is responsible for working 
with HHS to provide the intelligence assessments of the risks of 
specific threats that the content of the SNS must address. DHS is also 
responsible for funding the SNS, which gives it the fiduciary 
responsibility to ensure that funds spent on additions to the SNS are 
used appropriately. DHS does have final decision making authority over 
the products that the SNS releases.
    The Director of the NDMS will participate in workgroups that 
provide assistance in the development of the formulary for our response 
teams to have the necessary information about the medications and 
vaccines in the SNS in order to provide the most effective response.
    Question. If the Department has the authority, does it have the 
medical expertise to make these decisions?
    Answer. The Department's Strategic National Stockpile, housed in 
the Centers for Disease Control and Prevention (CDC), identifies 
treatment protocols for specific threats and works closely with public 
and private subject matter experts in medicine, emergency response, 
public health and other disciplines to define the most efficacious and 
cost effective items for protecting the American public.
    Subject matter experts within HHS, DHS, DOD and other Federal 
agencies provide expertise in formulary development and oversight. The 
SNS also includes nationally recognized law enforcement, scientific, 
and medical experts from the non-Federal civilian sector to assist with 
the review of the SNS formulary.
    Question. Based on the development maturity and production 
readiness of the needed vaccines and medications in the next 18 months, 
can the Department effectively and efficiently spend such a large 
amount of funds in one fiscal year?
    Answer. If the vaccines and medications are available, we will be 
able to purchase appropriate pharmaceuticals including vaccines, 
antitoxins, and antibody enhancing drugs. However, production 
constraints may result in the delivery of these items over a multi-year 
period.
    Question. How many different vaccines and medications actually will 
be ready for Department of Homeland Security purchase in the next 18 
months, and what is the cost estimate for each?
    Answer. There will be continued procurement of currently produced 
smallpox vaccine (Acambis) and anthrax vaccine (BioPort), as well as 
heptavalent and pentavalent botulinum antitoxin that will be produced 
in the next 6-18 months (Cangene). In addition, two new vaccines are 
expected to be ready for procurement through project BioShield within 
the next 18 months. These include a new-generation anthrax vaccine, as 
well as a new smallpox vaccine. The costs of the new-generation 
vaccines are not yet available, but a working group is meeting 
regularly, and determining costs is one of their top priorities.
    Question. Please provide for the record a detailed statement 
demonstrating for each vaccine and medication its development maturity 
and production readiness and how that status supports obligation of 
specific funding amounts in fiscal year 2004.
    Answer. Initiatives to support the intermediate-scale advanced 
development of rPA and MVA vaccines are planned for late fiscal year 
2003 and early fiscal year 2004 respectively. These initiatives may 
include collection of preclinical and clinical data, such as: 
production and release of consistency lots; formulation, vialing and 
labeling of vaccine; development of animal models in at least two 
species to support the FDA animal rule; process, assay and facility 
validation; and clinical evaluation in initial phase II trials.
    For next-generation recombinant Protective Antigen (rPA) anthrax 
vaccine, two candidate products are in early product development. 
Preclinical data for this vaccine are expected to be submitted between 
July 2003 and September 2004, and clinical data are expected to be 
submitted by March 2004. The estimated date for completion of this 
phase of the rPA vaccine project is June 2004. For next-generation 
Modified Vaccinia Ankara (MVA) smallpox vaccine, two candidate products 
are in early product development. Preclinical data for this vaccine are 
expected to be submitted between July 2003 and September 2004, and 
clinical data are expected to be submitted by June 2004. The estimated 
date for completion of this phase of the MVA vaccine project is 
September 2004.
    Question. Mandatory spending can reduce Congress's oversight and 
visibility into a program and its ability to determine appropriate 
funding levels. Why did the Department seek these funds through 
mandatory spending instead of through annual appropriations?
    Answer. As demonstrated by the support shown by Congress in passing 
the Bioterrorism bill last year, Members have demonstrated their 
support for expediting the progress in acquiring drugs and vaccines to 
protect our citizens from bioattack. The Administration proposes this 
permanent, indefinite authority to allow the government to purchase a 
vaccine or medication as soon as experts agree it is a safe and 
effective means of protecting the American people against a serious 
threat from bioterrorism. This authority will also serve to assure 
potential manufacturers that if they can create a safe and effective 
product needed to counter bioterrorism threats, the government can 
purchase it. The Administration recognizes that this is an 
extraordinary request designed to meet an extraordinary threat, and 
will continue to work with Members and the relevant Committees to 
demonstrate the checks and oversight embedded in this proposal. The 
Administration's intent is to accelerate the production of urgently 
needed countermeasures, not to circumvent Congressional oversight.
    Question. What information can the Department of Homeland Security 
provide the Subcommittee to demonstrate that mandatory spending and not 
annual appropriations is required to effectively accomplish this 
program?
    Answer. It is clear that the pharmaceutical and biologics industry 
need incentives to engage in R&D, testing, and manufacture of 
countermeasures to biological and chemical threat agents. The President 
announced Project BioShield--a comprehensive effort to develop and make 
available modern, effective drugs and vaccines to protect against 
attack by biological and chemical weapons or other dangerous pathogens. 
Specifically related to the question, the proposed legislation for 
Project BioShield will ensure that resources are available to pay for 
``next-generation'' medical countermeasures. The proposed legislation 
creates a permanent indefinite funding authority to spur development of 
medical countermeasures. This authority will enable the government to 
purchase vaccines and other therapies as soon as experts believe that 
they can be made safe and effective, ensuring that the pharmaceutical 
and biologics private sector devotes efforts to developing the 
countermeasures. The Secretary of Homeland Security and the Secretary 
of Health and Human Services will collaborate in identifying critical 
medical countermeasures by evaluating likely threats, new opportunities 
in biomedical research and development, and public health 
considerations. Project BioShield will allow the government to buy 
improved vaccines or drugs for smallpox, anthrax, and botulinum toxin.
    Use of the proposed BioShield authority is currently estimated to 
be $5.6 billion over 10 years. However, under the proposed authority, 
funds would also be available to buy countermeasures to protect against 
other dangerous pathogens, such as Ebola and plague, as soon as 
scientists verify the safety and effectiveness of these products.
    Question. What is the interaction between the Centers for Disease 
Control and the Emergency Preparedness and Response Directorate in the 
investigation of a sudden disease outbreak, such as Severe Acute 
Respiratory Syndrome?
    Answer. EP&R monitors the status that CDC provides as it 
investigates sudden disease outbreaks such as Severe Acute Respiratory 
Syndrome. Should the outbreak threaten to overwhelm the ability of 
State/local government's ability to deal with it, EP&R will deploy the 
SNS and/or rapidly mobilize the support of multiple Federal agencies 
under the Federal Response Plan. EP&R may also activate the National 
Disaster Medical System (NDMS). CDC and EP&R are seeking an even closer 
working relationship to enhance coordination with the SNS via an MOU.
    EP&R personnel participated in a number of teleconferences with CDC 
and HHS during the early stages of the investigation. Involvement from 
the SNS occurs on a daily basis. Additionally, medical personnel from 
the EP&R NDMS section review the daily CDC updates on SARS, and 
interact with personnel from HHS on a regular basis.
    Question. Does this relationship change based upon the 
determination of the origin of a sudden disease outbreak (i.e. 
naturally occurring or terrorist related)?
    Answer. No, the relationship would not change. Generally, HHS is 
the lead Federal department in health emergencies, irrespective of 
whether those emergencies are caused by terrorist attacks, natural 
disasters, outbreaks, or technological accidents. HHS responds through 
its public health agencies and resources, including CDC, the Health 
Resources and Services Administration, and the Food and Drug 
Administration. EP&R would also respond to both naturally occurring and 
terrorist health-related emergencies with the SNS and NDMS. If the 
President were to declare a major disaster or an emergency under the 
Stafford Act, EP&R, as the lead consequence management agency would 
assume overall responsibility for coordinating the Federal response. 
HHS, however, is the Federal lead under the Emergency Support Function 
for health (ESF 8).
                emergency management performance grants
    Question. Please explain why funding for Emergency Management 
Performance Grants was not included in the President's fiscal year 2004 
budget request.
    Answer. The Emergency Management Performance Grants are 
consolidated into the President's fiscal year 2004 budget request for 
first responder grants in the Office for Domestic Preparedness. This 
reflects the Administration's belief that State emergency management 
and homeland security planning should be integrated with State-level 
homeland security efforts. Within the $3.6 billion request for ODP, 
approximately $150 million will be allocated to non-personnel costs 
previously covered by EMPG, including State and local strategic 
planning and development of all-hazard operations plans. Personnel 
integral to the administration and planning necessary to build 
sufficient Federal plans and capacity are consistent with meeting 
Federal responsibilities and will be supported. Personnel directly 
meeting the important daily requirements of a State or local government 
are expected to be supported at that level of government.
    Question. Is consolidation of the Emergency Management Performance 
Grants into ODP an indication that this administration is choosing to 
focus more on the homeland security aspects of the new department and 
less on the non-homeland security responsibilities. What is your view 
regarding the Emergency Management Performance Grants?
    Answer. The Emergency Management Performance Grants are being 
consolidated with other grants within Department of Homeland Security 
to provide ``one-stop'' shopping for first responders. While the 
emergency management offices within the States have relied heavily on 
the EMPG grants for years for all hazards capabilities, the fiscal year 
2004 Budget emphasizes that these funds should be focused on enhancing 
current capabilities, not supplanting State personnel costs.
                                 ______
                                 

               Question Submitted by Senator Ted Stevens

                         use of organized labor
    Question. Are efforts being taken by the Department of Homeland 
Security to include organized labor in the planning of emergency 
preparedness and response efforts?
    Answer. The Emergency Response Directorate of the Department of 
Homeland Security is always looking for opportunities to improve 
planning for emergency preparedness and response efforts. EP&R has 
worked closely with various organizations in our emergency preparedness 
and response activities and plans to continue these relationships as 
part of the Department of Homeland Security.
                                 ______
                                 

             Questions Submitted by Senator Robert C. Byrd

                          disaster relief fund
    Question. Please provide the most recent accounting of balances in 
the disaster relief fund.
    Answer. As of May 23, the unobligated balance in the Disaster 
Relief Fund for non-terrorist related events was $445 million. 
Unallocated funds totaled $281 million. Both of these amounts reflect 
the fact that the President released $250 million in emergency 
contingency funds on May 22, 2003.
    Question. According to the Emergency Preparedness and Response 
budget justifications, there was $3.9 billion in outlays from the 
disaster relief account in 2002, which is, on average, $325 million per 
month. Should OMB make the remaining balance in the contingent 
emergency fund available this year, how much more will the Department 
need to get through fiscal year 2003, assuming an average weather year?
    Answer. Supplemental funds for the Disaster Relief Fund will be 
required. The Administration is reviewing estimates of requirements and 
will notify Congress formally once the requirements are known.
                         september 11 response
    Question. Congress appropriated $8.798 billion to FEMA for response 
to the September 11, 2001 attacks on New York City. Have all of these 
funds been obligated? Please provide an accounting of expenditures.
    Answer. No, $6.4 billion has been obligated as of May 21. Another 
$1 billion for Debris Removal Insurance is pending enabling legislation 
by the New York State legislature to allow the City of New York to 
create a captive insurance company or other appropriate insurance 
mechanism to allow for claims arising from debris removal. In addition, 
$90 million for Ground Zero Health Responders Health Monitoring is 
pending completion of an Interagency Agreement with the Centers for 
Disease Control and Prevention. The remaining $1.3 billion is reserved 
for ongoing Human Services, Hazard Mitigation, and Public Assistance 
Programs. In accordance with the Consolidated Appropriations 
Resolution, 2003, remaining funds may be used for non-Stafford Act 
costs by New York City and New York State ``associated with'' the 9/11 
attacks. At this time, it appears that between $750 million and $1 
billion of the $1.3 billion not yet obligated or earmarked will be 
available for this purpose.
    Question. There is currently $1,024,785 left in EP&R's September 11 
response account. How will these funds be spent? Are these the funds 
that can be used for non-Stafford Act funding? If not, describe the 
estimates and plans for use of non-Stafford Act funds.
    Answer. Currently, EP&R estimates that there will be between $750 
million and $1 billion available for non-Stafford Act projects 
``associated with'' the 9/11 event. The final amount will not be known 
until EP&R, New York State, and New York City complete the expedited 
close-out process by the end of June 2003. Both New York City and New 
York State have submitted lists of non-Stafford Act projects for 
funding consideration, and EP&R is drafting Project Worksheets for all 
of the projects requested, with the understanding that actual grant 
awards will only be made up to the amount of funding available.
    Question. Within the $8.798 billion appropriated to FEMA, $2.75 was 
for repair to transportation systems. How many funds total are 
available for transportation system repair in New York, i.e. Department 
of Transportation, Metropolitan Transit Association, PATH? Of the EP&R 
amount, how much has been expended? Please detail past expenditures and 
any known plans for remaining funds. What is the current estimate for 
projects that New York is pursuing for transportation infrastructure 
damaged on September 11?
    Answer. The primary funding amounts available for transportation 
system restoration in Lower Manhattan include: EP&R ($2.75 billion), 
Federal Transit Administration (FTA) ($1.8 billion), Metropolitan 
Transportation Authority (MTA) (up to $1.5 billion--insurance), Port 
Authority (up to $1.5 billion--insurance). In addition, there are 
indications that the Lower Manhattan Development Corporation may commit 
a portion of the remaining  $1 billion of the Department of Housing 
and Development's (HUD) Community Development Block Grant (CDBG) funds 
for transportation system improvements. None of the EP&R funds has been 
expended to date. EP&R has transferred its $2.75 billion to FTA through 
an Interagency Agreement, and FTA is currently working with the MTA and 
Port Authority to develop grant agreements for the initial projects. 
There is no single definitive estimate for New York transportation 
improvements for damaged infrastructure related to 9/11. The core 
projects, i.e., PATH station, new MTA terminal, Pedestrian Concourse, 
Highway 9A, South Ferry Station, and Port Authority Bus Terminal, are 
estimated to cost nearly $5 billion. Additional projects being 
contemplated to provide a direct rail connection between Lower 
Manhattan and the Long Island Railroad, JFK International Airport, and 
Newark Liberty International Airport may cost several billion dollars 
more depending upon the final alternative's selected.
    Question. Of the $8.798 billion appropriated for post September 11 
FEMA activities in New York, $100 million was made available for the 
individual assistance program for new air filtration systems. Please 
provide the committee with a status report in light of reports that the 
program was being used fraudulently by some individuals. What steps has 
EP&R taken to ensure that the program is being used properly? How many 
people have dropped out of the program? How many funds have been 
returned? How will EP&R administer remaining funds?
    Answer. To date, nearly $100 million of Federal funding has been 
obligated to fund the New York State-administered Individual and Family 
Grant program with grants going to more than 110,000 families. Although 
program implementation is the responsibility of New York State, EP&R 
has instituted an aggressive media outreach and home inspection program 
to reduce fraud. As a result, approximately 101,000 applicants (45 
percent) have withdrawn from the program. The amount of funds returned 
to date is approximately $1.5 million; however, this figure includes 
returns due to incorrect addresses and postal errors, which cannot be 
easily separated out from funds returned by applicants. In addition, 
this amount represents only voluntary returns to date. New York State 
and EP&R are just beginning a comprehensive recoupment process to 
recapture funds not expended in accordance with programmatic 
guidelines. The $100 million is a program estimate, and it appears that 
all of the funds will be expended by the time that New York State 
completes grant processing; however, if there are funds remaining at 
the end of the program, the balance will be reallocated to be used for 
other eligible purposes.
                       biodefense countermeasures
    Question. The Department requests $890 million for permanent 
indefinite authority for biodefense countermeasures. EP&R budget 
justifications indicate that the government will be able to ``pre-
purchase critically needed vaccines or medication for biodefense as 
soon as experts agree the vaccines and mediations are safe and 
effective enough to place in the SNS.'' Who are these ``experts''? And 
what is the process by which drugs will be tested for safety and 
effectiveness prior to being placed in the SNS? How will EP&R 
coordinate its activities with the Center for Disease Control?
    Answer. The experts referenced in the budget justification include 
researchers, scientists and doctors at the National Institutes of 
Health (NIH), who would have the flexibility to seek outside expertise, 
make special purchases, and face other management challenges that can 
be barriers to quick progress in converting basic scientific 
discoveries into usable products.
    Furthermore, the Department's Strategic National Stockpile Program, 
operated in coordination with the Centers for Disease Control and 
Prevention (CDC), utilizes clinically accepted treatment protocols for 
specific threats and works closely with public and private subject 
matter experts in medicine, emergency response, public health, and 
other disciplines to define the most efficacious and cost effective 
items for protecting the American public.
    Subject matter experts within the Departments of Health and Human 
Services (HHS), Homeland Security (DHS), and Defense (DOD), as well as 
in other Federal agencies, are routinely requested to provide expertise 
in formulary development and modifications to a variety of threat 
agents. The SNS Program also utilizes scientific and medical subject 
matter experts from the non-Federal civilian sector to assist with the 
review of the SNS formulary.
    HHS is responsible for determining the content and quantity of 
items that go into the SNS. DHS is responsible for working with HHS to 
provide the intelligence assessments of the risks of specific threats 
that the content of the SNS must address. DHS is also responsible for 
funding the SNS and making final decisions over the products that the 
SNS releases.
    Use of a drug prior to licensure--a so-called Investigational New 
Drug--has many safeguards built into it, including informed consent and 
extensive follow-up monitoring. These are important provisions, but in 
a crisis, they could prevent the drug from being made available in a 
timely fashion to all the citizens who need it.
    The emergency use authority is very narrowly focused and targeted: 
only drugs under the direct control of the U.S. government could be 
used, and only after certain certifications had been made. All use 
would be voluntary. This emergency authority provides:
  --The Director of the National Institute of Allergy and Infectious 
        Diseases with the increased authority and flexibility to award 
        contracts and grants for research and development of medical 
        countermeasures. Funding awards would remain subject to 
        rigorous scientific peer review, but expedited peer review 
        procedures could be used when appropriate.
  --A finding by the Secretary of Health and Human Services, based on 
        expert analysis by the Food and Drug Administration (FDA), that 
        the treatment in question was expected to have benefits in the 
        emergency situation that outweighed its expected risks.
  --Greater flexibility in the FDA review process to meet the 
        circumstances of specific terrorist threats. Unlike typical 
        medical product approvals, the authority may be limited to 
        particular types of medical providers, patients and conditions 
        of use.
  --A limited time period. It would remain in effect no more than 1 
        year, unless the specific terrorist threat justifies extension 
        of the authorization, and the available evidence indicates that 
        the countermeasure is providing important expected benefits.
                              cerro grande
    Question. Please provide obligations and expenditures to date for 
Cerro Grande fires. How many claims have been received to date? How 
much has been requested in those claims? What are your best cost 
estimates of future need?
    Answer. To date, EP&R has approved $437,150,000 in response to 
claims from the Cerro Grande fires and has expended $437,000,000. 
21,512 claims for assistance have been received, 4,561 of which are 
subrogation claims that have been filed by insurance companies and 
those represent approximately $105,000,000. From the funds previously 
made available by Congress, EP&R also paid eligible mitigation claims 
to deter and prevent any future fire damage to property in the Los 
Alamos area. According to FEMA's fiscal year 2002 financial statements, 
audited by the Office of the Inspector General, the unfunded claim 
liability for Cerro Grande totaled approximately $127,000,000. 
Subsequent to the end of fiscal year 2002, the fiscal year 2003 
Consolidated Appropriations Resolution provided an additional 
$89,415,000, leaving a shortfall of approximately $36,000,000.
                       emergency food and shelter
    Question. How many staff administer the Emergency Food and Shelter 
program? From when an appropriation bill is signed into law, how long, 
on average, has it taken FEMA to get Emergency Food and Shelter program 
funds to the National Board?
    Answer. The appropriation for the Emergency Food and Shelter 
Program does not provide for FTE. Staff administers the program as 
collateral duties. The law requires that once appropriated funds have 
been received by EP&R, they must be distributed to the National Board 
within 30 days. On average, EP&R has provided the funds to the National 
Board within 20 days of receipt of funding. HUD can meet the same 
programmatic requirements, so the transfer of EFS to HUD will not 
disrupt those operations.
                           u.s. fire service
    Question. What steps is the Department taking to respond to 
findings in the National Fire Protection Association and FEMA's report 
``A Needs Assessment of the U.S. Fire Service?''
    Answer. The findings of the December 2002 report, A Needs 
Assessment of the U.S. Fire Service, are used to help guide United 
States Fire Administration (USFA) program planning and funding 
decision-making. However, these findings are regarded as advisory, and 
not as formal Administration policy.
    The following recent USFA initiatives specifically address issues 
identified in the assessment:
  --The Assistance to Firefighters Grant Program has distributed funds 
        targeted to firefighter operations, safety initiatives, new 
        vehicle purchases, EMS training and equipment, and fire 
        prevention programs.
  --A Memorandum of Understanding has been signed to create Incident 
        Management Teams in large metropolitan areas for large-scale 
        emergencies and to ensure that highly qualified personnel are 
        available for response throughout the Nation.
  --Training at the National Emergency Training Center for fire and 
        emergency management personnel has been expanded to address new 
        developments and challenges in planning, response, and recovery 
        from emergencies of all types and scope.
                        pre-disaster mitigation
    Question. In fiscal year 2003 Congress appropriated $149,025,000 to 
the Nation Pre-Disaster Mitigation Fund. Congress directed that each of 
the 50 States received grants of $250,000 for planning pre-disaster 
mitigation projects. The fiscal year 2004 budget proposed that these 
grants be made competitively. Why does the Administration request this 
change?
    Answer. For fiscal year 2004, the President's budget proposed a 
level of funding similar to that provided in fiscal year 2003, with a 
total of $300 million proposed for the Flood Mitigation Assistance 
(FMA) and Pre-Disaster Mitigation (PDM) program combined.
    Awarding grants on a competitive basis will ensure that the most 
worthwhile, cost-beneficial projects receive funding, such as, but not 
limited to, those containing properties insured under the National 
Flood Insurance Program that have suffered repeated losses and for 
which multiple claims have been paid. With the significant source of 
pre-disaster mitigation funding now available, we have an opportunity 
to implement a sustained pre-disaster mitigation program to reduce 
overall risks to the population and structures, while reducing reliance 
on funding from actual disaster declarations. Furthermore, the analysis 
required for a competitive process will raise awareness of risks and 
reduce the Nation's disaster losses through risk assessment and 
mitigation planning, and the implementation of planned, pre-identified, 
cost-effective mitigation measures that are designed to reduce 
injuries, loss of life, and damage and destruction of property from all 
hazards, including damage to critical services and facilities.
    The fiscal year 2004 budget reflects a total shift to pre-disaster 
preparation and mitigation, with funds that are dedicated to pre-
disaster mitigation, operating independently of the Disaster Relief 
programs, assuring that funding remains stable from year to year and, 
therefore, not subject to reliance on funding from actual disaster 
declarations.
                                 ______
                                 

            Questions Submitted by Senator Patrick J. Leahy

                    office for domestic preparedness
    Question. How was it decided that the Office of Domestic 
Preparedness (ODP) would be placed in the Borders and Transportation 
Directorate and not in Emergency Preparedness and Response Directorate? 
Does this move create a split between preparedness for terrorism events 
and other types of disasters and emergencies?
    Answer. The President's plan for the creation of the Department of 
Homeland Security placed the Office for Domestic Preparedness (ODP) 
with the Emergency Preparedness and Response Directorate. However, 
prior to passing the Department of Homeland Security Act, Congress 
changed the location of ODP to the Borders and Transportation Security 
Directorate.
    Question. How will the transfer of FEMA's Office of National 
Preparedness to ODP affect FEMA's preparedness mission and programs?
    Answer. The staff and terrorism-related functions of the Office of 
National Preparedness (ONP) have been consolidated into the Office for 
Domestic Preparedness, consistent with the intent of the Homeland 
Security Act. Consistent with a reorganization proposed by the Under 
Secretary, those ``all-hazards'' activities formerly associated with 
ONP will be transferred to a newly created Preparedness Division within 
EP&R.
                           2004 funding level
    Question. FEMA funding for fiscal year 2004 appears on the surface 
to be greatly increased in this budget, but a closer look shows that 
most of that funding goes to Bioshield and a few specific programs. 
Given that fact, how will FEMA cope with its new responsibilities when 
it will only be receiving level funding for traditional programs?
    Answer. Funding was transferred to EP&R for its new 
responsibilities. In addition, some of FEMA's functions and resources 
related to first responders were transferred to other organizations 
with the Department of Homeland Security.
                       assistance to firefighters
    Question. In the fiscal year 2004 budget request the President 
proposes that the Assistance to Firefighters grant program be 
transferred to ODP and away from the U.S. Fire Administration, which 
has managed it to date. What was the policy reason behind this 
proposal?
    Answer. Financial assistance for State and local first responder 
terrorism preparedness is being consolidated through the Office for 
Domestic Preparedness. For years, States and localities have asked for 
a one-stop shop for grants. The proposal to shift grants for first 
responders, including those for firefighters, to ODP will accomplish 
this goal. This shift will also allow these grants to be more focused 
on terrorism preparedness and better integrated with other State and 
local funding priorities. However, key aspects of the current program, 
peer review of competitive funding proposals and direct grants to fire 
departments, will be retained. The move to ODP will enhance program 
coordination with DHS' first responder programs, which is the key goal 
of the move.

                          SUBCOMMITTEE RECESS

    Senator Cochran. Well, Mr. Brown, thank you very much. You 
have been an excellent and cooperative witness. We appreciate 
it very much. We wish you well as you carry out your duties as 
Under Secretary of this directorate.
    Our next hearing is going to be on Thursday at 2 o'clock in 
room 192 of the Dirksen Senate Office Building. Our witness at 
that time will be the Department of Homeland Security's Under 
Secretary for Science and Technology, Dr. Charles McQueary.
    Until then, the subcommittee stands in recess.
    [Whereupon, at 3:29 p.m., Tuesday, April 8, the 
subcommittee was recessed, to reconvene at 2 p.m. Thursday, 
April 10.]









  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2004

                              ----------                              


                        THURSDAY, APRIL 10, 2003

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:35 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Thad Cochran (chairman) presiding.
    Present: Senators Cochran, Domenici, Byrd, and Inouye.

                    DEPARTMENT OF HOMELAND SECURITY

                   Science and Technology Directorate

STATEMENT OF DR. CHARLES McQUEARY, UNDER SECRETARY
    Senator Cochran. The hearing will please come to order.
    Today we continue our review of the fiscal year 2004 budget 
request for the Department of Homeland Security. We will 
consider at this hearing the programs and activities under the 
Department's Science and Technology Directorate.
    I am pleased to welcome the Under Secretary for Science and 
Technology, Dr. Charles E. McQueary.
    The Science and Technology Directorate is one of four 
directorates that makeup the Department of Homeland Security. 
The Homeland Security Act of 2002 transferred certain research 
and development functions of the Department of Defense, the 
Department of Energy, and the Department of Agriculture to the 
Department of Homeland Security. These functions and activities 
that have been transferred are now under the jurisdiction of 
the Science and Technology Directorate.
    For fiscal year 2004, the President's budget requests $803 
million for activities of this directorate.
    Mr. Secretary, thank you very much for submitting a 
prepared statement to the committee which we will print in full 
in the committee's hearing record. We invite you to make any 
statement and explanation of the budget request which you think 
would be helpful to the committee as we review the request for 
appropriations.
    I am pleased now to yield to my friend from West Virginia, 
the distinguished Senator from West Virginia, Mr. Byrd for any 
statement he might have.
    Senator Byrd. I do not have any opening statement. I will 
just reserve my time for questions. Thank you.
    Senator Cochran. Thank you. Senator Inouye.
    Senator Inouye. Thank you very much, Mr. Chairman. I just 
wanted to come by and congratulate and welcome our new under 
secretary. May I request that questions be submitted?
    Senator Cochran. Without objection, it is so ordered.
    They will be submitted. Mr. Secretary, we hope you will be 
able to respond to those questions within a reasonable time.
    Senator Inouye. May I be permitted to leave? I have got 
some conference matters.

                           prepared statement

    Senator Cochran. Of course, best wishes to you. I also ask 
that a statement submitted by Senator Craig be submitted in the 
record.
    [The statement follows:]

               Prepared Statement of Senator Larry Craig

    I appreciated meeting with Dr. McQueary prior to his confirmation, 
to discuss use of Department of Energy national laboratories to 
implement the research agenda of the Department of Homeland Security. 
Prior to the creation of the Homeland Security Department, the national 
laboratories of the Department of Energy were already investigating 
many of these security challenges related to critical infrastructure 
protection, detection of dirty bombs, cybersecurity and sensors to 
detect chemical and nuclear materials. In my view, the Department of 
Homeland Security, through its Directorate for Science and Technology, 
should continue and expand this important work but it should not re-
invent the wheel. In addition to saving money, using the Department of 
Energy national labs for this research will also serve the purpose of 
deploying these technologies into the field, and enabling them to 
protect us, sooner rather than later.

    Senator Cochran. Mr. Secretary, you may proceed.

                   STATEMENT OF DR. CHARLES MCQUEARY

    Mr. McQueary. Thank you, sir.
    Good afternoon Chairman Cochran, Senator Byrd, and Senator 
Inouye also, even though he has had to leave.
    It is a pleasure for me to be here with you today to 
discuss the President's fiscal year 2004 budget request for the 
Department of Homeland Security's Science and Technology 
Directorate. Secretary Ridge has already testified and provided 
the Department's overall fiscal year 2004 budget request and 
the role expected of Science and Technology to make the Nation 
safer.
    It is a great honor and a great responsibility to lead the 
science and technology efforts of this Directorate and the 
Department to meet the challenges of protecting our homeland 
and our way of life.
    The most important mission for the Science and Technology 
Directorate is to develop and deploy cutting edge technologies 
and new capabilities so that the dedicated men and women who 
serve to secure our homeland can perform their jobs more 
effectively and efficiently and indeed, those men and women are 
my customers.

                  FISCAL YEAR 2004 PLANS AND MISSIONS

    Our plans for fiscal year 2004 reflect this relationship 
and our desire to provide capability to the field as rapidly as 
possible.
    Our mission is to conduct, stimulate, and enable research 
and development, test and evaluation, and timely transition of 
homeland security capabilities to Federal, State and local 
operational end users.
    The Information and Analysis Infrastructure Protection 
Directorate is supported by Science and Technology through our 
Threat and Vulnerability, Testing and Assessment and Critical 
Infrastructure Portfolios. In addition, the Science and 
Technology Directorate will support the mission needs of the 
Border and Transportation Security Directorate, the United 
States Coast Guard, the United States Secret Service, and the 
Emergency Preparedness and Response Directorate through 
coordinated and focused research and development programs.
    Throughout the initial planning process for the Science and 
Technology Directorate we were guided by current and future 
threat assessments, our current capability to respond to that 
threat, and by the priorities spelled out in the President's 
National Strategy for Homeland Security.

                SCIENCE AND TECHNOLOGY DIRECTORATE GOALS

    Our goals are several and they are: develop and deploy 
state-of-the-art high-performance, low operating cost systems 
to prevent the illicit traffic of radiological and nuclear 
materials and weapons into the United States; provide state-of-
the-art high-performance, low operating cost systems to rapidly 
detect and mitigate the consequences of the release of 
biological and chemical agents; provide state-of-the-art high-
performance, low operating cost systems to detect and prevent 
illicit high explosives transit into and within the United 
States; enhance missions of the Department's operational units 
through targeted research, development, test and evaluation and 
systems engineering and development; develop and provide 
capabilities for protecting cyber and other critical 
infrastructures; develop capabilities to prevent technology 
surprise by anticipating emerging threats; and finally, 
develop, coordinate, and implement technical standards for 
chemical, biological, radiological, and nuclear (CBRN) 
countermeasures.
    The threats to our homeland are many. We must constantly 
test and assess our threats and vulnerabilities, develop new or 
improved capabilities to counter these threats, and mitigate 
their effects should an attack occur. Our program must also 
enhance the missions of the Department to protect and provide 
assistance to civilians in response to natural disasters, law-
enforcement needs, and other activities. We will develop close 
partnerships with private industry, academia and government 
agencies to focus a national research and development effort 
aimed at protecting the homeland. We are requesting $803 
million in fiscal year 2004 to conduct our mission. We will 
implement our activities through focused portfolios that 
support our mission. These portfolios are Biological 
Countermeasures; Chemical and High Explosives Countermeasures; 
Radiological and Nuclear Countermeasures; Critical 
Infrastructure Protection; Threat and Vulnerability Testing and 
Assessment; and the standards State and local program.

          HOMELAND SECURITY ADVANCED RESEARCH PROJECTS AGENCY

    Through the Homeland Security Advanced Research Projects 
Agency, our program will explore cutting-edge approaches to 
assessing current and emerging threats. It is our estimate that 
at least $350 million of the overall request will be carried 
out by HSARPA in fiscal year 2004. Our strategy includes 
evaluation, prototyping and rapid deployment of available 
technologies to the field. To do this, we will establish a 
technology clearinghouse in partnership with the Technical 
Support Working Group which has performed a similar mission for 
the past several years with great success for the Departments 
of State and Defense. Through this partnership we will 
encourage and support innovative solutions to enhance homeland 
security and will engage the private sector in rapid 
prototyping of homeland security technologies.

                          EDUCATIONAL PROGRAMS

    A knowledgeable workforce focused on homeland security is 
essential to our ability to address advancements in science and 
technology. Declining enrollments in specific academic fields 
such as radiochemistry is leading to a lack of workers in areas 
of science and technology which is important to America's 
effort to protect the homeland. Thus, we will establish 
fellowship programs at the graduate and post-graduate levels to 
encourage research activities in these areas and thus develop 
the foundation America needs to sustain our technical advantage 
in the war against terrorism. We will also establish University 
Centers of Excellence to provide an enduring and focused 
resource to the Nation in this effort.

                           prepared statement

    Mr. Chairman, I thank you again for the opportunity to 
appear before the Subcommittee. This concludes my prepared 
statement and I do thank you for including my more lengthy 
remarks in the record.
    [The statement follows:]

                 Prepared Statement of Charles McQueary

Introduction
    Good afternoon. Chairman Cochran, Senator Byrd, and distinguished 
members of the subcommittee, it is a pleasure to be with you today to 
discuss the President's fiscal year 2004 budget request for the 
Department of Homeland Security's Science and Technology Directorate. 
Secretary Ridge has already testified and provided the Department's 
overall fiscal year 2004 budget request and the role expected of 
science and technology to make the nation safer. It is a great honor 
and a great responsibility to lead the science and technology efforts 
of this Directorate and the Department to meet the challenges of 
protecting our homeland and our way of life.
    The most important mission for the Science and Technology 
Directorate is to develop and deploy cutting edge technologies and new 
capabilities, so that the dedicated men and women who serve to secure 
our homeland can perform their jobs more effectively and efficiently--
they are my customers. Our plans for fiscal year 2004 reflect this 
relationship, and our desire to provide capability to the field as 
rapidly as is possible.
    The threats to our homeland are many. We must constantly monitor 
these threats and assess our vulnerabilities to them; develop new or 
improved capabilities to counter chemical, biological, radiological, 
nuclear, explosive, and cyber threats; and mitigate the effects of 
terrorists attacks should they occur. The Science and Technology 
Directorate's program must also enhance the conventional missions of 
the Department to protect and provide assistance to civilians in 
response to natural disasters, law enforcement needs, and other 
activities.
    Throughout the initial planning process for the S&T Directorate we 
have been guided by current threat assessments, our understanding of 
capabilities that exist today or that can be expected to appear in the 
near term, and, importantly, by the priorities spelled out in the 
President's National Strategy for Homeland Security.
    Thus, our key specific areas of emphasis are to:
  --Develop and deploy state-of-the art, high-performance, low-
        operating-cost systems to prevent the illicit traffic of 
        radiological/nuclear materials and weapons into and within the 
        United States.
  --Provide state-of-the art, high-performance, low-operating-cost 
        systems to rapidly detect and mitigate the consequences of the 
        release of biological and chemical agents.
  --Provide state-of-the art, high-performance, low-operating-cost 
        systems to detect and prevent illicit high explosives transit 
        into and within the United States.
  --Enhance missions of all Department operational units through 
        targeted research, development, test and evaluation (RDT&E), 
        and systems engineering and development.
  --Develop and provide capabilities for protecting cyber and other 
        critical infrastructures.
  --Develop capabilities to prevent technology surprise by anticipating 
        emerging threats.
  --Develop, coordinate and implement technical standards for chemical, 
        biological, radiological, and nuclear (CBRN) countermeasures.
Research, Development, Test and Evaluation Portfolio
    We are requesting $803 million in fiscal year 2004 to provide 
applied research, development, demonstrations, and testing of products 
and systems that address these key areas of emphasis. The Science and 
Technology Directorate will implement its activities through focused 
portfolios that address biological, chemical, radiological and nuclear, 
and cyber threats; support the research and development needs of the 
operational units of the Department; and receive innovative input from 
private industry and academia as well as national and Federal 
laboratories. In particular, the Homeland Security Advanced Research 
Projects Agency (HSARPA) will have an essential role in meeting the 
goals and objectives of the Department and the Directorate across the 
range of the portfolios. These portfolios and activities are described 
as follows:
    Biological Countermeasures.--Biological threats come in many forms. 
They can be toxins, viruses, or bacteria, distributed by airborne 
aerosols, or in food or water supplies, or in the case of contagious 
diseases, spread among infected people or animals. Some biological 
threats require considerable technical sophistication on the part of 
the adversary and others do not. Timely detection and early initiation 
of prophylaxis and decontamination is the key to mitigating the 
consequences of any biological attack, should it occur. We are 
requesting $365 million in fiscal year 2004 to:
    Develop and deploy a Biological Warning and Incident 
Characterization System (BWIC). BWIC will consist of two major 
elements: a nationwide biosurveillance system that looks for early 
indicators of the exposure of people, animals and plants to biological 
agents; and environmental monitoring networks in selected cities that 
can detect the agent directly. This activity will be available as a 
pilot in fiscal year 2004.
    Continue the National Biodefense Analysis and Countermeasures 
Center (NBACC), initiated in fiscal year 2003, as a key component in 
implementing the President's National Strategy for Homeland Security. 
The NBACC will leverage the expertise of America's cutting-edge medical 
and biotechnical infrastructure to focus on the biological agent 
threat, including performing risk assessments and determining which 
countermeasures require priority research and development. It is an 
essential, new approach to integrating national resources for homeland 
security, supporting public health, law enforcement, and national 
security. The analytical capabilities of the NBACC will be functional 
in fiscal year 2004.
    Protect our agricultural infrastructure by providing the most rapid 
means of detecting infected animals before they exhibit signs of the 
disease to contain the original introduction, providing vaccines and/or 
therapeutics and a vaccination/therapy program to deter the spread of 
the disease, and providing genetic data that can be quickly used to 
identify the source, virulence and potential for spread of an 
introduced foreign disease.
    Chemical Countermeasures.--According to the National Research 
Council's Report Making the Nation Safer, ``chemicals continue to be 
the weapon of choice for terrorist attacks. They are readily available 
and have the potential to inflict significant casualties.'' In fact, 
terrorist attacks on civilian populations with chemical warfare agents 
have already occurred. In the Aum Shrinrikyo attack on the Tokyo 
subway, casualties were limited only because the attackers did not use 
an effective agent dispersal method. Similarly, accidental releases of 
toxic industrial chemicals have demonstrated that materials relatively 
widely available in modern industrial societies can result in large 
number of casualties.
    Significant work on chemical defense in military situations has 
been conducted, focused on battlefield attacks using chemical warfare 
agents. However, major gaps exist regarding civilian defense, most 
notably in strategies for dealing with the broader spectrum of threats 
(e.g. toxic industrial materials); detection systems capable of 
continuous monitoring with very low false positive rates; deployed 
chemical defense systems; and a robust forensic capability. The 
Chemical Countermeasures portfolio is requesting $55 million to address 
these shortcomings through a balanced mix of activities: (1) systems 
studies will be used to prioritize efforts amongst the many possible 
chemical threats and targets; (2) new detection and forensic 
technologies will be developed and demonstrated; (3) protective systems 
that integrate physical security, ultra-sensitive detection, 
information management, and consequence management strategies will be 
developed and piloted in selected high value facilities such as 
airports and subways; and (4) the Science and Technology Directorate 
will work with the Information Analysis and Infrastructure Protection 
Directorate to characterize and reduce the vulnerability posed by the 
large volumes of toxic industrial materials in use, storage or 
transport within this Nation.
    High Explosives.--Detection of high explosives and mitigation of 
their use has been a prime focus, historically of the Federal Aviation 
Administration, and now the Transportation Security Administration 
(TSA). The current terrorist threat extends beyond air transport to all 
other modes of transportation and to fixed facilities. The Department 
of Homeland Security will build on TSA's R&D in this area to develop 
and deploy more effective explosives detectors that can address the 
broader threats. Development of reliable stand-off detection capability 
of large quantities of explosives, especially in vehicles, is 
particularly needed. For this purpose $10 million in fiscal year 2004 
is requested.
    Radiological and Nuclear Countermeasures.--Countering the threat of 
radiological or nuclear attack is one of the top priorities of the 
Department of Homeland Security and the Science and Technology 
Directorate. The Radiological and Nuclear Countermeasures portfolio is 
requesting $137 million to address this threat through a comprehensive 
systems approach that emphasizes early detection; effective 
intervention capabilities at the Federal, State and local levels; 
development of mitigation technologies and science-based consequence 
management programs for use should an attack occur; and effective 
training at all levels of response. Concurrent efforts focused on 
deployment, evaluation and improvements to currently available 
technologies; a research and development program for advanced 
technologies and their continuous insertion into operational use; and 
the provision for an enduring science and technology base to address 
long-term challenges such as the detection of highly-enriched uranium 
and heavily shielded radioactive sources is used to address both 
today's threats and those of the future.
    Threat and Vulnerability, Testing and Assessment.--The purpose of 
the Threat and Vulnerability, Testing and Assessment (TVTA) program is 
to create advanced modeling, information and analysis capabilities that 
can be used by the organizations in the Department to fulfill their 
missions and objectives. One thrust of this program is to develop 
advanced computing, information, and assessment capabilities in support 
of threat and vulnerability analysis, detection, prevention and 
response. This portfolio also conducts extensive research and 
development activities in the area of cybersecurity, addressing areas 
not currently addressed elsewhere in the Federal Government. An example 
of this is developing tools and techniques for assessing and detecting 
the insider threat. The TVTA program uses a strategy of multi-year 
investments that infuse new capabilities into the DHS mission 
directorates on a regular basis based on strategic 5 year road maps. A 
spiral development process ensures early use and feedback by intended 
users and operators of all technologies developed within the program. 
Successively more complete and refined prototypes lead to operational 
pilots and fully operational systems for the Department organizations. 
$90 million is requested in fiscal year 2004 to support this activity.
    Critical Infrastructure Protection.--Our national infrastructure 
provides the continual flow of goods and services that are essential to 
the defense and economic security of the United States. Many of these 
functions are so vital that major disruptions would cause severe 
consequences to the behavior and activities of our citizens. Our free 
society and the high quality of life that we value depend upon the 
reliable operation of the infrastructure. In addition, we must protect 
the lives of our citizens (especially whenever they gather in large 
numbers) and key assets including many national monuments and icons.
    The Critical Infrastructure Protection (CIP) portfolio has three 
primary goals: (1) develop, implement, and evolve a rational approach 
for prioritizing CIP strategies and resource allocations using 
modeling, simulation, and analyses to assess vulnerabilities, 
consequences, and risks; (2) propose and evaluate protection, 
mitigation, response, and recovery strategies and options; and (3) 
provide real-time support to decision makers during crises and 
emergencies. $5 million is requested in fiscal year 2004 for this 
activity, which also leverages work being done elsewhere in the Federal 
Government and the Department of Homeland Security.
    Standards/State and Local Program.--Standards should be applied to 
all elements of the homeland security infrastructure to ensure a robust 
capability to defend against and to respond to any crisis situation--
whether it is the result of terrorism, natural causes, or a 
catastrophic accident. Organizing and integrating the efforts of the 
government and the private sector will enable the Department of 
Homeland Security to develop standards for equipment used for detection 
of materials that could be used in a terrorist attack. This will reduce 
the probability of a successful terrorist attack on the United States 
and facilitate development of a vital and enduring ability to respond 
to national emergencies.
    The Standards/State & Local Program will provide consistent and 
verifiable measures of effectiveness of homeland security related 
equipment and systems in terms of basic functionality, appropriateness 
and adequacy for the task, interoperability, efficiency, and 
sustainability. The Science and Technology Directorate will facilitate 
the development of guidelines in conjunction with both users and 
developers. The guidelines will encompass user needs and operating 
conditions, as well as the capabilities and the limitations of the 
technologies. The Standards/State and Local Program will develop, in 
collaboration with operational end-users, performance measures, testing 
protocols, certification methods, and a reassessment process 
appropriate to each threat countermeasure and for the integrated 
system. The Standards/State and Local Program will address all elements 
of the homeland security mission including equipment, information, 
analyses, personnel, and systems. Special emphasis will be placed on 
soliciting input from the actual users in the State and local response 
communities, and on providing effective methods for communicating 
information back to these agencies.
    Major program objectives include working with the private sector to 
establish a network of homeland security certification laboratories. 
This will provide a consistent level of assurance in the effectiveness 
of detection and other operational equipment. Consistent standards for 
training and certification of personnel will also be developed. The 
program will continue to broaden the suite of technical standards for 
various forms of equipment and systems and will provide protocols and 
standard data collection formats for test and evaluation projects 
undertaken by the Science and Technology Directorate. $25 million is 
requested in fiscal year 2004 to support this important effort.
    Support to Department of Homeland Security Components.--The Science 
and Technology Directorate has the responsibility to provide Federal, 
State and local operational end-users with the technology and 
capabilities to protect the United States homeland from catastrophic 
terrorist attacks and enhance their capabilities for conducting their 
conventional missions. An essential component of this responsibility is 
to coordinate and collaborate with the other components of the 
Department to assist and enhance their technical capabilities through 
integrated research and development activities. The integration of the 
Science and Technology Directorate research and development efforts 
with the Information Analysis and Infrastructure Protection Directorate 
is specifically described in the Threat and Vulnerability, Testing and 
Assessment, and the Critical Infrastructure Protection portfolios. In 
addition, the Science and Technology Directorate will support the 
mission needs of the Border and Transportation Security Directorate, 
the United States Coast Guard, the United States Secret Service and the 
Emergency Preparedness and Response Directorate through coordinated and 
focused research and development programs. Research and development in 
potentially high payoff technologies will be emphasized. $55 million is 
requested in fiscal year 2004 for this purpose.
    Rapid Prototyping Program.--Significant capabilities exist in 
private industry for the rapid development and prototyping of 
technologies in support of the homeland security mission. A mechanism 
to quickly and easily access the capabilities of private industry will 
allow the Department of Homeland Security to more effectively fulfill 
its mission requirements.
    The Science and Technology Directorate will establish a partnership 
with the Technical Support Working Group (TSWG) to provide the 
Department with a technology clearinghouse to encourage and support 
innovative solutions to enhance homeland security and to engage the 
private sector in rapid prototyping of homeland security technologies. 
$30 million is requested in fiscal year 2004 to solicit from the 
private sector near-term capability that can be rapidly prototyped and 
fielded.
    Homeland Security Fellowship Programs/University Programs.--
Advancements in science and technology have the potential to change or 
increase the threats to our security; these advancements also improve 
our ability to thwart these emerging threats. A knowledgeable workforce 
focused on homeland security is essential to our ability to address 
advancements in science and technology.
    The vast scope of the science and technology needed to address 
homeland security coupled with declining enrollments in specific areas 
such as nuclear science and technology, and radiochemistry are leading 
to a lack of qualified applicants for relevant research and 
development. This program requests $10 million to support strategic 
partnerships with the academic community to provide support for 
qualified students and faculty.
    Emerging Threats.--Advancements in science and technology have the 
potential to change or increase the threats to our security. These 
advancements also improve our ability to thwart these emerging threats.
    The Emerging Threats program will support the exploration of 
innovative, cross-cutting, out-of-the box approaches for anticipating 
and responding to new and emerging threats. It will also establish and 
support studies and analyses to be conducted by the new Homeland 
Security Institute. $22 million is requested in fiscal year 2004 for 
this purpose.
    The scope of the work to be conducted by this budget is broad but 
focused on the areas that improve our capabilities to thwart terrorist 
attacks by early detection and identification of the threat, effective 
protection and intervention technologies, mitigation of potential 
consequences should an attack occur, and a robust forensics and 
attribution capability. Our strategy includes early deployment of off-
the-shelf technologies to provide initial defensive capability and 
near-term utilization of emerging technologies to counter today's 
terrorist threats and the development of new capabilities to thwart 
future and emerging threats. A key part of our efforts will be 
conducted through the Homeland Security Advanced Research Projects 
Agency to engage industry, academia, government, and other sectors in 
innovative research and development to meet operational needs. Although 
I have described the budget request along product lines, such as 
biological and chemical countermeasures, it is our estimate that at 
least $350 million of the overall request will be carried out by HSARPA 
in fiscal year 2004.
    Mr. Chairman and members of the subcommittee, this concludes my 
prepared statement. I would be pleased to address any questions.

               COOPERATION WITH DHS AND NON-DHS ENTITIES

    Senator Cochran. Thank you very much, Mr. Secretary.
    While there were certain specific functions transferred to 
the Department of Homeland Security over which you now have 
jurisdiction or responsibility, there were some that were left 
out that are under the overall Department's responsibility, 
such as the Coast Guard, the Secret Service and others.
    Does that present any kind of challenge administratively 
for you, or do you share in the responsibility for working on 
science and technology issues with those other parts of the 
Department of Homeland Security, even though they are not 
directly under your jurisdiction?
    Mr. McQueary. Yes, sir, we do share in that responsibility. 
In fact, as a part of our organization with in Science and 
Technology, we have individuals who have transferred into the 
S&T organization from all of those agencies that you mentioned, 
to be in our spaces, if you will, to help influence the Science 
and Technology portfolio direction that we will take.
    So while the organizations that you mentioned do not report 
directly to me, we do have oversight responsibility for the 
science and technology work done in those organizations. We 
have also already established a partnership with the laboratory 
directors from all of those agencies that you mentioned so that 
we can begin working closely with them. And so far I have been 
very pleased to see the great enthusiasm with which the leaders 
of the scientific organizations have come together, recognizing 
that there is more power in a larger scientific community than 
there is in what I would call smaller groups.
    Senator Cochran. There are other Federal agencies, too, and 
activities of the Federal Government not within the Department 
of Homeland Security that have responsibilities for helping to 
protect our homeland against terrorist attacks. I think 
immediately of the Postal Service and the challenge that they 
have in trying to help ensure that we are able to detect any 
efforts to transmit through the mail anthrax and other harmful 
agents.
    To what extent will your office be involved in providing 
information, in terms of science and technology, to those other 
independent agencies or other departments of Government such as 
the U.S. Postal Service?
    Mr. McQueary. First of all, it is very important that one 
of the first things that we do is understand exactly what is 
going on not only within the government but also in private 
industry and universities in the areas that relate to homeland 
security.
    In the specific instance of the Post Office, the Office of 
Science and Technology Policy has been working with the Post 
Office since we had the anthrax issue right after 9/11. I have 
already established a very close relationship with Dr. John 
Marberger, who heads up the OSTP organization. So we will have 
very close coordination with the work that is being done there. 
If we need to have working groups with the Post Office, I would 
see no reason why there should be an impediment to doing so.

             ROLE OF THE PLUM ISLAND ANIMAL DISEASE CENTER

    Senator Cochran. If a terrorist decided to target American 
farms and ranches with some effort to carry out a bioterrorism 
act, we are limited in what we know about how diseases can be 
transmitted and spread. But we are trying, through the 
activities of the Plum Island Animal Disease Center which is 
now part of the Department of Homeland Security, to understand 
how to better fight efforts that would target America's farms 
and ranches.
    To what extent is your Directorate going to be involved in 
helping to map a strategy to effectively quarantine animals or 
to prevent the spread of diseases in this kind of situation?
    Mr. McQueary. Certainly. As you correctly point out, Plum 
Island does transfer into the Department of Homeland Security. 
That occurs on the first of June.
    We had interactions as the planning process was going 
through. I have not personally been to Plum Island yet, 
although that is high on my list of things to be done within 
the next several days, to get more familiar with Plum Island 
and the details thereof.
    As I see it, though, they play a very important function, 
particularly in helping to protect our country from animal 
diseases that could come in inadvertently. And therefore by 
doing this, they also put us in a better position to understand 
how to protect against those diseases.

              CRITERIA FOR DETERMINING CENTERS EXCELLENCE

    Senator Cochran. I know that there are probably going to be 
a lot of requests from around the country from colleges and 
universities to ask you to designate them as ``Centers of 
Excellence'' in research in this area. How are you going to 
approach that challenge? How are you going to pick and choose 
among all the colleges and universities as to who gets to be a 
center?
    Mr. McQueary. Well, first of all, I am pleased with the 
legislation as it came out in giving us the latitude to be able 
to work that issue. There are a number of criteria that are 
called out in the legislation establishing the Department of 
Homeland Security, and certainly that will be an important part 
of what we need to examine as we decide what to do.
    My opinion, if I might render a professional opinion at 
this point, is that it would be very difficult to find a single 
university that has the breadth and expertise so that they 
could call themselves the very best there is in the country in 
all of the expected areas. So my personal preference is to do 
an early assessment of where the best work is being done in the 
areas of counterterrorism interest, and then choose centers of 
excellence based upon that judgment.
    And I would certainly expect that we will call upon the 
scientific community to help us render that judgment. That will 
not be strictly a Department of Homeland Security S&T call by 
itself.
    Senator Cochran. Senator Byrd.

           ADEQUACY OF EXISTING TECHNOLOGIES AND CAPABILITIES

    Senator Byrd. Mr. Secretary, the Homeland Security Act 
gives you the responsibility to develop a national policy and 
strategic plan for identifying priorities, goals, objectives, 
and policies for and coordinating the Federal Government 
civilian efforts to identify and develop countermeasures to 
chemical, biological, radiological, nuclear and other emerging 
terrorist threats.
    In recent testimony, FBI Director Robert Mueller said his 
greatest concern is that our enemies are trying to acquire 
dangerous new capabilities with which to harm Americans. 
Terrorists worldwide have ready access to information on 
chemical, biological, radiological, and nuclear weapons via the 
Internet.
    Mr. Secretary, our agencies have identified new and 
existing technological capabilities that can be used today to 
help prevent terrorism, but they have not received the budgets 
to obtain them. Do you think that our agencies are adequately 
equipped and prepared with existing technologies and 
capabilities?
    Mr. McQueary. Sir, I believe the reason the Science and 
Technology Directorate was created as a part of the Department 
of Homeland Security was to help improve the overall situation 
at our borders and provide added protection. So I think the 
answer has to be that the country has decided we are not 
adequately protected and we still have work to be done. And I 
believe that we are chartered with the responsibility of 
leading that effort in concert with the other units that make 
up the Homeland Security Department, deciding what needs to be 
done and doing it.
    I do believe that it is very important that we understand 
quickly what kinds of capabilities exist in the country today, 
so that we can implement those things that will make a 
difference as quickly as we can because speed is important in 
the business that we are in.

             IDENTIFICATION OF SCIENCE AND TECHNOLOGY NEEDS

    Senator Byrd. Last year Congress appropriated additional 
funds to purchase technology and equipment critical to homeland 
security but the Administration rejected the funding. This 
year, as we continue to operate under a heightened state of 
alert, the Administration did not request specific funding for 
this technology in the supplemental spending bill.
    I speak with respect to technology that has been identified 
by the agencies, such as radiation portable monitors and non-
intrusive inspection equipment for the Bureau of Customs and 
Border Protection and radiation pagers and isotope identifiers 
for Coast Guard officers who board suspect vessels. There were 
attempts to add funding to the emergency supplemental a few 
days ago that would have provided Homeland Security agencies 
with additional technologies and capabilities.
    Secretary Ridge and the Attorney General have said that 
there was a high-risk of a terrorist attack right now. Are you 
working with the various Homeland Security agencies to identify 
existing technologies and capabilities that could immediately 
be deployed to the men and women securing our homeland?
    Mr. McQueary. Yes, sir, that is a significant 
responsibility that we have. And indeed, the role that we play 
in the Department of Homeland Security is to be the supplier of 
technologies to the other agencies and units that make up the 
Department of Homeland Security.
    I have described this as a customer/supplier model, if you 
will, having come from the industrial side of things, in which 
they are the customers, as are the people working on the front 
lines. And we are to be the suppliers of the technologies that 
are needed. And our job is to help evaluate, determine what 
should be done and help implement the rapid deployment of those 
things that are needed.
    Senator Byrd. Could you provide the subcommittee with some 
examples?
    Mr. McQueary. Examples of things that we are doing?
    Senator Byrd. Are you working with the various Homeland 
Security agencies to identify existing technologies and 
capabilities that could immediately be deployed to the men and 
women securing our homeland?
    Mr. McQueary. If I may, we have been in existence just 
since the first of March. We have a relatively small staff at 
this particular point. I take that fully as a responsibility 
that we have.
    I cannot tell you today specific examples other than there 
are radiological detectors at our borders even today and there 
are upgrades that are underway in many of those locations. But 
has Science and Technology affected those in any great way to 
date? The answer would be no, simply because we have not been 
in existence nor have we had people.
    If you would recall when Homeland Security was formed, 
there were no people that transferred into Science and 
Technology. So we are building our organization a person at a 
time today in order to be able to do the work and accomplish 
the responsibilities that the Congress has given us in the 
construction of the bill.
    Senator Byrd. Since the threat of terrorism is imminent, 
should you be focusing on both longer-term development of 
technologies and technologies that are currently available so 
that the Homeland Security personnel can work more efficiently 
and effectively?
    Mr. McQueary. Yes, sir. I believe that is very important 
that we have a multi-layered strategy in what we do. And in 
fact, that indeed is a part of our planning and strategic plan 
that we are working on, and that we expect to publish in the 
near future. Very important.
    If I may, the Homeland Security issue is a very large 
systems engineering problem if I may describe it coming from 
the background which I do, in which we have large numbers of 
inputs and outputs. And the important thing is to understand 
how this system needs to work to provide the protection.
    From that understanding will come the ability to be able to 
determine what we must do in terms of long-range developments, 
as well as to be able to use those things that we know already 
exist. And there are many companies that have things out there 
today, as certainly you alluded to, that maybe, that probably 
will be, very beneficial to us as we make this country safer 
than what it is today.

                            MANPAD STRATEGY

    Senator Byrd. There has been much talk about the need to 
secure our commercial airliners from the threat of shoulder-
fired surface-to-air missiles. Last November it was reported 
that Al Qaeda operators fired two shoulder-fired missiles at an 
Israeli passenger plane. The cost to purchase these weapons is 
roughly $5,000 to $30,000, and over 500,000 are available 
worldwide on the black market.
    Secretary Ridge announced on Tuesday that the Government 
should pay for research and technology to protect commercial 
airliners from this type of attack. Has the Secretary discussed 
this with you? And if he has, what steps are you taking to 
pursue this?
    Mr. McQueary. Yes, sir, he has discussed it with us a few 
weeks ago. We are aware of the MANPAD strategy you describe. It 
is a very serious issue and one in which we have already begun 
to participate in a systems engineering analysis to determine 
what would be an equitable approach for our private airline 
industry.
    There has been work. It has gone on in the Department of 
Defense, and certainly we would build upon that work. But there 
is not a system, as I understand it, that exists today that one 
could simply apply onto a commercial airliner with no 
additional development work.
    Senator Byrd. I want to yield shortly to the Chairman, who 
will in turn then call upon Senator Domenici, but let me get 
this further question, if I may.
    Your budget justification does not include anything 
specifically on this issue. TSA has requested $75 million in 
research and development to improve current security 
technology. Industry estimates that the cost to design and 
certify effective countermeasures for different aircraft types 
will cost close to $55 million. So can you tell me where the 
funding will come from to do this?
    Mr. McQueary. Sir, I cannot today. I can tell you that we 
have included within the budget the study work that would be 
necessary for Science and Technology to provide its technical 
judgment on how to approach this problem and that is not a 
large expense. In fact, I would estimate that is a $1 million 
to $2 million maximum kind of effort for us.
    Of course, the major cost would be in the procurement of 
such systems and I have not been engaged in the discussion 
about how that would be paid for.
    Senator Byrd. Thank you.
    Senator Cochran. Thank you very much, Senator. Senator 
Domenici.
    Senator Domenici. Mr. Chairman, I have to chair another 
subcommittee, as I think you are aware, but I very much 
appreciate the opportunity to ask one question.

                COLLABORATION WITH NATIONAL LABORATORIES

    First, Dr. McQueary, it is good to see you. You have a very 
big job and we look forward to working with you.
    As you know, in my State, we have two great national 
laboratories. And one of my subcommittees is the subcommittee 
that funds all of the national laboratories for the Department 
of Energy, some 18 laboratories from Argonne to ones in New 
York and up and down the line.
    Obviously, I am correct in saying you intend to work with 
those laboratories as they have either know-how or technology 
that would be helpful to you in implementing your role; is that 
correct?
    Mr. McQueary. Yes, sir, that is absolutely correct. They 
have great talent in those laboratories.

          HOMELAND SECURITY ADVANCED RESEARCH PROJECTS AGENCY

    Senator Domenici. Homeland Security Advanced Research 
Projects Agency is known as, I guess, HSARPA.
    Mr. McQueary. HSARPA, some call it. I wish I had been here 
sooner to name it something else, but I was not.
    Senator Domenici. We will try our best.
    As we understand it, the purpose for that is to use it as a 
tool to move ideas from the drafting board to the front lines 
as quickly as possible. And in so doing, to use your funds so 
that you can bring to bear all of the resources of the United 
States, including private industry, universities, and the 
national laboratories, on an issue or a need in this particular 
field; is that correct?
    Mr. McQueary. That is absolutely correct, sir.
    Senator Domenici. When do you think that that agency is 
going to be up and running?
    Mr. McQueary. I believe it will be up and running soon. We 
have done a lot of planning for it. It will actually be up and 
operational around the first of October simply because of the 
way the budgets are done.
    Senator Domenici. Who do you think will head it up?
    Mr. McQueary. I have interviewed many people and I am still 
looking for people to do that. I think it is essential that we 
get the right kind of technical talent to lead that. And 
therefore, I am continuing to look.
    Senator Domenici. Do you have any idea how many employees 
would be working there and where they might be located, Doctor?
    Mr. McQueary. We have not reached that point because that 
is an organization whose size will be driven largely by the 
number of programs that we have implemented, and so we will 
need program managers to run programs, and so the size will be 
driven by that.
    Senator Domenici. Once again, it is very important that the 
way you set it up will permit it to interact with the national 
laboratories in the best possible way; is that not correct?
    Mr. McQueary. That is absolutely correct.
    Senator Domenici. Without that, you are losing a great deal 
of talent and capacity that already exists. You do not have to 
duplicate that.
    Mr. McQueary. And we will not, or we will make every effort 
not to duplicate it, I can assure you.
    Senator Domenici. I have some additional questions with 
reference to how you are going to go about doing that, but I 
just wanted to leave you with the further admonition that just 
because we have a new problem, we do not have to, in each 
instance invent a new agency or a new institution to solve it.
    You have a very big job. Part of it is to make things work 
and pull things together that are already out there and apply 
them to an existing problem. And I am hopeful that in the 
months to come, as we bring you here, you will be able to show 
us how you have arranged this so that the great strength of our 
private sector research and our laboratories is brought to bear 
on some of these terrorist issues.
    Are you going to give us assurance that that is the 
direction that you will be moving?
    Mr. McQueary. I can assure you, that is my intent, sir.
    Senator Domenici. Thank you very much. Thank you, Mr. 
Chairman.

                    COMPREHENSIVE ENTRY EXIT SYSTEM

    Senator Cochran. Thank you, Senator.
    Let me ask you another question on the subject of the 
Border and Transportation Security Directorate. There is a 
project that is being planned, as I understand it, which is 
called the Comprehensive Entry Exit System. There is a 
legislative requirement that the Entry Exit System be able to 
read biometrics, which is the system to use fingerprint 
technology, facial recognition technology, or maybe even iris 
scan technology, to verify the identity of people traveling 
into or even maybe out of the United States.
    There have been investments already by the Department of 
Justice in improving fingerprint technologies. Do we need to do 
the same sort of thing for facial recognition technology and 
iris scan technology, in your opinion?
    Mr. McQueary. I believe that those two latter areas that 
you mentioned are certainly behind fingerprint recognition 
systems, though a lot of good work has been done in the 
industry and I think that we can draw upon that to make the 
decision of what direction we should go in choosing one of the 
two latter ones you mentioned as being the added biometric to 
be used for the Border Entry Exit System.

                         BIOMETRIC TECHNOLOGIES

    Senator Cochran. Do you plan to use funds that are 
appropriated to your Directorate to develop a new generation of 
biometric technologies?
    Mr. McQueary. Sir, I cannot remember at this point whether 
we have included that in this budget or not. If I may answer 
the question. The answer is yes. I apologize, I should have 
known but it has been a long day and I simply did not remember.

                        TECHNOLOGY CLEARINGHOUSE

    Senator Cochran. We are already beginning to get inquiries 
from people around the country who know about the new 
department. And those of us who serve on this funding 
subcommittee are being contacted and urged to be sure that 
their ideas and their suggestions get reviewed. How are you 
going to go about reviewing all those requests? You are going 
to have more suggestions and more ideas about how to improve 
the state of the world in so many different areas. Are you 
going to establish a clearinghouse of some kind to review these 
things?
    Mr. McQueary. Yes, sir.
    Senator Cochran. How are you going to deal with that?
    Mr. McQueary. As I mentioned in my opening statement, we 
have partnered already with the Technical Support Working 
Group, which has been in existence for several years. We expect 
to issue broad agency announcements indicating what areas of 
technology we are interested in in industry. We have a 
reprogramming action that has been proposed and if it gets 
approved as we proposed it, we then will issue the broad agency 
announcements, and industry will be able to see the areas that 
we are interested in.
    With that being said, what I am asking in people who come 
to see me is, do not ask me how can you use my thing in your 
solution. I am asking people to help me define what the 
solution needs to be. Because this, as I mentioned, is a very 
large systems problem. We are going to have some very talented 
people. But I can assure you we will not have the talent to be 
able to conceive of all the possibilities.
    So we need people who come in with ideas to help us think 
about how it can be used in a large system context because that 
is the problem that we face.
    Senator Cochran. Our job is to decide how much money you 
need.
    Mr. McQueary. Yes sir.

                        UNIVERSITY-BASED CENTERS

    Senator Cochran. Of course, we consider the request that is 
submitted by the President, but sometimes, and I am not 
suggesting this is true with this Administration, but sometimes 
Administration officials submit numbers knowing the Congress is 
going to have to increase the number. That just happens. No use 
to pretend that it does not.
    I wonder about the $15 million that is requested in this 
budget, for example, to establish university-based centers and 
support strategic partnerships with the academic community. 
That sounds like a pretty small amount of money to me.
    Mr. McQueary. I do not believe it is so small when you are 
just starting out. I think it is important that we have a good 
plan in place. I think it is important that we not take a lot 
of time to figure out what the plan is.
    But I would like to be able to come before you and present 
a plan that I know I have studied sufficiently to be able to 
say I believe this is the one that can and should be 
implemented to accomplish the things that the Congress has 
asked us to do in the legislation.
    So I am not personally uncomfortable with the amount of 
money in that area now, quite frankly.
    Senator Cochran. Thank you, very much. Senator Byrd.

               DEFENSE DEPARTMENT'S BIOMETRICS INITIATIVE

    Senator Byrd. On biometrics, Dr. McQueary, are you aware of 
the Defense Department's biometrics initiative?
    Mr. McQueary. Sir, I am only aware in a very general sense. 
I have not had a scientific review of that, but it is certainly 
an important thing for me to do.
    Senator Byrd. Do you plan to work with the Defense 
Department and other agencies to build on the testing already 
done and the lessons already learned?
    Mr. McQueary. I would view that we have not done our job 
unless we do that. We certainly must do that, because that is 
the way we determine how much money really should be spent, by 
knowing that we are using what has already been done.
    Senator Byrd. The Defense Department has been quite active 
in this area, and I hope that you will pursue that opportunity 
to build on the testing there.
    Mr. McQueary. I assure you we will.

                            MANPAD STRATEGY

    Senator Byrd. If Secretary Ridge believes that there is a 
serious threat of a shoulder-launched missile being fired at a 
commercial airliner, why did the Administration oppose an 
amendment in the Senate a few days ago to provide $55 million 
to test existing technologies on commercial aircraft?
    Mr. McQueary. Sir, I do not know the answer to the 
question, but I can try to find out to respond back to you. But 
I do not know.
    Senator Byrd. Could you give us a timeline for coming 
forward with your recommendations?
    Mr. McQueary. I, first of all, have to determine in concert 
with Secretary Ridge whether it is appropriate that the Science 
and Technology group make that recommendation or whether it 
should come out of one of the operational directorates. I 
cannot answer the question today but certainly I should be able 
to answer it soon. And I can certainly discuss that with 
Secretary Ridge and get back to you.
    Senator Byrd. Would you supply to the subcommittee an 
answer to that question, after you have had that discussion?
    Mr. McQueary. Yes sir.

                          PERFORMANCE MEASURES

    Senator Byrd. You are responsible for developing a national 
policy and strategic plan for identifying priorities, goals, 
objectives, and policies for and coordinating the Federal 
Government's civilian efforts to identify and develop 
countermeasures to chemical, biological, radiological, nuclear 
and other emerging terrorist threats, including annual 
measurable objectives and specific targets.
    On page 26 of your budget justification, you find these 
words: performance measures for the Science and Technology 
Directorate have not been established. And yet you are 
requesting an $803 million budget, including $242 million or a 
43 percent increase over last year.
    How is this subcommittee supposed to evaluate your request 
if we do not have any performance standards to go by?
    Mr. McQueary. I think you should ask us to provide those 
performance measures and I agree with that. The response that 
we have there is the one we have today but it is not 
satisfactory long-term. And we do need to have performance 
measures. I agree. I come out of an industry where if you 
cannot measure it, you cannot be sure it has been done.
    Senator Byrd. Exactly. I would suggest that you do your 
best then, Mr. Secretary, to provide the subcommittee with 
reliable performance measures during the fiscal year 2004 
budget process, so that we can evaluate your $803 million 
request.
    Mr. McQueary. Yes sir.
    Senator Byrd. Congress has appropriated billions of dollars 
since 9/11, much of which has gone to the development of 
technological capabilities to prevent terrorist attacks. This 
subcommittee is going to be working very hard to make sure that 
the investment is spent wisely. So please take steps, since you 
do not have anything on paper, please take steps to develop 
performance measures, as you have indicated you will, so we 
will know if the money is appropriately being spent 
effectively.
    Mr. McQueary. Yes sir.

          HOMELAND SECURITY ADVANCED RESEARCH PROJECTS AGENCY

    Senator Byrd. I have one other question.
    Public Law 107-296, the Homeland Security Act, created the 
Homeland Security Advanced Research Projects Agency. The agency 
is modeled on the Advanced Research Projects Agency except that 
the goal of the agency is to develop technologies that would 
benefit homeland security.
    In your prepared testimony you estimate that $350 million 
of your overall request of $803 million would be carried out by 
this new Advanced Research Projects Agency. But the Homeland 
Security Agency Act authorizes only $500 million. Why is there 
a $150 million gap between your funding requests and the 
authorized amount?
    Mr. McQueary. Sir, my approach, having come out of the 
industrial side, is we are in the business of funding products 
and systems, and those products and systems in general will cut 
across not only the Homeland Security Advanced Research Project 
Agency, but the work that is done in the laboratories.
    And so my belief, and a strong belief, is that developing a 
budget based upon products and systems is a better way than 
doing an organizational budget which would be equivalent to 
saying how much are we going to spend in HSARPA? I assume the 
$500 million may have been an estimate that someone had and the 
$350 million that we have estimated is certainly that. It is an 
estimate, because the detailed programs have not been put 
together through competitive approaches or through work that is 
done in the laboratories.
    Senator Byrd. In 1959, Congress approved $485 million for 
what was then known as the Advanced Research Projects Agency, 
ARPA. This was the first year it received an annual 
appropriation.
    I do not know what is the matter with my throat today. I am 
not smoking any cigars, although I do like them.
    Mr. McQueary. Perhaps I could join you in a private moment 
then, with one of those.
    Senator Byrd. Let us try that. Do you have anything else on 
your hip?
    I think you would acknowledge that to date research and 
development activities in support of homeland security have 
been underfunded. In light of that, what do you think an 
appropriate funding level for this agency would be?
    Mr. McQueary. I missed which agency, sir. For the 
Department of Homeland Security?
    Senator Byrd. The next question is pertinent. Are you 
planning to request a higher level for HSARPA in future years?
    Mr. McQueary. Sir, it is premature to say yes or no to 
that, because I think it is important that we examine the needs 
of the directorates that make up the Department of Homeland 
Security, and from that determine what the program should be. 
Those needs will be looked at from the standpoint of ``do we 
need to be funding work ourselves or do we need to simply be 
buying what already exists out in America today?''
    And we have to answer that question, and you have every 
expectation that we should.
    Senator Byrd. Thank you, Mr. Secretary. Thank you, Mr. 
Chairman.
    Senator Cochran. Thank you, Senator Byrd.

                 FISCAL YEAR 2003 REPROGRAMMING REQUEST

    Mr. Secretary, yesterday we received a request from the 
Department of Homeland Security to reprogram fiscal year 2003 
appropriations for your Directorate.
    Mr. McQueary. Yes.
    Senator Cochran. This reprogramming could not have been 
anticipated when the budget request we are reviewing today was 
composed. Will the request for fiscal year 2004 be changed if 
this reprogramming request is approved? Specifically, do you 
believe that the balance of funds resulting from a 
reprogramming will be sufficient to carry out the biological 
research and defense activities for the Fort Detrick Biowarfare 
Center for the remainder of this fiscal year?
    Mr. McQueary. Yes, I do. In fact, the budget for Fort 
Detrick, we explicitly know that that is sufficient for this 
year because, as you know, we do not have a lot of the fiscal 
year left, and therefore it is not necessary to spend as much. 
And that is part of the thinking that went into that.

                STANDARDS FOR FIRST RESPONDER EQUIPMENT

    Senator Cochran. The detection equipment used by first 
responders to alert the public of threats from chemical, 
biological, or radiological sources is an important line of 
defense for first responders to use to alert the public if a 
terrorist attack is taking place or has taken place. There 
currently are no standards for much of the equipment that is 
being used for the detection of these attacks. Once standards 
and technologies are developed, the Homeland Security Act 
authorizes the Secretary to create a system for transferring 
Homeland Security technologies to Federal, State and local 
Governments in the private sector.
    Can you tell us if there are standards and criteria being 
developed now by the Department for the equipment that will be 
used to respond or alert the public to a terrorist attack when 
it occurs?
    Mr. McQueary. We specifically have a group working on 
standards. That group is working in concert with NIST and the 
American National Standards Institute because we are not trying 
to create standards all by ourselves. We are relying upon work, 
very good work, that has been done within the Government 
previously.
    We have already issued a draft, I believe it is a draft, 
for radiation detectors for comment already. So that has been 
done and we are actively working on that.
    And you will see we have, in the fiscal year 2003 
reprogramming action, as well as in the proposed budget for 
fiscal year 2004, we have money in there to continue to work 
the standards issue. It is a very important issue to help the 
local responders be able to save money because now with no 
standards they are more or less subjected to whatever happens 
to be sold to them and rendering the judgments themselves.
    Senator Cochran. Do you intend to take into account the 
views and suggestions of the local end-users, such as the first 
responders themselves, who have had experience in these 
matters, the police, fire, the transit authorities, so that you 
can develop the most sophisticated detection devices possible?
    Mr. McQueary. Sir, those are the customers for what we do 
and the answer is emphatically yes, because that is where we 
need to be getting the requirements for what we do, is at the 
first responder level. We do have plans in place to be able to 
accomplish that, so that we do have their inputs.
    Senator Cochran. Will there be any effort by the Department 
to provide funding to those in the private sector who are 
working on these standards and technologies for devices?
    Mr. McQueary. I would view the standards work as being 
more--where the opportunity would be is when you have 
development of laboratories that would be testing--similar to 
Underwriters Laboratories. We certainly do not intend to build 
a government laboratory. So anything that we would do would go 
to the private sector or the Government, if labs are available 
to be able to do that.
    Senator Cochran. Or could some of this research be done at 
the university centers?
    Mr. McQueary. Absolutely. Yes sir.

   APPLICATION OF DEPARTMENT OF DEFENSE TECHNOLOGIES, EXPERIENCE AND 
            EXPERTISE TO MEET HOMELAND SECURITY REQUIREMENTS

    Senator Cochran. The U.S. military has methods of detecting 
chemical attacks, and certainly in the Operation Iraqi Freedom 
this is something that has been utilized. But there is a large 
difference between the military and the private sector and the 
civilian population.
    How do you intend to utilize the expertise and the 
experience of the Department of Defense in helping develop 
technologies for the civilian population and our civilian 
agencies that will be called upon to help protect our homeland?
    Mr. McQueary. We certainly intend to draw on the enormous 
amount of work the Department of Defense has done in this area. 
As I would see it, a crucial issue for us, however, is that we 
have to have a low false alarm rate. The military is in a 
slightly different position. If they have a false alarm and go 
to general quarters, they can stand down if they find there was 
nothing. Whereas in the civilian population, we cannot afford 
to constantly have our people being in an excited state because 
alarms were put forth and they turned out to have no merit.
    So I see the major effort that we have to accomplish is in 
that area of determining, from a technological standpoint, how 
we can keep the false alarm rate at a level the country can 
live with in the civilian population.
    Senator Cochran. I know our staff members have reviewed the 
statement that you submitted very carefully. We will probably 
be submitting some additional questions to you to fill out our 
hearing record to be sure we understand the request you have 
submitted, and to be assured that we know enough about it to 
make an intelligent decision about the amount of funding you 
need for the coming fiscal year.
    But we wish you well in this undertaking. This is a very 
important responsibility that you have assumed. We appreciate 
your service and the good work that the Department officials 
are doing to organize this new department, get it running, and 
get it off to a good start.
    We wish you well.
    Mr. McQueary. Thank you very much. I look forward to it and 
I look forward to working with this committee and to better 
educate you on what we are doing because I think the better off 
we all will be. So I look forward to that.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Cochran. Senator Byrd, any further comments or 
questions?
    Senator Byrd. I join with you in your good wishes and I 
thank the Secretary and wish him well.
    Mr. McQueary. Thank you, sir.
    Senator Cochran. Mr. Secretary, we appreciate your 
cooperation with our committee. Other Senators may submit 
written question, as well, and we ask you to respond to them 
within a reasonable time.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

              Questions Submitted by Senator Thad Cochran

                        development of standards
    Question. The detection equipment used by first responders to alert 
the public of chemical, biological, or radiological threats is the 
front-line of defense for first responders to alert the public if a 
terrorist attack took place. As you are aware, there are currently no 
standards for much of the equipment that is being used for the 
detection of these attacks. Once these standards and technologies are 
developed, the Homeland Security Act authorizes the Secretary to create 
a system for transferring homeland security technologies to Federal, 
State, local governments and the private sector. What standards and 
criteria are being developed by the Department of Homeland Security for 
the equipment that will detect and respond to any attack that may 
occur?
    Answer. The need for standards and criteria for equipment being 
developed by the Department of Homeland Security (DHS) was recognized 
during the initial stages of developing the Science and Technology 
(S&T) Directorate's long-range strategy. During the transition phase, 
the need for standards to address design, procurement, deployment, and 
use of the radiological and biological detectors was determined to be a 
key need. In collaboration with the National Institute of Standards and 
Technology (NIST), the American National Standards Institute (ANSI) and 
the Institute of Electrical and Electronic Engineers (IEEE), the DHS 
S&T transition team began development of standards for four high-
priority classes of radiation detection equipment. The four classes are 
personal dosimeters (``pagers''), alarming hand-held detectors, hand-
held isotope identifiers, and radiation portals. These standards have 
been released in draft form and will soon go to ballot, in accordance 
with ANSI process requirements for national consensus standards. A 
contract to develop a standard test method for hand-held bulk anthrax 
immunoassay kits is being prepared.
    Work is also progressing in the areas of training standards and 
personnel certification. Additional standards needs for both detection 
and response are being identified as part of a systematic evaluation of 
capabilities versus needs for standards to support the homeland 
security mission related equipment, operators, models and analyses, 
data and information, and integrated systems.
    Question. How will the Department take into account the needs of 
the local end-user, such as the police or the mass transit authorities, 
to develop the most sophisticated detection devices? Does the 
Department intend on providing any pilot or seed money to involve the 
private sector in working on these sets of standards? What are the 
complexities in establishing such a system, and how would you 
characterize your progress so far in meeting this responsibility?
    Answer. The needs of the local end-user community are a key part of 
the DHS S&T standards development process. The very first step in our 
process includes input from users to help determine performance 
guidelines. The actual development of performance measures, facilitated 
by standards experts, represents a balance among three drivers. The 
user is engaged to provide guidance on operating conditions, procedures 
and functionality. Analysts who help define the threats provide 
information on the problem to be solved by detection devices. Finally, 
developers who understand governing scientific principles and the 
relative sophistication of the equipment provide information on the 
technical capabilities and limitations of the detectors. Reassessment 
of the standards based on lessons learned and equipment evolution is 
also an integral part of the planned process.
    The actual mechanism for engaging the user community--which 
includes State, local, and Federal Government end-users--varies. For 
the standards currently in development, the users have been engaged 
through established organizations that represent a wide range of users. 
One example is the Interagency Board for Equipment Standardization and 
Interoperability (IAB). The State Homeland Security Advisors are also 
anticipated to be key resources for providing the right staff for input 
to the process. We expect that these groups and other technical 
organizations will provide a nucleus around which a capability will be 
built to obtain State and local responder participation in future 
standard development efforts and to provide information about how 
specific technologies conform with standards for procurement purposes. 
Organizations throughout the Department work with representatives of 
these entities and other key end users on a day-to-day basis, and we 
will leverage user input and feedback through these relationships.
    The private sector has already been involved in the process of 
developing voluntary consensus standards. Manufacturers, academics, and 
professional societies have been strongly represented in the groups 
that have already been activated. The traditional method for producing 
standards involves volunteers to lead and staff the writing groups. 
Some funding has been set aside to support the writing committee 
chairs. Funds have also been planned to help support the ANSI Homeland 
Security Standards Panel that will aid in cataloging and coordinating 
standards development with the professional societies that are the 
traditional source for United States' national voluntary consensus 
standards.
    In terms of the complexity in establishing a system that addresses 
standards relevant to DHS, the development of a suite of standards is a 
significant undertaking. The interrelated nature of the homeland 
security defensive system for emergency response--plus the need to 
ensure that the emergency system is interoperable and integrated with 
the existing infrastructure also adds to complexity. Incorporating the 
requirements of Federal, State, and local responders into a coherent 
and flexible system is essential but creates a very large-scale problem 
set. Finally, we are dealing with both a rapidly evolving threat and 
with constantly evolving technologies. Therefore, there is a crucial 
need to ensure flexibility in the standards that are developed or they 
will quickly become unusable, and an obstacle to the deployment of next 
generation technologies.
    We would characterize our progress to date as satisfactory. The 
process for developing standards traditionally takes a minimum of 18 
months and some standards have taken up to 15 or more years to develop. 
The proposed radiation detection standards have been developed in about 
6 months--and the rollout of the draft occurred less than a month after 
the Department became operational. Our future efforts will continue to 
use the ANSI existing standards development organizations and their 
memberships to expedite development and adoption of relevant standards. 
We also will provide funding to support what were heretofore strictly 
volunteer efforts, to expedite writing of critical standards for 
homeland security. We will champion the inclusion of users in all major 
stages of standards development--including the formulation of 
operational test protocols. We will also encourage the use of automated 
tools and web-based review and tracking to streamline the process. The 
assets provided by ANSI will be leveraged to build on existing 
standards and standard development expertise to fill the gaps and needs 
in our current system of standards.
                        concerns for rural areas
     Question. While there is concern about the Nation's largest urban 
areas being vulnerable to terrorist attacks there should also be equal 
concern about the Nation's rural areas. Much of the Nation's critical 
infrastructure such as bridges, highways, railroads, electric power 
lines, pipelines, and drinking water reservoirs and dams are located in 
rural America. Advances that have been made in information technology 
and the internet should make the task of securing the homeland easier 
and more cost effective by putting this technology to work in rural 
America to protect these critical infrastructures.
    (a) Does the threat and vulnerability, testing and assessment 
program include funding for technologies and systems which meet the 
threats that may arise in rural America?
    (b) Can you elaborate on the proposed formation and activation of 
the advanced research and development center that will include advanced 
technology support to the Department?
    Answer. (a) The Threat and Vulnerability, Testing and Analysis 
(TVTA) program's planned activities address the needs of rural regions 
in several ways. We are developing advanced information systems, tools 
and sensors in order to better detect possible terrorist intentions, 
and to help analysts map threats to specific targets including rural 
reservoirs, power generation plants, and agriculture. Many of these 
tools will be designed to be usable by local officials to aid in 
regional efforts to combat terrorism. The cost of deploying new sensor 
technologies in remote areas has often been high due to communication 
infrastructure needs. To enable a lower cost, rapidly deployable 
alternative, we are planning a demonstration of new capabilities to 
link sensors to central monitoring stations using existing Federal and 
private communications infrastructures. New portable technologies to 
detect threats, such as improved radiation and biological agent 
detectors, are being developed by the S&T Directorate. Sensors alone 
cannot solve the problems associated with potential terrorist threats. 
Looking beyond sensor technology, we will develop models of the 
behavior and motivations of terrorist organizations to better 
understand the conditions that may lead to a rural attack.
    (b) It is the S&T Directorate's role to support the needs and 
requirements of the Department of Homeland Security. The Science and 
Technology Directorate carries the responsibility for ensuring that the 
necessary research, development, test and evaluation (RDT&E) activities 
are carried out to support the Information Analysis and Infrastructure 
Protection (IAIP) mission in cybersecurity. To satisfy this mission as 
it relates to cybersecurity, it is our intention to create a RDT&E 
center for the Department's cybersecurity needs.
    The DHS Cybersecurity Center will team through partnership and 
cooperation with NSF and NIST. This center will be available to us 
through the academic community--including partners from industry, the 
national labs and other government programs. We see this as critical--
to combine all resources and efforts across the government R&D 
community to accelerate the technical solutions towards this issue.
    The Center will have five primary roles or functions, as follows:
  --Provide communication and coordination among various public and 
        private organizations dealing with the many diverse aspects of 
        cybersecurity. The Center will foster national and 
        international cooperation in creating a robust and defensible 
        cyber infrastructure.
  --Support the operational needs of the IAIP Directorate relative to 
        vulnerability assessments and new tools and methods for 
        enhancing cybersecurity. Through public-private interactions, 
        this center will also facilitate the implementation of 
        security-enhancing tools and methods by government and private 
        agencies.
  --Direct Support to IAIP: in addition to responding to DHS RDT&E 
        needs, the center may be asked to provide on-call technical 
        expert capabilities in support of emergency response for rapid 
        vulnerability mitigation in response to cyber threats.
  --The center will further identify and then implement RDT&E programs 
        to address specific gaps in the R&D community. A unique feature 
        of the DHS Center will be the utilization of existing or the 
        development of test beds where new cybersecurity methods, 
        tools, and approaches can be exercised in a controlled 
        environment and evaluated against common, accepted standards. 
        Developing the test beds and measurement-performance standards 
        will be an element of the center's program.
  --In order to have the necessary human resources who possess the 
        requisite knowledge and skills to advance and secure the 
        nation's cyber infrastructure, the center will foster 
        educational programs and curriculum development. This will be 
        done in conjunction with participating universities who can 
        serve as a nucleus for developing and disseminating new 
        materials to have the broadest possible benefit to the nation 
        and the upcoming stream of scientists and engineers.
          department of health and human services coordination
    Question. The Homeland Security Act authorizes Secretary Ridge to 
set research and development priorities for anti-terrorist 
countermeasures, but it also gives authority to the Secretary of Health 
and Human Services to set priorities in civilian human health-related 
terrorism countermeasures.
    Have you entered into discussions with the Department of Health and 
Human Services to establish priorities for basic and applied biodefense 
research?
    Answer. Yes. In compliance with Homeland Security Act of 2002, 
Public Law 107-296, Section 302(2), the Department of Homeland Security 
(DHS) and the Department of Health and Human Services (HHS) are working 
together on biodefense research priorities. During the transition 
period leading to establishment of the DHS, the HHS provided an 
individual to the Homeland Security Transition Planning Office. 
Subsequently, several steps were taken to formalize a continuing 
interaction. An interagency coordinating committee, co-chaired by The 
Executive Office of the President's National Science and Technology 
Council (NSTC), the Homeland Security Council (HSC) and the Office of 
Management and Budget (OMB), has been established as the vehicle for 
coordinating and prioritizing the national bio-defense research, 
development, test and evaluation agenda. A Memorandum of Understanding 
(MOU) between the Department of Health and Human Services and the 
Department of Homeland Security has been established to enable closer 
coordination on issues that are specific to DHS and HHS.
    Question. How do you propose to cooperate with the Department of 
Health and Human Services to set priorities and resolve conflicts?
    Answer. Two key steps are being taken to formalize our cooperation 
with the Department of Health and Human Services in setting priorities 
and resolving conflicts. First, an interagency coordinating committee, 
co-chaired by The Executive Office of the President's National Science 
and Technology Council (NSTC), the Homeland Security Council (HSC) and 
the Office of Management and Budget (OMB), has been established as the 
vehicle for coordinating and prioritizing the national bio-defense 
research, development, test and evaluation agenda. This Chemical, 
Biological, Radiological and Nuclear Research Coordinating Committee 
(CBRN-RCC) will be the primary vehicle for coordinating and 
prioritizing the multi-agency annual bio-countermeasures research 
agenda and portfolio and will be responsible for planning for specific 
R&D efforts in bio-countermeasures. Second, the Memorandum of 
Understanding (MOU) established between the Department of Health and 
Human Services and the Department of Homeland enables closer 
coordination on issues that are specific to DHS and HHS.
      homeland security advanced research projects agency (hsarpa)
    Question. The newly created Homeland Security Advanced Research 
Projects Agency (HSARPA) was patterned after the Department of 
Defense's (DoD) Advanced Research projects Agency and intends to speed 
up the development of technologies that would address homeland security 
vulnerabilities. There is concern whether the $350 million requested 
can be effectively and efficiently used and whether the Department of 
Defense's Advanced Research projects Agency is applicable for homeland 
security research and development.
    What is your schedule for creating this agency, do you intend to 
staff it with existing personnel or new personnel, and when do you 
expect it will begin operations?
    Answer. HSARPA will be operational no later than June 1, 2003. At 
that time it will have few dedicated staff, and will be operated by 
personnel from S&T headquarters in a ``dual-hatted'' mode. HSARPA will 
be staffed with new personnel.
    Question. What are the major tasks that must be accomplished to 
create this agency, and what do you consider to be the most difficult 
challenges you will face its creation?
    Answer. Key tasks are staffing, and developing the contracting 
processes needed to access the private sector. Staffing HSARPA with 
people of the highest quality, and with knowledge and skills at the 
cutting edge of technology, represents the most difficult challenge in 
setting up the Agency.
    Question. Of the $350 million requested for this new entity in how 
much of these funds include efforts funded elsewhere in the Department 
or by other agencies in fiscal year 2003 and prior years and how much 
represents funding for new activities?
    Answer. All of the efforts contemplated for HSARPA in fiscal year 
2004 are either new starts in fiscal year 2004, or continuations of 
activities started within DHS (S&T) in fiscal year 2003.
    Question. How much of the $803 million requested for the Science 
and Technology Directorate in fiscal year 2004 continues ongoing 
programs, and how much funds new research and development activities? 
How much of these funds goes for actual technology and systems 
development and how much for more generic basic and applied research?
    Answer. $400 million of the $803 million represents new activities. 
The remainder are continuations or enhancements to activities initiated 
in fiscal year 2003. How much of the funds will go for actual 
technology development versus basic and applied research is difficult 
to answer at this time; DHS does not break down its RDT&E efforts into 
6.1-6.4 categories like DOD. It is safe to say, however, that our 
initial focus will not be in basic research (6.1), but rather 6.2-6.3 
(to use DOD categories). There are exceptions, however. Some of the 
cyberforensics efforts will be 6.1 in nature, as will our efforts in 
the social sciences (such as behavioral or autonomic indicators of 
hostile intent, or efforts to develop an understanding to peoples' 
reactions to threat warnings).
    Question. The largest component of these funds is $365 million for 
Biological Countermeasures, much of which may be executed through the 
less than 1-year old National Biodefense Analysis and Countermeasures 
Center that transferred from DOD. How much of these funds are for new 
activities, and how much for efforts less than 1 year old that have 
transferred from DOD?
    Answer. Of the $365 million in the fiscal year 2004 Biological 
Countermeasures budget, approximately $180 million is for the National 
Biodefense Analysis and Countermeasures Center (NBACC). Of that $180 
million, $90 million is for continuation of activities begun in fiscal 
year 2003 to address recognized deficiencies in the nation's 
preparation and response to bioterrorism. The remaining $90 million is 
for initiation of construction of the NBACC facility that is a 
continuation of the $5 million fiscal year 2003 investment in 
construction planning and design. These are activities over and above 
existing Department of Defense programs, the need for which was 
recognized by both the then Office of Homeland Security and the 
Department of Defense in their original request for NBACC. The Homeland 
Security Act of 2002 transferred these responsibilities to the new 
Department of Homeland Security.
    Question. How much of these funds are for continuing older 
activities at DOD?
    Answer. None of the requested NBACC funding is for continuing older 
activities at the DOD. The NBACC appropriations and programs were 
initiated in fiscal year 2003 to address recognized deficiencies in the 
nation's preparation and response to bioterrorism. These are activities 
over and above existing Department of Defense programs, the need for 
which was recognized by both the then Office of Homeland Security and 
the Department of Defense in their original request for NBACC.
    Question. Do you intend to alter any of the research priorities 
established by DOD for these programs?
    Answer. There is no intent to alter the vision or research 
priorities of the National Biodefense Analysis and Countermeasures 
Center (NBACC) program identified by the Department of Defense (DOD). 
The Department of Homeland Security (DHS) supports the NBACC research 
priorities originally established by the DOD, and now supported by DHS. 
The NBACC program includes addressing the issues of characterization of 
these biological threats. Highest priority is given to this risk and 
vulnerability analysis, which identifies the nature of newly emerging 
threats and potential countermeasures to mitigate these threats. This 
information and data will comprise a net assessment and will be used to 
provide a scientific foundation to comply with the provisions of Public 
Law 107-296, Section 302(2). The NBACC will operate in a hub and spoke 
laboratory model, with the majority of the funds distributed to high 
value facilities in academia, industry and the national laboratory 
system. Four centers are being established in fiscal year 2003, each 
setting research priorities, and each partnered with a principal 
Federal agency. The Bioforensics Center, as an example, is partnered 
principally with the Federal Bureau of Investigation (FBI) to develop 
an unimpeachable program for analysis and attribution studies of 
biological materials obtained from legal casework or foreign materials 
identified as potential bio-terrorist or biological warfare threats.
    Question. The submitted statement indicates that the $137 million 
sought for Radiological and Nuclear Countermeasures will, in part, fund 
concurrent efforts to deploy, evaluate, and improve currently available 
technologies and R&D on advanced technologies.
    Concurrent efforts usually require a certain level of maturity in 
the underlying technologies before they can deployed successfully. What 
technologies in this area do you think will be mature enough to support 
this type of development in fiscal year 2004?
    Answer. Nuclear material portal monitors, hand-held search and 
isotope identification equipment, personal dosimetry devices, and 
imaging systems are commercially available. Immediate limited 
deployment in fiscal year 2004 of this equipment in varied operational 
and environmental contexts will meet three objectives: getting 
available nuclear detection equipment into the field at key locations, 
focusing research and development by more thorough elucidation of 
technical limitations and operational issues and constraints of 
existing commercially available equipment, and establishing field test-
beds for rapid testing and evaluation of prototype equipment as it 
becomes available. This three-pronged approach is important for 
assuring that the right research and development projects are pursued 
and that the products can be quickly and effectively implemented into 
the countermeasure system that meet end-user needs.
    Question. Within the limits of unclassified information, what are 
the most promising advanced technologies that you will be developing in 
the Radiological and Nuclear Countermeasures area?
    Answer. The existing nuclear technology base was developed for 
applications including nuclear materials safeguards, environmental 
monitoring and clean-up, and nuclear facility decommissioning and 
demolition. This technology base is an important starting point for 
advanced technology research and development initiatives that address 
current and future nuclear and radiological threats. These initiatives 
include technologies for passive detection and discrimination of 
radiological and nuclear materials that will benefit multiple DHS 
missions. Specific passive detection thrust areas include room 
temperature detector technologies, imaging systems, low-cost detector 
concepts, and mobile detection systems. Active interrogation 
technologies will also be developed to address critical gaps in our 
current capabilities (e.g. detection of highly enriched uranium and 
shielded nuclear and radiological material). Concepts in this area 
include gamma-induced fission systems and neutron interrogation 
systems. New capabilities to search for and neutralize threats are 
needed and will be pursued; specific areas include broad area search 
and characterization, information analysis and assessment, and render 
safe technologies. Development efforts to provide rapid detection, 
triage and decontamination technologies will address identified 
consequence management and recovery technology gaps.
    Question. The submitted statement discusses plans for ``continuous 
insertion (of these advanced technologies) into operational use.'' A 
major challenge for research and development activities is the actual 
transition of technologies into fielded systems. Incomplete, delayed, 
or unsuccessful transition is not uncommon, at least in Defense 
Department advanced technology programs.
    What specific steps will you take to minimize the problems usually 
associated with transitioning advanced technologies into operational 
use?
    Answer. Technology transition is a key goal for the DHS S&T 
Directorate. We are taking a multilayered approach. First, we involve 
the user community at the outset of any project we undertake in order 
to develop program goals. As the program matures, the user community 
will also contribute to the development of system requirements and 
operational concepts. Second, we will engage in demonstrations 
periodically through the development process to generate feedback from 
the user and reduce technical risk. Finally, HSARPA will engage, where 
appropriate, in pilot deployments of the technology, where operators 
use the equipment in an operational setting while DHS S&T provides 
technical support and funds the operations and support costs. This 
pilot deployment concept reduces operational risks to the user, 
provides insight for product improvement, and allows the user to budget 
for system procurement and support costs at an appropriate level of 
maturity.
    Question. In providing support for other DHS components, such as 
the Coast Guard and Border and Transportation Security Directorate, you 
stated says ``research and development in potentially high payoff 
technologies will be emphasized.''
    What potentially high payoff technologies exist in this area, and 
how do they differ from those already being developed by R&D funds 
sought in separate R&D budget requests in some of these components, 
such as TSA and the Coast Guard?
    Answer. The purpose of DHS S&T is to ensure alignment with the 
National Strategy and implement an overall DHS/S&T strategy. The DHS 
S&T strategy includes coordinating and incorporating the strategies of 
individual components such as TSA and Coast Guard to ensure our efforts 
are leveraged to the maximum extent possible.
    From the Coast Guard's perspective, the greatest opportunities with 
S&T funding lie in developing technologies for the detection of threats 
in the chemical, biological, radiological and nuclear (CBRN) domain. 
The tools developed by S&T's investments will have significant 
applicability for the U.S. Coast Guard in the maritime environment. The 
Coast Guard is positioned in this effort to work with S&T to help 
integrate various types of sensors to improve overall capability, 
including portability, and to identify capability gaps in detection 
where technology offers opportunities. The support and collaboration 
DHS S&T provides will accelerate the development and deployment of 
these critical CBRN detection technologies and capabilities; clearly 
the CG enjoys a complimentary relationship with DHS S&T in this 
endeavor.
    Another high payoff technology example is Unmanned Aerial vehicles 
(UAVs) for both Border and Transportation Security as well as Coast 
Guard applications. DHS S&T is investigating whether implementing UAVs 
could strengthen security along the borders and ports as well as 
monitoring the safety and integrity of critical infrastructures. 
Additionally, as part of the Integrated Deepwater System, the Coast 
Guard plans to utilize UAVs.
    High payoff technologies to detect and counter biological, 
chemical, and radiological and nuclear threats and attacks will benefit 
multiple components of DHS.
    Question. DHS statements about its R&D activities frequently refer 
to rapid prototyping, and $30 million of the $803 million requested is 
``to solicit from the private sector near-term capability that can be 
rapidly prototyped and fielded.''
    Is this $30 million the only funding for rapid prototyping efforts, 
and what are the key technologies and capabilities that you believe are 
ready for rapid prototyping?
    Answer. The $30 million is intended to solicit from industry near-
term technologies that may be available for rapid prototyping in 
priority areas in homeland security. Our expectation is that this will 
be sufficient funding for that purpose. Areas of interest where we 
expect substantive responses include personal decontamination 
technologies; protective gear; remediation technologies; sensors; 
cybersecurity capabilities; public training and outreach tools; and 
forensics.
    Question. The private sector is naturally optimistic about the 
readiness of its technologies for rapid prototyping. What factors will 
you evaluate to assess whether rapid prototyping potential is real or 
overstated?
    Answer. We will rely heavily on evaluating the technology on its 
scientific and engineering merits; the maturity of same; operational 
suitability (in terms of false alarm and miss probabilities, 
throughput, training, reliability, and support costs); and 
manufacturability.
    Question. What are the principal components of the $803 million 
request that comprise the $350 million intended for the new Homeland 
Security Advanced Research Projects Agency?
    Answer. The research activities that we will conduct in HSARPA cut 
across the priorities for DHS S&T. Thus, the research activities 
planned include:
  --Biological Countermeasures.--This includes remediation 
        technologies, and development of the next generation of 
        environmental sensors.
  --Chemical Countermeasures.--This includes remediation technologies 
        and development of facilities monitoring and response systems.
  --High Explosives Countermeasures.--Included here are activities 
        designed to detect at range large quantities of high explosives 
        (i.e. truck bombs).
  --Radiological and Nuclear Countermeasures.--Included here are new 
        concepts for actively probing for the presence of fissile 
        material, and for taking advantage of long residence times in 
        ship containers to passively detect fissile material.
  --Critical Infrastructure Protection.--Included here is reaching out 
        to the academic community to develop and test methodologies for 
        systematically revealing interdependencies among 
        infrastructures.
  --Support to DHS Components.--Included here are activities supporting 
        conventional missions of the Department, such as advanced 
        biometrics, and advanced techniques for monitoring the border.
  --Rapid Prototyping Program.--Organizationally, the technology 
        clearinghouse is managed under HSARPA. Thus, the TSWG BAA, and 
        rapid prototyping activities occur here.
  --IT Infrastructure.--Included here is developing advanced scalable 
        techniques for organizing extant disparate databases and 
        conducting queries of same efficiently.
                                 ______
                                 

               Questions Submitted by Senator Ted Stevens

                               SAFETY Act
    Question. The purpose of the SAFETY Act provisions (at Subtitle G--
Sections 861-865) in the Homeland Security Act was to encourage 
immediate deployment of existing anti-terrorism technologies--
especially for high risk potential targets. However, nothing has yet 
been done to implement the SAFETY Act. We understand that OMB has 
drafted implementing regulations that are awaiting review at the 
Department of Homeland Security.
    When will these regulations be issued?
    Answer. It is not possible at this time to identify a specific date 
on which these regulations will be issued. The regulations to implement 
the SAFETY Act are a high priority and are presently under review at 
DHS. DHS is working with the Office of Management and Budget (OMB) to 
finalize an initial set of SAFETY Act regulations. We expect to publish 
these regulations for comment very shortly. Following the public 
comment period, the regulations will be finalized and issued.
    Question. Will they be effective immediately?
    Answer. The point at which the regulations will become effective 
following their finalization is also under discussion.
    Question. How does DHS plan to staff implementation of the SAFETY 
Act so that technologies can be qualified quickly?
    Answer. DHS has researched using a combination of private and 
public sector certification efforts to help understand the likely 
needs--in terms of process, facilities, and staff. DHS will reach out 
to the private sector to staff and perform specific tasks in the 
process. DHS will also leverage current USG assets and processes to the 
extent possible to proceed quickly with SAFETY Act implementation.
    Question. In order to avoid the delay associated with a lengthy 
rulemaking and qualification process, will DHS consider an emergency 
qualification process that at least lets the top10 high risk sites get 
technology in place?
    Answer. There are plans for both an immediate implementation path, 
as well as for a longer-term ``ideal state'' process that would 
implement the SAFETY Act. The technologies that will be considered in 
both types of processes will focus on those technologies and systems 
that have been demonstrated to make the largest contribution to risk 
reduction for the homeland security defensive system--and that meet the 
criteria contained in Subtitle G. Each geographical site and type of 
facility will have different types of vulnerabilities. They will also 
have different probabilities for attack and different means of attack 
will have different consequences. Understanding the contribution of a 
specific technology on the total system must include consideration of 
the synergies and the respective degree of impact on overall risk.
    Question. What steps can DHS take right away to qualify key 
technologies for high priority sites?
    Answer. An expedited process for consideration of high profile, 
high-consequence technologies is being developed. The technologies must 
meet the criteria of Subtitle G. They must also be assessed to be 
effective with respect to significant reduction of overall system 
vulnerability and adequate information and data must be available to 
allow DHS to address the effectiveness and adequacy of the technology 
in the system context.
    Question. Is it correct that DHS has several pending applications 
for qualification?
    Answer. DHS does not have an application process in place. The 
process will be contingent upon issuance of regulations. Public 
notification of the application process and of the select categories of 
technologies that will be considered for certification will be made 
through the DHS website after regulations are issued.
    Question. Does DHS have a list of high priority sites and their 
needs?
    Answer. DHS has been considering overall system vulnerabilities and 
methods to assess gaps and needs. Many methods have been used to 
develop this understanding, and much of this knowledge has been derived 
from studies done by other USG agencies that had homeland security 
responsibilities prior to March 1, 2003. This process will become 
increasingly more rigorous as a more complete suite of tools is 
developed and implemented. Thus, we expect our assessment of high 
priority aspects of the system to evolve in response to both increased 
understanding and with changing conditions.
    Question. If not, what can be done to get that information rapidly 
before DHS?
    Answer. The question of specific sites versus system vulnerability 
is answered above.
    Question. What else can we do to reduce delay in making this 
technology available?
    Answer. It is critical that, both in the initial stages of SAFETY 
Act implementation as well as in the future when the process has 
reached its ideal state, that only the most important technologies, in 
terms providing major risk reduction, are considered for certification. 
The system will quickly become overloaded and extremely burdensome if 
every conceivable technology must be reviewed or evaluated.
    Question. Can you report back to us within a week as to how an 
emergency process might begin?
    Answer. Until DHS and OMB have completed their review and have 
issued guidance for the actual implementation of the SAFETY Act, it 
would be premature to discuss an emergency process. However, much 
thought and research is going into this topic so that the Department 
will be prepared to move out quickly after issuance of the guidance.
                                 ______
                                 

             Questions Submitted by Senator Mitch McConnell

    Question. Would you please describe the process that the 
Department, or more specifically, the Science and Technology 
Directorate, will use in soliciting and evaluating research proposals 
so as to ensure that the highest quality proposals receive funding?
    Answer. In all cases the Department will rely on review by experts 
in the field. In addition, for directed (e.g. applied) research, 
selection criteria will also include responsiveness to the programs 
needs, schedule and cost realism, and key personnel.
    Question. Would you please describe what proportion of the Science 
and Technology efforts of DHS will focus on basic research and what 
proportion will focus on application of new technology?
    Answer. This question is difficult to answer at this time; DHS does 
not break down its RDT&E efforts into 6.1-6.4 categories like DOD. It 
is safe to say, however, that our initial focus will not be in basic 
research (6.1), but rather 6.2-6.3 (to use DOD categories). There are 
exceptions, however. Some of the cyberforensics efforts will be 6.1 in 
nature, as will our efforts in the social sciences (such as behavioral 
or autonomic indicators of hostile intent, or efforts to develop an 
understanding to peoples' reactions to threat warnings).
    Question. Presumably, universities and private sector industries 
will conduct much of this research. What proportion of total research 
funding will be provided to universities and what proportion will be 
provided to the private sector?
    Answer. At this time, no requests for proposals for the work have 
been issued or proposals received. We will award funds based on 
technical merits, responsiveness to program needs, schedule and cost 
realism, and other metrics as appropriate. However, some funds will be 
applied to university centers of excellence, and to graduate and 
postdoctoral research efforts in support of homeland security. The 
President's budget request includes $10 million for these latter 
activities.
    Question. In your testimony you mentioned that you are requesting 
``$10 million to support strategic partnerships with the academic 
community to provide support for qualified students and faculty.'' I 
believe other Federal agencies that fund research also fund graduate 
fellowship or traineeship programs. Will the Department, or more 
specifically, the Science and Technology Directorate, fund graduate 
fellowships or traineeships? If so, would you please describe in 
general terms how that funding program will operate?
    Answer. The S&T Directorate is committed to building a cadre of 
dedicated scientists and engineers who will pursue careers in homeland 
security related disciplines and who will, in turn, encourage the next 
generation of experts to follow in their footsteps. To that end, we are 
working with national organizations such as the American Association of 
Universities, American Association for the Advancement of Science, the 
National Academy of Sciences, and the National Science Foundation to 
develop mechanisms that maximize our ability to tap the wealth of 
talent at the nation's universities and colleges to pursue disciplines 
related to the diverse portfolio of homeland security programs. A key 
element of this effort will be the establishment of the Homeland 
Security Scholarship and Fellowship Program. Our goal is to make this a 
premier program--on par with those of NIH, NRC, NASA and others--that 
encourages outstanding students and faculty to work in homeland 
security related fields. The key to making this program a success will 
be the engagement of university and college faculty and administration 
throughout the process. In fiscal year 2004 we will model the execution 
of this program on the fellowship/scholarship programs sponsored by the 
National Science Foundation.
                                 ______
                                 

             Questions Submitted by Senator Richard Shelby

    Question. What is the Directorate doing to develop a national 
structure for science and technology analysis and development?
    Answer. Section 302(2) of the Homeland Security Act requires the 
development of a national strategy and policy for homeland security 
research, development, test and evaluation (RDT&E). In fiscal year 
2003, DHS S&T is committing $10 million to develop this strategy, which 
includes efforts to catalog Federal efforts in this area, and, working 
with the Information Analysis and Infrastructure Protection 
Directorate, conducting threat analysis and vulnerability assessments 
to assist in prioritizing the national effort.
    Question. Alabama, and specifically the Huntsville metropolitan 
area, offer a unique opportunity for the Department of Homeland 
Security's Science and Technology Directorate. The Huntsville area 
maintains one of the highest, if not the highest, number of PhD's per 
capita in the nation. These individuals' immeasurable expertise in 
areas unique to the Homeland Security and Defense industries is too 
great a resource to leave untapped by the Department. I would encourage 
you to consider the Huntsville area when you continue to discuss the 
framework of the Science and Technology Directorate. To that end, what 
is the Directorate doing to take advantage of this great source of 
information, analysis, and invention?
    Answer. DHS S&T is well aware of the technical and scientific 
capabilities resident in the Huntsville area, which includes many 
significant Federal systems engineering and scientific facilities such 
as NASA, SMDC, MICOM, as well as a significant and highly capable 
contractor base. DHS S&T will avail itself of the entire National RDT&E 
enterprise, including as appropriate the significant capabilities 
resident in Huntsville, Alabama. Dr. McQueary visits the Huntsville 
area on May 12, 2003, as a result of their invitation.
                                 ______
                                 

               Questions Submitted by Senator Larry Craig

                   critical infrastructure protection
    Question. I have worked with the Department of Energy for some 
time, on programs to secure the nation's critical infrastructure from 
attack. I have worked to provide funding in Energy and Water for the 
establishment of a Critical Infrastructure Protection Test Range at the 
Idaho National Engineering and Environmental Laboratory. I think it is 
essential to actually put these systems under mock attack and see if 
the protection technologies work. Much effort is being expended to 
develop extensive models of our critical infrastructures and their 
interdependencies. There is no question that protection of our critical 
infrastructures is a vital priority for our nation. However, I have 
concerns that huge sums are being invested in computer models without 
having adequate data to support them. Idaho's lab provides a unique 
capability to do this, because it is a remote, 900 square mile Federal 
installation with its own electrical, communications and water systems. 
Almost like a virtual city, it has everything from its own traffic 
lights to its own nuclear reactors. Given my work on this issue, 
however, I would suggest to you that your requested budget for critical 
infrastructure protection--$5 million out of a budget of $803 million--
is inadequate. This isn't sufficient to develop technologies, much less 
test them. I will be looking closely at your plans in this area.
    Please explain the requested level of your budget given our 
security needs in this area.
    Answer The S&T Directorate has actually budgeted a total of $15 
million for Critical Infrastructure Protection for fiscal year 2004. In 
addition, there will be several technology programs in the Critical 
Infrastructure Protection area supported by the Information Analysis 
and Infrastructure Protection Directorate which is DHS' lead component 
for critical infrastructure protection, and with which S&T's activities 
are coordinated. There is a need for data for model validation and 
experimental verification of all computer models, simulations, and 
analyses. We have met with the staff of the Idaho National Engineering 
and Environmental Laboratory and they are working with us to develop 
Critical Infrastructure Protection R&D programs.
                          radiological attack
    Question. Much of the work of countering the threat of radiological 
attack resides in detecting these materials before they are brought 
into an area and detonated. Department of Energy national laboratories 
have been doing work on this issue for years. Through their work on 
nuclear fuel cycles, DOE labs such as Argonne, have a lot of expertise 
in detecting and measuring radiological events. I would not want to see 
this work duplicated elsewhere.
    Could you provide for the record any plans you have for conducting 
research on detection and intervention capabilities along these lines 
at the national laboratories?
    Answer. Detecting materials that might be used in a radiological 
attack requires understanding the potential threats and how specific 
technologies and systems of multiple technologies can impact these 
threats. Research and development in systems integration and systems 
analysis will provide an effective, integrated system architecture and 
the capability for regularly assessing and rapidly optimizing the 
nuclear countermeasure system. Development of needed detection 
technologies and countermeasure systems will build on the previous 
efforts of the national laboratories. Detecting radiological and 
nuclear threats before they become dangerous requires new capabilities 
for new operational deployment strategies. These new technologies and 
systems will augment the currently available capabilities (commercially 
or from government and academic laboratories) that can be employed 
today in the nuclear countermeasure system.
                                 ______
                                 

             Questions Submitted by Senator Robert C. Byrd

               under secretary for science and technology
    Question. For each portfolio and activity described in the 
congressional budget justification, please provide a detailed 
description of the programs and initiatives being funded in your base 
budget as well as the request for fiscal year 2004, including the cost 
associated with each.
    Answer. See table below. For the fiscal year 2003 base, which 
reflects activities transferred to the Department in Public Law 107-
296, a reprogramming letter has been submitted to the House and Senate 
Appropriations Committees.



[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]



    Question. Provide the number of FTE associated with each portfolio 
and activity described in your fiscal year 2004 budget justification.
    Answer. See table below:

------------------------------------------------------------------------
                                            Fiscal Year
                                              Request           FTE
------------------------------------------------------------------------
Biodefense..............................            $365              63
Nuc/Rad.................................             137              22
Chemical Countermeasures................              55              10
High Explosives.........................              10               2
Threat and Vulnerability Testing and                  90              16
 Assessment.............................
Standards/State & Local Programs........              25               4
Rapid Prototyping.......................              30               5
Emerging Threats........................              22               4
Critical Infrastructure Protection......               5               2
Support to DHS Components...............              55              10
HS Fellowship Programs/Univ Programs....              10               2
                                         -------------------------------
      TOTALS............................             804         \1\ 140
------------------------------------------------------------------------
\1\ Excludes 40 FTE's associated with the Directorate's management and
  61 FTE's for the Environmental Measurements Laboratory.
Note: Numbers rounded to nearest thousand.

    Question. For each office on the ``S&T Organizational Chart'' 
provided to the Subcommittee provide a budget estimate and associated 
FTE's for fiscal year 2003 and fiscal year 2004.
    Answer. The Directorate will have 79 FTEs associated with the 
Office of the Under Secretary; the Office of Plans, Programs and 
Budget; the Office of Research and Development; and HSARPA. The 
estimated salary cost of fiscal year 2003 FTE's is approximately $8.5 
million. The S&T Directorate plans to have a staffing level for fiscal 
year 2004 of approximately 180 FTEs plus 61 FTE for the Environmental 
Measurements Laboratory (EML). The estimated salary cost of these FTEs 
is approximately $22 million to $27 million.
    Question. On page 25 of your budget justification, no funding is 
provided for ``Adjustments Necessary to Maintain Current Levels.'' Does 
the fiscal year 2004 budget account for the President's proposal for 
pay or any other economic assumptions? Provide an explanation of why 
``Adjustments to Maintain Current Levels'' are not included in your 
fiscal year 2004 budget estimates.
    Answer. Yes, the budget accounts for the President's pay and 
economic assumptions. These amounts are included in the budget numbers 
in fiscal year 2004 but not specifically broken out in Adjustments to 
Maintain Current Levels. Because most of the Science and Technology 
fiscal year 2004 activities are new or significantly increased, the 
portfolio-by-portfolio estimates were developed assuming that increases 
for pay and other economic assumptions would be accounted for within 
the overall portfolio growth.
    Question. Pursuant to Public Law 107-296, provide a detailed list 
of the functions transferred from other agencies to the Science & 
Technology Directorate, including personnel (FTE) transferred, physical 
infrastructure (if any), and associated funding with each function 
transferred.
    Answer. The Environmental Measurements Laboratory, Department of 
Energy, with an authorized 61 FTE's and 53 existing personnel 
transferred to the S&T Directorate. Six FTE's as well as the six 
incumbents of the National Nuclear Security Administration (NNSA), 
Department of Energy, also transferred to the Directorate.

----------------------------------------------------------------------------------------------------------------
               Transferred From                        Program Description         FTEs   Personnel    Funding
----------------------------------------------------------------------------------------------------------------
Energy........................................  Chemical Biological National           4          4  $48,005,527
                                                 Program.
                                                Nuclear Smuggling...............  ......  .........  ...........
                                                Nuclear Assessment Program......       2          2    5,584,000
                                                Biological and Environmental      ......  .........   20,000,000
                                                 Research.
                                                Advanced Scientific Computing R   ......  .........    3,068,000
                                                 & D.
                                                Environmental Measurements            61         53    3,048,287
                                                 Laboratory.
Agriculture...................................  Plum Island Animal Disease        ......  .........      ( \1\ )
                                                 Center.
Defense.......................................  Biological Research and Defense   ......  .........  420,000,000
                                                 programmatic activities.
----------------------------------------------------------------------------------------------------------------
\1\ Determination Order has not been finalized, since Plum Island Animal Disease Center transfers 6/03 to DHS.

    Question. What is your current on-board staffing level? What is 
your estimated staffing level for the end of fiscal year 2003? To 
better understand the makeup of the Science and Technology 
Directorate's workforce, provide a list of all positions by grade and 
job title or job classification.
    Answer. As of April 22, 2003, the entire S&T Directorate has 92 
personnel working. Thirty-seven are in the immediate Office of the 
Under Secretary; the Office of Plans, Programs, and Budget; and the 
Office of Research and Development. Two are in HSARPA. Fifty-three are 
at the Environmental Measurements Laboratory (EML) in NYC. The 92 
personnel consist of permanently assigned employees, employees detailed 
from within and outside DHS, Intergovernmental Personnel Act (IPA) 
assignments, and contractor support from the National Laboratories. The 
Directorate anticipates filling its 79 authorized FTE's, not including 
the 61 authorized the EML, by the end of fiscal year 2003. The 
Directorate may not be able to fill the 8 vacant FTE's at EML until the 
funding issue is resolved. Funding was transferred from DOE to cover 
only the 53 filled positions.
    The Directorate is currently writing position descriptions and 
having them classified. At this point, we are unable to provide a list 
by title, series and grade. Most of the positions will be classified as 
GS-13, 14, 15, ST, and SES and will be in the engineering (800) and 
sciences (400, 600, and 1300) series. Supporting positions will be 
primarily administrative, analytical, and program management at the GS-
7 through 15 in the 301, 340, 343, and 1515 series.
    Question. Provide the number of employees detailed from other 
agencies that are currently working for the Science and Technology 
Directorate.
    Answer. As of April 22, 2003, the Directorate had a total of seven 
personnel on detail from outside the Department
    Question. Provide a list (if any) of contracts entered into with 
federally funded research and development centers in fiscal year 2003, 
including the name of the research center and the amount of the 
contract.
    Answer. No contract has been entered into at this time in fiscal 
year 2003 with any FFRDC. DHS (S&T) is planning on contracting in the 
near term with the MITRE Corp to provide studies and analyses in 
support of our system engineering mission, for a sum of $1.2 million.
    Question. When will the Homeland Security Advanced Research 
Projects Agency (HSARPA) be established? How many employees will be 
employed at the HSARPA?
    Answer. HSARPA was established by Public Law 107-206, November 
2002, and will be operational no later than June 1, 2003. At that time 
it will have few dedicated staff, and will be operated by personnel 
from S&T headquarters in a ``dual-hatted'' mode. HSARPA will be staffed 
with new personnel. Currently planned FTE count is 56 at the end of 
fiscal year 2004. This number may change as program requirements and 
workload are analyzed in more detail.
    Question. Provide a list of all ongoing R&D activities, by agency 
and funding amounts, within the Department of Homeland Security.
    Answer. Outside of the S&T directorate, the following R&D 
activities are underway in the Department of Homeland Security:
  --The Transportation Security Administration (TSA) request includes 
        $75.2 million for research through TSA's Technology Center.
  --The Coast Guard request includes $22 million in fiscal year 2004 
        for research and development projects in areas such as 
        contraband detection, vessel stopping, Command Center Concept 
        Exploration, and Intelligent Waterways Research.
  --The Information Analysis and Information Protection (IAIP) 
        Directorate request includes $5 million in fiscal year 2004 for 
        cybersecurity research projects conducted by the National 
        Communications System.
    Question. Describe efforts underway to coordinate and integrate all 
research, development, demonstration, testing, and evaluation 
activities of the Department of Homeland Security.
    Answer. The S&T Directorate is working very closely with the other 
operational directorates in DHS to coordinate and integrate the RDT&E 
portfolio of the Department. To that end, all the S&T Portfolio 
managers also serve as liaisons to one of the operational organizations 
(e.g., BTS, IAIP, EP&R, USCG, USSS) with many of these staff being 
matrixed from their home organizations. The S&T budget directly 
reflects requirements identified by these end-users. In addition, the 
S&T Directorate has assumed government oversight for the Federal 
laboratories that transferred into the Department in fiscal year 2003. 
The S&T Directorate has an Office of Federal Laboratories that is 
responsible for ensuring that these facilities and programs are 
integrated into the overall RDT&E enduring capability of the 
Department.
    Question. Provide a list of Research & Development contracts the 
Science & Technology Directorate has entered into in fiscal year 2003 
and those planned for fiscal year 2004. For fiscal year 2003, the list 
should include the amount for each contract and the entity receiving 
the contract.
    Answer. The S&T Directorate has not yet entered into any new R&D 
contracts in fiscal year 2003. The S&T Directorate has assumed 
responsibility for direction and guidance for those programs 
transferred from other agencies to the S&T Directorate, including their 
existing R&D contracts. We will provide additional information on the 
scope and nature of those transferred programs upon request.
    The S&T Directorate has not yet determined the R&D contracts needed 
for fiscal year 2004 as these will be based on the final fiscal year 
2004 program plans and user requirements to meet the DHS mission.
    Question. For the Homeland Security Institute and the Homeland 
Security Science and Technology Advisory Committee, provide a timeline 
for the establishment of each organization, including progress to date 
and associated costs.
    Answer. The Homeland Security Science and Technology Advisory 
Committee will be established before the end of fiscal year 2003. The 
Homeland Security Institute will also be established before the end of 
fiscal year 2003. For the latter, a draft Request for Proposal (RFP) 
has been created, in consultation with Department of Defense FFRDC 
management.
    Question. Provide a summary of the Homeland Security Institute and 
the Homeland Advisory Committee's roles and responsibilities in 
furthering the development of homeland security science and technology.
    Answer. The Homeland S&T Advisory Committee will operate as a board 
of directors for the Directorate, in terms of providing strategic 
advice, management advice, and undertaking focused studies and projects 
as needed. The Homeland Security Institute will provide analytic 
support of unquestioned objectivity in such areas as threat and 
vulnerability assessments, technical assessments, cost analyses, 
systems analyses, test and evaluation criteria, and actuarial analyses.
    Question. Provide a list of cities where the Biological Warning and 
Incident Characterization System (BWIC) has been deployed, including 
plans for future deployment.
    Answer. The first phase of BWIC is known as BioWatch. The BioWatch 
deployment is more extensive than originally planned because of the war 
in Iraq and the associated heightened alert status. As a result, 
BioWatch is currently collecting data in 26 of the most populated 
cities. These cities are: New York, Los Angeles, Chicago, Houston, 
Philadelphia, Phoenix, San Francisco, Dallas-Ft. Worth, Boston, 
Detroit, Atlanta, Miami, Minneapolis-St. Paul, Cleveland, San Diego, 
St. Louis, Denver, Tampa, Washington D.C., Baltimore, San Antonio, 
Austin, Columbus, and Milwaukee. Please treat this list as For Official 
Use Only since revelation as to which cities do or do not have BioWatch 
might influence subsequent terrorist activity.
    If the current decreased alert status continues, it is our intent 
to scale back at the end of fiscal year 2003 the number of BioWatch 
cities to a subset of those highest on the threat list and to work with 
the Environmental Protection Agency (EPA) and the Centers for Disease 
Control and Prevention (CDC) to seek transition funding for these. In 
fiscal year 2004, we will field a pilot of the next generation wide 
area detection system in one of these cities. That system will support 
50 samples per day at the same operational cost as the existing 
BioWatch system which handles 10-12 samples per day. Local public 
health officials have identified this increased sampling as a critical 
step toward improved consequence management. Concurrently, we will be 
conducting R&D on advanced detectors which should enable us to upgrade 
BioWatch by replacing the air filters, which are currently collected 
manually and then brought to a central analysis lab, with distributed 
detectors that do the analysis at the point of collection and within an 
hour--thereby greatly reducing the warning time without increasing the 
operational costs.
    Question. Your fiscal year 2003 reprogramming request, received on 
April 9, 2003, makes reference to the Biowatch program. What is the 
difference between the BWIC and Biowatch programs?
    Answer. BioWatch is the first phase of an enhanced capability 
within the BioWarning and Incident Characterization System (BWIC). 
Deployed in response to the heighten tensions surrounding the Iraq 
conflict, BioWatch provides for early detection of possible aerosolized 
release of key agents in many of our cities and metropolitan areas. It 
does so by deploying aerosol collectors at existing EPA sites in and 
around these cities, then collecting the filters from these collectors 
every 24 hours and taking them to the nearest CDC Laboratory Response 
Network (LRN) lab for analysis. As noted in the answer to S&T-S52 
above, the plan is to upgrade this capability in the future to provide 
increased spatial and temporal sampling while maintaining or reducing 
the operational costs associated with the current BioWatch pilot.
    This upgraded environmental portion is one of three critical arms 
of BWIC. The second key arm of BWIC is an integrated biosurveillance 
system. Integrated biosurveillance will augment traditional clinical 
surveillance with less traditional surveillance techniques such as 
syndromic surveillance, advice nurse calls, over the counter drug sales 
and veterinary reports in the desire to provide a still earlier 
indication of potential exposure to a pathogen. We are currently 
working with CDC to define the key elements of such an integrated 
surveillance system. The third key arm of BWIC is to integrate the 
information from both the environmental monitoring (BioWatch) and 
biosurveillance systems with appropriate consequence managements tools 
(e.g. plume hazard prediction models and epidemiological models) to 
provide the incident commanders with the best possible estimate of the 
extent of the event so as to better guide the response. The integrated 
combination of these three elements--environmental monitoring, 
biosurveillance, and their integration into consequence management 
tools--comprises the BWIC system.
    Question. For the $91 million included in the Lands and Structures 
Object Classification line, please provide a detailed description of 
the project or projects planned with this funding, the amount for the 
project or projects previously appropriated, and the total amount 
necessary to complete the project or projects, the total amount 
currently authorized (if any), and whether additional authorization is 
required for the project or projects planned with this funding.
    Answer. The National Biodefense Analysis and Countermeasures 
Centers (NBACC) is to be established on a hub and spoke model with the 
NBACC hub--high security, biocontainment facilities--located at Fort 
Detrick, Maryland. The NBACC spoke facilities are partnering Federal 
laboratories as well as contract public and private sector specialty 
labs. Existing national biocontainment laboratory infrastructure, 
especially with the capability for safe, effective and controlled 
generation of biothreat agent aerosols within biocontainment 
laboratories, is insufficient to meet NBACC program needs. This was 
demonstrated by conducting a publicly advertised, sources sought, 
market survey in April 2002, and by examination of others' construction 
plans. The NBACC is comprised of four centers: (1) Bioforensics 
Analysis Center for unassailable analysis to support attribution of the 
use of biothreat agents (BTA) by criminals, state and non-state actors; 
(2) Bio-Countermeasures Test and Evaluation Center for validated 
countermeasure testing against BTA aerosol lab challenge; (3) 
Biodefense Knowledge Center to provide relevant training, data 
integration, analysis, and information dissemination while exploiting 
artificial intelligence technologies; and (4) Biothreat Assessment 
Support Center for laboratory studies of potential BTA and 
countermeasure efficacy to provide the essential scientific basis for a 
BTA net assessment and prioritization. The fiscal year 2003 
appropriation supporting the NBACC contained $5 million for facility 
planning analysis and design; these studies are presently incomplete. 
Additionally, the NBACC is being planned and coordinated as a component 
of the biocontainment laboratory infrastructure on the Fort Detrick 
BioDefense Campus. Participants include the Department of Defense and 
other Federal departments having operations at Fort Detrick. Since 
plans are presently incomplete, the full scope of NBACC facility 
requirements-individually and as shared infrastructure-and the detailed 
costs and schedules to complete these construction projects is not yet 
available. Existing authorization for these efforts is sufficient.
    Question. Will there be a National headquarters laboratory within 
the Science & Technology Directorate? If so, where?
    Answer. In accordance with the Homeland Security Act, the S&T 
Directorate has established an Office of National Laboratories. This 
office has the ability to access the expertise of all of the existing 
national laboratories through a Memorandum of Agreement signed by the 
Secretary of Homeland Security and the Secretary of Energy in February 
2003. DHS does not intend to establish a headquarters laboratory, but 
rather, it will sponsor homeland security programs at a variety of 
sites that leverage the vast talent of the national laboratory complex. 
The national laboratories are crucial elements of the enduring 
scientific and technical capability that DHS needs to execute its 
mission in the long term.
    Question. Describe the role the Science & Technology Directorate 
has played (if any) in responding to the Sudden Acute Respiratory 
Syndrome (SARS).
    Answer. S&T is monitoring the SARS outbreak closely with other 
Federal and State public health officials. The S&T Directorate has not 
funded any activities associated with SARS that normally fall under the 
jurisdiction of HHS, CDC and the Public Health Service.
    Question. Your budget shows a $30 million increase in equipment 
costs in fiscal year 2003 and then a decrease of $30 million in fiscal 
year 2004. Why was there such a large increase for equipment costs in 
fiscal year 2003?
    Answer. The $30 million is for equipment associated with the Bio-
Watch system that will be purchased and deployed in the fiscal year 
2003.
                                 ______
                                 

            Questions Submitted by Senator Daniel K. Inouye

               under secretary for science and technology
    Question. In your written testimony you state, a key part of our 
efforts will be conducted through the Homeland Security Advanced 
Research Projects Agency. It is my understanding that this agency will 
be modeled after DARPA, a program I have seen first-hand meet with 
great success. Your fiscal year 2004 budget request assumes that 
approximately $350 million will be used for this purpose. Could you 
please provide us with an update on the creation of that Agency and an 
estimated timetable for solicitation of the first round of grants?
    Answer. HSARPA will be operational no later than June 1, 2003. At 
that time it will have few dedicated staff, and will be operated by 
personnel from S&T headquarters in a ``dual-hatted'' mode. However, it 
is anticipated that several Broad Agency Announcements that cut across 
the portfolios within the Directorate will be issued soon afterwards.
    Question. I support the Directorate's Homeland Security Fellowship 
Program as an effort to support university-level study of science and 
technology. It is anticipated that this will help meet our country's 
need for qualified applicants for security related research and 
development positions. However, enrollment of U.S. citizens in graduate 
science and engineering programs has not kept pace with that of foreign 
students. I understand that this program would provide support to 
students and faculty, but I believe we need to work to encourage 
students to enter these fields, not only support those who choose these 
fields. How would the fellowship program work to entice U.S. citizens 
to enter into these fields?
    Answer. The S&T Directorate is committed to building a cadre of 
dedicated scientists and engineers in the United States who will pursue 
careers in homeland security related disciplines and who will, in turn, 
encourage the next generation of experts to follow in their footsteps. 
A key element of this effort is the establishment of the Homeland 
Security Scholarship and Fellowship Program. Our goal is to make this a 
premier program--on par with those of NIH, NRC, NASA and others--that 
encourages outstanding students and faculty who are U.S. citizens to 
work in homeland security related fields. The key to making this 
program a success will be the engagement of university and college 
faculty and administration throughout the process.
    Question. Your Directorate will develop standards for State and 
local homeland security infrastructure equipment. Do you anticipate 
that these standards will be guidelines and suggestions, or do you 
anticipate that our State and local entities will be required to 
purchase equipment and implement training programs in compliance with 
the standards your Directorate develops? If these standards will be 
mandatory, what financial assistance will the Department provide for 
the purchase of compliant equipment?
    Answer. In accordance with OMB Circular-119, the standards 
developed and used by DHS for homeland security equipment will 
primarily be voluntary consensus standards. As such, these equipment 
standards will function as guidelines that set minimum performance 
specifications to ensure that the equipment will have basic 
functionality, will be adequate for the task for which it is intended, 
and demonstrates a basic level of efficiency, interoperability, and 
sustainability. In general, specific equipment purchases will not be 
mandated by DHS. However, we anticipate that the existing grant 
programs will tie allowable purchases to equipment that has been shown 
to meet an accepted DHS standard. In addition, if equipment standards 
are established or mandated as part of a National Incident Management 
System, then failure to adopt those standards will, per Homeland 
Security Presidential Directive #5, render a jurisdiction ineligible 
for any preparedness-related grant or contract funding, not just 
equipment-related grants. Our plan is to ensure that training programs 
providing proficiency on equipment that meets standards will also be 
covered to some extent by the existing USG funding programs. There is 
great interest from the State and local emergency response community in 
having the standards needed to make intelligent and potentially life 
saving decisions when it comes to equipment purchase. Therefore, 
providing these standards is a very important component of our mission.
    HR5005 invests the Secretary with regulatory authority. There may 
be some very specialized cases where issues of human health and safety 
dictate promulgation of regulations. Those special cases where specific 
types of equipment are made mandatory will likely be considered 
separately in terms of government funding that would be made available 
for deployment.

                          SUBCOMMITTEE RECESS

    Senator Cochran. This concludes our hearing today.
    We will continue to review the fiscal year 2004 budget 
request for the Department of Homeland Security on Wednesday, 
April 30, at 10 a.m. in room 106 of the Dirksen Senate Office 
Building. Our witness at that time will be the Secretary of 
Homeland Security, Tom Ridge.
    The subcommittee stands in recess.
    [Whereupon, at 2:54 p.m., Thursday, April 10, the 
subcommittee was recessed, to reconvene at 10 a.m., Wednesday, 
April 30.]










  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2004

                              ----------                              


                       WEDNESDAY, APRIL 30, 2003

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:04 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Thad Cochran (chairman) presiding.
    Present: Senators Cochran, Stevens, Specter, Domenici, 
McConnell, Shelby, Gregg, Campbell, Craig, Byrd, Inouye, 
Hollings, Leahy, Harkin, Mikulski, Kohl, and Murray.

                    DEPARTMENT OF HOMELAND SECURITY

STATEMENT OF HON. TOM RIDGE, SECRETARY
    Senator Cochran. The committee will please come to order.
    Today, as the subcommittee continues its hearings on the 
fiscal year 2004 budget request for the Department of Homeland 
Security, we are faced with historic challenges. For the first 
time in at least 40 years, Americans are facing direct threats 
to our country and to our personal safety at our workplaces and 
in our homes. The new Department of Homeland Security is a key 
component in the effort to combat terrorism and we are very 
pleased to have with us today the head of that new Department, 
Secretary Tom Ridge.
    Mr. Secretary, I think you and the President have made 
impressive progress in the effort to make America safer and 
more secure. You have worked with the Congress to obtain 
passage of the Homeland Security Act, to create the Department 
of Homeland Security and bring together 22 Federal 
organizations and some 180,000 employees to achieve this higher 
level of safety and security.
    But, we all know that more needs to be done. The 
President's budget request for this Department for fiscal year 
2004 is $36.2 billion. We look forward to your testimony, Mr. 
Secretary, in support of this budget request.
    I also have had an opportunity this morning to read a copy 
of the remarks that you made on the occasion of the first 100 
days of the existence of the Department of Homeland Security 
that you delivered at the National Press Club here in 
Washington yesterday. I thought it was informative. You have 
also prepared a statement for the committee and we will make 
that a part of our hearing record in full.
    We want to be sure as we review this request that we 
provide a level of funding that is consistent with the threats 
we face and that we can reasonably expect to be used to achieve 
our goal of a safe and secure homeland.
    Before proceeding to hear your testimony, I want to 
recognize Senator Byrd, the ranking Democrat member of the 
committee, for any opening statement he may have, and then we 
will recognize other Senators in the order in which they 
appeared at the hearing. Senator Byrd.
    Senator Byrd. Thank you, Mr. Chairman. How are you, Mr. 
Secretary?
    Our country is a great and powerful Nation and we have been 
able to put a man on the moon and bring him back to earth 
again. Man has long looked at that moon and longed for 
centuries to put his foot on that moon. But we haven't been 
able to perfect a good public address system.
    This one may work. Let me thank you, Mr. Chairman. We have 
a good chairman who is a stickler for getting started on time 
and I am glad to see that. A few days ago, I said to him, if I 
am not there on time, go ahead, so we have that understanding, 
and I thank the other members of the subcommittee for their 
presence and their interest and their attention.
    Ours is a society built on freedom. We have designed our 
society to make our people and our institutions accessible, 
with freedom of movement and access to information. You have 
said, Mr. Secretary, that we are a Nation at war and that 
another terrorist attack here in America is inevitable. You 
have said that the attacks such as the attacks of September 11 
are long-term threats that will not go away. I do not disagree 
with that assessment.
    Your Department has the responsibility to make careful 
choices about how to reconcile these goals, openness and the 
need for security operations which cannot always be open. A 
proper balance must be found. How do we make America safer 
without fundamentally changing the quality of a free society? 
How do we protect ourselves from a threat within our borders 
while protecting our privacy rights and our freedom to move 
about this great country? How do we invest the resources and 
organize our efforts to catch, to apprehend terrorists without 
trampling on the Constitution?
    How do we make sure that the agencies that have been merged 
into the new Department of Homeland Security but also have 
specific missions unrelated to homeland security, such as 
preventing and responding to natural disasters, have the 
resources to effectively accomplish those dual missions?
    Recently, in an interview with Fox News, you said, and I 
think I am quoting you correctly, ``We have to prepare for the 
inevitability of suicide bombings in the United States.'' You 
went on to say, ``We will never be immune from those kinds of 
attacks,'' and I think you are right. I agree with that.
    But I find it very difficult to reconcile that statement 
with positions that you and others in the administration have 
taken since November of 2001, positions that have consistently 
opposed efforts by the Congress to provide critical resources 
for homeland security, funding for first responders, funding 
for security on our porous borders, funding for security at our 
nuclear power facilities, funding for security at our ports 
through which 7 million containers annually travel with an 
inspection rate of only 2 percent, for security at our 
airports, and for the security of our critical infrastructure 
such as our clean drinking water systems?
    In November of 2001, just 2 months after the attacks of 9/
11, you, Mr. Secretary, wrote to the Congress in your capacity 
as the Director of the Office of Homeland Security and this is 
what you said. ``No additional resources to protect the 
homeland beyond what the President has already requested are 
needed at this time.'' You see, you were writing to me and to 
Ted Stevens and others. Your message was, basically, let us 
wait until 2002.
    Well, 2002 came and in August of 2002, the President chose 
to terminate $2.5 billion of funding that Congress had approved 
as an emergency for a homeland security program, including $423 
million of funding for first responders, as well as funding for 
nuclear security, airport security, and port security. The 
President, in refusing to designate those $2.5 billion as an 
emergency, in essence blocked funding for the Coast Guard, the 
Secret Service, and for the Customs Service for the container 
security initiative. These are all agencies now under your 
control. The President's message, basically, was let us wait 
until 2003.
    In January of this year, 2003, I offered an amendment to 
add $5 billion of homeland security funding to the omnibus 
appropriations bill for 2003. Once again, the administration 
opposed the amendment, opposed this amendment, asserting that, 
and I quote, ``it was new, extraneous spending.'' Well, my 
amendment was defeated when, once again, the administration 
argued that homeland security funding could wait, this time 
until 2004.
    In March of this year, with the Nation at war, the 
President finally requested a $4 billion supplemental for 
homeland security. Congress approved $5 billion for many of the 
same homeland security programs contained in the amendment that 
I offered 4 months ago. Not only has President Bush failed to 
lead the Nation in addressing these vulnerabilities, he has, in 
fact, actively opposed efforts to provide the resources 
necessary to address these significant weaknesses. I find this 
behavior more than puzzling.
    Since 9/11, the President with great fanfare signed 
legislation to authorize improvements in security at our 
airports, security at our ports, and security on our borders. 
The President signed legislation to protect our drinking water. 
The President announced a plan for State and local governments 
to vaccinate 10 million first responders for a potential 
smallpox attack, and yet the President has consistently opposed 
efforts to provide the essential resources to fund these new 
priorities, these new authorities.
    In November of 2002, when President Bush signed the 
Department of Homeland Security bill, he announced, ``Our 
government will take every possible measure to safeguard our 
country and our people.'' Well, how does one explain this 
disparity, these divergences?
    Well, Mr. Secretary, last Thursday, President Bush was in 
Canton, Ohio, looking for support for his $1.6 trillion tax cut 
proposal. In his remarks, he said, according to the newspaper 
that I read, ``Now, you hear talk about deficits.'' This is 
President Bush. Allow me just for a moment to pretend that this 
is President Bush reading it. ``Now, you hear talk about 
deficits, and I am concerned about deficits, but this Nation 
has got a deficit because we have been through a war.''
    Well, I read that statement twice just to make sure that my 
eyes were still fairly good. Mr. Chairman, this statement 
troubles me. In the budget that the President transmitted to 
the Congress on February 4, he did not include one thin dime, 
not one thin penny, for the costs of the war. And yet his 
budget proposed deficits of $304 billion in fiscal year 2003, 
$307 billion in fiscal year 2004, and deficits of $1.4 trillion 
from fiscal year 2003 through fiscal year 2008. His budget 
included no funding for war in Iraq and no money for 
reconstruction of Iraq, and his budget assumed levels of 
economic growth that exceed current expectations.
    So I have to say that based on the record, the deficits did 
not come from the war, but they are going to come plenty. We 
just made our first payment, or down payment.
    When Americans are being threatened here at home, it is 
very important that the President be straight with the American 
people. Mr. Secretary, you have been candid, as candid as you 
could be, with the Congress and the American people about the 
nature and duration of the risk that we face. However, we 
cannot respond to that threat simply by reorganizing. That is a 
hollow promise to hand to the American people. When we are 
talking about the physical safety of our people and the future 
of our economy, we surely have to say more and do more than 
offer up the tired old bureaucratic bromide of reorganization.
    If there is one lesson that we should learn from 9/11, it 
is that terrorist attacks on our Nation can no longer be viewed 
as distant threats across the ocean. The enemy may attack our 
troops or citizens overseas or civilians here at home. We must 
provide all of the necessary resources to support our troops 
overseas, and this committee has done that. This committee has 
been unanimous in pursuing that course.
    But we must also provide significant homeland security 
resources now to meet the real needs that have been authorized 
by the Congress and signed into law by the President for port 
security, airport security, border security, and nuclear 
security, and again, this committee has done that and it has 
acted unanimously in doing so.
    I wouldn't want to be in your shoes if some catastrophe 
happens next week at a port or at a chemical plant or at a 
nuclear facility. I hope that you will be a strong and loud 
proponent of replacing some of this rhetoric with real 
resources before it is too late.
    Mr. Secretary, I am pleased to be here with you today, 
pleased that you will be testifying before this subcommittee, 
and I look forward to working with you in the common cause of 
making America safe and keeping it free. I thank you, Mr. 
Chairman. I thank you, Mr. Secretary.
    Senator Cochran. Senator Gregg, if you have an opening 
statement, you may proceed.
    Senator Gregg. I would hope we could hear from the witness 
and I will reserve my opening statements, although I certainly 
appreciate the opening statement of the chairman and the 
ranking member.
    Senator Cochran. Thank you. Senator Hollings, would you 
like to make an opening statement?
    Senator Hollings. Mr. Chairman, I want to hear from the 
witness, also, but I want the distinguished Secretary to 
understand the frustration behind my questions when I get my 
chance. Osama bin Laden, according to Lloyd's of London, has 
outright ownership of ten vessels and control of ten more. It 
was his ship that went into the port of Mubasa in Kenya. The 
terrorists jumped off, blew up Nairobi, went down and blew up 
Dar Salaam down in Tanzania, and got back on ship and escaped.
    There is no question, since we know every plane that comes 
to the coast and approaches the United States by transponder, 
we track them all, in the dark of night a ship could come into 
the Delaware River. We wouldn't know it. It could go up and 
easily blow up a tank farm there in Philadelphia in your own 
back yard. Now, what are we going to do about it?
    Well, you will find that the ports themselves are not 
particularly interested in doing anything about it because they 
know under law the Coast Guard, the Captain of the Coast Guard, 
he is responsible, and as far as they are concerned, the port 
authority, the local authorities, I can tell you from Customs, 
Immigration, or anybody else, they could care less. All they 
want to do is move cargo. That is the competition. That is the 
name of the game.
    And the result, we passed unanimously--this is bipartisan, 
totally bipartisan--100 to nothing a port security bill and we 
had money. We got over to the House side and the White House 
and the House leadership played a game with us. They first 
delayed hearings and everything else. When they finally got to 
the bottom line, they said, well, wait a minute, this is a tax. 
We are not going to increase taxes. We argued and finally the 
House Parliamentarian ruled it was a fee and not a tax.
    Then they put us off by saying, well, wait a minute, this 
originated in the Senate, and under the Constitution, it 
originated in the House. I said, well, you all rewrite it and 
you offer it and let's send it back and we will adopt it. We 
couldn't get them to budge at all, and with that background, I 
am looking now at port security and I find zero under your 
budget for port security.
    They are supposed to do all the assessments. They are to 
correlate all of these entities, make assessments, what their 
plans are, give the security plan then to the Coast Guard. The 
Coast Guard has then got to sort of approve or alter the plan 
and then they implement it, and that is the background, Mr. 
Chairman, and that is the only reason I take this opportunity. 
Like you, I want to yield. I appreciate the opportunity.
    Senator Cochran. Thank you, Senator Hollings.
    Senator Specter.
    Senator Specter. Thank you, Mr. Chairman. I just have a 
couple of comments because while this hearing is on, the 
Subcommittee on Labor, Health, and Human Services, which I 
chair, is having a hearing at the same time and I am going to 
have to attend there, and the Judiciary Committee is having a 
hearing, trying to move ahead with nominations. But I will do 
my very best to get back to propound some questions and have a 
discussion.
    At the outset, Mr. Secretary, I thank you for your service. 
You have taken on a very, very tough job. You left the 
governorship of Pennsylvania. You and I have worked together 
for the better part of three decades and I thank you for what 
you are doing.
    One subject that I want to comment about very briefly 
involves reports that have just been released. Two reports 
conclude that many Federal agencies are still failing to share 
critical information about terrorist suspects with other 
agencies because of both cultural and technological barriers, 
and the reports go on to say that goals set by the Bush 
administration and Congress last year to promote the sharing of 
terrorist information remain largely unmet and that the Federal 
agencies criticized have agreed with the general findings.
    I bring this subject up at the outset because, as you know, 
Mr. Secretary, this is a matter which you and I have discussed 
at great length, that I have discussed. Last year, I wanted to 
put an amendment on our homeland security bill, except that the 
House had gone out of session and it would have materially 
delayed the matter. You came to see me, and I later talked to 
both Vice President Cheney and President Bush about it.
    I think it may be helpful if there is legislation 
introduced which would give you, as Secretary of Homeland 
Security, that responsibility and have the matter in 
Governmental Affairs, which is the authorizing committee, and 
have a thorough airing of these subjects so we don't have these 
spasmodic reports without giving you or Director Tenet or 
others--it is now in the hands of the Central Intelligence 
Agency--an opportunity to respond.
    My initial judgment had been, and I talked to you about 
this, to make no legislative proposal, to give an opportunity 
to see how it would work out under the CIA, but it doesn't 
appear to be working too well. Perhaps there has not been an 
adequate time. A legislative proposal is not going to be acted 
on immediately, but it would stimulate the kind of debate, I 
think, that would be helpful.
    One other very brief comment. SARS poses an enormous threat 
to homeland security, and not of the terrorist nature, and I 
had talked to Dr. Gerberding--this is a matter which comes 
under the Centers for Disease Control, under the subcommittee 
which I chair on Health and Human Services, and it may be 
necessary to come to you, Mr. Secretary, for help, depending on 
what funding requirements there are and what funds are 
immediately available.
    Some $16 million was appropriated in the supplemental bill 
and this is something which we are reviewing with Dr. 
Gerberding in great detail. We may have a hearing in your old 
bailiwick, Harrisburg, Pennsylvania, later this week. But 
depending upon the intensity of the problem and the nature of 
the response from the financing, it may be something that we 
will be coming to you for.
    As I say, I am going to excuse myself for a while but hope 
to come back. Thank you very much, Mr. Chairman.
    Senator Cochran. Thank you, Senator Specter.
    Senator Mikulski, you may be recognized for an opening 
statement if you would like.
    Senator Mikulski. Thank you very much, Mr. Chairman.
    Mr. Secretary, you face, indeed, a daunting job and we look 
forward to working and supporting you. I want to thank you for 
choosing Michael Burn to be the Homeland Security Coordinator 
for the Capital Region, outstanding. We have met with him. He 
is meeting with local officials. You should know he is getting 
kudos in the region, an excellent choice.
    As you know, all response is ultimately local, and I hope 
in your statement you deal with the issues that we continually 
hear about the need for local communities to be able to have 
access to homeland security funds, to be able to do the first 
responder incident reactions response that is so desperately 
needed. Every time we go on orange alert, the local city and 
county budgets go into the red. Often, the money goes to the 
States. It trickles down. It is late coming. It is not done in 
a necessarily organized and coordinated way.
    And I know you have heard from mayors. I know you have 
heard from the National Association of Counties. I know Mayor 
O'Malley has been particularly vocal, and I actually share his 
frustration, and take the community of Baltimore, the port, the 
financial capital of the State, the research center of the 
State, and Anne Arundel County, where it has the State 
functions, the Naval Academy and the airport, the National 
Security Agency, though we get a great job from the FBI, it is 
the locals that are doing it.
    So we look for also what is the most effective way to get 
the money particularly to high-risk areas that either have a 
nuclear power plant, chemical plant, you name it, military 
installations, stadiums. We are it and we are next door, so we 
welcome that.
    Second, when science and technology, good for all the work 
that is being done there, but I am hearing concerns that we are 
not having national standards being established, particularly 
for some of the first responder equipment, and, therefore, 
every company with a gadget, gizmo, google, goggle, is coming 
around and our local people want to make wise use of the funds 
that are coming through, like in the fire grant program.
    Also, I just want to also say we really do need help in the 
immigration backlog. The Vermont office has over a 400,000-
person backload. It has a tremendous impact.
    And then on the Coast Guard, they need all the help they 
can get with both homeland activity as well as search and 
rescue and making sure those drugs don't come into our border. 
There is more than one kind of predator that threatens the 
American people.
    So those are kind of the basic things that I had on my mind 
and look forward to hearing your testimony, and as always, look 
forward to working with you.
    Secretary Ridge. Thank you, Senator.
    Senator Cochran. Senator Murray.
    Senator Murray. Thank you very much, Mr. Chairman. I just 
welcome the Secretary here and know that your office is in 
charge of a lot of interests in my State.
    I share the concerns of Senator Hollings in terms of our 
ports and the safety and security there. I am deeply concerned 
that the money that we have given you for Operation Safe 
Commerce, both in 2002 and 2003, a total of $58 million, to 
date, not one penny of that has been spent, and we keep getting 
delays on that. We are going to have a disaster at our ports if 
we don't start implementing this, and I will be asking you 
about that.
    I also am very concerned about border crossings. As you 
know, the Northwest corner of my State is where we caught an al 
Qaeda operative several years ago and we know how important 
that is. But the economy is also extremely important and we 
want to make sure that border works efficiently and I am very 
interested in your, I think it is your Visit, is it Visit 
system that you are going to be establishing. I want to hear 
how that is going to work.
    I also am very interested in hearing about how we are going 
to train those first responders and whether we have a national 
strategy. So I will reserve my questions for our comment 
period, but thank you very much, Mr. Chairman, for having this 
hearing.
    Senator Cochran. Thank you, Senator.
    Mr. Secretary, I notice in the remarks you made at the 
National Press Club yesterday, and I think there is a reference 
to this in your prepared statement as well, you talked about 
Operation Liberty Shield and the fact that that has been 
suspended or ended. In the supplemental appropriations bill, we 
provided funds for the conduct of that operation. I hope in 
your comments that you make to us now--we will put your total 
statement in the record--that you will touch on the status of 
Operation Liberty Shield and what the cost savings might be for 
the termination of that. In the supplemental, we appropriated 
funds based on estimates that were available back then and it 
would be good for us to know how that may have been changed by 
recent events.
    But, at this point, you may proceed with any comments that 
you would like to make on this or other subjects and then we 
will have an opportunity to ask you questions. You may proceed.

                    STATEMENT OF SECRETARY TOM RIDGE

    Secretary Ridge. Thank you very much, Mr. Chairman, and to 
the members of the subcommittee. Thank you for the opportunity 
to present the first budget for the Department of Homeland 
Security. So to you, Chairman Cochran, Senator Byrd, and 
distinguished members of the subcommittee, please know that it 
is a distinct pleasure to appear before you today to discuss 
the first annual budget request for the Department of Homeland 
Security.
    For practical purposes, you have already accepted the much 
longer statement and more detailed statement, but I would like 
to discuss this morning a few highlights with you prior to our 
conversation.
    I would add that we are a Department currently engaged in 
many firsts, with each of these new undertakings presenting 
both challenges and opportunities. I would like to thank the 
subcommittee, the committee that created you, and your staff 
for the exemplary approach they have demonstrated in taking on 
the challenge of advancing the cause of homeland security.

                    FISCAL YEAR 2004 BUDGET REQUEST

    The President's budget request for fiscal year 2004 lays a 
critical and solid foundation block for the future of the 
Department. It is, as the chairman pointed out, a $36.2 billion 
commitment to advancing the safety and security of our American 
homeland and those who we exist to serve. This request 
represents a 7.4 percent increase in funding for DHS programs 
over fiscal year 2003. It also contains critical initiatives to 
advance the efficiency and the effectiveness of our Department, 
supports ongoing efforts and programs, and sustains vital non-
security services and missions throughout the Department.
    The President's Budget contains $18.1 billion for the 
Border and Transportation Security Directorate. It reflects 
organizational improvements, funds personnel enhancements, 
training, and improves the technologies needed to support two 
of the Department's strategic goals: to improve border and 
transportation security, and simultaneously facilitate the 
unimpeded flow of legitimate commerce and people across our 
borders, and through our seaports and airports.
    The budget request also calls for $3.5 billion to 
strengthen the readiness capabilities of State and local 
governments that play a critical role in the Nation's ability 
to prepare for and respond to attacks of terrorism, and better 
consolidates grants for State and local response funding and 
training needs within the Office for Domestic Preparedness.
    Senator Mikulski, Senator Murray, actually just about 
everybody on the panel I think, has very appropriately raised 
the concerns that they have heard from their mayors and 
governors about not only the level of funding, but I must tell 
you it will be one of the tasks of the Department working in a 
bipartisan way, working with all of you on this subcommittee, 
to see to it that the dollars get to the areas of critical 
need, and the outcomes and benefits we receive from the 
expenditure of those dollars go to enhancing our security.
    We have a real challenge before us in 2004 because I am 
going to be working with you to take a look at the funding 
formula for 2004 and working with you to see if we can finally 
convince our friends the mayors, and the county commissioners, 
and the States to develop intra-state preparedness plans.
    I know you were very, very sensitive to the needs of local 
communities in the fiscal year 2003 supplemental. $1.3 billion 
of that which the Congress directed to the Department to 
distribute 20 percent to the States, 80 percent to local 
communities. That is probably a pretty decent balance or 
proportion as to where dollars are to go. We will continue to 
discuss the proportional sharing of those dollars but I think 
we would all feel more comfortable if when those dollars are 
expended we could match the purpose of the expenditure against 
the need that was reflected in a statewide plan that said, 
``this is our homeland security plan.'' We need to work 
together to see that we all accomplish that because we all want 
to accomplish the same outcome: every dollar being spent most 
appropriately on enhancing the security and safety of our 
neighborhoods.
    Funding requested for the Emergency Preparedness and 
Response Directorate totals $5.9 billion. These funds will be 
used to enhance nation-wide readiness to manage and respond to 
disasters whether caused by the forces of nature or the forces 
of evil.
    In addition to fully funding traditional FEMA programs, the 
President's Budget includes needed investment in America's 
pharmaceutical and vaccine stockpiles. It also includes nearly 
$1 million for Project Bioshield, a critically-needed incentive 
for the development and deployment of new and better drugs and 
vaccines to protect Americans from the threat of bioterrorism.
    The request for the Information Analysis and Infrastructure 
Protection Directorate is $829 million. As you know, this is a 
new unit. This is a new directorate within the Department of 
Homeland Security. We pulled in pieces of other agencies, 
Energy, FBI, and Commerce, into this piece. But this is a 
significant security enhancement, I think, for this country 
that the Congress supported.
    The funds will support the Directorate's effort to analyze 
intelligence and other information, evaluate terrorist threats, 
assess the vulnerability of critical infrastructure, issue 
timely warnings to private sector industries, and work with 
Federal, State, local, and private stakeholders to take or 
effect appropriate protective action. The President's request 
provides the resources necessary for us to carry out these most 
important and unique Departmental responsibilities.
    Additionally, we are requesting $809 million for the 
Directorate of Science and Technology. This is a good place and 
an area for us to have that discussion with regard to standards 
and certification because this is precisely the unit within 
this Department that is going to address those challenges.
    In the quest to secure our homeland, we face fanatical and 
sinister enemies. Their willingness to contemplate the most 
evil of means to harm us, and the possibility that others might 
help them to acquire those means demands that we sustain a 
scientific and technological edge to stay ahead of our enemies. 
The funds requested for science and technology will support the 
essential research, development, testing, and evaluation needed 
to do just that through existing programs and institutions as 
well as new entities, like the Homeland Security Advanced 
Research Project Agency.
    The President requests $6.8 billion for the United States 
Coast Guard, a 10 percent increase over fiscal year 2003 for 
this vital component of the new Department of Homeland Security 
charged with pushing our maritime borders farther out to sea. 
This request will support continued and enhanced operations of 
the service across its broad portfolio of indispensable 
missions. It will enable the Coast Guard to grow to meet its 
ever-increasing security responsibilities while at the same 
time sustaining operational excellence in non-security 
functions. Bottom line: The request for vital recapitalization 
of the Coast Guard's offshore, near-shore, and communication 
assets are covered in this appropriation request.
    The proposed budget also contains $1.3 billion for the 
United States Secret Service so they may perform their dual 
missions of protection and criminal investigation. The funds 
will support the protection of the President, the Vice 
President and their families, heads of state, security for 
designated National Special Security Events, and the 
investigation and enforcement of laws relating to 
counterfeiting, fraud, and financial crimes. The fiscal year 
2004 appropriation will also help to defray the expense of 
additional security coverage during the Presidential campaign 
of 2004.
    Roughly $1.8 billion of the President's budget request will 
support the Bureau of Citizenship and Immigration Services, 
including $100 million to reduce the backlog of applications 
and begin ensuring a 6-month process standard for all 
applications and benefits, regardless of their nature.
    In summary, Mr. Chairman and members of the Committee, this 
budget request for the Department of Homeland Security supports 
the President's National Strategy for Homeland Security. The 
strategy provides the framework to organize and mobilize the 
Nation, Federal, State, and local governments, the private 
sector, and the American people in the very complex mission to 
protect our homeland.
    We have begun the very first steps of our critical work and 
we are only at the beginning of what will be a long struggle to 
protect our Nation from terrorism. Though much has been 
accomplished, there is certainly much, much more work to do. 
This budget will provide the resources to enable the Department 
to manage its responsibilities and lead the effort to make our 
country safer and more secure.
    America's response to terrorism has been strong, measured, 
and it has been resolute. The Department of Homeland Security 
is committed to carrying this response forward by preventing 
terrorist attacks, working with Congress to reduce America's 
vulnerability, and effectively responding to attacks that might 
occur. Certainly, by doing so, we will build a better future 
and a safer future for ourselves and our children and our 
country. I look forward to working with the subcommittee and 
each of you individually in this challenging, critical, and I 
might add, I think, most noble of missions.

                           prepared statement

    Mr. Chairman and members of the subcommittee, this 
concludes my prepared statement. I would be pleased to respond 
to any questions you may have at this time. Thank you very 
much.
    Senator Cochran. Thank you, Mr. Secretary, for your 
statement.
    [The statement follows:]

                    Prepared Statement of Tom Ridge

Introduction
    Good morning, Chairman Cochran, Senator Byrd, distinguished members 
of the subcommittee. It is a pleasure to be with you today to discuss 
the President's fiscal year 2004 budget request for the Department of 
Homeland Security (DHS)--the first ever annual budget request for the 
new Department. I want to express my gratitude for the focus and 
support the Congress provided in creating the new Department, I am also 
grateful for this Committee's effort in passing the President's wartime 
supplemental from which the Department is receiving much needed 
resources for Operations Liberty Shield and Iraqi Freedom. I look 
forward to working with you to build a proper fiscal foundation for 
DHS, and positioning the Department to successfully carry out its 
critical mission.
    Two months ago, the major components of our Department came 
together, bringing with them approximately 179,000 employees from 
agencies across the Federal Government. These dedicated professionals 
are now working under one Department with the mission of protecting the 
American people. Together we are leading the largest Federal 
reorganization in more than 50 years, a tremendous task to meet a 
tremendous challenge.
    This Department's strategic objectives are clear: to prevent 
terrorist attacks within the United States, to reduce America's 
vulnerability to terrorism, and to minimize the damage and assist in 
recovery should a terrorist attack occur. To achieve these objectives, 
the Department has already taken steps to unify principal border and 
transportation security agencies, coordinate a cohesive network of 
disaster response capabilities, create a central point for the analysis 
and dissemination of intelligence and information pertaining to 
terrorist threats, and join research efforts to detect and counter 
potential terrorist attacks.
    In this mission, the Department of Homeland Security is not alone. 
As former governors, both the President and I understand that our 
partnership with State and local government is critical to building a 
national capacity to prevent terrorist attacks, to reduce our 
vulnerability and then to respond to an attack.
    Further, we are developing crucial partnerships with the private 
sector. As you all know, 85 percent of our Nation's critical 
infrastructure is owned or operated by private enterprise. This 
includes systems such as telecommunications, banking and finance, 
energy and transportation. The private sector also is a key source of 
new ideas and innovative technologies that will provide tools in the 
fight against terrorism.
    In laying the foundation for this Department, we also have a 
tremendous opportunity for implementing good government initiatives and 
carrying out the vision of the President's Management Agenda. Our 
mission is critical, and we must institute strong management principles 
and set solid performance measures.
    We are at the beginning of the effort to protect our Nation from 
terrorism. While much has been accomplished, there is much more work to 
be done. We must stay focused and engaged in this effort so that we can 
meet the challenges of this time in our Nation's history.
Summary of Departmental Budget Request for Fiscal Year 2004
    To that end, the President has submitted a budget that clearly 
reflects the Administration's commitment to the priorities and mission 
of the Department of Homeland Security, and lays a critical and solid 
foundation block for the future of the Department. The $36.2 billion 
request marks a commitment to advancing the safety and security of our 
American homeland and those whom we serve. This request represents a 
7.4 percent increase in funding for DHS programs over the original 
fiscal year 2003 request and includes roughly 179,000 full-time 
equivalent (FTE) positions for fiscal year 2004. The discretionary 
authority requested in this budget is $26.7 billion. It contains 
critical initiatives to advance the efficiency and effectiveness of our 
Department, supports ongoing efforts and programs, and sustains vital, 
non-security services and missions throughout the Department. This 
request provides for border and transportation security, protects 
critical infrastructure and key assets, and ensures that we are 
prepared for and capable of responding to terrorist attacks.
    With this budget request, resources for the agencies moving into 
DHS will have grown by more than 60 percent between fiscal year 2002 
and fiscal year 2004. During the same period, nearly 61,000 staff, 
largely in TSA, will have been added to protect the homeland. The 
budget includes major initiatives to improve information analysis and 
infrastructure protection, as well as to advance and harness science 
and technology to make America safer. These are new initiatives unique 
to the Department of Homeland Security that go beyond the capabilities 
and operations of the component agencies.
    This budget will support the critical operations of each of the 
Department's organizations. These organizations are:
  --Border and Transportation Security
  --Emergency Preparedness and Response
  --Information Analysis and Infrastructure Protection
  --Science and Technology
  --United States Coast Guard
  --United States Secret Service
  --Bureau of Citizenship and Immigration Services, and
  --Department-Wide Support
Border and Transportation Security Budget Request
    The Border and Transportation Security directorate secures the 
border and transportation system of the United States at ports of entry 
and 7,500 miles of land border, across 95,000 miles of shoreline and 
navigable rivers, at the Nation's airports, and throughout the highway 
and rail system of the country. It is charged with preventing the 
illegal entry of people or goods, while at the same time facilitating 
the unimpeded flow of lawful commerce and people across our borders. 
Last year more than 400 million persons, 115 million motor vehicles, 
2.4 million railcars, and 7 million cargo containers were processed at 
the border. For fiscal year 2004, each of these categories is projected 
to have significant volume increases.
    To carry out this important mission, the President has requested a 
total of $18.1 billion. The funds will be used to create smart borders 
that are more secure; further consolidate border organizations to 
provide greater accountability for a seamless border service; increase 
the security of international shipping containers; continue 
implementation of the Aviation and Transportation Security Act of 2001; 
and ensure that our Nation's first responders are trained and equipped 
to address the threat of terrorism. The following sections detail the 
budget requests for the Border and Transportation Security directorate 
components.
    The Bureau of Customs and Border Protection (BCBP) brings together 
approximately 42,000 employees including 19,000 inspectors from the 
Agriculture Plant Health and Inspection Service, Immigration and 
Naturalization Service, and the Customs Service, including canine 
enforcement officers, and 11,000 Border Patrol Officers. The Bureau 
focuses its operations on the movement of goods and people across our 
borders to prevent the illegal entry into the United States of people 
or goods at or between ports-of-entry while facilitating the movement 
of legitimate trade and international travel.
    The budget includes $6.7 billion for BCBP, an increase of $1.7 
billion (33 percent) above fiscal year 2002. This funding level will 
support expansion of programs such as the Container Security 
Initiative, which puts BCBP inspectors in key international ports to 
work with host governments in targeting and examining high-risk 
containers before they are placed on ships bound for the United States, 
and the Customs Trade Partnership Against Terrorism (C-TPAT) program, 
which increases supply chain security and expedites the secure, lawful 
commerce of C-TPAT partners across our borders. This budget also 
supports continued implementation of the comprehensive Entry/Exit 
system to track visitors to the United States and funds the Automated 
Commercial Environment system (ACE) and the International Trade Data 
System (ITDS). Nearly $1.1 billion has been dedicated to these latter 
two capital projects since 2001.
    With these funds, the Bureau of Customs and Border Protection will 
ensure compliance with customs, immigration and agricultural laws; 
determine the admissibility of persons coming to the United States; 
secure our borders from biological threats to our Nation's plant and 
animal resources; inspect over 139 million projected vehicles and more 
than 600 thousand projected aircraft; and prevent the admission of 
terrorists and other criminals. The Bureau will also focus on deterring 
illegal crossings, seizing illegal drugs, currency, and monetary 
instruments, processing $1.2 trillion in imports, and collecting $20 
billion in duties on the same.
    The Bureau of Immigration and Customs Enforcement (BICE) brings 
together the enforcement and investigation arms of the Customs Service, 
Immigration and Naturalization Service and the Federal Protective 
Service. The reorganization involves approximately 12,000 employees, 
including 5,500 criminal investigators, 4,000 employees for immigration 
investigations and deportation services, and nearly 1,500 Federal 
Protective Service personnel who focus on the mission of enforcing the 
full range of immigration and customs laws within the interior of the 
United States, in addition to protecting specified Federal buildings.
    To carry out its responsibilities, the fiscal year 2004 request for 
the Bureau of Immigration and Customs Enforcement includes $2.8 
billion, an increase of nearly $400 million (16 percent) above fiscal 
year 2002. About $1.1 billion will support investigative activities--
including immigration, fraud, forced labor, trade agreement 
investigations, smuggling and illegal transshipment, and vehicle and 
cargo theft.
    The Transportation Security Administration (TSA) continues its 
mission of helping to protect and secure our Nation's transportation 
systems while ensuring the unencumbered movement of commerce and 
people, including the more than 600 million commercial passengers who 
fly into, out of, and within the United States each year. The 
Department requests $4.8 billion for TSA, approximately $2.4 billion of 
which will be financed by offsetting collections from aviation 
passenger security fees and airline security fees.
    Roughly $4.3 billion will fund direct aviation security activities, 
including a professional passenger and baggage screening workforce and 
supporting equipment to prevent weapons and other contraband onto 
aircraft. It also supports State and local law enforcement personnel to 
secure screening checkpoints; air marshals to provide in-flight 
security; and improvements in screening technologies. The request 
includes funding for new air cargo and armed pilot initiatives, as well 
as technologies to identify passengers who may pose a security risk. 
TSA will continue to work with the Department of Transportation and 
other Federal agencies to develop and implement security standards for 
non-aviation modes of transportation and work on the Transportation 
Worker Identification Credentialing initiative. Finally, TSA, through 
the Under Secretary for Border and Transportation Security, will issue 
Letters of Intent to airports to provide assistance for the 
installation of explosive detection equipment.
    The Office for Domestic Preparedness will strengthen the readiness 
capabilities of State and local governments that play a critical role 
in the Nation's ability to prepare for and respond to acts of 
terrorism. The Department will manage the First Responder initiative 
through the Office for Domestic Preparedness, providing training to 
firefighters, emergency medical services, emergency management 
agencies, and law enforcement personnel. $3.5 billion is requested in 
the fiscal year 2004 President's budget for this initiative, plus 
funding for program administration and oversight for the Office for 
Domestic Preparedness.
    The budget also provides grants for preparedness equipment, 
technical assistance, and Federal, State, and local joint exercises. 
These grants will be awarded to the states to address the needs 
identified in their response plans. State plans must contain funding 
for firefighter preparedness, State and local law enforcement anti-
terrorism initiatives, and Citizen Corps activities.
    The Federal Law Enforcement Training Center (FLETC) will continue 
its tradition as the Government's leading provider of high-quality law 
enforcement training to Federal, State and local law enforcement 
officers. $146 million is requested in the fiscal year 2004 President's 
budget for FLETC.
    With the assistance of the Congress, the Department of Homeland 
Security will produce a more robust enforcement and protection 
capability to secure our Nation. We need to integrate our capabilities 
and increase our protection. We cannot completely eliminate the 
possibility of terrorist attack, but we can reduce our vulnerabilities 
by enhancing our support for State and local emergency preparedness and 
response.
Emergency Preparedness and Response Budget Request
    An effective response to a major terrorist incident--as well as a 
natural disaster--rests on being well prepared. Through the Emergency 
Preparedness and Response directorate, the Department will lead 
America' to prepare for, mitigate the effects of, respond to, and 
recover from major domestic disasters, both natural and manmade, 
including incidents of terrorism. The directorate will contribute to a 
fully coordinated approach to disaster management within the United 
States, using Federal resources previously operating under multiple 
plans. Funding requested for Emergency Preparedness and Response totals 
$5.96 billion.
    The request for Emergency Preparedness and Response consolidates 
funding for programs formerly funded through the Federal Emergency 
Management Agency and the Department of Health and Human Services, such 
as the Office of Emergency Preparedness, the National Disaster Medical 
System, and the Strategic National Stockpile.
    The President's request includes roughly $1.3 billion for America's 
pharmaceutical and vaccine stockpiles, including adding new drugs to 
the stockpile as they are developed. The Strategic National Stockpile 
contains drugs, vaccines, other medical supplies and equipment that can 
be delivered to any place in the country within 12 hours of a request 
for assistance. It now holds enough smallpox vaccine for every 
American, sufficient treatments for 20 million persons exposed to 
Anthrax, and treatments for injuries following a chemical attack or 
explosion. The Department of Homeland Security, in close coordination 
with the Department of Health and Human Services, will assure optimal 
medical preparedness and response capacity to meet threats to our 
Nation.
    As a critical aspect of this program, the Administration proposes 
new permanent, indefinite authority through project BioShield to 
overcome hurdles that impede our ability to stockpile adequate amounts 
of needed drugs and vaccines to protect Americans from bioterrorism. 
This authority will allow the government to purchase critically needed 
vaccines or medications for biodefense as soon as experts agree it is 
safe and effective enough to place in the Department's Strategic 
National Stockpile.
    With this budget request, the Department will also carry out the 
traditional functions of the Federal Emergency Management Agency, 
improving the Nation's disaster response capabilities and those of 
State and local governments. $1.9 billion is requested to provide 
disaster relief under the primary assistance programs that provide a 
significant portion of the total Federal response to victims in 
Presidentially-declared major disasters and emergencies. Further, the 
budget includes funds to modernize the Nation's flood insurance rate 
maps which will improve flood mitigation efforts, as well as funds for 
the pre-disaster hazard mitigation program that will ensure that the 
most worthwhile and cost-effective mitigation programs are funded.
    Information Analysis and Infrastructure Protection Budget Request
    The President's budget request calls for $829 million to fund the 
Information Analysis and Infrastructure Protection directorate, a new 
unit that will combine the capability to identify and assess the 
threats to our homeland, provide the basis from which to organize 
protective measures to secure the homeland, and stop terrorist attacks 
before they happen. IAIP is responsible for identifying and protecting 
America's critical infrastructure and key assets of national-level 
importance: food, water, agriculture, public health, emergency 
services, information and telecommunications, banking and finance, 
energy, transportation, chemical, defense industry, postal and 
shipping, and national monuments and icons.
    Working together with the Central Intelligence Agency, the Federal 
Bureau of Investigation (FBI), and other intelligence gathering 
agencies, the Department of Homeland Security will participate in 
setting intelligence requirements, including the prioritization of 
terrorism threats, weapons of mass destruction, and other relevant 
intelligence activities. The directorate will analyze and assess law 
enforcement information and intelligence, translating these assessments 
into improved security by taking actions to reduce America's 
vulnerability to terrorist attack. $32 million is requested for these 
activities.
    $384 million is requested for IAIP to work with Federal departments 
and agencies, State and local governments and private industry to 
identify critical infrastructures, conduct assessments of the highest 
priority infrastructures, and implement measures to protect them from 
actual threats. In addition, the Department will develop technical 
standards, guidelines, and best practices for states and industry as 
part of of its protective program.
    The Department is also in charge of issuing warnings, threat 
advisories, and recommended response measures to America's public 
safety agencies, elected officials, industry, and the public. In close 
coordination with the FBI, the Department will disseminate timely, 
actionable information to the public, private sector, and State and 
local officials related to specific threats and vulnerabilities, as 
well as what steps to take in response to a threat. The Department 
requests $70 million to provide 24 hours a day, seven days a week 
intelligence and warning capabilities, review and disseminate 
information to relevant public and private sector entities, and provide 
a mechanism to issue national advisories through the Homeland Security 
Advisory System.
    The Information Analysis and Infrastructure Protection directorate 
will also work with stakeholders to develop and implement an integrated 
national plan for the physical and cyber protection of critical 
infrastructures and key assets.
Science and Technology Budget Request
    The Science and Technology directorate will maintain and enhance 
the Nation's superiority in science and technology, a key to securing 
the homeland. New technologies for countering chemical, biological, 
radiological, nuclear, and other emerging threats, mitigating their 
effects should they occur, and for information and analysis sharing 
will increase the security of our homeland and minimize the damage from 
future terrorist attacks.
    In fiscal year 2004, the budget request for the Department of 
Homeland Security includes $803 million for the Science and Technology 
directorate. These funds will support existing programs and 
institutions as well as new entities like the Homeland Security 
Advanced Research Projects Agency.
    The Homeland Security Act created the Homeland Security Advanced 
Research Projects Agency (HSARPA) to develop a crucial capability for 
the Nation. HSARPA will research, develop, test, and evaluate 
countermeasures to chemical, biological, radiological, and nuclear 
weapons and other terrorist threats. Initial funding will be used to 
address immediate gaps in high-priority operational requirements for 
chemical, biological, radiological, and nuclear countermeasures, 
protecting our critical infrastructure, and conventional mission 
operations. We will engage the private sector and others in the 
development of innovative, high-payoff capabilities, as well as focus 
our efforts to evaluate and prototype commercially available 
technologies. The Department will invest in developing revolutionary 
new technologies to enhance our future capabilities and will evaluate 
and prototype technologies to enhance our near-term security.
    The Science and Technology directorate will provide new enabling 
capabilities to the other components of the Department, and enhance 
their ability to execute their various missions. Science and Technology 
will recruit and retain a workforce that is best in class, develop 
future generations of scientists, engineers, and technologists in 
fields required to ensure the vitality of the homeland security 
enterprise, and establish, maintain, and utilize state-of-the-art 
research and development facilities and infrastructure.
    The budget request will facilitate applied research, technology 
demonstrations, development, and testing of prototypes and full-scale 
pre-production hardware; enable procurement of products and systems 
necessary for the protection of our homeland from the effects of 
weapons of mass destruction and other terrorist weapons. The budget 
supports the development of a national policy and prioritized strategic 
plan for homeland security research, as well as development of 
standards for homeland security equipment for use by first responders.
United States Coast Guard Budget Request
    The President requests $6.8 billion for the United States Coast 
Guard, a 10 percent increase over the fiscal year 2003 request for this 
vital component of the new Department of Homeland Security. This 
request will support continued and enhanced operations of the Service 
across its broad portfolio of indispensable missions. It enables the 
Coast Guard to grow to meet its ever-increasing security 
responsibilities, while at the same time sustaining operational 
excellence in non-security functions. The request provides for vital 
recapitalization of the Coast Guard's offshore, near shore, and 
communications assets.
    Recapitalization of Legacy Assets and Infrastructure.--The budget 
request will support funding for two major recapitalization 
initiatives--the Integrated Deepwater System and Rescue 21. The request 
for the Integrated Deepwater System is $500 million in fiscal year 
2004. These resources will fund conversion of five 110-foot patrol 
boats to more capable 123-foot patrol craft, seven short-range 
Prosecutor small boats, progress on the first National Security Cutter, 
slated for delivery in fiscal year 2006, and continued development of a 
Common Operating Picture, command and control system for prototype 
installation, at four shore-based command centers. Implementation of 
Rescue 21, the Coast Guard's primary communications system in the 
coastal zone area, will reach 35 percent completion in fiscal year 2004 
and is on track for full completion by the end of fiscal year 2006. In 
addition, the budget provides continued support for the Great Lakes 
Icebreaker Replacement.
    Increase Homeland Security Capabilities.--The Coast Guard's request 
increases funds for Maritime Domain Awareness, providing for leased 
satellite channels for cutters and network connectivity for smaller 
assets, Automatic Identification Systems, the Rescue 21 network, and a 
prototype Joint Harbor Operations Center to provide surveillance in 
Hampton Roads, Virginia. The request will also support new port 
security assets: 58 Sea Marshals, 6 deployable Maritime Safety and 
Security Teams equipped with six new small response boats, 43 small and 
eight medium response boats to increase presence in ports and 
waterways, two port security units, nine 87-foot Coastal Patrol Boats, 
and stand up of Stations Boston and Washington, D.C.
    Sustain Non-Homeland Security Missions.--For Search and Rescue 
(SAR) and safety efforts, the budget will provide 449 new personnel 
towards achievement of a 68-hour workweek at small-boat stations, a 12-
hour watch standard at command centers, and will also provide training 
enhancements at the National Motor Lifeboat School, the Boatswain's 
Mate ``A'' school, and the National Search and Rescue School to 
increase the training throughput at both locations.
    With these funds, the Coast Guard will be able to enhance its 
presence at ports and waterways to mitigate the risk to mariners and to 
mitigate the Nation's security risk to terrorist and other illegal 
threats. The Coast Guard continues to work to reduce serious vessel 
collisions or groundings, reduce oil and garbage discharge into the 
water, and provide core competencies to the Department of Defense 
including maritime interdiction, port safety and security, aids to 
navigation, and military environmental response operations.
United States Secret Service Budget Request
    The United States Secret Service protects the President and Vice 
President, their families, heads of state, and other designated 
individuals; investigates threats against these protectees; protects 
the White House, the Vice President's residence, foreign missions and 
other buildings within Washington, D.C.; and designs, plans, and 
implements security for designated National Security Special Events. 
The Secret Service also investigates violations of laws relating to: 
counterfeiting of obligations and securities of the United States; 
financial crimes that include, but are not limited to, access device 
fraud, financial institutions fraud, identity theft, computer fraud; 
and computer-based attacks on our Nation's financial, banking, and 
telecommunications infrastructure.
    The President's budget request for the United States Secret Service 
of $1.3 billion for fiscal year 2004 maintains current program 
operating levels and fully annualizes the cost of staffing authorized 
in fiscal year 2002. It provides approximately $40 million for security 
for the 2004 Presidential candidates and nominees and the Democratic 
and Republican National Conventions. In addition, the Service has 
requested funds to design and build the prototypical mail facility that 
can effectively screen for selected chemical, biological, radiological, 
nuclear, and explosives contaminants. This facility is necessary to 
ensure that mail destined for the White House Complex is thoroughly 
examined and determined to be safe.
Bureau of Citizenship and Immigration Services Budget Request
    The Bureau of Citizenship and Immigration Services seeks to greatly 
improve the administration of immigration benefits to the more than 
seven million annual applicants, by building and maintaining a services 
system that provides immigration information and benefits in a timely, 
accurate, consistent, courteous, and professional manner.
    To accomplish this goal, the fiscal year 2004 budget requests $1.8 
billion. Of that request, $100 million will fund the President's 
initiative to reduce the applications backlog and ensure a 6-month 
processing standard for all applications. To support this commitment, 
the Bureau will focus on three critical elements: achieving a high-
level of performance by establishing clear, concrete performance 
milestones and actively monitoring progress towards these milestones; 
transforming business practices by implementing significant information 
technology improvements and identifying improvements to change the 
current way of doing business; and ensuring integrity by establishing 
comprehensive quality assurance measures.
    The Department will also ensure that our Nation's policies for 
issuing visas to visitors are consistent with security and foreign 
policy interests. The Department will have legal authority over the 
issuance and denial of visas, although the Secretary of State will 
manage the activities of consular officers and will retain the power to 
deny visas based on foreign policy interests.
Department-Wide Support Budget Request
    The budget request includes $294 million for the operation of 
departmental headquarters. DHS headquarters focuses on national policy 
through centralized planning and is responsible for functions such as 
planning, policy, budgeting, strategy, interagency coordination, 
integrated research and development, public affairs, legislative 
affairs, information technology, departmental security, and legal 
affairs.
    In the area of information technology, the Department's request 
includes $206 million for capital investments to establish the 
priorities of information technology integration, modernize high 
priority business processes, and increase efficiency through 
technological improvements. It also includes a department-wide 
enterprise architecture that will guide our investment in, and use of 
information technology, and the conversion of wireless radio 
communications to narrowband operations as required by law.
    The Department will consolidate duplicative telecommunications 
systems and networks as well as business management systems. All new 
information technology investments are reviewed centrally in order to 
prevent redundant investments and misspent taxpayer dollars. DHS will 
seek to develop a modern information technology environment that 
supports homeland security missions, enhances productivity, facilitates 
information sharing while ensuring security and privacy, and generates 
savings.
    The request includes $40 Million for the Counterterrorism Fund. The 
Counterterrorism Fund covers unbudgeted critical costs associated with 
providing support to counter, investigate, or prosecute domestic or 
international terrorism, including payment of rewards in connection 
with these activities; and reestablishing the operational capacity of 
an office, facility or other property damaged or destroyed as a result 
of any domestic or international terrorist incident. The 
Counterterrorism Fund may also reimburse other Federal agencies for 
extraordinary costs related to their participation in particular 
terrorism prevention or response activities.
    In implementing the President's Management Agenda, we have an 
enormous task: reorganizing and integrating 22 agencies with their own 
work cultures, operating and management procedures, and operating 
missions into one Department. This challenge presents an opportunity 
for the Department to become the model of management excellence, to 
manage resources effectively and to deliver measurable results.
    New management flexibilities that were requested by the President 
in the areas of human resources, procurement, and budget and 
performance integration will be key to success in the Department. The 
use of these new flexibilities will be tracked as measurable goals. The 
Department will blend the personnel systems of the incoming agencies 
into a unified system that is consistent, coherent, and that rewards 
good performance. The Department must also work to unify the 19 
existing financial systems and ensure that a chosen system directly 
links performance with spending.
Conclusion
    In summation, the President's budget request for the Department of 
Homeland Security supports his National Strategy for Homeland Security. 
This strategy provides the framework to mobilize and organize the 
Nation--Federal, State and local governments, the private sector, and 
the American people--in the complex mission to protect our homeland. We 
have begun the very first steps of our critical work, but we are only 
at the beginning of what will be a long struggle to protect our Nation 
from terrorism. While much has been accomplished, there is much more 
work to do. This budget will provide the Department the resources to 
manage its responsibilities and continue its work of securing the 
homeland for the American people.
    Mr. Chairman and Members of the Subcommittee, this concludes my 
prepared statement. I would be happy to answer any questions you may 
have at this time.

    Senator Cochran. I hope that Senators will cooperate with 
the effort to limit our first round of questions to five 
minutes each and then we will have an opportunity to continue 
to discuss these issues of the budget request for the 
Department as long as needed to have a full understanding of 
the budget request.

                        OPERATION LIBERTY SHIELD

    Mr. Secretary, I mentioned the funding that we provided in 
the supplemental for Operation Liberty Shield which, as I 
understand it, was an effort nationwide, including local and 
State government officials and agencies, to protect against 
retaliation that might be visited upon our States and local 
governments and citizens of the United States in response to 
our efforts in Iraq.
    To what extent do you think this operation has been 
successful? I don't recall any specific retaliatory actions 
being taken. There may have been, and you may have frustrated 
some. Can you bring us up to date on your assessment of the 
success or failure of Operation Liberty Shield?
    Secretary Ridge. Mr. Chairman, first of all, I need to 
thank the Congress for the historic support for a first of its 
kind initiative in Liberty Shield, where for the first time, 
the Federal Government, working in partnership with the State 
and local governments and the private sector, provided an 
unprecedented level of security in anticipation of potential 
hostile terrorist action because of our military involvement in 
Iraq. It is the first time that the Federal Government planned 
for and worked with and through States and local governments 
and the private sector to literally add an overt security 
presence at critical places around the country.
    Pursuant to that effort, we asked you, the members of the 
Committee and Congress, to give us substantial resources to 
support Liberty Shield. If I recall correctly, you gave the 
Coast Guard about $580 million, $400 million of which was for 
the work that they were doing in the Gulf, $180 million to 
support their extraordinary efforts on port security. You gave 
itemized specific dollar amounts to Customs and Border 
Protection, to Immigration and Customs Enforcement.
    So what we will need to provide you at some later date, 
once we calculate the cost, is that you did specifically 
designate certain monies for certain activities based on 
anticipated cost. It is our responsibility to get back to you 
to tell you--to match what you appropriated to what we expended 
and tell you what we are going to do with the rest.
    The bottom line is that you gave enough money to do the 
job, to do the job very, very well. We ramped it up on March 17 
and took it down on April 17. Within minutes after I contacted 
the governors and the homeland security advisors, they moved 
into action. The plan involved using State resources to protect 
critical pieces of infrastructure. Some of the governors 
provided National Guard. Some of the governors provided State 
police. Others used other law enforcement members. You provided 
resources to reimburse them for those costs because they 
deployed them pursuant to a Federal request. So we have got to 
do a run-down and comparison and report back to you dollars 
expended, dollars remaining, and obviously as members of the 
Appropriations Committee, you are going to want to know what we 
spent. If there is a balance, you want to know where we spent 
it.
    Senator Cochran. Well, that is true, and we appreciate your 
understanding of that request and the importance of that 
information to the committee.

                     CRITICAL INFRASTRUCTURE GRANTS

    Another question within this area of concern and interest 
is how you would assess the sufficiency of the funding to 
reimburse State and local governments for the expenses incurred 
by them in complying with the Department's requests and 
directions. Do you think that the $200 million, for example, in 
the appropriations bill we provided for critical infrastructure 
grants will be sufficient to cover increased costs to State and 
local governments for the critical assets that they devoted 
resources to protect in communities and States across the 
Nation?
    Secretary Ridge. Senator, it is a little too early to 
assess it, I think. We are pretty close to the dollars they 
needed, but frankly, because it is the first of its kind 
exercise--as we were trying to ramp up to give you, very 
appropriately, the kind of specific information you wanted as 
to why we needed X-number of dollars for Liberty Shield, we ran 
various scenarios. We took a look at different kinds of 
critical infrastructure and said, ``let us just apply a generic 
number to each piece of critical infrastructure, multiply it by 
the number of pieces of infrastructure, and give you a 
number.'' We said, ``well, that doesn't really work because 
what you may want to do at a bridge or a tunnel may be 
different than what you want to do at a nuclear power 
facility.''
    So we think from preliminary reports that we had sufficient 
dollars, but one of the lessons we will learn from this very 
successful exercise is basically the cost associated with 
providing certain kinds of protection to certain pieces of 
critical infrastructure that we can use in future years to 
compute very appropriately the levels of reimbursement that the 
States and locals should receive.
    I believe Congress was very generous. We got substantial 
dollars from you, literally billions of dollars. Some of it, 
you very specifically earmarked, and some you provided more 
flexibility to the Department of Homeland Security to 
distribute. But I will assure the members of the subcommittee, 
you will get as much specific information about each venue, 
each location, so we can in future years give you even more 
precise numbers if we return with a similar request.
    Senator Cochran. Thank you very much.
    Senator Byrd.
    Senator Byrd. Thank you, Mr. Secretary, for your good 
statement. I don't envy your task. You are the man who we have 
the fingers pointing at and, in some cases, you are the man 
that will be made the goat if the goat can be made, and I 
sympathize with you. I don't know how you can possibly do this 
job if you are human, and I take it that you are, with all of 
these agencies and the enormous responsibilities that are upon 
you and these agencies. I want to help you whenever I can.
    Secretary Ridge. Thank you, Senator.

                       FREEDOM OF INFORMATION ACT

    Senator Byrd. The Freedom of Information Act was enacted in 
1966 to provide that any person has the right to request access 
to Federal agency records or information. All agencies of the 
U.S. Government are required to disclose records upon receiving 
a written request for them except for those records that are 
protected by exemptions or exclusions.
    When Congress last fall adopted legislation to create the 
new Department, it also adopted a broader exemption to FOIA, 
allowing private companies to hide health and safety 
information from the public as long as the companies 
voluntarily submit this information to the DHS. The exemption 
applies to information about facilities that could be targets 
of a terrorist attack.
    Increased security concerns call for prudent changes, but 
not for blanket exemptions in the information available to the 
public. If the government is allowed to operate in secrecy, 
without scrutiny, then the people's liberties can be easily 
lost. We ought to strengthen the Freedom of Information Act, 
not undercut it. The American people ought to have access to 
information that directly impacts upon their freedoms, as well 
as their safety, and I firmly believe that the Freedom of 
Information Act exemption that Congress exempted in the 
Homeland Security Act was too broad. It allows the new 
Department to cloak too many of its activities in secret.
    This month, the Department proposed new rules that would 
broaden this exemption even further, making an already bad law 
even worse. Under the new rules, there will be an enormous 
incentive for corporations and lobbyists and government 
contractors to carry a rubber stamp and mark the words 
``critical infrastructure information'' on everything that they 
touch. There will be that incentive, so it can all be locked 
away in the darkest recesses of the Homeland Security 
Department.
    Not only can the private sector use this powerful new 
classification to shield itself from legal liabilities, but I 
am afraid that the government will also use it to shield the 
administration from public scrutiny of its activities. Now, 
there will be administrations after this administration and the 
same will apply to them. There will be that inclination, that 
tendency, that proclivity to hide things under this label.
    Where does it end? If there is information regarding 
threats to the safety of the people, to the security and so on, 
they ought to be told. They have the right to know.
    Mr. Secretary, experts in this area have concluded that 
these rules will allow lobbyists and government contractors to 
hide their relationships with the Homeland Security Department, 
including phone conversations and personal meetings with agency 
officials. How do we know that the Department is not just 
turning over the safety of the American people to the 
administration's friends in the private sector, like many 
believe has been done for the construction of Iraq?
    So I guess my question to you, Mr. Secretary, is what sort 
of ethical and sunshine standards are you, as the Secretary, 
going to insist upon?
    Secretary Ridge. Thank you, Senator. First of all, I think 
you and I agree that the role of the Freedom of Information Act 
historically is consistent with the public operation of the 
public's business. There is a transparency built into what we 
do in this country by the very nature of our political 
community, but the Freedom of Information Act has certainly 
worked in years gone by to assure access to the kinds of 
documents and information to which you have referred in your 
statement.
    I would assure the Senator that the regulations to which 
you refer do not in any way relieve any company from its 
responsibility to provide information that may otherwise be 
dictated by any other law or any other regulation in the 
Federal Register or on the books anywhere. They cannot avoid 
disclosure that may be required under a different statute by 
lumping whatever that information might be and turning it over 
to the Department of Homeland Security. It is our 
responsibility, if they try to do that and we see that the 
information that they have passed to us is in violation of the 
law, to see to it that they are prosecuted, and I would assure 
the Senator that is precisely what we will do.

                       FOIA RULES AND EXEMPTIONS

    The purpose of this exemption in the Freedom of Information 
Act was really to get the voluntary submission of information 
from companies that is otherwise not required as it relates to 
potential vulnerability of their facilities, whatever they 
might be, so that we could take a look at it, take a look at 
the threat, take a look at hopefully the modeling and the work 
we have done in our new Department and get back to them and 
say, that is a vulnerability that is of high interest and high 
risk and you need to take the following protective actions in 
order to deal with it.
    So I would say to the Senator, I would assure him that the 
purpose of this Freedom of Information Act exemption is not to 
provide a friendly forum for anyone out there to violate the 
laws and the requirements imposed on them by other statutes or 
other regulations.
    Senator Byrd. Your new rules expanded this exemption to 
include information that is voluntarily submitted to any agency 
in the Federal Government. Now, how can this departure from the 
language chosen by Congress be justified?
    Secretary Ridge. Senator, they still will be required to 
file whatever reports or whatever papers necessary and 
consistent with laws as it relates to those agencies. The 
exemption is based solely on the need to get voluntary 
information, make it available to us so we could take a look at 
potential vulnerabilities in their infrastructure.
    But they are still required to file whatever other reports, 
whether it is the EPA, the Department of Energy, whatever it 
is. This does not immunize them from potential prosecution if 
they try to avoid that kind of disclosure by sending 
information to us that we may conclude, as we look at it, you 
are in violation of the preexisting statute. If you are 
violating the law, you are violating the law and whatever 
agency gets that information is required to turn it over to the 
appropriate authorities and see to it that you are prosecuted.
    Senator Byrd. As I indicated a private company can stamp 
anything as critical infrastructure information. That 
information would be automatically exempt from public 
disclosure unless the Department reviews the information and 
decides it should not be protected. Your rules designated one 
man, a single program manager, I take it, who will be 
responsible for reviewing this massive amount of information, 
voluntarily submitted information that will pour into the 
Homeland Security Department. How can we expect--how can this 
subcommittee be assured that one individual, I take it one 
individual, to have the resources and the time to determine 
whether companies are abusing these rules?
    Secretary Ridge. Senator, that description obviously 
conjures up a no-win situation for the project manager because 
that individual, he or she couldn't possibly be able to deal 
with all that. I assure you, in the directorate dealing with 
information analysis and infrastructure protection, there will 
be a team available to make that assessment. There will be 
lawyers that will review it.
    And again, I underscore the notion, Senator, that this is 
not information that these companies have any responsibility 
under any law or any regulation, any statute, they don't have 
to share this information with us at all. There is nothing out 
there that compels them to do that. And what we are saying to 
them, as many companies have already begun the very important 
work of taking a look at their own security challenges, that 
when they are taking a look at their own infrastructure, in 
addition to information that they are compelled to submit, they 
voluntarily submit some of the information, perhaps even some 
of their own critical self-assessments to us that otherwise 
they wouldn't have to disclose under any statute.
    And based on that information, we then develop, hopefully, 
a plan of action so that they can reduce their vulnerability to 
a terrorist attack. But they would not be providing that 
information, Senator, under any other statute or any other 
regulation and it is voluntarily provided.
    Senator Byrd. My time is up and I thank you, Mr. Chairman. 
I am sure you have given me a very liberal five minutes. Thank 
you.
    Senator Cochran. Thank you, Senator Byrd.
    Senator Gregg.
    Senator Gregg. Thank you, Mr. Chairman, and I appreciate 
the fact that you have taken on a huge and complex 
responsibility here, Governor. I suspect that you evaluate one 
of your priorities as being controlling our borders and making 
sure that the people who enter this country enter it for the 
purposes which are constructive, not purposes which are 
destructive.

                           ENTRY-EXIT SYSTEM

    As a core element of that is the issue of how the INS is 
functioning as it has been transferred over to your agency. 
Senator Hollings and I, who had responsibility for INS for a 
while before it moved over to this subcommittee, had extremely 
severe reservations about the exit-entry computer system which 
the INS was going to try to buy and put in place for the 
purposes of border crossing and identifying who was coming 
across the border. In fact, we felt it was intuitively obvious 
that this was an absurd system that could not function because 
INS didn't have the underlying capability to integrate it into 
the overall issue of the databases. And, furthermore, the idea 
that you would have 100 percent biologics identification of 
people coming across the border just was absurd on its face.
    And yet, INS charged forward. They wanted to spend billions 
on this, and the administration forced us to put $300 million 
into the bill that we just passed, the omnibus.
    I noticed in your statements, I think it was yesterday, 
that you are reorganizing this whole effort.
    Secretary Ridge. Yes.
    Senator Gregg. I would be interested if you came to the 
same conclusion that our committee came to about 2 years ago 
that this exit-entry system as originally proposed by INS could 
not possibly function effectively and that it has to be 
replaced by something that actually is realistic.
    Secretary Ridge. One of the first program reviews that I 
undertook as the Secretary was the entry-exit system, and it is 
still an ongoing review. There had been some work done for the 
previous year and a half, and candidly, it wasn't done quite 
with the clarity or the comprehensiveness or we just weren't 
satisfied with the work product to date, so Secretary 
Hutchinson and I went back and have refocused the effort to 
comply with the law and the mandate of Congress to come up with 
a system that registers people when they enter and exit.
    There are several challenges associated with it. The 
challenges have more to do with maintaining that kind of system 
at our land borders than it does with maintaining that kind of 
system at airports and seaports. If you have visited, 
particularly the Mexican border, at any one of those places--I 
was out there on Friday, out in Southern California, and there 
are 24 lines, 24 avenues of ingress from San Ysidro into 
Southern California. That is the entry system.
    And I took a look at that and said, well, this is the entry 
system. Let us assume we can get it done here. Where are the 24 
lines or at least the 12 lines of travel so you can monitor the 
exit? And I took a look at the 24 lines coming in and I said, 
this is a real challenge because there doesn't appear to be any 
room to build any more lines, any more roads so we can build 
that kind of an infrastructure. So I think there are some very 
unique challenges with regard to the system as it relates to 
entry-exit at our borders.
    Clearly, there are ways we can facilitate. We are starting 
some experimental programs with pedestrian traffic, with 
commercial trucking traffic, and with passenger vehicles based 
on the principle of risk management, in that we know who you 
are, we know you work on this side of the border, you live on 
this side of the border. Both governments basically confirm 
that you are a good worker and you are an honest, law-abiding 
citizen. We can put you in one lane and let you go back and 
forth.
    But I would say to the Senator that the real challenge will 
be maintaining that kind of system where you have literally 
hundreds of thousands of people going across the border daily, 
and the notion that we are going to stop everyone and pull 
everybody out of the buses and everybody out of the cars to 
make sure that they have a biometric identification card and we 
verify they are who they are, it does pose some significant 
challenges. Once, we complete our survey, it is a matter that I 
will be prepared to discuss with you and the Senator both 
publicly and privately, because there are some real challenges 
associated with it.

                         FUNDING FOR ENTRY-EXIT

    Senator Gregg. Well, you have got $360 million that was 
forced upon, in my opinion, forced into the account. I would 
just hope that it is not going to be spent on the program that 
was proposed.
    Secretary Ridge. Senator, we are going to move 
incrementally on this program. I think the Congress has given 
us a mandate to come up with that system, with a biometric 
identifier at our airports and seaports by the end of the year. 
I think that is doable, although there are enormous challenges 
associated with it, because it is clear in the legislative 
intent and we want to have a biometric standard or standards so 
that we can verify the individual who is coming across our 
borders, the one to whom they issued the visa. So we need 
fingerprints, probably need photos. Some of the countries are 
using iris scans.
    That is the kind of information we would secure in a 
consular's office or in an embassy elsewhere. So we have to 
make sure they have the technology to put it on the identifier, 
put it on the card. We have to have the database secured and 
the technology at the port of entry to confirm who they are. So 
there are enormous technological problems. I think there are 
systems that are out there that we can apply.
    We are going to push real hard to meet the deadline that 
Congress gave us for the airports and seaports, but I do think 
that we need to review between now and the end of next year 
that very specific requirement as it relates to border traffic 
across the land borders.
    Senator Gregg. Are you reviewing the underlying data 
capabilities of the INS that this whole system would depend on?
    Secretary Ridge. Senator, I am not going to draw any 
conclusions there until we are finished with our own internal 
review of that capability and----
    Senator Gregg. Are you reviewing it, though?
    Secretary Ridge. Yes, sir.
    Senator Gregg. Totally independent of what you are being 
told by the agency which you absorbed?
    Secretary Ridge. Yes, sir.
    Senator Gregg. Thank you.
    Secretary Ridge. Also, to your point, a RFP has not gone 
out yet. One of the advantages of having a science and 
technology unit in the new Department is before this part of 
the Department sends out an RFP, which we know has enormous--
there is a huge technology infrastructure associated with it, 
we are going to have our science and technology people take a 
look at what is out there and help them design the RFP, some 
sort of consultation.
    Senator Gregg. May I suggest that you take a look at the 
model that we finally set up at the FBI, because they had so 
many failures in the area of major computer structures, which 
was to bring in an independent group which was essentially an 
analyst team of very capable private sector people.
    Secretary Ridge. I am familiar with it, Senator, and I will 
take you up on the suggestion.
    Senator Cochran. Thank you, Senator Gregg.
    Senator Hollings.

                     PORT VULNERABILITY ASSESSMENTS

    Senator Hollings. Thank you, Mr. Chairman.
    With respect to the ports, there are 361, 50 major ones. 
Some have moved along and are working very hard. But the 
majority sort of talk about an unfunded mandate. How much 
money, Mr. Secretary, do you provide for the States to provide 
for these vulnerability assessments that are required by law?
    Secretary Ridge. Senator, first of all, as you pointed out, 
the Congress has provided substantial resources to do some of 
these vulnerability assessments, particularly at the 50, 55 
strategic ports the Coast Guard is doing, and I believe you 
included another $38 million in the fiscal year 2003 
supplemental because of the Congressional concern that this be 
accelerated and moved along.
    Also, Senator, you have given the Department the discretion 
of a piece of about $700 million to go out to critical areas 
based on threat and critical infrastructure, and one of the 
allowable costs for the applicants for those dollars will be 
the vulnerability assessments. So I think we have substantial 
money to deal with that--and we can get the job done at the 55 
ports, because as you pointed out, I think there are 360 ports 
nationwide. We will just have to see how far those dollars go.
    But also in this 2004 budget, Senator, there is a request 
for in excess of $800 million for the information analysis 
infrastructure protection piece and it is our intention to use 
some of these dollars for port vulnerability assessments, too.
    Senator Hollings. If you have got that money, that is fine 
business. The $38 million that we were barely able to get into 
that supplemental is not going to be enough, and so they need 
more. Specifically for example, now, we required the vessels 
themselves to put on those transponders and they will have to 
bear the cost, but we need $57 million for the Coast Guard to 
put up these towers. Do you have that $57 million?
    And don't give me that 10 percent for the Coast Guard. That 
10 percent, you give them 50 percent more work to do and 
responsibility and function and then you are trying to fit it 
all into that 10 percent, and Admiral Collins just in an 
article of a hearing again 2 weeks ago, he said he is 
stretched. We don't have the money. I would like to get that 
$57 million fixed. Can you give us that?
    Secretary Ridge. Senator, I would have to go back and take 
a look, but I believe that in conversation and reports I have 
had with the Admiral, and I don't want to misstate his intent 
to use the money, but this whole domain awareness and the new 
command and control center that they are building around the 
country, is it in this budget? It is my understanding that he 
can proceed with the funding of the towers and the 
communication system that he has been trying to set up. I mean, 
they have to phase it in over a period of years, but it is my 
understanding that the dollars available in fiscal year 2004 
will let him move that right along without interruption. But I 
will have to get back to you specifically on that because I am 
afraid I am not that versed.
    [The information follows:]

    As an element of their Maritime Strategy for Homeland Security, the 
Coast Guard is evaluating a project to install a nationwide shore-based 
Universal Automatic Identification System (AIS) system to enhance 
Maritime Domain Awareness (MDA). By design, the system would be capable 
of capturing essential MDA information (vessel identification, 
position, heading, ship length, beam, type, draft, and hazardous cargo 
information) from any AIS equipped vessel throughout the coastal zone 
and displaying the AIS data at command centers for use by operational 
commanders, as well as transmitting the data to other offices for 
analysis and monitoring. The costs to build this nationwide network are 
not yet fully developed. The Coast Guard is currently evaluating the 
engineering requirements and best approach to implementing this 
project, thus funding for this system is not included in the Coast 
Guard's fiscal year 2004 budget request. The Coast Guard intends to 
execute the combined $27,900,000 provided in the fiscal years 2002 
Supplemental and 2003 appropriations to install AIS capability in the 
VTS ports of New Orleans, Prince William Sound, Houston/Galveston, New 
York and Port Arthur.

                             RAIL SECURITY

    Senator Hollings. That and those security plans, too, we 
need the extra money for that. But let me jump quickly to the 
real security. Now, for example, at tunnels at New York, 
Baltimore, come down to Washington, there is a tunnel right 
under the Supreme Court. I know some locals who were ready to 
use that tunnel a couple years ago.
    But where is the money now? We authorized $750 million for 
rail security on those tunnels alone, and I don't see any money 
in Homeland Security now for that.
    Secretary Ridge. Senator, I believe that the Transportation 
Security Administration has resources. They have begun to work 
with the Federal Railway Administration to do vulnerability 
assessments at some critical pieces of railroad infrastructure. 
I know that in our internal assessment in preparation for 
Liberty Shield we identified several critical pieces of 
railroad infrastructure that we asked and secured either public 
or private sector support.
    So as we are building up this capacity within the new 
Department under that directorate, it will not only be the 
Transportation Security Administration working with the Federal 
Railroad Administration, but it will be our Department working 
with the railroads on vulnerability assessments. And again, the 
fiscal year 2004 budget gives us a rather substantial amount of 
money in order to do those vulnerability assessments.
    Senator Hollings. You talk generally of substantial amount, 
but it was $750 million there. It was $515 million authorized, 
of course, for, you say, the railroads, because as you know, we 
only own about 750 miles of the 22,000 miles of freight rails. 
They have bridges and vulnerabilities and everything else like 
that. They say it is an unfunded mandate. You see, that is what 
we are getting at the committee level.
    Secretary Ridge. Well, I will tell you, Senator, that in my 
discussions with the folks, private sector folks, publicly 
traded companies, they have a lot of equity interests, but I 
think that, by and large, the responsibility of securing 
critical assets of a privately owned, profit-generating company 
rests more with the privately owned, profit-making company than 
it does with the Federal Government and the taxpayer.
    Not everybody has an equity interest in every railroad in 
the country. Those that do, and I think there is a 
responsibility of the leadership and the Board of Directors to 
their employees, to the communities in which they operate it, 
and to their shareholders, they could at least begin some of 
these vulnerability assessments themselves to make a 
determination and work with us in order to get a handle on what 
they really need as we try to manage the risk.
    We will not be able to provide security to every bridge and 
to every tunnel and to every piece of infrastructure. I think 
we all understand that. But I think we need to engage this, and 
I say this in a very positive way, we have been able to engage 
some of these railroad companies to work with us to identify 
critical pieces of infrastructure and the debate as to who is 
paying for it may end up being a very public one, but I will 
tell you, from our point of view, our communication with the 
private sector that owns these assets is that, by and large, we 
want to help you identify the critical pieces of 
infrastructure. We want to help you do the assessment on what 
you need in order to secure the infrastructure. But at the end 
of the day, it is our view that it is much more private sector 
responsibility than it is a public sector one.
    Senator Hollings. Well, we debated that back and forth 
across the committee. The Congress has authorized $750 million.
    Secretary Ridge. Well, yes----
    Senator Cochran. Senator, your time has expired.
    Senator Hollings. I thank the distinguished chairman.
    Senator Cochran. Thank you. Senator Murray?

                           ENTRY-EXIT SYSTEM

    Senator Murray. Mr. Chairman, thank you, and I first want 
to associate myself with the comments of Senator Gregg on the 
entry-exit system. We have some really serious concerns and I 
appreciate your response back to him and look forward to 
working with you on that. I think the INS has been eager to do 
this since the 1996 legislation and it is an area we need to be 
vigilant on and move forward carefully, so I appreciate your 
comments.
    Also, I want to----

                             INS EMPLOYEES

    Secretary Ridge. Might I just, there, I think it would be 
important for the Senator, you have probably done this, but 
first of all, I do want to say something good about the men and 
women that work at the INS. They work hard. They haven't 
necessarily over the years been given the equipment or maybe 
provided other things that they needed in order to accomplish 
their task.
    But I think on a day-to-day basis, they go to work trying 
to do the right thing. Maybe they weren't given the right 
direction. Maybe they weren't given the right information. 
Maybe they weren't given the right technology. But they work 
pretty hard.
    I know we have a lot more work to do, Senator. Don't get me 
wrong. I am not trying to sugarcoat some of the problems that 
have been identified publicly and that we have identified 
internally. They are there. Our job is to fix them. But at the 
end of the day, I just want to relay to you that I was in Los 
Angeles on Friday talking about ports and airport security with 
the officials out there, but I stopped for an hour and a half 
at an immigration and naturalization ceremony, 4,200 new 
Americans from 135 different countries.
    The notion to be present when 4,200 people raise their 
hands and at the end of taking an oath, regardless of their 
country of origin, they suddenly became Americans and are now 
citizens, and the fact that people from 135 countries chose 
this country to live in, these men and women in INS, that is 
the job they do. They have a tough job. It is a welcoming job.
    We know we have some work to do and we also know that we 
have friends in Congress on both sides of the aisle that want 
to help us get it right, and that is what we need to do in the 
years ahead.

                        OPERATION SAFE COMMERCE

    Senator Murray. Thank you. I also want to follow up on 
Senator Hollings' concerns about ports and continued security 
is an issue. I have been very concerned about the Seattle-
Tacoma port, third largest in the Nation. We have been working 
closely with them and other ports.
    In 2002, we gave you $28 million for Operation Safe 
Commerce and $30 million in 2003, and as I said in my opening 
comments, this is an initiative that will enable the security 
of 6 million containers that enter our ports every year to be 
monitored from the time they are loaded to the time they are 
unloaded. It is extremely important that we begin to understand 
what is coming into our ports, and this is a really important 
operation, but so far, none of that money has been spent, 
despite all of our pushing, and I wanted you to explain to the 
subcommittee why the Department has not moved forward on 
Operation Safe Commerce that has now been funded in two 
separate fiscal years and can you assure me that we are going 
to see some movement on this.
    Secretary Ridge. Senator, I believe we are in the process, 
with regard to the 2003 package I am most familiar with, in 
coming up with some grants guidance to distribute those 
dollars. I believe that----
    Senator Murray. Well, Operation Safe Commerce is a pilot 
project targeted to the three top ports, and the ports, 
everybody is ready. They have submitted their grants. They are 
waiting to hear from all of you, and we were told that 
originally it was February. Now, it is June, could be pushed. 
These people are ready to go. They have projects in place. They 
know what they need to be doing. They are waiting for the 
money.
    Secretary Ridge. Senator, let me review it and get back to 
you on that.
    [The information follows:]

    The Ports of (1) Los Angeles and Long Beach; (2) Seattle and 
Tacoma; and (3) the Port Authority of New York and New Jersey have 
submitted proposals for funding consideration under this initiative. 
The application closing date for OSC proposals was March 20, 2003. 
Representatives from the Bureau of Customs and Border Protection, 
Department of Transportation, U.S. Coast Guard, Department of Commerce 
and the Transportation Security Administration are currently evaluating 
the applications. Evaluation and selection estimates are expected to be 
completed by early May with award announcement following contract 
negotiations and congressional notification estimated for early July 
2003.

    Senator Murray. I would really appreciate it. We cannot 
allow 6 million containers a year to continue to come into our 
ports without monitoring. We are ready to go with a project 
that works and we just are waiting for your office----

                     CONTAINER SECURITY INITIATIVE

    Secretary Ridge. If I might, Senator, I appreciate that 
very much, but we also need to understand that we have begun 
layering other defenses to review that cargo before it gets to 
any of the domestic ports. You have given us $60 or $70 million 
for the Container Security Initiative that is up and running 
and we are tying into more and more foreign ports. You have 
also given us substantial dollars to enhance the Coast Guard's 
capability to target high-risk cargo.
    The number goes around, and people use the number, well, we 
only board 2 or 3 percent of the cargo ships in the country. 
But I would say to you, we board 100 percent of the cargo ships 
that we think are high-risk cargo ships. So we have started----

                        OPERATION SAFE COMMERCE

    Senator Murray. The point of Operation Safe Commerce is to 
begin to know what is in those containers, and if you could 
take a look at it and get back to me----
    Secretary Ridge. Sure. I would be very pleased to and look 
forward to communicating----
    Senator Murray [continuing]. I think you will be pleased 
with what you see the ports doing. They are just waiting for 
the go-ahead from your agency, so if you could check that.

                           TRAINING STANDARDS

    I know my time is short. I just wanted to also really bring 
up the issue of a national strategy on training. We have a lot 
of people out there who want to do what they need to do in 
terms of homeland security but training is a real issue. I 
wondered if you could tell us what is the status of a national 
strategy on getting these folks trained and when we can expect 
some progress and seeing something from your office on that.
    Secretary Ridge. Senator, we are obliged and will provide 
standards and certification of training, of communications, of 
equipment. Again, with great respect, the Department has been 
up and operational for only about 60 days. FEMA has been 
working on it. We have been doing some work with the Department 
of Justice.
    Again, one of the very important roles of the new 
Department that you highlighted in your question is that 
somebody in the Federal Government has to start setting 
standards, standards for training, standards for equipment, the 
standards for interoperability, and that is one of our primary 
tasks.
    So again, I would assure you that the process of setting 
those training standards--as you know, we have four or five 
national training centers. I must tell you that hardly a day 
goes by that somebody else doesn't want to start another 
national training center somewhere else in this country----
    Senator Murray. That is exactly why I think we need a 
national strategy, so we all----
    Secretary Ridge. You are absolutely right. You are right on 
target. If we develop the national training standard and the 
national model and we set aside x-number of dollars for States 
or regions, there is no need to build more national training 
centers if we have a model to train with. The training can be 
done intra-state. But we have to set the standard.
    Senator Cochran. The Senator's time has expired.
    Senator Murray. I appreciate that, and I would just hope 
that you look at the National Guard in terms of providing that 
training. They do much of that already and I think we don't 
want to lose that.
    Senator Cochran. Senator Leahy?
    Senator Leahy. Thank you, Mr. Chairman, and Governor, 
Secretary, thank you for being here. There are probably days 
when you feel as though you live up here on the Hill. I assume 
that is because you feel it is the safest place in the country 
to be.

            FORMULA FOR STATE AND LOCAL PREPAREDNESS GRANTS

    We have spoken many times, both in hearings and privately, 
on how to fairly allocate domestic terrorism preparedness plans 
to our States and local communities, and as you know, I have 
had some interest in that even in our little State of Vermont. 
I authored and added to the USA PATRIOT Act the provision 
creating an all-State minimum for the Office for Domestic 
Preparedness. Each State receives at least three-quarters of 1 
percent of the national allotment.
    Currently, 35 to 40 percent of ODP grants are distributed 
equally to the States. The rest are given out in various 
factors. For example, $2.6 billion allocated in fiscal year 
2003, at least $1.7 billion of that would go to those places 
deemed to be major terrorist targets.
    I now hear that officials from your Department plan to 
announce soon whether they will propose a change in the formula 
to be issued. I ask and I want you to know that when the 
supplemental appropriations went through, the managers 
specifically included reference to the all-State minimum, 
reaffirming Congress's support to the all-State minimum, at the 
same time, providing additional money for those obvious 
targets, like Washington, D.C. or New York City. So are we 
going to see a new proposal coming out?
    Secretary Ridge. Senator, thank you for asking the 
question.
    Senator Leahy. I am sure it surprised you that I asked 
this.
    Secretary Ridge. You and I have had this discussion, and 
frankly, we need to have more, both public and private, 
discussions with you and your colleagues because this is one of 
the most important things we can do in the fiscal year 2004 
budget.
    As of today, the Department of Homeland Security will put 
the applications online for that $1.5 billion and we have got 
the Congress appropriated $1.3 billion 80/20, $200 million of 
50/50 State and local. You did give us with those dollars, the 
flexibility to depart from the basic traditional ODP funding 
formula. You also gave us $700 million for the high-threat, 
high-vulnerability areas.
    We have made an internal decision, Senator, to use the 
traditional formula for the $1.3 billion. We ran a variety of 
numbers back and forth----
    Senator Leahy. What do you mean by traditional formula?
    Secretary Ridge. It is the funding formula that says you 
start with three-quarters of 1 percent per State----
    Senator Leahy. Which is what I wrote into the PATRIOT Act--
--
    Secretary Ridge [continuing]. Plus population, and we 
really appreciated being given the discretion, but I really 
thought the traditional formula would be more appropriate for 
that pool of dollars, because applying a threat vulnerability 
and critical infrastructure piece on top of that is going to 
take some work with the Congress of the United States in order 
to come up with that formula. So those dollars will be 
distributed according to the traditional formula.
    It is much easier for us to--it is very difficult on a 
Statewide basis, at least it was in the few days, in the 
several days we have had to work out a formula, to take a 
threat assessment and an assessment of critical infrastructure 
and apply it nationally. It is a lot easier to apply that kind 
of approach to a major municipal area or region. So----
    Senator Leahy. But we have given extra money for that.
    Secretary Ridge. And we are going to use the discretion. So 
in answer to your question, the largest pool of funds are going 
out to the traditional.
    Senator Leahy. Okay.
    Secretary Ridge. Vermont is going to get their money. Every 
other State is going to get their share of those dollars under 
the traditional formula until we can reach an agreement with 
Congress as to what the modifications might be for the new 
allocation, because I do think we need to change it, but----
    Senator Leahy. Is this traditional going to be part of the 
fiscal year 2004----
    Secretary Ridge. That is the conversation and the debate 
probably that you and I and others will have, Senator.
    Senator Leahy. Well, let us----
    Secretary Ridge. The answer ultimately----
    Senator Leahy [continuing]. I mean, look at that managers' 
statement when we have it, because there is still a lot of 
support for that.
    Secretary Ridge. And I believe that there should be a 
minimum going to every State.
    Senator Leahy. I mean, just to set up the office, put the 
phones, and have people in, whether you are a small State or a 
large State, there are certain basic costs that are going to be 
the same.
    Secretary Ridge. Right, and I agree. I do think, however, 
and it bears debate and hopefully some changes in how we 
distribute dollars in the future, that coming to some agreement 
with Congress with regard to what value you add to a threat 
over a year period if the presence of critical infrastructure 
in that area or in that State, that is a lot easier to take 
that information, Senator, and apply it to a municipal area or 
to a region----
    Senator Leahy. And also----
    Secretary Ridge [continuing]. It is a lot easier to do that 
than it is to a State.
    Senator Leahy. Also, the State might be--I mean, this isn't 
part of my State, but you might have a small State in 
population but they have got a port or whatever else it might 
be.
    Secretary Ridge. Right.
    Senator Leahy. I will submit some questions there, but I 
would like to sit down with you and talk to you about this.
    Secretary Ridge. I look forward to it, Senator. We need to.

                  TOWNHALL MEETINGS WITH INS EMPLOYEES

    Senator Leahy. Also, we talked about INS and I talked to 
Under Secretary Hutchinson about this. He mentioned the town 
hall meetings you have done with new DHS employees in Miami and 
elsewhere. We have 1,600, or more than that, but were INS 
employees who are now DHS employees in Vermont. They are those 
hard working, patriotic, conscientious people you have talked 
about.
    I would invite either you or Under Secretary Hutchinson to 
come to Vermont and talk with them. I think you would find it--
the snow has gone away, but from Pennsylvania, you know--
Senator Harkin says it is down to two feet deep, but you 
understand what weather is.
    But I think--the reason I mention this, even though it is a 
small State, this is actually one of your larger installations. 
I would urge you or Asa to come up. These people are not 
political. They are not partisan. They are concerned Americans. 
I think you would benefit by it and I know they would benefit 
by it, but I also think DHS overall would benefit by it. So I 
would urge you to do that. I think you would be welcomed by 
everybody from the governor on through on that. The governor 
and I are different parties, but I think we would join equally 
in your welcome.
    Secretary Ridge. Thank you, Senator. I appreciate that 
invitation.
    Senator Leahy. Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator Leahy, for your 
contributions to the hearing.
    Senator Harkin.

                  DHS COORDINATION WITH STATE OFFICES

    Senator Harkin. Thank you, Mr. Chairman.
    Mr. Secretary, I just have basically three questions. One 
has to do with a coordination between DHS and State offices. In 
the last session we had, I asked you a question and you 
responded in writing regarding two sites in Iowa that were 
supposed to be protected. The letter I got from your office 
said, and I quote, ``Governors and State homeland security 
providers were provided with examples of facilities and systems 
within their States that met these criteria from a Federal 
perspective. These references are intended as examples only,'' 
et cetera, et cetera.
    So I passed that back out to Iowa and they said that that 
was not right, that Iowa was told that the two specific bridges 
were the ones to be protected, and that seemed to be the view 
from several other State directors, as well. In fact, one sent 
an e-mail that they said that they were specifically told by 
FEMA that this answer that I got was not correct, that sites 
were specifically told to be protected.
    So again, I want to get this cleared up because there seems 
to be some concern, and I can say openly that the two sites in 
Iowa are two railroad bridges that go over the Mississippi. 
Well, we have got two rivers. We have got the Mississippi on 
one side and the Missouri on the other. Those railroads keep 
going on, so you protect two on one side but nothing on the 
other side.
    I am wondering about the coordination here. That is my 
question, just on coordination between the State offices and 
DHS. Iowans feel they were told they have got to do those two 
sites and nothing else, and what I am getting from your office 
is, no, those were just supposed to be examples but not 
specific. I am trying to get this kind of cleared up, is all.
    Secretary Ridge. First of all, Senator, I appreciate the 
inquiry. There were, and I can't assess right now he said, she 
said, what was said.
    Senator Harkin. I know that.
    Secretary Ridge. Clearly, we gave specific directions to 
some communities to deal with specific pieces of 
infrastructure, and I know that for a fact.
    Senator Harkin. I can believe that, yes.
    Secretary Ridge. Whether or not those were included in the 
communication to Iowa, I will go back and double-check. The 
point being, however, that as we ramped up Liberty Shield, in 
addition to providing Federal direction to secure certain 
pieces based on our analysis of risk management and the loss 
that would be incurred if something transpired at that 
particular site, we also said to governors, that is what we 
want you to do, but, I mean, at some point in time, we have to 
rely on the governors and others who may view other pieces of 
infrastructure that they want to support and defend and secure, 
as well.
    So I will get back to you on that. But the challenge we 
have, and we accept the challenge, is communicating in a timely 
and accurate way the kind of support we need with our friends 
at the State and local level, and I believe that there is no 
other agency in the history of the Federal Government that 
communicates more frequently with the States and locals.
    [The information follows:]

    At the onset of Operation Liberty Shield, the Iowa State Homeland 
Security Advisor was specifically asked by the Department of Homeland 
Security to do two things: protect specific sites, and identify other 
sites that should also receive protection, based on a set of criteria 
that the Department provided. Specifically, we requested that Iowa:
  --Ensure that appropriate, visible, protective measures were in place 
        for the following two critical assets:
    --BNSF Iowa End Rail Bridge--Fort Madison, Iowa
    --Union Pacific Iowa End Rail Bridge Clinton, Iowa
  --Based on an additional set of 13 law enforcement sensitive criteria 
        provided to every State and Territorial Homeland Security 
        Advisor, identify any other assets in the State of Iowa that 
        met these criteria, and consider putting protective measures in 
        place at these sites, as well.
    The Department provided a report template and asked the states to 
report periodically on specific actions taken in response to Operation 
Liberty Shield. The Department also told the States, through their 
Homeland Security Advisors, that it would be requesting supplemental 
appropriations in order to try and help defer costs for actions taken 
by the States during Liberty Shield.

    Secretary Ridge. We think we have a good communications 
system now, Senator, but we know it has to be better because 
the relationship for us to be able to secure the country is 
going to have to be a lot stronger and the confusion that 
arises in your statement, we cannot afford to have that occur 
if we are to secure the country in times of need. There should 
be no hesitation if instructions are given, secure that place, 
and we all need to understand that.
    Senator Harkin. I appreciate that very much.

                 PARALLEL EMERGENCY MANAGEMENT EFFORTS

    I was meeting with some of my fire fighters from Iowa 
recently this morning and it has been brought to my attention 
that there is a concern in my State that some of the new 
provisions for training is going almost on a parallel level 
with what is already existing with the existing Fire Marshal in 
Iowa. We have the Iowa Department of Emergency Management that 
does the DHS work, where your efforts flow through. They want 
to set up, for example, new training teams for bomb disposal. 
That already exists under the Fire Service Training Bureau in 
Iowa, the Fire Marshal. As they told me, first responders need 
to be trained in the basics like hazmat, basic fire fighting 
training. That already exists.
    But now, it seems that the Iowa Department of Emergency 
Management is going to set up other parallel types of systems 
when this is already existing, and so again, I am wondering if 
we are looking at existing structures within States that 
already do the kind of hazmat training, basic fire fighting 
training, things that are already in place, utilizing them 
rather than setting up some parallel kind of structure.
    Secretary Ridge. Senator, you tee it up for me. This is 
precisely why I believe that once our Department sets standards 
for this kind of training, each State should be required to 
submit a plan to tell us what agency within that State is going 
to provide the training. It makes no sense, to your question, 
to have two or three centers unless the capacity matches the 
need, but to be setting up two separate, independent training 
programs that may only be operating at 50 percent capacity, 
particularly when you already have an existing training 
program. I mean, that goes to the very rationale behind setting 
up State plans to deal with questions of training, equipment 
acquisition, distribution of funds, and the like. The question 
is germane as to what we are trying to avoid in the future.

                   COSTS OF PROTECTING INFRASTRUCTURE

    Senator Harkin. I appreciate that very much, Mr. Secretary. 
One last thing, or two last things.
    I looked at the cost supposedly for protecting these two 
bridges in Iowa and it comes out that the cumulative daily cost 
estimate to protect these two bridges is $11,000 a day, and I 
am wondering if I can get that contract.
    Eleven-thousand dollars a day. Now, this is not from you. 
This is coming out from underneath.
    Secretary Ridge. We have to beat a lot of other people to 
the head of the line, Senator.
    Senator Harkin. I think so. But I am hopeful--I say it 
because I am looking at the cost breakdown, and I am saying, if 
this is what is going on around the country, because we are 
spending a lot of money, I think, needlessly.
    So I guess my point is, I hope that you have a good 
Inspector General on board and to really start taking a look at 
some of these cost estimates that come in and what they are 
doing. I look at this, to protect two bridges, per day, $11,000 
a day. It just doesn't make sense.
    Secretary Ridge. One of our goals, Senator, now that we 
have stood down Liberty Shield, is to go back and review at 
different sites the costs that were allegedly incurred at each 
site, and I think after this, we debrief ourselves and scrub 
all those numbers and then compare them to what otherwise might 
have occurred, we will be able to report back to you and give 
you an answer, if that is the common occurring cost or if there 
is a cheaper and more efficient way of providing the security 
at those bridges.
    Senator Harkin. Well, I sure hope you look at this and I 
hope you have got good watchdogs down there to look at this----
    Secretary Ridge. We will.
    Senator Harkin [continuing]. Because this stuff is coming 
up, and I am not saying that the bridges aren't vital and 
needed, but the cost of this protection is just way out of 
line, just way out of line. Again, I am just concerned, if 
this, what happens when you multiply that by all the different 
sites around the country and what you are doing and how much 
money this is. So I hope you will really look at it.
    Secretary Ridge. It does, and it also gives to mind, 
Senator, if you will, the notion that we don't have enough 
money in the Federal Treasury, the State treasury, and the 
personal pocketbooks of every American citizen to harden every 
target, every site. We have to manage the risk, and determine 
what is the infrastructure that if it was destroyed would 
result in the greatest loss, catastrophic loss of life? What is 
the infrastructure, if destroyed, would have the greatest 
catastrophic economic impact?
    I know as a former governor in Pennsylvania, I had over 
100,000 bridges. There were some that I had to consider were 
far more important to safety, security, and economic matters 
than others, and I think that is the kind of assessment that we 
have to do nationally, and we have to have our friends at the 
State and local level help us with it.

                  COLLABORATION WITH CIVIL AIR PATROL

    Senator Harkin. One last thing. I know you met with the 
Civil Air Patrol.
    Secretary Ridge. Yes.
    Senator Harkin. I appreciate that very much, and I hope you 
are going to continue to work with the Civil Air Patrol.
    Secretary Ridge. We had a very good discussion with them. 
As you pointed out in our earlier conversation, they do provide 
considerable benefit as they work with some of the other units 
of the new Department and we are going to look for ways to take 
advantage of their patriotism, their equipment, and their 
professionalism and see if we can expand their mission in 
certain areas.
    Senator Harkin. And they are cost effective.
    Secretary Ridge. Oh, absolutely.
    Senator Harkin. Thank you very much, Mr. Chairman.

               MANAGEMENT OF FIRST RESPONDER INITIATIVES

    Senator Cochran. Thank you, Senator, for your contribution 
to the hearing.
    Mr. Secretary, the fiscal year 2004 budget request proposes 
to manage the first responder initiative through the Office for 
Domestic Preparedness and the budget requests $3.5 billion in 
funding. You are earmarking $500 million for fire fighters' 
assistance and $500 million for law enforcement. My question 
is, how do you propose to allocate these funds to fire fighters 
and law enforcement agencies? Do you intend, for example, to 
retain the current grant programs now managed by the Emergency 
Preparedness and Response Directorate which provide emergency 
management performance grants to States or grants directly to 
fire departments through the Assistance to Fire Fighters grant 
program?
    Secretary Ridge. Senator, the $500 million that we have 
earmarked for the fire departments, though we do want to shift 
it from the Emergency Preparedness and Response Directorate 
over to ODP, would be distributed according to past practice. 
Again, we would like the dollars distributed for equipment and 
training exercises consistent with a Statewide plan to build up 
their capacity to deal with emergencies. But they have a very 
thorough review process that they have put into place and I 
think everybody's interest would be best served if we just 
continued that practice.

                        HIGH THREAT URBAN AREAS

    Senator Cochran. There was $100 million in fiscal year 2003 
funds announced by the Department on April 8 to high-threat 
urban areas.
    Secretary Ridge. Correct.
    Senator Cochran. This included distributions to seven 
cities--New York City, Washington, D.C. and the National 
Capital Region, Los Angeles, Seattle, Chicago, San Francisco, 
and Houston. Do you intend to use the same formula? I presume 
there was a formula used for awarding these funds. Are you 
going to continue to use that for the additional $700 million 
provided in the fiscal year 2003 Wartime Supplemental 
Appropriations Act?
    Secretary Ridge. Senator, that is our intention. As I 
mentioned to Senator Leahy, part of the discussion we need to 
have, and hopefully we can resolve it in the fiscal year 2004 
appropriations process, is the formula that you would direct 
the Department and this Secretary to use--that we need some 
more permanency, I think, with regard to the funding formula 
and maybe more specificity. But you have given us the 
discretion.
    We find that it is much easier to go to the FBI, go to the 
CIA, go to our own intelligence analysts and render an 
assessment with regard to threat and vulnerability around a 
locality rather than a State because of the nature of the 
information we receive. So we would take that assessment. We 
put a value on it. We take a look at the critical 
infrastructure in a region, and more often than not, you will 
find in a more densely-populated area, either a city or a 
county, you will find a lot of the critical infrastructure that 
you need to protect, for obvious reasons.
    And so the funding formula that we used before took in 
threat and vulnerability, critical infrastructure, both public 
and private, and then density of population. We assigned values 
to it and we are going to use basically the same system. 
Because we have seven times as much money, the distribution of 
those dollars will be much wider. We made the decision 
internally, Senator, that we could give a little to a bunch of 
places and they wouldn't be able to do significant things with 
it, and if it is about building up infrastructure and hardening 
targets, we decided that would limit it. But the generosity of 
the Congress, coupled with the same discretion, means that more 
cities will benefit, more regions will benefit.

                              WATCH LISTS

    Senator Cochran. Thank you for that. I noticed in today's 
papers there was a discussion of a GAO report that is being 
made available today, and, as usual, the content of that report 
was leaked to the press through advance stories. It had to do 
with the so-called watch list----
    Secretary Ridge. Right.
    Senator Cochran [continuing]. And the way that is compiled. 
I don't know whether you have had an opportunity to review the 
report--I don't see how you could--but you may have some 
information about it and at least have some information about 
whether or not we are making progress, and that is the 
question, to centralize and to have a coherent way of 
determining who we should be on the lookout for as they are 
trying to come into our country or move around the country that 
pose a threat to our Nation's security.
    What about the watch list issue? Is there going to be, and 
when can we expect there to be a watch list that can be shared 
with local officials and others that need to know so they can 
participate in doing their jobs, helping contribute to the 
safety and security of our country in this way?
    Secretary Ridge. Senator, we began working with the 
multiple agencies that generate watch lists many, many months 
ago to consolidate not only the database, but then to make sure 
that the right people had access to the entire database. That 
has been an ongoing initiative within the White House and now 
in the Department of Homeland Security. It will be facilitated 
enormously as a result of the creation of the President's 
Terrorist Threat Integration Center, which will be the venue 
that this kind of information is consolidated.
    So I can't give you a specific time frame. I think we are 
fairly close to finalizing the consolidation itself. The next 
piece of that is making sure that we have the technology to 
distribute the information to the points of interest and 
concern around the country and around the world so they can 
take advantage of it. Part of the time delay is just making 
sure that people with the same names or similar names on 
multiple databases are--confirming they are the same or 
different individuals. I mean, there is a technical piece to 
this that has been a little cumbersome.

                  TERRORIST THREAT INTEGRATION CENTER

    But under the President's Terrorist Threat Integration 
Center, you will see the consolidation and then the 
distribution of these, and the time table, I think, will be 
more easily identified in the next couple of weeks. I think we 
can give you a more specific answer on that.
    [The information follows:]

    The GAO is correct in its assessment that the government's approach 
to using watch lists is decentralized because the lists were developed 
in response to individual agencies' unique missions. Those historical 
missions include the duties of the law enforcement and intelligence 
communities, and now include the mission to defend the homeland. The 
effort to consolidate and establish the connectivity of information 
contained in historical databases, from which watch lists may be 
generated, requires close coordination among my Information Analysis 
and Infrastructure Protection Directorate, several other Departments, 
and the Terrorist Threat Integration Center. Discussions among the 
interested parties to effect the sharing and consolidation of 
information are ongoing, and all parties are working to establish a 
timeframe for implementation.

    Senator Cochran. When we were considering the legislation 
in the Governmental Affairs Committee, we assumed that the 
Department of Homeland Security would actually do this and 
would be the lead agency in the Administration to do this, and 
then the creation of the Terrorist Threat Integration Center 
that you just talked about seems to either be supplanting or 
supplementing in some way the work of the Department. Are you 
still going to conduct your own intelligence analysis?
    Secretary Ridge. Oh, yes, absolutely.
    Senator Cochran. Are you going to get information from the 
intelligence agencies and compile that and analyze it and then 
give it to the White House, to this Terrorist Threat 
Integration Center? How is that going to work?
    Secretary Ridge. Senator, first of all, we are going to 
continue to work and have been working with the CIA, the FBI, 
and the Department of Defense to set up the Terrorist Threat 
Integration Center. They are aware of our work to integrate the 
databases because we were working with those agencies. One of 
the advantages of having this much broader Threat Integration 
Center is that we will have a much more substantial capacity, 
not only to integrate names but actually start working on 
individuals and building up the kind of information base about 
these individuals and their potential conduct.
    Having said that, the Congress said very specifically that 
we are to have our own Information Analysis and Infrastructure 
Protection Directorate. We will be a full partner in the Threat 
Integration Center. We will take some of our analysts and have 
them working on the analytical and assessment products that are 
generated by the Threat Integration Center. But that will not 
be a substitute for our own analysts working in that 
directorate. It won't be a substitute for our own competitive 
analysis.
    The difference will be that the analyst in the Threat 
Integration Center, and here, this is where it adds enormous 
value to the new Department, those analysts as full partners 
have access to everything. We are a provider of information to 
the TTIC. We are also a consumer. The analysts that we have 
from our Department in that center are going to have access to 
all the raw data, all the reports, everything that everybody 
else has. The analysts in our Department won't have that access 
directly, but they will have it indirectly through their 
counterparts in the Threat Integration Center. So we view it as 
a full partnership. We view it as enormous value added to the 
unit that Congress authorized in the legislation creating the 
Department.
    Senator Cochran. Thank you. Senator Byrd.
    Senator Byrd. Thank you, Mr. Chairman, and again, thank 
you, Mr. Secretary.

                   FEDERAL EMPLOYEE RIGHTS UNDER DHS

    One of the most contentious issues during last year's 
debate on the creation of your Department, Mr. Secretary, 
involved the administration's plan for its treatment of the 
thousands of Federal employees that were being pulled away from 
their various agencies with their differing pay and benefit 
structures and merged into this huge new entity. Many were and 
many still are concerned that their hard work and their years 
of service would amount to little more, or to nothing, perhaps, 
once the final personnel plan is formulated at the end of this 
year.
    Now, their fears are compounded, and so are mine, may I 
say, when they read the administration's proposal to undertake 
a massive overhaul of the Department of Defense's personnel 
system. I suppose we are talking about 660,000 persons there or 
some such number.
    I find it more than ironic to learn about these plans to 
contract out secret services. After the terrorist attacks on 
September 11, 2001, we found out, to date, about some of the 
inefficiencies that private security contractors brought to our 
Nation's airports. There were gaps in security. There were lax 
background checks. We heard about the failure rates in security 
screens. We heard that there were criminal aliens, even, who 
were being employed by these security agencies to check 
passengers, to check baggage and so on at the Nation's 
airports. I was astounded, and I am sure other people were, 
too, to learn that, that there were aliens and even criminal 
aliens--aliens who had criminal records, perhaps I had better 
put it that way--who were employed by these private security 
contractors.
    To address some of these problems, Congress created the 
Transportation Security Administration. We federalized the 
security system. Private contractors had failed, so we stepped 
in. One mission of this new agency was to do a better job than 
the private contractors.
    Now, believe it or not, we hear of plans to contract out 
security functions again. I am dumfounded. Have we not learned 
any lesson from September 11? Now, this is an enormous, an 
enormous opportunity for abuse, and it is coming.
    In this regard, what is your Department contemplating in 
the area of contracting out current Federal jobs, Mr. 
Secretary?

                        OUTSOURCING FEDERAL JOBS

    Secretary Ridge. Senator, you referred, first of all, to 
the work we have undertaken to harmonize dozens and dozens of 
pay and personnel systems that are part of the 22 departments 
and agencies that have become part of the Department of 
Homeland Security, and first, I want to assure you that the men 
and women represented in those agencies are very much involved 
in the process of developing that personnel system. We have 
begun. We had discussions with the representatives of both the 
organized workforce and the non-union workforce to set up the 
process. We have a fairly significant outreach effort where 
members of the team are going to visit, I think as many as six 
cities, where we are going to bring the employees from the 
different agencies in to talk about it.
    We also have assured them, and the Congress in this 
language creating the Department assured them, that the 
personnel system will be based on the principles of merit and 
fairness and that the historic protections afforded Federal 
employees will be provided in the new human personnel system. 
So that process has moved forward.
    I am aware of the concerns that you raised, the 
privatization of the security force with regard to airport 
security prior to TSA, and Senator, I can't tell you today that 
we have any plans to privatize any of this work out. But I also 
cannot tell you today that there may be occasions in the future 
where if we find it is appropriate to get additional support 
through the private sector, we will.
    But I have, as we speak today, engaged in these discussions 
with these men and women, 175,000 strong. We have no plans to 
privatize our support at the borders, our work at the national 
labs, privatizing what used to be the investigative or the 
inspective role of the Animal Plant Health and Inspection 
Service, the legacy Customs or INS.
    Frankly, Senator, the beautiful thing about the new 
Department, and for all those who say that it is such a tough 
job, is that we, unlike the TSA, do not have to go out and hire 
45,000 or 50,000 people and train them to do the job. Most of 
the men and women that are working in the new Department have 
been at their job for a long time and do it pretty well. We 
have to give them, I think, the kind of leadership, the kind of 
support, and the kind of technology so that they can do it even 
better. But right now, Senator, we don't have any plans of 
privatizing that critical work out to the private sector.
    Senator Byrd. Mr. Secretary, are there proposals under 
consideration to contract out existing activities in specific 
agencies?
    Secretary Ridge. It is a big agency and I can't tell you 
that I see the contracts that my colleagues are signing on a 
day-to-day basis. Over a period of a year, there will be 
literally hundreds and hundreds. But I am not presently aware 
of any contracting out of existing responsibilities that the 
men and women are presently engaged in.
    Senator Byrd. So your answer is----
    Secretary Ridge. To my knowledge, the answer is no.
    Senator Byrd. So----
    Secretary Ridge. There may have been some contracts that 
were let for privatization before the Department was created. 
That could very well be the situation, and where they are, I 
don't know. I mean, I think it is possible. But in terms of new 
ones, I am not aware of any.
    Senator Byrd. Do you not feel that you should be made aware 
of such?
    Secretary Ridge. I think, given the sensitivity of where we 
are with the negotiations, with the employees, the concern that 
members of Congress would have without that course of action, 
that is why I feel pretty confident in telling you that I am 
not aware of any right now because I think I would be made 
aware if it was an intention. I would hopefully be made aware 
when it was an intention to do rather than a contract that was 
let.
    Senator Byrd. Well, Mr. Secretary, I would hope--this is a 
very--I would say this is a very serious issue. We are going to 
hear more about contracting out. William Wordsworth said, no 
matter how high you are in your department, you are responsible 
for what the lowliest clerk is doing. And so this, I dare say, 
will not be the last time that questions will be asked about 
contracting out, and I would adjure you to not just wait until 
you are made aware of such, but that you make it your business 
to become aware and let the subcommittee know what criteria 
would be used and what examples of activities that are being 
considered. Would you do that?
    Secretary Ridge. I will, Senator.
    Senator Byrd. Agencies are encouraged to submit management 
plans to the OMB which incorporate the competitive sourcing 
quotas outlined in the President's budget. Information from the 
OMB indicates that these plans, while submitted to the OMB for 
approval, can be released to the public at the discretion of 
the agency heads. If this subcommittee is to appropriate $36 
billion to employ 179,000 full-time equivalent positions, the 
subcommittee would expect you to provide Congress with a copy 
of any management plan or competitive sourcing proposal that 
the Department submits to the OMB. When do you expect to submit 
a management plan to the OMB and how soon could that plan be 
made available to this committee?
    Secretary Ridge. Senator, if we understand your very 
appropriate question correctly, I think it would be submitted 
to them by the end of August.
    Senator Byrd. Would the Secretary----
    Secretary Ridge. The end of August is the timeframe. The 
end of August.
    Senator Byrd. The end of August?
    Secretary Ridge. Yes, sir.
    Senator Byrd. Very well. I hope, Mr. Secretary, you will 
take a long look at this matter of contracting out and make 
yourself aware of what is going on in this area. If there is 
something going on, I hope you will take a long look.
    The safety and the security of the Nation, that is what you 
are talking about. That is what we are talking about. That is 
what the American people expect. The safety and security of the 
Nation should not become a for-profit endeavor. Security of the 
people should be the driving motivation, and I believe in my 
heart that that is the way you see it. The security of the 
people should be the driving motivation, not a business bottom 
line.
    Very well, Mr. Chairman. Are we going to meet later? We are 
going to have a vote at noon, are we?
    Senator Cochran. Senator Byrd, that is my understanding. A 
vote was supposed to occur at 12 o'clock noon, and it is 12 
o'clock. I hope we can recognize Senator Specter, who has come 
back and did not ask questions. He did make an opening 
statement. My intention would be to recognize Senator Specter, 
and then if we do have a vote, simply declare a recess. I have 
two or three more questions to ask the Secretary, and I think 
you do, too.
    Senator Byrd. Yes, thank you, Mr. Chairman. I also have an 
appointment at one o'clock. I wonder if the committee chairman 
and the Secretary could consider coming back at 1:30 or 2:00--
--
    Senator Cochran. My hope is that we could be through by one 
o'clock, so that wouldn't interfere with your appointment.
    Senator Byrd. Oh, you don't----
    Senator Cochran. My hope would be that we would go vote at 
12 o'clock, or as soon thereafter as the signal is given for 
the vote, and we could return and complete our questions by one 
o'clock.
    Senator Byrd. I see. I see. So if a Senator has a stomach 
ulcer, he will just have to bear with it----
    Senator Cochran. And that don't might have one, or might 
get one. We can sympathize with that Senator more 
appropriately.
    Senator Byrd. I have several questions, if the----
    Senator Cochran. I hope we could complete action by one 
o'clock, Senator, if we can. I would like to try, anyway.
    Senator Byrd. Very well. I will try with you.
    Senator Cochran. That is great. Senator Specter.
    Senator Specter. Thank you, Mr. Chairman.

                              WATCH LISTS

    Mr. Secretary, are you familiar with the issue of the watch 
list information which various Federal agencies have? That was 
a critical factor on September 11 when two of the hijackers 
from Kuala Lumpur were known by the CIA, and information about 
them was not transmitted to the Immigration and Naturalization 
Service. The reports of the General Accounting Office, which 
are released today, makes a rather pointed comment that some 
agencies do not even have policies for sharing watch list 
information, and my question is, to what extent is that true?
    Secretary Ridge. Senator, we began the work several months 
ago when I served the President as the Assistant to the 
President for Homeland Security and we have continued that work 
in the new Department. I have not seen the GAO report, so I 
can't respond specifically, but to accelerate the creation of 
those essential memorandums so that there was not only a 
consolidation of the watch lists that are generated by multiple 
agencies in this government and a confirmation of the accuracy 
of the information and names on that list, but also a 
distribution mechanism so that the right people could get 
access to the consolidated list.
    That is something we have been working on for several 
months. It is something that I believe will be accelerated with 
the creation of the Terrorist Threat Integration Center that 
the President has created by Executive Order, which is going to 
be directed by the CIA, the Deputy Directors from the FBI, and 
then the two Associate Directors will be from the Department of 
Homeland Security and from DOD.
    I haven't seen the report. I read the press accounts of the 
report. It is something that we began working on several months 
ago. We have accelerated the process. We ran into some 
complications along the way. We have overcome those, and I 
think with the TTIC creation, it will accelerate it and get it 
to the point where you and I believe that it needs to exist, 
one venue, consolidated database, but just as importantly of 
having all the information in one place, making sure that the 
right people have access to all the information.

                          INFORMATION SHARING

    Senator Specter. Mr. Secretary, the report goes into the 
issue of the cultural differences, which has long been a 
critical factor as to whether the CIA and FBI could really put 
aside decades of isolation, very deep-seated feelings of 
maintaining their own information. What is your evaluation, if 
there has been enough time to come to a conclusion, as to 
whether those cultural differences have been surmounted?
    Secretary Ridge. Senator, I believe that with the 
leadership of the two principals, that is precisely the 
direction that Director Tenet and Director Mueller are seeking 
to--they are not seeking, they are going in that direction. One 
of the big challenges I believe Director Mueller had, and you 
have alluded to it in both private conversation with me and, I 
presume with Director Mueller, but also in public comment, that 
the FBI prior to 9/11 had a lot of information even intra-
agency that was not consolidated, that other folks in other 
parts of the agency that might have had a point of view or 
could have used that information didn't have access to it.
    With the support of Congress and several hundred million 
dollars and a team that the Director has brought in, the 
consolidation of that and the information sharing consistently 
gets better within the FBI. I see evidence of it every single 
day, and I believe that the placement of analysts from the 
Department of Homeland Security side-by-side with analysts from 
the CIA and analysts from the FBI and other agencies in the 
Threat Integration Center will virtually assure the kind of 
consolidation and integration that you are talking about. Time 
will tell, but I am very optimistic on the capabilities and the 
capacity of this new Integration Center.
    Senator Specter. Besides the General Accounting Office 
report, there was a report by local law enforcement and a 
comment by the Chief of Police in Raleigh, North Carolina, 
Chief Jane Hurlow, who was an author of the report, said that 
local police are, used the word ``frustrated'' by what they saw 
as the FBI's unwillingness to share its vast resources and 
expertise. Now, that may be outside of the scope of what you 
have seen directly, but what would your view of that be?
    Secretary Ridge. My sense is that it is probably not the 
distribution of the kind of information that the local law 
enforcement community seeks and, frankly, as a country, I 
believe we need, is not as even and is not as complete, that we 
need to develop a system of distribution, and again, I believe 
the presence of the Department of Homeland Security and the 
Threat Integration Center, the presence of our own analysts 
within the Department, as well as I consider to be probably one 
of the best working relationships with State and locals, 
including law enforcement, of any other agency in the Federal 
Government, I see we have an opportunity to redress probably 
the legitimate concern of some of the local law enforcement 
folks who don't think they are getting the kind of timely and 
accurate information they need.
    Those who are directly connected to the Joint Terrorism 
Task Forces around the country, they have a point of view, 
although there may be varying opinions, but in the smaller 
communities where they may not have quite the same connection, 
I suspect that there is some concern that they are not as fully 
informed as they need to be.
    To that end, Senator, one of the challenges that we have 
working with the FBI is making sure they get timely information 
down, but I have seen a need for us to also ensure there is a 
mechanism that these law enforcement professionals with whom 
you worked in Philadelphia, but who are working on the streets 
in L.A. and in New York City and in Washington, D.C., they are 
developing their own intelligence gathering capacities. Some 
have their own linguists. They are starting to connect up their 
own operations. L.A. is connecting with New York. New York is 
connecting with Chicago. I suspect that you will have this 
infrastructure at the local level. They will start seeing 
patterns. They may see surveillance trends. They may keep their 
eyes on specific individuals moving around the country. They 
will have information that they want to share with the Threat 
Integration Center as well.
    So again, they have made a lot of progress, Senator, 
dramatic improvement, still a way to go, but I think the Threat 
Integration Center enhances and accelerates the consolidation. 
We still have work to do to distribute in both directions in 
order to make it an effective use of all that information.
    Senator Specter. Mr. Secretary, I am going to submit some 
questions for the record because the chairman, understandably, 
wants to conclude the hearing by one o'clock and we have an 
intervening vote, and I am sure you want to conclude the 
hearing by one o'clock. I know how frequently you appear on 
Capitol Hill and I know you have got a lot of work to do.
    But what I would like to do, and I would like to mention 
these topics, when we had the votes during the budget, there 
was support for the President on not adding money on, and those 
were some very tough votes--port security, for example, where 
we have a big port, as you know, having been the Governor of 
Pennsylvania, in Philadelphia and many other votes, and Senator 
Byrd has made a suggestion which he has commented about on 
additional funding, and we really held the line to give you a 
chance to tell us what expenditures ought to be made.

                        PUBLIC HEALTH QUESTIONS

    But constitutionally, it is the Congress, as you well know 
because you were a member of the House of Representatives for 
12 years, but I would like to know what you have in mind on the 
issue of weapons of mass destruction, where you deal with 
chemical and biological and radiological weapons. What kind of 
funding there is necessary to have an appropriate response?
    And the issue of water safety and food safety is an 
enormous issue and the experts tell us that there has to be 
very expensive monitoring which has to be undertaken there.
    Then you have the issue of quarantining at points of 
international entry, which I am told will be enormously 
expensive. And then there is the question about an attack on 
the CDC itself, Centers for Disease Control. What kind of costs 
would be involved there?
    A final question I have, which I would like your comment 
about, if the CDC comes forward and gives us a list of expenses 
they have on SARS, would you think that is a matter which would 
appropriately come within your purview to have a coordinated 
response with CDC? With SARS, that is.
    Secretary Ridge. Senator, I think given that the primary 
focus of the country relative to public health issues and the 
primary focus relative to bioterrorism issues and the like is 
within HHS and we have the extraordinary capacity of CDC and 
NIH, I think it would be more appropriately a matter for them. 
But having said that, it is a matter that rises to the level 
where we all have to take a look at our own budgets to figure 
out if we can come up with the additional dollars to support a 
national effort to deal with it. If it gets to the point where 
we have to do that, obviously, the Department of Homeland 
Security would want to be at the table to do whatever it could.
    But I do think, given the focus, the mission, and the 
experience, it is more appropriately with HHS.
    Senator Specter. Thank you very much, Mr. Secretary. Thank 
you, Mr. Chairman.
    Senator Cochran. Thank you, Senator Specter, for your 
contribution to this hearing.

                         HEADQUARTERS BUILDING

    Mr. Secretary, I have a question about your housing 
situation. I know you are temporarily located in headquarters 
here in Washington, D.C., at the U.S. Naval Nebraska Avenue 
Complex. The budget request for fiscal year 2004 includes $30 
million to design a new headquarters building and acquire a 
site for it. The implication is that a decision has been made 
to construct a new building for the Department of Homeland 
Security.
    I am curious to know what your plans are. Has a decision 
been made? Have you explored other Federal space that might be 
available or thought about purchasing an existing facility 
rather than building a new building? What can you tell us about 
the need for these funds?
    Secretary Ridge. Senator, first of all, there has been no 
final decision as to a permanent location. There is quite a bit 
of work that we are presently undertaking to find a location 
where we can house more of the Department of Homeland Security. 
I certainly invite you out to take a look at the facilities at 
Nebraska Avenue. We are limited because of substantial physical 
restraints, given the nature of that facility, so we are 
engaged in very aggressively looking at a larger temporary 
facility until a final decision is made.
    It is my understanding that the $30 million in the fiscal 
year 2004 budget is really for site selection and design if and 
when a final decision is made to build a Department of Homeland 
Security. Right now, our priority is to get a larger building 
where we can integrate more of our employees and our technology 
as we ramp up the new Department.
    We are running out of space at Nebraska Avenue. We have 
people in two or three other locations in the downtown area. In 
the virtual world, we are hooked up by the computer, but we 
think there would be enormous efficiencies and a lot better for 
all of us if we could find a larger venue to at least 
consolidate a significant portion of our operation. So it is a 
work in progress.
    Senator Cochran. We earlier approved transfer requests 
totaling $125 million for start-up costs, such as furniture, 
computers, communications equipment, and the like, and most of 
these funds, I am told, are unobligated. OMB has indicated that 
planning factors for these expenditures are being reviewed.
    I would hope, for the record, you could bring us up to date 
on the status of this need, the continued need, if any, for 
this funding, and if it is not needed, we would appreciate your 
suggestion as to how these funds could be further reprogrammed, 
if they could be more efficiently used for other purposes.
    Secretary Ridge. Senator, we are going to need them for the 
headquarters. We put some restraint on the use of those dollars 
until we can determine whether or not we are going to expand at 
Nebraska Avenue or if there is another facility available for 
us to move into.
    Candidly, we have spent about half of those dollars. We 
have been holding up on the other expenditures. We don't want 
to necessarily make an investment in an infrastructure or in a 
building or two that we are going to leave in the next 6 months 
or 18 months. So those dollars will be expended once we make a 
final decision as to where we are going to consolidate more of 
our operation, and that is the reason. We just didn't want to 
run right out there and spend them because we weren't 100 
percent sure that for the immediate future we were going to be 
located at Nebraska Avenue. The decision is pending and we 
should hopefully have a final decision on that in the next 
couple of weeks.

                           PROJECT BIOSHIELD

    Senator Cochran. We have heard from officials at NIH about 
the President's proposed new Project BioShield initiative, a 
program to acquire vaccines, treatments and products to combat 
bioterrorism. In the budget submission before us from your 
Department, we notice a request for $890 million in new funds 
for this initiative. It is a program, as I understand it, to 
accelerate research, development and procurement of vaccines 
and medications, devices, and other products to be used against 
bio-warfare agents, such as smallpox and anthrax. These 
vaccines would be stockpiled for emergency use if they are 
considered safe.
    But, my question is the need that we have been told exists 
for this to be mandatory spending and not subject to the annual 
appropriations process. The Administration requests these funds 
be authorized by Congress as permanent indefinite funding, not 
subject to the annual appropriations process. That is not going 
to sit very well, I will be honest with you, with this 
Committee. I notice on the calendar of legislation that this is 
a subject that is going to come before the Senate pretty soon. 
So I am asking, why would you want to avoid the annual 
appropriations process for this particular project when all the 
others under the jurisdiction of the Department are subject to 
annual appropriations by Congress?
    Secretary Ridge. Senator, I think the basic principle 
around the Administration's request is to create within the 
Executive Branch a financial capacity to respond immediately 
upon the certification of a bioterrorist threat by the 
Department of Homeland Security and Health and Human Services 
so that an immediate market would be available to the private 
sector to commit research and development dollars to develop 
diagnostics and vaccines in a hurry to respond to a crisis, 
bioterrorism crisis with which our intelligence community felt 
we were threatened by.
    Frankly, there are four vaccine companies left in the world 
and if we have a crisis that would require us to go to one or 
all of them and say, we need a diagnostic. One of the 
challenges right now with the SARS virus is that there is not a 
good diagnostic tool out there. Now, there may be a large 
enough marketplace, and apparently it is since it is worldwide, 
that perhaps the private sector will invest its own research 
and development dollars and in the next several weeks come up 
with a diagnostic test. It is obviously going to take them a 
little longer to come up with a vaccine if they think that it 
is necessary for domestic or international consumption.
    The bottom line is that having that capacity available to 
the President of the United States in the event of a threat of 
a bioterrorist incident gives us the ability to go into the 
private sector to assure them that a market will be there to 
purchase the diagnostic or vaccine.
    Senator Cochran. Thank you very much for your explanation. 
We will review that very closely with you and continue to 
consult with you on possible disposition of that request.
    I have other questions connected to that issue and I will 
just submit those and ask you to respond for the record.
    Secretary Ridge. Yes, sir.
    Senator Cochran. Senator Byrd.

         CONGRESSIONAL ABILITY TO REACT IN EMERGENCY SITUATIONS

    Senator Byrd. Thank you, Mr. Chairman. I am very interested 
in the question you just asked as well as other questions.
    I put a hold on this virus shield legislation before the 
recess. I don't mind stating when I put holds on matters. The 
specific issue that you have raised here, and I want to stress 
that I share your viewpoint and I hope that the administration 
will work with Congress to resolve this issue.
    Mr. Secretary, I can understand the kind of emergency that 
you probably contemplate, but remember, and I hope the 
administration will remember, that within three days following 
September 11, Congress, both Houses, passed a $40 billion--am I 
not correct? I am correct, I am told--$40 billion emergency 
package, just like that, the snap of my finger. Congress can 
act and will act when the emergency is there and when it is 
clear that it is an emergency that needs it.
    And I want to tell you one thing. We have to guard the 
constitutional prerogatives, responsibilities, and authorities 
and powers of Congress in any emergency, and I am not in favor 
of this administration or any other administration seeking more 
of the powers over the purse than the Constitution permits.
    So if there is an emergency, let us know. If it needs to be 
done in three days, let us know about it. Show us the 
justification. I am not just talking to you, and I hope you 
will understand that.
    Secretary Ridge. I understand, Senator.
    Senator Byrd. I don't say this in that spirit. But I am 
saying to the administration, and it needs to be said to this 
administration, if it never needed to be said to an 
administration, and this administration will be succeeded by 
other administrations, and I have always found that the 
executive branch and the judicial branch are very zealous in 
protecting their prerogatives, their powers, their authorities.
    The executive branch is out there at some point on the 
compass, at some place in the globe working every minute of 
every 24 hours while the Congress is sleeping or while the 
Congress is in recess or while the Congress is off on a break 
of some kind. The legislative branch is not always out there 
and the executive branch and the judicial branch are always 
ready to protect and to sound off and to stand up and to stand 
straight and tall when it comes to the protection of their 
authority. The one branch of the three that is not as zealous 
as it ought to be is the legislative branch.
    Now, I understand that cases can be made for quick action, 
but the record can be cited to show that the Congress, when the 
need is for quick action, that Congress can act and will act, 
and I hope, Mr. Chairman, that you will continue to be zealous 
on this point and other points.
    When I came to Congress, I guess 85 percent of the monies 
came through the appropriations process, and today, only about 
a third or less come through the appropriations process. Now, I 
stand with you and will stand as long as I am a member of this 
Senate and live and can speak, I will be with you on this. I 
will respond to any emergency as quickly as will President 
Clinton or President Bush or President Reagan or President 
Nixon or President Truman. Truman is my favorite Democrat 
President in my time here, and I have been here longer than 
anybody else, 50 years.
    Did you know that out of 11,707 men and women who have 
served in Congress in these 215 years of our existence, out of 
11,707, only two have served longer than this Senator from West 
Virginia. I wasn't as zealous in protecting the constitutional 
power of the purse when I first came here to the Senate as I am 
today. But I have been on this committee now, I am in my 45th 
year, and this administration or any other administration--I 
don't care if it is a Democrat. It doesn't make any difference 
to me if it is a Democrat down there in the White House. I feel 
exactly the same way.
    I didn't go all the way with Mr. Clinton. When he asked me 
to bend to include the health reform in a reconsideration 
package so it would be severely limited debate time, I said, 
no, that is not the purpose of the Senate. We are here to 
debate. The American people need to know what is in that health 
package and we as members need to know what is in it. And so I 
did not bend and I will not bend for any President, with all 
due respect to every President.
    I am very concerned about this thing. Give them a little 
here and a little there and a little here, and the first thing 
you know, as Mr. Dirksen said about spending billions of 
dollars, the first thing you know, a little bit here and a 
little bit there and the power over the purse would be vested 
down there in the White House. And if you have studied the 
history of England like I have, you will be aware of the blood 
that has been shed by Englishmen to wrest the power of the 
purse away from tyrannical monarchs and to vest it in the House 
of Commons, the people's representatives.
    I say all this with due respect to you, but I am with you, 
Mr. Chairman, on this. Any time, anywhere, any hour of the 24 
hours, I will be with you.

                      TRACKING OF FOREIGN VISITORS

    Now, on to a couple of my questions. One crucial component 
of ensuring our homeland security is ensuring that we as a 
government know which foreigners are visiting our country, why 
they are here, and that they depart when they are required to 
do so. Our existing visa tracking systems are not doing the 
job. One of the major criticisms of the former Immigration and 
Naturalization Service was and remains its inability to 
adequately track the entry and subsequent exit of the non-U.S. 
citizens who come to the United States and for whatever reason 
overstay their visa.
    For instance, only recently, the Department of Justice's 
Inspector General released a report stating that there are 
significant deficiencies in the tracking of foreign students. 
The Acting Assistant Secretary of the new Bureau of Immigration 
and Customs Enforcement agreed with the IG's conclusion that 
they need more resources to properly manage one of the many 
tracking systems.
    What steps are you taking to ensure that this system is on 
track and can be deployed in a timely fashion? I believe the 
budget before us requests only $480 million for the new entry-
exit visa tracking system. This is only a $100 million increase 
over last year's level. Many members of Congress and outside 
experts are concerned about the lack of progress in 
implementing this system. It is my understanding that the 
Department has not yet determined what technology will be used 
in developing the system. So what steps are you taking?

                           U.S. VISIT SYSTEM

    Secretary Ridge. Senator, the entry-exit system that we now 
like to call the U.S. VISIT System was one of the highest 
priorities for the new Department as we took a look at the work 
that we had inherited from the old INS. Candidly, we made an 
internal assessment that there was more work that needed to be 
done, better work needed to be done, and expedited work had to 
be done in order to meet the timetable in order to get a system 
up and operational at the airports and seaports by the end of 
this year, as mandated by the Congress of the United States.
    My colleague, Secretary Asa Hutchinson and I, now that we 
have reins and responsibility over that program, have refocused 
our internal work. We have combined the work that they had been 
doing with our science and technology unit so we could take a 
look at the technology applications that are out there in the 
world today. We know that it will be quite a challenge to get 
the system up and operational at airports and seaports by the 
end of this year, but that is what Congress mandated. We 
inherited it, and we are going to do everything we possibly can 
to get it up and operational in a way that is consistent with 
your intent and, frankly, consistent with the need of the 
country. We have a legitimate need to know who is coming in, 
when they are coming in. We have a legitimate need to know if 
they left.
    I will tell you, Senator, that there are real challenges to 
take that same approach and apply it to our land borders, and 
we will have to address them both publicly and privately, I am 
sure. But I would be prepared to come back with a couple of my 
colleagues to explain to the Congress the kinds of things we 
are doing in order to meet the deadline by the end of the year.
    Senator Byrd. But the----
    Secretary Ridge. I have not let any money out yet, Senator. 
We are not going to put out a request for proposal until we are 
satisfied internally that we have done the hard work that we 
needed to do and maybe should have been done before in order to 
get this thing prepared to let a contract in order to get it 
done.
    Senator Byrd. You are to be applauded. You are to be 
applauded for that.
    But let me ask this question. As I said earlier, the budget 
before us requests only $480 million for this new tracking 
system, only $100 million increase over last year's level. Do 
you feel that this is adequate? Do you think this is an 
adequate amount? Do you think the funding request is adequate?
    Secretary Ridge. Senator, I believe that it is. At least, 
that is the figure we requested based upon earlier 
calculations. We are doing our own internal calculations based 
on our technology team taking a look at our needs, and if it is 
not enough, you have given me some reprogram authority and I 
think your first admonition to me would be, if it is not enough 
and you need a few extra dollars, you ought to find it within 
your own operation before you come back to us. So that is 
exactly how we would go about trying to resolve and find any 
additional dollars.
    So again, we can report back to you, and you will require 
us to report back to you and we should report back to you in 
the near future as to the progress we have made on this 
initiative.
    Senator Byrd. And you would----
    Secretary Ridge. Congress started talking about this in 
1996 and has put substantial money in the budget starting, I 
think, last year, perhaps the year before. We know we have to 
accelerate things in order to make it happen and we are going 
to do everything we can to make it happen.

                         ANTI-MISSILE DEFENSES

    Senator Byrd. During floor debate on the Iraqi war 
supplemental appropriations bill, an amendment to add $30 
million for the study and deployment of anti-missile defense 
systems for commercial aircraft was narrowly defeated. A few 
days later, you publicly commented, Mr. Secretary, that 
deployment of this type of technology was merited and deserved 
to be looked into by the Department. Does the Department 
believe that the potential threat to commercial airliners from 
such an attack is sufficient threat to warrant the deployment 
of anti-missile defenses? If so, what funds would be used to do 
this and what level of funding and which agency within the 
Department should take the lead in the effort?
    Secretary Ridge. Senator, we have not concluded for policy 
purposes that commercial aviation should be equipped with 
military-type anti-MANPAD devices, but we have concluded that 
the threat is significant enough to proceed on a couple of 
paths. Clearly, working with other agencies in the government, 
and it has been working quite some time, the proliferation of 
these devices around the world requires the attention of State, 
Defense, and other agencies and they are focusing on that.
    Clearly, given the fact that there have been futile uses of 
this equipment in other countries gives reason for us to work 
with local law enforcement and aviation security folks to 
develop protocols, security protocols with regard to the areas 
around the airport as well as other adjustments conceivably in 
flying the aircraft.
    And the third piece of this is for us to take a look at the 
existing technology and also perhaps the development of new 
technology that might have an application to commercial 
aviation. We have reprogrammed some money from the Department 
of Defense, and we are going to use some of those dollars to 
begin that technical inquiry to look at effectiveness, 
efficiency, cost, and the like. So we have begun that process 
with some of the dollars that you have given us the opportunity 
to reprogram.
    Senator Byrd. How much money have you used--has been 
reprogrammed for this purpose?
    Secretary Ridge. Basically, I think, Senator, Congress took 
a look at it and I think we have reprogrammed about $420 
million from DOD. It goes across a wide range of issues, and I 
can't tell you today the specific dollars that we are going to 
initially invest in taking a look at MANPAD technology, but I 
do know that in my conversation with our leader there, that 
some of these dollars are going to go to an initial effort 
there. Depending on that research, again, it is part of our 
responsibility to pick and choose among priorities with the 
dollars you have given us that we have now and in the 2004 
budget. We are asking for over $800 million in the science and 
technology piece, which I presume will mean that--I can only 
anticipate we are using some of those on this research, as 
well.
    Senator Byrd. Mr. Chairman, I don't want to impose on your 
time overlay, but would I have time for one or two more 
questions?
    Senator Cochran. Yes, sir, Senator, if the Secretary can 
oblige us. I hope he can. We are now advised that the vote that 
was to occur at 12 has been put off until 1:45, so that is not 
a problem, but he has been sitting there a pretty good while.
    Senator Byrd. He is a much younger man.
    Senator Cochran. He has cooperated very----
    Senator Byrd. He is a much younger man than I am. I know he 
is tired.
    I know you are tired.
    Secretary Ridge. Thank you, sir.

                    VULNERABILITY OF CHEMICAL PLANTS

    Senator Byrd. But I have two more questions. One deals with 
chemical plants. Last month, the General Accounting Office 
reported that chemical plants remain vulnerable to a terrorist 
attack. Using data from the Environmental Protection Agency, 
the GAO noted that 123 chemical facilities across the country, 
if attacked, could inflict serious damage and expose millions 
of people to toxic chemicals and gasses.
    Now, I remember when I was--earlier in my career, we had 
the largest, I suppose, about the largest chemical plants in 
the Kenora Valley anywhere in the Western Hemisphere. Perhaps 
we have lost some of them in recent years as we have lost a lot 
of our other industries. But the administration identified 
chemical plants as part of the critical infrastructure in its 
national strategy for the physical protection of critical 
infrastructure and key assets report.
    In your written response to my question at our March 27 
hearing, you identified as one of the several that you 
identified, you identified chemical facilities in close 
proximity to large populations as one of our most significant 
vulnerabilities. The CBO estimated that it will cost $80 
million over 5 years to conduct the vulnerability assessments 
associated with our chemical plants, and yet the administration 
has not requested any funding, as I understand it, for this 
purpose.
    Why have not the resources, the requested resources to 
enhance security at chemical plants, been requested and what 
plans do you have to improve security in the area, including 
the identification of appropriate resources to accomplish these 
goals?
    Secretary Ridge. Senator, I can't agree or disagree with 
the dollar figure associated with the cost of securing these 
sites, so I will pass on that estimate. I don't know enough 
about how they concluded that, so I will just leave it alone.
    First of all, a lot of the chemical companies have begun 
their own internal vulnerability assessments and defray that 
expense as a corporate expense.
    Also, I think you are aware that there is legislation 
pending or will be pending before the Senate of the United 
States so that we can address this very important issue as we 
go about securing those sites on a risk management basis that 
offer the greatest potential for catastrophic personal harm and 
consequences.
    I will tell you that this is one of the areas, Senator, if 
I might link this question with a question and an inquiry that 
we had before about the Freedom of Information Act. We will 
want the chemical companies, as we will want some other 
companies, to look real hard at potential vulnerabilities and 
be honest and critical in that assessment, and we will want 
them to share that with us. Now, that is not information that 
we necessarily want to put in the public domain. We don't want 
to provide a road map to terrorists by revealing publicly some 
of the vulnerabilities we have at these sites.
    So it is an interesting question because it raises who 
should do the vulnerability assessments, frankly, and who 
should pay for them. I think, clearly, I believe that the 
companies should pay for them. Should they share that 
information with us--can we find a way so that they share it so 
we can give them some direction to secure the venues and reduce 
the vulnerabilities? I want them to do that.
    Do we need some legislation? I believe we will be in a 
position to work with this committee and other committees to 
see that we get that legislation during this period of 
Congress. But again, I would tell you, Senator, I think most of 
these chemical companies are traded on the public stock 
exchange. There are a lot of legitimate expenses they deduct 
before they pay taxes, and it seems to me that one of the most 
legitimate expenses in the post-9/11 era is the cost of 
enhanced security to protect your employees, to protect the 
community in which you have the facility and protect the 
interests of the people that own the plant, so I look forward 
to those continuing discussions, Senator.
    Senator Byrd. Thank you. I have other questions which I 
will submit for the record. I do have one final question, Mr. 
Chairman, and you have been very, very liberal, as I said, with 
me, and I want to thank you and I want to thank the staffs on 
both sides. We have excellent staffs who have helped us to 
prepare.

        FUNDING FOR IDENTIFIED HOMELAND SECURITY VULNERABILITIES

    On March 27, Mr. Secretary, of this year, I asked you to 
provide the committee with your written assessment of the ten 
homeland security vulnerabilities that you are most concerned 
about, and I thank you for responding rapidly. It wasn't a 
request that was put aside and delayed and perhaps forgotten, 
but you responded quickly and your response was useful in 
making final decisions on the supplemental appropriations act 
that Congress approved.
    In your response, you noted that the threat environment is 
continually changing, but that you did have the guidance, you 
did have guidance that helped you to focus your priorities. 
This response, which is not classified, focused on potential 
attacks on chemical facilities, nuclear power plants, large 
dams, liquid natural gas storage facilities, electric and 
telecommunications systems, data storage systems, 
transportation systems such as rail and air transportation 
systems, water supplies that are vulnerable to contamination, 
food processing centers, and petroleum handling facilities such 
as pipelines, and ports. Excellent, excellent response.
    The President has signed authorization bills to expand 
Federal investments in many of these areas, such as port 
security and drinking water security, but the President has not 
requested funding for these new authorizations. In fact, if 
your vulnerability guidelines to the President's budget are 
compared, if you compare your vulnerability guidelines to the 
President's budget, there does not appear to be much, if any, 
correlation. Now, can you tell this subcommittee where in the 
budget are the resources to cope with each of these 
vulnerabilities?
    Secretary Ridge. Senator, the first resource is, I think, 
the most important first step that we take in this country, is 
looking at those sectors of our economy that we itemize and 
refer to in our letter to you, and then take a look at the 
vulnerabilities in that sector, take a look at the threat as it 
relates to that sector, then make some conclusions as to how 
much it would cost to protect whatever vulnerabilities we find, 
and then the next question is, who is to defray the cost?
    The President has requested a rather substantial sum of 
money for us in the fiscal year 2004 budget to conduct those 
vulnerability assessments, and again, some of it are dollars 
that very appropriately will be expended by us to do those 
assessments on our own. But part of the function of the new 
Department, and the Congress provided a private sector advocate 
and the private sector intersects with the Department in so 
many different places, in the Science and Technology 
Directorate, in the Information Analysis and Infrastructure 
Protection Directorate, and one of the challenges we have, and 
we welcome the task, is to engage the private sector, those 
that haven't begun their own vulnerability assessments, to do 
that and to work with us to identify on a risk management basis 
what should be hardened, and our job, frankly, is to convince 
them it is in their interest to harden it.
    Senator Byrd. But, Mr. Secretary, you haven't really 
answered my question. I have listened very carefully. Let me 
say this again. The President has signed authorization bills to 
expand Federal investments, so the decision has been made with 
respect to who is going to do some of this, these investments. 
The President has signed authorization bills to expand Federal 
investments in many of these areas, such as port security and 
drinking water security. But the President, the Chief 
Executive, has not requested funding for these new 
authorizations.
    Now, what I am saying is, if you compare your vulnerability 
guidelines, which were very, very good, as you compare them to 
the President's budget, there doesn't appear, at least to this 
Senator and to this Senator's staff, there doesn't appear to be 
any correlation.
    So my question was, and maybe you can't answer it, can you 
tell me where in the budget are the resources to cope with each 
of those vulnerabilities that you have set forth in response to 
my request earlier this year. You may want to----
    Secretary Ridge. Senator, I would be happy to go back over 
it. You ask a very appropriate question. I think there are 
dollars dealing with some of the transportation infrastructure. 
I think there are dollars dealing with food safety. I don't 
think they come up by any stretch of the imagination to the 
level that Congress authorized, and I would say to the Senator, 
I think when it comes to the identification of risks, I think 
we may have agreement, general agreement, but I also think when 
it comes to appropriating the money consistent with the 
authorizations that there is an opportunity for Congress, as 
well, to shift its priorities in terms of the national budget, 
having passed the authorization bills, to take a look at the 
appropriations process, match it against authorizations, and in 
the years ahead, work with us to meet some of those priorities 
that we have identified and you have identified in the 
authorization process and come up with additional dollars in 
the appropriations process.
    Senator Byrd. Well, may I just comment----
    Secretary Ridge. Yes, sir.
    Senator Byrd [continuing]. And this is all I have. We have 
done that repeatedly. Congress has done that repeatedly and 
appropriated monies and the President has turned the back of 
his hand, as he did on the $2.5 billion that was designated as 
emergency. So Congress has been out front. We have appropriated 
monies time and time and time again, only to see this 
administration turn its back on the appropriations.
    And so the rhetoric, the rhetoric has not matched, has not 
matched reality. So I say to you, yes, we want to work with you 
and we want to appropriate the monies, but I hope that this 
administration will take a look at its responsibilities and 
particularly its rhetoric in so many instances and not veto, or 
in effect veto, the funding that the Congress has appropriated.
    I thank you for your work----
    Secretary Ridge. Thank you, Senator.
    Senator Byrd [continuing]. For your listening to our 
complaints, and hopefully, we can work together in ensuring the 
increased safety of our country in these matters.
    Secretary Ridge. Thank you, Senator. Yes, sir.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Cochran. Mr. Secretary, we appreciate your 
cooperation with our committee and we appreciate your service 
to the country. Senators may submit written questions, and we 
would request you respond to them within a reasonable time.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

              Questions Submitted by Senator Thad Cochran

                    preserving agency mission focus
    Question. The Homeland Security Act of 2002 requires the Department 
of Homeland Security (DHS) to ensure that agency functions not directly 
related to homeland security are not diminished or neglected. However, 
there is concern that non-homeland security missions over time may not 
receive adequate funding, attention, visibility, and support within a 
department under tremendous pressure to succeed in its primary security 
mission. How will DHS ensure that proper attention is given to non-
homeland security missions, such as providing assistance to victims of 
natural disasters?
    Answer. We recognize that many elements of the Department such as 
FEMA, the Secret Service and the Coast Guard have critical missions in 
addition to their specific homeland security responsibilities. As such, 
I meet frequently with all of my leaders to ensure that we are carrying 
out all of our missions.
    We understand that our responsibility to the Congress and the 
taxpayer includes ensuring that both our homeland security and non-
homeland security missions are adequately resourced and carried out. 
Our fiscal year 2004 budget acknowledges our non-homeland security 
missions and requests that the Congress provide resources to ensure 
that those missions are fully discharged. Our Congressional 
justifications elaborate on these missions and responsibilities.
    The Department is currently setting up formal mechanisms and 
measures to monitor the performance of all of its activities, including 
non-homeland security activities. As required by the Government 
Performance and Results Act, the Department will publish performance 
measures for its activities in its first annual Performance Report in 
February 2004 and as part of its fiscal year 2005 Annual Performance 
Plan. The Department will use the results of the performance measures 
to help determine resource requirements.
                            risk management
    Question. The Homeland Security Act of 2002 calls for DHS to carry 
out comprehensive assessments of vulnerabilities of the key resources 
and critical infrastructure of the United States, including risk 
assessments to determine the risks posed by particular types of 
terrorist attacks. Using this information, DHS is to identify 
priorities for action by DHS, other Federal agencies, State and local 
governments and the private sector. What is the timetable for the 
comprehensive assessments and the subsequent setting of action 
priorities and milestones to protect key resources and critical 
infrastructure? What have DHS identified as the areas with the highest 
risks and how are these areas being specifically addressed?
    Answer. The Department's Information Analysis and Infrastructure 
Protection Directorate (IAIP) is addressing this issue on several 
tracks. The IAIP is implementing a plan to conduct standardized 
vulnerability assessments for all critical infrastructure sectors. This 
group of assets was identified during our work on Operation Liberty 
Shield. This project, named Project 180, will enhance security at key 
sites through strategic enhancements and eliminate the need to place 
National Guard and State police at times of heightened threats. On a 
more comprehensive level, the IAIP also has implemented a plan to 
conduct standardized vulnerability assessments for all critical 
infrastructure sectors. Vulnerability assessments will span all 
critical infrastructure sector and be conducted in concert with other 
Federal agencies, States, and industry in order to ensure that 
interdependencies are understood and protective measures are 
prioritized for implementation. The IAIP will also, on an as needed 
basis, issue specific warnings and guidance for infrastructure 
stakeholders necessitated by specific threats or conditions.
    Question. DHS is responsible for the Homeland Security Advisory 
System. DHS, in coordination with other Federal agencies, is to provide 
specific warning information, and advice about appropriate protective 
measures and countermeasures, to State and local government agencies 
and authorities, the private sector, and others. Concerns have been 
raised about warning capabilities, particularly the lack of specificity 
and guidance to officials below the national level under the current 
Homeland Security Threat Advisory System. Are changes being considered 
to the Homeland Security Threat Advisory System to give more specific 
guidance regarding national and specific threats? If so, when will the 
new system be in full operation?
    Answer. Changes to the Homeland Security Advisory System are not 
being considered at the present time. To the fullest extent possible, 
specificity of threat information is conveyed in Information Analysis 
and Infrastructure Protection Directorate warning products, while 
ensuring classified sources and methods are protected. We intend, 
whenever possible, to tailor specific protective measures commensurate 
with the level and type of threat identified and collaborated by a host 
of intelligence sources, including the Department of Justice and the 
Federal Bureau of Investigation as well as non-governmental independent 
studies. The Department is always seeking to improve the precision and 
accuracy of threat warning. For example, we developed a set of more 
specific protective measures the first time we elevated the threat 
level to Orange this year. Subsequently, we developed state specific 
criteria and further fine-tuned recommended protective measures. 
Distribution was done through law enforcement channels via the FBI, 
Secret Service, as well as direct contact through the Office of State 
and Local Government Coordination to the State Homeland Security 
Advisors for further transmission within their States. The Department 
always communicates any specific, credible threat information directly 
to officials in affected jurisdiction.
            department start-up issues/investment decisions
    Question. Mr. Secretary, you face the enormous challenge of 
integrating the 22 organizations transferred to the new Department into 
a single, unified whole. How are you mitigating the impacts of this 
transition on the capabilities of each of the transferring agencies to 
continue to perform their missions?
    Answer. While the challenge of integrating the 22 organizations 
into the Department of Homeland Security is enormous, the day-to-day 
work of the vast majority of employees is unchanged--they continue to 
perform outstanding service in the protection of our homeland. I have 
worked with the senior leadership of the Department and the heads of 
those component agencies to mitigate the impacts of this transition by 
ensuring that we have open lines of communication not only here in 
Washington but also across the county. The challenge requires us to 
take several approaches including regular leadership meetings both with 
myself and the Deputy Secretary, and with the Under Secretary for 
Border and Transportation Security, establishing clear lines of 
authority as we have reorganized both the Bureau of Customs and Border 
Protection and the Bureau of Immigration and Customs Enforcement, and 
communications with managers and front line employees through town hall 
meetings and weekly employee newsletters.
    Question. What specific steps are you taking to integrate the 
chains of command and the personnel of these organizations without 
interfering with their current capabilities to perform their missions?
    Answer. As we move to unite the component agencies, we are 
consciously working to ensure that we remove institutional barriers to 
integration. The appointment of Interim Port Directors and interim 
Directors of Field Operations with the creation of the Bureau of 
Customs and Border Protection is just one example of how we are 
addressing these issues. These interim leaders were appointed because 
there must be ``unity of command'' and clear reporting channels which 
ensures that front line officers and supervisors know where to report, 
how to report, and with whom they will be coordinating their efforts.
    Question. What steps are you taking to meld the different cultures 
of these organizations in a way that preserves any unique, positive 
aspects while creating an overall ``Department of Homeland Security'' 
culture?
    Answer. We have developed a seal and a strategy for ensuring DHS 
identity to help the different cultures coming into the Department 
identify with DHS. We are working to integrate the legacy identities 
into the DHS identity.
    Question. Secretary Ridge, last July 16, you and OMB Director 
Daniels sent a memo to selected departments and agencies on ``DHS 
Transition Issues.'' This memo described how you would identify ``day 
one'' issues requiring resolution at the moment DHS is created and how 
short and longer term transition plans would be developed. What major 
``day one'' issues were identified, and how specifically are you 
resolving them?
    Answer. We have already accomplished many of our initial goals for 
the Department. From an operational capability perspective, we stood up 
the Homeland Security Command Center on a 24-7 basis and implemented 
Operation Liberty Shield, the first comprehensive, national plan to 
increase protections of America's citizens and infrastructure. We 
successfully launched the Ready campaign to build a citizen 
preparedness movement by giving Americans the basic tools they need to 
better prepare themselves and their families. The Department has 
focused on getting the resources our State and local partners need to 
them in an expedited manner, distributing millions of dollars in grant 
monies already. From a management perspective, we initiated a 
comprehensive reorganization of the border agencies as well as 
commenced work on a single human resources management system.
    Question. Which of these issues do you consider resolved, which 
will require additional efforts, and what are those additional actions 
that need to be taken?
    Answer. Management tasks are extremely important to the efficient 
operation of the Department. To that end we are presently engaged in 
efforts to ensure that infrastructure and support functions are 
provided in the most cost effective and efficient manner, establishing 
lead and support elements for the Department's various functions, 
ensuring efficient communication with our partners in the States, 
localities, and private sector, and coordinating effectively with other 
Federal entities. For example, we are standing up an investment review 
board, implementing a multi-year program and budget planning/
development process, launching a program management office to develop 
an integrated business/financial management system, developing the 
Department's IT enterprise architecture, establishing a strategy 
development process, and developing a comprehensive human resources 
system.
    Question. Secretary Ridge, you issued a Transition Memo with OMB 
Director Daniels on July 16 which stated the importance of identifying 
any pending actions or policy decisions within the existing agencies 
that might be decided differently in the context of the expected new 
Department. Agency heads were asked to identify major subject areas and 
pending actions that qualified for discussions within this context. 
What major investment and policy decisions were identified, which were 
put on hold, and why do they qualify for rethinking in view of the 
creation of DHS?
    Answer. Since the Department was created, several processes have 
been established to promote efficiency and effectiveness and to avoid 
duplication. For example, the Department established a comprehensive 
Investment Review Process to integrate capital planning and investment 
control, budgeting, acquisition, and management of investments (both 
information technology and non-information technology) to ensure public 
resources are wisely invested. Investments that meet a pre-determined 
dollar threshold or may have significant policy implications are 
subject to review to ensure that spending on investments directly 
supports the Department's mission and provides optimal benefits and 
capabilities to stakeholders and customers. The Department has also 
established a process to develop strong business cases for its 
information technology investments and is using the business cases to 
determine which projects are funded. In addition, the Department has 
also established a 5-year budget planning process that includes program 
reviews to make funding decisions.
    The establishment of the Department has also resulted in the 
consolidation of several functions including responsibility for 
coordinating research and development under the Office of Science and 
Technology and performing intelligence capabilities under the Office of 
Information Analysis and Infrastructure Protection. The formation of 
each of these organizations has resulted in a rigorous review of these 
functions to ensure integration across the Department and avoid 
duplication.
    Question. What are the emerging outcomes of these reviews, and when 
can you inform the Subcommittee about specific decisions on each of 
these matters?
    Answer. The Department recently initiated its investment review, 
budget development and business case development processes. Results 
should be available within the next several months. The Department has 
briefed Appropriations Committee staff on its progress in implementing 
functions performed by Science and Technology and Information Analysis 
and Infrastructure Protection and will apprise the Committee of our 
further progress on a continuing basis.
    Question. The fiscal year 2004 DHS budget request only assumes $30 
million in savings from consolidating administrative and management 
systems. Does achieving this much smaller amount of savings mean that 
last July's estimates of $65 million to $200 million were overly 
optimistic? Can you give us updated and detailed estimates of such 
savings?
    Answer. $30 million is the estimate of achievable savings in fiscal 
year 2004. The Department intends to pursue further savings in the 
future.
    Question. You have predicted that, after the first year, there may 
be some worker dislocations and a good possibility of job losses as you 
try to reduce overlaps among the entities transferring to DHS. When 
will you have a number estimate of what those dislocations and job 
losses will be and when will you inform the workers affected and the 
Congress?
    Answer. As we proceed with plans to merge the component 
organizations and to consolidate administrative and management systems, 
we will be able to identify areas of overlap and duplication of effort. 
DHS plans to minimize outright job losses, and will communicate with 
employees, their representatives, and the Congress as it develops its 
plans for staff restructuring and realignment.
    Question. What specific criteria are you establishing to determine 
who will be dislocated and who will lose their jobs, and will you 
provide affected employees a fair process in which they can appeal 
these decisions and the application of these criteria?
    Answer. It is too early to identify the specific criteria for any 
possible dislocation. The Department is committed to applying fair 
criteria to any decision process. It should be noted that the 
application of reduction in force rules under title five remains a 
requirement in the Department.
    Question. During and after consideration of the Homeland Security 
Act, you made an impassioned case that the DHS personnel system should 
be more ``flexible'' than the current Civil Service system. You 
received such flexibility in the Homeland Security Act, at least for 
after the year-long transition period. At this point, what changes do 
you envision for your civilian employees in terms of performance 
evaluations, compensation, and collective bargaining arrangements?
    Answer. We have established a Human Resource Management System 
Design Team to develop options for the changes we are encouraged to 
make in creating a new personnel system for DHS. That Design Team has 
just begun its research work. The schedule for presentation of options 
is later this fall.
                         information technology
    Question. According to the Department of Homeland Security's 
organizational chart, the Chief Information Officer (CIO) reports to 
the Secretary via the Under Secretary for Management. In this 
organizational position, will the CIO have the responsibility and 
accountability to effectively work across the Department to deliver and 
maintain the information technology necessary to meet the Department's 
mission?
    Answer. The CIO will lead the IT Capital Investment process which 
will have the strength it needs to ensure coordinated planning, and 
execution of integrated technology efforts throughout the department. 
These are critical to the Department, endorsed by the leadership from 
the Secretary through all of the Under Secretaries and other senior 
leadership. Given the commitment of this senior leadership team, the 
CIO will have the clout that he needs to integrate and optimize 
Information Technology throughout this department.
    Question. One of the key challenges facing the Department of 
Homeland Security is how to manage and merge, where appropriate, the 
existing information technology (IT) resources of the 22 different 
component agencies that were subsumed in the department. What is the 
Department's approach for managing this?
    Answer. We are developing an Enterprise Architecture, which will 
both identify the opportunities for consolidation and integration 
across the IT portfolio of systems and assets, and well as guide the 
approach we will then execute. Please see Question 19 for further 
details.
    Question. Do you envision any opportunities for efficiencies via 
consolidation and if so, would there be any monetary savings associated 
with such consolidation?
    Answer. We do expect to find opportunities for integration and 
consolidation across our IT infrastructure and enterprise solutions. We 
have initiated IT integration teams, working in concert with their 
business counterparts (subject matter and program personnel), in the 
areas of targeting systems, identity credentialing systems, and alerts 
and warning systems, business management systems, back office systems 
(human capital and resources, financial management, acquisition and 
procurement), and in IT infrastructure. We do anticipate monetary 
savings from this work, to be realized over the next two fiscal years. 
We have set a working target of $280 million.
    Question. Over the next year, what are the Department's critical IT 
priorities and what are the milestones for accomplishing them? What are 
they over the next 5 years?
    Answer.
 near term information technology priorities & milestones (fiscal year 
                                 2003)
Infrastructure
  --Installing new wide-area network circuits; provides increased 
        bandwidth, and more stable backbone--June 2003.
  --Deploying satellite capability at NAC; provides KU Band and HF--
        July 2003.
  --Consolidation of help desk support across DHS; analysis and 
        recommendations--July 2003.
  --Consolidation of data centers across DHS; analysis and 
        recommendations--June 2003.
  --IT Disaster Recovery Plan; recommendations--August 2003.
Enterprise License Agreements
    Develop plan for consolidating enterprise licenses--May 2003.
Information Security Program
            IT Security
  --Develop and implement department-wide IT security program--July 
        2003.
  --Submit annual Federal Information Security Management Report to 
        OMB--September 2003.
  --Submit program and system-level plans of action and milestones to 
        OMB--October 2003.
  --Draft consolidated department-wide IT Security Program budget 
        submission (Exhibit 300) for fiscal year 2005--June 2003.
  --DHS-wide IT Security Conference in Baltimore, MD--July 2003.
  --FISMA report due to OMB--Sept 2003.
  --IT Security Training and Awareness Program strategy and plan-of-
        action completed--Sept 2003.
  --Implement department-wide IT Security Training and Awareness 
        Program--Oct 2003.
  --Enterprise IT security architecture (coupled to overall 
        architecture efforts)--Oct 2003.
  --Refined Governance process--Jan 2004.
  --Improved Incident Handling capability--Mar 2004.
Enterprise Solutions
            Capital Planning and Investment Control
  --Develop and implement department-wide information technology 
        capital planning and investment control process--April 2003.
  --Develop DHS-wide e-government strategy with goals, objectives and 
        milestones for each project--May 2003.
  --Develop proposals to integrate existing systems IT infrastructure 
        and back-office systems and eliminate redundant investments and 
        obsolete systems--September 2003.
  --Submit with the DHS fiscal year 2005 budget the Exhibit 53, Form 
        300s for major IT projects (annual cost of $5 million or more 
        and lifecycle cost of $25 million or more)--September 2003.
            Enterprise Architecture
  --Develop a detailed roadmap (migration strategy) for instituting a 
        DHS enterprise architecture that builds upon the proposal to 
        integrate existing systems.--October 2003.
    --Provide to OMB the ``as is'' architecture, including DHS 
            directorates, identifying at least business application and 
            technology layers (should reflect DHS' inventory review 
            work underway)--June 15th.
    --Submit the modernization blueprint or ``to be'' architecture, 
            identifying how they map to the Federal EA and business 
            layer--August 15th.
  --Develop DHS wireless architecture and implementation plan--July 
        2004.
            Government Paperwork Elimination Act (GPEA)
  --Provide update on meeting GPEA requirements--July 03 and October 
        2003.
            E-government Initiatives
  --Serve as managing partner of Disaster Management and Project 
        Safecom and provide update--August 2003.
  --Participate in Geospatial Information One-Stop, Vital, e-grants, e-
        training, smartbuy, business compliance one-stop, and e-
        grants--fiscal year 2003 and 2004.
longer term information technology priorities & milestones (fiscal year 
                               2004-2005)
            Infrastructure
  --Move to a consolidated DHS network (unclassified)--March 2005
  --Move to a consolidated email environment--December 2004
            Enterprise Solutions
  --Move to consolidated Financial Management environment--TBD fiscal 
        year 2005
  --Move to consolidated web self service for HR--December 2005
    Additional priorities and milestones are still being determined as 
part of our enterprise architecture effort and as business unit 
strategies and priorities emerge.
    Question. Reviews of the practices of leading information 
technology organizations in the private and public sectors show that 
implementing adequate investment and risk management controls and 
capabilities is essential to effectively managing information 
technology (IT).
    The Clinger-Cohen Act and OMB guidance direct Federal departments 
and agencies to develop and implement enterprise architectures (EA) to 
guide and constrain their information technology investments. What 
steps has the Department of Homeland Security (DHS) taken to develop an 
EA? What is the schedule for completing it?
    Answer. The Office of the CIO has been working on the development 
of the department's EA since ``day one.'' An integrated project team 
has been established, with an experienced government project manager 
versed in enterprise architecture management and development. This team 
has already reviewed existing work in each of the incoming agencies, 
and has been mapping current business processes and inventorying IT 
assets. This work will guide the identification of priority 
opportunities for consolidation by highlighting potential and real 
overlap or redundancy.
    We have also initiated a unique partnership in the development of 
our EA. We have established a working group, through the National 
Association of State CIOs (NASCIO), that represents State and local 
interests and requirements. We have held two working sessions with the 
NASCIO group, and more are planned to help us refine and improve our 
EA. This effort has also served to enhance the partnership among 
Federal, State, and local government.
    Once the current state process mapping and inventory are 
accomplished (end of June 2003), we will then continue the mapping of 
desired state processes. This desired state will serve to identify the 
business goals and objectives, with a focus on the next 1-3 years, set 
forth by the Secretary and Under Secretaries of each directorate. The 
gap that exists between where we are (current state) and where we want 
to be (desired state) allows us to then develop our Migration Strategy 
(Roadmap). We expect to have the first version of our Roadmap by the 
end of this fiscal year.
Enterprise Architecture Components--Target Dates
  --Business Strategy (Department level)--June 2003
  --Business Processes current state (Directorate level)--June 2003
  --Business Processes desired state (Directorate level)--August 2003
  --Information Requirements current state (Directorate level)--July 
        2003
  --Information Requirements desired state (Directorate level)--August 
        2003
  --IT Migration Strategy and Roadmap (the plan to move us from current 
        state to desired state)--September 2003
  --Investment Process for IT (Department level)--March 2003 
        (Completed)
  --Portfolio Management Process--July 2003
  --Inventory of IT Assets (Current Applications)--June 2003
  --Inventory of IT Assets (Infrastructure)--May 2003

    Question. What DHS official is responsible and accountable for 
delivering the EA?
    Answer. The Chief Information Officer.
    Question. What are the major information technology and systems 
needs of the Department of Homeland Security?
    Answer. We have identified the following major needs and 
objectives:
  --Program reviews of the major initiatives to ensure alignment with 
        business strategy and objectives--Ongoing through the end of 
        the fiscal year
  --Refinement of Business Strategies from each Directorate--Ongoing
  --IT skills inventory--Due to begin in June with completion by August 
        2003
  --Staffing of IT leadership positions--Ongoing
  --Establishment of department level IT compliance and reporting 
        processes--Ongoing with completion by end of fiscal year
  --Development of Department EA and Roadmap--Ongoing with completion 
        of first roadmap by end of September 2003
  --Development of Joint and Consolidated Exhibit 300s for fiscal year 
        2005 budget cycle--Ongoing with completion as part of OMB 
        budget cycle
  --Completion of President's Management Agenda goals and objectives 
        related to eGovernment for fiscal year 2003--Ongoing
    Question. What office within the Department of Homeland Security 
(DHS) will be responsible for managing the Department's information 
technology (IT) human capital, including assessing whether DHS has the 
right mix of IT knowledge and skills to achieve its mission?
    Answer. The Office of the Chief Human Capital Officer and the 
Office of the Chief Information Officer share this responsibility for 
managing IT human capital.
                 changing agency regional headquarters
    Question. Secretary Ridge, you have stated that you are ``making 
good progress'' on a plan to redraw the differing regional structures 
and boundaries DHS inherited from the transferring agencies, but that 
the plan still is under development. What specific objectives have you 
established for creating a new regional structure, and what specific 
issues are being considered in developing this plan?
    Answer. The overarching objective is to fulfill the DHS mission in 
support of the National Strategy for Homeland Security to provide for 
unity of purpose among agencies. True integration of mission and 
department-wide effectiveness would be jeopardized with significantly 
different regional structures among DHS agencies
    Question. What is the likelihood that the plan will contain major 
changes to the current regional structures and boundaries of agencies 
transferred to the Department, and which agencies do you expect to be 
most affected by the regional restructuring plan?
    Answer. We are in the data gathering and baseline analysis process, 
and the regional structure has not been developed. Impacts to various 
Departmental components cannot be estimated at this time.
    Question. Which is a more important objective for the plan--to save 
money or to increase operational effectiveness? How do you intend to 
make trade-offs between operational effectiveness and cost savings?
    Answer. Increased operational effectiveness is not incompatible 
with cost effectiveness. It will be important for the Department to 
develop a regional concept that optimizes key factors including cost 
while maintaining the highest level of operational effectiveness.
    Question. What specific criteria are you using to evaluate the pros 
and cons of the changes being considered, and which of these criteria 
do you consider most important and less important?
    Answer. DHS is evaluating the best way in which to merge the field 
operations of twenty-two legacy agencies, represented by nine different 
regional alignments. To accomplish this, all DHS components are working 
to: (1) develop a baseline understanding of the current regional 
structures in the component organizations; (2) develop the options for 
a regional concept to ensure day-to-day operations and incident 
responses are well coordinated and planned.
    Question. Do you have any preliminary estimates of the costs to 
implement the changes you are contemplating, and of the savings that 
might be made? When can we expect the costs to occur and the savings to 
be realized?
    Answer. Increased operational effectiveness is not incompatible 
with cost effectiveness. It will be important for the Department to 
develop a regional concept that optimizes key factors including cost 
while maintaining the highest level of operational effectiveness.
    Question. What specific progress are you making in developing the 
plan, and what schedule has been established to complete the 
restructuring plan and to inform Congress and the affected employees 
about your recommended course of action? Are you ahead, behind, or on 
that schedule?
    Answer. All DHS components are working together to analyze various 
data and develop a baseline understanding of the relevant issues 
associated with the creation of a new Department-wide regional 
structure. An initial round of data collection has been completed and 
passed to DHS staff for analysis
    Question. How long would you expect it to take to fully implement 
the plan should Congress approve it?
    Answer. An implementation plan and schedule will follow completion 
of our baseline analysis, which is still underway.
    Question. Please provide for the record the statement of 
objectives, terms of reference, fiscal guidance, operational 
assumptions, and mandated schedule that have been issued to guide the 
development of this plan.
    Answer. These elements could be developed as part of an 
implementation plan, which would follow completion of the baseline 
analysis. To reiterate the overall concept objectives are presented and 
discussed in Q-32, the overarching objective is to fulfill the DHS 
mission in support of the National Strategy for Homeland Security to 
provide for unity of purpose among all DHS component organizations
                            dhs headquarters
    Question. How much has the cancellation of the first process to 
find a headquarters facility delayed DHS's schedule to move into such a 
longer-term location?
    Answer. During the initial search for a headquarters building a 
number of critically important factors were identified. Security of the 
facility, the infrastructure existing to support DHS operations, 
adequate size, availability of fixtures and fittings, and the distance 
to Washington, DC sites at which the Department conducts business were 
all important to this process along with the availability of such a 
location within a very short time frame. After surveying the market, it 
was determined that the available properties did not present an 
acceptable alternative when all was considered. Since that time DHS has 
been able to temporarily occupy existing government facilities at very 
reasonable rent rates that satisfy the need for placing people. By 
August 2003 DHS should have control of space that provides for seating 
approximately 1000 of DHS's projected permanent, detail, and contractor 
staff. The interim time has provided opportunities for reviews of 
various alternatives for housing DHS and to further develop and refine 
requirements needed for the headquarters building over the longer term.
    Question. Why has DHS included $30 million in its budget request 
for design and site acquisition for a new headquarters, as opposed to 
requesting funds for this project through the GSA Federal Buildings 
Fund?
    Answer. The budget request included language that joined DHS and 
GSA together in working through the design and site acquisition 
process. We believe that this partnership will work well in satisfying 
DHS needs while ensuring that GSA's proven acquisition expertise is 
utilized.
    Question. How much of the $30 million requested is for design costs 
and how much is for site acquisition? What is the basis of these 
estimates?
    Answer. Site acquisition costs are largely dependent upon the 
geographic area in which the site is located. Downtown urban sites have 
typically higher costs than suburban sites. Design costs run in the 
range of about 10 percent of the expected building construction costs. 
Construction of a building in the 400,000 square foot range could be 
expected to be $140 to $180 million therefore design would be $14 to 
$18 million. The $30 million could provide for site acquisition and an 
initial conceptual portion of the design. Since DHS is still in the 
process of surveying acceptable sites for a permanent headquarters, 
estimates for design and acquisition costs would be speculative.
    Question. What is the cost estimate DHS is now using as a planning 
factor for land and construction of a longer-term headquarters?
    Answer. DHS is still identifying its needs and requirements for a 
permanent headquarters. Once more specific requirements have been 
defined, comprehensive estimates for land acquisition and construction 
costs will be developed.
                        departmental operations
    Question. The fiscal year 2004 President's budget requests $294 
million for ``Departmental Operations'', including $30 million for 
design and acquisition of a new headquarters. Would you please provide 
a detailed breakdown and justification of the request, including the 
amount of funding, full-time equivalent positions, and object class 
breakdown for each of the specific activities funded by this request, 
including, but not limited to: the Office of the Secretary and 
Executive Management; the Office of the Under Secretary for Management, 
the Office of the Chief Information Officer, the Office of the Chief 
Financial Officer, the Departmental Operations Center, and the Office 
of the General Counsel.
    Question. Please provide the fiscal year 2004 funding and full-time 
equivalent positions requested for the Office of the Under Secretary 
for Border and Transportation Security; the Office of the Under 
Secretary for Science and Technology; the office of the Under Secretary 
for Information Analysis and Infrastructure Protection; the Office of 
the Under Secretary for Emergency Preparedness and Response; the Office 
of State, Local, and Private Sector Coordination; all public affairs 
activities of the Department; and all Congressional affairs activities 
of the Department. Also, identify each account where the funding for 
each of these offices and activities is requested in the President's 
fiscal year 2004 budget, and provide an object classification table for 
each.
    Answer. See Attachment 1.

                                   DEPARTMENT OF HOMELAND SECURITY--DEPARTMENTAL OPERATIONS--FISCAL YEAR 2004 REQUEST
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                            Salaries &
              Organization                      FTE        Travel Total   Supplies Total  Benefits Total     Training     Other Expenses       Total
                                                              Budget          Budget          Budget          Budget       Total Budget
--------------------------------------------------------------------------------------------------------------------------------------------------------
Immediate Office of the Secretary.......              12        $555,000         $60,000      $1,560,000          $9,000        $156,000      $2,340,000
Immediate Office of the Dep. Secretary..               6        $240,000         $30,000        $780,000          $4,500        $153,000      $1,207,500
    Security............................              20         $90,000         $60,000      $2,600,000         $15,000     $17,260,000     $20,025,000
Chief of Staff..........................              31        $310,000        $155,000      $4,030,000         $23,250        $765,500      $5,283,750
Executive Secretary.....................              34        $340,000        $170,000      $4,250,000         $25,500      $1,317,000      $6,102,500
Special Asst to the Secretary/Private                 30        $600,000         $90,000      $3,900,000         $22,500        $165,000      $4,777,500
 Sector.................................
NCR Coordinator.........................               3         $30,000          $9,000        $390,000          $2,250        $151,500        $582,750
State & Local Affairs...................              23        $460,000         $69,000      $2,990,000         $17,250        $161,500      $3,697,750
International Affairs...................               8        $160,000         $24,000      $1,040,000          $6,000        $154,000      $1,384,000
Public Affairs..........................              43        $860,000        $129,000      $5,590,000         $32,250      $3,021,500      $9,632,750
Legislative Affairs.....................              49        $735,000        $147,000      $6,370,000         $36,750        $174,500      $7,463,250
General Counsel.........................              66        $330,000        $198,000      $9,240,000         $49,500        $933,000     $10,750,500
Civil Rights & Liberties................              20        $200,000         $60,000      $2,600,000         $15,000     $12,010,000     $14,885,000
Immigration Ombudsman...................               8         $80,000         $24,000      $1,040,000          $6,000        $154,000      $1,304,000
HS Advisory Committee...................               4         $80,000         $12,000        $520,000          $3,000        $152,000        $767,000
Privacy.................................               4         $80,000         $12,000        $520,000          $3,000        $152,000        $767,000
Under Secretary for Management..........               6         $57,000         $18,000        $780,000          $4,500        $611,300      $1,470,800
    Strategic Initiatives...............               5         $22,500         $15,000        $650,000          $3,750      $1,152,500      $1,843,750
    Chief Financial Officer.............              60        $270,000        $180,000      $7,500,000         $45,000      $4,180,000     $12,175,000
    Procurement.........................              41        $184,500        $123,000      $5,125,000         $30,750      $1,670,500      $7,133,750
    Human Resources.....................              49        $220,500        $147,000      $6,125,000        $236,750      $1,094,500      $7,823,750
    Chief Information Officer...........              63        $283,500        $189,000      $8,190,000         $47,250     $73,457,500     $82,167,250
    Administration......................              37        $166,500        $111,000      $4,625,000         $27,750     $53,878,500     $58,808,750
Border & Transportation Security........              67        $837,500        $201,000      $8,710,000         $50,250        $333,500     $10,132,250
Info. Analysis & Infrastructure                       37        $462,500        $111,000      $4,810,000         $27,750        $318,500      $5,729,750
 Protection.............................
    Command Center......................               8         $35,200         $24,000      $1,040,000          $6,000      $4,354,000      $5,459,200
Emergency Preparedness and Response.....              26        $325,000         $78,000      $3,380,000         $19,500        $313,000      $4,115,500
Science and Technology..................              40        $500,000        $120,000      $5,200,000         $30,000        $320,000      $6,170,000
                                         ---------------------------------------------------------------------------------------------------------------
      Total.............................             800      $8,514,700      $2,566,000    $103,555,000        $800,000    $178,564,300    $294,000,000
--------------------------------------------------------------------------------------------------------------------------------------------------------

                          intelligence issues
    Question. Congress contemplated that DHS would have a leading role 
in analyzing terrorist threat intelligence data and distributing that 
information to Federal, State, and local government agencies. The 
proposed Terrorist Threat Integration Center (TTIC) seems to be 
chartered with the same responsibilities. Will the creation of TTIC in 
any way diminish DHS's role in analyzing and disseminating terrorism-
related intelligence information?
    Answer. No. Within the DHS, the Information Analysis and 
Infrastructure Protection Directorate (IAIP) has robust, comprehensive 
and independent access, mandated by the President and in the law, to 
terrorist-threat information relevant to homeland security. It has the 
mission to obtain information and intelligence, including through other 
DHS components, analyze that data, and take action to protect the 
homeland against terrorist attacks. The IAIP's Information Analysis 
(IA) division will conduct its own, independent threat and other 
analysis, and leverage the resources of other entities, such as the 
FBI, CIA, and TTIC. IA analysts assigned to TTIC will ensure that 
information gathered by the TTIC will be known to and accessible by 
IAIP. Conversely, data gathered by DHS (from its own collectors as well 
as State and local government and the private sector) reaches TTIC and 
informs its work.
    Question. Does DHS still intend to conduct its own intelligence 
analysis, and, if so, how will its analytical work differ from TTIC's 
and how will it avoid duplicating the work done by TTIC, the CIA, and 
the FBI?
    Answer. IAIP's analytic mission is focused on threats to the 
homeland, whereas the TTIC will integrate and analyze terrorism-related 
information collected domestically and abroad to form the most 
comprehensive threat picture. Unlike other intelligence, law 
enforcement, and military entities (such as the CIA, FBI, TTIC and 
DOD), the DHS' mission is focused on the protection of the American 
homeland against terrorist attack. In addition to assessing terrorism 
threats IAIP will map these threats to vulnerabilities. IA will 
leverage and not duplicate TTIC by ensuring that TTIC's work directly 
supports IA's focus on the homeland.
    Question. A White House Fact Sheet states that TTIC will ``play a 
lead role in maintaining an up-to-date database of known and suspected 
terrorists.'' Does DHS still intend to maintain its own terrorist 
database, and, if so, how will that database differ from the TTIC 
database?
    Answer. DHS IAIP and other appropriate entities are in the process 
of discussing where such databases will reside.
    Question. How can you assure us that the existence of separate TTIC 
and DHS intelligence analysis, terrorist databases, and information 
dissemination channels will not create confusion and overlap within the 
Federal Government?
    Answer. To reduce confusion and overlap, IAIP's analysis will be 
tailored to support DHS headquarters and DHS operational components 
such as the Homeland Security Advisory System. In addition, IAIP will 
be responsible for disseminating information to the State/local/and 
private sector.
    Question. It has been stated that TTIC eventually ``will fully 
house a database of known and suspected terrorists that officials 
across the country will be able to access and act upon.'' Does this 
interfere with DHS's statutory role to disseminate terrorism 
information to State and Local officials? How will you prevent 
confusion among these officials about which Federal organization is the 
authoritative source for such information?
    Answer. If information obtained by or analyzed at the TTIC 
represents a threat to homeland security, and needs to be passed on to 
State and Local officials, the IA's presence at the TTIC will ensure 
that the information is passed by DHS in accordance with its specific 
responsibility for providing federally collected and analyzed homeland 
security information to first responders and other State and local 
officials, and key private sector contacts.
    Question. Will the existence of TTIC interfere in any way with DHS 
having unfettered access to all relevant intelligence data from raw 
reports to finished analytic assessments collected and conducted by 
other Federal agencies?
    Answer. No, as discussed above.
    Question. Will DHS still be able to work directly and independently 
with the FBI, CIA, and other members of the Federal intelligence 
community to obtain terrorist threat information, or will all DHS only 
be able to obtain such information from TTIC?
    Answer. Information from the TTIC will just be one of many sources 
of Federal, State and local, and private and critical infrastructure 
sector information available to the IAIP. The DHS will continue to work 
directly with the intelligence community as appropriate.
     u.s. visitor and immigrant status indication technology system
    Question. How is the new U.S. VISIT system different from the 
proposed Entry Exit system that received $380 million in funding in the 
fiscal year 2003 Consolidated Appropriations Resolution, and for which 
you have requested $480 million in fiscal year 2004?
    Answer. The U.S.-VISIT Program incorporates the requirements of the 
entry exit system. At the air and sea ports of entry, the inspections 
process will be very similar as it is today. The U.S.-VISIT system will 
modify and integrate the existing systems such as the Interagency 
Border Inspection System (a biographical name lookout or watch list 
search), Advance Passenger Information System (electronic manifests), 
the Arrival and Departure Information System (which matches the 
electronic arrival and departure records submitted by the commercial 
carriers), Student and Exchange Visitor Information System (non-U.S. 
citizen student information) and the IDENT system.
    Question. It was announced that the new U.S. VISIT system will 
replace the current National Security Entry Exit Registration System 
(NSEERS), integrate the Student and Exchange Visitor Information System 
(SEVIS), and fulfill congressional requirements. The original Entry 
Exit system that the Administration, including the Office of Homeland 
Security, had been working on for the last year did incorporate NSEERS 
as its pilot project, would be interacting with SEVIS, and would 
fulfill congressional mandates. What will the U.S. VISIT system be 
doing that is different from the original Entry Exit proposal?
    Answer. As the U.S.-VISIT Program is phased-in, NSEERS will be 
phased-out. The U.S.-VISIT system will have the capability to use 
biometrics at both entry and exit. This new process will not adversely 
affect the current inspections process. As stated above, the U.S.-VISIT 
program will modify and integrate existing systems. The DHS expects to 
meet the first scheduled requirement at the air and sea ports of entry 
by December 31, 2003.
    Question. What is the rational for a full integration of SEVIS with 
U.S. VISIT?
    Answer. U.S.-VISIT is intended to manage the entry and exit of 
certain U.S. visitors and people. The integration with SEVIS is an 
important component of the U.S.-VISIT program. It is important that 
schools are aware of the requirement that a student register with the 
school within 30 days of arrival into the United States.
    Question. Given that SEVIS has significant requirements outside of 
tracking the actual entry and exit of students, how will the needs and 
responsibilities of the SEVIS system be maintained within U.S. VISIT?
    Answer. The full functionality of SEVIS will be retained and 
maintained. The integration of SEVIS into the U.S. VISIT will allow for 
the seamless exchange of foreign student data.
    Question. The fiscal year 2003 Consolidated Appropriations 
Resolution requires that an expenditure plan for the initial $380 
million appropriated for Entry Exit be submitted to this Committee. 
Additionally, specific information was requested about how the NSEERS 
program was developed. It has been several months--when will the plan 
be submitted?
    Answer. We anticipate that the expenditure plan will be submitted 
to Congress and the GAO in June 2003.
    Question. The information on the NSEERS program was due to the 
Appropriations Committees on March 20, 2003, from the Department of 
Justice. Have you been coordinating with them on this report and when 
do you expect it to be submitted?
    Answer. BICE or BCBP is working closely with DOJ to provide the 
information.
    Question. The Border and Transportation Security Directorate had 
responsibility for the Comprehensive Entry Exit project. Who will be 
responsible for the new U.S. VISIT project?
    Answer. The Border and Transportation Security (BTS) Directorate 
will continue to have responsibility for and manage the U.S.-VISIT 
Program.
    Question. What is the total amount of funding that you expect will 
need to be invested in this system for full deployment? Are you on 
schedule for full deployment of the system by 2005?
    Answer. At this point in time we believe that the fiscal year 2003 
and fiscal year 2004 are the appropriate amounts. The U.S.-VISIT 
Program has three important phases culminating respectfully at the end 
of the calendar year 2003, 2004, 2005. However, U.S.-VISIT will be a 
system that will continually evolve in order to take advantage of 
emerging technologies and processes in order to support the ongoing 
needs. The schedules for each of the phases are extremely aggressive. 
While we believe Phase I is achievable, there is further analysis and 
planning required for Phases II and III, therefore, we are in the 
process of developing an expenditure plan for fiscal year 2004 and 
2005. In addition, we also expect to engage private industries to 
assist us in meeting these aggressive schedules.
    Question. It was announced that the first phase of U.S. VISIT will 
be operational at international air and sea ports by the end of 2003. 
In the absence of an approved expenditure plan, what funds are being 
used to continue the development of the U.S. VISIT system, such that 
you will be able make this deadline?
    Answer. The U.S.-VISIT Program has been approved to spend $5M to 
prepare an expenditure plan, which consists of an acquisition strategy, 
risk management, workforce breakdown schedule, security plan, and 
privacy assessment
    Question. Please provide the Committee with a project plan with 
detailed milestones for how you expect to achieve the end of year 2003 
deadline, and an explanation of the exact functionality that will be 
available to each of the organizations that must enter data into or get 
data out of the system.
    Answer. This information is included in the expenditure plan, which 
will be provided to Congress.
    Question. Will biometrics be incorporated into the system by the 
end of 2003? If so, what are the specific biometrics that the system 
will capture? Will the biometric be captured and verified at primary or 
at secondary inspection?
    Answer. The U.S.-VISIT system will have the capability to use 
biometrics at primary inspection at certain ports of entry by the end 
of 2003.
    Question. How will the exit of visitors to the United States be 
recorded into the U.S. VISIT system, and will this capability be 
available by the end of 2003? What is the current status of the 
Advanced Departure Information System (ADIS)?
    Answer. The exit is the most challenging piece of the U.S.-VISIT 
Program. We will have the capability to collect all of the biographic 
information (electronic arrival and departure manifests) on all 
passengers that travel through the air and sea ports of entry. Under 
the NSEERS, IDENT was deployed at exit locations to capture and verify 
the identity of NSEERS registrants.
    The Arrival Departure Information System (ADIS) has been developed 
and is currently receiving the electronic arrival and departure 
manifests from the Visa Waiver Program (VWP) carriers. In the next few 
months we will complete an analysis of the matching of the arrival 
record with the departure record. We will compare these matching 
results with the Form I-94 information contained in the Non Immigrant 
Information System (NIIS).
    Question. Will the U.S. VISIT system have the capability to report 
on overstays to Congress by the end of 2003?
    Answer. Beginning on January 1, 2004, the U.S.-VISIT system will 
have some ability to report on overstays. For example, we will be able 
report overstay information on Visa Waiver travelers from the ADIS 
system.
    Question. How do you plan to make the identified overstays an 
investigative priority within the Bureau of Immigration and Customs 
Enforcement?
    Answer. Under NSEERS, we were able to identify registrants who 
overstayed their period of admission, or did not register upon exit. We 
will build upon the lessons learned from this pilot to identify 
overstays in the U.S.-VISIT program. In addition, the Bureau of 
Immigration and Customs Enforcement (BICE) have developed policies and 
procedures to identify and locate these registrant overstays. The U.S.-
VISIT Program is working closely with the Bureau on this issue.
    Question. It was announced that the U.S. VISIT system will allow 
the Department of Homeland Security to end the domestic registration 
that has been conducted under the National Security Entry Exit 
Registration System (NSEERS). Under the Department of Justice, the 
domestic registration of NSEERS had been scheduled to end in April of 
2003, what steps have you taken that are different from that previously 
planned end of domestic registration?
    Answer. Domestic registration for NSEERS registrants concluded on 
April 25, 2003. The required 30-day and annual re-registration is 
currently under review.
    Question. By ending the NSEERS program, are you suspending the 
special registration that selected individuals are subject to at entry?
    Answer. No, the port of entry registration will continue. There are 
no recommendations to expand the list of current countries, although, 
there will likely always be additional processing for certain aliens 
identified as being of special interest. To the extent required by 8 
CFR 264.1(f)(2)(i), the public will be notified, by publication of a 
notice in the Federal Register, of expansion of the nationalities 
subject to special registration at ports of entry. However, per 8 CFR 
264.1(f)(2)(iii), neither the Secretary of State (SOS) nor the 
Secretary of Homeland Security (SHS) are required to make public their 
criteria for registration. Therefore, either the SOS or the SHS can 
amend the criteria at any time without public notice.
    Question. By ending NSEERS, are you suspending that portion of the 
program that requires registrants who remain in this country for 1 year 
after their initial registration to re-register with the Department? 
Are you suspending that portion of the program that requires 
registrants who remain in the country 30 days after arrival to re-
register with the Department? If yes, what is the rationale for this 
change?
    Answer. No suspension is currently planned for the required 30-day 
and annual re-registration.
           ``project bioshield'' vaccine acquisition program
    Question. DHS is seeking $890 million in mandatory spending for 
``Project Bioshield'' to buy biowarfare vaccines and medications. The 
program is intended to encourage drug manufacturers to increase 
research and production of biowarfare defenses. Based on the 
development maturity and production readiness of the needed vaccines 
and medications in the next 18 months, can DHS effectively and 
efficiently spend such a large amount of funds in one fiscal year?
    Answer. The Administration estimates obligating $890 million for 
BioShield procurements in fiscal year 2004. Based on the current state 
of the science, and the expectation that the proposed authority will 
allow DHS and HHS to actively pursue industry partners in this effort, 
the Administration expects to make major investments in a next-
generation anthrax vaccine, and the next-generation smallpox vaccine, 
and smaller but still important procurements for countermeasures for 
botulinum toxin. Production constraints may result in the delivery of 
countermeasures over a multi-year period, but barring a change in the 
science, we expect to be able to enter contracts for the entire 
estimated amount.
    Question. How many different vaccines and medications actually will 
be ready for DHS purchase in the next 18 months, and what is the cost 
estimate for each?
    Answer. There will be continued procurement of currently produced 
smallpox vaccine (Acambis) and anthrax vaccine (BioPort), as well as 
heptavalent and pentavalent botulinum antitoxin that will be produced 
in the next 6 to 18 months (Cangene). In addition, two new vaccines are 
expected to be ready through Project BioShield within the next 18 
months. These include a new generation anthrax vaccine, as well as a 
new smallpox vaccine. The costs of the new generation vaccines are not 
yet available, but a working group is meeting regularly, and 
determining costs is one of its top priorities.
    Question. Please provide for the record a detailed statement 
demonstrating for each vaccine and medication its development maturity 
and production readiness and how that status supports obligation of 
specific funding amounts in fiscal year 2004.
    Answer. Initiatives to support the intermediate-scale advanced 
development of rPA and MVA vaccines are planned for late fiscal year 
2003 and early fiscal year 2004 respectively. These initiatives may 
include collection of preclinical and clinical data, such as: 
production and release of consistency lots; formulation, vialing and 
labeling of vaccine; development of animal models in at least two 
species to support the FDA animal rule; process, assay and facility 
validation; and clinical evaluation in initial phase II trials. For 
next-generation recombinant Protective Antigen (rPA) anthrax vaccine, 
two candidate products are in early product development. Preclinical 
data for this vaccine are expected to be submitted between July 2003 
and September 2004, and clinical data are expected to be submitted by 
March 2004. The estimated date for completion of this phase of the rPA 
vaccine project is June 2004. For next-generation Modified Vaccinia 
Ankara (MVA) smallpox vaccine, two candidate products are in early 
product development. Preclinical data for this vaccine are expected to 
be submitted between July 2003 and September 2004, and clinical data 
are expected to be submitted by June 2004. The estimated date for 
completion of this phase of the MVA vaccine project is September 2004.
                              coast guard
    Question. What specific criteria would you apply if faced with a 
choice between carrying out a non-homeland security mission and a 
homeland security mission by the Coast Guard?
    Answer. As a military, maritime, multi-mission organization, the 
Coast Guard recognizes that its Maritime Homeland Security (MHS) and 
Non-Maritime Homeland Security (non-MHS) missions are not mutually 
exclusive. Resource allocation efforts, at the strategic and tactical 
level, are made by Operational Commanders utilizing their values, 
experience, training, judgment, and a keen eye toward balancing the 
risks involved in the situation at hand. This is truly one of the Coast 
Guard strengths.
    Consider the tactical resource allocation example of a Coast Guard 
cutter and embarked helicopter patrolling the waters off the south 
coast of Florida. The multi-mission capabilities of these assets and 
the people who crew them result in a resource mix that on any given day 
might:
  --Respond to a call from a sinking sailboat (non-MHS mission--Search 
        & Rescue);
  --Conduct a boarding on a commercial fishing vessel (non-MHS 
        missions--Marine Safety, Living Marine Resources, and Marine 
        Environmental Protection);
  --Interdict a ``go-fast'' approaching U.S. shores (MHS missions--
        Ports, Waterways & Coastal Security; Drug Interdiction; Migrant 
        Interdiction);
  --Escort a Naval ship during a military out load operation (MHS 
        missions--Ports, Waterways & Coastal Security; Defense 
        Readiness).
    Should a situation unfold in which a MAYDAY call and ``go fast'' 
sighting occur simultaneously, the Coast Guard Operational Commander 
would utilize the assets available in crafting a response, keeping in 
the forefront of his or her mind the premise that human life takes 
precedence.
    A second example, this one in the realm of strategic resource 
attainment, pertains to the President's fiscal year 2004 budget 
request. The funds requested in the fiscal year 2004 budget are 
critical to overall mission balancing efforts and to the sustainment of 
the Coast Guard's high standards of operational excellence across all 
missions. It is important to note that every MHS dollar directed to the 
Coast Guard will contribute to a careful balance between its safety and 
security missions, both of which must be properly resourced for 
effective mission accomplishment. The fiscal year 2004 budget reflects 
steady progress in a multi-year resource effort to meet America's 
future maritime safety and security needs. This new funding will 
positively impact performance in all assigned missions.
    In performance-based organizations such as the Coast Guard, 
resource attainment and allocation decisions are made with the 
overarching mission outcome in mind. Coast Guard decision-making 
criteria is focused on successful mission performance, and led by our 
values, training, experience, judgment, sense of balance, and risk 
management skills.
    Question. Some Coast Guard supporters claim that Deepwater's 20-
year duration should be cut in half. Such an action might increase 
costs by about $4 billion in fiscal years 2005-2010, although it might 
save about $4 billion in fiscal years 2010-2020. Can the Department of 
Homeland Security budget afford such increases in the near term?
    Answer. The Administration considers Integrated Deepwater System 
(IDS) funding in conjunction with all agency requests based upon 
national priorities. The President's fiscal year 2004 request of $500 
million for the IDS funds critical initiatives is consistent with the 
fiscal year 2004 funding level reflected in the March 7, 2003 Report to 
Congress on the Feasibility of Accelerating IDS to 10 years. The IDS 
contracting strategy provides the Coast Guard the flexibility to adjust 
the proposed implementation schedule depending on budget variances.
    Question. After September 11, 2001, the need for tamper-resistant 
identification cards became a priority for all agencies of the 
government issuing these types of cards. The fiscal year 2003 
supplemental appropriations Act provides $10 million to the Coast Guard 
for updating the Merchant Mariner Documents provided to certain 
qualified crew members. Please tell the subcommittee how you plan to 
use the supplemental appropriations provided.
    Answer. Fiscal year 2003 supplemental funding will be used to 
provide contractor support at the Regional Exam Centers (REC) to 
accommodate workload surges resulting from the enhanced security 
processes; install technological improvements such as electronic 
fingerprinting capabilities to reduce processing time and upgrades to 
the database for mariner documentation tracking and record keeping; 
provide more Investigating Officers in the field to adjudicate security 
issues discovered on mariner applicants; and, where possible, 
centralize those functions not requiring face-to-face contact with the 
applicant.

             SPEND PLAN FOR $10 MILLION SUPPLEMENTAL FUNDING
------------------------------------------------------------------------
                                                              Planned
            Item Description                   Cost          Execution
                                                           (Fiscal Year)
------------------------------------------------------------------------
Additional personnel and equipment at         $5,000,000       2003/2004
 the RECs...............................
Electronic Fingerprinting Equipment.....       1,000,000            2003
Additional Investigating Officers.......         700,000       2003/2004
Additional personnel for screening and         1,900,000       2003/2004
 evaluation support.....................
Mariner credentials database upgrades...       1,000,000       2003/2004
Additional program management and                400,000            2003
 project support........................
                                         -------------------------------
      Total.............................      10,000,000
------------------------------------------------------------------------

    The upgrades for issuing credentials to mariners operating in the 
Marine Transportation System will ensure that credentials are never 
issued to those who pose a threat to national security or marine 
safety. This new system includes a more robust vetting process for 
mariners and more personal interaction between the mariner and the REC 
to verify the applicant's identity. In addition, a more tamper-
resistant card is being issued to minimize the chance of misuse. The 
Coast Guard will continue to work with other agencies, especially the 
Transportation Security Administration, to achieve a ``good 
government'' solution that is fast, accurate, and consistent.
    Question. Are all of the agencies of the Department of Homeland 
Security that are in the process of developing more secure 
identification cards for employees, such as the Coast Guard, 
Transportation Security Administration, Citizenship and Immigration 
Services, and the Bureau of Customs and Border Protection, working 
together in a consolidated approach to the research, development and 
implementation of new tamper-resistant identification cards? Wouldn't 
it be more cost-efficient to have a Department-wide system for tamper-
resistant identification cards?
    Answer. Through the Department's investment review and IT 
consolidation processes, a consolidated approach is being taken to 
different programs such as credentialing.
    Question. The Coast Guard received $400 million in fiscal year 2003 
supplemental funding through the Department of Defense for defense-
related activities in the War on Iraq. What responsibilities, if any, 
does the Coast Guard have in the aftermath of the war or in rebuilding 
Iraq? Will available funding cover the costs associated with these 
Coast Guard activities? If not, do you have estimates of the additional 
funding needed to cover the cost of these activities?
    Answer. The Coast Guard is awaiting information from the Combatant 
Commander on the exact needs for Coast Guard forces to assist in the 
rebuilding of Iraq. However, over half of the Coast Guard forces 
deployed have already been released by the Combatant Commanders; the 
CGC DALLAS, one Port Security Unit and four 110 foot patrol boats 
deployed to EUCOM and the CGC BOUTWELL and CGC WALNUT deployed to 
CENTCOM are all returning home shortly or have already arrived.
    Four 110 foot patrol boats, three Port Security Units and four Law 
Enforcement Detachments remain in the Arabian Gulf to support CENTCOM, 
and no timeline has been established for their return.
    The Department of Defense has been appropriated funds within the 
IRAQI FREEDOM Fund of the 2003 Emergency Wartime Supplemental 
Appropriations Act of which ``up to'' $400 million may be transferred 
to the Coast Guard to cover the costs for supporting Operation IRAQI 
FREEDOM. The Coast Guard is still working with the Department of 
Defense to transfer those funds, but the Coast Guard expects to receive 
sufficient funds to cover the reconstitution of all its deployed 
forces. Depending on the length of the post-war deployment, the Coast 
Guard will coordinate with the Department of Homeland Security and the 
Department of Defense to identify the proper resources to support and 
reconstitute the important multi-mission Coast Guard assets that remain 
in the Arabian Gulf.
    Question. The President's fiscal year 2004 budget proposes to 
consolidate several existing Coast Guard accounts: Operating Expenses, 
Environmental Compliance and Restoration, and Reserve Training into one 
Operating Expenses account; and Acquisition, Construction and 
Improvements and Research, Development, Test and Evaluation into one 
Capital Acquisitions account. Is this consolidation of accounts 
necessary? What is accomplished by combining these accounts?
    Answer. The intent of the consolidation is to ensure more 
consistency, simplicity, and flexibility across all DHS components.
    The Operating Expenses appropriation is comprised of the Coast 
Guards traditional Operating Expenses (OE), Environmental Compliance & 
Restoration (EC&R) and Reserve Training (RT) accounts. Environmental 
Compliance & Restoration is a natural fit as it's utilized for clean 
ups of hazardous sites, battery recovery operations or minor 
restorations of contaminated facilities which is a typical use of 
operating expense resources. Reserve Training is also a natural fit 
since it is used for military pay and benefits, training, operational 
equipment and travel expenses--normal uses of Operating Expenses.
    The Capital Acquisitions appropriation is comprised of the Coast 
Guards traditional Acquisition, Construction & Improvements (AC&I), 
Research Development Testing & Evaluation (RDT&E) and Alteration of 
Bridges (AB) accounts. RDT&E fits into the Capital Acquisitions 
structure since these resources, primarily, are the precursor to major 
and minor acquisitions, focused on forming the business and performance 
case for the follow-on procurements. Although we are not requesting 
resources for Alteration of Bridges in fiscal year 2004, recapitalizing 
highway and railroad bridges fits into the structure of a capital 
acquisition process.
                  emergency preparedness and response
    Question. Which functions (budgets, personnel, daily operations, 
etc.) of the Domestic Emergency Support Team, the National Disaster 
Medical System and the Nuclear Incident Response Teams transferred from 
the Federal Bureau of Investigation, the Department of Health and Human 
Services and the Department of Energy to the Department of Homeland 
Security (DHS)?
    Answer. For the National Disaster Medical System (NDMS), 
operations, budgets and authorities have been transferred into DHS. DHS 
and the Department of Health and Human Services (HHS) have entered into 
a memorandum of understanding that provides the basis for HHS-continued 
administrative support for personnel, procurement, finance, and other 
administrative systems until these functions can be moved to DHS or the 
beginning of fiscal year 2004, whichever is sooner. HHS continues to 
support the personnel system used for the activation of approximately 
8,000 civilian volunteers. The NDMS legislative authorities (Public Law 
107-188) transferred to DHS, and the Under Secretary for Emergency 
Preparedness and Response (EP&R) became the head of NDMS.
    The Domestic Emergency Support Team (DEST) is a multi-agency 
response element. The operational control of the DEST transferred from 
the FBI to DHS on March 1st. While each agency supplies its own 
personnel and equipment to the DEST, DHS has assumed the administrative 
and logistical responsibilities for the team.
    All program management responsibilities for the Nuclear Incident 
Response Teams including budgeting, staffing, training, equipping, 
strategic planning, and maintenance remain with the Department of 
Energy (DOE). The responsibility for establishing standards; certifying 
accomplishment of those standards; conducting joint and other exercises 
and training; evaluating performance; and providing funding for 
homeland security planning, exercises, training, and equipment is now 
the responsibility of the Department of Homeland Security.
    The emergency response assets of DOE/National Nuclear Security 
Administration (NNSA) will deploy at the direction of the Secretary of 
DHS through the Under Secretary for EP&R, with the exception of the 
regional Radiological Assistance Program (RAP) teams, which retain the 
authority to self-deploy. While deployed, the emergency response assets 
fall under the operational control of the Secretary of DHS for the 
length of the deployment. All operational functions will be coordinated 
through the Under Secretary for EP&R or his designee, and will be 
consistent with current Presidential Decision Directives, Executive 
Orders, and interagency contingency plans. All deployed assets will 
support the designated Lead Federal Agency and the On-Scene Commander.
    Question. It has been said that DHS will have operational control 
over the Domestic Emergency Support Team, the National Disaster Medical 
System and the Nuclear Incident Response Teams. What is meant by 
operational control? Will the three teams essentially remain at their 
current departments but receive funding through DHS? Do you foresee any 
obstacles in this arrangement to the successful operation of these 
vital systems?
    Answer. DHS and HHS have entered into a memorandum of understanding 
that provides the basis for HHS-continued administrative support for 
personnel, procurement, finance, and other administrative systems until 
these functions can be moved to DHS or the beginning of fiscal year 
2004, whichever is sooner. HHS continues to support the personnel 
system used for the activation of approximately 8,000 civilian 
volunteers. Having the personnel system continue within HHS has not 
adversely affected the readiness of the NDMS. Operational control for 
NDMS means managing the System on a day-to-day basis, including 
authority to activate and deploy, and to direct and manage response 
teams when they are deployed to an incident. DHS is also responsible 
for the strategic development of the response teams.
    The DEST is a multi-agency response element. The operational 
control of the DEST transferred from the FBI to DHS on March 1st. While 
each agency supplies its own personnel and equipment to the DEST, DHS 
has assumed the administrative and logistical responsibilities for the 
team.
    All program management responsibilities for the Nuclear Incident 
Response Teams remain with DOE. The responsibility for establishing 
standards; certifying accomplishment of those standards; conducting 
joint and other exercises and training; evaluating performance; and 
providing funding for homeland security planning, exercises, training, 
and equipment is now DHS' responsibility.
    The emergency response assets of DOE/NNSA will deploy at the 
direction of the Secretary of DHS through the Under Secretary for EP&R, 
with the exception of the regional RAP teams, which retain the 
authority to self-deploy. While deployed, the emergency response assets 
fall under the operational control of the Secretary of DHS for the 
length of the deployment. Operational control is the authoritative 
direction over all aspects of nuclear/radiological operations and 
provides the authority to perform those functions of command and 
control over the response assets involving planning, deploying, 
assigning tasks, designating objectives, and giving authoritative 
direction necessary to accomplish the mission. Operational control 
provides full authority to organize the deployed assets as the DHS 
Secretary, through the Under Secretary for EP&R or his designee, 
considers necessary to accomplish assigned missions. It does not, in 
and of itself, include authoritative direction for logistics or matters 
of administration, discipline, or internal organization. All 
operational functions will be coordinated through the Under Secretary 
for EP&R or his designee, and will be consistent with current 
Presidential Decision Directives, Executive Orders, and interagency 
contingency plans. All deployed assets will support the designated Lead 
Federal Agency and the On-Scene Commander.
    Question. Is it true that DHS is considering changing the name of 
the Emergency Preparedness and Response (EP&R) Directorate to the 
Federal Emergency Management Agency (FEMA) because of its national name 
recognition? If so, how is this possible since EP&R was created by 
statute? Have you discussed this possible change with the House and 
Senate authorizing committees? What would be the benefits of changing 
the name from EP&R to FEMA, since EP&R now encompasses more than what 
was formerly known as FEMA?
    Answer. Such a proposal is under consideration by the 
Administration. DHS will provide notification to the appropriate 
committees if such a change is formally proposed.
    Question. On April 15, 2003, the President made available to DHS an 
additional $250 million in Disaster Relief funding through EP&R to 
assist with the recovery of the Columbia Shuttle disaster and other 
ongoing recovery efforts from previous disasters. Since this additional 
funding is provided to assist with disasters that EP&R has already 
responded to and been working on, is there sufficient funding in the 
Disaster Relief account to sustain operations throughout the remainder 
of the fiscal year?
    Answer. Supplemental funds for the Disaster Relief Fund will be 
required this fiscal year. However, the Administration is still 
reviewing estimates of projected requirements, and will notify Congress 
formally at the appropriate time.
                    office for domestic preparedness
    Question. The fiscal year 2004 budget proposes to manage the First 
Responder initiative through the Office for Domestic Preparedness. The 
budget requests $3.5 billion in funding and earmarks $500 million of 
this amount for assistance to firefighters and $500 million to law 
enforcement. How does the Administration propose to allocate the $500 
million requested for firefighters and the $500 million proposed for 
law enforcement? For example, do you intend to retain the current grant 
programs now being managed by the Emergency Preparedness and Response 
directorate (formerly FEMA) which provide emergency management 
performance grants to states or grants directly to fire departments 
through the Assistance to Firefighters Grant program?
    Answer. There are two separate allocations of $500 million in the 
fiscal year 2004 request. One $500 million allocation will be for 
direct terrorism preparedness assistance to fire departments, similar 
to the Fire Act program being transferred from FEMA. Since its 
inception, DHS's Office for Domestic Preparedness has enjoyed a strong 
relationship with the Nation's fire service. The fiscal year 2004 
Budget strengthens that relationship while integrating direct fire 
department grants into the broader planning process for terrorism 
preparedness.
    The other $500 million allocation request for State and local law 
enforcement for terrorism preparedness and prevention activities which 
include: training and equipment for WMD events, support for information 
sharing systems, training of intelligence analysts, development and 
support of terrorism early warning methods, target hardening and 
surveillance equipment, and opposition force exercises.
    Question. No additional funding is requested for fiscal year 2004 
for critical infrastructure protection grants (funded in the fiscal 
year 2003 Emergency Wartime Supplemental Appropriations Act) or for 
high-threat urban areas (funded in the fiscal year 2003 Consolidated 
Appropriations Act and the fiscal year 2003 Emergency Wartime 
Supplemental Appropriations Act). Do you foresee a need to continue 
funding for either of these grant programs in fiscal year 2004? How 
much is included in the fiscal year 2004 request for each of these 
programs?
    Answer. The $200 million appropriated in the 2003 Emergency Wartime 
Supplemental Appropriations Act was for reimbursement of states for 
expenses incurred protecting critical infrastructure during Operation 
Liberty Shield.
    Urban Area Security Initiative (UASI) was developed and implemented 
after the fiscal year 2004 budget request was developed. We believe the 
states will find this program an integral part of their strategic 
planning, and continue to fund it with grant funds ODP allocates to 
them on an annual basis. DHS will expect state plans and applications 
to make adequate provision for major population centers. Instituting a 
separate grant application process for their needs will lead to overlap 
and duplication.
    Question. First responders funding has been awarded to states with 
a pass-through to local governments on the basis that statewide plans 
are developed to deal with the issues of terrorism preparedness, 
vulnerability assessments and the like, and that the funds be spent by 
the States and local governments consistent with this plan. How 
important do you believe the statewide plans are in assuring the proper 
expenditure of this assistance at the State and local level?
    Answer. The State Homeland Security Strategy is designed to give 
each State and territory one comprehensive planning document that 
includes response requirements for a WMD terrorism incident, 
irrespective of the sources of funding. It is developed based on 
assessments of threats, vulnerabilities, and capabilities at both the 
State and local jurisdiction levels. It should serve as a blueprint for 
the coordination and enhancement of efforts to respond to WMD 
incidents, using Federal, State, local, and private resources within 
the state. Because of the importance of this information, the grants 
are awarded based on the submission of this state plan to ensure the 
state uses the funds according to the needs identified in the strategy.
    There have been many concerns from the government as well as first 
responders in the field regarding the grant funding reaching local 
jurisdictions in a timely manner. Therefore, the fiscal year 2003 State 
Homeland Security Grant Program I (SHSGP I) and SHSGP II incorporate a 
strict timeline to facilitate the release and obligation of this 
funding.
    The SHSGP I application kit was posted online on March 7, 2003. 
States had to submit their applications to ODP within 45, by April 22, 
2003. Applications were reviewed at ODP within 7 days of submission. 
Once approved by ODP, grants will be awarded to the states within 21 
days. States have 45 days to obligate funds from the time grant is 
awarded. As mandated by Congress, 80 percent of the equipment funds 
must be provided to local units of government. The required bi-annual 
Categorical Assistance Progress Reports must reflect the progress made 
on providing funds to the local jurisdictions.
    The SHSGP II application kit was posted online on April 30, 2003. 
States must submit their applications to ODP within 30 days, by May 30, 
2003. Applications will be reviewed at ODP within 7 days of submission. 
Once approved by ODP, grants will be awarded to the States within 21 
days. States have 45 days to obligate funds from the time that the 
grant is awarded. As mandated by Congress, 80 percent of the total 
amount of the grant to each State must be provided to local units of 
government. The required bi-annual Categorical Assistance Progress 
Reports must reflect the progress made on providing funds to the local 
jurisdictions.
    Question. In testifying before the Senate Appropriations Committee 
on the fiscal year 2003 supplemental request, you indicated, Secretary 
Ridge, that there may be reason to rethink how we distribute future 
terrorism preparedness funding, whether the population-based 
distribution formula historically used by the Office for Domestic 
Preparedness is appropriate, or whether it should take into account 
such factors as threat, vulnerability, critical infrastructure needs, 
and the like. Does the Administration plan to submit to the Congress a 
proposal to change the formula for the program? What changes in the 
formula will be sought?
    Answer. The current formula for the allocation of ODP funds to the 
States for the fiscal year 2003 State Homeland Security Grant Program 
(SHSGP) I and SHSGP II was computed on a base, pursuant to the Patriot 
Act, plus a population formula. Starting in fiscal year 2004, the 
Department will seek to make changes in how it distributes funding to 
the States. Each State and territory will continue to receive a base 
amount, but the balance of funds will utilize a multi-faceted formula, 
taking into account factors including threat and risk assessments, 
critical infrastructure of national importance, and population density. 
The Administration would support legislation to lower the base amount 
so that more funds are available to allocation based on other factors.
                                 ______
                                 

            Questions Submitted by Senator Pete V. Domenici

                             border issues
    Question. It has been 17 years since the Federal Government 
launched a major effort to upgrade U.S. borders and that effort focused 
only on the Southwest border.
    I have just sponsored the Border Infrastructure and Technology 
Modernization Act (S-539). The new bill will focus on U.S. borders with 
Canada as well as Mexico. This bill has the dual goals of facilitating 
the efficient flow of trade while meeting the challenges of increased 
security requirements.
    This will include:
  --More funding for equipment at our land borders--Additional funding 
        for personnel
  --Additional funding for training
  --And, additional funding for industry/business partnership programs 
        along the Mexican and Canadian borders.
    It is important for the border enforcement agencies to work with 
the private sector on both sides of the border and reward those 
partners who adopt strong internal controls designed to defeat 
terrorist access to our country.
    What are your thoughts on the importance of trade partnership 
programs along the Southwest border?
    Answer. Industry Partnership Programs (IPP) allow the BCBP to 
expand our influence beyond the borders and into Mexico, Central 
America, South America and the Caribbean. Under the umbrella of the 
Customs-Trade Partnership Against Terrorism (C-TPAT), these priority 
initiatives include the Land Border Carrier Initiative Program (LBCIP), 
the Business Anti-Smuggling Coalition (BASC) and the Americas Counter 
Smuggling Initiative Program (ACSI). Each IPP enables the Trade to 
tighten our borders through the enhancement of supply chain security 
standards that deter smugglers from using conveyances and cargo to 
smuggle terrorist devices and narcotics. These complementary programs 
benefit both BCBP and the private sector by securing the integrity of 
shipments destined for the United States while promoting the efficient 
flow of trade.
    We are currently working on additional security requirements that 
take into account the additional terrorist and drug threat on the 
Southwest border for conversion of the LBCIP carriers to C-TPAT. BASC 
chapters have been established throughout Ecuador, Colombia, Costa 
Rica, Mexico, Panama, Peru, Venezuela and most recently in Jamaica, 
where a chapter was founded in March 2003. The ACSI Teams continue to 
support BASC through security site surveys, briefings on smuggling 
trends and techniques and security and drug awareness training.
    The primary purpose of LBCIP is to prevent smugglers of illegal 
drugs from utilizing commercial conveyances for their commodities. 
Carriers can effectively deter smugglers by enhancing security measures 
at their place of business and on the conveyances used to transport 
cargo. By signing agreements with the BCBP, land and rail carriers 
agree to enhance the security of their facilities and the conveyances 
they use and agree to cooperate closely with BCBP in identifying and 
reporting suspected smuggling attempts.
    BASC is a business-led, BCBP supported alliance created to combat 
narcotics smuggling via commercial trade that was formed in March 1996. 
BASC examines the entire process of manufacturing and shipping 
merchandise from foreign countries to the United States, emphasizing 
the creation of a more security-conscious environment at foreign 
manufacturing plants to eliminate, or at least reduce, product 
vulnerability to narcotics smuggling. BCBP supports BASC through ACSI, 
which are teams of BCBP officers that travel to the BASC countries to 
assist businesses and government in developing security programs and 
initiatives that safeguard legitimate shipments from being used to 
smuggle narcotics and implements of terrorism.
    Question. What plans do you have to increase cooperation with the 
Mexican government on border issues?
    Answer. The Border Patrol component of the Bureau of Customs and 
Border Protection will continue to work closely with the Mexican 
government on border issues regarding the safety and security of all 
persons living on and or traveling in the vicinity of the U.S./Mexico 
border. The close cooperation with officials of the Mexican government, 
both at the national and local levels, has recently lead to joint 
border safety initiatives aimed at protecting the lives of those who 
are endangered by the smugglers that prey upon them. The joint safety 
initiatives include water safety and rescue training and public service 
announcements which are broadcast in Mexico to warn border crossers of 
the dangers involved in crossing rivers, deserts and mountainous areas. 
These successful joint ventures with the Mexican government will 
continue to increase as the benefits to the citizens of both countries 
are realized.
            federal law enforcement training center (fletc)
    Question. Congress created the Federal Law Enforcement Training 
Center (FLETC) to be the consolidated training center for almost all 
law enforcement agencies. As the law enforcement training arm of the 
Department of Homeland Security (DHS) it seems logical that FLETC 
should develop and conduct standardized training for all Homeland 
Security law enforcement and inspection personnel.
    Such a training approach would ensure that all law enforcement 
personnel receive appropriate and consistent instruction. This is 
particularly important as you retrain and cross-train border agencies 
which have been merged under DHS (e.g. Customs, Immigration, and 
Agriculture Inspectors).
    Congress specifically created the Federal Law Enforcement Training 
Facility in Artesia, New Mexico to handle the advanced and special 
training of almost all Federal law enforcement personnel.
    In the past, Federal agencies have chosen not to use FLETC 
facilities for training and instead have contracted with non-Federal 
institutions. Over the past few years, Congress has provided over $30 
million for the FLETC Artesia facility, alone.
    When the need for Federal Air Marshal training arose after 
September 11, FLETC-Artesia answered the call to duty by developing and 
providing this training in a remarkably short period of time. By way of 
example, FLETC-Artesia brought in three 727 airplanes for use in 
training to go along with the 18 firing ranges and 3 shoot-houses.
    FLETC-Artesia boasts 683 beds, state-of-the-art classrooms, and a 
brand new cafeteria to accommodate approximately 700 students a day, 
yet it has been running at around 320 students during fiscal year 2003.
    FLETC-Artesia's close proximity to the Southwestern border, 
recently constructed facilities and optimal training conditions 
certainly suggest the center should be highly utilized by DHS.
    How do you intend to provide training for the newly hired DHS 
personnel as continued training for existing DHS personnel in light of 
the new security challenges facing our country?
    Answer. As we enter a new era in law enforcement operations in the 
United States, the FLETC is a good example of the new government 
approach intended by the legislation creating the DHS: a means to 
harmonize the work of many law enforcement agencies through common 
training, while at the same time maintaining quality and cost 
efficiency. In fiscal year 2003, 65 percent of the FLETC's projected 
training workload will come from nine law enforcement agencies 
transferred to the new Homeland Security department. In fiscal year 
2004, this workload will continue to be above 73 percent of our 
estimated total Federal training workload.
    Under the leadership of Secretary Ridge and Under Secretary 
Hutchinson, FLETC intends to work closely with all segments of DHS. 
Placing FLETC within the DHS will help to support the ``unity of 
command'' and the coordination and efficiency themes sought in the 
public law that created DHS. FLETC has a long history of service to 
many of the DHS components--the U.S. Secret Service, the former Customs 
and Immigration and Naturalization Services including the U.S. Border 
Patrol (USBP), the Federal Protective Service and more recently, the 
Transportation Security Administration (TSA).
    With the start-up of the Bureaus of Customs and Border Protection 
and Immigration and Customs Enforcement, FLETC is ready to help 
facilitate, develop, and implement new training and cross training 
programs. We recognize that much of this effort and expertise will 
necessarily come from the agencies involved, but there likely will be 
significant adjustments made over time to all DHS-related training 
programs, basic and advanced. Already, an effort is underway to 
systematically review existing training for these new entities and to 
address whatever capabilities are needed to meld the duties of the 
participants. In the meantime, training will continue unabated to 
achieve all of the hiring expectations of our agencies.
    Question. How do you intend to use FLETC facilities for training 
DHS employees?
    Answer. The national ``war on terrorism'' precipitated by the 
events of September 11, 2000 placed new and increased demands on the 
Nation's Federal law enforcement agencies. Officers and agents 
immediately began to work extended hours and many have been reassigned 
geographically and/or to expanded duties. Nearly all Federal law 
enforcement agencies made plans to increase their cadre of qualified 
officers and agents, and submitted urgent requests to the FLETC for 
basic law enforcement training far in excess of the FLETC's normal 
capacity. These requests were for increased numbers of graduates and 
for their speedy deployment to buttress the hard-pressed Federal law 
enforcement effort.
    The events of September 11 also increased the need for certain 
advanced law enforcement training conducted at the FLETC, especially 
classes associated with such issues as counter-terrorism, weapons of 
mass destruction, money laundering, etc. Likewise, the need for 
instructor training classes increased, to strengthen the cadre of 
instructors qualified to handle the training surge--at the FLETC and 
within the agencies.
    In addressing the unprecedented increase in training requirements, 
FLETC has conducted capability analyses to determine the set of actions 
most likely to result in optimum throughput without compromising the 
qualifications of graduating officers and agents, and maximizing the 
use of each of its training facilities. With the consultation and 
concurrence of its partner organizations (POs), FLETC leadership 
directed that training be conducted on a six-day training schedule 
(Monday through Saturday), thus generating a 20 percent increase in 
throughput capability. More importantly, the 6-day training schedule 
drives a corresponding compression of the length of each training 
program, effectively delivering each class of new law enforcement 
officers to their agencies weeks sooner than under the conventional 
training schedule. Should the 6-day training schedule be insufficient 
to meet the demand, an extended work day will be considered.
    In addition to the 6-day training schedule, FLETC has expanded its 
staff with a supplemental cadre of re-employed annuitants (primarily 
retired Federal law enforcement officers) who are contributing their 
skills and experience as instructors to help sustain the surge in 
training operations. This is a 5-year authority provided by Congress in 
fiscal year 2002.
    Further, the Federal Law Enforcement Training Center has been 
tasked by BTS with establishing a Training Academy Committee to 
identify and assess the training capabilities of all of the BTS 
training academies. This study will be the basis for determining the 
schedule and priority for training elements of DHS in a coordinated 
manner.
    Question. How should DHS use FLETC Artesia's facilities and 
specialized training capabilities?
    Answer. FLETC intends to utilize its Artesia facility to its 
maximum potential. At the request of the Under Secretary, Border and 
Transportation Security (BTS) Directorate, Department of Homeland 
Security (DHS), the Federal Law Enforcement Training Center has been 
tasked with establishing a Training Academy Committee to identify and 
assess the training capabilities of all of the BTS training academies. 
The Committee will use a two phased methodology to identify the 
training assets and to develop a plan for operating the facilities 
employed by each of the Directorate's bureaus, and will also include 
the Coast Guard, Secret Service, and the Bureau of Citizenship and 
Immigration Services. The operational plan will provide the framework 
for coordinating academy training in all BTS bureaus. The Committee 
will develop and submit a report at the conclusion of each phase 
according to the timelines established by its charter. Once the 
Committee has identified all of the BTS training capabilities, FLETC 
can develop a more definitive utilization plan of facility usage at 
Artesia and all other sites.
   the national infrastructure simulation and analysis center (nisac)
    Question. The National Infrastructure Simulation and Analysis 
Center (NISAC), located at Kirtland Air Force base and run by Los 
Alamos and Sandia Labs is one of the best analytical tools, not only in 
the country, but probably in the world. NISAC should be used as a 
critical management tool across the board by all DHS executives.
    NISAC's mission is to improve the robustness of the Nation's 
critical infrastructure (e.g. oil and gas pipelines, electrical power 
grids, roadways, harbors, etc) by providing an advanced modeling and 
simulation capability that will enable an understanding of how the 
infrastructure operates; help identify vulnerabilities; determine the 
consequences of infrastructure outages; and optimize protection and 
mitigation strategies.
    How do you plan on using this facility to its fullest potential?
    Answer. We anticipate that the NISAC will provide a capability for 
complex analysis of infrastructures, infrastructure interdependencies 
and project cascading effects for both tactical and strategic decision 
making. While NISAC is still in early development and the actual 
capabilities have yet to be proven in an integrated manner the initial 
capabilities look promising.
    Question. Where do on plan on locating it in the new organization?
    Answer. The fiscal year 2003 Omnibus Appropriations requires the 
development of a NISAC in New Mexico. During the initial phases of 
development the NISAC Program Office will be in Washington, DC and we 
will begin building technical capacity in New Mexico. A specific 
location for a permanent facility has not yet been selected. The NISAC 
will be a DHS owned and operated facility with a DHS management team 
and a resident contractor technical staff from academia, support 
contractors and the national laboratories.
                     purchase of the town of playas
    Question. Approximately one week ago, I sent you a letter 
suggesting the Department of Homeland Security purchase the town of 
Playas for the training of State and local first responders.
    As you are aware, Playas is a deserted company town in Southern New 
Mexico that could be used as a real world anti-terrorism training 
center.
    Playas incorporates almost 260 homes, several apartment buildings, 
a community center, post office and airstrip, a medical clinic, 
churches and other typical small town structures.
    This town would cost the government $3.2 million--a bargain that 
should not be passed up. While Federal law enforcement has access to 
modern training facilities at FLETC, State and local first responders 
do not have access to the same quality of facilities. Playas can meet 
this vital need in a cost-effective manner.
    Currently, New Mexico Tech, a member of Homeland Security's 
National Domestic Preparedness Consortium, has put together a proposal 
for the Department of Homeland Security through their Office of 
Domestic Preparedness to purchase Playas.
    What role do you foresee Playas playing in the defense of our 
homeland?
    Answer. At this time, a decision as to the role of Playas is 
undetermined, although the site could have potential value in a 
national training architecture. Playas' usefulness as a location for 
homeland defense preparedness training must first be assessed through a 
feasibility study to determine if acquisition of the property will make 
a contribution to the national first responder training program.
    Question. Will you evaluate the feasibility of using Playas as a 
training site for State and local first responders before we lose this 
unique opportunity?
    Answer. A feasibility study to determine the potential use of 
Playas as a training center would be the first step in the decision-
making process. If upon review of the completed feasibility study a 
decision is made to move forward with utilizing the property for a 
training facility, a detailed plan will be developed to determine the 
most advantageous manner in which to acquire the property. This would 
be a lengthy process given the many legal issues involved, particularly 
if the decision is for the Federal Government and ODP to purchase or 
lease the property.
    DHS is committed to using existing training sites to their fullest 
capacity and capabilities before acquiring any additional facilities. 
Facilities under the control of DHS components, such as the U.S. Secret 
Service, Office of Domestic Preparedness, Federal Law Enforcement 
Training Center and the U.S. Coast Guard, will first be considered in 
assessing site usage for first responder training. To the extent 
feasible and necessary, DHS also will review the capabilities of State 
and local law enforcement academy sites, which may provide more cost 
effective means for training partnerships. At this time, there does not 
appear to be a need for the acquisition of a ``town'' setting to 
conduct presently identified training needs. Should circumstances arise 
that may warrant such consideration, DHS will be pleased to evaluate 
the Playas, NM site.
                          national guard issue
    Question. I have been told that the Department of Defense has 
decided to terminate National Guard support to the Department of 
Homeland Security's border inspection operations. I believe that the 
National Guard has been an intricate partner with Customs for well over 
a decade, providing the extra hands necessary to help inspect cargo at 
our land borders, seaports, and mail facilities. I believe there are 
approximately 350 National Guardsmen working alongside Customs in this 
capacity, at any given time.
    This work is of particular importance to New Mexico on our border 
with Mexico. There are approximately 52 guardsmen along the New Mexican 
border supporting a total of 90 plus Customs, Immigration and 
Agriculture inspectors. It is my understanding that for every guardsman 
who works searching cargo or screening mail allows an extra Department 
of Homeland Security (DHS) inspector to be on the frontlines looking 
for terrorists.
    As I understand, the Defense Department would like to place these 
guardsmen in positions (along the U.S. border) that are more ``military 
unique'', such as intelligence collection.
    Is now the time for DOD to move these guardsmen from these critical 
positions?
    Answer. In September 2002, DOD officially informed the U.S. Customs 
Service, now Bureau of Customs and Border Protection (BCBP), that they 
would discontinue funding National Guard counternarcotics support of 
BCBP's Cargo and Mail Inspection operations (the only BCBP operations 
supported by National Guard soldiers) effective September 30, 2003. DOD 
subsequently changed this date to September 30, 2004.
    As a result of the September 2002 notification, aggressive hiring 
strategies to offset any negative impact of losing National Guard 
support were implemented. Through regular appropriations, supplemental 
funding and an overall increase in our inspector corps as a result of 
the March 1, 2003 transition to BCBP, our agency is prepared to do 
without National Guard support beginning October 1, 2004.
    Question. Shouldn't we be increasing the number of guardsman at our 
borders?
    Answer. As a result of the significant increase in BCBP staffing, 
as outlined above, it is not necessary to retain National Guard support 
at our borders, nor is it necessary to increase the number of National 
Guard soldiers at the border locations. BCBP welcomes National Guard 
support beyond September 30, 2004, but the support is not critical for 
BCBP to accomplish its mission.
    Question. If DOD pulls the Guard from the border will DHS need more 
funding to replace personnel?
    Answer. No. Through regular appropriations, supplemental funding 
and an overall increase in our inspector corps as a result of the March 
1, 2003 transition to BCBP, our agency is prepared to do without 
National Guard support beginning October 1, 2004.
                                 ______
                                 

         Questions Submitted by Senator Ben Nighthorse Campbell

    Question. I understand that the Denver International Airport has 
been working closely with the Transportation Security Administration to 
modify its baggage conveyor system so the TSA can permanently install 
explosive detection systems to screen checked baggage at an estimated 
cost of $90 million.
    Denver has plans ready and the construction contracts in place and 
could get started today. However, Denver is still waiting for the TSA 
to release the initial $30 million that the TSA has committed to 
providing to get the first phase underway.
    I would hope that the TSA would get this crucial funding disbursed 
so that this important work could get started as soon as possible.
    Can you tell me why this funding has to date been withheld?
    Answer. TSA has been in negotiations with Denver on the funding 
process. These negotiations are in the final stages, and I hope to have 
a completed agreement by early June.
    Question. When do you expect the TSA will release the $30 million 
to Denver?
    Answer. TSA will release the $30 million once an agreement has been 
reached and executed by both parties.
    Question. What is the schedule for providing the remaining $60 
million?
    Answer. TSA is completing LOI plan which will describe the Federal 
commitment for Denver and other airports under the LOI authority.
                                 ______
                                 

             Questions Submitted by Senator Robert C. Byrd

    Question. Why has the Administration requested $30 million for 
funding of the new Department of Homeland Security headquarters 
facility in the Department's budget as opposed to in the General 
Services Administration budget--where most Federal construction 
projects are funded? Does the Department intend to assume over time the 
construction and repair and alteration requirements of other facilities 
(such as ports of entry) which are now part of the new Department?
    Answer. The budget request included language that joined DHS and 
GSA together in working through the design and site acquisition 
process. We believe that this partnership will work well in satisfying 
DHS needs for ensuring that the permanent DHS headquarters is 
established at the earliest possible time while ensuring that GSA's 
proven acquisition expertise is utilized. This partnership should also 
result in GSA eventually taking over and operating the DHS headquarters 
building under the Federal Buildings Fund system with allowances made 
for the extent of DHS's contribution to the project. With regard to 
assumption of construction, repair and alteration requirements of other 
facilities which are now part of DHS, we intend to examine the most 
cost effective and efficient ways of accomplishing these activities.
 legacy custom service and immigration and naturalization service fees
    Question. A significant portion of the budgets of the new Bureaus 
of Customs and Border Protection and Immigration and Customs 
Enforcement are based on the assumed collection of fees from the legacy 
Customs Service and Immigration and Naturalization Service. What 
happens if these fees do not materialize or materialize at levels lower 
than estimated? How do you intend to bridge that funding gap should one 
occur?
    Answer. If funding shortages occur because of smaller fee receipts, 
BCBP will adjust the level of inspection services accordingly in order 
to function within available resources.
                        expiration of cobra fees
    Question. The COBRA fees--which provide funding for nearly 1,100 
legacy Customs personnel as well as nearly all overtime for the legacy 
Customs inspectors--expire at the end of this fiscal year. What, if 
anything, are you doing to extend these fees? Have you submitted 
legislation to the appropriate authorizing committees and discussed 
with them the need for the extension of these fees? Also, what 
contingency plans, if any, do you have in place to cover the costs of 
the current COBRA-funded functions should the fees not be extended in 
time?
    Answer. We have briefed both the HouseWays and Means Committee and 
the Senate Finance Committee staffs on the need for an extension of the 
COBRA fees, and both Committees have developed proposals to extend the 
fees. The expiration of the COBRA fees will present numerous problems 
for BCBP as well as fee paying parties-in-interest. Other existing 
statutes require that airlines be billed for overtime services and pre-
clearance (19 USC 267 and 31 USC 9701) and that foreign trade zones and 
bonded warehouses be billed for inspectional and supervision services 
(19 USC 81n and 19 USC 1555). Other charges, such as fees for 
reimbursement of compensation of boarding officers under 19 USC 261 
will also need to be reinstated. These statutes are held in abeyance 
while the COBRA fees are in effect (see 19 USC 58c(e)(6)). While the 
reimbursements from these other statutes would offset some of the 
losses from the expired COBRA fees, the amounts are not expected to be 
significant. If the COBRA fees expire, service to international 
passengers and the trade would need to be reduced to a level 
commensurate with available funding. It should also be noted that the 
failure to reauthorize the fees provided for under the COBRA statute 
(19 USC 58c) will result in an additional loss in collections of 
approximately $1 billion annually. This represents the Merchandise 
Processing Fees, which are deposited into the General Fund of the 
Treasury as an offset to the commercial operations portion of the BCBP 
budget
                      revised department pay plan
    Question. A report from the Office of Personnel Management was due 
February 24 on the plan to merge the various individual pay and 
benefits systems in the new Department. An outline on issues to be 
considered in developing such a plan was delivered a few weeks after 
the due date. What is the status of the pay and benefits plan? When 
will a final plan be proposed? Do you anticipate that further 
legislation will be needed to implement the plan? What Federal agencies 
and entities, as well as outside organizations, are participating in, 
or are you consulting with, on the development of the plan?
    Answer. The Design Team which we have established to develop 
options for a new Human Resource Management System for the Department 
has been asked to address issues of pay and benefits as an integral 
component of the larger system design. The Design Team is conducting 
basic research during the early summer months. The schedule for the 
Design Team calls for the presentation of options later this fall. The 
authorities granted to DHS and OPM in the Homeland Security Act will 
allow us to address some of the differences of basic compensation in 
regulation--any changes to benefits or premium pay would require 
legislation. The Design Team has reached out to many Executive Branch 
agencies in the conduct of its research. In addition, they have met 
with private and public sector entities from around the country, they 
have consulted with the General Accounting Office and the Merit Systems 
Protection Board. And they will be conducting town hall and focus group 
meetings around the country with DHS employees and their 
representatives during the month of June. The Team itself includes 
human resource professionals from both DHS and OPM, management and 
employee representatives from DHS, union professional staff and local 
union representatives of DHS bargaining units.
              national capital region airspace protection
    Question. Is it true that there are no air assets--either rotary or 
fixed wing--permanently assigned to the National Capital Region and 
that the Bureau of Immigration and Customs Enforcement helicopters 
currently protecting our airspace are borrowed from other parts of the 
country? How many assets have been assigned to this region and from 
which parts of the country are they being borrowed? How long are they 
expected to be assigned to this region? What are the impacts on the on-
going operations at the other regions from which these assets have been 
borrowed? Is there a long term ``fix'' in the planning stages for this 
problem?
    Answer. The Bureau of Immigration and Customs Enforcement (BICE), 
Office of Air and Marine Interdiction (OAMI) is providing two Blackhawk 
helicopters and two Citation Tracker aircraft with associated aircrews 
and support personnel for National Capital Region (NCR) air security 
operations. Additionally, OAMI is providing Detection Systems 
Specialists (DSSs) and four operator consoles from the Air and Marine 
interdiction Coordination Center to establish and provide 724 law 
enforcement air surveillance to the NCR. These assets are drawn from 
throughout the OAMI program and are rotated on a regular basis to 
minimize the impact to any one sector. The impact on aircraft 
maintenance at the other regions is the loss of productive man-hours to 
support the remaining aircraft, thus limiting the maintenance 
contractor's flexibility to meet other surge demands. There is no 
expectation of this mission terminating.
                           letters of intent
    Question. The fiscal year 2003 Iraqi War Supplemental (Public Law 
108-11) included a provision allowing the Under Secretary for Border 
and Transportation Security to issue letters of intent to airports to 
provide assistance in the installation of explosive detection systems. 
What is the status of this issue? Is the Office of Management and 
Budget delaying the issuance of these letters?
    Answer. TSA has received OMB approval to begin using the letter of 
intent (LOI) process included in Public Law 108-11. Along with the LOI, 
TSA and the airport develop and enter into a Memorandum of Agreement 
(MOA) to outline the specific details of the work to be accomplished to 
complete an in-line explosive detection system (EDS) solution. TSA is 
working to complete and LOI plan which will outline the Federal 
Government's commitment to EDS integration.
               private mail radiation detection equipment
    Question. The Department has provided its employees who inspect 
U.S. Postal Service mail with radiation detection equipment. Does it 
also provide similar equipment for employees who inspect United Parcel 
Service and FedEx mail? If not, why not? Is there a plan to provide 
this equipment in the future?
    Answer. The equipment used by employees inspecting DHS deliveries 
is used while screening deliveries from the U.S. Postal Service, United 
Parcel Service, and FedEx. Its use has proven effective to date and it 
is expected that it will continue to be used in the future.
                          operation greenquest
    Question. By all accounts, the on-going anti-terrorism initiative 
known as ``Operation Greenquest'' is working quite well. However, there 
have been rumblings that the FBI may be attempting to take control of 
the Operation from the Department's Bureau of Immigration and Customs 
Enforcement. Is this true? If so, does the Department support shifting 
control of the program from legacy Customs to the FBI? For what reason?
    Answer. In an effort to unify the U.S. Government's war against 
terrorist financing, the Departments of Homeland Security and Justice 
entered into a Memorandum of Agreement (MOA) on May 13, 2003. This MOA 
assigns lead investigative authority and jurisdiction regarding the 
investigation of terrorist finance to the Federal Bureau of 
Investigation (FBI).
    Those cases that are determined to be ``terrorist financing'' cases 
will be investigated only through participation by the Bureau of 
Immigration and Customs Enforcement (BICE) in the FBI Joint Terrorism 
Task Forces (JTTF). All appropriate BICE-developed financial leads will 
be reviewed by the FBI, and if a nexus to terrorism or terrorist 
financing is identified, the leads will be referred to the JTTF under 
the direction of the FBI's Terrorist Financing Operations Section 
(TFOS). There are no provisions in the current agreement between DHS 
and DOJ that allow for delegation of authority of terrorist financing 
investigations.
    In accordance with BICE's independent authority and jurisdiction 
relative to other financial crimes and money laundering investigations, 
BICE will be the lead investigative agency for financial investigations 
that are not specified as ``terrorist financing'' cases. BICE will 
continue to vigorously and aggressively proceed with its DHS mission to 
target financial systems that are vulnerable to exploitation by 
criminal organizations, and to protect the integrity of U.S. financial 
infrastructures.
   justice department's recent decision regarding illegal immigrants
    Question. On April 24, Attorney General Ashcroft announced that his 
agency has determined that broad categories of foreigners who arrive in 
the United States illegally can be detained indefinitely without 
consideration of their individual circumstances if immigration 
officials say their release would endanger national security. 
Apparently, Homeland Security officials appealed that decision but 
their objections were overruled by the Attorney General. There are 
significant costs that are born by detaining illegal immigrants until 
their eventual deportation. For instance, it is estimated that the 
detention of Haitians in Florida over a 6 month period has cost the 
Department $12.5 million. Given that the Justice Department decision 
could have a significant impact on the Homeland Security Department's 
budget, how will the costs of these policy decisions be paid and by 
whom? Is the Department making further appeals of the Justice 
Department's ruling in this case?
    Answer. BICE is fully supportive of the decision by the Attorney 
General to allow national security implications to be considered as 
part of bond determinations. This decision was requested by BICE in the 
face of a recent Board of Immigration Appeals (BIA) decision which had 
ruled that bond determinations could only be based on individual 
circumstances.
    However, there are other factors which have the potential to 
significantly impact already tight funding for bed space in BICE 
detention facilities. For example, the Supreme Court's recent decision 
in DeMore v. Kim, upholding the constitutionality of mandatory 
detention, while welcome, requires BICE to take approximately 4,000 
aliens into custody in the near future. Other factors include increase 
detention needs based on SEVIS, NSEERS, and the absconder initiative. 
These new factors, combined with reductions to the funding level for 
the fiscal year 2003 Detention and Removal budget may require BICE to 
submit a request for supplemental appropriations.
    There were two reductions to the funding level for the fiscal year 
2003 Detention And Removal budget. In the appropriated account, $615 
million identified for the Office of the Federal Detention Trustee was 
reduced by $22 million in the Conference Report. In the User Fee 
account, Detention and Removal funds were reduced by $5.6 million due 
to a decrease in expected User Fee revenue. As a result, without an 
appropriation supplemental, 1,081 beds would have to be reduced to 
cover the deficit. If a reduction in beds is necessary, the result will 
be 9,729 fewer aliens being detained. For aliens in detention, 
approximately 92 percent are removed, while approximately 13 percent of 
aliens on the non-detained docket are removed. Thus, the reduction in 
1,081 beds may result in 7,686 fewer removals.
                          port security grants
    Question. On November 25, 2002, the President signed the Maritime 
Transportation Security Act of 2002, which addresses our need to 
quickly reduce the vulnerability of our seaports.
    On that day, the President said the following and I quote: ``We 
will strengthen security at our Nation's 361 seaports, adding port 
security agents, requiring ships to provide more information about the 
cargo, crew and passengers they carry.''
    The Coast Guard has since estimated the cost of implementing this 
Act at $1.4 billion in the first year and $6 billion in the next 10 
years.
    Congress has worked diligently to establish a mechanism for direct 
Federal grants to assist the ports. All together, we have provided $348 
million to help ports establish new security measures. Unfortunately 
none of these funds were requested by the Administration. In the most 
recent competition, ports sent in over $1 billion in applications for 
$105 million in funding.
    Mr. Secretary. Just 2 months after signing the Maritime 
Transportation Security Act, the President sent to Congress a budget 
for fiscal year 2004 that included no funds for Port Security Grants. 
Yet, in the State of the Union, the President said, that we've 
intensified security at ports of entry. How do you reconcile these 
statements with the President's request?
    Answer. There are elements within the Coast Guard's fiscal year 
2003 and 2004 budgets that represent a significant Federal investment 
in the increased security of our ports. These budgets make substantial 
headway in implementing the Coast Guard's Maritime Strategy for 
Homeland Security.
    For example, the Coast Guard developed and promulgated a Notice of 
Arrival regulation, which requires vessels to provide advance vessel, 
people, and cargo information to the Coast Guard. This regulation 
expanded the pre-9/11 Notice of Arrival requirements to include: 96-
hour advance notice vice 24 hours; passenger and crew information; and 
additional information on previous ports of call and hazardous cargoes 
carried on board each vessel.
    To centralize collection and processing of Notices of Arrival, the 
Coast Guard established the National Vessel Movement Center. This unit 
collects all of the Notice of Arrival information and enters it into a 
database that is accessible to Coast Guard units, as well as other 
agencies, including Bureau of Immigration and Customs Enforcement and 
the Centers for Disease Control.
    In response to the Maritime Transportation Security Act (MTSA) the 
Coast Guard is developing regulations to improve the security of 
vessels, waterfront facilities, and ports. The Coast Guard plans to 
publish these interim rules by July 2003 and final rules by November 
2003.
    Aside from Coast Guard, the fiscal year 2004 budget provides $462 
million in the IAIP account for vulnerability assessments and 
mitigation, as well as $18 million for the Customs Trade Partnership 
Against Terrorism (C-TPAT) and Free and Secure Trade (FAST) initiatives 
and $62 million for the Container Security Initiative in the Bureau of 
Customs and Border Protection..
    Question. Mr. Secretary, the Administration has provided 
significant Federal aid to our airports to cover much, if not all, of 
the security costs associated with passengers and baggage screening, 
and I agree with that funding, but I am left wondering why port 
security is such a low priority. In the fiscal year 2003 omnibus bill, 
Congress approved $150 million of unrequested funds for port security 
grants. Would you commit to the Subcommittee that these dollars will be 
used immediately to cover some of the $1 billion of pending 
applications?
    Answer. Port security is a high priority within the Department. We 
will continue to work with the Administration in developing budget 
execution plans for the spending of fiscal year 2003 appropriated funds 
for port security grants.
                 transportation security administration
    Question. One of the entities folded into the new Department of 
Homeland Security is entitled the Transportation Security 
Administration, not the Aviation Security Administration. Yet, within 
the $4.8 billion TSA budget, only $86 million is requested for maritime 
and land security activities while over $4.3 billion is requested for 
aviation security. In fact, the budget request for administrative costs 
associated with TSA headquarters and mission support centers ($218 
million) is 2.5 times greater than the request for maritime and land 
security.
    Mr. Secretary, why has more funding not been requested for other, 
equally important modes of transportation? Based on your analysis of 
the vulnerabilities of the various transportation modes, is the 
security of the airlines more important than the security of our ports, 
our busses and subways or AMTRAK?
    Answer. DHS has requested substantial resources across the 
Department for security needs outside of aviation, including resources 
in the Coast Guard for ports and maritime security; in BCBP for cargo 
security; in IAIP for vulnerability assessment, intelligence, and 
infrastructure protection for all sectors including transportation; and 
in EP&R for emergency response. ODP recently proposed spending $75 
million on port security and $65 million on mass transit security in 
fiscal year 2003. For its part, TSA continues key standards-setting 
efforts, and will work closely with modal administrations of the 
Department of Transportation to help leverage resources of that agency, 
where appropriate, to accomplish security goals. This type of 
cooperation has already occurred in many areas, for example hazardous 
materials transportation by truck.
                   code yellow terrorism alert level
    Question. Mr. Secretary, on April 16, 2003, the Department of 
Homeland Security reduced the terrorism alert level from code orange to 
code yellow. According to your statement at the time, the change in 
threat level was the result of the Department's review of intelligence 
and updated threat assessments from the intelligence community. 
However, there have been numerous media reports that the Department 
also considered the cost of heightened security as a determining factor 
in the decision to move from orange to yellow alert.
    As we have discussed before, heightened alert levels require States 
and local government to spend more on protecting its citizens. On the 
day that you last testified before this subcommittee, the U.S. 
Conference of Mayors released a study that showed cities were spending 
an additional $70 million per week in personnel costs alone, to keep up 
with the demands of increased domestic security. I know that you have 
heard similar complaints from private industry.
    Shouldn't the Department be providing the resources to pay for 
heightened security, rather than lowering threat levels to avoid 
providing these resources?
    Answer. While the supplemental provided limited assistance with 
Operation Liberty Shield, The Administration as a general rule is not 
planning to reimburse costs associated with changing the threat level. 
However, we are making resources available (ODP etc.) to enhance their 
permanent capabilities to respond to increased threat. The President's 
budget requested $462 million for vulnerability reduction efforts under 
the Assistant Secretary for Infrastructure Protection. Part of that 
mission will take into account the consequences of loss, vulnerability 
to terrorism, likelihood of success by terrorists, terrorist 
capabilities, and threat assessments to determine the relative risk to 
critical infrastructure and key assets. Specifically, DHS has begun 
implementation of a plan to reduce the vulnerabilities of high value/
high probability of success terrorist targets within the United States.
                fire grants and first responder funding
    Question. Mr. Secretary, FEMA--in conjunction with the National 
Fire Protection Association--released a study on January 22, 2002, 
entitled ``A Needs Assessment of the U.S. Fire Service'' which reported 
that only 13 percent of our Nation's fire departments are prepared 
handle a chemical or biological attack involving 10 or more injuries. 
Last year, FEMA awarded $334 million in fire grants but received over 
19,000 applications that requested over $2 billion.
    Given the critical unmet needs of our Nation's first responders, I 
simply do not understand the Administration's lack of commitment to 
this program. In fiscal year 2002, the President refused to spend $150 
million approved by the Congress for this program. For fiscal year 
2003, the President proposed to eliminate all funding for the program. 
For fiscal year 2004 you are proposing a 33 percent reduction to the 
fire grants program from the 2003 enacted amount of $745 million.
    Please explain to the subcommittee why the Administration does not 
view this program as a critical part of our strategy to secure the 
homeland.
    Answer. The responsibilities of the fire service have expanded 
since 9/11 to include planning for and responding to possible terrorist 
attacks. However, one of our most significant concerns is that the 
current Assistance to Firefighters Grant Program does not emphasize 
these critical terrorism preparedness needs, and the allocation of 
specific grants is not coordinated with other State and local 
preparedness funds and plans. Also, States and localities have long 
asked for a one-stop shop for first responders grants.
    This is why the fiscal year 2004 Budget consolidates fire grants in 
the Office for Domestic Preparedness, with no less than $500 million of 
the President's $3.5 billion First Responder Program allocated for fire 
services. In addition, State and local governments may also use their 
formula funds to address fire service needs. As a result, we believe 
fire services will actually receive higher funding under the proposed 
Budget. While key aspects of the current Assistance to Firefighters 
grant program--peer review of competitive funding proposals and direct 
grants to fire departments--will be retained, this shift will allow 
these grants to be more focused on terrorism preparedness and better 
integrated with other State and local funding priorities.
                  drinking water system vulnerability
    Question. On June 12, 2002, the President signed the Public Health 
Security and Bioterrorism Preparedness and Response Act of 2002. That 
Act amended the Safe Drinking Water Act to require each community water 
system serving a population of greater than 3,300 persons to: conduct 
an assessment of the vulnerability of its system to a terrorist attack 
or other intentional acts intended to substantially disrupt the ability 
of the system to provide safe and reliable drinking water and, where 
necessary, develop an emergency response plan that incorporates the 
results of the vulnerability assessments. It also authorized grants to 
pay for basic security enhancements identified in the vulnerability 
assessments, such as fences, locks, and security cameras. Industry 
estimates show that the vulnerability assessments alone will cost $450 
million. Security enhancements are estimated at $1.6 billion.
    Has the President requested funds to help State and local 
governments make sure that our citizens can trust that their drinking 
water is safe?
    Question. The President has not requested funds to pay for upgrades 
to water systems at risk of a terrorist attack such as intentional 
introduction of chemical, biological or radiological contaminants into 
community water systems. Why is this not a priority of the President?
    Answer to SEC-107 and 108. The Department is currently in the 
process of working with the States to help them to assess their ability 
to deal with chemical, biological and radiological attacks. The Office 
of Domestic Preparedness, as directed by Congress, has refined the 
State Homeland Security Assessment and Strategy Process (SHSAS) that 
was originally established in fiscal year 1999 to assess threats, 
vulnerabilities, capabilities, and needs regarding weapons of mass 
destruction terrorism incidents at both the State and local levels. The 
fiscal year 2003 SHSAS will allow State and local jurisdictions to 
update their assessment data to reflect post-September 11, 2001 
realities, to include potential risks to the water systems, as well as 
to identify progress on the priorities outlined in their initial 
strategies. The refined process will also serve as a planning tool for 
State and local jurisdictions, and will assist ODP and its partners in 
allocating Federal resources for homeland security.
                             support teams
    Question. The National Guard has thirty-two Weapons of Mass 
Destruction (WMD) Civil Support Teams prepared to deploy rapidly to 
assist a locality in responding to a chemical, biological or nuclear 
attack. Each of these teams has been certified as fully ready to assist 
civil authorities respond to a domestic weapon of mass destruction 
incident, and possesses the requisite skills, training and equipment to 
be proficient in all mission requirements.
    The 2002 Defense Authorization Act requires DOD to establish 23 
more teams, with at least one team in each State. I was surprised to 
learn that the President requested no funding in his fiscal year 2004 
budget to implement this requirement.
    The following States represented by Members of this Subcommittee do 
not have WMD Civil Support teams: Mississippi, New Hampshire, Maryland, 
Vermont, and Wisconsin.
    Mr. Secretary, can you explain why the President did not request 
any funds for equipping and training National Guard units to help our 
local first responders cope with a terrorist attack here in America? 
Were any of these units sent to the Persian Gulf?
    Answer. We did not participate in the National Guard's fiscal year 
2004 budget development process and am not aware of National Guard 
Weapons of Mass Destruction (WMD) Civil Support Teams that may have 
deployed to the Persian Gulf.
     computer assisted passenger pre-screening system ii (capps ii)
    Question. Included in the Transportation Security Administration's 
budget request is $35 million for a new passenger screening program 
known as the Computer Assisted Passenger Pre-Screening System II (CAPPS 
II). This new system is designed to enhance airline passenger safety by 
mining commercial databases of personal information, and using 
``pattern analysis'' to predict which passengers might engage in 
terrorist activities. The TSA will assign each passenger a risk level 
of green, yellow or red, and will use that determination to prevent 
certain passengers from boarding the plane.
    Congress built a number of safeguards into the Homeland Security 
Act to protect against privacy invasions. But to date, the Department 
has not made any information about development of the system available 
to the public, nor has it confirmed that it will publish guidelines for 
the program.
    Despite the fact that your agency has not yet published rules or 
guidelines for the development of the CAPPS II system, the Department 
has gone ahead and issued a preliminary contract for the development of 
CAPPS II. When will you issue the guidelines and procedures by which 
CAPPS II will operate?
    Answer. TSA has issued a proposed Privacy Act notice (January 15, 
2003), which contains guidelines and requirements for the records 
system that will support CAPPS II. This proposed notice is now being 
reviewed to address the many comments received from the public. A final 
notice will be published in the near future. This final notice will 
reflect the input we have received from members of the public, as well 
as privacy advocacy groups and stakeholders.
    TSA will establish guidelines for CAPPS II before it becomes fully 
operational. These guidelines will undergo thorough review at several 
levels within TSA and the Department before being finalized.
    Question. I was pleased to see that you filled the Privacy Officer 
position at the Department. It is important that the proper 
institutional oversight be in place before moving forward with systems 
such as CAPPS II. Will the Privacy Officer at the Department formally 
review the proposed CAPPS II guidelines before they are finalized? Will 
the appropriate Congressional committees be given an opportunity to 
review the proposed CAPPS II guidelines before they are finalized?
    Answer. TSA has issued a proposed Privacy Act notice (January 15, 
2003), which contains guidelines and requirements for the records 
system that will support CAPPS II. This proposed notice is now being 
reviewed to address the many comments received from the public. A final 
notice will be published in the near future. This final notice will 
reflect the input we have received from members of the public, as well 
as privacy advocacy groups and stakeholders.
    TSA will establish guidelines for CAPPS II before it becomes fully 
operational. These guidelines will undergo thorough review at several 
levels within TSA and the Department before being finalized. The Chief 
Privacy Officer of DHS has already begun her review of the system and 
will remain an active participant throughout the developmental and 
operational stages. Naturally, the proposed guidelines will be 
submitted to the appropriate Congressional committees for review and 
comment.
   border security--gaps in screening entrants into the united states
    Question. Last year the Senate Finance Committee tasked the General 
Accounting Office with sending agents out to try to enter the United 
States from Canada, Mexico, and Jamaica using false names and 
counterfeit identification documents. In short, in each instance, those 
GAO officials succeeded in using these fake documents to enter the 
United States. On at least one occasion they were not even stopped as 
they crossed over at one port-of-entry.
    The results of this exercise led the General Accounting Office to 
conclude that (1) people who enter the United States are not always 
asked to present identification, (2) security to prevent unauthorized 
persons from entering the United States from Canada from at least one 
location is inadequate and (3) inspectors from the former INS are not 
readily capable of detecting counterfeit identification documents.
    Mr. Secretary, do the results of this exercise trouble you? Will 
the modest increases you have proposed in the number of border 
enforcement and inspection personnel rectify these gaps or do you need 
to change your Department's procedures and training requirements?
    Answer. The results of the General Accounting Office (GAO) exercise 
have to be regarded in the appropriate context. Under law, U.S. 
citizens are not required to present any travel document or other 
identification when reentering the United States from anywhere in the 
Western Hemisphere other than Cuba. Similarly, citizens of Canada are 
not required under law to present any travel document or other 
identification when entering the United States from Canada. In each of 
these scenarios, a BCBP Inspector may accept a verbal declaration of 
citizenship and may admit the declarant to the United States if they 
are satisfied that he or she is indeed a United States or Canadian 
citizen. Especially at our land border Ports-of-Entry (POEs), Bureau of 
Customs and Border Protection (BCBP) Inspectors have very little time 
to determine whether or not to select a traveler for more intense 
scrutiny. In a matter of seconds they are required to examine the 
individuals, their documents, and their conveyances and determine 
whether their declaration of citizenship and their customs declaration 
appear accurate or require further examination.
    In the case of the GAO exercise, it was quickly determined that the 
Agents were indeed United States citizens. This was clear from their 
appearance, their demeanor and their language. Once satisfied that the 
person with whom they are dealing is a U.S. citizen and that there is 
no indication that they are smuggling goods or people, BCBP Inspectors 
are required to move them quickly through the POE. Standing immigration 
inspection instructions mandate close scrutiny of any documentary 
evidence of U.S. citizenship if the Inspector suspects that a false 
claim to citizenship is being made. Such was not the case in this 
instance. Indeed, it is questionable whether the Agents' or any other 
U.S. citizen's presentation of counterfeit evidence of citizenship is 
in any way legally actionable, since citizens cannot be excluded from 
the United States and no documentation is required for entry.
    Finally, the variety of identity documents available to United 
States and Canadian citizens, when one considers the number of Sates, 
territories and provinces and the various editions of drivers' licenses 
and birth certificates in circulation, is extremely large. I would be 
concerned that such focus on increased scrutiny of such a wide variety 
of documentation in the case of each and every citizen crossing the 
border would detract from, rather than enhance, BCBP's principal 
mission of identifying and interdicting terrorists and weapons of mass 
destruction.
    Question. What steps do you intend to have the Department take to 
address these gaps--such as better training or more intense document 
scrutiny--and what additional resources do you need to do so?
    Answer. I believe that this is more an issue of law and policy of 
national significance rather than an issue of training and resources 
for BCBP. While, this GAO exercise raises two principal points of 
focus, neither speak to the training or skills of BCBP Inspectors. The 
first is the issue of what documentation should be required of United 
States and Canadian citizens seeking to enter the United States. 
Citizens of these two countries, especially those residing in border 
areas, have enjoyed the privilege of crossing our border without a 
documentary requirement for centuries. While a decision to institute a 
documentary requirement might seem an obvious need in the current 
environment, it would end a practice seen as highly symbolic of the 
close nature of our relations with Canada.
    The second issue deals with the security, integrity, and variety of 
civil documentation issued by our states and territories. Wide 
varieties of eligibility criteria exist, such that, although this 
documentation generally serves as valid identity documentation, it does 
not serve in many cases as useful or conclusive evidence of 
citizenship. Even if the states and territories were to provide access 
to their civil documentation databases to permit BCBP Inspectors to 
positively identify license holders, this would still not serve as 
proof of citizenship, since drivers' licenses are regularly issued to 
non-citizens and the integrity of the identity data used to secure 
drivers' licenses is itself suspect. We believe that the use of a 
single federally issued document as proof of identity and citizenship 
would increase the effectiveness and efficiency of POE inspections in 
relation to both enforcement and facilitation of movement across our 
borders.
    We look forward to working with the Congress in analyzing and 
resolving these important issues.
           immigration's ``entry-exit'' visa tracking system
    Question. One crucial component of ensuring our homeland security 
is ensuring that we as a government know which foreigners are visiting 
our country, why they are here, and that they depart when they are 
required to do so. Our existing visa tracking systems are not doing the 
job.
    The budget before us requests $480 million for the new entry/exit 
visa tracking system. This is a $100 million increase over last year's 
level of funding. Many Members of Congress and outside experts are 
concerned about the lack of progress in implementing this system. It is 
my understanding that the Department has not yet determined what 
technology will be used in developing the system. Mr. Secretary, what 
steps are you taking to ensure that this system is on-track and can be 
deployed in a timely fashion? Please provide specific details as to how 
the newly announced U.S. VISIT program will differ from the currently 
planned ``entry-exit'' system. Also, do you plan on getting the 
appropriate congressional committees on board to support your proposed 
revisions?
    Answer. I have required that the U.S.-VISIT Program conduct a 
review of the program to ensure that it is aligned with the mission of 
the department and meets the Congressional requirements. As previously 
stated, the U.S.-VISIT program will incorporate the requirements of the 
entry exit system. To date many of our systems have already been 
integrated and we will continue to build upon this. We will phase-out 
the NSEERS program but will incorporate the tools and lessons learned.
    As you may be aware, the fiscal year 2003 Omnibus Appropriations 
Act requires that none of the funds appropriated for the U.S.-VISIT 
Program may be obligated until DHS submits an Expenditure Plan that (1) 
meets the capital planning and investment control review requirements 
(2) complies with Federal acquisition rules (3) is reviewed by GAO, and 
(4) has been approved by the Committees on Appropriations. Therefore, 
the DHS is closely working very diligently with the GAO and appropriate 
congressional committees for final release of the funds.
                        treasury forfeiture fund
    Question. When the Department of Homeland Security Act was passed, 
it was determined that the Treasury Forfeiture Fund fit the criteria 
for being transferred to the new Department. However, it was the policy 
of the Office of Management and Budget that this did not occur as it 
had decided that the Funds assets would be transferred to a similar 
fund at the Department of Justice.
    Given that the major agencies transferred from the Treasury 
Department to Homeland Security--the former Customs Service chief among 
them--have contributed upwards of 70 percent of the assets in the Fund 
and that the Fund has been used to further law enforcement activities 
now to be conducted by the Department of Homeland Security, do you 
agree that the Treasury Fund should simply be transferred to the 
Justice Department? Doesn't this shortchange homeland security?
    Answer. The Administration has proposed to consolidate forfeiture 
funds under the Department of Justice. This proposal would streamline 
highly duplicative administrative operations in two agencies into a 
single, more efficient structure. We believe that the Departments of 
Justice and Homeland Security will work together to ensure that DHS 
receives an appropriate share of the consolidated fund's assets. DHS 
does not have to manage the fund on a day-to-day basis to guarantee 
that this is the case.
                   port of entry construction backlog
    Question. On May 14, 2002, the President signed the Enhanced Border 
Security Act of 2002, authorizing significant improvements in our 
efforts to secure our borders. However, a congressionally mandated June 
2000 study of our port of entry infrastructure (primarily focused on 
our land border ports of entry) indicated a list of 822 projects 
totaling $784 million. These projects ranged from overloaded electrical 
outlets at facilities built in the 1930s which are not equipped to 
accommodate 21st computers and other technical systems to a border 
station in Eastman, Maine that is literally a trailer. The tragic 
events of 9/11--and the subsequent increase in staffing along our 
borders--only compounded the problem and the need.
    Mr. Secretary, with the increased demands of both trade and 
homeland security at our Nation's borders, and the increases in 
staffing along our borders, why are there no funds requested in your 
budget for infrastructure construction at our ports of entry and along 
our borders?
    Answer. The majority of Ports of Entry (POEs) along the northern 
and southern borders are owned and operated by the General Services 
Administration (GSA). The GSA fiscal year 2004 budget request includes 
$186M for POE facility improvements. In addition, the U.S.-VISIT 
program plan includes funding renovations and modifications at POEs in 
order to support the implementation of the program system. Facility 
plans are currently being developed to support the program.
                      office of homeland security
    Question. Secretary Ridge, the President's budget devotes a 
considerable amount of attention to the new Homeland Security 
Department, but barely mentions its predecessor, the White House Office 
of Homeland Security. The only reference to the Homeland Security 
Office in the President's budget is to request that its appropriation 
be consolidated within a single White House appropriation, further 
isolating the Office's activities from the American public and the 
Congress. As Homeland Security Secretary, you must be in contact with 
the White House Homeland Security Office. The advisory alerts are 
raised and lowered in consultation with the Homeland Security Council, 
on which the Homeland Security advisor is a member. I understand that 
General John Gordon has been appointed by the President to be the new 
White House Homeland Security Director. This appointment will not 
require the confirmation of the Senate, and, if history is any guide, 
the White House will not permit General Gordon to testify before the 
Congress.
    Mr. Secretary, what we must avoid is a situation where this 
Administration's homeland security policies are directed from within 
the confines of the White House, insulated from the Congress and the 
American public. What are the President's plans with regard to the 
Office of Homeland Security, and how will that Office's activities 
differ from what it was doing prior to the creation of a Homeland 
Security Department? Why is this Office still necessary now that a new 
Department has been created?
    Answer. The Office of Homeland Security was created by the 
President on October 8, 2001, via Executive Order 13228 and serves as 
and is synonymous with the staff of the Homeland Security Council 
(HSC). Just as the National Security Council (NSC) was created by 
Congress in the same act which created the Department of Defense and 
the CIA, Congress established the HSC within the EOP by statute at the 
same time as it created the Department of Homeland Security. HSC 
provides advice to the President on homeland security matters, policy 
development and the interagency process regarding Administration policy 
on homeland security, including development and coordination of 
implementation of the national strategy to secure the United States 
from terrorist threats and attacks. As such, just as the NSC functions 
in a policy coordination and advisory role somewhat parallel to the 
missions of (e.g.) the Department of State, Defense and other agencies 
with national security missions, so the HSC functions in a policy 
coordination and advisory role somewhat parallel to the missions of 
(e.g.) the Department of Homeland Security and other agencies with 
homeland security missions.
                    most significant vulnerabilities
    Question. On March 27, 2003, I asked you to provide the Committee 
with your written assessment of the ten homeland security 
vulnerabilities that you are most concerned about. I thank you for 
responding rapidly. Your response was useful in making final decisions 
on the supplemental appropriations act that Congress just approved.
    In your response, you noted that the threat environment is 
continually changing, but that you did have guidance that helped you 
focus your priorities. This response, which is not classified, focused 
on potential attacks on chemical facilities, nuclear power plants, 
large dams, liquid natural gas storage facilities, electric and 
telecommunications systems, data storage systems, transportation 
systems such as rail, and air transportation systems, water supplies 
that are vulnerable to contamination, food processing centers and 
petroleum handling facilities such as pipelines and ports.
    The President has signed authorization bills to expand Federal 
investments in many of these areas such as port security and drinking 
water security but the President has not requested funding for those 
new authorizations. In fact, if you compare your vulnerability 
guidelines to the President's budget, there does not appear to be any 
correlation. Can you tell me where in the budget are the resources to 
cope with each of these vulnerabilities?
    Answer. The President's budget requested $462 million for 
vulnerability reduction efforts under the Assistant Secretary for 
Infrastructure Protection.
                   standard for rating the department
    Question. Secretary Ridge, your highest imperative as the head of 
the Homeland Security Department is to make sure a repeat of September 
11 never happens, or if it does, to respond effectively. So in that 
sense, it's hard to judge your accomplishments to date.
    You've listed a number of initiatives undertaken by the Homeland 
Security Department since its creation, but, in the end, the only way 
to really gauge whether the Department has been successful in its 
mission to protect the homeland is whether another major terrorist 
attack occurs in the United States. I don't want to wait to see another 
September 11 to determine if your Department has accomplished its 
mission.
    What criteria can you provide this Committee for us to measure your 
Department's actions in protecting this Nation from terrorists? How can 
the Congress measure your success?
    Answer. The Department is establishing, and will report as part of 
its fiscal year 2005 Budget request, program specific goals which will 
be tied to measurable performance outcomes. Also, the Department is 
setting up the office of Program Analysis and Evaluation within its 
Office of Management with a key responsibility of developing the 
Departments Strategic Plan and ensuring associated goal, strategies and 
performance measures are in place to effectively review the performance 
of all programs. Also, the Departments Future Years Homeland Security 
Program will provide proper evaluation of program priorities making 
sure goals and objectives are properly planned, programmed and 
budgeted. The fiscal year 2005 budget request will have measures for 
each area of responsibility. However, the ultimate measure of success 
will be the ability to identify, respond, and stop potential terrorist 
threats to our Nation.
                       customs import specialists
    Question. What steps is the Department taking to increase the 
number of Customs trade personnel (import specialists) in the BCBP? 
What steps has the Department taken to ensure that Customs trade 
missions are not being lost in the anti-terrorism focus of the DHS?
    Answer. The Bureau of Customs and Border Protection (BCBP) is 
actively working to fully staff field Import Specialists and other 
trade personnel to the maximum level funded. BCBP is ensuring 
``critical need'' ports are adequately staffed in order to carry out 
the Bureau's trade responsibilities.
    Although the priority mission of the BCBP is to detect and prevent 
terrorists and terrorist weapons from entering the United States, we 
have not abrogated our trade and narcotics interdiction 
responsibilities.
    BCBP trade personnel in Headquarters and field offices continue to 
ensure trade functions are carried out correctly and efficiently. The 
changes in BCBP's primary mission have not negatively affected our 
ability to collect and protect the revenue, enforce trade agreements, 
monitor import compliance, and enforce textile quotas. We use a risk 
management approach to ensure the efficient use of resources to move 
legitimate trade across our borders. We identify and interdict 
violators and merchandise in violation of importing laws, embargoes, 
and/or sanctions to stop predatory and unfair trade practices that 
threaten the United States economic stability, market competitiveness 
and public safety. An example of this is the President's Steel 201 
initiative that BCBP is aggressively enforcing.
                     remote video inspection system
    Question. Recently, a spokesman for the Department stated that DHS 
plans to add an additional 90 remote video inspection system (RVIS) 
cameras at ports of entry along the Northern border. Currently, there 
are 236 surveillance systems along both the Northern and Southern 
borders. A number of frontline Customs inspectional personnel have 
stated that on more than one occasion these RVIS systems are down or 
are unable to identify persons or automobiles crossing the border into 
the United States. Is it in the best interest of homeland security to 
replace people at these often remote locations and increase the use of 
video entry technology that, according to a January 2002 Treasury 
Department Inspector General report, often fails because of severe 
weather and software problems?
    Answer. It is not in the best interest of homeland security to 
replace people at these often-remote locations. That is one of the 
reasons that on October 31, 2002, Commissioner Bonner approved a 
recommendation by the Office of Field Operations to terminate the RVIS 
program and incorporate the existing RVIS equipment into the Northern 
Border Security Project. The North Atlantic CMC issued a notice to the 
public indicating that the RVIS ports would be closed as of March 15, 
2003.
                       pending senate legislation
    Question. At least two bipartisan bills (S. 6 and S. 539) calling 
for, among other things, an increase over time in BCBP staffing by 
1,000 have been introduced in the Senate. Is the Department aware of 
these bills? If so, what position has the Department taken on them--
specifically in regard to the intended increase in staffing?
    Answer. Review of the port security assessments completed to date 
has yielded valuable preliminary information regarding security 
enhancement requirements. These assessments have identified a number of 
physical security enhancements that were either non-existent or needed 
improvement, such as fencing, lighting, and closed circuit television 
systems. Other common recommendations included: standards for 
transportation worker identifications systems, security plans, 
communications systems, and screening equipment standards for cargo and 
passengers.
                              watch lists
    Question. What specific steps will the Department be taking--either 
individually or in conjunction with the Defense Department and the 
Central Intelligence Agency--to address the concerns highlighted in the 
recently released General Accounting Office report (03-322)?
    Answer. The GAO is correct in its assessment that the government's 
approach to using watch lists is decentralized because the lists were 
developed in response to individual agencies unique missions. Those 
historical missions include the duties of the law enforcement and 
intelligence communities, and now include the mission to defend the 
homeland. The effort to consolidate and establish the connectivity of 
information contained in historical databases, from which watch lists 
may be generated, requires close coordination among my Information 
Analysis and Infrastructure Protection Directorate, several other 
Departments, and the Terrorism Threat Integration Center. Discussions 
among the interested parties to effect the sharing and consolidation of 
information are ongoing, and all parties are working to establish a 
timeframe for implementation.
                                  foia
    Question. During the budget hearing before this Senate 
subcommittee, Secretary Ridge assured the members of the subcommittee 
that FOIA requests would not be processed only by the single ``Program 
Manager'' assigned to reviewing information marked as ``critical 
infrastructure information''. Rather, Secretary Ridge indicated that a 
team of personnel within the Department would share this 
responsibility. Please identify the line items within the 2004 budget 
request that support processing critical information submissions and 
the FTEs that will be assigned to this activity?
    Answer. To the extent that the question inquires about the funding 
levels and personnel that will be required to support the Critical 
Infrastructure Information Program contemplated by Subtitle B of Title 
II of the Homeland Security Act of 2002 (the Act), such information is 
not yet available. The Department of Homeland Security is presently 
developing the rules and procedures for the CII Program, to be 
administered by the Information Analysis and Infrastructure Protection 
Directorate, which will govern the receipt, care, and storage of 
voluntarily submitted CII protected under the Act. At the present time, 
specific staffing levels for the CII Program have not been established.
    However, to the extent that the question proceeds from an apparent 
understanding that the CII Program Officer will have primary 
responsibility to process requests submitted to the Department pursuant 
to the Freedom of Information Act (FOIA), it should be clarified that 
this will not be the case. Rather, FOIA requests submitted to DHS will 
be received and processed in the first instance by the Department's 
FOIA Office in the Management Directorate, which will direct the 
requests to the attention of the office(s) in the Department that may 
possess responsive materials. Thus, only in the event that a FOIA 
request seeks information or materials that may be in the possession of 
the CII Program, will the request be forwarded to the CII Program 
Officer.
    Thus, the FOIA Office and functions will be entirely distinct from 
the CII Program Office. With respect to the budget and staff needs 
anticipated for FOIA-related activities, the FOIA Office will be 
administered by a single director who will receive support at 
Headquarters from contractors. In addition, each DHS Directorate will 
have its own assistant FOIA Officer and FOIA specialist who will 
support the DHS FOIA Officer. This staffing plan will encompass 
approximately 24 FTEs.
                    office for domestic preparedness
    Question. Congress appropriated $1.5 billion to the Office of 
Domestic Preparedness for grants to States in the fiscal year 2003 
supplemental appropriations bill. These funds are subject to the small 
State minimum, as required in Section 1014 of the USA PATRIOT Act. 
Please explain how the remaining funds will be distributed to States?
    Answer. As authorized by Congress in the USA Patriot Act, 
allocations for the fiscal year 2003 supplemental appropriations bill 
were determined using a base amount of .75 percent of the total 
allocation for the states (including the District of Columbia and the 
Commonwealth of Puerto Rico) and .25 percent of the total allocation 
for the U.S. territories, with the balance of funds being distributed 
on a population-share basis.
                            first responders
    Question. On April 30, 2003, Secretary Ridge was quoted in USA 
Today as saying that if Congress approves the Administration's fiscal 
year 2004 request of $3.5 billion for first responders, nearly $9 
billion will have been made available to the States and locals since 
September 11, 2001. Please provide the Committee with an explanation of 
this statement by listing the various appropriations that sum to the $9 
billion the Secretary referred to.
    Answer This amount includes the following: $5.010 billion for 
terrorism and emergency preparedness grant programs within Emergency 
Preparedness & Response/FEMA ($710 million), the Office for Domestic 
Preparedness ($3.881 billion), and the Department of Justice ($419 
million not including COPS and block grant programs). $2.923 billion in 
public health preparedness funds through HHS and DHS $1.110 billion in 
Assistance to Firefighters Grants, which are not currently focused on 
terrorism preparedness.
                  funding for departmental management
    Question. According to budget documents presented by the 
Department, the fiscal year 2003 estimate for the Departmental 
Management account is $379 million, however using authority granted in 
section 3 of Public Law 107-294, the Congress has only approved the 
transfer of $125 million for this activity. Is the obligation of these 
additional funds for Departmental Management consistent with section 
1511(d)(1) of the law, which requires that funds transferred to the new 
Department be used only for the purposes for which they were originally 
made available?
    Answer. Public Law 107-294 gives DHS the authority, subject to 
Congressional notification, to transfer up to $140 million in 
unobligated balances from component agencies to fund needs associated 
with setting up the new department. Currently, DHS has transferred only 
$125 million of these unobligated balances, as cited above. To maintain 
3-year comparability in the President's budget, however, additional 
funds were shown in the Departmental Management Operating Expenses 
account to represent the consolidation of managerial activities at the 
headquarters level and the savings associated with centralizing these 
functions in the new Department. The reallocation was made for budget 
presentation purposes only, with no loss of funding actually occurring 
in fiscal year 2003. DHS does not plan to transfer more than the 
authorized $140 million in unobligated balances, and has not yet 
decided whether it will require the additional $15 million not yet 
transferred.
    Question. Has the Department required the various component 
agencies to transfer any funds to the Departmental Management account? 
Please identify each of the accounts and amounts transferred to 
Departmental Management and identify the authority for the transfer. 
Please identify any requirements in bill and report language for funds 
transferred to Departmental Management, other than those transferred 
pursuant to section 3 of Public Law 107-294.
    Answer.

----------------------------------------------------------------------------------------------------------------
            Agency                 Authority        Trf. From        Trf. To       Dollar Amt
----------------------------------------------------------------------------------------------------------------
Dept. of Justice.............  Public Law 107-       15 03 0129      70 03 0100      $1,188,938  Departmental
                                294.                                                              Management
                                                                                                  Operating
                                                                                                  Expenses
Dept. of Transportation......  Public Law 107-       69 03 0102      70 03 0100         251,493  Departmental
                                294.                                                              Management
                                                                                                  Operating
                                                                                                  Expenses
Dept. of Energy..............  Law 107-294.....      89 X 00228       70 X 0100       1,019,786  Departmental
                                                                                                  Management
                                                                                                  Operating
                                                                                                  Expenses
EOP..........................  Public Law 107-        11 X 0038       70 X 0100       3,746,000  Departmental
                                296 Section                                                       Management
                                1516.                                                             Operating
                                                                                                  Expenses
EOP..........................  Public Law 107-        11 X 0500       70 X 0100      78,394,217  Departmental
                                294.                                                              Management
                                                                                                  Operating
                                                                                                  Expenses
FEMA.........................  Public Law 107-       58 03 0100      70 03 0100      10,000,000  Departmental
                                294.                                                              Management
                                                                                                  Operating
                                                                                                  Expenses
FEMA.........................  Public Law 107-       58 03 0101      70 03 0100       2,000,000  Departmental
                                294.                                                              Management
                                                                                                  Operating
                                                                                                  Expenses
FEMA.........................  Public Law 107-        58 X 0104       70 X 0100      18,000,000  Departmental
                                294.                                                              Management
                                                                                                  Operating
                                                                                                  Expenses
GSA-FPS......................  Public Law 107-        47 X 4542       70 X 0100       1,396,500  Departmental
                                294.                                                              Management
                                                                                                  Operating
                                                                                                  Expenses
HHS..........................  Public Law 107-       75 03 0140      70 03 0100       1,584,000  Departmental
                                294.                                                              Management
                                                                                                  Operating
                                                                                                  Expenses
HHS..........................  Public Law 107-       75 03 0600      70 03 0100         583,000  Operating
                                294.                                                              Management
                                                                                                  Operating
                                                                                                  Expenses
HHS..........................  Public Law 107-       75 03 0885      70 03 0100         583,000  Operating
                                294.                                                              Management
                                                                                                  Operating
                                                                                                  Expenses
                              ----------------------------------------------------------------------------------
      Subtotal, Operating      ................  ..............  ..............     118,746,934  ...............
       Management Operating
       Expenses.
Dept. of Justice.............  Public Law 107-      15 0304 013    70 0304 0102      16,889,500  Dept-Wide Tech
                                296 Section                                                       Invest
                                1516.
Dept. of Justice.............  Public Law 107-        15 X 4526       70 X 4640      68,000,000  WCF
                                296 Section
                                1516.
Treas. Counterterrorism Fund.  Public Law 107-        20 X 0117       70 X 0101      72,654,803  Counterterroris
                                296 Section                                                       m Fund
                                1516.
----------------------------------------------------------------------------------------------------------------

    Question. Please describe the limitations under current laws and 
regulations for former employees of the Department of Homeland Security 
for lobbying the Department of Homeland Security and the Office of 
Homeland Security.
    Please describe the limitations under current laws and regulations 
for former employees of the Office of Homeland Security for lobbying 
the Department of Homeland Security and the Office of Homeland 
Security.
    Answer. Post-Government-service employment restrictions are 
established by statute. 18 U.S.C. Sec. 207 establishes limitations on 
communications to the Government by former employees. The Director, 
U.S. Office of Government Ethics, recently published for comment 
definitive regulations that will implement this statute as it is 
applied to recent retirees. See 68 Fed. Reg. 15,385 (3/31/03).
    41 U.S.C. Sec. 423(d), a provision of the Procurement Integrity 
Act, bars certain officials who took certain actions or filled certain 
roles in relation to large procurements from accepting compensation 
from the contractor that was awarded the resulting contract for 1 year 
following taking the specified action regarding or leaving the 
enumerated position in the procurement. This statute does not bar a 
former employee's contacts with the U.S. Government. However, the 
procurement that underlies the prohibition would constitute a 
particular matter involving specific parties, and communications to the 
Government in connection with it would, most likely, violate 18 U.S.C. 
Sec. 207.
    18 U.S.C. Sec. 207 provides:
  --(a)(1) Communication restriction that applies to all former 
        employees
    --Permanent bar for a former employee to serve as another's 
            representative before the Executive Branch, Federal courts, 
            or the District of Columbia in connection with a case, 
            contract, application, proceeding, controversy or other 
            ``particular matter'' involving specific parties in which 
            he or she participated personally and substantially as a 
            Government employee.
    --The representation restricted includes not only acting as 
            another's agent or attorney, but also any kind of 
            communication made with the intent to influence the United 
            States. This includes promotional and procurement-related 
            contacts.
  --(a)(2) Communication restriction that applies to former supervisors
    --Two-year bar for a former employee to serve as another's 
            representative before the Executive Branch, Federal courts, 
            or the District of Columbia in connection with a case, 
            contract, application, proceeding, controversy or other 
            ``particular matter'' involving specific parties that was 
            actually pending under his or her official responsibility 
            during the last 1 year of his or her Government service.
  --(b) Restriction that applies to all employees involved in trade or 
        treaty negotiations
    --One-year bar for a former employee to aid, advise, or represent 
            another on the basis of ``covered information'' concerning 
            any ongoing trade or treaty negotiation in which he or she 
            had participated personally and substantially during the 
            last year of his or her Government service.
  --(c) Communication restriction that applies to former ``senior'' 
        employees
    --One-year bar for a former senior employee to knowingly make, with 
            the intent to influence, any communication to or appearance 
            before an employee of a department or agency in which he or 
            she served in any capacity during the last 1 year of his or 
            her Government service.
    --A ``senior employee'' for these purposes is, among others: one 
            employed at a rate of pay specified in or fixed under the 
            Executive Schedule (5 U.S.C. Part III, Subpart D, Chapter 
            53, Subchapter II) (5 U.S.C. Sec. 5311-18); and one 
            employed in a position not otherwise specified in the 
            statute for which the basic rate of pay, exclusive of any 
            locality-based pay adjustment, is equal to or greater than 
            the rate of basic pay payable for level 5 of the Senior 
            Executive Service.
  --(d) Communication restriction that applies to ``very senior'' 
        employees
    --One-year bar for a former very senior employee to knowingly make, 
            with the intent to influence, any communication to or 
            appearance before an officer or employee of a department or 
            agency in which he or she served in a ``very senior'' 
            position within a period of 1 year prior to his or her 
            termination of service and a person appointed to a position 
            in the Executive Branch that is listed in 5 U.S.C. 
            Sec. Sec. 5312-16 (Executive Schedule levels I through V).
    --A ``very senior'' employee for these purposes is, among others, 
            one who is employed in a position in the Executive Branch 
            at a rate of pay payable for level I of the Executive 
            Schedule (5. U.S.C. Sec. 5312).
  --(e) Restriction that applies to ``senior'' and ``very senior'' 
        employees in relation to foreign entities
    --One-year bar for any ``senior'' or ``very senior'' employee to 
            represent before any agency or department of the United 
            States with the intent to influence the performance of duty 
            of a Government official a foreign entity or to aid or 
            advise a foreign entity with the intent to influence the 
            performance of duty of a Government official.
  --(f) Special rules for detailees
    --A person detailed from one agency to another agency is deemed to 
            be an employee of both agencies.
    There are a few limited exceptions to some of these restrictions, 
which may include representation of State or local governments, 
universities, hospitals, medical research, or international 
organizations; use of special knowledge or information or a scientific 
or technological nature; and testimony under oath. Former ``senior'' 
and ``very senior'' political appointees are allowed to make 
representational contacts on behalf of a candidate for Federal or State 
office, or on behalf of national and campaign committees or a political 
party.
                                 ______
                                 

            Questions Submitted by Senator Patrick J. Leahy

                  flexibility of first responder funds
    Question. I have joined Senator Collins as a cosponsor of a bill to 
provide greater flexibility for states to use homeland security grants. 
This legislation would allow any State to request approval to 
reallocate funds received through the Office of Domestic Preparedness 
among the four categories of equipment, training, exercises, and 
planning.
    Do you support greater flexibility in the domestic preparedness 
program's guidelines for how ODP funds may be used by State and local 
emergency responder agencies so that they may meet the unique needs of 
each State to be prepared for a terrorist attack?
    Answer. ODP's State Homeland Security Strategy is designed to give 
each state and territory one comprehensive planning document that 
includes all needs for response to a WMD terrorism incident, 
irrespective of the sources of funding. It is developed based on 
assessments of threats, vulnerabilities, capabilities, and needs 
regarding weapons of mass destruction terrorism incidents at both the 
state and jurisdiction levels. It serves as a blueprint for the 
coordination and enhancement of efforts to counter WMD incidents as 
well as identify related Federal, State, local, and private resources 
within the state. The Department strongly believes the allocation of 
ODP grants should be consistent with these plans. However, the 
Administration concurs that ODP grants should not set arbitrary limits 
on the amounts available for equipment, training, and exercises. This 
current practice is based on Congressional guidance. The fiscal year 
2004 Budget proposes to give states and localities greater flexibility 
in this regard.
    In addition, through the Wartime Supplemental Appropriations Act of 
2003, ODP is providing state and local governments with additional 
funding to participate in the national effort to combat terrorism. The 
SHSGP II provides funding for First Responder Preparedness and Critical 
Infrastructure Protection. The funding available for the First 
Responder Preparedness may be used to supplement activities initiated 
with the state's SHSGP I funding, including: procurement of specialized 
emergency response and terrorism incident prevention equipment; design, 
development, conduct and evaluation of combating terrorism exercises; 
institutionalizing awareness and performance level training at the 
state and local level; and planning and administrative costs associated 
with updating and implementing the state's homeland security strategy. 
Under First Responder Preparedness, the state has the ability to choose 
how much funding should be applied to each of these four areas.
             new grant program for ``terrorism activities''
    Question. I have heard from numerous officials at the Vermont 
Homeland Security Unit that the Department of Homeland Security's ODP 
office has been working hard since Congress passed and the President 
signed the fiscal year 2003 Consolidated Appropriations Law to get 
those funds to State and local first responders as soon as possible. 
They find ODP staff to be informative and responsive to all their 
questions and requests. In fact, I have been told that the turn-around 
period for decisions on grant applications is no more than 15 days. I 
commend and thank you and your ODP staff for those efforts.
    In its fiscal year 2004 request, the Homeland Security Department 
Office of Domestic Preparedness includes $500 million ``for grants to 
State and local law enforcement for terrorism prevention activities.'' 
This appears to be brand new program that is being proposed by the 
Administration. Please tell us what this new proposed Office of 
Domestic Preparedness program would do and why it is needed. How do you 
propose to allocate funds under this new program for state and local 
law enforcement if Congress agrees to fund it?
    Answer. The $500 million appropriation to ODP for state and local 
law enforcement for terrorism preparedness and prevention activities 
will include: training and equipment for WMD events, support for 
information sharing systems, training of intelligence analysts, 
development and support of terrorism early warning methods, target 
hardening and surveillance equipment, and opposition force exercises. 
The precise allocation of these funds is being developed.
                        citizen corps initiative
    Question. The DHS budget summary states that of the $3.5 billion in 
assistance for the Office of Domestic Preparedness. This amount 
includes a $181 million request for funds to support the Citizen Corps 
Initiative.
    Now, it is my understanding that the Citizen Corps Initiative lies 
under the direction of the Homeland Security Department's Emergency 
Preparedness and Response Directorate. Citizen Corps is a community-
based initiative to involve U.S. citizens in homeland security through 
public education and outreach programs.
    I am puzzled as to why funds for this initiative would be drawn 
from the Office of Domestic Preparedness--an office that has strict 
guidelines for exactly how State and local public safety personnel may 
use ODP grants to acquire specialized training and equipment necessary 
to prevent and respond to terrorist incidents involving weapons of mass 
destruction. As an Emergency Preparedness Response Directorate program, 
funds for the Citizen Corps should be requested under that account so 
that Citizen Corps funding will not reduce funds that should be 
reserved for our Nation's police officers, EMS and firefighters. Don't 
you agree?
    Answer. ODP has a long-standing and close relationship with first 
responders across all disciplines. Pursuant to requests by state and 
local governments for a ``one-stop-shop'' for first responders, we are 
proposing such a shop in ODP. Therefore, the move of Citizen Corps 
activities to ODP is both a consolidation of Federal grant programs to 
first responders as well as an effective utilization of ODP's existing 
relationship with state and local responders.
                      emergency operations centers
    Question. State Emergency Operations Centers are essential to 
coordinate a local, state, and Federal response to such grave 
situations as a terrorist attack. These facilities, which tie together 
advanced communications and monitoring equipment, can be extremely 
expensive. As state dedicate more resources to increase security and 
pay for overtime and hiring, it has become increasingly difficult for 
states to allocate sufficient funds to build and upgrade center. Can 
you tell me what plans your department has developed to try to provide 
funds for states to construct new E.O.C.s?
    Answer. FEMA received $56 million for Emergency Operations Centers 
(EOCs) in supplemental fiscal year 2002 appropriations and is using a 
phased approach to implement this program. During Phase 1, all States 
were awarded $50,000 to conduct an assessment of existing EOCs. States 
were then invited to apply for up to $150,000 in Federal funding for 
physical modifications to State EOCs to accommodate secure 
communications equipment. The Federal funding requires a 25 percent 
match, for a total project cost of $200,000. In Phase 2, the remainder 
of the fiscal year 2002 supplemental funding will be awarded through a 
nationally competitive grant process to address the most immediate EOC 
deficiencies nationwide. States must submit applications for the 
competitive funding by May 17, 2003. Applications should reflect the 
deficiencies noted in the Phase 1 or other EOC assessments. A review 
panel will convene in June to review the EOC applications and to make 
award determinations. Eligible activities under the competitive grant 
program include new EOC construction and upgrades to existing EOCs.
    For fiscal year 2003, FEMA received an additional $25 million for 
EOC grants, which will be added to the amount available under the 
fiscal year 2002 Phase 2 competitive EOC grants. By combining the 
additional fiscal year funds, States will be able to submit one 
application and be considered for all of the available funding 
(approximately $74 million).
    However, this effort does not represent a permanent commitment, as 
state and local governments must take steps to ensure that maintenance 
and continued investment in these centers is adequately supported by 
state and local funds.
                         technology investment
    Question. Mr. Secretary, I cannot tell you how many firms from my 
home state of Vermont and across the country have told me about 
promising technologies that will help increase security. For example, a 
superb company in Bellows Falls, Vermont has come up with a promising 
device to scan underneath vehicles and difficult-to-reach places. Many 
companies have faced difficulty in learning about new Request for 
Proposals and competing for contracts. Can you tell me about the 
department's plans to consolidate technology investment into a single 
account, like DOD does with it's research and development budget?
    Answer. The Department of Homeland Security's S&T Directorate will 
use the services of the Technical Support Working Group to seek 
industry participation in needed technology development efforts and 
also to inform interested parties of the Department's needs. Broad 
Agency Announcements will also be used to solicit ideas and 
participation. In addition, there will be specific calls for proposals. 
All of these mechanisms will be announced, with information and 
guidance posted on the web. In addition, the S&T Directorate maintains 
an e-mail address of <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0675656f63686563287263656e68696a69617f46626e7528616970">[email&#160;protected]</a> for interested 
individuals or firms to submit ideas for consideration; these 
submittals are reviewed and referred to the appropriate S&T staff for 
consideration. Thus, although there will not be a single process or 
account for the Department's S&T Directorate's efforts, there will be a 
wide distribution of information on the Department's science and 
technology needs and the process to participate.
                        operation liberty shield
    Question. I think that many of us are confused about the division 
of responsibility between you and the Attorney General when it comes to 
our immigration laws. With the INS having been transferred to DHS, it 
would seem that you have primary responsibility for immigration, and 
you have used that responsibility in Operation Liberty Shield, among 
other areas. Because the Executive Office of Immigration Review has 
been retained within the Department of Justice, however, the Attorney 
General continues to assert authority over the interpretation of our 
immigration laws, most recently by deciding--incorrectly in my view--to 
reverse the Board of Immigration Appeals' decision that an 18-year old 
Haitian man should be released on bond, on the grounds that the 
decision would ``encourage further surges of mass migration from 
Haiti.'' Did the Attorney General consult with you about his decision 
in the Haitian case?
    Answer. The Department of Homeland Security referred the Board of 
Immigration Appeals' decision in Matter of D-J- to the Attorney General 
for review. On March 1, 2003, the authority of the Immigration and 
Naturalization Service to refer Board of Immigration Appeals decisions 
to the Attorney General was vested in the Secretary of Homeland 
Security, or in ``specific officials of the Department of Homeland 
Security designated by the Secretary with the concurrence of the 
Attorney General.'' 8 C.F.R. 1003.1(h)(iii). In this instance, the 
referring official was the Under Secretary for Border and 
Transportation Security.
    Question. Has the Attorney General consulted with you about his 
review of the Matter of R-A- case, involving whether a domestic 
violence victim should be denied asylum in the United States?
    Answer. The Attorney General has not yet consulted with DHS about 
this case, but I anticipate that the Attorney General will consider the 
views of my Department before issuing a decision
    Question. How is responsibility divided for issuing regulations in 
the area of immigration law? Who has the ultimate authority--you or the 
Attorney General? Are DHS and DOJ working together in the regulatory 
process?
    Answer. Both the Secretary of Homeland Security and the Attorney 
General have important, and in certain areas, coextensive 
responsibility for issuing regulations in the area of immigration law. 
With the transfer of the former INS to the Department of Homeland 
Security, the Secretary of Homeland Security has the primary role in 
setting immigration policy within the Administration. However, the 
Homeland Security Act left the Executive Office for Immigration Review, 
housing the immigration courts and the Board of Immigration Appeals, in 
the Department of Justice. In order to achieve prompt and effective 
implementation of regulations by both Departments to implement the 
common goals of this Administration, I assure you that the two 
Departments will work closely together when promulgating regulations in 
the future.
    Question. To provide a specific example, are you and the Attorney 
General working together on regulations to cover the conditions under 
which asylum can be granted to victims of domestic violence? If so, 
what is the current state of your work?
    Answer. The comments to the proposed regulation that was published 
on December 7, 2000 are currently being reviewed and considered by the 
Department of Homeland Security. We are working with the Department of 
Justice to coordinate a unified approach to this issue
    Question. Under Operation Liberty Shield, asylum seekers from 33 
Muslim countries who arrive in the United States are subject to 
automatic and unreviewable detention, with no individualized evaluation 
of the risk they may present. How many individuals have been detained 
thus far under Liberty Shield? What are the nationalities of the 
detained individuals?
    Answer. A total of 24 asylum seekers were detained under Liberty 
Shield including individuals from Iraq (15), Pakistan (3), Netherlands 
(1), Egypt (1), Lebanon (1), Turkey (1), Iran (1), Indonesia (1). 
Currently there are 15 in custody: Egypt (1), Indonesia (1), Iraq (9), 
Netherlands (1), Pakistan (3).
    [Note--the national from Netherlands was detained based on place of 
birth.]
    Question. With the cessation of active hostilities in Iraq, when do 
you plan to discontinue this automatic detention policy?
    Answer. The policy requiring mandatory detention of Expedited 
Removal cases in which credible fear has been established was 
disestablished contemporaneous with the Liberty Shield stand down. 
Detainees in custody were reviewed for appropriateness of continued 
detention based on standing guidance. No detainee was released until 
all appropriate indices checks were completed and found to be negative.
    Question. Did you consult with the Attorney General about the 
detention policy? What was the nature of the consultations?
    Answer. The Attorney General's staff helped to formulate, in a 
collaborative process, this and other elements of Liberty Shield.
   critical infrastructure information requirements of the homeland 
                              security act
    Question. Critical infrastructure information was given a broad 
exemption from the Freedom of Information Act in the Homeland Security 
Act of 2002. In accordance with that law, the Department of Homeland 
Security recently issued a proposed rule on the handling of critical 
infrastructure information.
    As written, the Homeland Security Act only covers information 
submitted to the Department of Homeland Security itself. The proposed 
rule, however, would require other Federal agencies that receive 
critical infrastructure information to pass it along to the Department, 
which would then exempt the information from public disclosure. In July 
2002, before the Homeland Security Act was passed, Rep. Tom Davis 
offered an amendment on the House floor to make all Federal agencies 
subject to the critical infrastructure provisions in the bill, not just 
the Department of Homeland Security. That amendment failed. Is the 
Department now attempting to achieve through rulemaking what the House 
of Representatives specifically rejected?
    Answer. Under the statute passed by Congress, DHS has the sole 
responsibility to designate voluntarily provided critical 
infrastructure information as protected CII. Accordingly, the proposed 
procedures address the handling of information which is voluntarily 
submitted by concerned citizens. This information may indeed arrive 
first at an agency other than DHS, however that agency lacks the 
statutory authority to designate this information as protected CII. 
Therefore, when the submitter expressly wishes protection under the CII 
Act of 2002, the voluntarily submitted information shall be forwarded 
on to DHS (29.5(b)(1)) for review and potential protection, pursuant to 
DHS designation.
    Question. The proposed rule states that ``the Department relies 
upon the discretion of the submitter as to whether the volunteered 
information meets the definition of critical infrastructure.'' This 
language creates a loophole by which a private entity could manipulate 
the law by voluntarily submitting incriminating or embarrassing data 
that is stamped ``critical infrastructure information,'' and thereby 
shielding the data from public view. If the proposed rule is 
promulgated as written, will the Department take any steps to prevent 
such a situation from occurring?
    Answer. The language in the preamble to the regulatory language 
emphasizes the voluntary nature of the submissions. The Department is 
keenly aware that reliance upon a submitter's discretion may lead to 
abuse of that discretion. And that such abuse could severely damage the 
integrity of the program. The Department is therefore taking all 
possible measures to prevent against abusing this protection. For that 
reason, proposed 29.6 provides that if the CII program manager 
determines the information is not submitted in good faith (in accord 
with the Act), the information will not be protected CII and, 
furthermore, the Program Manager need not even notify the submitter 
that the information does not qualify.
                              agriculture
    Question. Secretary Ridge, you commented in a radio broadcast with 
Secretary Veneman on Monday that you believe that a livestock 
identification program would be ``a very good initiative to 
undertake''. I have long supported pilot projects, such as the one run 
by the Holstein Association in Brattleboro, Vermont, to test various 
methods of animal identification. Does the Department of Homeland 
Security, itself or in collaboration with USDA, have any plans to 
implement such a system? And if so, what efforts will your Department 
and USDA be making to help livestock producers transition to this new 
system? Specifically, will there be any financial assistance?
    Answer. At this time the Department of Homeland Security (DHS) does 
not have any plans to immediately undertake a livestock identification 
program. With necessary studies and analyses, and should we decide to 
pursue such an initiative, then we would do so in close collaboration 
with the United States Department of Agriculture (USDA). It is too 
early to speculate on how the Departments of Homeland Security and 
Agriculture might help livestock producers transition to a livestock 
identification system. Some of that would depend on if it was a 
required or voluntary system, and many other variables. Financial 
assistance, if cost effective for this purpose, would be considered.
    Question. The Department of Homeland Security will be taking over 
the Plum Island Research Facility on June 1st. Plum Island is the only 
location America where highly infectious diseases that could wreak 
havoc on our agricultural system, such as foot-and-mouth disease, are 
studied. Will Plum Island continue to be exclusively an agriculture 
research facility or do you have any plans to study non-agricultural 
infectious diseases at this facility? Are there any plans to change the 
biosafety level of this facility?
    Answer. The Department, in partnership with USDA, intends to 
support research programs that focus on animal health research and 
diagnostics aimed at protecting our livestock against both natural and 
intentional release of foreign and exotic animal diseases. The 
Department has no plans to change the current research focus on foreign 
animal diseases, nor do we intend in the future to work on zoonotic 
agents at the Plum Island Animal Disease Center (PIADC). There are no 
plans to change the existing biosafety level of the Plum Island 
Facility.
    Question. There have also been some serious labor issues with the 
contracted security force at Plum Island. Will employees of the 
Department of Homeland Security be taking over the function of 
protecting the Plum Island facility? Regardless of employment, will 
additional measures be taken to increase security of this facility?
    The security force at the Plum Island Animal Disease Center will 
remain contracted. Across the country, the U.S. Government is taking 
measures to improve security at critical facilities. The USDA initiated 
security upgrades at Plum Island starting in December 2000. The USDA 
and Department of Homeland Security will continue to implement the 
security upgrades and review security policies and procedures.
                northern border ports of energy staffing
    Question. I wrote you last month to ask about reports I have 
received that at two ports of entry in Vermont, and many other ports of 
entry along our border with Canada, there is now only one officer on 
duty on the overnight shift, instead of the two that have been on duty 
since the September 11 attacks. As I understand it, this change was 
implemented during the weekend after the Iraq war began and the 
terrorist threat level was elevated. Can you explain why this change 
was made generally, and why it was made at this time?
    Answer. In response to the tragedies of September 11, 2001, our 
agency immediately began staffing all Northern Border ports of entry 
with a minimum of two officers at all times. This included staffing 
non-24 hour ports during closed hours.
    Prior to 9/11, non-24 hour locations were unmanned during closed 
hours. We recently conducted a very thorough review and analysis of our 
operations at the non-24 hour Northern Border ports and have determined 
that one officer can safely and effectively monitor and report activity 
at many, but not all, of these locations during closed hours. Our 
review, which focused largely on officer safety, found that there were 
no significant events related to border intrusion and/or terrorism 
reported at the non-24 hour Northern Border ports during the past 19 
months. The review further indicated, however, that sufficient backup 
at some of the locations was not readily available. As a result of our 
review, the policy of 1-officer staffing during closed hours at the 
non-24 hour Northern Border ports was implemented on March 13, 2003, 
one week prior to the beginning of the war with Iraq. However, the 
policy was implemented only at the locations where it was determined 
safe to do so and sufficient backup is available.
    The policy of 1-officer staffing during closed hours remains an 
increase to pre-9/11 staffing numbers. Furthermore, 1-officer staffing 
during closed hours is commensurate to threat levels based on detailed 
research and analysis over a significant period of time.
                              watch lists
    Question. The Washington Post reports this morning that the GAO 
will release a report today that criticizes the current state of the 
watch lists' that nine different agencies maintain to keep track of 
potential terrorists and other security threats and prevent them from 
entering or doing harm to the United States. I assume that your 
Department worked with the GAO as it compiled this report, and that you 
have some familiarity with its findings.
    Do you accept the responsibility for consolidating the numerous 
existing watch lists into a workable system? If so, what steps have you 
already taken and will you take to achieve that result?
    Answer. The GAO is correct in its assessment that the government's 
approach to using watch lists is decentralized because the lists were 
developed in response to individual agencies unique missions. Those 
historical missions include the duties of the law enforcement and 
intelligence communities, and now include the mission to defend the 
homeland. The effort to consolidate and establish the connectivity of 
information contained in historical databases, from which watch lists 
may be generated, requires close coordination among my Information 
Analysis and Infrastructure Protection Directorate, several other 
Departments, and the Terrorism Threat Integration Center. Discussions 
among the interested parties to effect the sharing and consolidation of 
information are ongoing, and all parties are working to establish a 
timeframe for implementation.
                                 ______
                                 

               Questions Submitted by Senator Tom Harkin

                              plum island
    Question. As you know, the President is proposing to transfer 
roughly half of the USDA's Plum Island's research budget to your 
agency. The justification given for the proposed transfer by your staff 
is that you want to take control of the funding for diagnostic testing 
that is done at Plum Island. While I have no problem with your 
department doing some testing development, I am very concerned about 
diverting critical funds that support USDA's mission as the lead agency 
for responding to agricultural health threats, whether they be natural 
or intentional.
    The only agricultural health functions transferred to DHS under the 
Homeland Security Act were those functions related to inspecting 
agricultural products coming in at ports-of-entry. There was no general 
transfer of authority for responding generally to agricultural health 
problems. Statutorily, USDA remains the lead agency when it comes to 
responding to agricultural health emergencies whether intentional or 
accidental, which makes sense, because USDA is where the expertise 
resides, and the agency that coordinates our domestic, agricultural 
first responder network. I think that strategy still makes sense. But, 
the Administration is now asking for a change in that strategy--a 
strategy, I might add, that you yourself supported in testimony before 
the Agriculture Committee last year. Why is the Administration 
proposing to reopen the Homeland Security Act and transfer USDA 
research programs that are critical to USDA's agricultural health 
mission in contravention of the clear language of the Homeland Security 
Act that any research conducted by DHS at Plum Island would not be 
taken from USDA research funds? What critical research needs does you 
agency have that cannot be met under the Homeland Security Act as 
currently written? If there are such needs why not just ask for the 
funds that you need rather than taking them from another agency?
    Answer. The Department of Homeland Security and U.S. Department of 
Agriculture have entered into a strategic partnership through which we 
can develop a focused research and development program to prevent, 
respond to, and recover from agroterrorism. We believe that the 
important work conducted by USDA scientists at PIADC must continue, and 
that strides in animal health research and diagnostics can serve both 
Departments' missions. We will work with USDA to balance research 
outcomes between economic security needs associated with agricultural 
trade and with homeland security needs associated with prevention of 
malicious acts against Americans and their institutions.
               agriculture quarantine inspection program
    Question. Mr. Ridge, my staff has been trying for some time now to 
set up a briefing with your agency regarding implementation of the 
provisions of the Homeland Security Act affecting the Agriculture 
Quarantine Inspection program, could you please provide your assurance 
that this will be scheduled as soon as possible?
    Answer. BCBP Associate Commissioner, Agricultural Inspection Policy 
and Programs and her staff conducted a briefing scheduled on May 19, 
2003, with staff members of Senate Majority Leader Bill Frist (R-Tenn), 
Senate Minority Leader Tom Daschle (D-SD), Speaker of the House J. 
Dennis Hastert (R-IL), and House Minority Leader Nancy Pelosi (D-CA). 
The BCBP Agricultural Inspection members are available to meet anytime 
to discuss the DHS Agricultural Quarantine Program.
                                 ______
                                 

                Questions Submitted by Senator Herb Kohl

                       toxic substances--cyanide
    Question. Secretary Ridge, cyanide and other industrial chemicals 
are very lethal, readily available for purchase, and can be easily made 
into a terror weapon. The FBI has warned law enforcement agencies 
nationwide that terrorists may use cyanide in a future attack. We are 
working on a draft bill that will simply ensure that chemicals, like 
cyanide, do not fall into the wrong hands.
    Secretary Ridge, will you and your staff support my efforts to 
close this loophole quickly? We would appreciate your expertise and 
cooperation to get this done right and as soon as possible.
    Answer. Toxic industrial materials are recognized as being 
potential targets of terrorist attacks as well as potential terrorist 
weapons. The Administration believes that legislation with respect to 
chemical site security is necessary, and is working with members of 
Congress as they consider proposals in this area.
    Many industrial firms have conducted their own vulnerability 
assessments and have implemented enhanced security measures at their 
facilities to minimize the risk of terrorist attack and release of 
these toxic materials. It is important that we recognize enhanced 
protective measures may be needed, but additional measures should not 
unnecessarily impede the legitimate use and commerce of such materials.
                 crisis training for elected officials
    Question. Elected officials, especially at the local level, get 
little training, if any on how to handle a major crisis or disaster. 
There are many opportunities for police and fire fighters to learn how 
to deal with trouble, but mayors and county officials do not get any 
special training when they become the final authority on disaster 
response in their community. Many have to learn on the job. Small 
community leaders in my state are unclear how they should react or 
prepare for potential catastrophes.
    While FEMA has some exercises for top officials, will the 
Department of Homeland Security focus more attention on training 
elected officials to make the right decisions during a disaster? Will 
you develop a training program at the national level for mayors and 
county officials?
    Answer. The Department of Homeland Security offers a number of 
training alternatives for state and local officials to improve their 
management of a major disaster and/or terrorist attack. Both the 
Emergency Preparedness and Response Directorate and the Office for 
Domestic Preparedness (ODP) contribute to this important role.
    EP&R through its Emergency Management Institute (EMI) in 
Emmitsburg, MD offers a number of courses to teach these individuals 
how to deal with terrorism, as well as the full range of disasters and 
emergencies.
    In addition, ODP supports direct training programs through the 
Domestic Preparedness Consortium, including the Center for Domestic 
Preparedness in Anniston, Alabama. A portion of ODP's State Homeland 
Security Grants may also be used by states and localities to fund 
rigorous training of their own choosing, provided it meets DHS-approved 
quality standards.
                   equipment standards and guidelines
    Question. Congress and the Administration are sending a lot of 
money out to our local communities to buy high tech equipment, 
including chemical and biological weapons detectors. First responders 
depend on these systems to make decisions and protect property and 
lives, but they have no help determining whether these machines will 
work in a crisis, just the word of the manufacturer.
    Will DHS set standards for how sensitive or reliable chemical and 
biological testing equipment should be? When will DHS provide 
guidelines to local communities so when they buy equipment they can 
feel confident these tools will work?
    Answer. Standards are an integral component of the mission of the 
S&T Directorate because they provide the objective measures of homeland 
security systems effectiveness. Standards are a fundamental component 
of the cradle to grave research, development, test, evaluation and 
transition to service product cycle. Thus, standards for homeland 
security applications must be constructed in parallel with the 
defensive systems to establish minimum criteria for effectiveness that 
encompass: basic functionality, adequacy for the task, 
interoperability, efficiency, and sustainability. Standards development 
requires a detailed knowledge of the technical attributes and 
capabilities of the system and a comprehensive understanding of the 
user requirements and operating conditions. A tight coupling must be 
maintained between the operational users, standards, and all the 
technologies that comprise the system at each step in the research, 
development, test and evaluation process.
    During the transition phase of the Department, the need for 
standards to address design, procurement, deployment, and use of the 
radiological and biological detectors was determined to be a key need. 
In collaboration with the National Institute of Standards and 
Technology (NIST), the American National Standards Institute (ANSI) and 
the Institute of Electrical and Electronic Engineers (IEEE), the DHS 
S&T transition team began development of standards for four high-
priority classes of radiation detection equipment. The four classes are 
personal dosimeters (``pagers''), alarming hand-held detectors, hand-
held isotope identifiers, and radiation portals. These standards have 
been released in draft form and will soon go to ballot, in accordance 
with ANSI process requirements for national consensus standards. A 
contract to develop a standard test method for hand-held bulk anthrax 
immunoassay kits is being prepared.
    Work is also progressing in the areas of training standards and 
personnel certification. Additional standards needs for both detection 
and response are being identified as part of a systematic evaluation of 
capabilities versus needs for standards to support the homeland 
security mission related equipment, operators, models and analyses, 
data and information, and integrated systems.
    In addition, the S&T Directorate has been working with the Oklahoma 
City Memorial Institute for Preventing Terrorism (MIPT) to deploy a 
web-based tool that will communicate directly with user communities. 
The user community has had a broad representation in the development of 
the tool. ``Project Responder,'' with direct input from DHS, is 
evolving into a tool that can catalog technologies, provide links to 
manufacturer data, and indicate which standards apply and also the 
degree of compliance with DHS standards. It will also show links to 
appropriate training and with potential grant programs.
                         proper funding levels
    Question. We know there is a training and equipment gap between 
where we are now, and what we need to have to be truly ready. We know 
many fire departments do not have the training to respond to a serious 
hazardous materials event. We know many states do not have a 
communications system in place that allows top leadership to talk to 
all the first responders in the state. After these needs are met, 
however, how do we know we have spent enough?
    Answer. The Department is working with State and local authorities 
throughout the Nation to identify shortfalls and develop a plan for 
meeting security response standards. The Departments Future Years 
Homeland Security Program currently under development will help ensure 
that out year requirements are properly aligned and funded to maintain 
needed capability.
    Question. Is DHS working on a system to measure the costs and 
benefits of additional spending? Is there a way to prove that 
additional spending will improve security?
    Answer. The Department is evaluating all programs to ensure proper 
levels of funding. The Department also is setting up the office of 
Program Analysis and Evaluation within the Office of Management which 
will review, analyze, and evaluate programs, actions, or taskings to 
ensure adherence to DHS policies, standards and homeland security 
objectives, and ensure programs are designed to accommodate operational 
requirements and the readiness and efficiency of the DHS. One of its 
key jobs will also be developing the Department's Strategic Plan and 
ensuring associated goal, strategies and performance measures are in 
place to effectively review the performance of all programs. The fiscal 
year 2005 budget request will have measures for each area of 
responsibility. Also, the Departments Future Years Homeland Security 
Program will provide proper evaluation of program priorities making 
sure goals and objectives are properly planned, programmed and 
budgeted. Again, the ultimate measure of success will be the ability to 
identify, respond, and stop potential terrorist threats to our Nation.

                          SUBCOMMITTEE RECESS

    Senator Cochran. We will continue to review the fiscal year 
2004 budget request for the Department of Homeland Security 
tomorrow morning at 10 o'clock in this same room. Our witnesses 
at that time will be the Director of the United States Secret 
Service, W. Ralph Basham, and the Commandant of the U.S. Coast 
Guard, Admiral Thomas H. Collins.
    Until then, the subcommittee stands in recess.
    [Whereupon, at 12:56 p.m., Wednesday, April 30, the 
subcommittee was recessed, to reconvene at 10 a.m., Thursday 
May 1.]












  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2004

                              ----------                              


                         THURSDAY, MAY 1, 2003

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-106, Dirksen 
Senate Office Building, Hon. Thad Cochran (chairman) presiding.
    Present: Senators Cochran, Stevens, Byrd, and Murray.

                    DEPARTMENT OF HOMELAND SECURITY

                          U.S. Secret Service

STATEMENT OF W. RALPH BASHAM, DIRECTOR

                            U.S. Coast Guard

STATEMENT OF ADMIRAL THOMAS H. COLLINS, COMMANDANT

                OPENING REMARKS OF SENATOR THAD COCHRAN

    Senator Cochran. The Subcommittee will please come to 
order.
    Today the Subcommittee on Homeland Security of the Senate 
Appropriations Committee continues its hearings on the 
President's budget request for fiscal year 2004 for funding the 
Department of Homeland Security activities.
    This morning we will hear from two agencies that have been 
transferred to the new Department, the United States Secret 
Service and the United States Coast Guard.
    We are pleased to have as our witnesses this morning the 
Director of the U.S. Secret Service, W. Ralph Basham, and the 
Commandant of the United States Coast Guard, Admiral Thomas H. 
Collins.
    We will begin with the Secret Service. The Secret Service 
was established, as we know, in 1865 with very few officers and 
the responsibility for preventing the circulation of 
counterfeit currency.
    Today the Secret Service continues to curtail 
counterfeiting while protecting our Nation's leaders and 
securing America's financial infrastructure from cyber crime.
    We have a copy of your written testimony, Director Basham, 
which we appreciate very much. It will be made a part of the 
record in full, and we would encourage you to summarize it or 
discuss the high points and make any additional comments that 
you think would be helpful to the Committee's understanding of 
the budget request for the Secret Service.
    I thought we would go ahead with an opening statement and 
then recess the hearing because we have a vote that is 
scheduled on the Senate floor at 10:15. One way we could do 
this is to have the Commandant of the Coast Guard make an 
opening statement as well, if that is all right with the 
Admiral.
    So let us proceed now with the Secret Service. You may 
proceed, Mr. Director.

                  OPENING STATEMENT OF W. RALPH BASHAM

    Mr. Basham. Thank you, Mr. Chairman.
    It is a privilege for me to be here today to represent the 
men and women of the United States Secret Service and our 
fiscal year 2004 budget request.
    Our agency looks forward to forming a strong and lasting 
relationship with this new Subcommittee, and I deeply 
appreciate your willingness to allow us to be here to testify 
today.
    We have entered a truly momentous period for the Secret 
Service. On March 1, 2003, as you stated, our agency was 
transferred from the Department of the Treasury to the 
Department of Homeland Security. I would like to share with 
this Subcommittee our vision for the future of the Secret 
Service and in particular the role that this agency will seek 
to carry out in the new Department.

                     MISSIONS OF THE SECRET SERVICE

    The bedrock principle of the Secret Service's dual 
protective and investigative missions is our focus on 
prevention. This core philosophy is ingrained in our culture 
and is truly what makes the Secret Service unique among all law 
enforcement agencies.
    Our focus on prevention began with our original mandate to 
suppress counterfeiting when the Secret Service adopted the 
goal of preventing the production of counterfeit currency 
before it was circulated. Today our agents are trained to 
detect incidents before they occur, through meticulous advance 
work and counter-surveillance tactics.
    Threat assessments developed by our Intelligence Division 
identify existing dangers to officials that we protect. Our 
Electronic Crime Task Forces provide training to hundreds of 
our local law enforcement and private sector partners, aiding 
them in efforts to shield critical systems and networks from 
cyber criminals and terrorists.
    We believe that our prevention-based philosophy mirrors 
that of the new Department. Our common goal is to anticipate 
and prepare, to take the necessary precautions to minimize 
opportunities for our adversaries, and to prevent any loss of 
life or the disruption of the institutions upon which we 
depend.
    The Secret Service has already identified resources, 
assets, and personnel within our agency that could enhance the 
efforts of the new Department to achieve its homeland security 
objectives.
    Foremost is our century-old protective mission and mandate 
to protect the President, the Vice President, visiting world 
leaders, and other key Government officials, and to coordinate 
security operations for events of national significance.
    An equally important component of homeland security is 
economic security, including the protection of our currency and 
financial payment systems, particularly as fraudulent credit 
and debit cards and counterfeit checks have become prevalent in 
the marketplace.
    We must also address the vulnerabilities in other critical 
infrastructures. A serious compromise of these assets ranging 
from telecommunication networks to energy plants to water 
treatment facilities could wreak havoc on our economy, law 
enforcement, health care providers, transportation systems, and 
emergency services.
    The need to secure our critical infrastructure typifies an 
area where our agency's unique competencies and experience can 
contribute to the efforts of the new Department. Today, the 
Secret Service is already discussing with Departmental 
officials how our expertise can be applied to safeguarding and 
ensuring the continuity and reliability of physical and 
technology-based assets throughout our economy and our 
communities.

                ELECTRONIC CRIMES SPECIAL AGENT PROGRAM

    Let me introduce one of our special agents who is on the 
front lines of that effort. Special Agent Cornelius Tate is a 
graduate of the University of Mississippi with a degree in 
computer science. He is a 17-year veteran of the Secret 
Service. He has served in numerous protective and investigative 
assignments including the Presidential Protective Division. 
Today, Special Agent Tate is one of 180 members of our unique 
Electronic Crimes Special Agent Program. Our ECSAP program 
provides specialized training in the forensic preservation and 
examination of computer evidence. These ECSAP agents are truly 
unique, both because of their ability to provide timely, 
mobile, and onsite examinations, and because they can combine 
their technical expertise with their investigative skills and 
experience.
    Until recently, Special Agent Tate served as a Secret 
Service liaison to the Computer Emergency Response Team at 
Carnegie Mellon University. Today he is providing critical 
support to the DHS initiatives to coordinate Federal and State 
efforts to safeguard key assets throughout the Nation such as 
nuclear facilities and water treatment plants from both 
physical and electronic terrorist attacks.

                        SECRET SERVICE PERSONNEL

    Mr. Chairman, it has been more than three decades since I 
began my own Secret Service training, and as you can imagine, a 
lot has changed over that time. The technology revolution has 
forever transformed our economy, our culture, and the 
challenges we face in law enforcement. Our protective 
methodologies have become vastly more sophisticated, 
incorporating elements such as electronic surveillance, 
biometrics, and air space surveillance systems. And of course, 
we have the ominous and immediate threat posed by global 
terrorists.
    But if there has been a common thread throughout the 138 
years of the Secret Service's history, it is truly the unique 
caliber of individuals who are drawn to our agency. We have 
always managed to attract individuals with special backgrounds 
and extraordinary credentials. They join the Secret Service and 
they remain with our agency because the position offers 
something that the private sector cannot--an opportunity to 
serve their country.
    I would like to introduce to you one of our employees who 
truly embodies that spirit. Sergeant Joseph Wright is an 8-year 
veteran of the Secret Service Uniformed Division. He is a 
native of Fort Knox, Kentucky and completed his high school and 
college in West Virginia. He joined the United States Army as a 
reservist in 1987 and the Secret Service as a uniformed officer 
in 1995. Last year, Sergeant Wright temporarily left our agency 
to serve a year-long deployment with the U.S. Army Special 
Operations forces in Afghanistan. He was awarded the Bronze 
Star for his service, of which I know his three children are 
enormously proud.
    Special Agent Tate and Sergeant Wright are members of the 
United States Secret Service family. Every special agent, 
uniformed officer, technical specialist, forensic examiner, and 
administrative staff member contributes to our protective and 
investigative missions. Our employees represent a diversity of 
backgrounds, experiences, and expertise, yet they share many of 
the same ideas and aspirations.
    The character and spirit of our people is the undeniable 
strength of the Secret Service and defines both the history and 
the future of our agency.
    Mr. Chairman, the men and women of the United States Secret 
Service stand ready to continue to protect our leaders, our 
infrastructure, and the American people. Our people have the 
skills, the experience, the training and, most important, the 
character to rise to any occasion. They have dedicated their 
careers and their lives to making America safer.

                           prepared statement

    Thank you again for the opportunity to appear before you 
and this Subcommittee, Mr. Chairman. That concludes my 
statement, and I am prepared to answer any questions.
    Senator Cochran. Thank you very much, Mr. Director.
    [The statement follows:]

                 Prepared Statement of W. Ralph Basham

    Chairman Cochran, Senator Byrd, and distinguished members of this 
subcommittee, it is a privilege to be here today to testify on the 
fiscal year 2004 budget. Our agency looks forward to forming a strong 
and lasting relationship with this new subcommittee, and I deeply 
appreciate the opportunity to represent the 6,100 dedicated men and 
women of the Secret Service.
    Let me begin by expressing my gratitude to the Members and staff of 
the former Subcommittee on Treasury and General Government. For years, 
this subcommittee was responsible for the oversight of the Secret 
Service, and we were tremendously fortunate to have a long line of 
exceptional chairmen, Senators and staff--many of whom are here today--
that provided unwavering support to our agency, our mission and our 
personnel. The contribution of these individuals to the strength and 
versatility of the Secret Service today cannot be overstated, and we 
are grateful for their efforts and leadership.
    With me today, Mr. Chairman, are C. Danny Spriggs, Deputy Director; 
Barbara Riggs, Chief of Staff; Paul D. Irving, Assistant Director for 
Homeland Security; Stephen T. Colo, Assistant Director for 
Administration; Keith L. Prewitt, Assistant Director for Government and 
Public Affairs; Patrick C. Miller, Assistant Director for Human 
Resources and Training; Brian K. Nagel, Assistant Director for 
Inspection; George D. Rogers, Assistant Director for Investigations; 
Donald A. Flynn, Assistant Director for Protective Operations; Carl J. 
Truscott, Assistant Director for Protective Research; and John J. 
Kelleher, Chief Counsel.
    We come before you today during what is truly a momentous period 
for the Secret Service. For the first time in the 138 years of our 
existence, the Secret Service is no longer a part of the Department of 
the Treasury. On March 1, 2003, pursuant to the Homeland Security Act 
of 2002, our agency, and all of its functions and assets, were 
transferred to the new Department of Homeland Security. I would like to 
share with the subcommittee our vision for the future of the Secret 
Service, and in particular, the role our agency will seek to carry out 
in the new department, under the leadership of Secretary Ridge. This is 
a time of great transition and change for the Secret Service. But we 
recognize the magnitude of the challenge before us, and the men and 
women of the Secret Service stand ready to continue their extraordinary 
service to our country.
    The bedrock principle of the Secret Service's dual protective and 
investigative missions is our focus on prevention. This core philosophy 
is prevalent throughout our agency's history. The theme of prevention 
is ingrained in our culture and pierces every facet of the Secret 
Service. It is the undercurrent of our daily investigative and 
protective work, and is truly what makes the Secret Service unique 
among all law enforcement entities.
    Our focus on prevention began with our original mandate to suppress 
counterfeiting, when the Secret Service adopted the goal of preventing 
the production of counterfeit currency before it was circulated. One 
hundred thirty-eight years later, our field personnel continue to work 
closely with paper and ink manufacturers and suppliers to determine if 
there is any inordinate demand for the materials used to produce 
quality counterfeit currency.
    Prevention has also become an integral part of our efforts today to 
work with local law enforcement, other Federal agencies, and the 
private sector to protect our country's critical infrastructure and 
financial payment systems from intrusion and compromise.
    Our agents are trained to detect incidents before they occur 
through meticulous advance work and countersurveillance tactics. Threat 
assessments developed by our Intelligence Division identify existing 
dangers to the officials we are protecting. Our Technical Security 
Division analyzes and addresses any vulnerabilities in a physical 
security plan. Our Electronic Crime Task Forces provide training to 
hundreds of our local law enforcement and private sector partners, 
aiding them in efforts to shield critical systems and networks from 
cyber criminals and terrorists.
    We believe that our prevention-based core philosophy mirrors that 
of the new department. Like our agency, the DHS must be prepared to 
respond to incidents and infiltration. Our common goal is to anticipate 
and prepare, to take the necessary steps and precautions to minimize 
opportunities for our adversaries, and to prevent any loss of life or 
the destruction or disruption of the institutions we depend on.
    Following enactment of this historic reorganization legislation, 
the Secret Service began the process of identifying resources, assets 
and personnel that could enhance the efforts of the new department to 
achieve its homeland security objectives.
    Foremost is our century-old protective mission and mandate to 
protect the President, the Vice President, their families, former 
Presidents and other key government officials, including visiting world 
leaders and heads of state. The Secret Service is also responsible for 
coordinating security at National Special Security Events, such as the 
2002 Winter Olympics and the national political conventions. An equally 
important component of homeland security is economic security, 
including the protection of our currency, critical assets and financial 
payment systems. Since our inception 138 years ago, the goal of the 
Secret Service's investigative efforts has been to safeguard our 
financial infrastructure. Financial crimes have increasingly targeted 
both American industry and American consumers, as fraudulent credit and 
debit cards and counterfeit checks have become more prevalent in the 
marketplace. Even more troubling, stolen identities, false 
identification documents, and fraudulent credit cards have become the 
tools of the 21st century terrorist.
    Our currency and financial payment systems are primary targets for 
terrorists and other criminal enterprises, yet our critical 
infrastructure is equally vulnerable. A serious compromise of these 
assets, ranging from telecommunications networks to energy plants to 
water treatment facilities, could wreak havoc on our economy, law 
enforcement, military, health care providers, transportation systems, 
and emergency services. Accordingly, Secretary Ridge has made critical 
infrastructure protection one of the highest priorities of the 
Department of Homeland Security.
    The need to secure our critical infrastructure typifies an area 
where our agency's unique competencies and experience can enhance the 
efforts of the new department. Today, the Secret Service is already 
discussing with DHS officials how our expertise can be applied to 
safeguarding and ensuring the continuity and reliability of physical 
and technology-based assets throughout our economy and our communities.
    Reflective of the evolving nature of our mission, critical 
infrastructure protection has become a vital component of our 
protective methodology in recent years. Advances in technology and the 
world's reliance on interdependent network systems have demonstrated 
that we can no longer rely solely on human resources and physical 
barriers in designing a security plan; we must also address the role 
and inherent vulnerabilities of critical infrastructures upon which 
security plans are built. That is why the Secret Service has 
specialists, stationed in our field offices across the country, who 
have the experience and expertise to secure critical infrastructures 
that encompass information technology, telecommunications, emergency 
services, and other essential networks.
    Over time, these skilled personnel in our field offices have built 
partnerships with the municipalities, private companies, and local law 
enforcement agencies in the cities and regions we serve. On subjects 
ranging from physical security to threat assessment to forensic 
analysis, the Secret Service endeavors to share with our local law 
enforcement and private industry partners the prevention-based 
expertise we have developed during the course of our protective and 
investigative missions. This is clearly evident in the area of critical 
infrastructure protection and our efforts to aid local governments and 
private companies in assessing the vulnerabilities of their networks to 
prevent disruption and compromise. It is also reflected in our 
affiliation with Carnegie Mellon's Computer Emergency Response Team 
Coordination Center which focuses on insiders who attack critical 
information systems.
    Within the Department of Homeland Security, the Secret Service is 
currently assisting the Directorate of Information Analysis and 
Infrastructure Protection with its mandate to complete vulnerability 
assessments of identified assets and to develop a comprehensive plan 
for securing key resources and critical infrastructure, including power 
production and distribution systems, electronic and financial 
transmission systems, emergency communications systems, and physical 
and technical networks that support such systems. We continue to work 
closely with the Department and are discussing options for further 
expanding the role of the Secret Service in safeguarding these critical 
assets.
    Mr. Chairman, it has been more than three decades since I began my 
own Secret Service training. As you can imagine, much has changed for 
the Secret Service during that time. The technology revolution has 
forever transformed our economy, our culture, and the challenges we 
face in law enforcement. Our protective methodologies have become 
vastly more sophisticated, incorporating elements such as electronic 
surveillance, biometrics, airspace surveillance systems, and chemical/
biological/hazardous material detectors. And, of course, we have the 
ominous and immediate threat posed by global terrorists, who have 
demonstrated their zeal to destroy our most cherished symbols and 
institutions and to harm an infinite number of Americans.
    During my initial weeks as Director, I have spent considerable time 
introducing myself to our employees, both here in Washington and in our 
field offices. And as I have had the opportunity to reacquaint myself 
with the men and women of this agency and learn more about their 
backgrounds, their training, and their experience, I am reminded of the 
adage that the more things change, the more they stay the same.
    If there has been a common thread throughout the 138 years of the 
Secret Service's history, it is the truly unique caliber of individuals 
who are drawn to our agency. We have always managed to attract 
individuals with special backgrounds and extraordinary credentials.
    They join the Secret Service, and remain with our agency, because 
their position offers something that the private sector cannot--an 
opportunity to serve their country. An opportunity to protect their 
nation's highest elected leaders. An opportunity to protect their 
families, their friends, and their communities.
    For these men and women, it is more than an opportunity. It is a 
calling.
    The Secret Service is a family. Every special agent, uniformed 
officer, technical specialist, forensic examiner and administrative 
staff member contributes to our protective and investigative missions. 
Our employees represent a diversity of backgrounds, experiences and 
expertise, yet they share many ideals and aspirations. The character 
and spirit of our people is the undeniable strength of the Secret 
Service, and defines both the history and the future of our agency.
                 fiscal year 2004 appropriation request
    The Service's fiscal year 2004 funding request totals 
$1,123,951,000 and 6,066 full-time equivalents (FTE), and includes 
funding for two accounts: the Operating Expenses account, and the 
Capital Acquisitions account.
                           operating expenses
    The Secret Service's Operating Expenses appropriation request for 
fiscal year 2004 totals $1,120,372,000 and 6,066 FTE, a decrease of 45 
FTE from this fiscal year's staffing level. The funding increases 
proposed in this budget include: $54,056,000 needed to maintain current 
program performance levels, and cover base pay and benefits 
annualization costs; an additional $31,881,000 for the protective 
effort surrounding the 2004 presidential campaign, and $33,000,000 for 
processing of mail going to the White House. These increases are offset 
by a $9,000,000 reduction in the base budget reflective of our 
reorganization into the Department of Homeland Security, and 
anticipated consolidation savings from integration with Department-wide 
processes and operations.
                          capital acquisitions
    The Secret Service's fiscal year 2004 request for its Capital 
Acquisitions account totals $3,579,000, an increase of $83,000 over the 
level appropriated for this fiscal year. This increase is needed to 
maintain current program performance levels. There are no programmatic 
changes or initiatives proposed for this account.
                         investigative program
    Since 1865, the Secret Service has been safeguarding our currency 
and financial infrastructure, pre-dating our mission to protect the 
President by nearly four decades. Securing our financial and critical 
infrastructures and ensuring the strength and stability of our economy, 
are central tenets of homeland security. Our investigative mission is 
accomplished through our vast network of field offices, including 134 
throughout the United States and 20 additional offices overseas. Our 
field offices have developed strong, information-sharing partnerships 
with the multitude of local police organizations and private companies 
they work with on a daily basis. These field offices are leading 
criminal investigations and task force initiatives, but they are also 
resources for the communities they are serving.
                             computer crime
    For the last twenty years, the Secret Service has been a leader of 
Federal law enforcement efforts to investigate electronic crimes--an 
authority that was reaffirmed by Congress in the USA Patriot Act of 
2001. As with our protective mission, we continue to focus on 
preventative measures to shield the American people and our essential 
networks from terrorists, cyber criminals, and other attackers. We have 
committed ourselves as an agency to developing new tools to combat the 
growth of cyber terrorism, financial crime and computer fraud.
    The Secret Service's highly-regarded Electronic Crimes Special 
Agent Program (ECSAP) provides specialized training to select agents in 
all areas of electronic crimes, and qualifies these personnel as 
experts in the forensic examination and preservation of electronic 
evidence and in the protection of critical infrastructure. ECSAP agents 
are also trained to examine the variety of devices used in many 
criminal enterprises, including credit card generators, electronic 
organizers, scanners, computer hard drives, and devices manufactured or 
reconfigured to intercept or duplicate telecommunications services.
    The ECSAP program consists of 180 agents stationed today throughout 
the country. They have become invaluable specialists, both for our own 
investigations as well as for our local and Federal law enforcement 
partners. From June 1, 2001 through June 1, 2002, ECSAP agents 
completed over 1,400 forensic examinations on computer and 
telecommunications equipment. The nationwide demand among our local law 
enforcement and private sector partners for investigative or 
prevention-based assistance from our ECSAP agents is overwhelming, and 
we are striving to expand this program and training within our agency's 
existing resource levels.
    Another important component of our strategy to secure our financial 
and critical infrastructure is the development of the Secret Service's 
electronic crime task forces. Several years ago, the Secret Service 
recognized the need for law enforcement, private industry and academia 
to pool their resources and expertise as part of a collaborative effort 
to investigate and prevent electronic crimes and protect our nation's 
critical infrastructure. In New York alone, our task force is comprised 
of over 300 individual members, including 50 different Federal, state, 
and local law enforcement agencies, 250 private companies and 18 
universities. This task force has made 961 state and locally-prosecuted 
arrests and investigated an estimated $960 million in actual and 
potential losses due to fraud.
    The USA Patriot Act of 2001 authorized our agency to extend these 
task forces to cities and regions across the country. Last year, we 
launched the initial phase of this expansion, developing task forces in 
locations with significant or specialized interests in the financial, 
banking or critical information sectors, including Los Angeles, San 
Francisco, Las Vegas, Chicago, Charlotte, Miami, Boston, and 
Washington, D.C. We have received strong and enthusiastic support for 
this program from the scores of local law enforcement agencies we work 
with, as well as our private sector partners, who are all excited about 
the potential of this exciting new endeavor. These task forces 
represent a potential means of extending the preventative mission so 
imperative to homeland security to communities across the country.
    Based on our experience, the first line of defense in combating 
cyber crime is often an agent or officer who is trained in methods of 
preserving and securing evidence at electronic crime scenes. In 
recognition of the time sensitivities associated with computer crime, 
the importance of properly seizing computer-related evidence, and the 
increasing complexity of cyber-related crime, we continue to see the 
value in promoting partnerships and training. In the course of 
investigating electronic crime and developing strategies in search of 
the best formula, we have found prevention, collaboration, information 
sharing and timely response to be essential factors in the equation.
    Consequently, the Secret Service, in cooperation with the 
International Association of Chiefs of Police (IACP), recently 
introduced the Forward Edge training package. Forward Edge utilizes 
state-of-the-art computer training designed for all law enforcement and 
provides instruction with regard to securing electronic crime scenes 
and safely seizing computer-related evidence. Forward Edge includes an 
8-hour CD-ROM, utilizing a three-dimensional, interactive training 
format, to provide the officer or agent with different scenarios 
involving identity theft, financial crimes, network intrusion, credit 
card fraud, counterfeiting, data theft and other computer-related 
crimes. The CD-ROM also provides a field guide that contains practical 
information, such as an inventory of local computer crime statutes for 
every state jurisdiction, along with sample search warrants pertaining 
to the seizure and safe handling of computer-related evidence, drugs 
and weapons. Each scenario guides the trainee through crime scenes and 
enables him/her to interact with objects, individuals and situations 
they may encounter in real life. In fiscal year 2002, the Secret 
Service completed distribution of 20,000 copies of Forward Edge to 
local, state and Federal law enforcement agencies.
                             counterfeiting
    Despite the inclusion of enhanced security features in the most 
recent designs of our currency, counterfeiters continue to take 
advantage of the latest digital technology to produce reasonably 
deceptive counterfeit notes. Desktop printers, color copiers, scanners 
and graphics software provide relatively unskilled counterfeiters with 
the basic tools to quickly and easily produce counterfeit United States 
and foreign currency, securities, bonds, checks and other obligations.
    Counterfeit currency produced using digital technology, such as 
computer printers and copiers, accounted for an estimated 39 percent of 
counterfeit notes passed on the American public in fiscal year 2002. 
The balance of notes passed in the United States were manufactured 
using traditional offset printing methods. Despite the fact that 
digitally-produced counterfeit currency accounted for just over one-
third of domestic passing activity, this type of counterfeiting 
resulted in 86 percent of domestic counterfeit arrests and 95 percent 
of domestic counterfeit printing operations suppressed by the Secret 
Service.
    Digital counterfeiting presents a continuing challenge to law 
enforcement due to the widespread availability, ease of operation, and 
mobility of personal computers. The privacy and convenience of personal 
computer systems encourages experimentation, and permits the printing 
of counterfeit currency with considerably less risk and expense than 
traditional printing methods.
    The Secret Service has long believed that the best tool in the 
fight against the proliferation of counterfeit currency is an educated 
public. Just as we practice prevention in our protective mission, our 
proactive approach to investigations is hinged upon the education and 
training seminars provided to business owners, retail groups, the 
financial industry, and state and local law enforcement. These 
counterfeit currency detection seminars provide key sectors of our 
public with the information they need to effectively protect themselves 
and their businesses from becoming victims of counterfeiters. In 
addition to providing training and education, the Secret Service 
publishes and distributes public education brochures describing the 
security features used to authenticate genuine currency.
    From an international perspective, the Secret Service continues to 
send instructors to the International Law Enforcement Academies (ILEA), 
where we provide training to foreign police representatives in the 
detection of counterfeit U.S. currency and offer information on 
strategies useful in investigations of counterfeiting. Last year, the 
Secret Service offered currency identification training to law 
enforcement and banking officials from 47 countries.
    Our continued presence overseas and the training provided through 
the ILEAs is paramount in our ongoing efforts to suppress and seize the 
increasing amount of foreign-produced counterfeit U.S. currency being 
sold, shipped and trafficked throughout the world. The Secret Service 
estimates that nearly 50 percent of all counterfeit U.S. currency 
passed domestically originates overseas. As the continued suppression 
of counterfeit printing operations and seizures of counterfeit currency 
in Colombia indicate, that country remains the leading producer of 
counterfeit U.S. currency in the world. The Secret Service maintains a 
permanent presence in Colombia through our office in Bogota. While 
lacking law enforcement authority overseas, we work closely in an 
investigative liaison capacity with law enforcement, prosecutors and 
government officials throughout the region. These efforts include 
providing training and investigative support aimed at suppression, 
seizure, deterrence, education, and intelligence-gathering regarding 
the organized criminal networks involved in transnational 
counterfeiting. The culmination of these efforts is apparent in the 
achievements of ``Plan Colombia.''
    Since its inception in May of 2001, Plan Colombia has enjoyed 
tremendous success. As of last December, the combined efforts of our 
agents working in cooperation with the Colombian government have 
resulted in 109 arrests, 26 plant suppressions and over $92 million in 
counterfeit U.S. dollars seized in Colombia prior to distribution. 
Accordingly, in fiscal year 2002, there was a 22 percent decrease in 
Colombian-manufactured counterfeit U.S. dollars passed on the American 
public from the previous year.
    Increasingly, Colombian counterfeiters have targeted ``dollarized'' 
economies. In December of 2001, the Secret Service and Colombian 
authorities intercepted a package of over $40 million in counterfeit 
U.S. dollars intended for distribution in Ecuador, which had previously 
adopted the U.S. dollar as its own currency. In July of 2002, the 
Colombian authorities, in cooperation with our own personnel, seized 
the first counterfeit $1 coin (Sacagawea or ``Golden Dollar'') 
production operation in Bogota. As of January, 2003, three additional 
counterfeit $1 coin plants had been suppressed in Colombia. In each 
case, the seized coins were intended for shipment and distribution in 
Ecuador where, according to the Federal Reserve, there are 
approximately $10 million in genuine $1 coins in circulation.
    Counterfeiters are keenly aware that the public, banks, and law 
enforcement in these dollarized countries are less familiar with 
counterfeit U.S. currency, and the punishment for smuggling, 
possessing, and passing counterfeit U.S. currency is generally far less 
than in the United States. Each of these factors decrease risk, lower 
costs, and thereby increases profits for the counterfeiter. Therefore, 
a continued Secret Service presence in this region is vital to 
maintaining both economic stability in these countries and confidence 
in the U.S. dollar.
    In August of 2002, the Secret Service and the Colombian National 
Police jointly hosted the ``International Conference on Counterfeit 
U.S. Dollars--Production, Distribution, and Criminal Prosecution'' in 
Bogota. The conference was attended by senior law enforcement officials 
and prosecutors from sixteen North, Central and South American 
countries, as well as representatives from Spain, Turkey, EUROPOL, and 
the Southern European Cooperative Initiative. This historic conference 
served to improve coordination, build new relationships, and enhance 
existing efforts within the international law enforcement community. 
The conference was yet another example of our emphasis on building and 
maintaining partnerships with foreign law enforcement officials; in 
this case with a focus on the production, distribution and trafficking 
of counterfeit U.S. currency.
                             identity theft
    It remains an investigative priority of the Secret Service to 
promote a public education program and work with law enforcement at all 
levels in preventing identity theft. Public awareness constitutes our 
best defense against identity theft and provides guidance to consumers 
on how they can effectively safeguard their private information. A 
stolen identity can provide a criminal with the tools and information 
necessary to establish good credit and obtain things of value through 
illicit means. Personal information can be used to establish bank 
accounts, obtain credit or debit cards, or gain unauthorized access to 
financial accounts or other sources of capital. Not surprisingly, most 
financial crimes, including bank fraud and credit card fraud, involve 
identity theft.
    The Secret Service hosts identity theft forums involving 
businesses, civic groups, community organizations and local police 
departments, and shares our ``best practices'' for preventing such 
crime and protecting consumers. We participate in and organize such 
events in communities across the country.
    In cooperation with the Federal Trade Commission (FTC) and the 
IACP, the Secret Service is developing an identity crime video and CD-
ROM. This project is designed to provide information to local and state 
law enforcement personnel that will assist them in investigating 
identity crimes at the local level. The video and CD-ROM will serve as 
an information and resource guide, providing downloadable materials 
such as State and Federal identity theft statutes, the FTC's Victim 
Assistance Guide and Sample Affidavit, a ``Best Practices Guide to 
Identity Crime,'' the local contact numbers for the Secret Service, 
Postal Inspection Service, FBI and other agencies, and credit card 
fraud and related information from our partners in the financial 
services industry. This valuable training tool should be available in 
the coming weeks, and the Secret Service will be distributing a copy to 
every police department in the United States.
                         global financial crime
    The professional and effective relationship we have developed with 
the Colombian government, and the similar success stories we have 
enjoyed among our other 19 foreign field offices, can be attributed to 
our long-term commitment to work with the host nation in a cooperative 
environment. This environment fosters relationships built on trust and 
mutual respect, and results in the sharing of information and 
expertise. Where permanent stations are not available, the Secret 
Service relies on temporary assignments to satisfy the requests for 
participation in overseas financial crimes and counterfeit task forces. 
Within the last 2 years alone, the impact of our work through temporary 
assignments in Lagos, Nigeria, Bucharest, Romania, and Frankfurt, 
Germany has resulted in the opening of permanent offices.
    In addition to the protection of our currency, the Secret Service's 
efforts abroad are directed at protecting the integrity of our 
financial infrastructure through responsiveness and timely assistance 
at the point of attack. Within our agency's existing resource levels, 
the Secret Service will seek to establish additional foreign offices in 
areas where there is a demand for our expertise, continued requests for 
partnerships, and in regions that make sense strategically and offer a 
high probability of a favorable return on the investment.
                     security of identity documents
    The heightened threat of terrorism within the United States 
reinforces the need to secure, authenticate, and trace identification 
documents. There are no current uniform standards for identification 
documents in the United States, and many identity documents today, 
particularly state drivers' licenses, were not designed with security 
in mind. They often include features that are either available on the 
Internet or can be easily simulated by amateur counterfeiters using 
widely accessible technologies. With over 300 different, yet 
legitimate, formats for state driver licenses in use today, it has 
become nearly impossible for law enforcement to authenticate a 
questioned document.
    The counterfeiting of documents continues even after a change in 
design or security features. For this reason, the Secret Service's 
Forensic Services Division sponsors the Document Security Alliance 
(DSA), comprised of business leaders from the credentialing and 
identity document industry. The DSA's goal is to focus the efforts of 
this multi-disciplinary group on improving the security and procedures 
associated with identity documents. This organization has discussed and 
explored various processes, methods, techniques and technologies that 
could be used to improve the forensic tracing of fraudulent documents.
    Our agency has investigated cases where individuals were in 
possession of multiple genuine driver licenses, each bearing that 
individual's photographs with different biographical information. 
Subsequent information revealed that state motor vehicle 
administrators, upon receipt of counterfeit ``breeder'' documents, 
issued the licenses. The notion that criminals can generate counterfeit 
breeder documents, such as birth certificates and Social Security 
cards, and obtain with little difficulty more secure documents such as 
passports, throws a spotlight on one of our most troubling 
vulnerabilities.
    The Secret Service maintains a database consisting of over 90,000 
counterfeit identity and monetary documents. These counterfeit 
documents include credit cards, travelers checks, bank checks, Social 
Security cards, immigration documents, birth records, work identities 
and drivers licenses. The database was created to allow for link 
analysis or data mining of records that would not normally be discerned 
through traditional investigative or forensic approaches. The current 
system has produced numerous investigative leads and is considered the 
largest database of its kind in the world. The ability to collect, 
analyze and catalogue documents relating to terrorist investigations, 
and to provide a forensic link analysis in tracking criminals and 
terrorists throughout the world, is critical. The Secret Service has 
developed and implemented a Web-based application that provides law 
enforcement agencies across the country with access to all genuine 
identification documents used in the United States. Within seconds, law 
enforcement personnel can request an image file of a specific document 
along with critical information necessary to examine the document 
effectively.
    The images can be enlarged, printed or used for comparison with the 
document in question. The application can assist the officer with step-
by-step instructions to aide searches without the requirement for 
specific knowledge in the area of counterfeit documents. The program 
also provides additional instruction in detecting common defects in 
counterfeit documents as well as security features in genuine 
documents. A scanning feature will also be incorporated to allow a 
document to be submitted to our forensic lab. The anticipated 
turnaround time for a decision on the authenticity of the suspected 
document will be less than 60 minutes.
           national center for missing and exploited children
    The Secret Service derives enormous professional and personal 
fulfillment from our relationship with the National Center for Missing 
and Exploited Children (NCMEC), and continues to provide the valuable 
analytical, forensic and laboratory support, and other assistance that 
the Center has benefited from in recent years.
    Since the passage of the Violent Crime Control and Law Enforcement 
Act of 1994, the Secret Service has provided forensic and technical 
support to the NCMEC, including the use of the Automated Fingerprint 
Identification System; the Forensic Information System for Handwriting; 
ink analysis and comparison; traditional handwriting and fingerprint 
comparison; polygraph examinations and consultation; visual information 
services such as image enhancement, suspect drawings and video and 
audio enhancement; graphic and photographic support; and age 
regression/progression drawings. In fiscal year 2002, the Secret 
Service conducted 29 polygraph examinations in direct support of the 
NCMEC's mission. The examinations for these cases involved missing, 
abused and murdered children.
    We also actively support the Center's Operation Safe Kids 
initiative--a national, community-based awareness effort. We utilize a 
computer-enhanced application known as the Children's Identification 
System (KIDS), to acquire a photograph, fingerprints and biographical 
data of a child that are then printed and provided to his or her 
parents. This program has been offered at public events throughout the 
country, and to date, we have fingerprinted more than 35,000 children 
under the KIDS program.
    The Secret Service is also developing a Forensic Investigative 
Response and Support Team (FIRST). FIRST will be comprised of forensic 
experts able to respond on short notice to requests for assistance from 
state, local, or other Federal law enforcement agencies, providing 
time-sensitive forensic support to requesting agencies in cases 
involving missing or exploited children. In essence, when the NCMEC is 
notified by a local law enforcement department of an abduction, the 
Secret Service will be capable of launching a FIRST team to respond 
within the first 8 hours of abduction, providing computer, forensic and 
``real-time'' investigative support to a local police department that 
may lack the resources to respond in an effective manner during that 
critical period.
                           protective program
    Since 1901, the Secret Service has been responsible for protecting 
our nation's highest elected officials, visiting world leaders and 
other designated individuals. In addition, our current mission includes 
reducing threats posed by global terrorists and other adversaries, and 
providing the safest environment to those participating in events of 
national significance. We perform this mission by providing continuous 
protective operations that offer comprehensive security for our 
protectees and the facilities where they work and live, and, by 
coordinating, planning and implementing security plans at important 
events and functions designated by the President as National Special 
Security Events (NSSEs).
    In recent decades, our protective mission has expanded beyond the 
protection of the President, the Vice President and their immediate 
families. Today, we are also mandated to provide personal protection to 
the President-elect, the Vice President-elect and their immediate 
families; major Presidential and Vice Presidential candidates and their 
spouses; visiting foreign heads of state or governments; former 
Presidents, their spouses and children under the age of 16; and other 
government officials as designated by the President. We also provide 
security for the White House Complex, the Vice President's residence, 
and 519 foreign missions within the Washington, D.C., area.
    Mr. Chairman, we have witnessed a decade of well-planned and well-
executed attacks, both at home and abroad, against Americans and 
American symbolic targets. Oklahoma City; Khobar, Saudi Arabia; the 
U.S. embassies in Kenya and Tanzania; the U.S.S. Cole, and of course, 
the World Trade Center and the Pentagon in 2001. These tragic events 
remind us of our vulnerabilities and the changing threats our nation 
faces each and every day.
    The Secret Service continues, as a matter of practice, to assess 
these threats and evaluate the application of our protective 
methodologies. We have assumed new responsibilities in the form of 
additional protective details, and we continue to adjust the depth of 
coverage to enhance the Presidential, Vice-Presidential, and Former 
Presidential protective details. Today, the Secret Service provides 
full-time protective details for 27 individuals, a number that 
increased sharply following the September 11th attacks.
    Our protective mission was further expanded in 2000, when Congress 
authorized the Secret Service to plan, coordinate and implement 
security operations at designated events of national significance. This 
authority was a natural evolution for the Secret Service, as we have 
led security operations at large events involving the President dating 
back to our first protective mandate in 1901 and have developed an 
expertise at planning these events and coordinating security with our 
local, State and Federal law enforcement partners. Since 1999, the 
Secret Service has led security operations at 12 NSSEs, including the 
2000 Republican and Democratic National Conventions, the 2001 United 
Nations General Assembly, and, most recently, the 2002 Winter Olympics 
and Super Bowl XXXVI.
    The actual planning and coordination of these events requires an 
intensive, sustained effort, and the volume of both financial and human 
resources required to develop and execute a sound physical security 
plan for a NSSE can be immense. The 2002 Winter Olympics in Salt Lake 
City, for example, involved an unprecedented interagency collaboration 
between Federal, State, and local law enforcement, as well as the 
military, working with the Salt Lake Organizing Committee, the 
International Olympic Committee, the State of Utah, and other entities. 
Security for the competition and ceremonies was provided for a 4-week 
period, 24 hours a day, for an estimated 65,000 daily spectators, 
including 2,500 athletes in 15 protected venues. These venues stretched 
over an area covering 900 square miles, slightly smaller than the state 
of Rhode Island. It was the largest and most comprehensive coordinated 
security event in the history of American law enforcement.
    In addition, the annual meeting of the United Nations General 
Assembly (UNGA) is held each year in New York City. On average, 50 to 
80 heads of state/government attend this event. It is important to note 
that each year, the UNGA is a manpower and resource intensive effort 
for the Secret Service.
    We consider the protective mission as an evolutionary process, 
essential to the security of our homeland. We apply that thought 
process when planning and executing security, and we analyze the actual 
and potential threats during increasingly complex protective 
operations. Adapting to changing situations in a changing environment, 
sound planning on all planes, and employing technology or other 
applications to our advantage is fundamental to our strategy.
    There is also a vibrant interrelationship between our protective 
and investigative responsibilities. Since 1865, the Secret Service has 
developed a unique capacity to build strong and trusted partnerships 
with local, county and state law enforcement in furtherance of our 
investigative mission. It is important to note that these are 
partnerships in their truest form. They are built over time, and 
involve information sharing, open communication, and, perhaps most 
critical, mutual trust.
    Building an atmosphere of trust and cooperation with local police 
is not only central to our criminal investigations and prevention-
oriented partnerships, it is also the keystone to fulfilling our 
protective mission. For travel outside of Washington, D.C., the Secret 
Service executes our security plan with the cooperation and resources 
of the local police in the area, as coordinated by our field office.
    The cooperative atmosphere that has already been established 
between our field office and local law enforcement with regard to our 
investigative duties breeds successful interagency collaboration during 
Presidential and other protectee visits. Simply put, there is already a 
precedence of trust between the parties that need to cooperate and 
coordinate their efforts, and the Secret Service builds upon that 
relationship to prepare for and provide a seamless and secure 
environment for our protectee.
    Not only is there a connection between our investigative 
responsibilities and the protection of the President, but the strength 
of our protective capabilities is dependent on our investigative 
mission. Every agent currently assigned to a protective detail began 
their career in the Secret Service as a criminal investigator in a 
field office, where they spent considerable time developing their 
skills and expertise by investigating counterfeit cases, financial 
crimes, protective intelligence cases or protecting critical 
infrastructure.
    A Secret Service agent is among the most skilled law enforcement 
operatives in the world, largely due to their investigative training 
and experience. This extended field training provides an opportunity to 
apply analytical skills and various investigative techniques while 
testing their maturity and judgment. These are the building blocks 
necessary for the transition of our agents into the next phase of their 
careers--protecting our nation's highest elected leaders. Because of 
this investigative experience, our protective agents are multi-
dimensional, relying on an array of skills and instincts to protect our 
nation's leaders. We draw upon those individuals who have years of 
experience in the field, who not only have acquired the requisite 
skills, but have been tried and tested under difficult circumstances, 
and have proven decision-making and other abilities that are crucial to 
protective missions. This investigative experience prepares our agents 
for the mental and physical challenges faced while planning and 
coordinating security, while always being ready to recognize and react 
instantaneously to a threat.
    As you can see, Mr. Chairman, our protective and investigative 
responsibilities are thoroughly intertwined and interdependent. They 
are the heart and soul of the Secret Service, and complement each other 
in a manner that is truly unique among law enforcement today.
                     office of protective research
                         intelligence division
    The protective research and intelligence programs continue to serve 
a critical role in support of the dual missions of the Secret Service. 
Our Intelligence Division coordinates all Secret Service investigations 
related to direct threats against our protectees and develops threat 
assessments related to protected individuals, facilities and venues. 
This process involves the identification, assessment, and management of 
all information and incidents directed toward our protective efforts, 
both at home and abroad. The division evaluates risk potential 
associated with specific and generalized threats; prepares analyses of 
protectee-specific threats; maintains liaison with other law 
enforcement and intelligence agencies; plans and reviews the case 
management for high risk subjects; and, through our National Threat 
Assessment Center, collaborates in the design and implementation of 
program evaluation studies and other risk assessment research designed 
to improve our understanding of violence directed toward public 
officials.
    During fiscal year 2002 and fiscal year 2003, the Intelligence 
Division supported the development and implementation of the Department 
of Homeland Security, including the Information Analysis and 
Infrastructure Protection Directorate and related Working Groups, Sub-
Working Groups, and Planning Committees. As the Secret Service 
continues its transition to the DHS, the Intelligence Division will 
take on increased responsibilities, including the staffing of the DHS's 
multi-agency Homeland Security Center (HSC). The HSC provides a 24-hour 
``watch center'' and serves as the Department's single point of 
integration for information related to homeland security. The HSC is 
responsible for maintaining domestic situational awareness; detecting, 
preventing, and deterring incidents; and managing the response to all 
critical incidents, natural disasters and threats.
    In addition, the Intelligence Division will be uniquely involved 
with the Administration's new intelligence analysis initiative, the 
Terrorist Threat Integration Center (TTIC). The TTIC will merge and 
analyze terrorist-related information collected domestically and abroad 
in order to form the most comprehensive threat picture possible.
    The Secret Service's active role in these new and enhanced 
intelligence initiatives will play an important role in the overall 
mission of the DHS. The Secret Service is committed to full and active 
participation in the protection of our homeland; and further, it is 
imperative that our agency always has access to information that is 
vital to our own protective and investigative missions.
    The Secret Service will provide full-time staff for the 24/7 
operation of the HSC and the TTIC from within our Intelligence 
Division. Our personnel assigned to the HSC and the TTIC will be 
responsible for receiving and disseminating incoming intelligence 
information, as well as providing DHS with a point-of-contact for 
Secret Service response capabilities.
    The Intelligence Division coordinates Secret Service participation 
in the Department of Justice-led Joint Terrorism Task Forces (JTTFs). 
Currently, 58 Secret Service agents participate in JTTF programs in 51 
offices. In addition to collaborating in a combined and coordinated 
effort, the Secret Service provides and derives the benefits of sharing 
information on investigative matters that may be related to our 
protective mission.
    In addition to directing and performing such operational 
activities, the Intelligence Division continues to provide leadership 
for the Protective Detail Intelligence Network (PDIN), a consortium of 
Washington, D.C., area law enforcement, security, and public safety 
agencies with protective and security-related functions. Initiated in 
1999 by the Secret Service, the PDIN has emerged as an important forum 
for sharing intelligence information that affects security planning 
issues across agencies in the metropolitan area. PDIN meetings include 
briefings and training concerning significant and designated major 
security events coordinated by the Secret Service, and they facilitate 
cooperative partnerships among agencies who share protective and 
security responsibilities. Through the PDIN, the Secret Service has 
offered assistance in the preparation of security assessments for 
incoming Cabinet members and senior Administration officials.
                   national threat assessment center
    As part of the Secret Service's protective intelligence mission, 
our National Threat Assessment Center (NTAC) continues to gain national 
attention through its training, outreach, consultation, and research 
efforts in the specialized field of targeted violence. Its principal 
goal encompasses the spectrum of threat assessment and targeted 
violence as it relates to our protective mission. As a natural 
extension of our protective intelligence methodology, we continue to 
share our knowledge and depth of experiences with the DHS, 
demonstrating the utility of Secret Service ``Best Practices'' for 
identifying, assessing, and reducing threats to homeland security.
    NTAC also continues to support the development of the new 
Department. NTAC has assisted the Information Analysis & Infrastructure 
Protection Directorate (IA&IP) in the development of a Competitive 
Analysis & Evaluation Office (CAEO), providing detailed personnel to 
ensure that the DHS has an operationally-sound quality assurance 
function. The purpose of the CAEO is to reduce the risk and 
consequences of domestic terrorist attacks by ensuring that the IA&IP 
Directorate's initiatives are tested and are of the highest quality and 
value. NTAC is also participating in ``Red Teaming'' exercises with the 
Department. Red Teaming is a risk assessment technique that tests an 
organization's methodologies and analyzes the vulnerabilities from the 
perspective of the threat.
    Following the attack at Columbine High School in 1999, NTAC entered 
into a partnership with the Department of Education and the National 
Institute of Justice to apply the methodology used in our traditional 
analysis of targeted violence, in the form of a study designed to 
examine if similar behavior was involved in school shootings. This 
study, known as the Safe School Initiative, reviewed 37 school 
shootings occurring in the United States in the preceding 25 years. The 
Safe School Initiative was completed in 2000, focusing on 
operationally-relevant information--information that law enforcement 
professionals, school personnel, and others could use to try to prevent 
future school shootings. The Initiative examined the pre-attack 
behavior and communications of school shooters, to identify information 
that might be discernible in advance of an attack, and could allow for 
intervention.
    NTAC staff has been able to communicate what we have learned in 
assessing threats on public officials and our findings in the Safe 
School Initiative with those with an interest in preventing school and 
workplace violence. In 2002, NTAC, in collaboration with the Department 
of Education, completed and published the final product of the Safe 
School Initiative: the study's Final Report, and a Guide to Threat 
Assessments in Schools. These materials suggest methods for school 
administrators, educators, law enforcement personnel, and mental health 
professionals to conduct threat assessments in their schools.
    The Secret Service and Department of Education have thus far 
conducted 46 Safe School Initiative presentations and 12 day-long 
training seminars around the country, providing thousands of school 
officials, law enforcement professionals and others information on how 
to respond to and manage threatening situations in our schools. NTAC 
was also involved in other seminars and forums in fiscal year 2002, 
including 28 Exceptional Case Study Project/Threat Assessment Training 
Presentations, five Field Protective Intelligence Briefings, and four 
Threat Assessment Seminars.
    Also noteworthy is the Insider Threat Study, a collaboration 
between the Secret Service and Carnegie Mellon University's Computer 
Emergency Response Team Coordination Center (CERT/CC) focusing on 
insiders who attack critical information systems. This partnership 
seeks to strengthen critical infrastructure protection efforts and 
provide private industry and law enforcement with information to help 
prevent insider attacks. The Insider Threat Study uses operational 
methodology of previous NTAC studies to examine network compromise 
incidents committed by insiders, such as current or former employees, 
and seeks to identify discernible behaviors and communications that 
could assist in the prevention of future compromises.
    NTAC has also proposed the creation of an information-sharing 
system for agencies with protective responsibilities. This system, 
dubbed the Targeted Violence Information-Sharing System (TAVISS), would 
contain a repository of names of subjects with a known or suspected 
adverse direction of interest towards local, state, and Federal public 
officials. TAVISS would be directly accessed from remote sites by 
multiple law enforcement agencies with protective responsibilities for 
such public officials.
                      technical security division
    The Technical Security Division (TSD) is responsible for creating a 
safe and secure environment for Secret Service protectees and the 
facilities we protect. This includes the responsibility of managing all 
chemical/biological/hazardous materials countermeasures programs of the 
Secret Service that safeguard our protectees and facilities, and the 
mitigation of any threats of terrorism.
    As part of its ongoing support mission, TSD identifies and 
implements ways to improve its detection capabilities in and around the 
White House Complex, Naval Observatory and other protected locations. 
Outside of Washington, D.C., chemical/biological/hazardous material 
support is integral to any protective security plan during motorcade 
movements or at fixed locations, including all designated National 
Special Security Events.
    TSD has two significant programs of interest that demonstrate the 
Secret Service's ability to mitigate specific threats: the Radar 
Airborne Intrusion Detection System (RAIDS), and the Hazardous Agent 
Mitigation Medical Emergency Response Team (HAMMER).
    The RAIDS is a classified network of air intrusion detection 
equipment that allows the Secret Service to continuously monitor the 
airspace in the Washington, D.C. area. Segments of the system have 
recently been upgraded, and, at the recommendation of classified 
studies, additional subsystems will be incorporated to address existing 
and emerging threats.
    The HAMMER team was developed to provide rapid intervention to 
Secret Service protective details in the event of a chemical, 
biological or radiological incident. The HAMMER team consists of TSD 
personnel trained in hazardous materials identification, mitigation, 
decontamination, and basic life support. In the event that a hazardous 
environment incapacitates the protectee's primary medical support, the 
team can provide basic life support and decontamination prior to 
patient transport. The team will provide field tests and take samples 
for transport to remote laboratories for testing and identification. 
TSD has agreements in place for laboratory analysis of suspect 
materials. The HAMMER team will automatically deploy when a chemical, 
biological or hazardous materials release occurs and Secret Service 
protectees, or one of the facilities that we protect, are affected.
               information resources management division
    The Information Resources Management Division (IRMD) continues to 
provide an information and communications infrastructure in support of 
the protective and investigative missions of the Secret Service. The 
Secret Service's move to the Department of Homeland Security has 
significantly increased IRMD's role and responsibilities. Management 
and staff from this division are engaged in many of the DHS Working 
Groups and Sub-Working Groups, including the CIO Investment Review 
Group, Technical Reference Model Working Group, Security Sub-Group, 
Network Sub-Group, Web Management Sub-Group, Directory Services E-Mail 
Sub-Group, Collaboration Sub-Group, Data Management Sub-Group, Records 
Management Sub-Group, Geospatial Sub-Group, Wireless Sub-Group, E-
Learning Sub-Group, First Responders and Emergency Preparedness, CFO 
Council, and a Classified IT Technical Team.
    In fiscal year 2002, IRMD continued to upgrade and improve system-
wide efficiencies in radio, telephone and wireless communications. The 
priority initiatives include the conversion of Legacy mainframe 
applications to a Web-based system and upgrading headquarters and field 
office voice/data capacity. IRMD also completed its test of the 
Treasury Smart Card Proof of Concept and is in the process of 
integrating this new technology into the workplace. There are two 
significant benefits driving the move to smart card use and acceptance: 
the ability to securely store Public Key Infrastructure certificates 
(part of an elaborate process to authenticate ones' identity over 
electronic interfaces such as the Internet), and the ability to use 
digital signatures to authorize government activities. This program has 
also been presented to the DHS Chief Information Officer for potential 
use at the new Department.
                  emergency preparedness program (epp)
    The EPP is responsible for coordinating the emergency preparedness 
programs of the Secret Service and concentrates its efforts on 
operations security, the continuity of government and critical 
infrastructure protection. The EPP staff coordinates with the White 
House Military Office, the Emergency Preparedness and Response 
directorate and other agencies regarding matters involving the 
continuity of government and emergency preparedness. Internally, EPP 
staff coordinates emergency preparedness exercises and provides 
frequent educational material and training to staff in all areas of 
emergency preparedness.
    In fiscal year 2002, EPP assisted the DHS with the development of 
the Emergency Preparedness and Response Directorate, and participated 
in efforts to create an emergency preparedness database to be shared 
among all agencies in the DHS. EPP has also been involved in the 
Homeland Council on Domestic Threat Response and Incident Management, 
and the Weapons of Mass Destruction Management Policy Coordination 
Working Group.
    EPP actively participates in the National Capitol Region Planning 
Committee Working Group that coordinates emergency preparedness 
efforts, particularly Federal Emergency Decision and Notification 
Protocol in the District of Columbia region.
                      human resources and training
           workforce retention/workload balancing initiative
    The House and Senate Appropriations Committees should be commended 
for recognizing and supporting the priority of the Secret Service to 
confront the declining quality of life of our workforce caused by 
excessive overtime, out-of-district travel and other such factors. In 
fiscal year 2000, the Secret Service began our Workforce Retention/
Workload Balancing Initiative with the goal of hiring 682 additional 
agents during a 3-year period. I am pleased to report that the Secret 
Service exceeded this goal by more than 60 percent, hiring a cumulative 
total of 1,098 special agents. In addition, the Secret Service enhanced 
the quality of life of all of our employees by hiring 545 Uniformed 
Division officers and 453 support personnel during the same period, far 
exceeding the original target under the Workforce Retention/Workload 
Balancing Initiative.
    Despite our impressive hiring achievement, we have experienced a 
higher than normal level of attrition, attributable largely to ongoing 
retirements and transfers. This attrition requires us to continue our 
aggressive hiring plan and to reinforce our ranks, whose unique skill 
set is in high demand both in the government and private sectors. The 
safety, morale and job satisfaction of our entire workforce are of 
paramount importance.
    For fiscal year 2003, in order to meet our strategic goals of 
protection, investigation, and providing a responsive support 
infrastructure, the Secret Service plans to hire 893 special agents, 
Uniformed Division officers, and support personnel.
                               diversity
    It is the policy of the Secret Service to attract, develop, retain 
and maximize the potential of a diverse workforce in a changing and 
competitive environment. We are committed to this policy. As a means of 
fully achieving and emphasizing an organizational culture that 
recognizes the value added by a diverse workforce, the Secret Service 
has organized its Diversity Management Program under the direction of a 
Deputy Assistant Director for Recruitment, Employment and Diversity 
Programs (REDP). Through a coordinated process, the REDP develops and 
implements recruitment policies with our agency's Recruitment and 
Hiring Coordination Center, the Diversity Management Program, and the 
Chief of the Personnel Division.
    In support of the Secret Service's initiative to recruit, develop, 
and retain a diverse workforce, the Diversity Management Program hosts 
quarterly, interactive training conferences designed to address 
diversity issues throughout the agency. In fiscal year 2000, the Secret 
Service contracted with the Ivy Planning Group, a premier management 
consulting firm, whose skilled trainers have augmented our diversity 
conferences over the past two years. The Ivy Planning Group assists 
major organizations within the Federal Government and private sector in 
becoming more customer-driven by focusing on strategic and tactical 
planning, marketing and cultural diversity.
    Approximately 150 of our employees participated in these training 
sessions last year. The Diversity Management Program also offered a 
``Conference on Supervisory Diversity Issues''. In support of President 
Bush's Management Agenda regarding the Strategic Management of Human 
Capital, this class was attended by ``middle'' management and focused 
on issues within the Secret Service.
    The Secret Service supports and encourages employee participation 
in conferences dedicated to minority interests. In addition to our 
internal diversity training, the Diversity Management Program sponsors 
employees who participate in the following national training 
conferences:
  --Women in Federal Law Enforcement
  --National Organization of Black Law Enforcement Executives
  --National Native American Law Enforcement Association
  --Hispanic American Police Command Officers Association
  --National Asian Peace Officers Association
  --Blacks in Government Training Conference
    In fiscal year 2002, approximately 120 employees attended the 
following conferences: the Women in Federal Law Enforcement Conference; 
the Hispanic American Police Command Officers Association Training 
Conference; the National Organization of Black Law Enforcement 
Executives Training Conference; the Blacks in Government Training 
Conference; and the National Native American Law Enforcement 
Association Training Conference.
    Last year, the Secret Service sponsored 14 recruiting seminars 
attended by 4,446 potential applicants for Uniformed Division and 
Special Agent positions. The Recruiting and Hiring Coordinating Center 
(RHCC) continued its liaison efforts with the Historically Black 
Colleges and Universities, the Hispanic Servicing Institutions and 
Women's Colleges by attending career fairs at many of these 
institutions. Additionally, the RHCC mailed out Special Agent and 
Uniformed Division officer brochures to each of these institutions 
highlighting career opportunities with the Secret Service.
    The RHCC also ran recruiting ``banner'' ads on Internet websites 
targeted towards specific ethnic minority groups, including Hispanic 
Online, BlackVoice.com, GoldSea.com, and WIFLE, and sponsored 
recruiting advertisements in several magazines targeted towards various 
minority groups.
    In the past year, the Service has developed a core training course 
curriculum for our Equal Opportunity Program to lay a foundation for 
highly-skilled personnel to work in special emphasis programs and 
provide EEO counseling services. Additionally, we have established 
collateral duty special emphasis program manager positions for 
Hispanic, African-American, Asian-Pacific Islander, Native American, 
Persons with Disabilities/Disabled Veterans and Federal Women's Program 
constituency groups.
                    james j. rowley training center
    The James J. Rowley Training Center (RTC) continues to evolve into 
a world-class education center with experienced staff, enhanced 
curriculum, and the development of facilities. Emphasis on overall 
quality and efficient operations has resulted in the enhanced 
integration of course content and streamlined scheduling of basic, in-
service, and external training. With the transition of the Secret 
Service into the Department of Homeland Security, the RTC envisions an 
opportunity for circular growth as a ``law enforcement university,'' 
offering training in physical security, site security, event security, 
counter terrorism studies, emergency preparedness, threat assessment, 
and protection of critical financial infrastructure.
    The Secret Service recognizes that the mission of our agency is 
extremely specific in nature and our advanced training cannot be 
provided anywhere else in the Federal law enforcement community. 
Physical security, site security, threat assessment and other 
components of our training are culturally unique to the Secret Service, 
and the curriculum and facilities we have developed at the RTC have 
significantly enhanced our ability to fulfill our protective and 
investigative missions.
    During fiscal year 2002, the RTC trained 350 special agents (15 
classes), 216 Uniformed Division officers (9 classes), and 26 special 
officers (2 classes). RTC also completed 23,874 in-service instances 
and re-qualification visits for the workforce. Review of course content 
remains a priority. The RTC has completed an evaluation and revision of 
the Uniformed Division's basic training curriculum review, eliminating 
duplication of effort at both the RTC and the Federal Law Enforcement 
Training Center (FLETC).
    The ``Beltsville Field Office'' at the RTC offers the special agent 
trainee a ``virtual'' performance-based program, exposing agents to the 
integration of elements relative to the missions of the Secret Service. 
This has included team-oriented, practical exercises in financial 
investigations, arrest procedures, protective intelligence, and site 
security.
    Strides in proactive protection methodology have produced and 
introduced new curriculum to address advanced counter surveillance 
measures and suicide bomber prevention. The canine program continues to 
explore the potential utilization of dogs beyond bomb detection to 
performing patrols and detecting personal explosive devices on humans.
    To more effectively meet the needs of the workforce, RTC continues 
to adopt technology-based training. The Center now houses two video-
conferencing studios that have been utilized to broadcast legal 
training, CPR and first aid kit review, computer applications, and 
program and methodology training to Secret Service students at FLETC 
and field offices across the country.
    Other distance learning techniques are being researched, procured, 
and implemented, such as custom courseware via the Intranet and Web-
based forums, electronic classrooms, and CD-ROMs. Such tools offer 
training opportunities to all employees anytime and anywhere, without 
the cost of time and travel.
    In the pursuit of academic excellence, the RTC established and 
continued an invaluable partnership with the Johns Hopkins University 
as part of an ongoing effort to assure that we develop and maintain the 
highest quality in our management ranks.
                               conclusion
    Mr. Chairman, the Secret Service is entering a new era. We are 
proud to be part of the Department of Homeland Security, and are eager 
to contribute in any way we can to the mission of protecting our 
citizens, our economy and our institutions. While still in its infancy, 
it is clear that the new Department will be built on the twin pillars 
of prevention and protection. These are the very words found throughout 
our own strategic plan. They have defined the mission and culture of 
the United States Secret Service for 138 years. It is the hope of each 
and every employee of the Secret Service that our agency can strengthen 
the new Department.
    On behalf of the men and women of the Secret Service, we stand 
ready to continue protecting our leaders, our infrastructure and the 
American people. We know how daunting a mission this is, but I assure 
this subcommittee that the Secret Service can and will meet this 
challenge. Our people have the skills, the experience, the training, 
and most importantly, the character, to rise to any occasion. They have 
dedicated their careers and their lives to making a safer America.
    Mr. Chairman, thank you again for the opportunity to appear before 
the subcommittee. This concludes my prepared statement. I will be 
pleased to answer any questions you or the other members of the 
subcommittee may have.

    Senator Cochran. Before proceeding to hear from the 
Commandant, I welcome the distinguished Senator from 
Washington, Senator Murray. If you have an opening statement at 
this point, we would be happy to hear from you.
    Senator Murray. Mr. Chairman, I appreciate that, and I know 
I speak for many of my colleagues when I say that we never 
cease to be impressed by the accomplishments of our men and 
women in the Coast Guard, and I am really proud of the role 
that the Coast Guard played in Operation Iraqi Freedom and 
really want to highlight the work of the Port Security Unit 
from Tacoma, Washington which was instrumental in restoring 
order when the coalition forces captured the fort of Umm Qasr.
    While the Coast Guard may be viewed by some as the fifth 
military service, the Coast Guard is actually the first 
military service when it comes to defending our homeland. Over 
and above its mission to keep our ports and waterways secure, 
the Coast Guard is charged with missions that no other military 
service or Federal agency could even begin to contemplate. 
Their missions include stopping illegal immigrants, protecting 
the marine environment, ensuring the safety of boaters and 
shipping operations, and stopping the flow of illegal drugs.
    As Admiral Collins knows, I and many of my colleagues in 
the House and Senate were concerned about the President's plan 
to merge the Coast Guard into the new Department of Homeland 
Security. Our biggest concern was that the Coast Guard's non-
homeland security missions would continue to be deemphasized. 
We feared that the potential of catastrophic oil spills and 
illegal foreign fishing boats regularly encroaching on our U.S. 
fishing grounds would increase, and when the Department was 
established, the administration told us not to worry, that our 
concerns were ill-founded.
    Even so, just to be sure, Congress included language in the 
Homeland Security Act that states explicitly that the 
capabilities of the Coast Guard to perform its missions shall 
be maintained intact and without significant reduction once the 
Coast Guard is transferred to the new Department.
    The language also prohibited the Secretary of Homeland 
Security from substantially or significantly reducing the 
missions of the Coast Guard.
    A great deal of credit goes to our Committee Chairman, 
Senator Stevens, for insisting on the inclusion of that 
language.
    The Senate Appropriations Committee report that accompanied 
the 2003 Appropriations Act directed the Commandant of the 
Coast Guard to ensure that with the historic funding increase 
it received in that bill, the Coast Guard returns its level of 
effort in its non-homeland security missions to the level that 
existed prior to September 11, 2001.
    Today, when we look at the actual record as to where the 
Coast Guard has been focusing its attention, it is clear that 
we were right to worry about a continuing decline in drug 
interdiction, fisheries enforcement, marine safety, and marine 
environmental protection.
    Two weeks ago, the subcommittee received the first of the 
quarterly reports that I mandated as part of that 2003 Act. 
That reports required the Coast Guard to display its mission 
hours for each of the quarters since September 11, 2001 as well 
as the eight quarters that preceded September 11.
    Mr. Chairman, I carefully reviewed the figures that were 
transmitted in that report, and the findings are very 
disturbing. In the area of drug interdiction, the Coast Guard's 
efforts over the last year stand 42 percent below the number of 
hours committed to drug interdiction prior to September 11, 
2002. In my own 13th District in the Pacific Northwest, drug 
interdiction efforts were reduced by 25 percent over that 
period.
    In the area of marine environmental protection, the Coast 
Guard's mission hours have declined 64 percent below the pre-
September 11th levels, and in the Pacific Northwest, that 
reduction has equaled 82 percent.
    In the area of marine safety, the Coast Guard's level of 
effort over the last year stands 43 percent below the time 
prior to September 11.
    Of particular concern is the Coast Guard's greatly 
diminished efforts in the area of fisheries enforcement. 
Nationwide, the Coast Guard's level of effort has decreased a 
third.
    Let us remember that if Coast Guard vessels are enforcing 
fishing laws in the Bering Sea, they are also able to conduct 
quicker responses in search and rescue cases.
    When looking at this data, it is important to remember that 
the actual number of hours that the Coast Guard spends 
operating its cutters, boats, and aircraft has actually 
increased 20 percent since September 11. So all of these 
dramatic reductions have taken place at the same time that 
overall Coast Guard mission hours have increased.
    For example, prior to September 11, the Coast Guard spent 
12\1/2\ of every 100 hours on fisheries enforcement. That 
number is now down to less than 7 hours. That is a reduction of 
45 percent.
    In the area of drug interdiction, prior to September 11, 
the Coast Guard spent 15\1/2\ of every 100 hours keeping drugs 
off our Nation's streets. That number is down now to less than 
7.4 hours. That is a reduction of 52 percent.
    Many of these same observations were made recently by the 
GAO in testimony to the House of Representatives, but the GAO 
used less recent data than I just used. The lesson from all of 
this data for my colleagues is that when it comes to the Coast 
Guard, there is no free lunch. Despite a work ethic that is 
second to none both in the military and the entire Federal 
Government, and despite the tireless commitment of the 
thousands of hard-working men and women in the Coast Guard, 
they simply cannot be everywhere at all times.
    With that fact as our backdrop, I hope the Subcommittee 
will use this morning's hearing to really get to the truth as 
to what the President's budget for 2004 will or will not pay 
for when it comes to the Coast Guard and all of its critically 
important missions.
    In the formal testimony that the commandant will present to 
us this morning, he will tell us that one of the three primary 
objectives of his 2004 budget is ``to sustain non-homeland 
security missions near pre-September 11 levels.''
    The GAO, conversely, reviewed the President's 2004 budget 
and testified that the Coast Guard's 2004 budget request, and I 
quote, ``does not contain initiatives or proposals that would 
substantially alter the current distribution of levels of 
effort among mission areas.''
    Mr. Chairman, last year, this Subcommittee was successful 
in providing the Coast Guard with an historic funding increase, 
and that increase was well-deserved and long overdue. This 
year, the President is proposing yet another historic funding 
increase for the Coast Guard, and I commend him for that. But I 
think it is critical that this Subcommittee insist that if this 
agency's budget continues to grow by 20 percent in just 2 
years, we have a right to expect that this agency will return 
to its work of interdicting drugs, protecting our fishing 
grounds and our fishermen, and protecting our environment.
    Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator.
    Admiral Collins, I am pleased to welcome you to this 
hearing. We appreciate very much your distinguished service as 
Commandant of the United States Coast Guard.
    The President's request for fiscal year 2004 proposes $6.77 
billion for the Coast Guard, approximately $700 million more 
than was enacted in fiscal year 2003, excluding the recently 
enacted supplemental.
    The Coast Guard has significant homeland security and non-
homeland security responsibilities including the Integrated 
Deepwater System, maritime domain awareness, fisheries 
enforcement, and search and rescue.
    We have your written statement, and it will be made a part 
of the record. We encourage you to proceed to summarize it if 
you will and make any additional comments you think would be 
helpful to the Committee as we review this budget request.
    Mr. Commandant, you may proceed.

                 STATEMENT OF ADMIRAL THOMAS H. COLLINS

    Admiral Collins. Good morning, Mr. Chairman, Senator 
Murray. It is really an honor and a pleasure to be with you in 
our first session with this subcommittee.
    The Senate has been tremendously supportive of the Coast 
Guard over the years--``enduring support'' I think is the way 
to describe it. It has clearly enabled us to meet many of the 
challenges that we have faced over the years to provide for the 
maritime safety and security of the citizens of this country.
    That need has never been so evident over the past year-and-
a-half, and the scope and scale of the changes of those 18 
months have been absolutely significant and dramatic.
    Here at home, the Coast Guard units have been patrolling 
vigilantly, working side-by-side with our partners in the 
Department of Homeland Security and other Federal, State, and 
local agencies to ensure the security of our Nation and the 
safety of our citizens.
    Coast Guard forces have also been valiantly engaged in 
support of component commanders abroad, in the Arabian Gulf and 
in the Mediterranean. We employed two high-endurance cutters, 
eight patrol boats, one buoy-tender, four port security units, 
and two maintenance support units, many of which, the good news 
is, will be returning home soon now that the hostilities are 
drawing to a close.
    In the midst of the increased operational tempo that we 
have experienced in the recent months, I am very pleased to 
report that we are making excellent progress in becoming an 
integral member of the new Department of Homeland Security 
effective March 1. I think the new Department is the right 
place, at the right time, for the Coast Guard to serve America.

                     PRIORITIES OF THE COAST GUARD

    Throughout the process of this transition, we have remained 
focused on three main priorities. Our first priority is to 
aggressively build our homeland security capabilities. Our 
maritime operations must reflect the changes brought by the 
increase of global terrorism by increasing the level of effort 
against it. Over 44 percent of our operating expense budget in 
this current budget under consideration is devoted to the 
homeland security mission.
    We have designed a full range of concentric maritime 
security measures, starting overseas and extending to the 
shores of the United States. We cannot accomplish this without 
the strength of relationships that we are continuing to build 
with our partners in government and industry, both at home and 
abroad.
    The second priority--as we improve our capabilities in 
homeland security, we must also sustain our full range of 
missions. The law that created the new Department, as Senator 
Murray noted, mandates the Coast Guard must remain intact and 
must be attentive to its full range of missions. We have an 
obligation to the American public to provide critical services 
to them without interruption. The fiscal year 2004 operation 
and expense budget request of $4.7 billion provides an increase 
in every one of our missions relative to the fiscal year 2003 
levels and continues a multi-year investment plan to 
significantly enhance our search and rescue program.
    Third, we must increase our capacity, especially by 
recapitalizing and modernizing our aging fleet of cutters and 
aircraft and communication networks that connect them. The 
ability to sustain our full range of missions and to build our 
homeland security capabilities also requires an increase in 
capacity.
    In short, we must improve capability, capacity, and 
partnerships in the coming years. And due in large measure to 
the support in the Senate, in 2003 and 2004, we are making real 
progress and real advances along these lines. The President's 
fiscal year 2004 budget request reflects steady progress on our 
objective to balance our full range of missions. Every homeland 
security dollar directed in our budget will help to distribute 
a careful balance between security and safety, both of which 
are important to the prosperity and safety and security of our 
Nation.
    If the budget is enacted, by the end of 2004 we will have 
grown by 4,100 personnel and increased our overall budget by 
$1.6 billion, over a 30 percent increase over 2002. That should 
come as welcome news to anyone with interest in our capacity 
and capability to conduct our many missions.
    The proposed budget will continue funding for the 
Integrated Deepwater System, which is an integral part of our 
strategy for homeland security, as well as the capacity to 
carry out the entire portfolio of our missions. The Deepwater 
project will recapitalize the Coast Guard's aging cutters, 
aircraft, and offshore command and control network to help push 
U.S. borders out and increase our maritime domain awareness. It 
is a flexible program, able to meet emerging requirements for 
all of our missions.
    Together with the proposed budget, the fiscal year 2003 
supplemental budget request will help to answer concerns about 
our capacity, and we are very grateful for the Senate support 
in appropriating those funds.
    The fiscal year 2003 supplemental provides $580 million for 
our participation in Operation Iraqi Freedom and Operation 
Liberty Shield. It also provides an additional $10 million for 
increasing the security of our merchant mariner documentation, 
as well as $38 million for port security assessments. Both of 
those provisions are integral to our strategy for improving the 
maritime security of our Nation.
    The Maritime Transportation Security Act of 2002, which 
calls for us to implement a comprehensive security regime for 
ports, facilities, and vessels in close alignment with 
international standards, is the central component of our ports' 
strategy. It is an extremely important law, both for the 
security of the global maritime transportation system and for 
the future of the Coast Guard. We are working aggressively to 
implement its key components.
    Our rulemaking is proceeding on a very fast-paced schedule. 
We anticipate issuing an interim final rule this mid-summer and 
a final rule next November. Within our reach is the opportunity 
to create a robust security regime for our ports and coastal 
waters.
    In the past year, much more than our rulemaking has been 
fast-paced. The demands of the American public for the missions 
that the Coast Guard performs every day have continued to grow, 
and as we strive to meet them, what will remain foremost in my 
mind as Commandant is the operational excellence of our service 
to America. That is our ultimate goal. In the end, it is the 
performance outcome. And I think we have some good news here.

                           prepared statement

    But operational excellence depends not only on careful 
partnership and teamwork within the Department of Homeland 
Security. My key message here, Mr. Chairman, is that our 
operational excellence depends upon having the right capacity 
and the right capability for the mission at hand. And I look 
forward to working with you to that end.
    Thank you very much.
    [The statement follows:]

            Prepared Statement of Admiral Thomas H. Collins

Introduction
    Good morning, Mr. Chairman and distinguished members of the 
Subcommittee. It is a pleasure to appear before you today to discuss 
the Coast Guard's fiscal year 2004 budget request and its impact on the 
essential daily services we provide the American public.
    The President has clearly indicated that protecting the homeland is 
the government's number one priority and the Coast Guard has a critical 
role in that effort. The President's National Strategy for Homeland 
Security (dated 16 July 2002) stated:

    ``The Budget for fiscal year 2004 will continue to support the 
recapitalization of the U.S. Coast Guard's aging fleet, as well as 
targeted improvements in the areas of maritime domain awareness and 
command and control systems. . .''

    To that end, the Coast Guard's fiscal year 2004 budget proposes 
budget authority of $6.77 billion and continues our effort to establish 
a new level of maritime safety and security operations. The Coast 
Guard's goal is to create sufficient capacity and capability to 
implement the maritime component of the President's National Strategy 
for Homeland Security while sustaining the traditional missions the 
American public expects.
    I appreciate your support in the fiscal year 2003 Emergency 
Supplemental Funding Bill. Coast Guard forces have been fully engaged 
in support to the component commanders overseas in the Persian Gulf. We 
have deployed the largest contingent of Coast Guard forces since the 
Vietnam War, including 2 high endurance cutters, 8 patrol boats, 1 buoy 
tender, 4 port security units and 2 maintenance support units. We 
firmly believe that success overseas will bring greater security at 
home. These deployed assets constitute only three percent of our entire 
force so we will still be able to strike an appropriate balance between 
our domestic homeland security and non-homeland security missions 
through an effective use of risk based strategies to target resources 
to the greatest threats, increased op-tempo of domestic assets and the 
use of 11 PC-170 Navy patrol boats.
The Need to Sustain Growth in Fiscal Year 2004
    To implement the President's strategy, the Coast Guard must 
maintain our high standards of operational excellence. A convergence of 
several significant internal and external factors has emphasized the 
need for a continuing increase in capacity and capability for the U.S. 
Coast Guard to meet America's future maritime needs:
  --The move of the Coast Guard to the Department of Homeland Security;
  --The need to increase Maritime Homeland Security capability and 
        capacity;
  --The need to sustain our performance across all Coast Guard 
        missions; and
  --The requirement to quickly implement the comprehensive requirements 
        of the Maritime Transportation Security Act of 2002.
Building Capacity and Capability
    Immediately after the terrorist attacks on our nation, the Coast 
Guard established new port security zones, placed Sea Marshals on 
inbound merchant ships, conducted additional patrols off the coasts, 
established Maritime Safety and Security Teams to protect major ports 
and implemented new procedures to monitor vessel and crew movements 
within ports and coastal approaches. These increased responsibilities 
stretched already thin resources nearly to the breaking point and made 
it extremely difficult to continue serving other missions. To fill in 
the gaps, we activated nearly a third of our entire Selected Reserve 
force, and have quickly and effectively deployed the resources 
requested by the Administration and provided by Congress.
    The fiscal year 2004 budget provides for increased capacity that is 
necessary for the Coast Guard to provide the strength and security our 
nation requires. To fulfill its responsibility to the American public, 
the Coast Guard is attempting to use that increased strength to 
accomplish three primary objectives in fiscal year 2004:
  --Recapitalize legacy assets and infrastructure;
  --Increase Maritime Homeland Security Capabilities; and
  --Sustain non-Homeland Security missions near pre-9/11/01 levels.
Re-capitalizing the Coast Guard
    President Bush has asserted that our aging assets and 
infrastructure must be re-capitalized. In addition to Rescue 21, which 
is on schedule for completion in fiscal year 2006, the Coast Guard's 
Integrated Deepwater System will meet America's future maritime needs. 
Based on the organization's current capacity levels and the required 
capabilities immediately needed for Homeland Security and the other 
missions the American public expects, the continued funding of 
Deepwater is imperative and makes both programmatic and business sense. 
The Coast Guard is requesting $500 million for the Integrated Deepwater 
System.
    Several programmatic considerations reveal why the Integrated 
Deepwater System is so essential for the safety and security of the 
American public:
  --Homeland Security necessitates pushing America's maritime borders 
        outward, away from ports and waterways so layered, maritime 
        security operations can be implemented.
  --Maritime Domain Awareness--knowledge of all activities and elements 
        in the maritime domain--is critical to maritime security. 
        Integrated Deepwater System will improve current Maritime 
        Domain Awareness by providing more capable sensors to collect 
        vital information.
  --A network-centric system of Command, Control, Communications, 
        Computers, Intelligence, Surveillance and Reconnaissance is 
        required for effective accomplishment of all Coast Guard 
        missions.
  --Interdiction of illegal drugs and migrants and protection of living 
        marine resources are important elements of Homeland Security 
        and require capable Deepwater assets.
    The Deepwater Program will ensure the Coast Guard can continue to 
fulfill its mission of safeguarding the sovereignty, security, and 
safety of our homeland waters. New assets include five 110 patrol 
boats converted to more capable 123 patrol craft, seven Short Range 
Prosecutor small boats, the first National Security Cutter (to be 
delivered in fiscal year 2006), the an increased organization-wide 
Command, Control, Communications, Computers, Intelligence, Surveillance 
and Reconnaissance network including a Common Operating Picture, 
Command and Control System at four shore-based command centers and the 
establishment of an integrated logistics system.
    From a business perspective, the flexible Integrated Deepwater 
System framework was designed to adapt to changing conditions. The 
Integrated Deepwater System acquisition will replace or modernize 
obsolete and maintenance intensive assets that are not capable of 
meeting the current mission demand. The Integrated Deepwater System 
will provide the required capabilities the Coast Guard needs to perform 
an enhanced level of maritime security operations, sustain growing 
traditional missions and respond to any future crises, man-made or 
otherwise, that threaten America.
    The Rescue 21 project will dramatically improve the Coast Guard's 
command and control communications network in the inland and coastal 
zone areas for SAR and all other Coast Guard missions. The improved 
Rescue 21 system will meet safety requirements for growing maritime 
traffic, as well as International Convention for the Safety of Life at 
Sea treaty requirements. It will be also be a critical component of our 
homeland security operations as it facilitates more effective 
monitoring and control of coastal assets.
The Challenge of Homeland Security
    The Coast Guard is the lead Federal agency for Maritime Homeland 
Security. As such, the Coast Guard's mission, in conjunction with joint 
and interagency forces, is to protect the U.S. Maritime Domain and the 
U.S. Marine Transportation System and deny their use and exploitation 
by terrorists as a means for attacks on U.S. territory, population and 
critical infrastructure. The Coast Guard will prepare for, and in the 
event of an attack, conduct emergency response operations. When 
directed, the Coast Guard, as the supported or supporting commander, 
will conduct military homeland defense operations in our traditional 
role as one of the five Armed Services.
    This budget submission is aligned with the Strategic Goals and 
Critical Mission Areas in the President's National Strategy for 
Homeland Security. The Coast Guard has developed a Maritime Homeland 
Security Strategy that implements the maritime component of the 
President's plan and the fiscal year 2004 budget continues to support 
those goals. It addresses both event-driven and prevention-based 
operations through the following Strategic Objectives:
  --Prevent terrorist attacks within and terrorist exploitation of the 
        U.S. Maritime Domain.
  --Reduce America's vulnerability to terrorism within the U.S. 
        Maritime Domain.
  --Protect U.S. population centers, critical infrastructure, maritime 
        borders, ports, coastal approaches and boundaries and ``seams'' 
        among them.
  --Protect the U.S. Marine Transportation System while preserving the 
        freedom of maritime domain for legitimate pursuits.
  --Minimize the damage and recover from attacks that may occur within 
        the U.S. Maritime Domain as either the Lead Federal Agency or a 
        supporting agency.
    The threats to the security of the United States extend beyond 
overt terrorism. Countering illegal drug and contraband smuggling, 
preventing illegal immigration via maritime routes, preserving living 
marine resources from foreign encroachment, preventing environmental 
damage and responding to spills of oil and hazardous substances are all 
critical elements of national and economic security. Every dollar 
directed to the Coast Guard will contribute to a careful balance 
between our safety and security missions, both of which must be 
properly resourced for effective mission accomplishment.
    Maritime Domain Awareness is the catalyst for effective Maritime 
Homeland Security and the fiscal year 2004 budget provides the 
resources to enhance the Coast Guard's ability to receive, fuse, 
disseminate and transmit intelligence data and leverage our recent 
inclusion in the National Intelligence Community. It includes new 
personnel, hardware and software to support the underlying information 
architecture for Maritime Domain Awareness, funds leased satellite 
channels and other connectivity solutions for our entire cutter fleet 
and establishes a prototype Joint Harbor Operations Center (JHOC) in 
Hampton Roads, VA, to provide surveillance as well as command and 
control capability for the critical infrastructure in this area.
    The fiscal year 2004 request also provides the capability and 
capacity to conduct layered maritime security operations. Six new, 
deployable Maritime Safety and Security Teams, for a total of 12 teams, 
and over 50 Sea Marshals will be added throughout the country to 
protect our most critical ports. To increase our organic presence in 
our ports and waterways, we are requesting 43 fully crewed and 
outfitted Port Security Response Boats, nine 87-foot Coastal Patrol 
Boats, and the commencement of the Response Boat Medium acquisition, 
which will replace our aging fleet of 41-foot utility boats. We are 
standing up Stations Boston and Washington D.C. to increase security 
and safety in these critical ports where more resources were needed. We 
will also establish two new Port Security Units, for a total of eight 
teams, used to support domestic and overseas operations.
Balancing Our Missions
    The fiscal year 2004 budget restores the Coast Guard's multi-
mission focus to near pre-September 11, 2001 levels. We will utilize 
performance and risk-based analysis to strike a careful balance between 
our safety and security. This delicate balance is critical to 
protecting America's economic and national security by preventing 
illegal activity on our maritime borders. It will also enable the Coast 
Guard to maintain its surge capability, which was evident before and 
after September 11, 2001. One of the Coast Guard's greatest attributes 
is the innate flexibility to immediately shift mission focus to meet 
America's greatest threat while maintaining other missions for the 
American public.
    While its primary focus is Search and Rescue, the Rescue 21 project 
will transform the Coast Guard's command and control capabilities for 
all mission areas. Coupling this major acquisition with a staffing 
increase of nearly 400 new personnel at our multi-mission, small boat 
stations and Command Centers will ensure Coast Guard shore-side command 
and control networks and response units are properly equipped and 
staffed for multi-mission effectiveness. We are also requesting funds 
for the Great Lakes Icebreaker to ensure delivery in fiscal year 2006. 
The Great Lakes Icebreaker will perform aids to navigation functions as 
well as break ice to keep this critical commerce route open year-round.
    This budget also requests funding to fully train, support, and 
sustain the Coast Guard's Selected Reserve Force. The Coast Guard 
increased the number of reservists from 8,000 to 9,000 in fiscal year 
2003 and now to 10,000 in fiscal year 2004. The Reserve is 
significantly more than an augmentation force. It is an integral part 
of Team Coast Guard and provides daily support of all Coast Guard 
missions. Today's Coast Guard depends on Reserve personnel for day-to-
day activities in addition to a qualified military surge capacity. The 
Coast Guard Reserve fills critical national security and national 
defense roles in both Homeland Security and direct support of 
Department of Defense Combatant Commanders. The Coast Guard Reserve 
provides the nation's only deployable port security capability and a 
cost-effective surge capacity for Coast Guard operations, including 
quick response to natural or man-made disasters, such as floods, 
hurricane relief, major pollution cleanup efforts, and rapid response 
to major catastrophes. The Reserve is critical to the Coast Guards 
efforts to rebalance our mission execution.
The Goal of Operational Excellence
    We are facing many challenges in the coming years, not the least of 
which are the obsolescence of our aging asset fleet; the complexity of 
recruiting, retaining, and training the talented workforce necessary to 
execute our missions; and integrating fully into the new Department of 
Homeland Security.
    The President's fiscal year 2004 budget provides immediate 
capability for our Homeland Security responsibilities and continues to 
build upon past efforts to restore service readiness and shape the 
Coast Guard's future. It also demonstrates strong support for both the 
Deepwater project and Rescue 21. This budget will enable the Coast 
Guard to maintain operational excellence across all mission areas to 
meet the America's future maritime safety and security needs.
    I close with a quote from the National Strategy for Homeland 
Security which crystallizes the need for a transformed, multi-mission 
capable Coast Guard: ``The United States asks much of its U.S. Coast 
Guard and we will ensure the service has the resources needed to 
accomplish its multiple missions.''
    The demands continue to grow for the missions that the Coast Guard 
performs every day. As we strive to meet them, what will continue to 
remain foremost in my mind as Commandant--even as I sit here before 
this subcommittee--is the operational excellence of our service to 
America. That is our ultimate goal.
    Operational excellence depends not only on careful partnership and 
teamwork within the Department of Homeland Security, but it depends 
also on having the right capacity and the right capability for the 
missions at hand.
    I look forward to working with you to that end.
    Thank you for the opportunity to testify before you today. I will 
be happy to answer any questions you may have.

    Senator Cochran. Thank you very much, Admiral Collins, for 
your testimony.
    I notice by the clock on the wall that the vote has begun 
now. We can recess and make that vote in the Senate, and then 
we will resume our hearing with questions of our panel after 
that.
    The subcommittee will stand in recess.
    Senator Cochran. The subcommittee will please come to 
order.

                             PLAN COLOMBIA

    Director Basham, I appreciate very much your overview in 
your statement about the activities of the Secret Service and 
the challenges that you face. In reading your statement, I was 
attracted to the challenge that you have in Plan Colombia, the 
work that you are doing in Colombia that is discussed in your 
opening statement. It goes back to one of your earliest 
missions as a Service dealing with the integrity of currency, 
but it is broader than that.
    Could you tell us a little bit about the status of that and 
what your challenges are and how much money we are 
appropriating or being asked to appropriate in this budget for 
that activity.
    Mr. Basham. Mr. Chairman, I cannot give you a specific 
number at this point with respect to the funding that we are 
requesting for that activity, but I can tell you that just 
recently, we were able to recover prior to circulation about 
$41 million in U.S. currency due to our efforts there in 
Colombia.
    Colombia continues to represent----
    Senator Cochran. Was this counterfeit money?
    Mr. Basham. That is counterfeit currency that is produced 
there in Colombia which, as you are well aware, supports the 
drug activity. So that locale continues to represent one of the 
biggest challenges we have with respect to our international 
counterfeiting problems.
    We have, as you may well know, personnel who are assigned 
there, stationed there, who work very closely with the 
Colombian officials to assist them in suppressing the 
manufacture of counterfeiting.
    As you said before, our original mandate was to stop and 
prevent and protect the financial systems from attacks, and 
that is the same methodology that we apply there, and that is 
working with the local officials to identify plants and to 
suppress those plants prior to the currency getting into 
circulation.
    So we continue to work there. We are putting a lot of 
emphasis in some of the former Soviet Union countries where we 
are seeing some activity in the area of counterfeiting, but 
Colombia still represents one of the greatest challenges. I 
will get back to you, sir, with the information on what kind of 
funding we are requesting for that activity.

                            FOREIGN OFFICES

    Senator Cochran. I notice also that as you talk about 
global activities that may threaten the integrity of our 
national financial institutions and system, you have 
established offices or representation in some 19 different 
countries, I think your statement indicated.
    To what extent do you see these as permanent facilities or 
permanent assignments, or are they temporary in nature? What is 
your expectation with regard to that?
    Mr. Basham. We are constantly reviewing those foreign 
offices and the effectiveness of those foreign offices to make 
sure that we are getting the most out of those resources. On 
occasion, we will be changing the locations of those offices 
based upon what we are seeing in criminal activity coming from 
those countries.
    The great majority of those offices are permanent, and not 
only do they support the investigative mission of the Secret 
Service; they also support the protective mission of the Secret 
Service, which gives us sort of a first insight as to what 
activities may be going on in these relative to our protective 
role here.
    Senator Cochran. Is this role to protect high-ranking 
Federal officials who may be in those countries?
    Mr. Basham. Actually, it is not in just the foreign 
countries but also domestically, working with officials in 
those countries who may be able to give us some warning signs 
if there is activity being planned for an assault or an attack 
on people whom we protect here in the United States as well as 
having liaison with those countries when our visiting officials 
go there to get cooperation from those countries to work with 
us to provide protection for them overseas.

                   COUNTERFEITING OPERATIONS IN IRAQ

    Senator Cochran. We recently saw in the press the report of 
the finding of a lot of money in Iraq, a lot of U.S. currency. 
There was one press report that I noticed that indicated it 
could be counterfeit, or it might be valid currency. Are you 
working with the Department of the Treasury or others in trying 
to determine something about that currency and whether it is an 
indication of a counterfeiting operation in Iraq?
    Mr. Basham. We were involved in the very early stages when 
that currency was discovered in Iraq. We did dispatch personnel 
there to look at that currency. It was determined early on that 
the currency was genuine U.S. currency, and therefore, we have 
sort of backed out of that issue now that it has been 
determined.
    I believe they are in the process now of just trying to 
figure out a way of counting the currency in country versus 
bringing that currency out of the country, but yes, that was 
early on that we were involved and determined it was not 
counterfeit.

             AL QAEDA INVOLVEMENT IN COUNTERFEIT ACTIVITIES

    Senator Cochran. Have you come across evidence that 
indicates that the al Qaeda terrorist network is involved in 
counterfeiting U.S. currency?
    Mr. Basham. I do not know that I can say, Mr. Chairman, 
that there has been any direct connection to the al Qaeda 
network with counterfeiting. We do know that the al Qaeda 
network has made attempts to get into other types of financial 
systems through electronics, through trying to tap into those 
financial institutions. But in terms of a direct connectivity 
between al Qaeda and counterfeiting, I do not believe we have 
made that connection.
    Senator Cochran. You can furnish that for the record if you 
have information about it that you think we need to know about.
    Mr. Basham. I will furnish it.
    Senator Cochran. We would appreciate that.
    [The information follows:]

    Due to the sensitive nature of the information requested by Senator 
Cochran, the Secret Service provided this information to the Senator 
under separate cover.

    Senator Cochran. I am going to yield now to my colleagues 
for any questions that they may have.
    Senator Murray, you may proceed to question the witnesses, 
either Commandant Collins or the Director of the Secret 
Service, as you please.
    Senator Murray. Thank you, Mr. Chairman.
    I note that Senator Byrd is here, and I am happy to defer 
if he wants to go ahead of me.
    Senator Byrd. Walt Whitman said that the greatest thing 
upon the earth is woman. You were here before I was, so please 
go ahead.
    Let me say while I am talking that I am sorry to be tardy. 
We had a vote over on the floor, and rather than attempt to 
make two runs over here, which you might do at age 35, I 
thought I would just wait and make one.
    Thank you.
    Senator Murray. Well, thank you very much.

                     NON-HOMELAND SECURITY MISSIONS

    Admiral Collins, earlier, I recited the figures from your 
own quarterly mission hour report that indicate for the year 
that ended just 4 weeks ago, your efforts in the area of drug 
interdiction are 42 percent below the September 11 levels, and 
your efforts at fisheries enforcement are 33 percent below 
September 11 levels.
    In your formal testimony, you state that the President's 
2004 budget for the Coast Guard is built around the goal of 
returning your level of effort to these and other non-homeland 
security missions to pre-9/11 levels, but the GAO has reviewed 
the President's budget and does not agree that the enactment of 
the President's budget will enable you to get back to pre-9/11 
levels.
    We need to set the record straight, so I want to ask you if 
we enact the President's budget in full and provide you with 
the second year of historic increases for the Coast Guard, will 
your quarterly mission reports show us that drug interdiction 
and fisheries enforcement have returned to the levels that 
existed prior to September 11, 2001?
    Admiral Collins. Let me equivocate a little if you would 
allow me. I think it is relative to risk. Part of this 
accounting that we have had over the last 18 months relative to 
activity levels--and that is one way to measure mission 
balance; there is budget allocation, there are activity levels, 
and there is performance, and I think you have to look at all 
three--but if you look at activity, clearly, the snapshot was 
taken in a year, as I mentioned in my opening statement, of 
momentous change, of dramatic impact, of significant threat, 
and we were at many periods during the course of that time at 
orange threat conditions, obviously, and in the immediate 
aftermath of 9/11, the whole country was ramped up across the 
board. I would submit that if you looked at the activity level 
of every police department and every law enforcement 
organization in this country, you would find a similar spike 
given the scenario. And then, there were a couple of oranges 
and then Operation Liberty Shield, which was invoked in 
conjunction with Operation Iraqi Freedom.
    With all of those, it is a very unusual time to be doing 
this kind of accounting, so to have a spike in the homeland 
security mission I think is reasonable, appropriate, and I 
think a natural thing to do during that timeframe.
    Where did they come from? Most of that accounting is from 
redistributed major cutters from the fisheries mission and from 
the drug mission and from the migrant mission, and that is 
where they were taken from. We are maintaining our SAR posture.
    With the fiscal year 2002 supplemental, the fiscal year 
2003 budget, and the fiscal year 2004 budget, it is a 30 
percent increase, and by any standard, I think that is an 
unprecedented support by the administration and Secretary in 
terms of moving us up a glide slope that provides us the 
capability and the capacity to do our job.
    I am very happy with the level of support that they 
provided last year, this year and through the supplemental. I 
think we are going to close those gaps that we had, and we are 
going to get near pre-9/11 levels. I think there will still 
probably be some discontinuities in terms of exact level 
relative to particularly some of the law enforcement, 
fisheries, and drug mission in terms of the amount of activity 
we will be able to allocate, but we will be closing the gaps 
significantly. These are substantial increases that will allow 
us to return to normal.
    I would also stress that it assumes what we call Maritime 
Security Condition 1. We have three levels of security built 
into the International Code of Security for Ports and Vessels, 
and they are going to be built into our rulemaking that 
supports the Maritime Transportation Security Act. That is 
assuming a Maritime Security Level 1. If you go to 2 or 3, or 
if there is a sustained level of higher state of risk, then we 
are going to reallocate again. And I think that is what the 
American people want us to do is allocate our resources to 
risk.
    So I think we are going to be not exactly to levels. We 
will be approaching those levels at the MARSEC 1.
    Senator Murray. I agree that we need to allocate our 
resources to risk, but I also very strongly before homeland 
security passed, working with Senator Stevens and others, 
wanted to make it very clear that we cannot reduce our levels 
of effort in our other missions in order to accomplish this. We 
need to know what it is going to cost us to make sure that you 
can do all of your missions.
    So let me ask you, because in the past, the Coast Guard and 
other agencies in the administration have carefully estimated 
the amount of drugs entering our country and the number of 
illegal encroachments of foreign fishing vessels into U.S. 
waters. You have done that to measure the effectiveness of your 
efforts. So what have you observed regarding the likelihood of 
drugs entering our country and illegal encroachments on U.S. 
fishing grounds as a result of your greatly diminished efforts 
that we have seen in these two missions over the last year and 
a half?
    Admiral Collins. To answer that question, Senator, I think 
you would go to that third dimension of how you look at mission 
balance. And I mentioned budget, activity level, and 
performance. Our activity level over the last 18 months, 
because of the impact of homeland security, certainly our 
activity levels have been down for counter-drugs, and fish.
    The performance has been pretty consistent, however. If you 
look at our performance in terms of seizure rate, recovery 
rate--I am talking about drugs now--or, excuse me, removal 
rate, and that is both deterrents, those that were thrown over 
the side, or those we actually seized, we had last year the 
third highest cocaine seizures in U.S. Coast Guard history--
72.2 metric tons--and our removal rate has been fairly 
consistent between 20 and 25 percent.
    So in terms of performance, I think we had a very, very 
credible performance even in the face of some of our cutters 
being pulled off that mission. Now, the question is how did you 
do that, and I think there are a couple of answers to that.
    One is tremendous partnering--I mentioned capacity, 
capability and partnering are key to balancing our mission--
tremendous partnering with the United States Navy and with 
allies. If you look today, we have nine ships in the deep 
Caribbean and the Eastern Pacific right now, today, doing 
counter-drugs. And incidentally, we have 18 cutters underway 
today around the country. Fifteen of those 18 cutters are doing 
non-homeland security missions--15 of the 18. So as we speak 
today is an indication of how we are returning back to our 
normal posture.
    But let me get back to drugs, the reasons. We have a 
partnership with the United States Navy. We have Coast Guard 
law enforcement detachments on those Navy assets. We have Coast 
Guard law enforcement detachments on the allied ships, three, 
and our three vessels. That is a tremendous team, and those law 
enforcement detachments do not show up in the activity stats, 
but there is a tremendous outcome from that partnership.
    We had a British oiler down in the EASTPAC, allowing us to 
have a gas station far from anything, so we can get our ships 
refueled and staying in the game.
    So I think with better intel, great partnerships with the 
countries around the Caribbean Rim, we are getting better at 
this mission. We are putting metal on target, if you will, and 
getting great performance outcome.
    Having said that, if you had more capacity, could you get 
even more outcome? The answer is yes. But I think our 
performance is very, very, very credible, and we have tried to 
manage the dimensions of our mission so we can ensure the 
appropriate outcomes.
    If you switch to the migrants, if you look at the number of 
migrants seized over the last 3 years, it is consistent with 
previous patterns. We have interdicted 2,800 migrants to date 
in 2003. That will put us in a course above previous levels. We 
have been interdicting about 4,000.
    So we are not abandoning those missions, and the 
performance is still there.

                         FISHERIES ENFORCEMENT

    Senator Murray. What about fisheries enforcement, though?
    Admiral Collins. Fisheries enforcement is down, clearly. 
That is one of those areas that we have pulled cutters off of. 
We maintain minimums in certain areas. For example, the Bering 
Sea and the enforcement of the Maritime Boundary Line--we have 
a one-ship continuous presence in the Bering, and we have 
maintained that. That has not gone down. We have a half-ship 
presence, as we call it, in the rest of the Alaskan waters, and 
we have maintained that.
    So there are critical areas that we have maintained and 
other areas we have backed off. Is it where we want to be 
steady-state? No. We want to return to there, and as I have 
noted today, again, 15 of the 18 ships are back doing normal 
business, and nine of them are doing fisheries missions today.
    Senator Murray. My time is running out, but the GAO did 
quote Coast Guard office officials stating that the decline in 
both drug enforcement and fisheries enforcement can be 
attributable not only to your heightened homeland security 
requirements but also to the deployment of resources for 
military operations. I assume some of those ships are going to 
be coming home, but can you tell me when we expect to see the 
high-endurance cutters return?
    Admiral Collins. The exact dates are still up in the air 
and being decided, but it will be in the near term, not in the 
intermediate or far term. As to exact dates, there are 
logistics issues and other issues that we are working out, but 
they will be on their way home very, very shortly, and they 
will be turned back into non-homeland security missions.
    Senator Murray. Thank you very much, Admiral.

                       U.S. COAST GUARDS WORKLOAD

    Mr. Chairman, this is extremely important. We are asking 
the Coast Guard to do a tremendous amount of work. Obviously, 
they have been involved in the Iraqi efforts, and they are 
involved around the world. We are asking them to do fisheries 
enforcement, drug enforcement, search and rescue. We have given 
them more money, but I am deeply concerned that the numbers we 
are seeing coming back are saying that some of the critical 
missions that we are asking them to do are not taking place, 
and I think this Committee needs to look carefully at that and 
make sure that we budget the amount of money for the Coast 
Guard to do the homeland security jobs as well as all the other 
missions that we are asking them to do.
    Senator Cochran. Thank you, Senator Murray.
    Senator Byrd.
    Senator Byrd. Thank you.

                                 WOMEN

    Senator Murray, I mentioned Walt Whitman a little earlier. 
Walt Whitman said, ``Man is a great thing upon the earth and 
throughout eternity, but every jot and tittle of the greatness 
of man has unfolded out of woman.''
    Woodrow Wilson, who was the President of this country, a 
great President, when I was born, said he wouldn't give the 
snap of his finger for any young man who was not surrounded by 
a bevy of admiring females.
    Not many of the gentlemen in the audience laughed at that, 
did they? What is the matter with that crowd out there?
    Mr. Chairman, are you taking questions for both witnesses?
    Senator Cochran. Yes, sir.
    Senator Byrd. All right. Very well.
    I guess the Secret Service is first, is it not, today?
    Senator Cochran. Yes, sir. They testified first.

                          U.S. SECRET SERVICE

    Senator Byrd. All right. I welcome Director Basham. You are 
going to be in for a tough time.
    The Secret Service has long been an agency focused on 
homeland security. Since its creation in 1865, the Secret 
Service has protected our financial infrastructure and later 
took on the protective mission to safeguard our Nation's 
leaders and leaders from other countries.
    As the Secret Service is new to the Homeland Security 
Department, its functions are new to many of the members on 
this Committee. And I have to say that with the inclusion of 
myself, although I have been on the Committee--this is my 45th 
year; I am the grand-daddy of them all when it comes to length 
of service on this Committee--and my mom used to say, ``A self-
braggart is a half-scoundrel.''
    I was trying to think of that great athlete who said, ``It 
is all right to brag if you have done it.''
    Senator Cochran. Dizzy Dean.
    Senator Byrd. Dizzy Dean, right.
    So over the past 5 years, the Secret Service has grown 
substantially. Between fiscal year 1998 and fiscal year 2003, 
the Secret Service has grown in size from 4,800 to 6,100 
employees, and its budget has grown from $564 million to just 
over $1 billion.
    The Secret Service has over 3,000 special agents and nearly 
1,200 uniformed officers all across the country, working on 
protective detail, on financial investigations, and protecting 
the White House complex and the Vice President's residence.
    September 11 resulted in a significant increase in your 
mission requirements. Protective detail assignments have 
increased. The number of National Special Security Events has 
increased. The passage of the USA PATRIOT Act set additional 
requirements to protect and prevent terrorist attacks aimed at 
our financial systems.
    And today you are presenting a budget of $1,123,000,000--
that happens to be $1.12 for every minute since Jesus Christ 
was born. Can you compute that fast? It is pretty easy--
reflecting many of those changes, and the Committee looks 
forward to discussing this request with you now and on a 
continuing basis as long as it is necessary, as well as your 
many homeland security activities.
    Now, as to the Coast Guard, I welcome the Coast Guard 
Commandant. The Coast Guard has a long tradition as protectors 
of our ports and waterways. At no time in its history has the 
Coast Guard relied on its assets more than it does today. With 
the expanded mission of homeland security, the Coast Guard has 
increased patrols, enhanced its port and waterway presence, 
increased vessel boardings, and pushed legacy assets to their 
limits.
    All of this happened at the same time that the Coast Guard 
started to modernize and replace an aging fleet. The Coast 
Guard is also supporting our efforts in the Middle East by 
providing eight patrol boats, two high-endurance cutters, and a 
buoy-tender.
    Admiral Collins, even with the substantial budget increases 
provided to the Coast Guard since September 11, many concerns 
remain about your operational capabilities. Maintaining your 
non-homeland security missions at pre-September 11 levels has 
been a struggle. The Coast Guard's first quarterly report on 
mission hour emphasis revealed that efforts have decreased 
significantly in areas such as drug interdiction, marine 
safety, fisheries enforcement, and marine environmental 
protection.
    The Deepwater Program is approximately $200 million behind 
and at current levels could slip to a 30-year program. If the 
Deepwater Program continues at current levels, the success of 
the program could be in jeopardy.
    In addition, to make room for the high cost of the 
Deepwater Program, funding for shore facilities and aged 
navigation projects has been eliminated.
    With regard to strengthening port security, the Coast Guard 
has estimated that it will cost $1.4 billion in the first year 
and $6 billion over 10 years. Although funding for this purpose 
is not a direct responsibility of the Coast Guard, it is a 
homeland security priority.
    One of the entities folded into the new Department of 
Homeland Security is entitled the ``Transportation Security 
Administration,'' not the Aviation Security Administration. 
Yet, within the $4.8 billion TSA budget, only $86 million is 
requested for maritime and land security activities, while over 
$4.3 billion is required for aviation security.
    So, Admiral Collins, as the leader in maritime security, 
the Subcommittee challenges you to work to ensure that port 
security is given greater emphasis in future funding requests.
    For port security assessments which are mandated by the 
Maritime Transportation Security Act, it took Congressional 
action and $38 million in the recent fiscal year 2003 Emergency 
Supplemental to ensure that these assessments will be completed 
in a timely manner. Under the President's budget, port security 
assessments would not be completed until 2009.
    Finally, Coast Guard employees do a tremendous job with the 
resources given to them, but I fear that they are stretched too 
thin. Secretary Ridge has said that another attack is 
inevitable. If the Coast Guard were to operate under a Code 
Orange scenario for an extended period of time, non-homeland 
security missions could be left unattended.
    Admiral Collins, I realize that you are doing everything 
you can with the resources at hand, but you and this 
Subcommittee needed to confront these issues head-on. Of 
course, Coast Guard employees do extraordinary work. They are 
the lifeblood of our ports and waterways, and millions of 
Americans depend upon them every day. But the Coast Guard needs 
the assets and a secure infrastructure to do their job as 
effectively and efficiently as possible.
    Mr. Chairman, do we proceed with questions?
    Senator Cochran. Senator, I suggest you proceed with 
questions, and you are recognized for that purpose. I have 
asked a few of the Secret Service. I have not asked any 
questions of the Commandant. We have heard opening statements 
from both of them, and Senator Murray has made a statement and 
asked some questions.
    You may proceed.
    Senator Byrd. Very well. Thank you.

                  NATIONAL VESSEL DOCUMENTATION CENTER

    Let us begin with Admiral Collins. Last year, the Coast 
Guard submitted a so-called competitive sourcing plan to the 
Office of Management and Budget that listed 99 full-time 
equivalent at the National Vessel Documentation Center, NVDC, 
in Falling Waters, West Virginia. Have you ever been there?
    Admiral Collins. Yes, sir.
    Senator Byrd. Well, I was there when we dedicated that 
function, and there came a heavy rain, a downpour, a huge 
storm. They had a huge tend there that would have seated 
several hundred persons. And this huge storm came up, and the 
winds blew--do you remember how the Bible describes, ``and the 
winds blew''--and several ladies were very kind to my wife, and 
they ushered her into a side door in the building that was 
there, so she was taken to safety. I watched carefully because 
I was concerned--after all, she will have been my best friend 
and my wife 66 years come 1 month from yesterday.
    So there was the wind and falling waters. So the place was 
appropriately named, you see, Falling Waters, West Virginia. 
The waters fell that day.
    One day, I was over in West Virginia, and there was a 
drought over in the central part of the State. There had been a 
drought, and I made a big speech--I do not make many big ones, 
but this was a great speech--and I came to a point, Mr. 
Chairman, where I said, ``and then the rains came.'' And don't 
you know that the Creator was cooperating with me that day, and 
the rain started falling at that moment, and the rain came.
    So Falling Waters is the place, Falling Waters, West 
Virginia.

                      COMPETITIVE SOURCING AT NVDC

    You proposed to convert the NVDC into a Government 
corporation, which was viewed by many Federal workers as a 
first step toward contracting out the work of the NVDC. I have 
serious concerns about the administration's efforts to contract 
out what are inherently governmental functions, and I stated 
those concerns yesterday when Secretary Ridge was before this 
subcommittee.
    The NVDC effectively bestows citizenship on vessels at sea 
which affects international trade, diplomacy, national 
security, and a host of issues that fall under the purview of 
the Federal Government. This is not a function that should be 
exercised by contractors or Government corporations which 
operate outside congressional oversight.
    I wrote to you last October about this issue, and you 
replied that the Coast Guard, after discussions with the OMB, 
was reconsidering the conversion of the NVDC.
    Now, in light of the fact that Secretary Ridge in testimony 
before the subcommittee yesterday said that he was unaware of 
any underlined--any current plan within the new Department to 
contract out security services, what are the Coast Guard's 
privatization plans with regard to the NVDC, and to what extent 
are these plans a result of the OMB competitive sourcing 
initiative?
    Admiral Collins. Senator, of course, all of our competitive 
sourcing programs are in support of the OMB and the President's 
Management Agenda. That plan has been in various forms and 
various things on that, as you correctly note, and initially, 
NVDC was on that.
    The current 2003 plan--and basically, the competitive 
sourcing plan-is a plan to conduct studies scheduled for 
completion here in late 2003 and early 2004 contained to three 
particular areas within the Coast Guard, none of which involves 
NVDC. There is one in a public works function out of the Coast 
Guard Academy. There is another study of a public works 
function at our support center in Elizabeth City, North 
Carolina, and there is another looking at our retired services, 
pay services, at our pay center in Topeka, Kansas. And it is 
basically not huge numbers of people being looked at--42 in the 
Academy--these are civilian positions--41 at the support center 
in Elizabeth City, and 36 in Topeka.
    So these studies will run their course, and they will 
determine what the recommendation is after doing the studies. 
The 2004 competitive sourcing plan is yet to be configured, and 
it depends on the planning guidance that we get from the Office 
of Management and Budget on direction from them on putting that 
together. That will be put together later this summer.
    So the news is three studies for those facilities that I 
have noted and NVDC not a part of that.
    Senator Byrd. And what does that mean?
    Admiral Collins. That means we will wait until the outcome 
of the studies to see what they say in terms of a 
recommendation on outsourcing or not. We cannot prejudge what 
the studies are going to say, but it is for those functions in 
those commands that I have noted.
    Senator Byrd. Are you saying that the jury is still out on 
the facility at Falling Waters?
    Admiral Collins. I do not know what the 2004 list is going 
to look like, and that will depend upon guidance from the 
Office of Management and Budget and how we configure our list.
    Clearly, they have given us some direction on some of the 
things to extract from the previous inventory of potential 
studies, and we have done that, and I would suspect they will 
be consistent with that going forward. But it is yet to be 
determined at this point.
    Senator Byrd. Would you say that the Office of Management 
and Budget is Mount Olympus in this Administration?
    Admiral Collins. I do not know if I----
    Senator Byrd. Does it strike you that the Office of 
Management and Budget is all that important in this 
Administration and that your guidance will down from on high 
from the ethereal atmosphere of Mount Olympus?
    Admiral Collins. Certainly I respect the guidance and the 
direction of OMB regardless of what Administration is at the 
time. They are involved with management issues, management 
initiatives, and coordinating that effort through the Federal 
Government, and we try to adhere as best we can to the 
guidelines that they give us.
    Senator Byrd. Do you feel that the testimony that you are 
giving in response to this question is parallel with the 
testimony of Secretary Ridge yesterday on this point, or do you 
think there is any point of difference?
    Admiral Collins. Because I was not here at the hearing 
yesterday, Senator, I----
    Senator Byrd. I stated a moment ago what he said.
    Admiral Collins. Yes, that he was not aware. I do not know 
what his level of knowledge was. I will take that statement as 
accurate, sir.
    Senator Byrd. So once again, how shall employees at NVDC 
understand what you have said here before the committee today?
    Admiral Collins. I think they have to take it at face 
value. They are not on the study list, they are not on the 
inventory list, they are not planned for an assessment, and 
that is the current state.
    Senator Byrd. The OMB scores agencies on how well they 
comply with the President's management agenda. Agencies are 
encouraged to submit management plans to the OMB and to meet 
the competitive sourcing targets outlined in the President's 
budget. The OMB has informed me that these plans, while 
submitted to the OMB for approval, can be released to the 
public at the discretion of the agency heads.
    This subcommittee is asked to appropriate $6.8 billion to 
the Coast Guard to employ 43,450 full-time equivalents. Before 
we do that, I expect that you would provide this subcommittee 
with a copy of any management plan or competitive sourcing plan 
that the Coast Guard submits to the OMB.
    Admiral Collins. Sure.
    Senator Byrd. When do you--when you say ``Sure,'' what does 
that mean?
    Admiral Collins. Yes, sir, we would be glad to submit that 
to you.
    Senator Byrd. Very well. When do you expect to submit your 
next management plan to the OMB, and how soon can you make that 
plan available to the Appropriations Committee?
    Admiral Collins. It is my understanding--and I will have to 
confirm the exact timing of this--I believe, Senator, it is in 
the late July/August timeframe.
    Senator Byrd. Tuesday's New York Times points out that 
there seems to be a revolving door at the new Department of 
Homeland Security, with former top Federal officials walking 
out the door 1 day only to walk in the door another day as a 
top corporate lobbyist.
    With growing concerns about the reach of special corporate 
interests in this Department and others, I urge you and others 
in the Department leadership, the top leadership, to find a way 
to board up that door as you possibly can.
    The motto of the Coast Guard is ``Semper Paratus''--
``Always Prepared.'' That is kind of like the Boy Scouts' 
motto, isn't it--``Be prepared.''
    Admiral Collins. Close, Senator.
    Senator Byrd. That motto is not ``Always Privatized.'' It 
is ``Always Prepared,'' not ``Always Privatized.''
    Admiral Collins, the Coast Guard is a key part of the 
Nation's homeland security network. You and the men and the 
women under your command have the task of guarding our seaports 
and coastlines. And this is not a mission that should be driven 
by a private company's profit margin.
    What I am saying is really an admonition to people out here 
in this room today, probably. This is not a mission that should 
be driven by a private company's profit margin. This is a 
mission that should be first, last, and always driven by the 
security needs of the Nation. While it may be important to 
receive high marks from the OMB--and I suppose you might gather 
that I do not have a great deal of love for the current top 
management of OMB--and to comply with its directives to 
contract our Government services, it is far more important that 
the Coast Guard receive high marks from the American people in 
the protection of this country. And you have received high 
marks. The Coast Guard stands at the apex of agencies and 
departments and functions within the Government that people on 
the Appropriations Committee have great admiration for and 
confidence in.
    I think I will just submit my questions on the Secret 
Service, Mr. Chairman.
    Senator Cochran. Thank you, Senator Byrd.
    Senator Stevens, welcome.
    Senator Stevens. Thank you very much.
    I am pleased to be here with you, Director Basham and 
Admiral Collins. I have some provincial questions, really, 
which should not be unanticipated.

                      INCURSIONS IN NORTH PACIFIC

    There has been a significant number of incursions in the 
North Pacific in the fishing grounds, as a matter of fact, an 
increasing number of foreign vessels coming across the maritime 
boundary line. There were in particular incursions of several 
Russian pollack factory trawlers that I am sure you recall had 
to be cut off in really hot pursuit concepts with the Coast 
Guard cutter Rush. I congratulate you for those activities.

                        UNMANNED AERIAL VEHICLES

    However, I am concerned about that, and I wonder if it is 
not time to look at some high-tech concepts to increase the 
surveillance and decrease the potential for incursions. For 
instance, I have suggested the use of Predators to patrol the 
boundary line and to have on board warning capability to warn 
foreign vessels that they were now entering U.S. waters, and if 
they continued, that they would be pursued and arrested.
    Those are very inexpensive--they are even less expensive 
than the Global Hawk; the Global Hawk flies too high in my 
opinion to have really good aero-surveillance.
    Have you looked into that concept? Are we going to go into 
any new technology to make up for the decrease in effort we 
have from the Coast Guard in the North Pacific?
    Admiral Collins. Senator, we have maintained and intend to 
maintain the one-ship presence up on the boundary line that we 
have committed to. We have not moved away from that, and we 
continue to do that, and it is in our plans going forward.
    But clearly, you are absolutely right. I could not agree 
with you more that we can be increasingly effective with the 
increasing threat on the boundary line with technology. There 
is absolutely no question about it. And UAVs, I think we have 
seen around the planet how effective the UAVs are in other 
applications, and I think it is a wonderful application there.
    As you know, Senator, UAVs are an integral part of our 
Integrated Deepwater System Project. The national security 
cutter that we are building has embedded in those two vertical 
take-off UAVs as part of the design. Now, they are a few years 
out in terms of production and marriage with that new asset, 
but clearly, that is recognition in that project of how 
important UAVs will be for the Coast Guard now and into the 
future, and we really want to get that capability. It is a 
terribly important capability, and there is application in 
fisheries, there is application in migrant interdiction, there 
is application in counter drugs.
    So it is terribly important technology to go after. The 
current plan, of course, in getting that is our Integrated 
Deepwater Systems contract. The Predator I understand is a hot 
commodity, a high-demand commodity, and you have to wait in 
line in terms of production capacity to get one of these. I 
know the program manager for those is, of course, in the United 
States Air Force. But they are a high-demand asset, and 
currently we do not have funds in the budget to procure 
Predator other than our Deepwater Initiative, and there is this 
demand capacity issue associated with it.
    But I could not agree with you more, Senator. My opening 
statement was that we need capacity, capability, and solid 
partnership to have good mission balance, and part of the 
capability piece is using technology well, increasing our 
surveillance capability, and increasing surveillance capability 
is the heart and soul of our Deepwater project.
    Senator Stevens. Well, respectfully, Admiral, that is half 
the coastline of the United States, with more than 50 percent 
of the naturally-produced fish that Americans consume coming 
from that area, and we have one ship on half the coastline of 
the United States. We have the highest level of lives lost in 
any occupation in the country, and we have the greatest impact 
from foreign sources on the future of our product, of the 
species that we harvest ourselves.
    We have environmental groups now suggesting that we 
decrease our efforts because we have no way to control the 
foreign efforts. Now, somehow or other, a plan has to come 
forward. I am going to ask the committee to request that you 
present a plan to us for the modernization of the surveillance 
of these waters, and I think it would be cost-effective.
    I do believe that with what we are seeing now in Iraq and 
other places in the world, the military demand for Predators is 
going to go down. I assume that we are going to replace the 
ones that were lost, but I do not anticipate any expanded need 
for the Air Force or any of the military operations in the near 
future--and the line is up right now. I think you get a better 
price for Predators in the next 2 years than you will in the 
following 10 years, because they have their line expanded for 
increased production.
    I do hope that the committee will support that concept and 
that it will push you toward having the greatest use in new 
technology in surveillance of the maritime boundary.

                FOCUS ON NON-HOMELAND SECURITY MISSIONS

    Second, I asked the GAO to look into the question of the 
decline in mission hours for drug interdiction, fisheries 
enforcement, marine environmental protection and marine safety. 
I am sure you have seen that report. It is my understanding 
that we all thought that that was the result of 9/11. The GAO 
report shows that beginning in 1998, the hours dedicated to 
resource protection started to decline, and they have been on a 
slippery slope downward ever since.
    So this is somewhat related to the marine boundary but not 
totally. This is a national problem on all of our shores for 
drug interdiction, fisheries enforcement, marine environmental 
protection, and marine safety.
    I would like to ask is there any way we can balance the 
demand for these non-defense missions so that there is not a 
continued decline now? With your new responsibilities in 
homeland security, it appears that the decline is becoming 
steeper, and I would like to reverse that or at least level it 
off.
    Can you give us any understanding of what is going to 
happen to the resources dedicated to these kinds of activities?
    Admiral Collins. Yes, Senator. Clearly in the 1998-1999 
timeframe, or pre-9/11, those resource hour drops were a direct 
reflection of a decreasing budget. In other words, we had 
budget cuts as we were laying up ships, if you recall, in those 
budgets. So there was the pressure of the budgets, and we were 
getting operational cutbacks, and we were laying up assets. 
That was part of the pre-9/11 problem.
    Post-9/11 clearly is the security demands of the Nation, 
and all law enforcement agencies across the country, armed 
services, pulsed into that issue in the immediate 9/11, and so 
did we--we surged into that area. And we have had a number of 
Orange alerts, clearly, since then, and they require a ramping 
up of diversion of our boat hours and ship hours and aircraft 
hours into that area, so we have done that. We had Liberty 
Shield, an operational order that was put into effect 
consistent with and concurrent with our war in Iraq.
    So this post-9/11 period, this 18 months, is a fairly 
unusual period, a snapshot. It is a period of very, very high 
threat in the homeland security arena, and the Coast Guard 
surging into that area over time to provide the protection that 
America needs.
    We did in fact have to take those cutters from other 
missions. They are now back--a good portion of those cutters 
are back--doing the non-homeland security mission.
    I noted earlier, Senator, before you came in, that today, 
if you took a snapshot, we had 18 cutters deployed this morning 
around the country, in the Caribbean and Eastern Pacific and 
through Alaska, and 15 of those 18 are doing non-homeland 
security missions, and 9 of them are doing fisheries missions.
    So the message here is that we have now backed out from 
Liberty Shield, we are now off of Code Orange, and we are 
allocating cutters back into the non-homeland security missions 
as we should. So it is a dynamic process. We are allocating our 
resources to the risk.
    The other good part of the story is that we have through 
the fiscal year 2002 supplemental, the fiscal year 2003 budget, 
and the fiscal year 2004 budget, additional capacity that the 
Senate has provided and the House has provided, so we are 
building up our capacity to do both. The trend is a good one. 
We will not be exactly there at the end of 2004 to be exactly 
at the pre-9/11 allocation levels, but we will be pretty close. 
So the full intent is to balance our mission, build up our 
capability and capacity--capacity meaning more people, more 
assets, capability meaning things like technology and new types 
of units--to have the kind of mission balance we need in our 
waters.
    So our full intent is to balance, balance, balance, and we 
appreciate the Administration's support and Congress' support 
in helping us build up our capacity so we can do that.

                  RELATIONSHIP WITH THE NEW DEPARTMENT

    Senator Stevens. One of the things we fought for--not only 
here in this committee but in the Governmental Affairs 
Committee when I participated in the homeland security bill--
was to assure that we would maintain the independence of the 
Coast Guard. Tell us about the development of the relationship 
of your service to the new Department.
    Admiral Collins. I just think it is terrific, Senator. I 
could not be more pleased with the support of both the 
Secretary and the Deputy Secretary, the incredible 
collaboration across all of our agencies in the new Department.
    I just think it is again the right place for us to be and 
the right time for the Coast Guard to serve America. I remain a 
direct report to the Secretary. I am on a par with the other 
Undersecretaries in the Department. The Secretary is very 
cognizant of our full range of missions. I think every time he 
has come up to testify, he has said, ``We need to support the 
full range of Coast Guard missions,'' and I commit to that.
    So I think terribly supportive of the United States Coast 
Guard. I think our credibility is very, very high within the 
organization. We are committed team players, committed to the 
team's success.
    I am very, very pleased with where we are, Senator.
    Senator Stevens. I have just two more questions, Mr. 
Chairman.

                IMPORTATION OF GAS FROM FOREIGN ENTITIES

    One item that has just come to my attention is the 
projection for the increased demand for natural gas from 
offshore. One of the think tanks up in Alaska has just given me 
a projection that we will soon see the increase occur on a 
steady basis and that places like Qatar will be the source of 
liquefied natural gas that will come more and more to our East 
Coast.
    I know you have the whole concept of your offshore ports 
and the concepts of deepwater, but are you planning ahead for 
what is going to be the problem of our country as we see--we 
are already importing about 56 percent of our oil; if this 
projection is correct, by 2015, we will be importing 40 percent 
of our natural gas, and it will be liquefied and coming into 
the same ports that the oil is coming into. You talk about 
homeland security and the terrorist problem, my God, as a 
matter of fact, there are two novels that have already been 
written on that, as I am sure you know.
    In your plans, are you looking ahead at not only the 
problems of security but also the problems of handling that 
much imported gas?
    Admiral Collins. Yes, sir. Of course, the Maritime 
Transportation Security Act that was just passed last fall and 
signed by the President in late November provides an extension 
of the deepwater ports regime to natural gas. It was heretofore 
crude. So we presently have two applications for Deepwater LNG, 
and we are processing that under the terms of the Act. In 
addition, there are additional ports throughout the country 
that are moving to that--of course, LNG has been delivered into 
Boston for some time; Cove Point in the Chesapeake Bay is 
another area to deliver to and has been recently on a track to 
be approved; Savannah receives gas, and there are ports in the 
Gulf. So there are additional ports, and in each case, we have 
looked through the safety and security dimension. Cove Point is 
an example. I know that Senator Mikulski was very intimately 
involved in overseeing the assessment both from a security and 
a safety perspective of LNG coming into Cove Point.
    We did an exhaustive assessment. We partnered like crazy 
with every stakeholder we could imagine in the area. We looked 
at it upside down, sideways, and every which way you can, in 
providing the necessary safety and security provisions, and I 
think we have that one right, and I think it has been agreed to 
across the board by almost everyone who looked at it that we 
have got that right, and that from a safety and security 
perspective, it is reasonable.
    Part of our rulemaking to support the Maritime 
Transportation Security Act--rulemaking that I mentioned 
earlier in my statement, the final rule by November--that 
rulemaking will address offshore dimensions, so we will have as 
part of that rulemaking from a security perspective how we 
provide for and what are the regulations associated with 
security in the offshore.
    It is an evolving thing, a dynamic thing, Senator, and you 
very correctly point out that it is tending to be a growth 
area, and we are following the terms of the Maritime 
Transportation Security Act.
    Senator Stevens. Thank you very much.
    Thank you for your patience, Mr. Chairman.
    That statistic he used that nine of the vessels are 
dedicated to fisheries enforcement, and one of them is in an 
area that is half the coastline of the United States, comes 
back to my original problem. I did go to the Predator factory, 
I talked to the Predator people, I asked them what the capacity 
of Predator was. They told me that we could have slings under 
the Predator that would carry life-saving devices. They told me 
they could carry buoys that could be dropped to a ship that is 
obviously sinking so that the follow-on rescue would not have 
to spend hours trying to find the location. They told me we 
could have loudspeakers that could be operated from the shore, 
as I said, to give a warning as people came in. They told me we 
could have photographic capability on board to take a 
photograph of them with a GPS marker so that we would have to 
have no more proof of the violation after you go back across 
the line in hot pursuit.
    In my judgment, the use of high-technology in the Predator 
will make up for that imbalance in terms of the assignment of 
your vessels. So I urge you to get us a plan, but moving 
forward in that area and using that kind of technology. It will 
not increase your manpower. It will not increase your costs 
except in terms of acquisition costs of new technology. And the 
people who operate those, as you know, could be sitting in San 
Diego and work on the Predators that are over the waters of 
Alaska.
    It is an entirely new concept of life-saving and protection 
of our resources that I think we have got to move into as 
rapidly as possible.
    Thank you very much, Mr. Chairman.
    Admiral Collins. Thank you, Senator. We will take that for 
action. We are almost as enthused as you are, Senator, about 
that technology, and I would rather have it sooner than later. 
I think it is a tremendous force multiplier for us, and we will 
get busy with our pencils and develop a concept for you.
    Senator Stevens. Thank you.
    Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator Stevens. We appreciate 
your contribution to the hearing.

                COAST GUARD DEPLOYMENT OF ASSETS IN IRAQ

    In the supplemental, Admiral Collins, you received $400 
million for work in connection with the Iraqi war, and the 
Coast Guard deployed vessels to the theater. I assume you are 
in the process now of reclaiming some of those for their 
traditional functions closer to the United States.
    To what extent are you in transition, and do you intend to 
have other assets deployed to that region in the near future as 
part of the reconstitution of a government and making available 
whatever assistance our national interests indicate are 
appropriate?
    Admiral Collins. The existing resources that we sent over 
there, the two high-endurance carriers, the eight patrol boats, 
the buoy-tender and so forth, will all come back, and there are 
plans being discussed now with the joint staff on just how and 
when and what are the logistics associated with those. So we 
anticipate in the near term, they are coming back.
    I think it is likely--and I have talked in a conceptual way 
with the joint staff on this--that they will ask for us to 
support some of the maritime security initiative in a post-war 
setting. In other words, one of the things we have done around 
the world is to assist other nations in establishing coast 
guards. We have been doing that since World War II. The 
Japanese Coast Guard was set up by the United States Coast 
Guard as part of MacArthur's occupation.
    We have been doing that ever since in selected places. We 
are in Yemen, where we have an advisor establishing a Yemenese 
Coast Guard. So I think that, yes, in the long-term, the 
initial assets will be coming back that we sent over, and there 
is likely to be some assistance that we can provide in 
establishing maritime security there.
    We will probably rotate on a recurring basis in and out. We 
have, as you may know, Senator, in the last 10 years or so, had 
Coast Guard presence in the Arabian Gulf to enforce the UN 
resolution against Iraq in enforcing that embargo. So we have 
been there for a long time. What the future has in store is 
under development.

                       PORT SECURITY ASSESSMENTS

    Senator Cochran. The supplemental bill also provided 
funding, $38 million, for the completion of the port security 
assessments here in the continental United States. To what 
extent is that funding available to you to fulfill your 
responsibilities? Do you have enough money to complete those 
assessments, and if so, when do you anticipate the completion 
will occur?
    Admiral Collins. Senator, we expect the completion no later 
than the end of calendar year 2004. We are very, very thankful 
for the support of the House and the Senate for that 
supplemental increase. That allows us to get those port 
security assessments on track and done in an expeditious way. 
It was the right call. We thank you for the support. We are, as 
we speak, aggressively making the contractual modifications to 
ensure that the contractor that we have--it is a partnership 
with Northrop Grumman; they are doing assessments--they can 
roll those out to ensure we get them done. But the game plan is 
to get that money on contract, and get them done by the end of 
calendar year 2004.
    Senator Cochran. Is there an order of priority? For 
example, I think about the naval station at Pascagoula on the 
Mississippi Gulf Coast, and Charleston, South Carolina--I know 
Senator Hollings has expressed concerns about that--and I have 
read reports about the challenges in Miami, Florida, with the 
large numbers of cruise ships that come in there as well as the 
containers. Are these areas of high priority, and do you 
foresee that there will be some kind of ranking or assessment 
of priorities as you proceed to do your work?
    Admiral Collins. Right, and we will be glad to provide to 
the committee, Senator, the full list of the 55 ports, in what 
order we are doing it and what the criteria were for that 
order. We will be glad to provide that for you.
    [The information follows:]

    The list of 55 ports has been classified as either For Official Use 
Only or Secret based on how the list is organized. The Coast Guard will 
provide the information separately in an appropriate forum.

    Admiral Collins. We are doing 55 what we call Tier 1 ports 
in terms of volume, critical infrastructure, and a whole host 
of other variables, and those are the ones that we will do 
within calendar year 2004. In addition, we have 47 captains of 
the port around the country, and they are designated by the 
Maritime Transportation Security Act as the Federal maritime 
security coordinators for those areas. Every one of those 
Captains of the Ports already has used what we call the port 
security risk assessment tool that was developed in conjunction 
with our Research and Development Center in Groton, Connecticut 
and American Bureau of Shipping. It is really a neat tool. 
Every captain of the port has used it in advance of these 
studies. So we did not want any dust to settle. We did not want 
to sit on our hands. We really wanted to have some kind of 
baseline assessment, as immediate after 9/11 as we could. So 
the captains of the ports have been busy partnering with all 
the stakeholders in the port, using this tool, identifying 
risk, determining intervention strategy even in advance of the 
rulemaking. I think it is really a positive thing, and what we 
are trying to do is do these things in parallel, not in series, 
and have things fold out so we have a robust position in our 
ports.

                      INTEGRATED DEEPWATER SYSTEM

    Senator Cochran. I know that as a part of your 
modernization effort the Coast Guard has projected the 
Integrated Deepwater System to be a 20-year program to replace 
or modernize aging and technologically obsolete assets of the 
Coast Guard. That is a very sizeable undertaking and plan.
    I notice that some are saying that the funding is not at a 
level where it should be. Some have suggested $79 million in 
additional funding could have been used in this fiscal year to 
get the program moving.
    Do you think that in the 2004 budget request, you have 
sufficient funding requested for this program?
    Admiral Collins. We have funding that keeps very, very 
strong momentum going on this program. Five hundred million in 
a relative sense, looking over the past number of years for our 
capital account is a pretty sizeable chunk of money for one, 
single Coast Guard project.
    So I am very pleased that we have the support to move ahead 
aggressively on it, and of course, the more money you put on 
it, the faster you get the project done. The project was 
designed, Senator, under sort of boundary conditions so that 
all three teams that were competing, three consortia, could 
have the same planning factors. We said design a system that 
guarantees the operational output of the system at a certain 
level, baseline level--98 was the baseline--do it at the lowest 
total cost of ownership, and do it for a capital cost of $500 
million a year and $1 billion total operating cost for the 
system.
    Those were the design parameters. All three of them 
designed to those design parameters and presented those, and we 
awarded the contract. To keep with that notional design, you 
would have to get $500 million a year in fiscal year 1998 
dollars, plus project management costs. So if we are below that 
notional planning, the design of the system has to be morphed, 
and it is morphed by being stretched.
    So that is where we are. We did not get exactly that 
notional planning level, so the project is stretched a bit. 
Now, in the Homeland Security Act of last fall, that Act 
required that we submit a plan, the feasibility of accelerating 
Deepwater and moving it from a 20-year to a 10-year project. 
That report has been submitted--it was the first report 
submitted under the new Department--and that details the 
feasibility of acceleration and the pros and cons.

                       MARITIME DOMAIN AWARENESS

    Senator Cochran. You also have a program called Maritime 
Domain Awareness, and the request in the budget proposes $34 
million for funding of this program. Tell us a little bit about 
that program and whether you think that is a sufficient amount.
    Admiral Collins. I think it is a good start. It is, of 
course, a recurring effort. Maritime domain awareness is a 
concept. It is saying that for us to be truly effective as a 
law enforcement agency and a homeland security agency or a 
fisheries enforcement agency, you have to have transparency of 
your operating environment; you have to have domain awareness, 
and you have to have systems that allow you to get that so the 
scarce ships and planes you do have, you can put them on 
target, and you can push your borders out and have visibility 
of what is coming at you from a security perspective. That is 
sort of the general philosophy of that and I think the central 
feature of our maritime homeland security strategy that we 
published last December, and it is the central capability that 
is embedded in the Integrated Deepwater System.
    The $34 million helps us along the way with that by 
building communications, connectivity and the like, and 
building some prototype harbor operations surveillance systems 
around the country in partnership with the Navy.
    So I think it is a good step, and I think the priorities 
are right there, Senator.

                               RESCUE 21

    Senator Cochran. Another program that I found interesting 
in my briefing papers here is ``Rescue 21''--that is also a 
modernization project--and in the budget request $134 million 
is proposed to be spent in fiscal year 2004 developing more 
cost-efficient towers and receivers for communication purposes.
    Tell us what your reaction to this budget proposal is? Is 
that enough for that program? What do you intend to accomplish 
in the next fiscal year with that money?
    Admiral Collins. That project is right on schedule with the 
funding profile. It is a project that has received a great deal 
of attention both in the Senate and the House. We are mandated 
by Congress to finish the project by 2006, so we have direction 
to not sit on our laurels on this one but to move out in a fast 
way.
    It is on schedule. That money will keep it on schedule. It 
is a tremendously important project. I see that project itself, 
Senator, as a subsystem of this MDA concept, because it gives 
you transparency, it has direction-finding capability in it 
that we do not have now, so when we get a search and rescue 
case, we can direction-find on the transmission; it is digital, 
not analog; multiple channels can be monitored simultaneously; 
it closes geographic coverage gaps around the country. It is a 
tremendously important project, and we are very appreciative of 
the support we have received on the Hill for this project--but 
we are on track with that one.

                       SEARCH AND RESCUE EFFORTS

    Senator Cochran. You mentioned search and rescue. I think 
$26 million is in the budget request for search and rescue. Is 
that sufficient for your purposes?
    Admiral Collins. Yes, Senator. That is part of a multiyear 
effort that we began several years ago to continue to reinvest 
in that. I think when most people think of the United States 
Coast Guard, they think of search and rescue first. We like 
that image, quite frankly, and I think we do it really well. 
But I think there is a time to reinvest, take our pulse in 
terms of our readiness posture there, and I think Congress has 
agreed. And we built this and have continued to invest in our 
search and rescue function over the last 2 or 3 years. In fact, 
from 2002 to 2004, if Congress approves the fiscal year 2004 
request, we will have added 1,000 billets to the search and 
rescue mission in the form of additional people at stations, 
additional people in our command and control nodes, and 
additional training infrastructure to increase and enhance the 
professionalism.
    So yes, I think we are on target, and it is consistent with 
where we have been going in the last couple years.
    Senator Cochran. Thank you very much.
    Director Basham, I want you to understand that we have not 
forgotten you. I know we have had a lot of questions directed 
to the Commandant of the Coast Guard, but there are some 
important questions that I have too about the sufficiency of 
the budget request for the Secret Service and the capacity that 
you have to fulfill your responsibilities.

                 FISCAL YEAR 2004 PRESIDENTIAL CAMPAIGN

    We have an election campaign coming up. Some candidates are 
already out campaigning. Isn't that part of your responsibility 
in the Secret Service, to protect the security of Presidential 
candidates, and if so, do you have sufficient funding requested 
in this budget to do that?
    Mr. Basham. Mr. Chairman, in answer to that, I would say 
yes, I feel very comfortable that we do have sufficient funding 
identified in the fiscal year 2004 budget and some actually in 
the fiscal year 2003 budget to provide that security.
    One of the great benefits of our move into the Department 
of Homeland Security is that we are now going to be able to 
utilize some of those assets that are in that Department to 
assist us with that mission. As a matter of fact, we are 
starting as early as this summer to begin the training of some 
2,000 Federal special agents in other departments within the 
Department of Homeland Security to help us with that mission.
    But as you indicated, we are tasked with that 
responsibility, and there are processes in place which will 
identify those candidates who would receive Secret Service 
protection and then determine the time lines for when that 
would begin and, quite frankly, when it actually ends.
    Senator Cochran. I notice there is a $1.7 million request 
for new equipment to be used in connection with Presidential 
campaign candidate protection. What kind of new equipment are 
you planning to buy, and for what purpose will that equipment 
be used?
    Mr. Basham. I would like to submit that to you off the 
record if I could, Senator, but I can tell you that the 
majority of that would be additional equipment necessary to 
provide it to the other Federal special agents who will be 
assisting us, but primarily in the area of technology. I would 
like to provide that to you later.
    Senator Cochran. That will be fine.
    I notice that you have some reprogramming or reallocation 
of full-time equivalents--250 positions from the Service's 
investigative activity--to staff the Presidential campaigns. 
What happens to the functions that those people normally carry 
out? Who does that work? Is there a breakdown caused by that 
transfer of personnel?
    Mr. Basham. Well, there is somewhat of a temporary pause in 
the activities in our investigative responsibilities in order 
to move those assets to our protective mission.
    Quite frankly, I think the very thing that makes the Secret 
Service strong and gives it its strength is our dual mission of 
protection and investigation, but at times, it also represents 
our Achilles heel in that we do have to move assets from one of 
those missions to the other, and a campaign is an example of 
that.
    But over the years, we have had great success in partnering 
with the other Federal agencies to assist us in that activity.

                         RELATIONSHIP WITH DHS

    Senator Cochran. Do you think the Service has been 
strengthened by the inclusion of the Service in the new 
Department of Homeland Security? Are you better able to obtain 
information that is helpful to you in carrying out your 
mission, or has it become a problem for you?
    Mr. Basham. I would like to echo the comments of Admiral 
Collins on that point. The Secret Service feels that it was an 
excellent move for us to go to the Department of Homeland 
Security. We, as well as the Coast Guard, were moved over 
intact, with our resources and responsibilities, to report 
directly to the Secretary.
    What I think is pointed out here is that the very mission 
of the Secret Service, as I said in my statement, I believe 
mirrors the mission of the new Department of Homeland Security, 
and that is suppression and prevention and protection, and that 
has been for 138 years the methodology and the philosophy of 
the Secret Service, and I think it fits extremely well within 
the new Department.
    I would also like to say that there has been an early 
indication that the cooperation now within this Department as a 
result of this merger is becoming more and more evident as we 
move along.

                          CAPITAL ACQUISITIONS

    Senator Cochran. There is a request for capital 
acquisitions to be funded at an amount of $3.579 million. What 
is the purpose for this appropriation? What are you going to do 
with this money?
    Mr. Basham. I am not completely familiar with the $3.5 
million. If I could, I would like to get back to you with that.
    Senator Cochran. It would be good to know how you plan to 
spend that money.
    Mr. Basham. I will.
    [The information follows:]

    The request for $33 million in the fiscal year 2004 budget was 
developed based on limited understanding of the costs associated with 
the mail screening needs. The Service is currently in the process of 
studying the mail screening needs of certain high risk Federal 
Government agencies, such as, Congressional offices, FBI, CIA, and 
Homeland Security. With this study we will learn the best methods to be 
utilized to implement a central processing facility in lieu of the 
current individual mail processing centers for each agency. A full 
evaluation of methods, operations, technology and other issues related 
to establishing a fully operational mail facility for the White House 
Complex will be established with this study, and a full spend plan will 
be developed at that time.

                        REALIGNMENT OF PERSONNEL

    Senator Cochran. The budget justification indicates that 
the Service is developing a new hiring plan that will consider 
such things as the Service's realignment within the Department 
of Homeland Security. Is there any particular cost estimate 
that you have developed that is attributable to realignment? 
What do you mean by ``realignment''?
    Mr. Basham. As we move into the Department of Homeland 
Security, we are seeing that, particularly in the area of 
critical infrastructure or key asset protection of critical 
infrastructure, it is going to require that the Service 
redesign, and to some extent, it is our training of our special 
agents and Uniformed Division officers as well as our 
professional and technical personnel. Because we have been 
asked to participate in this key asset protection and critical 
infrastructure protection, it is going to require us to go 
about our business somewhat differently.
    I do not know that we identified a specific number or 
amount of money that is going to be necessary, but in our 
Electronic Crimes Special Agent Program which will be dealing 
in cyberspace, if you will, it is going to require that we do 
additional training which is quite expensive, but as of this 
point, we have been using moneys that we currently have to do 
that sort of training.

           NATIONAL CENTER FOR MISSING AND EXPLOITED CHILDREN

    Senator Cochran. I found it interesting to note that there 
is an involvement by the Secret Service in the National Center 
for Missing and Exploited Children. I was not aware of this. 
Tell us a little bit about that and what the responsibilities 
of the Secret Service are that you have assumed using your 
protective expertise to help ensure the safety of America's 
children as well as our schools.
    Mr. Basham. Mr. Chairman, we have been involved with the 
National Center for quite some time to provide them with 
forensic and investigative expertise and to help and assist in 
identifying missing and exploited children.
    As a matter of fact, we just received within the last few 
weeks legislation which now actually gives us authority to work 
with the National Center to further develop this partnership.
    But quite frankly, we feel--and we are very proud of that 
relationship with the National Center and have applied 
resources toward assisting State and local communities in 
identifying and in some cases actually finding missing 
children--but we also found that there is an application of the 
Secret Service's expertise in protection in identifying and 
assessing threats, and we have worked with the Department of 
Education to come up with a training program where we have gone 
out to various school districts around the country, and we have 
tried to help them identify possible threats by, whether it is 
schoolchildren or others, directed toward those schools and 
have had success in actually thwarting what would have been 
some very, very disastrous events out there.
    Senator Cochran. Thank you very much for that information. 
I have some other questions that I am going to submit in 
writing for your consideration. We hope you will be able to 
respond in a reasonable time. And, Admiral Collins, we have 
other questions that we will probably submit to you as well, 
and we hope you will cooperate by submitting answers in writing 
in a reasonable time.
    Senator Byrd.

                          PORT SECURITY GRANTS

    Senator Byrd. Thank you, Mr. Chairman.
    You mentioned earlier the signature by the President of the 
Maritime Transportation Security Act on November 25 of last 
year. On that day, the President said this, and I quote: ``We 
will strengthen security at our Nation's 361 seaports, adding 
port security agents, requiring ships to provide more 
information about the cargo, crew, and passengers they carry.''
    The Coast Guard has since estimated the cost of 
implementing the Act at $1.4 billion in the first year and $6 
billion in the next 10 years. Congress has worked diligently to 
establish a mechanism for direct Federal grants to assist the 
ports. Altogether, Congress has provided $348 million to help 
ports establish new security measures. Unfortunately, none of 
these funds--nothing was requested along this line by the 
Administration. In the most recent competition, ports sent in 
over $1 billion in applications for $105 million of funding.
    Just 2 months after signing the Act, the President sent to 
Congress a budget that did not include any funding for Social 
Security grants. Yet in his State of the Union, the President 
said that we have intensified security at ports of entry.
    Do you have any comment as to how one might reconcile these 
statements with the President's request?
    Admiral Collins. I think clearly, the approach to our 
rulemaking, which we are approaching aggressively, is that the 
investment is a shared burden approach. In terms of our budget, 
you can look at the Coast Guard's budget and see elements 
within that that represent a Federal investment in the 
increased security of our ports--the fact that by the end of 
2004, we will have 12 maritime safety and security teams around 
the country, we will have additional patrol boats, additional 
small boats. Those represent the Federal investment in the 
security of the ports.
    So that just in our budget alone, I think there are 
significant elements that will enhance the security of the 
Nation in our ports. The $1.4 billion and the $6 billion are 
estimates of the impact of the rulemaking on the private sector 
relative to the security enhancements which may be required as 
a result of the rulemaking, and it is our estimate in terms 
of--most of that, Senator, is on the vessel aspects of the 
rulemaking, and then there is the facility aspect of the 
rulemaking, and most of that estimate, close to $1 billion of 
the $1.4 billion, is on the facility end, the facility impact.
    It is a shared approach, and if you look through our 
budgets, particularly the Coast Guard budget, there is 
considerable investment in enhancing port security reflected in 
the additional assets that we are going to bring to bear to the 
issue.
    Senator Byrd. Let me try again. Congress provided $348 
million--that is an easy figure to remember. Do you remember 
what Andy Gump's license number was? Three-forty-eight. Perhaps 
you are not familiar with Andy Gump. That is an old comic strip 
that I saw a good many years ago when I was a boy.
    We provided $348 million to help ports establish new 
security measures. I am asking why you might construe the 
President's request--he sent a budget that did not include any 
funding for port security grants. Yet in the State of the 
Union, the President said we have intensified security at ports 
of entry. So there is a discrepancy here, it seems to me.
    What role have you taken in budget discussions to support 
additional funding for port security based on the new law?
    Admiral Collins. Part of the discussions, and they are 
still underway in terms of what it will take to implement the 
new law from our perspective and under the administrative 
oversight of the rulemaking, and the rulemaking is going to 
require plans, facility plans, security plans, which have to be 
reviewed and approved, and you have got to have capacity to do 
that. That dialogue is underway, and it is not reflected in the 
fiscal year 2004 budget. That is sort of an unfunded mandate, 
if you will, at this juncture in terms of actually 
administering the rule when it finally comes out--under 
discussion.
    Senator Byrd. Let me try it this way. We provided $348 
million to help ports establish new security measures. None of 
these funds were requested by the administration. In the most 
recent competition, ports sent in over $1 billion of 
applications for $105 million in funding.
    Were requests made to OMB for additional funding for port 
security based on the new law? Would you answer that?
    Admiral Collins. No, because of course, number one, the 
$1.4 billion is the estimate of the private sector costs 
associated with this. Of course, the rule is not even in effect 
yet and is not even published yet--it does not come out until 
this summer. The fiscal year 2004 budget was done about that 
same time, so a lot of these things did not find their way into 
the fiscal year 2004 budget because of timing for instance, the 
port security assessments gap that was addressed by the 
supplemental, so the supplemental addressed that.
    So it was a timing issue amongst other things, Senator.

               WHITE HOUSE MAIL SCREENING AND PROCESSING

    Senator Byrd. I have a couple of questions which I will 
direct to Director Basham.
    You spoke of programmatic budget increases requested. The 
only programmatic budget increase requested for fiscal year 
2004 is $33 million for White House mail screening and 
processing. That function has historically been the 
responsibility of the White House Office of Administration.
    The Secret Service has been stretched in recent years to 
meet many new responsibilities. As a consequence, overtime 
rates have continued to be high, attrition rates have 
increased. Given these constraints in your traditional mission, 
what is the rationale for transferring the EOP mail processing 
function from the White House to the U.S. Secret Service?
    Mr. Basham. Senator, I believe the rationale was that the 
Administration felt that the processing of this mail, or the 
security surrounding the processing of this mail, would fall 
within the purview or the mission of the Secret Service. So 
what we are currently in the process of doing is a study to 
make a determination as to what is the best method for 
processing mail and identifying potential threats, whether 
there needs to be a Government-wide application of this 
processing to provide security to not just the White House but 
to any Government entity that may be threatened through the 
mail. The Service has agreed to work with the White House to 
come up with a plan as to how this should be applied.
    The Service at this point is providing technical expertise 
to this issue. We are not actually in the process of processing 
the mail, and the $33 million was a figure that was placed 
there as a placeholder, because we really do not know what the 
costs are going to be associated with the processing, whether 
it is going to require a facility, additional personnel, 
whether there should be contract personnel or Government 
personnel.
    So when we get the results of the study, we will have a 
better idea as to exactly what requirements there are going to 
be. But we agree that the Service should not be in the position 
of having to actually physically do that processing.
    Senator Byrd. If it was a placeholder, why was it not $30 
million or $35 million, rather than $33 million? What will $33 
million buy?
    Mr. Basham. We do not have any information as to why $33 
million was identified for that project. It is our 
understanding that it was merely an amount of money that was 
earmarked by OMB to do that, recognizing that there were going 
to be some costs associated with this. So I cannot tell you why 
it was not $30 million or $35 million but yet $33 million.
    Senator Byrd. Would you please provide for the record what 
the $33 million would buy?
    Mr. Basham. What it will buy--yes, sir.
    [The information follows:]

    The request for $33 million in the fiscal year 2004 budget was 
developed based on limited understanding of the costs associated with 
the mail screening needs. The Service is currently in the process of 
studying the mail screening needs of certain high risk Federal 
Government agencies, such as, Congressional offices, FBI, CIA, and 
Homeland Security. With this study we will learn the best methods to be 
utilized to implement a central processing facility in lieu of the 
current individual mail processing centers for each agency. A full 
evaluation of methods, operations, technology and other issues related 
to establishing a fully operational mail facility for the White House 
Complex will be established with this study, and a full spend plan will 
be developed at that time.

    Senator Byrd. In fiscal year 2003, $9 million was proposed 
to be transferred from the Office of Homeland Security to the 
Department of Homeland Security for the purpose of EOP mail 
processing. What is the status of the $9 million transfer, and 
will this funding to the Secret Service?
    Mr. Basham. The $9 million was, I believe, an amount that 
was assessed across the various agencies on a percentage basis. 
That happened to be the amount that the Service was requested 
to put forward from the 2004 budget request.
    So I will have to provide you with information as to how 
that is going to be applied and where it is coming from.
    Senator Byrd. All right.
    [The information follows:]

    This $9 million was transferred to the Service on March 17, 2003 
from the Office of Homeland Security pursuant to section 1516 of the 
Homeland Security Act of 2002, Public Law 107-296.
    This funding will be used to cover the cost of sustaining mail 
screening for the Executive Office of the President while designing an 
ideal mail processing facility. It will fund the utilization of an 
interim facility to handle and process all mail addressed to the White 
House Complex and screen it for selected chemical, biological, 
radiological, nuclear, and explosives (CBRNE) contaminants. This 
screening function is undertaken as a means of facilitating the overall 
R&D effort. This research is being carried out by the U.S. Army Soldier 
and Biological Command, Department of Defense.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Byrd. Mr. Chairman, I thank you. I have a few 
questions that I will submit also for the record.
    Senator Cochran. Thank you, Senator Byrd.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

        Questions Submitted to the United States Secret Service

              Questions Submitted by Senator Thad Cochran

    Question. The fiscal year 2004 budget request for capital 
acquisitions is $3.5 million. This budget activity covers operational 
costs at the James J. Rowley Training Center. The budget request for 
capital acquisitions proposes an increase of roughly $82,000 above the 
fiscal year 2003 appropriations level. Will capital acquisition funds 
also be used to perform facility upgrades to the recently acquired 
Webster school?
    Answer. The $3.5 million request for capital acquisitions in fiscal 
year 2004 would be dedicated to operational infrastructure repairs at 
the James J. Rowley Training Center. In fiscal year 2002, the Service 
did dedicate $442,000 to maintain the structural integrity of the 
Webster School, however, the Service obligated these funds from its 
base budget, not its capital acquisitions budget. None of the $3.5 
million requested for capital acquisitions in fiscal year 2004 will be 
used to perform facility upgrades to the Webster School.
    Question. The budget request identifies $1.7 million for security-
related equipment to support Presidential Campaign protection. Has the 
Secret Service worked with the Science and Technology directorate to 
determine what types of equipment to use to protect against chemical, 
biological, and other attacks?
    Answer. The Secret Service's Technical Security Division maintains 
technical liaison with other agencies and private industry concerning 
current and future developments in state-of-the-art technologies to 
assist in developing concepts, equipment, etc. supporting research and 
development in the areas of chemical, biological, radiological, and 
nuclear detection and countermeasures. The Secret Service continues to 
expand on partnerships with other Federal agencies, universities, and 
industry to coordinate research and development in the areas of 
infrastructure protection; investigative support; physical security; 
explosives detection; and the evaluation, modification and procurement 
of off-the-shelf equipment. Recently, the Technical Security Division 
met with the Director of the Science and Technology Directorate of DHS. 
This meeting fostered a direct interchange with DHS concerning 
chemical/biological technology requirements and development.
    Question. The protection of our nation's critical infrastructure is 
a fundamental priority of the Department of Homeland Security. What 
collaborative efforts will take place between the Information Analysis 
and Infrastructure Protection directorate and the Secret Service?
    Answer. The Secret Service Intelligence Division collaborates 
directly with the Information Analysis and Infrastructure Protection 
Directorate through the Homeland Security Center. This center is 
staffed with an Intelligence Division Special Agent on a 24-hour basis 
to serve as a conduit of information relating to threats against USSS 
protectees and National Special Security Events. The Secret Service 
provides immediate notification to DHS through the Center regarding 
incidents which may adversely affect our nation's critical 
infrastructure. This information can be compared with that from all 
agencies under IA&IP to indicate trends in threat behavior, and 
identify vulnerabilities.
                                 ______
                                 

             Questions Submitted by Senator Robert C. Byrd

                          budget presentation
    Question. The fiscal year 2004 budget justification includes 
$1,003,435,000 as the budget estimate for fiscal year 2003. In the 
fiscal year 2003 budget justification, the fiscal year 2003 estimate 
was $1,010,435,000, a $7,000,000 difference. Was this funding 
transferred to the Department of Homeland Security? If so, under what 
authority was this transfer made? If the funding was not transferred, 
please explain the $7,000,000 reduction.
    Answer. This $7,000,000 difference was not transferred to the 
Department of Homeland Security. To maintain 3-year comparability in 
the President's Budget, these funds were shown in the Departmental 
Management Operating Expenses account to represent the consolidation of 
managerial activities at the headquarters level and the savings 
associated with centralizing these functions in the new Department. The 
reallocation was made for budget presentation purposes only, with no 
loss of funding actually occurring in fiscal year 2003.
                         consolidation savings
    Question. Your prepared testimony states that ``These budget 
increases are offset by a $9,000,000 reduction in the base budget 
reflective of our reorganization into the Department of Homeland 
Security, and anticipated consolidation savings from integration with 
Department-wide processes and operations.'' The budget justification 
submitted to Congress doesn't appear to identify this reduction. Has 
the $9 million in savings been identified? If so, provide a detailed 
list of the anticipated savings. If the savings cannot be achieved, 
what is the impact on personnel and your future hiring plans?
    Answer. The $9 million identified above is made up of $7 million 
associated with consolidation of managerial activities at the 
Departmental level and $2 million in savings anticipated from 
integration with the Department-wide processes and operations. The 
Department of Homeland Security is currently reviewing operations 
across all entities to ascertain where efficiencies and cost savings 
can be achieved. One expense area believed to hold the most promise is 
consolidation of information technology expenses. For example, the 
buying of Enterprise licenses in bulk for the entire Department, rather 
than individually for each entity within the Department, is being 
carefully considered as one means to achieve cost savings.
               white house mail screening and processing
    Question. The only programmatic budget increase requested for 
fiscal year 2004 is $33 million for White House Mail Screening and 
Processing. This function has historically been the responsibility of 
the White House Office of Administration. What is the rationale for 
transferring the EOP mail processing function from the White House to 
the United States Secret Service?
    Answer. The Service has a responsibility for ensuring that any 
potential threat to the safety and security of the White House is 
eliminated. This includes any threats that could arise from the 
delivery of mail addressed to the White House.
    Question. What responsibilities will the Secret Service have with 
regard to White House Mail Screening and Processing?
    Answer. The Secret Service is responsible for screening of all 
threats to those whom it has been directed to protect. The mail is just 
one aspect of this process. Secret Service employees check mail 
addressed to the White House for potential physical threats (such as 
munitions, and chemical, biological, and radiological material) and 
then allow the Office of Administration to sort and deliver the 
screened packages.
    Question. Provide a spend plan associated with the $33 million 
request.
    Answer. The $33 million request for mail screening activities in 
the fiscal year 2004 budget was developed based on limited 
understanding of the costs associated with the mail screening needs. 
The Service is currently in the process of studying the mail screening 
needs of certain high risk Federal Government agencies, such as 
Congressional offices, FBI, CIA, and DHS. With this study we will learn 
the best methods to be utilized to implement a central processing 
facility in lieu of the current individual mail processing centers for 
each agency. A full evaluation of methods, operations, technology and 
other issues related to establishing a fully operational mail facility 
for the White House Complex will be established with this study, and a 
full spend plan will be developed at that time.
    Question. In fiscal year 2003, $9 million was proposed to be 
transferred from the White House Office of Homeland Security to the 
Department of Homeland Security for the purpose of EOP mail processing. 
What is the status of the $9 million transfer and will this funding go 
to the Secret Service and for what purpose?
    Answer. The transfer of $9 million from the White House Office of 
Homeland Security to the Service has been completed. The Service has 
used this funding to contract with the U.S. Army Soldier and Biological 
Command, Department of Defense to handle and process all mail addressed 
to the White House Complex and screen it for selected chemical, 
biological, radiological, nuclear, and explosives (CBRNE) contaminants.
    Question. What is the status of the Secret Service's study on White 
House mail processing? When will the study be completed?
    Answer. We expect to award the contract for the study on White 
House mail processing on May 30, 2003, and have the study completed by 
November 30, 2003.
             usss special agent workforce & quality of life
    Question. Over the past 3 fiscal years, Congress provided 
significant funding increases to the Secret Service to address 
workforce quality of life issues such as excessive overtime rates and 
excessive travel. According to your prepared testimony, the Service has 
hired 1,098 special agents over a 3 year period and 545 Uniformed 
Division officers and 453 support personnel during the same period. The 
intention of this initiative was to reduce overtime levels and achieve 
overall levels of overtime closer to fiscal year 1994 levels. According 
to information submitted by the Secret Service last year, average 
monthly overtime levels remained at levels close to the fiscal year 
2000 high of 80.06. What is the average monthly overtime level now and 
is the fiscal year 2004 budget request sufficient to achieve levels 
closer to fiscal year 1994 levels? If not, what funding level, above 
the President's request, would be necessary to achieve that goal?
    Answer. For the first 6 months of fiscal year 2003, overtime worked 
by field agents averaged 61.21 hours per month--this is below the 1994 
level of 62 hours per month. The Service recognizes the increased 
workload for the 2004 Presidential campaign and believes that it has 
sufficient funding budgeted for overtime.
                     usss uniformed division hiring
    Question. Over the past few years, the Secret Service has 
experienced a higher than average non-retirement attrition rate for 
Uniformed Division personnel. In 2001, the non-retirement attrition 
rate was 6.42 percent compared to 1.14 percent in 1995. In 2002, the 
attrition rate was 15.18 percent through the first half of the year. 
Most of the separations were due to the Transportation Security 
Administration's air marshals hiring program. Is the Uniformed Division 
staffed at a level you are comfortable with and if not, why doesn't the 
fiscal year 2004 budget request address this need?
    Answer. The Service is currently working with the Department of 
Homeland Security and the Administration to review staffing levels 
within the Uniformed Division. As discussed above, the fiscal year 2004 
budget includes appropriate levels to support the current staffing 
levels for the entire Secret Service.
    Question. What additional requirements need to be met and what is 
the funding level needed to meet your hiring demands in fiscal year 
2003 and fiscal year 2004?
    Answer. As discussed above, the Service is currently working with 
the Department and the Administration to review the Uniformed 
Division's staffing needs. Once appropriate decisions have been made, 
funding levels will be reassessed to ensure that revisions to current 
staffing levels can be accommodated within requested funds.
                            usa patriot act
    Question. The USA Patriot Act, Public Law 107-056, provided the 
Secret Service with additional authorities and mandates. Provide a list 
of requirements and expanded authorities given to the Secret Service as 
a result of that Act. Provide a list of activities, with associated 
funding levels, that have been undertaken as a result of that Act.
    Answer. The USA Patriot Act (``the Act'') included five sections 
specifically addressing Secret Service initiatives and investigative 
authorities.
  --Section 105 of the Act requires the Director to develop a national 
        network of electronic crime task forces based on the New York 
        Electronic Crimes Task Force model to prevent, detect and 
        investigate various forms of electronic crimes.
  --Section 374 extends the reach of the domestic counterfeiting 
        statutes (Chapter 25 of Title 18 U.S.C.) to include analog, 
        digital or electronic images, and provides enhanced penalties 
        for these offenses.
  --Section 375 extends the reach of the foreign counterfeiting 
        statutes (Chapter 25 of Title 18 U.S.C.) to include analog, 
        digital or electronic images, and provides enhanced penalties 
        for these offenses.
  --Section 377 provides extra-territorial jurisdiction for violations 
        of 18 U.S.C. Sec. 1029 committed abroad, to include fraud and 
        related activity in connection with access devices.
  --Section 506 provides concurrent jurisdiction for the Secret Service 
        to investigate computer-based crimes under 18 U.S.C. Sec. 1030, 
        along with the FBI. This section also provides for the re-
        authorization of Secret Service jurisdiction for financial 
        institution fraud under 18 U.S.C. Sec. 1344. This authority was 
        due to expire in 2004.
    Since 1984, and with the re-authorization contained in the USA 
Patriot Act, the Secret Service has been authorized to investigate 
crimes committed with the use of a computer.
    The Secret Service works closely with stakeholders in the financial 
services industry, electronics manufacturing sector, and information 
services, to provide feedback regarding the misapplication of advances 
in computer related products.
    The New York Electronic Crimes Task Force (NYECTF) task represents 
a strategic alliance of more than 661 regional members or groups 
including: prosecutors; local, state and Federal law enforcement; 
academia; and companies in private industry with interests in banking, 
financial services, brokerage, and telecommunications. The common 
denominator in the NYECTF is that each member, be it law enforcement or 
industry, is a stakeholder with a business or investigative interest in 
preventing electronic crime. Each member adds value through specialized 
knowledge or expertise in contributing to the common goal. As a 
testament to the resolve and adaptability of the agents and members, 
the NYECTF resumed operations within 48 hours of the loss of its base 
of operations in the New York Field Office. The NYECTF defines the 
Secret Service's priority on partnerships, and demonstrates the 
economies of scale inherent in the task force approach.
    Based on the mission and organization of the NYECTF, the Secret 
Service established eight additional electronic crimes task forces 
throughout the country, in locations with significant or specialized 
interests in the critical financial, banking or information 
infrastructures. These additional task forces are located in Boston, 
Washington, DC, Charlotte, Miami, Chicago, Las Vegas, Los Angeles, and 
San Francisco.
    For fiscal year 2003 and beyond, we intend to follow-through with 
the development and implementation of additional specialized training, 
and pursue recently enacted legislative authority by forming electronic 
crimes task forces based on the New York Electronic Crimes Task Force 
model.
    Currently, the Service spends approximately $3 million to $4 
million per fiscal year on the operation of these task forces and their 
efforts to thwart cyber-crime.
                    national special security events
    Question. The Secret Service is required to be the lead agency for 
security at National Special Security Events (NSSEs). Depending on the 
size of the event, the associated costs can vary dramatically. Except 
for the 2002 Winter Olympics, which was paid for in the fiscal year 
2002 Emergency Supplemental, the costs associated with these events 
have been paid for through the Department of Treasury's 
Counterterrorism Fund. Not once has the Secret Service budgeted for a 
NSSE through the normal budget process, even though some events are 
known well in advance such as the annual State of the Union Address and 
the national political conventions every 4 years. Now that the Secret 
Service is part of the Department of Homeland Security, will the 
Department of Homeland Security Counterterrorism Fund pay for these 
events or will you be pursuing another mechanism?
    Answer. The use of the Department of the Treasury's 
Counterterrorism Fund to cover the extraordinary and unbudgeted costs 
of National Special Security Events worked very well for the Secret 
Service. It worked well because of the ad hoc nature of these events 
and the ongoing availability of funding provided with the 
Counterterrorism Fund. With the dissolution of Treasury's Office of 
Enforcement, Treasury's Counterterrorism Fund was transferred to the 
Department of Homeland Security as part of the determination order 
process. Unless a fund is specifically established to cover the costs 
of NSSEs, the Service anticipates that the DHS Counterterrorism Fund 
will be the source of funding for these events, and that processes at 
DHS will mimic those that worked well at the Department of Treasury.
                   national threat assessment center
    Question. Since fiscal year 2001, Congress has appropriated 
approximately $1.7 million and 4 FTE annually for the Secret Service's 
National Threat Assessment Center (NTAC). The purpose of NTAC is to 
share Secret Service expertise in identifying, assessing, and reducing 
threats to homeland security. Following the school shooting in 
Columbine in 1999, the Secret Service started the ``Safe School 
Initiative.'' The purpose of this program is to share expertise in 
identifying threatening behavior and preventing violence. Through a 
partnership with the Department of Education, this program has reached 
thousands of teachers and law enforcement officers across the country. 
According to your prepared testimony, the Secret Service has conducted 
46 Safe School Initiative presentations and 12 day-long training 
seminars around the country.
    Now that the Secret Service is part of the Department of Homeland 
Security, NTAC's focus is also on assisting the Information Analysis & 
Infrastructure Protection Directorate to help focus on the risk and 
consequences of a domestic terrorist attack.
    With an annual budget of $1.7 million and 4 FTE, how is NTAC 
balancing these two needs?
    Answer. The National Threat Assessment Center is able to meet the 
demands of current research and training obligations under current 
budget allocations. Any increased demands related NTAC support of the 
Department of Homeland Security will be met within the current budget 
through careful prioritization of the program's workload and, as 
necessary a reallocation of existing resources. Currently the Center 
supports all feasible requests for seminar training, declining only 
those requests that are too costly for participants or those which do 
not have enough participants to conduct training cost effectively. The 
Center balances requests for service with resource availability in the 
areas of research, presenting findings, and training. Through this 
balancing we will be able to continue to deliver timely and accurate 
information to the law enforcement community and the public.
    Question. According to information provided by your agency last 
year, the Secret Service was able to meet approximately 60 percent of 
the written requests to present information from the Safe School 
Initiative in fiscal year 2001. What percentage of the demand was met 
in fiscal year 2002? Can you provide the funding needed to meet the 
unmet demand in fiscal year 2003? What funding level is necessary to 
respond to 100 percent of the written requests in fiscal year 2004?
    Answer. The Service met 69.4 percent of the requests it received to 
provide information on the Safe School initiative in fiscal year 2002. 
We conducted 50 training sessions with approximately 8,500 attendees. 
Twenty-two requests were declined. The decision to decline such 
requests was typically based on the very small number of attendees 
expected, scheduling conflicts, or because the organizers were charging 
unusually high fees for attending the presentation. The Service is not 
declining requests for presentation because of a lack of funding.
                                 ______
                                 

          Questions Submitted to the United States Coast Guard

              Questions Submitted by Senator Thad Cochran

                           homeland security
    Question. The Homeland Security Act requires the continuation of 
all non-homeland security missions of the organizations transferred to 
the Department of Homeland Security. It directs that Coast Guard non-
homeland security capabilities be maintained without significant 
reduction unless specified in subsequent law. What specific criteria 
would you apply if the Coast Guard was faced with a choice between 
carrying out a non-homeland security mission and a homeland security 
mission?
    Answer. As a military, maritime, multi-mission organization, the 
Coast Guard recognizes that its Maritime Homeland Security (MHS) and 
Non-Maritime Homeland Security (non-MHS) missions are not mutually 
exclusive. Resource obtainment and allocation efforts, at the strategic 
and tactical level, are made utilizing values, experience, training, 
judgment, and a keen eye toward balancing the risks involved in the 
situation at hand.
    Consider the tactical resource allocation example of a Coast Guard 
cutter and embarked helicopter patrolling the waters off the south 
coast of Florida. The multi-mission capabilities of these assets and 
the people who crew them result in a resource mix that on any given day 
might:
  --Respond to a call from a sinking sailboat (non-MHS mission--Search 
        & Rescue);
  --Conduct a boarding on a commercial fishing vessel (non-MHS 
        missions--Marine Safety, Living Marine Resources, and Marine 
        Environmental Protection);
  --Interdict a ``go-fast'' approaching U.S. shores (MHS missions--
        Ports, Waterways & Coastal Security; Drug Interdiction; Migrant 
        Interdiction);
  --Escort a Naval ship during a military out load operation (MHS 
        missions--Ports, Waterways & Coastal Security; Defense 
        Readiness).
    Should a situation unfold in which a MAYDAY call and ``go fast'' 
sighting occur simultaneously, the Coast Guard Operational Commander 
would utilize the assets available and the aforementioned decision-
making tools in crafting a response, keeping in the forefront of his or 
her mind the premise that human life takes precedence.
    A second example, this one in the realm of strategic resource 
obtainment, pertains to the President's fiscal year 2004 budget 
request. The funds requested in the fiscal year 2004 budget are 
critical to overall mission balancing efforts and to the sustainment of 
the Coast Guard's high standards of operational excellence across all 
missions. It is important to note that every MHS dollar directed to the 
Coast Guard will contribute to a careful balance between our safety and 
security missions, both of which must be properly resourced for 
effective mission accomplishment. The fiscal year 2004 budget reflects 
steady progress in a multi-year resource effort to meet America's 
future maritime safety and security needs. This new funding will 
positively impact performance in all assigned missions.
    In performance-based organizations, such as the Coast Guard, 
resource obtainment and allocation decisions are made with the 
overarching mission outcome in mind. Coast Guard decision-making 
criteria is focused on successful mission performance, and led by our 
values, training, experience, judgment, sense of balance, and risk 
management skills.
                       merchant mariner documents
    Question. After September 11, 2001, the need for tamper-resistant 
identification cards became a priority for all agencies of the 
government issuing these types of cards. The fiscal year 2003 
supplemental appropriations act provides $10 million to the Coast Guard 
for updating the Merchant Mariner Documents provided to certain 
qualified crew members. Please tell the subcommittee how you plan to 
use the supplemental appropriations provided.
    Answer. Fiscal year 2003 supplemental funding will be used to 
provide contractor support at the Regional Exam Centers (REC) in fiscal 
year 2003 and a portion of fiscal year 2004 to accommodate workload 
surges resulting from the enhanced security processes; to install 
technological improvements such as electronic fingerprinting 
capabilities to reduce processing time and upgrades to the database for 
mariner documentation tracking and record keeping; to provide more 
Investigating Officers in the field to adjudicate security issues 
discovered on mariner applicants; and, to centralize where possible 
those functions not requiring face-to-face contact with the applicant.

             SPEND PLAN FOR $10 MILLION SUPPLEMENTAL FUNDING
------------------------------------------------------------------------
                                                              Planned
            Item Description                   Cost          Execution
                                                           (fiscal year)
------------------------------------------------------------------------
Additional personnel and equipment at         $5,000,000       2003/2004
 the RECs...............................
Electronic Fingerprinting Equipment.....       1,000,000            2003
Additional Investigating Officers.......         700,000       2003/2004
Additional personnel for screening and         1,900,000       2003/2004
 evaluation support.....................
Mariner credentials database upgrades...       1,000,000       2003/2004
Additional program management and                400,000            2003
 project support........................
                                         -----------------
      Total.............................      10,000,000
------------------------------------------------------------------------

    The upgrades for issuing credentials to mariners operating in the 
Marine Transportation System are intended to ensure that credentials 
are never issued to those who pose a threat to national security or 
marine safety. This new system includes a more robust vetting process 
for mariners and more personal interaction between the mariner and the 
REC to verify the applicant's identity. In addition, a more tamper-
resistant card is being issued to minimize the chance of misuse. The 
Coast Guard will continue to work with other agencies, especially the 
Transportation Security Administration, to achieve a ``good 
government'' solution that is fast, accurate, and consistent.
    Question. Have you discussed with Secretary Ridge the possibility 
of working with other agencies of the Department of Homeland Security 
that are also in the process of developing more secure identification 
cards for employees, such as the Transportation Security 
Administration, Citizenship and Immigration Services, or the Bureau of 
Customs and Border Protection?
    Answer. Yes. The Transportation Security Administration (TSA) is 
responsible for developing the Transportation Workers Identification 
Credential (TWIC) for use as a transportation system common credential, 
used across all modes, for all transportation workers requiring 
unescorted access to secure areas of the transportation system. The 
Coast Guard has participated with the Department of Transportation and 
TSA in the development of the TWIC concept since its inception. The 
Coast Guard is working with the TSA Credentialing Office and monitoring 
their ongoing efforts to develop and implement the TWIC program. The 
Coast Guard will continue to work closely with TSA and DHS to ensure 
the Merchant Mariner credentialing process is aligned with the TWIC 
when finalized by TSA to provide the best government solution.
                              war on iraq
    Question. You state in your prepared testimony that the Coast Guard 
deployed the greatest number of assets overseas during the War on Iraq 
since the Vietnam War, to include 2 high endurance cutters, 8 patrol 
boats, 1 buoy tender, 4 port security units and 2 maintenance support 
units. Does the Coast Guard plan to leave any assets overseas as part 
of the President's plan to assist the Iraqi people in rebuilding their 
country and developing a democracy? If so, which assets and what would 
be the responsibility of the Coast Guard regarding those assets and the 
cost incurred by the Coast Guard in support of those assets?
    Answer. The Coast Guard is awaiting information from the Combatant 
Commander on the exact needs for Coast Guard forces to assist in the 
rebuilding of Iraq. Over half of the Coast Guard forces deployed have 
already been released by the Combatant Commanders and are returning or 
have returned to the United States.
    Question. As the Coast Guard's deployed assets return home there 
are general maintenance and repair needed to restore equipment to its 
pre-war capacity. Does the Coast Guard have sufficient funding, either 
from the fiscal year 2003 Consolidated Appropriations Resolution or the 
fiscal year 2003 Emergency Wartime Supplemental Appropriations Act, to 
address those needs?
    Answer. The Department of Defense has been appropriated funds 
within the IRAQI FREEDOM Fund of the 2003 Emergency Wartime 
Supplemental Appropriations Act of which ``up to'' $400 million may be 
transferred to the Coast Guard to cover the costs for supporting 
Operation IRAQI FREEDOM. The Coast Guard is working with the Department 
of Defense to effect the transfer of those funds to the Coast Guard. 
The Coast Guard expects to receive sufficient funds to cover the 
reconstitution of its deployed forces.
    Question. If not, do you have estimates of additional funding 
needed to cover the costs of reconstituting the Coast Guard assets?
    Answer. The Department of Defense has been appropriated funds 
within the IRAQI FREEDOM Fund of the 2003 Emergency Wartime 
Supplemental Appropriations Act of which ``up to'' $400 million may be 
transferred to the Coast Guard to cover the costs for supporting 
Operation IRAQI FREEDOM. The Coast Guard is working with the Department 
of Defense to effect the transfer of those funds to the Coast Guard. 
The Coast Guard expects to receive sufficient funds to cover the 
reconstitution of its deployed forces.
                    fiscal year 2004 budget request
    Question. The President's fiscal year 2004 budget requests $6.77 
billion for the Coast Guard, which is approximately $700 million over 
the fiscal year 2003 level. Do you believe this is adequate funding to 
support the homeland security and non-homeland security activities of 
the Coast Guard?
    Answer. The fiscal year 2004 budget reflects steady progress in our 
multi-year resource effort to meet America's future maritime safety and 
security needs. This new funding will positively impact our performance 
in all assigned maritime homeland security (MHS) and non-MHS 
performance goals. The multi-mission resources requested in the fiscal 
year 2004 budget are critical to overall mission balancing efforts and 
to the sustainment of the Coast Guard's high standards of operational 
excellence across all mission areas. It is important to note that every 
Homeland Security dollar directed to the Coast Guard will contribute to 
a careful balance between our safety and security missions, both of 
which must be properly resourced for effective mission accomplishment.
    From the fiscal year 2002 enacted budget to 2004 request, the Coast 
Guard has received over 32 percent budgetary growth. This includes 
personnel Growth of 800 in fiscal year 2002, 1,400 in 2003 and nearly 
2,000 in the fiscal year 2004 request. The Coast Guard's $6.7 billion 
request in fiscal year 2004, a 10 percent increase over the previous 
year's enacted budget, provides resources to perform increased MHS 
operations and sustain non-MHS missions. It will specifically enable us 
to accomplish three primary goals:
    Recapitalize Legacy Assets and Infrastructure: The Integrated 
Deepwater System is requesting funding for conversion of five 110 
patrol boats to more capable 123 patrol craft, seven Short Range 
Prosecutor small boats, the first National Security Cutter (to be 
delivered in fiscal year 2006), the continued development of a Common 
Operating Picture (COP), command and control system at four shore-based 
command centers and the continuation of the Rescue 21 command and 
control communications project which will be 35 percent complete at end 
of fiscal year 2004 (100 percent complete by end of fiscal year 2006).
    Build-Out Homeland Security Operations.--Increase our Maritime 
Domain Awareness by leveraging our recent inclusion in the National 
Intelligence Community and investing in communications capability that 
will enable us to remain interoperable with DOD, DHS modes, and other 
Federal, local and State agencies. The fiscal year 2004 request will 
also fund six new deployable Maritime Safety and Security Teams (for a 
total of 12 teams), 58 Sea Marshals, 43 Response Boats (Small) & 8 
Response Boat (Mediums), the stand-up of Stations Boston and Washington 
(D.C.), two new Port Security Units (for a total of 12 teams) and nine 
87 Coastal Patrol Boats.
    Sustain Non-HLS Missions.--Funding for 390 new personnel towards 
achievement of a 68-hour workweek at our multi-mission stations and a 
12-hour watch standard at command centers. Resources area also included 
for training enhancements at the National Motor Lifeboat School and 
Boatswainmate ``A'' school.
    Support of the President's fiscal year 2004 budget will enable the 
Coast Guard to meet the maritime safety and security challenges that 
America will face in the 21st century.
    Question. How much of the proposed funding is for homeland security 
related activities and how much is for non-homeland security related 
activities?
    Answer. The Coast Guard's fiscal year 2004 Operating Expenses (OE) 
budget is shown in both tabular and graphical form. This OE funding 
does not include Reserve Training (RT) or Environmental Compliance and 
Restoration (EC&R). 



[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Note.--Graph does not include Reserve Training and Environmental 
Compliance and Restoration (RT and EC&R).
    Question. The President's fiscal year 2004 budget proposes to 
consolidate several existing Coast Guard accounts: Operating Expenses, 
Environmental Compliance and Restoration, and Reserve Training into one 
Operating Expenses account; and Acquisition, Construction and 
Improvements and Research, Development, Test and Evaluation into one 
Capital Acquisitions account. Is this consolidation of accounts 
necessary? What is accomplished by combining these accounts?
    Answer. The Coast Guard fully endorses the Administration's plan to 
consolidate six of its major appropriations into two larger 
appropriations for more consistency, simplicity, and flexibility across 
all of the Department of Homeland Security components. This 
consolidation will improve clarity of the Coast Guard's budget requests 
to Congressional oversight committees and simplify financial 
accounting.
    Question. There is some concern that funding for the Reserve 
Training account may be used for other purposes if it is combined into 
the Operating Expenses account. This would be detrimental to Reserve 
readiness at a time when the Coast Guard is relying heavily on its 
Reserve units. Do you feel that funding for Reserve Training should 
stand alone to ensure that those funds are used for their intended 
purpose?
    Answer. The Coast Guard fully endorses the Administration's plan to 
consolidate the Reserve Training accounts into the Operating Expenses 
account. This consolidation will improve clarity of Coast Guard's 
budget requests to Congressional oversight committees and afford 
efficiency in financial accounting. Consolidation of accounts will 
improve the Coast Guard's capability to train the Reserve Forces.
                      integrated deepwater system
    Question. Some have suggested that Deepwater's 20-year duration 
should be cut in half. Such an action might increase costs by about $4 
billion in fiscal years 2005-2010, although it might save about $4 
billion in fiscal years 2010-2020. What would be the benefits of 
accelerating Deepwater and could the Coast Guard afford the increases 
associated with that acceleration?
    Answer. The Integrated Deepwater System (IDS) is an integral part 
of every element of the Coast Guard's maritime homeland security (MHS) 
strategy and in balancing our non-MHS missions. MHS necessitates 
pushing America's maritime borders outward, away from ports and 
waterways so layered, maritime operations can be implemented. IDS will 
provide a network-centric system of Command, Control, Communications, 
Computers, Intelligence, Surveillance and Reconnaissance (C4ISR) that 
is critical for enhancing maritime domain awareness. Through common 
systems and technologies, common operational concepts, and a common 
logistics base, new and modernized IDS assets and equipment will 
provide increased capabilities, multi-mission readiness and 
availability, and interoperability with the Department of Defense and 
other Department of Homeland Security agencies.
    Per the Coast Guard's March 7, 2003 Report to Congress on the 
Feasibility of Acceleration IDS to 10 years, accelerating IDS is 
feasible and provides increased operational capability sooner. It would 
expedite the introduction of C4ISR on new and legacy assets, improve 
system readiness and asset availability, and provide approximately 
943,000 additional mission hours to support Maritime Homeland Security 
(MHS) and other Coast Guard non-MHS missions over a 20-year IDS 
implementation plan. The industrial base is more than sufficient for an 
accelerated build out of the IDS. Temporary workforce increases would 
be necessary to meet training and crew requirements associated with the 
accelerated plan but these are also manageable.
    As provided in the Coast Guard Report to Congress, the following 
are the estimated capital acquisition funding levels needed to fund the 
proposed IDS in 10 years. These figures reflect ``then-year dollars.''

                          [Millions of dollars]
------------------------------------------------------------------------
                       Fiscal year                            10-Year
------------------------------------------------------------------------
2002....................................................            $320
2003....................................................             478
2004....................................................             500
2005....................................................           1,892
2006....................................................           1,663
2007....................................................           1,506
2008....................................................           1,472
2009....................................................           1,428
2010....................................................           1,226
2011....................................................             988
------------------------------------------------------------------------

    Question. Some have suggested that the Deepwater program is already 
behind schedule in procurement because of insufficient funding and 
insist this program will be impossible to finish in 20 years. Do you 
think it's possible to complete Deepwater in 20 years at $500 million a 
year? If not, how do you think the plan should be revised?
    Answer. Although the Integrated Coast Guard Systems (IDS) 
contracting strategy was chosen based on its flexibility to adjust to 
budget variances, funding below notional funding levels will increase 
the time and cost necessary to fully implement the Deepwater solution 
and delay needed capability improvements that IDS provides.
    The March 7, 2003 Report to Congress on the Feasibility of 
Accelerating the Integrated Deepwater System provides a 20-year funding 
schedule that would complete the IDS initial build out approximately 2 
years after the last funds were received. This funding is reproduced 
below:

   CAPITAL ACQUISITION BUDGET EXPRESSED IN THEN YEAR (BUDGET) DOLLARS
------------------------------------------------------------------------
                                                            Millions of
                       Fiscal year                            dollars
------------------------------------------------------------------------
2002....................................................             320
2003....................................................             478
2004....................................................             500
2005....................................................             871
2006....................................................             888
2007....................................................             608
2008....................................................             762
2009....................................................             768
2010....................................................             779
2011....................................................             790
2012....................................................             787
2013....................................................             855
2014....................................................             845
2015....................................................             908
2016....................................................             897
2017....................................................             919
2018....................................................           1,001
2019....................................................           1,016
2020....................................................           1,029
2021....................................................           1,001
------------------------------------------------------------------------

    Question. The Integrated Deepwater System was developed in 1998 and 
is therefore based on pre-September 11, 2001, Coast Guard mission 
requirements. Have you made revisions to the Deepwater plan since 
September 11, 2001, to coincide with the evolving mission of the Coast 
Guard? Please provide the Subcommittee with a comparison of the 
original (pre-9/11) and current (post-9/11) performance requirements of 
all Coast Guard assets included in the Deepwater program.
    Answer. After September 11th, 2001 an assessment of Integrated 
Deepwater System (IDS) requirements was conducted by the Coast Guard's 
Assistant Commandant for Operations to determine whether the 
requirements needed to be revised in reponse to the Coast Guard's 
enhanced emphasis on Homeland Security. Based on those findings, a 
change to the Request for Proposal (RFP) was not necessary. The IDS 
System Performance Specification in the RFP was developed based on the 
global mission task sequence of Surveil, Detect, Classify, Identify and 
Prosecute (SDCIP). This task sequence is used in performing every IDS 
mission and is essential to effectiveness in Maritime Homeland Security 
(MHS) missions, as well as all non-MHS missions.
    Consistent with the IDS acquisition strategy, potential operational 
requirements, including Maritime Homeland Security (MHS) requirements, 
are reviewed, identified, and evaluated for integration into the System 
Performance Specifications (SPS). Potential changes to the SPS, since 
September 11, 2001, are presently being assessed for associated 
performance, costs and schedule impacts, and the Coast Guard will work 
with the Department of Homeland Security to address these changes. 
Continual review and validation of requirements and incorporation of 
changes will occur throughout the course of the IDS program. The Coast 
Guard conducts regular briefs with our Congressional oversight 
committees, and if changes are being contemplated for final approval, 
Congress will be informed.
                       maritime domain awareness
    Question. Of the $34 million requested in the fiscal year 2004 
budget for Maritime Domain Awareness, how much funding will be directed 
toward satellite channels for large cutters and satellite handsets for 
smaller assets, the Automated Identification System, and the Joint 
Harbor Operations Center?
    Answer. Of the $34 million requested for Maritime Domain Awareness 
(MDA) in the fiscal year 2004 budget, $5.6 million will be provided for 
wireless communications for Coast Guard cutters, $4 million for 
Automatic Identification System (AIS) for cutters, and $1.1 million to 
provide permanent CG staffing for Joint Harbor Operations Center (JHOC) 
Hampton Roads. Additional information for each of these initiatives is 
provided below.
  --Wireless Communications--$5.6 million
  --This proposal requests $5.6 million in funding for wireless 
        communications for Coast Guard cutters 65 feet and larger. 
        Specifically, this initiative provides the following:
    --$3 million to install necessary satellite communications 
            equipment on board Coast Guard cutters 210 feet and larger 
            and lease dedicated satellite channels and terrestrial 
            landlines to link the satellite land earth stations to 
            Coast Guard data networks.
    --$2.6 million to design, install and support a wireless 
            communications solution for Coast Guard cutters ranging in 
            size from 65 to 180 feet in length. Commercial satellite 
            communications, along with other types of wireless 
            communications systems, will be evaluated as potential 
            solutions to provide wireless connectivity to smaller 
            cutters.
    --AIS for Cutters--$4 million. This proposal requests funding to 
            equip cutters 65 feet and larger with the capability to 
            transmit and receive AIS transmissions.
    --JHOC Hampton Roads--$1.1 million. This proposal requests funding 
            to permanently staff JHOC Hampton Roads with 25 active duty 
            military personnel and provide operation and maintenance 
            funding for installed sensor equipment.
    Question. If the Joint Harbor Operations Center is a project the 
Coast Guard is conducting in conjunction with the Department of Defense 
(DOD), how are the costs being shared between the Coast Guard and DOD? 
Do you have a specific breakdown, or proposed estimates?
    Answer. Shortly after September 11, 2001, the Coast Guard Captain 
of the Port of Norfolk and the Commanding Officer of Naval Base Norfolk 
collaborated on the creation of a vessel monitoring system in the Port 
of Hampton Roads. This system was pieced together by integrating some 
existing Coast Guard test sensors (radar & cameras), a radar operated 
by the local Pilots, and some new equipment. A Joint Harbor Operations 
Center (JHOC) was established in an old degaussing tower at Naval Base 
Norfolk and staffed with Navy and Coast Guard reserve personnel to 
monitor all shipping that presented a potential threat to Naval assets 
or other critical infrastructure in the port.
    This system benefits the port by providing improved situational 
awareness to those who are responsible for security in the port. The 
center reconciles all vessel arrivals with the required Advanced Notice 
of Arrival (ANOA) reports and coordinates Navy and Coast Guard 
escorting responsibilities for High Interest Vessels and High Value 
Assets arriving and departing Hampton Roads.
    The Navy and Coast Guard are working together in a prototyping 
effort that seeks to enhance the JHOC in Hampton Roads and establish an 
additional JHOC in San Diego. The goal of these prototypes is to assist 
in refining our concept of operations and further specify requirements 
for a shared port security system that can be duplicated in other large 
Navy ports. The Coast Guard also anticipates using the knowledge gained 
through these prototypes to assist with development of similar robust 
surveillance system in strategic ports that do not have a significant 
Navy presence.
    The costs to implement and operate the JHOCs will be shared equally 
between the Navy and Coast Guard. The initial estimate to implement 
this prototype effort is approximately $5 million ($2.5 million per 
port). The Coast Guard's portion of follow-on operation, maintenance, 
and staffing of JHOC Hampton Roads is included in the Coast Guard's 
fiscal year 2004 budget request.
    Question. I am told that you plan to combine Coast Guard resources 
from the Automated Identification System (AIS) and Rescue 21 for a more 
cost-efficient placement of towers and receivers on land. If this is 
true, how do you plan to accomplish this goal? Was this plan taken into 
account when developing the fiscal year 2004 budget request?
    Answer. As part of our effort to enhance Maritime Domain Awareness 
(MDA), the Coast Guard is evaluating a project to install a nationwide 
shore-based Universal Automatic Identification System (AIS) system 
capable of capturing essential MDA information (AIS provides 
identification, position, heading, ship length, beam type, draft, and 
hazardous cargo information from any AIS equipped vessel) throughout 
the coastal zone. The nationwide shore-based AIS concept envisions 
displaying AIS data at regional command centers for use by operational 
commanders, as well as transmitting the data to District and Area 
Fusion Centers for analysis and monitoring. Any effort to install a 
nationwide shore-based AIS system will consider the ongoing Rescue 21 
project in order to leverage existing infrastructure and support to the 
greatest extent possible. The Coast Guard is currently evaluating the 
best approach to capturing AIS information throughout the coastal zone, 
thus funding for this system is not included in the Coast Guard's 
fiscal year 2004 budget request.
                                 ______
                                 

             Questions Submitted by Senator Robert C. Byrd

                               deepwater
    Question. The Coast Guard awarded the Deepwater Contract to 
recapitalize, modernize and integrate all of their offshore ships and 
aircraft less than 1 year ago. That contract assumes a steady funding 
stream of $500 million per year for 20 years. Based in the funding 
appropriated to date, the Deepwater program is $202 million behind 
based on a $500 million per year level in fiscal year 1998 dollars. 
What is the shortfall to date if program management and inflationary 
escalators are factored in?
    Answer. Industry teams used a notional annual planning funding 
stream of $300 million in fiscal year 2002 and $500 million from fiscal 
year 2003 in fiscal year 1998 dollars until project completion. In 
addition to the Request For Proposal (RFP) notional annual funding 
level, Deepwater estimated $30 million per year for government program 
management to administer the program. The difference between planned 
Deepwater funding for fiscal years 2002, 2003, and 2004 and 
appropriated funding results in a deficit of $202 million. This funding 
difference includes program management and inflationary escalators.
    Question. Is the Deepwater contract being reevaluated to take into 
account the Coast Guard's enhanced focus on homeland security? If so, 
when will the evaluation be completed?
    Answer. After September 11th, 2001 an assessment of Integrated 
Deepwater System (IDS) requirements was conducted by the Coast Guard's 
Assistant Commandant for Operations to determine whether the 
requirements needed to be revised in reponse to the Coast Guard's 
enhanced emphasis on Homeland Security. The system review indicated 
that the acquisition strategy and System Performance Specification 
(SPS) were still appropriate to address the spectrum of Deepwater 
missions. Based on those findings, a change to the Request for Proposal 
(RFP) was not required. However, it was also recognized that 
adjustments in system and individual asset capabilities and capacity 
would result as increased Maritime Homeland Security (MHS) and non-MHS 
mission demands emerged.
    Consistent with the IDS acquisition strategy, potential operational 
requirements, including MHS requirements, are reviewed, identified, and 
evaluated for integration into the SPS. Potential changes to the SPS, 
since September 11, 2001, are presently being assessed for associated 
performance, costs and schedule impacts, and the Coast Guard will work 
with the Department of Homeland Security to address these changes. 
Continual review and validation of requirements and incorporation of 
changes will occur throughout the course of the IDS program. The Coast 
Guard will keep our Congressional oversight committees informed if 
changes are being contemplated for final approval.
    Additionally, the Coast Guard is planning to evaluate the current 
implementation plan and work with the Department of Homeland Security 
to align as necessary capability and capacity with priorities and 
mission demand. An estimated time on when this evaluation will be 
complete has not been determined, however the Coast Guard will keep our 
Congressional oversight committees informed of its progress. This 
evaluation will take into account the enhanced focus on homeland 
security.
                           dolphin helicopter
    Question. Operational Air Station Commanders have identified the 
safety record and extensive maintenance requirements of the HH-65 Short 
Range Recovery ``Dolphin'' Helicopter as their number one safety issue. 
The Coast Guard currently operates 96 of these helicopters throughout 
the nation. What is the performance record of the Dolphin Aircraft and 
how does it compare to the Coast Guard's other aircraft? The 
President's Budget for fiscal year 2004 requests $67.7 million for 
Deepwater Aviation Contracts and Legacy Sustainment. How much of this 
amount will go toward the re-powering of the ``Dolphin'' Helicopter and 
how is the Coast Guard managing this legacy asset in light of its 
safety record?
    Answer. Since 1997, there have been 80 documented in-flight power 
losses/engine failures in the HH-65 fleet. The in-flight power loss 
trend for first half of fiscal year 2003 (6 months) is nearly twice the 
rate of the previous 6 years:



[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    The 7-year average engine mishap rate (average number of mishaps 
per 100,000 flight hours) of the HH-65 engine is 25.99. This year the 
mishap rate is 50.79. Comparatively, the 5-year average engine mishap 
rate for the HH-60 is 5.44 with no mishaps this year.
    There is no funding in the President's Budget for fiscal year 2004 
for re-powering the Dolphin Helicopters. In April, 2003, the Coast 
Guard and Honeywell executed a Letter of Instruction to jointly develop 
solutions to HH-65 engine safety, reliability and operational concerns 
to include detailed plans for engine improvement implementation, 
operational evaluation, and spend plans associated with funding already 
appropriated by Congress (approximately $10 million).
    The notional Deepwater Multi-mission Cutter Helicopter (MCH) 
solution is a converted HH-65 that includes new engines and extensive 
modifications to improve capability. We do not anticipate requesting 
funds for Deepwater's MCH until fiscal year 2005 with first delivery 
slated for fiscal year 2007. An engine decision for the MCH will also 
be made in fiscal year 2005.
    Question. Will it be necessary to re-power all 96 ``Dolphin'' 
helicopters in the Coast Guard inventory? Have these costs been 
properly factored into the original Deepwater Contract? Is the Coast 
Guard evaluating an accelerated schedule to re-power the Dolphin 
Helicopter? If so, when will that evaluation be completed?
    Answer. The notional Deepwater Multi-mission Cutter Helicopter 
(MCH) solution is a converted HH-65 that includes new more powerful 
engines and extensive modifications to improve capability. The new 
engine for the MCH will be obtained using the ICGS Open Business Model 
to ensure the best value for the Coast Guard, and the implementation 
plan includes upgrading 93 Dolphin Helicopters to the MCH 
configuration. We do not anticipate requesting funds for Deepwater's 
MCH until fiscal year 2005 with first delivery slated for fiscal year 
2007. These costs are included in the Deepwater plan.
    There is no on-going evaluation to accelerate the upgrade of the 
Dolphin Helicopter to the MCH. However, the Coast Guard has researched 
and prototyped other appropriate helicopter engines and in April 2003, 
the Coast Guard and Honeywell executed a Letter of Instruction to 
jointly develop solutions to existing HH-65 engine safety, reliability 
and operational concerns. These include detailed plans for engine 
improvement implementation, operational evaluation, and spend plans 
associated with funding already appropriated by Congress.
                   110 foot cutter hull deterioration
    Question. The Coast Guard operates 49-110 foot Island Class 
Cutters. Many of these cutters are now operating past their intended 15 
year life span. However, as part of the Deepwater Contract all of these 
Cutters will be fitted with 13 foot inserts to increase the size of the 
aft deck and to accommodate a stern mounted rescue boat. At the same 
time, many of these cutters are also experiencing excessive hull 
corrosion that has resulted in significant repair costs. What is the 
status of the hull corrosion issues associated with the 110 foot Cutter 
fleet? What cost has the Coast Guard incurred to date in order to 
repair these vessels? What is the total anticipated cost of the repair 
program, and are these costs incorporated into the Deepwater Contract? 
What is the anticipated life expectancy of these Cutters?
    Answer. The service life of the Island Class 110 foot Patrol Boats 
is 25 years as a result of an early 1990s ship alteration to address 
hull stresses. A 2001 survey of each vessel showed that 22 of 49 110 
foot WPBs were experiencing extensive hull corrosion.
    To date, five cutters exhibiting the worst corrosion per the 2001 
survey have received extensive hull renewal maintenance external to the 
123 foot conversion project at an Operating Expense (OE) cost of $8.5 
million. Two additional 110 foot WPBs are currently in commercial 
facilities for emergent hull repairs. Emergent hull repairs will 
continue to be accomplished on 110 foot WPBs as required. Since these 
emergent hull repairs are accomplished on a case-by-case basis, the 
total cost of repairs has not been estimated at this time.
    The Deepwater 123 foot conversion plan does include renewal of 
corroded shell plate. The 123 foot Patrol Boat is estimated to have a 
15 year service life.
       coast guard activities new york operation tempo marsec ii
    Question. My staff was recently briefed on the level of resources 
needed to maintain a MARSEC II security level for Activities New York. 
How long has Activities New York been operating under a MARSEC II 
security level? Is Activities New York still operating under a MARSEC 
II security level? What impact does the recent decision by Secretary 
Ridge to lower the threat level from Orange to Yellow have on resource 
levels required for Activities New York? For Activities New York, 
provide the assets necessary, including personnel, to operate under 
MARSEC II level.
    Answer. Activities New York operated at MARSEC Level Two for 
operation LIBERTY SHIELD from March 18, 2003 until April 18, 2003. 
Since April 18, 2003 Activities New York has been at MARSEC Level One 
with additional Coast Guard Reservists still on hand assisting with 
security for military in-loads and out-loads in support of Operation 
IRAQI FREEDOM. The decrease from MARSEC Level Two to MARSEC Level One 
was executed in accordance with the conclusion of operation LIBERTY 
SHIELD and the shift from threat level Orange to threat level Yellow as 
directed by the Department of Homeland Security. Consequently, the 
shift from MARSEC Level Two to MARSEC Level One has reduced the number 
of operational resources required by Activities New York for security 
operations.
    Port-specific asset requirements for MARSEC Levels are classified. 
A classified briefing can be arranged if desired.
                     radiation detection equipment
    Question. The Coast Guard's Radiological Detection Working Group 
recently identified a suite of radiation detection equipment for use by 
Coast Guard forces. Provide, for the record, a list of recommendations 
by the working group. What is the Coast Guard doing to address these 
recommendations? Does the fiscal year 2004 budget include resources to 
purchase radiation detection equipment for Coast Guard employees? Is 
so, please describe the request.
    Answer. The Working Group has incorporated all of its 
recommendations into a draft Coast Guard Commandant Instruction 
(COMDTINST) for implementation Coast Guard wide. This COMDTINST is 
currently in the final review process and will be issued in the near-
future.
    To briefly summarize, the COMDTINST intends to implement a layered 
approach for detecting illegitimate radioactive sources to prevent and 
deter their entry into the United States. Most Coast Guard personnel 
that conduct safety and law enforcement missions on board vessels will 
be designated as Level I teams, outfitted with basic pager-style 
radiation detectors, and given proper training for their use. If they 
encounter radiation readings that are not associated with legitimate 
cargoes or machinery, they will contact Level II teams for assistance. 
These Level II teams will be located on major cutters, Maritime Safety 
and Security Teams, Law Enforcement Detachments, Port Security Units, 
and Strike Teams. They will have more advanced searching and isotope 
identification equipment to further determine if the source is 
legitimate. If the Level II team is unable to determine whether the 
source is safe, procedures have been established to rapidly access 
Department of Energy Radiological Assistance Program (RAP) teams for 
final disposition.
    The Coast Guard is in the final procurement stages for an initial 
purchase of equipment. The fiscal year 2003 budget contains over $17 
million in funds for Chemical, Biological, and Radiological protection 
and detection equipment. The Coast Guard will use these funds to 
procure initial outfits of the equipment recommended by the Working 
Group.
                          mission requirements
    Question. The General Accounting Office has reported on several 
occasions that it is skeptical about the Coast Guard's ability to meet 
its responsibilities for all of its missions due to the increase in 
post 9/11 homeland security requirements. The Homeland Security Act 
clearly states that the capabilities of the Coast Guard to perform its 
missions shall be maintained intact and without significant reduction. 
In light of that requirement, what would be the cost to return all law 
enforcement missions to 93 percent of pre-September 11th levels in 
fiscal year 2003? What funding level, above the President's Request for 
fiscal year 2004, would be necessary to return all law enforcement 
missions to 95 percent of pre-September 11th levels by the end of 2004? 
These estimates should assume that the Coast Guard will continue 
operate under various levels of maritime security.
    Answer. The Coast Guard is pursuing a multi-year resource effort to 
perform an enhanced level of Maritime Homeland Security (MHS) while 
sustaining our non-MHS missions near pre-9/11/01 levels. Although we do 
have capacity, capability and operational tempo challenges to 
sustaining mission balance, the Coast Guard will continue to emphasize 
all of our missions. At the end of the day, we are focused on 
performance-based results and not only resource hours. The perspective 
through the performance lens illustrates that our non-Homeland Security 
missions are not suffering. The fiscal year 2002 Performance Report/
fiscal year 2004 Budget in Brief (BIB) provides documentation of the 
Coast Guard's high performance levels across our full mission spectrum. 
For example, in fiscal year 2002 the Coast Guard:
  --Seized the third highest cocaine total in service history,
  --Interdicted or deterred illegal immigration by sea at a rate of 
        88.3 percent (which exceeded our target of 87 percent),
  --Reduced the volume of oil spilled per million gallons shipped to 
        0.6 gallons (which was well below our target of 2.5 gallons), 
        and
  --Further reduced the number of maritime worker fatalities to 4.3 per 
        10,000 workers (which is below our target of 8.7).
    A necessary first step is base-lining our maritime Homeland 
Security (MHS) requirements to help balance our other missions. To 
accomplish this, the Coast Guard has focused on a Strategic Deployment 
Plan (SDP) for implementing the maritime component of the President's 
National Strategy for Homeland Security. Various components of our 
Maritime Security Strategy Deployment Plan are under development, with 
the first component to be completed in May of 2003.
    These MHS requirements will roll into a comprehensive blueprint to 
achieve overall mission balance. This blueprint will consider budgetary 
inputs, resource activity levels, multi-year mission targets and 
mission performance outcomes. Our existing strategic planning process 
and performance plans will serve as the cornerstone of an integrated 
approach emphasizing three general areas of effort: preserving non-MHS 
missions, conducting MHS missions, and maintaining military readiness 
to conduct Defense Operations when tasked. The planning process 
provides the ability to detail the difference between pre and post-9/11 
levels of effort and performance in missions. We anticipate completion 
of the comprehensive blueprint for mission balancing by the end of 
fiscal year 2003.
    The multi-mission resources requested in the fiscal year 2004 
budget are critical to overall mission balancing efforts and to the 
sustainment of the Coast Guard's high standards of operational 
excellence across all mission areas. It is important to note that every 
Homeland Security dollar directed to the Coast Guard will contribute to 
a careful balance between our safety and security missions (including 
law enforcement), both of which must be properly resourced for 
effective mission accomplishment. The fiscal year 2004 budget reflects 
steady progress in a multi-year resource effort to meet America's 
future maritime safety and security needs. This new funding will 
positively impact our performance in all assigned MHS and non-MHS 
goals.
                       port security assessments
    Question. Part of the Coast Guard's Maritime Homeland Security 
Strategy is to reduce America's vulnerability to terrorism within the 
U.S. Maritime Domain. The Maritime Transportation Security Act mandates 
that the Secretary of the Department in which the Coast Guard is 
operating conduct initial facility and vessel vulnerability 
assessments. These assessments are to be the basis for a new 
requirement for facility and vessel security plans. The Coast Guard has 
established a plan to conduct security vulnerability assessments for 55 
ports but has only completed 15 assessments to date with 4 more 
scheduled for this year. Based on the President's budget, when will 
these assessments be completed? Now that Congress has added $38 million 
in the fiscal year 2003 emergency supplemental, when will these 
assessments be completed and is the $38 million sufficient to complete 
them?
    Answer. The Maritime Transportation Security Act of 2002 (MTSA) 
requires two distinct assessments. The first is an ``initial 
assessment'' to determine which facilities and vessels are at high risk 
of being involved in a transportation security incident (TSI). 
Depending on the outcome of that initial assessment, the MTSA requires 
a ``detailed assessment'' of those vessels and facilities that may be 
involved in a TSI. The Coast Guard accomplished the ``Initial 
Assessments'' required by MTSA by providing Captains of the Ports 
(COTPs) with a Port Security Risk Assessment Tool (PS-RAT), which 
ranked relative consequence and risk within a port. These initial PS-
RAT assessments were analyzed at the national level to assist in 
determining which vessels and facility types pose a higher security 
risk and will require a ``detailed assessment,'' and individual 
facility and vessel security plans.
    Port Security Assessments (PSAs) are conducted by a team of Coast 
Guard and contracted security experts and provide a level of detail 
that the port stakeholders cannot achieve on their own. PSAs will 
address various facets of the port not covered by individual facility 
and vessel assessments, and they will directly feed into the Area 
Maritime Security Plan required by the MTSA. Port Security Assessments 
(PSAs) have been completed at 13 of the 55 port complexes to date.
    The President's Budget included sufficient funding within the 
Information Analysis and Infrastructure Protection (IAIP) Directorate 
of DHS to complete all 55 assessments by the end of calendar year 2004. 
The $38 million provided in the Emergency Wartime Supplemental has 
allowed the Coast Guard to immediately initiate the contracting actions 
necessary to get assessment teams into the field. The $38 million will 
cover the contract costs for the remaining ports, but does not include 
funding for Coast Guard program support, personnel costs, or travel to 
support the PSAs. The Coast Guard will continue to work with IAIP to 
ensure the viability of the PSA program, and to provide a coordinated 
and consistent assessment effort across all critical infrastructures.
    Question. First, what conclusions can you share on the assessments 
that have been completed to date?
    Answer. The Assessments highlighted common deficiencies across all 
13 ports. Some general examples are:
  --Many commercial vessels, waterfront facilities and port areas do 
        not have adequate security plans.
  --Inadequate security training for commercial vessel and facility 
        operators.
  --Governmental Agencies do not conduct adequate security exercises to 
        ensure coordinated consequence management and crisis response.
  --High consequence facilities often have adequate shore-side 
        security, but lack adequate waterside protection against 
        terrorist intrusion/attack.
  --A lack of communication links between responsible stakeholders, and 
        a lack of real time Maritime Domain Awareness (MDA).
  --Local, state and Federal response/security/law enforcement 
        organizations need more resources to maintain high level of 
        security in ports.
  --Limited sharing of classified or Sensitive Security Information 
        (SSI) observations.
  --No worker and visitor credentialing system.
  --Bureau of Immigration and Customs Enforcement checks at first port 
        of call only.
  --Facilities do not account for crews.
    Specific PSA results are designated as Sensitive Security 
Information.
    Question. Secretary Ridge testified that the $700 million 
appropriated for critical infrastructure in the fiscal year 2003 
Supplemental and the $829 million request in fiscal year 2004 for 
Information Analysis and Infrastructure Protection will be available 
for the Coast Guard to conduce these assessments. Has any funding been 
provided to the Coast Guard from these accounts for the purpose of port 
security assessments? Do you know of any plans to utilize funding from 
these accounts for port security assessments?
    Answer. The Secretary of Homeland Security and Commandant of the 
Coast Guard have both stated the intent to have all 55 ports completed 
by the end of calendar year 2004 with funds contained in the 
Department's fiscal year 2004 budget request. The $38 million (from the 
fiscal year 2003 Emergency Wartime Supplemental) will cover the 
contract costs for the remaining ports, but does not include funding 
for CG program support, CG personnel costs, or CG travel to support the 
PSAs. The Coast Guard will continue to work with the Information 
Analysis and Infrastructure Protection (IAIP) to ensure the viability 
of the PSA program, and to provide a coordinated and consistent 
assessment effort across all critical infrastructures.
                        c-130s and mpa aircraft
    Question. In fiscal year 2001, Congress appropriated $468 million 
for six C-130J long-range maritime patrol aircraft. The language that 
accompanied this funding in fiscal year 2001 required that these planes 
meet defense-related and other elements of the Coast Guard's multi-
mission requirements. What is the funding level is required to outfit 
these planes to fulfill the Coast Guard's Marine Patrol aircraft 
surveillance mission? What is the schedule to complete this requirement 
for the 6 planes?
    Answer. The Coast Guard needs $230 million to complete the C-130J 
missionization and make the aircraft fully mission capable, maritime 
patrol aircraft (MPA). This funding will be utilized to procure 
sensors, communications, computers and other systems necessary to 
missionize them for Coast Guard maritime patrol operations. The Coast 
Guard is working with DHS to determine the source and timing of this 
funding. Prior to becoming fully missionized, the aircraft will be 
flown for logistics purposes, testing, training and limited operational 
missions. Once the HC-130J's are fully mission capable, estimated in 
the summer of 2008, the Coast Guard plans to use them as replacements 
for existing HC-130H aircraft.
                     research & development funding
    Question. The budget request includes $22 million for the Coast 
Guard's Research and Development program to develop enhancements to 
homeland security functionality for U.S. ports. What systems are being 
developed to improve port, waterways and coastal security and to the 
extent you can, provide a schedule for deployment?
    Answer. The Coast Guard's fiscal year 2004 Research, Development, 
Testing and Evaluation (RDT&E) request provides funding to develop 
techniques, equipment, and systems to enhance the Coast Guard's 
capabilities to perform the full range of Coast Guard missions. 
Investments will focus on improvements to maritime homeland security in 
the port domain while continuing research in other Coast Guard mission 
areas, including search and rescue, marine safety, marine environmental 
protection, aids to navigation, and ice operations.
    Specific planned RDT&E initiatives primarily focused on the 
performance of maritime homeland security missions (Ports, Waterways 
and Coastal Security and Enforcement of Laws and Treaties) are listed 
below.
Improved Maritime Domain Awareness
    Develop a high frequency radar system that provides wide area 
surveillance of coastal zones. Anticipate completing preliminary 
operational evaluation during second quarter of fiscal year 2004.
    Demonstrate an operational Port Security System that combines 
surface search radar with visual and infrared cameras to detect and 
identify targets. Fiscal year 2003 efforts prompted a follow-on 
expanded demonstration that is planned for 3rd quarter of fiscal year 
2004.
    Evaluate portable thermal imaging technology to enhance all-
weather, day/night surveillance capability on Coast Guard patrol boats 
and Multi-Mission Station assets. Prototype testing is expected to 
begin during the 1st quarter of fiscal year 2004. Model candidate port 
sensor systems to evaluate relative performance and develop concept of 
operations for consideration during future sensor acquisitions. Sensor 
modeling will be a continuous effort with frequent reports throughout 
fiscal year 2004.
    Monitor capabilities of unmanned and autonomous vehicles (air, 
surface and subsurface) through Department of Defense research 
partnerships and relationships with industry. Perform continuous 
evaluation of applicability of vehicles to enhance performance of Coast 
Guard missions.
    Enhanced Chemical, Biological, Radiological and Nuclear Detection 
Capability: Develop and evaluate technology to provide standoff 
capability for detecting the presence of nuclear or radiation agents. 
Completion of initial testing is scheduled for the 4th quarter of 
fiscal year 2004.
    Develop a portable ``electronic nose'' device that will alert Coast 
Guard boarding personnel to harmful chemical warfare or toxic 
industrial agents at pre-debilitating levels. Anticipate initial 
prototype testing to be completed in the 3rd quarter of fiscal year 
2004.
Improved Interdiction Capabilities
    Develop a helicopter-deployable entangling device to stop non-
compliant high-speed craft. Anticipate completing testing during 2nd 
quarter of fiscal year 2004. Research and develop alternative methods 
and deployable devices to gain control/interdict non-compliant vessels. 
Anticipate reporting results during the 4th quarter of fiscal year 
2004.
    Question. Public Law 107-296, the Homeland Security Act of 2002, 
created the Homeland Security Advanced Research Projects Agency 
(HSARPA) to support basic and applied research to help promote homeland 
security. The Department's fiscal year 2004 budget request for HSARPA 
is $365 million. The Homeland Security Act requires that at least 10 
percent of the funding be used in joint agreement with the Coast Guard 
to carry out research and development of improved ports, waterways, and 
coastal security surveillance and protection capabilities. What is the 
status of this agreement?
    Answer. The Department of Homeland Security (DHS) has not yet 
issued policy or directives regarding the execution of Homeland 
Security Advanced Research Projects Agency (HSARPA) funding. The Coast 
Guard is currently working with DHS to develop processes and policy for 
compliance with Section 307 of the Homeland Security Act.
                    automated identification system
    Question. The Maritime Transportation Security Act and the 
International Ship and Port Security Code require that an Automated 
Identification System (AIS) be installed on all vessels entering U.S. 
ports by December 31, 2004. How will the Automated Identification 
System enhance Homeland Security? In terms of implementation, can you 
explain the difference in requirements, those for the shipping 
companies and those for the Coast Guard?
    Answer. The Automatic Identification System (AIS) is an information 
collection, processing and decision support system that will be a key 
data stream for achieving Maritime Domain Awareness (MDA), a 
cornerstone of the Coast Guard's maritime homeland security strategy. 
MDA is essentially a heightened state of awareness of the maritime 
environment and is built upon knowledge and understanding of the 
presence, identification, track, intentions and contents of vessels 
operating in U.S. ports, waterways and littoral seas.
    AIS contributes to MDA by means of an onboard transmitter/receiver 
that can operate in conjunction with a shore-side receiving and 
distribution network to produce a composite traffic image of all AIS-
equipped vessels operating within its horizon (line-of-sight). The 
Coast Guard is currently working with the Department of Homeland 
Security and the Administration to promulgate regulations on specific 
AIS carriage requirements for vessels. The Coast Guard plans to outfit 
all Coast Guard cutters over 65 feet in length with AIS capability.
    Question. What ports are scheduled to receive this technology? What 
is the schedule, by fiscal year, to outfit these ports with the AIS and 
the associated cost?
    Answer. The acquisition and installation of Automatic 
Identification System (AIS) equipment in the ports of Sault Ste Marie 
and Berwick Bay is complete. AIS equipment installation has been 
contracted to begin in five additional Vessel Traffic Service (VTS) 
ports as indicated in the following table.

------------------------------------------------------------------------
                   Port                      Scheduled AIS Installation
------------------------------------------------------------------------
Lower Mississippi River, LA...............  May 2003
Prince William Sound, AK..................  July 2003
Houston/Galveston, TX.....................  July 2003
New York, NY..............................  October 2003
Port Arthur, TX...........................  January 2004
Puget Sound...............................  Not yet scheduled
San Francisco Bay.........................  Not yet scheduled
------------------------------------------------------------------------

    To date, $22.9 million has been funded in the fiscal year 2002 
Supplemental Appropriation and $5 million in fiscal year 2003 for 
installation and implementation at the above listed ports.
    Long-term goals for enhancing maritime domain awareness include 
developing and installing a National AIS coverage system based on the 
technology and processes used at the VTS ports. This network would 
first be introduced in congested waterways and in ports with critical 
military or commercial infrastructure. The exact sequence of 
implementation has not been determined. These sites would be connected 
to a network that allows access to the AIS information. Each site 
requires a tower, an AIS base station unit, and an interface for data 
connectivity to the network. Currently, Coast Guard Program Managers 
responsible for the Rescue 21 and AIS projects are working closely to 
identify common requirements and strategies to best support both 
initiatives. Liaison areas include shared tower locations, commercial 
leases, and microwave bandwidth requirements.
                                 ______
                                 

              Questions Submitted by Senator Patty Murray

has operation iraqi freedom further diminished coast guard abilities in 
                              u.s. waters?
    Question. Admiral Collins, you pointed out that, for the first time 
since the Vietnam War, the Coast Guard has deployed a considerable 
number of ships and people overseas--in this case, to participate in 
Operation Iraqi Freedom. You went on to say that this deployment did 
not hinder your operational capabilities in the United States because 
it represented only three percent of your entire force. However, your 
statement failed to mention that in addition to deploying these ships 
overseas, you are taking additional patrol boats out of service--about 
one a month--for major modifications as part of your Deepwater program. 
And two the ships you have sent overseas are High Endurance Cutters--
ships that are particularly well suited for high seas missions like 
fisheries patrols. The entire Coast Guard only has 12 of these ships. 
The General Accounting Office quoted a Coast Guard official as stating 
that the decline in both drug enforcement and fisheries enforcement can 
be attributable not only to your heightened homeland security 
requirements, but to the deployment of resources for military 
operations. Can you quantify what number of fisheries and drug 
interdiction patrols did not take place as a result of your deployment 
of floating assets to the Persian Gulf?
    Answer. The deployment of floating assets to the Persian Gulf has 
not in and of itself resulted in a decline in fisheries and drug 
enforcement patrols.
    Every year, two High or Medium Endurance Cutters (the Coast Guard 
has 42 high and medium endurance cutters in commission) participate in 
Department of Defense exercises and other out of hemisphere operations. 
This year those cutters were redirected to participate in Operation 
IRAQI FREEDOM, thus not directly impacting our counter-drug and fishery 
efforts.
    In addition to the High Endurance Cutter deployments, the Coast 
Guard deployed eight 110-foot patrol boats. To compensate for those 
patrol boats deployed overseas, undergoing a hull sustainment project, 
or undergoing modifications as part of the Deepwater program, the Coast 
Guard increased the operational tempo of remaining cutters to 125 
percent of their normal pace. Additionally, the Navy allowed our 
tactical control of 11 170 Patrols Coastals to augment stateside 
requirements.
    The net effect of the IRAQI FREEDOM operational decisions and 
corresponding risk mitigation measures is no reduction in fisheries or 
drug interdiction patrols. The Coast Guard has however, had slight 
reductions in these patrols due to the number of surge operations as a 
result of several ``orange'' Homeland Security Advisory System alerts. 
Although we do have capacity, capability and operational tempo 
challenges to sustaining mission balance, the Coast Guard will continue 
to emphasize all missions, and temporarily surge as timely intelligence 
dictates is appropriate. At the end of the day, we remain focused on 
performance-based results and not only resource hours. The perspective 
through the performance lens illustrates that our non-Homeland Security 
missions are not suffering. The fiscal year 2003 Report/fiscal year 
2004 Budget in Brief (BIB) provides documentation of the Coast Guard's 
high performance levels across our mission spectrum. For example, in 
fiscal year 2002 we seized the third highest cocaine total in our 
history, we interdicted or deterred illegal immigration by sea at a 
rate of 88.3 percent which exceeded our target of 87 percent, we 
reduced the volume of oil spilled per million gallons shipped to 0.6 
gallons which was well below our target of 2.5 gallons, and continued 
to reduce the number of maritime worker fatalities to 4.3 per 10,000 
workers which is below our target of 8.7.
    Question. Now that hostilities have largely ceased, what is your 
schedule for bringing back each unit that is deployed to assist in 
Operation Iraqi Freedom? When, for example should we expect the High 
Endurance Cutters to return? What about the Port Security Units?
    Answer. Deployed Coast Guard forces will be returned when the 
Combatant Commander determines their mission has been completed. Thus 
far, two high endurance cutters, four patrol boats, the buoy tender, 
and a variety of shore-side Coast Guard components have been released. 
BOUTWELL and DALLAS commenced their return trips on May 14th. DALLAS is 
escorting the four patrol boats that were deployed to the Mediterranean 
Sea. BOUTWELL is completing previously scheduled Theater Security 
Cooperation activities during her return transit. WALNUT also commenced 
her return trip on May 14th.
    The patrol boats BAINBRIDGE ISLAND, GRAND ISLE, KNIGHT ISLAND, and 
PEA ISLAND, all deployed to the Mediterranean, have been released and 
commenced a return trip to the United States in company with the 
DALLAS. Personnel from Port Security Unit 305, the Atlantic Strike Team 
Detachment, the Mediterranean Mobile Support Unit and Law Enforcement 
Detachments #204, 205 and 411 have already returned to the United 
States. Their equipment will follow by sealift.
    Coast Guard patrol boats, port security units, law enforcement 
detachments, and supporting structure remain in the Arabian Gulf 
fulfilling port and coastal security missions for the Combatant 
Commander.
    Question. Many of the patrol boats that were deployed to the Iraqi 
theater performed fisheries enforcement missions off of New England. 
When do you expect that all of those boats will be returned to their 
home ports?
    Answer. Four of the eight deployed patrol boats traditionally 
conducted fisheries enforcement missions off the New England coast. Two 
of those patrol boats, BAINBRIDGE ISLAND and GRAND ISLE, have started 
their return trip to the United States from the Mediterranean. Their 
estimated arrival at Norfolk VA is 11 June. After several weeks of 
necessary maintenance, they will return to their original homeports of 
Sandy Hook, NJ and Gloucester, MA.
    The other two patrol boats, ADAK and WRANGELL, are deployed to the 
Arabian Gulf and continue to perform duties for the combatant 
commander. No departure date has been established for these patrol 
boats.
    The Coast Guard temporarily relocated BLOCK ISLAND to Gloucester, 
MA upon the departure of the GRAND ISLE. The BLOCK ISLAND will return 
to its normal homeport of Atlantic Beach, NC upon the arrival of GRAND 
ISLE.
    Question. What has been the impact on your other Coast Guard units 
that have been required to ``pick up the slack'' for the units that 
have been deployed overseas? Is their higher operating tempo 
sustainable over the long term?
    Answer. To compensate for the patrol boats deployed overseas, the 
Coast Guard increased the operational tempo of remaining cutters by 25 
percent. This temporary surge capability is sustainable through the 
remainder of fiscal year 2003.
       will coast guard be able to handle a major migrant influx?
    Question. Admiral Collins, in your testimony, you point out the 
remarkable flexibility that the Coast Guard exhibits at times of 
national crisis. It is something that I and all senators should be 
immensely proud of. One of the areas where the Coast Guard has shown 
extraordinary flexibility in the past is when we have experienced a 
massive influx of migrants attempting to reach U.S. shores from Cuba or 
Haiti. We have all read with concern the heightened numbers of arrests 
as well as executions in Cuba. You, of course, get additional 
intelligence briefings on the instability in that country. Whenever we 
have had these massive influxes of migrants in the past, the Coast 
Guard effectively threw almost every floating asset they had to attack 
the problem. Given your current deployment of so many vessels overseas, 
as well as other patrol boats being sent to the shipyard for major 
overhauls, are you at all concerned about your ability to handle a 
sudden influx of migrants at this time?
    Answer. The Coast Guard continues to monitor migrant departures, 
and maintains an effective presence in the transit and arrival zones. 
The summer months typically yield higher maritime migrant flow, and the 
Coast Guard allocates additional resources to facilitate interdiction 
and timely repatriation in order to prevent future departures. In the 
event that migration numbers approached mass migration levels that 
exceed our capacity, the Coast Guard would look to the Department of 
Defense for additional assistance.
    Question. During major migrant influxes in the past, you have had 
the benefit of some Navy ships being brought under your command to 
assist in rescuing migrants. Given the current deployment of so many 
Navy ships overseas, are you confident that you will have the level 
support from the Navy that is needed if there is a major influx of 
migrants?
    Answer. In the event of a mass migration, the Coast Guard would 
receive assistance from the Navy as outlined in ``Operation Distant 
Shore--Mass Migration Emergency Plan.'' The Coast Guard has no 
indication that the Navy would not be able to provide the required 
assets if needed.
    Question. Migrant interdiction is another mission where your hours 
have declined considerably from pre-September 11th levels. What can you 
tell me regarding the impact of this declining effort on our ability to 
protect against illegal migrants being smuggled to the West Coast of 
the United States from Asia? Have you been able to follow up on all 
intelligence leads indicating that there may be illegal migrants aboard 
ships bound for the West Coast?
    Answer. While the Coast Guard's Abstract of Operations data 
indicated a reduction in resource hours attributed to the Migrant 
Interdiction mission in the two fiscal quarters following the September 
11, 2001 attacks, the data for the past three quarters indicates a far 
different picture. The Coast Guard is currently expending more effort 
in the Migrant Interdiction mission than before September 11, 2001.
    The direct arrival of Asian migrants on the West Coast of the 
United States has significantly declined since 1999. However, Asian 
migrant smugglers continue to use low profile methods to move their 
human cargo. While intelligence regarding Asian migrant smuggling 
events is rare, the Coast Guard has been able to respond to reported 
events with considerable success.
how did the coast guard respond to the committee directive to rebalance 
                               missions?
    Question. Admiral Collins, as part of the 2003 Appropriations Bill, 
in which you were provided with a record increase in funds, the 
Committee directed you to seek to use this increased funding to 
rebalance your level of effort between missions and bring your non-
homeland security missions to the maximum amount possible back to pre-
September 11th levels. A review of the data that I discussed in my 
opening statement makes clear that that has not taken place. How 
precisely did the Coast Guard respond to the Committee's directive? 
Should we expect to see any progress over the remainder of 2003 in 
seeing drug interdiction, fisheries enforcement and marine safety 
returned to their pre-September 11th levels?
    Answer. Prior to the attacks of 9/11, the Coast Guard had committed 
less than 2 percent of its assets to active port security duty. 
Immediately after 9/11, the Coast Guard surged nearly 60 percent of its 
assets in immediate support of port security. Since then, we have 
rebalanced our assets to provide roughly 28 percent of our assets in 
coverage of port security. In so doing, we have used the additional 
funding provided by Congress to establish new security capabilities in 
critical ports, and we are in the process of adding those same 
capabilities to all critical ports, as funding allows. This added 
funding has permitted the Coast Guard to return its other assets to the 
non-Homeland Security mission portfolio.
    The results speak for themselves. In fiscal year 2002 we seized the 
third highest cocaine total in our history, we interdicted or deterred 
illegal immigration by sea at a rate of 88.3 percent which exceeded our 
target of 87 percent, we reduced the volume of oil spilled per million 
gallons shipped to 0.6 gallons which was well below our target of 2.5 
gallons, and continued to reduce the number of maritime worker 
fatalities to 4.3 per 10,000 workers which is below our target of 8.7. 
For a detailed record of actual resource hours across all missions for 
the first final quarters of fiscal year 2003, please see the report to 
Congress entitled Quarterly Abstract of Operations. In addition, our 
fiscal year 2003 Report/fiscal year 2004 Budget in Brief provides 
documentation of the Coast Guard's high performance levels across our 
mission spectrum.
    Our service remains fully committed to sustaining operational 
excellence across all our missions and to achieving the appropriate 
balance between non-homeland security and homeland security mission. 
The Coast Guard is pursuing a multi-year resource effort to perform an 
enhanced level of Maritime Homeland Security while sustaining our Non-
Maritime Homeland Security missions near pre-9/11 levels.
    Although we do have capacity, capability and operational tempo 
challenges to sustaining mission balance, the Coast Guard will continue 
to emphasize all of our missions. At the end of the day, we are focused 
on performance-based results and not only resource hours. The 
perspective through the performance lens illustrates that our non-
Homeland Security missions are not suffering.
  is deepwater patrol boat life extension program being reconsidered?
    Question. Admiral Collins, under your plans for the Deepwater 
Program, you intent to take your 110-foot patrol boats and extend their 
service life by adding an additional 13 feet to each boat and 
renovating the rest of the ship. I understand that early indications 
are that these patrol boats may be showing greater wear and tear and 
corrosion than was originally anticipated. This will add to the overall 
cost of extending the life of these ships and may call into question 
the wisdom of extending them for several more years. What can you 
report to us about these early indications that these patrol boats need 
a great deal more work than was originally anticipated? Is the Coast 
Guard currently reconsidering whether your entire fleet of 110-foot 
patrol boats should be restored in this manner? What alternatives are 
you contemplating?
    Answer. The 49 Island Class 110-foot patrol boats in the Coast 
Guard inventory have proven to be quite versatile, highly effective 
resources, which are employed for a wide range of Coast Guard missions. 
The demand for these workhorses has created an intense operational 
tempo that has resulted in a more rapid degradation of their material 
condition than was originally forecast in 1998 at Deepwater's 
inception.
    A 2001 survey of each vessel showed that 22 of 49 110-foot WPBs 
were experiencing extensive hull corrosion. To date, five cutters 
exhibiting the worst corrosion per the 2001 survey have received 
extensive hull renewal maintenance external to the 123-foot conversion 
project at an Operating Expense appropriation cost of $8.5 million. Two 
additional 110-foot WPBs are currently in commercial facilities for 
emergent hull repairs. Since these emergent hull repairs are 
accomplished on a case-by-case basis, the total cost of repairs has not 
been estimated at this time.
    The Coast Guard is currently evaluating the scope of the Deepwater 
123-foot conversion project. Emergent hull repairs will continue to be 
accomplished on 110-foot WPBs as required.
    Question. Admiral Collins, when it was originally conceived, the 
Deepwater program was anticipated to grow above the $500 million level 
by certain increments each year in order to achieve the total amount of 
recapitalization that the Coast Guard requires to execute its many 
missions. However, for the last two budget cycles, the President's 
budget has effectively frozen funding for the Deepwater program at $500 
million. What would be the long-term impact on the Deepwater program if 
funding remained frozen at $500 million for the next several years? 
Will the Coast Guard be able to recapitalize all its assets on its 
original schedule at this level of funding?
    Answer. The IDS contracting strategy was chosen based on its 
flexibility to adjustment to budget variances. Funding below notional 
funding levels will increase the time and cost necessary to fully 
implement the Deepwater solution and delay needed capability 
improvements that IDS provides. With a funding profile of $500 million 
annually in appropriated-year dollars, it would take at over 27 years 
to acquire the assets included in the IDS implementation plan.
    Question. One of the provisions included in the Homeland Security 
Act was a report on the feasibility of expediting the Deepwater Program 
in order to replace your aging assets more quickly. The report that was 
submitted to the Congress confirmed that it was feasible to expedite 
the Deepwater Program and that such an action would indeed save the 
taxpayer several billion dollars. To your knowledge, is any real 
consideration being given within the Administration to requesting funds 
to expedite the completion of the Deepwater program? We certainly don't 
see such an effort in the 2004 budget request.
    Answer. The Administration considers Integrated Deepwater System 
(IDS) funding in conjunction with all agency requests based upon 
national priorities. The President's fiscal year 2004 request of $500 
million for the IDS funds critical initiatives and is consistent with 
the fiscal year 2004 funding level reflected in the March 7, 2003 
Report to Congress on the Feasibility of Accelerating IDS to 10 years. 
The IDS contracting strategy provides the Coast Guard the flexibility 
to adjust the proposed implementation schedule depending on budget 
variances. The Coast Guard will continue to work with the 
administration on appropriate funding of Deepwater.
               deficiencies in search and rescue program
    Question. Both in the 2002 and 2003 Appropriations Act, we 
statutorily required you to boost funding for your search and rescue 
program by $14.5 million and $15.7 million, respectively. The Committee 
took these action in response to reports from the DOT Inspector General 
that were extraordinarily critical of the overall readiness of your 
search and rescue boat stations; the condition of their equipment; and 
the inadequate training and experience levels that were found among 
your boat crews.
    The 2002 Appropriations Act required the DOT Inspector General to 
certify that you actually spent the money as the Committee intended. 
The 2003 Act requires the General Accounting Office do the same thing. 
Unfortunately, the Inspector General was not able to certify that you 
did spend the money specifically on Search and Rescue improvements. 
While there was a substantial increase in the number of people assigned 
to your small boat stations, the IG could not certify that these funds 
were specifically used to increase the readiness, training, or 
experience levels of the individuals serving at the boat stations. 
Needless to say, I was greatly disappointed by IG's report.
    Should we expect a similar report from the GAO regarding the Search 
and Rescue enhancement funds that we provided you for 2003? Will you be 
able to show the GAO as well as the Committee that you spent this $14.5 
million specifically to address your Search and Rescue shortfalls?
    Answer. In 2002, the Coast Guard spent in excess of $14.5 million 
to improve Search and Rescue and boat operation capabilities. The DOT 
IG audit agrees with that statement. The audit, however, was critical 
of our accounting practices rather than the actual amount of 
expenditure itself. The Coast Guard acknowledges we could have tracked 
specific expenditures better to allow greater transparency for the DOT 
IG Search and Rescue audit analysis, and we will work with GAO to 
account for direct expenditures against specifically appropriated 
budget initiatives.
    The Coast Guard's system provides reliable, repeatable correlations 
between mission activity and spending. The method, which was developed 
for the Coast Guard by KPMG Consulting (now BearingPoint, Inc.), is 
based on highly reliable cost data that is reconciled to our audited 
financial statements. It utilizes state of the market analytical tools 
and the latest activity-based costing protocols to apply organizational 
costs incurred by Coast Guard units against actual operational activity 
data to allocate costs across mission areas. For example, a Coast Guard 
Multi-Mission Station's mission allocation may result in 20 percent of 
operational activity tied to the performance of the Search and Rescue 
(SAR) mission over a set time period. Thus, based on standard activity 
based costing procedures, 20 percent of the organizational expenses 
associated with that Multi-Mission Station during that time frame are 
allocated as SAR expenses.

                          SUBCOMMITTEE RECESS

    Senator Cochran. Director Basham, Admiral Collins, we 
appreciate your cooperation with our committee. We also 
appreciate your service to our country.
    We will continue our hearings to review the fiscal year 
2004 budget request for the Department of Homeland Security on 
Tuesday, May 6, at 10 a.m., in room 124 of the Dirksen Senate 
Office Building. At that time, we will hear the testimony of 
the Under Secretary for Border and Transportation Security, the 
Honorable Asa Hutchinson.
    Until then, the subcommittee stands in recess.
    [Whereupon, at 12:17 p.m., Thursday, May 1, the 
subcommittee was recessed, to reconvene at 10 a.m., Tuesday, 
May 6.]











  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2004

                              ----------                              


                          TUESDAY, MAY 6, 2003

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Thad Cochran (chairman) presiding.
    Present: Senators Cochran, Campbell, Byrd, Inouye, 
Hollings, Leahy, and Kohl.

                    DEPARTMENT OF HOMELAND SECURITY

STATEMENT OF HON. ASA HUTCHINSON, UNDER SECRETARY, 
            BORDER AND TRANSPORTATION SECURITY 
            DIRECTORATE

               OPENING STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. The committee hearing will please come to 
order. This morning we continue our hearings on the fiscal year 
2004 budget request for the Department of Homeland Security. We 
review this morning the programs and activities of the Border 
and Transportation Security Directorate. I am very pleased to 
welcome the Under Secretary for Border and Transportation 
Security, Asa Hutchinson. I think the President and Secretary 
Tom Ridge have chosen a very able and experienced public 
servant for this very difficult and important undertaking.
    The Homeland Security Act of 2002 transferred the United 
States Customs Service, the Office of Domestic Preparedness, 
the Transportation Security Administration, the Federal Law 
Enforcement Training Center, and the Federal Protective Service 
to this directorate. In addition, the directorate is 
responsible for integrating two-thirds of the former 
Immigration and Naturalization Service with the United States 
Customs Service and with quarantine inspection activities of 
the Animal and Plant Health Inspection Service. For fiscal year 
2004, the President's budget requests $16.2 billion in 
discretionary funds for border and transportation security, 
along with an additional $1.8 billion in offsetting 
collections.
    Mr. Secretary, we look forward to hearing from you. We have 
your prepared statement which we will make a part of the 
committee's hearing record, and we invite you to make any 
statement in explanation of the budget request which you think 
would be helpful to our committee's understanding of the budget 
request.
    At this time, I am pleased to yield to other Senators of 
this committee for any opening statements they may have.
    Senator Byrd.

                  STATEMENT OF SENATOR ROBERT C. BYRD

    Senator Byrd. There are two things they haven't developed 
yet, how to create a good public address system and how to 
fashion milk cartons so they will open as stated on the top of 
the carton.
    I join you, Mr. Chairman, in welcoming Under Secretary 
Hutchinson. This is his first time appearing before the 
committee in his current capacity. We look forward to hearing 
from him and to working with him. There is no greater 
responsibility than that of making our Nation's borders and 
transportation system secure. It is our failure to do so prior 
to that tragic day in September 2001 that led to the loss of 
the lives of thousands of innocent Americans and others, and it 
was in reaction to those horrific events that the President and 
this Congress created the Department in which you now serve.
    Our role in Congress is to ensure that you and the many 
other dedicated employees of the Department of Homeland 
Security have the resources that you need to do your jobs, and 
to do your jobs well. In that regard I have questioned some of 
the requested funding levels for certain activities of the 
Department, such as the revised entry/exit visa system that we 
discussed last week with Secretary Ridge, and the appearance of 
a singular focus on aviation security in what is supposed to be 
an agency dedicated to the security of all forms of 
transportation. I and other Members will address these and 
other issues in our questions, and we look forward to your 
testimony.
    Thank you.
    Senator Cochran. Senator Campbell.

              STATEMENT OF SENATOR BEN NIGHTHORSE CAMPBELL

    Senator Campbell. Thank you, Mr. Chairman. I will make my 
opening statement very brief and ask that my complete statement 
be included in the record.
    Senator Cochran. Without objection, so ordered.
    Senator Campbell. Welcome, Under Secretary Hutchinson. I 
guess what we're learning with this whole problem with homeland 
security is that those people who would do us some damage have 
learned how to use the very liberties that we cherish against 
us.
    The use of American money to be filtered to foreign 
operatives, the opportunity to enroll in our universities, in 
our flight schools, and to travel without documentation, all of 
the things that we sort of take for granted, they have learned 
how to use as weapons against us, and I think it was certainly 
a rude awakening September 11, and it has changed our world 
forever, but when we need to protect about 7,500 miles of land 
border and 95,000 miles of shoreline, or whatever it is, and at 
the same time make sure that we don't infringe on civil 
liberties or the rights of people that they have come to accept 
as the American way of lifestyle is a darned difficult thing, 
and all of us are fumbling along, I think, trying to do the 
best we can, and I just wanted, as one Senator, to say that I 
certainly support your efforts and look forward to a time when 
the Nation is safer, and we never get back to what we once 
thought of as total freedom in this country, but certainly we 
can find, I think, a better balance in protecting those 
liberties I mentioned, at the same time decreasing the amount 
of danger.
    Sometime ago, right after 9/11, I remember sitting in a 
hearing, and there was some discussion about those areas that 
seem to be pretty weak yet and would be an opportunity for the 
people who are going to do us some damage to attack, and having 
been a former private pilot myself, I thought at the time that 
we still had a weakness in general aviation.

                           prepared statement

    We've done an awful lot when it comes to the commercial 
aviation. The number of bag screeners and the number of things 
that we have to go through I think has made it a lot safer, and 
when I mentioned I thought there was still a weakness in 
general aviation I got an immediate call from the ALPA 
complaining that I would make such a terrible statement, but as 
I read just recently in the paper, that is certainly one of the 
alerts that we're facing now, the possibility of people using 
private planes, since they don't have the same degree, at FBOs, 
of security that they do at the terminals, that there still may 
be a possibility of that, so I'm interested in knowing maybe a 
little bit more of that as we proceed with the discussions.
    Thank you, Mr. Chairman.
    [The statement follows:]

         Prepared Statement of Senator Ben Nighthorse Campbell

    Thank you Chairman Cochran. I'd like to thank the Under Secretary 
for taking the time to come talk with us today.
    Security procedures in place prior to the tragic events of 
September 11th were obviously seriously flawed. While I realize that 
many steps have been taken to address these concerns, including the 
creation of the Department of Homeland Security, I wonder whether or 
not enough has been done. As I fly back to my home State of Colorado 
every weekend, and wait in line at the baggage screeners and walk 
through the metal detectors, I wonder if these procedures really ensure 
my safety.
    We need to protect the 7,500 miles of land border, and 95,000 miles 
of shoreline, in addition to our nation's transit systems and energy 
and power infrastructures. This is imperative to our country's economy 
that is dependent on travel and the mobility of commerce. Additionally, 
the people of the United States deserve the ability to move about our 
nation in a safe manner. I believe that the TSA, Customs Service, Coast 
Guard, and other agencies in the Department have made great strides in 
improving our sense of safety since September 11, 2001.
    I believe that we have made great advancements quickly by upgrading 
security procedures, response plans, and increasing security. There is 
no issue more important to me than the safety of the American people.
    Again, thank you, Mr. Chairman. I look forward to hearing the 
testimony of our guest, and I will have a number of questions to ask at 
the appropriate time.

    Senator Byrd. Mr. Chairman, the distinguished Senator is 
still a private pilot.
    Senator Campbell. Yes, sir.
    Senator Byrd. Of a Harley-Davidson.
    Senator Campbell. Still have an airplane, too, just not 
current.
    Senator Cochran. Senator Inouye.
    Senator Inouye. Thank you very much, Mr. Chairman. I just 
wish to welcome Under Secretary Hutchinson. Welcome, sir.
    Senator Cochran. Senator Hollings.

                STATEMENT OF SENATOR ERNEST F. HOLLINGS

    Senator Hollings. Thank you, Mr. Chairman.
    Mr. Secretary, we have got a wonderful Border Patrol School 
down there now in Charleston. There was a heck of a contest in 
the midnineties when we had an immigration crisis and we were 
looking to train additional border patrol agents. Now some 
6,000 have graduated. Over half of your border patrol agents 
are graduates of that school. One, they're not paid enough. 
Incidentally, in the school they have about a 30 percent to 40 
percent dropout. There are about 55 in a class, and they have 
about 15 classes. They've got perfect facilities. They've got a 
driving range, they've got a rifle range and everything else 
down there, and they like it, but at $27,000, a GS-7 trained in 
speaking Spanish, trained in law enforcement, trained in 
computer programs, they leave and come over to the airline 
security because they get more pay, so by the time I'm training 
them in Charleston, they leave to train for the air marshall's 
job because they pay more. Let's look at that, because I want 
to write something in that bill to equalize your different 
security folks so you don't train for one function and all of a 
sudden lose too many of them to another function in the same 
agency.
    But it is an outstanding facility, and we invite you to 
come down and look at it, because we've got to expand the 
barracks facilities there to accommodate the increase in 
training.
    But thank you very much. We look forward to your testimony.
    Senator Cochran. Thank you.
    Mr. Secretary, you may proceed.

                 STATEMENT OF HONORABLE ASA HUTCHINSON

    Mr. Hutchinson. Thank you. Mr. Chairman and Senator Byrd, 
members of the committee, thank you for your welcome and your 
comments this morning. It is a pleasure to be with you to 
testify on the President's 2004 budget for the Border and 
Transportation Security Directorate of the Department of 
Homeland Security. It was just a couple of months ago that the 
Department brought nearly 180,000 employees from 22 different 
agencies together into one new Department. I want to express 
the thanks of the men and women of Homeland Security to this 
committee for your support in this reorganization, and also for 
your support in the recently concluded operation, Liberty 
Shield. In our view, and as was stated by Senator Byrd, there 
is really not more of a serious job in all the land than 
stopping future terrorist incidents from occurring on American 
soil, and the Border and Transportation Security Directorate, 
along with the Coast Guard, really represent the operational 
front line of homeland security. We're the operations folks. 
We're the ones that not only play defense, but also offense. 
We're not alone in that effort. We have to rely upon our 
partnership with State and local governments, and part of my 
job is to make sure we enhance those partnerships, increase 
that coordination, and we're working very hard to do that.
    Under the leadership of Secretary Ridge, we have already 
accomplished a substantial amount in terms of reorganization. 
We have unified our border efforts under the Customs and Border 
Protection Bureau. We have created the new Bureau of 
Immigration and Customs Enforcement that put our enforcement 
efforts under one chain of command that gives us a clearer 
focus, and the President's 2004 budget is the first complete 
new budget for the Department, and it is a good foundation for 
the future.
    I believe it is important we develop sound management 
principles and meaningful performance measures as we enact 
budget levels, and we are working hard to do that. If I might 
just comment briefly on the 2004 budget. First of all, for the 
directorate, it is a broad and a very expensive mission. It is 
an enormous challenge that we face. Each year, more than 500 
million persons, 130 million motor vehicles, 2\1/2\ million 
railroad cars, and 5.7 million cargo containers must be 
processed, screened, or inspected at or even before they reach 
our borders. Security decisions by our inspectors must be made 
within seconds, and we need to be right every time. That is 
difficult, and as Senator Hollings pointed out, sometimes they 
do not get paid what they get paid in the private sector, and 
so their commitment is very important.
    The $18.1 billion requested for this directorate by the 
President does provide for greater accountability for a more 
integrated border and transportation security organization. I 
know that sounds like boilerplate language, but that really is 
what I see as the responsibility of my directorate, and the 
uniqueness of this directorate is that we have the 
transportation and border agencies together, and we can enhance 
that integration and cooperation and exchange of information. 
We are increasing the security of our international shipping 
containers. The budget will allow us to continue implementation 
of the congressional mandates that have been wisely provided.
    A few highlighted priorities in the budget. First, under 
the Bureau of Customs and Border Protection. It provides for an 
increase of $1.7 billion over the 2002 budget, and this will 
allow us to support the Customs-Trade Partnership Against 
Terrorism program at a level of $18 million, which increases 
the supply chain security and expedites the clearance of 
international commercial cargoes and conveyances. In the budget 
we're also providing for the enhancement of the Container 
Security Initiative, with $62 million requested, which puts 
personnel in key international ports to examine high risk cargo 
before it is placed in U.S.-bound ships. This is a very 
important part of our overall strategy at Homeland Security.
    And then we have the capital improvements to our IT systems 
from the international trade data system to the automated 
commercial environment system, and if these requests are 
approved, it will be nearly $1.1 billion that have been 
dedicated since 2001.
    I am pleased also that there is $119 million for 
nonintrusive inspection equipment. This allows us not to just 
simply flood the border with people, but provide security at 
our borders wisely with technology and with better systems.
    As was mentioned, the budget also supports continued 
implementation of the comprehensive U.S. VISIT system. The goal 
is to track the entry and exit of visitors to the United 
States. It provides for $100 million in new resources, for a 
total of $480 million. This is an important objective that the 
Border and Transportation Security Directorate will engage in 
over the next couple of years.
    When it comes to the Immigration and Customs Enforcement 
arena, it has 14,000 employees, and a budget of $2.8 billion, 
which is a 16 percent increase over 2002. It will allow us to 
support our investigative activities, including immigration 
fraud, smuggling of illegal aliens, international money 
laundering, export enforcement, forced labor, trade agreement 
investigations, smuggling of narcotics, weapons of mass 
destruction and other contraband, illegal transshipment, and 
vehicle and cargo theft. That is a broad mandate for an 
investigative agency, but we will be prioritizing and working 
in those broad arenas. The budget will allow us to continue our 
traditional roles as well as enforcement of all of our 
immigration laws.
    The Transportation Security Administration has done a good 
job in increasing the professionalism of our screeners, and I 
am proud of the job that they have done. The budget requests 
$4.8 billion for TSA, $2.4 billion of that will be offset by 
collections from aviation passenger security fees and airline 
security fees. Collection of these fees will be suspended from 
June 1 to September 30 of this year, in accord with the 
provisions of the Emergency Wartime Supplemental Appropriations 
Act.
    The total request, $4.3 billion, supports direct aviation 
security activities, including a professionalized passenger and 
baggage screening workforce and additional equipment to prevent 
weapons and other contraband on the aircraft. We will also be 
reimbursing our State and local law enforcement agencies for 
their work in providing now roving patrols and supporting our 
screeners. We will be funding the Federal Air Marshal Service 
and, in addition, enhancing our cargo and passenger screening 
methods and increasing our use of technology.
    One of the important new initiatives is the transportation 
worker identification credential, or the TWIC, that will allow 
us to have more security background checks of our 
transportation workers, and create a credential that will allow 
them to have access to various transportation security 
facilities.
    We also have the Office for Domestic Preparedness and the 
Federal Law Enforcement Training Center. Both are essential for 
training first responders, training of our Federal law 
enforcement agencies, and I am pleased and proud of the work 
that they are doing.

                           prepared statement

    Finally, our directorate supports, through our operations, 
the President's national strategy for homeland security. This 
is a benchmark and a framework for our enforcement 
responsibilities. We want to be able to manage our 
responsibilities in coordination and integration with all of 
our Federal partners and our State and local efforts. These are 
the two benchmarks that guide us as we work in the Border and 
Transportation Security Directorate.
    Thank you for your support. I look forward to your 
questions.
    [The statement follows:]

                  Prepared Statement of Asa Hutchinson

Introduction
    Good morning Chairman Cochran, Senator Byrd, distinguished members 
of the Subcommittee. It is a pleasure to be with you today, and I am 
pleased to be here to discuss the President's fiscal year 2004 budget 
request for the Department of Homeland Security's Border and 
Transportation Security (BTS) Directorate and its component 
organizations.
    Just a couple of months ago, the Department of Homeland Security 
brought nearly 180,000 employees throughout the Federal Government 
together into one agency. I am grateful for the focus and support 
Congress provided in creating the Department, and I also wish to thank 
you for recently providing critical supplemental resources to support 
the Department's efforts in Operation Liberty Shield and the brave men 
and women serving in our military during this challenging time.
    The President's National Strategy for Homeland Security provides 
the framework for mobilizing and organizing the nation--the Federal 
Government, State and local governments, the private sector, and the 
American people--to undertake the complex mission of protecting our 
homeland. It makes the Department's strategic objectives abundantly 
clear: prevent terrorist attacks within the United States, reduce 
America's vulnerability to terrorism, and minimize the damage and 
assist in recovery should a terrorist attack occur.
    There is no more serious job in all the land than stopping future 
terrorist incidents from occurring on American soil. This is especially 
true in light of recent world events. The Border and Transportation 
Security Directorate, along with the U.S. Coast Guard, serves as the 
front line operational force for the Department in achieving its 
objectives. But we are not alone in this effort. The President, 
Secretary Ridge, and I fully understand that our partnerships with 
State and local governments are critical for ensuring the success of 
our mission.
    Under the able leadership of Secretary Ridge, the BTS Directorate 
has already taken significant steps forward. We have reorganized the 
BTS Directorate's nearly 100,000 employees to unify border and 
transportation security activities, integrate our front line 
operational forces, and yet preserve the expertise and functional 
relationships BTS employees have developed over the years.
    This has resulted in the creation of two new bureaus within BTS. 
The inspection and border patrol functions of the former U.S. Customs 
and Immigration and Naturalization Services, and the Agriculture Plant 
Health Inspection Service now reside in the new Bureau of Customs and 
Border Protection (BCBP). The investigation and enforcement functions 
of those agencies, along with the Federal Protective Service, now 
reside in the new Bureau of Immigration and Customs Enforcement (BICE). 
We have also brought first responder resources in the Office for 
Domestic Preparedness (ODP) to improve assistance to our State and 
local partners as they do their part to protect the homeland.
    The fiscal year 2004 budget is the first ever for the new 
Department and the Bureaus of Customs and Border Protection (BCBP) and 
Immigration and Customs Enforcement (BICE). It is the foundation on 
which the Department and the BTS Directorate will be built. In laying 
this foundation, we have a valuable opportunity to develop sound 
management principles and meaningful performance measures. We will use 
these principles and measures to guide our efforts and gauge our 
progress in carrying out the President's Management Agenda.
Budget Request for fiscal year 2004
    In his fiscal year 2004 budget, the President requested $18.1 
billion, including fees, and roughly 108,000 full-time equivalents 
(FTE) positions for the Border and Transportation Security Directorate. 
The request reflects the Administration's commitment to the mission and 
priorities of the Directorate.
    The Border and Transportation Security Directorate secures the 
nation's borders, transportation systems, points of entry, and points 
in between. This includes nearly 7,500 miles of land border, 95,000 
miles of shoreline and navigable rivers, and our Nation's airports, 
highways, rail, maritime, pipeline, and transit systems. This 
Directorate is responsible for preventing the illegal entry of people 
or goods, while at the same time facilitating the unimpeded flow of 
legitimate commerce and people across our borders and throughout the 
national transportation system. This presents an enormous task. Each 
year more than 500 million persons, 130 million motor vehicles, 2.5 
million railcars, and 5.7 million cargo containers must be processed, 
screened, or inspected at, or even before they reach, our borders.
    The $18.1 billion requested by the President for the BTS 
Directorate will: provide greater accountability through an integrated 
border and transportation security organization; create smart borders 
that are more secure; increase the security of international shipping 
containers; continue implementation of the Aviation and Transportation 
Security Act of 2001, the USA PATRIOT Act, and the Maritime 
Transportation Security Act; and ensure that our Nation's first 
responders are trained and equipped to address the threat of terrorism 
through efforts consolidated in the Office for Domestic Preparedness.
    The following sections detail the budget requests for the Border 
and Transportation Security Directorate components.
    The Bureau of Customs and Border Protection brings together 
approximately 42,000 employees including 11,000 Border Patrol Agents, 
and 19,000 inspectors from the Agriculture Plant Health and Inspection 
Service, and the former Immigration and Naturalization and U.S. Customs 
Services, including canine enforcement officers. The Bureau focuses its 
operations on the movement of goods and people across our borders to 
prevent the illegal entry into the United States of people or goods at 
or between ports-of-entry while facilitating the movement of legitimate 
trade and international travel.
    The budget includes $6.7 billion for the Bureau of Customs and 
Border Protection, an increase of $1.7 billion (33 percent) above 
fiscal year 2002. These resources will support the Customs-Trade 
Partnership against Terrorism (C-TPAT) program, which increases supply 
chain security and expedites the clearance of international commercial 
cargoes and conveyances. It also supports the expansion of programs 
such as the Container Security Initiative, which puts personnel in key 
international ports to examine high-risk cargo before it is placed on 
U.S.-bound ships. The request funds the International Trade Data System 
(ITDS) and the Automated Commercial Environment System (ACE), two 
capital projects for which, if the request is approved, nearly $1.1 
billion will have been dedicated since fiscal year 2001.
    The Bureau of Customs and Border Protection will ensure compliance 
with customs and immigration laws, determine the admissibility of 
persons to the United States, and prevent the admission of terrorists 
and other criminals. The Bureau will also focus on deterring illegal 
crossings, seizing illegal drugs, currency, and monetary instruments, 
processing $1.2 trillion in imports, and collecting $20 billion in 
duties on the same, while inspecting 147 million vehicles and more than 
one million aircraft. The budget also supports continued implementation 
of the comprehensive U.S. VISIT system to track the timely departure of 
visitors to the United States.
    The Bureau of Immigration and Customs Enforcement brings together 
the enforcement and investigative arms of the former Customs and 
Immigration and Naturalization Services, and the Federal Protective 
Service. The reorganization involves approximately 14,000 employees, 
including 5,500 criminal investigators, 4,000 employees for immigration 
and deportation services and 1,500 Federal Protective Service staff. 
The Bureau will address the full range of immigration and customs laws 
within the United States, in addition to protecting specified Federal 
buildings. The air and marine enforcement functions of the former 
Customs Service will also be a part of this Bureau.
    The fiscal year 2004 request for the Bureau of Immigration and 
Customs Enforcement (BICE) includes $2.8 billion, an increase of nearly 
$400 million (16 percent) above fiscal year 2002. Nearly $1.1 billion 
of this amount will support investigative activities, including 
immigration fraud, smuggling of illegal aliens, international money 
laundering, export enforcement, forced labor, trade agreement 
investigations, smuggling of narcotics, weapons of mass destruction 
(WMD) and other contraband, illegal transshipment, and vehicle and 
cargo theft. Furthermore, the budget will continue our ability to 
apprehend, detain and remove illegal aliens, and strengthen visitor and 
immigrant arrival and departure control by facilitating timely 
enforcement actions against violators. These funds will also reduce 
infrastructure vulnerabilities, promoting safe and secure Federal 
properties for both employees and visitors.
    The Transportation Security Administration (TSA) continues its 
mission to protect and secure our nation's transportation systems, 
while ensuring the unencumbered movement of commerce and people. The 
President's budget requests $4.8 billion for TSA, approximately $2.4 
billion of which will be financed by offsetting collections from 
aviation passenger security fees and airline security fees. Collection 
of these fees will be suspended from June 1 through September 30, 2003 
in accord with the provisions of the fiscal year 2003 Emergency Wartime 
Supplemental Appropriations Act, with collections renewed on October 1, 
2003.
    Of the total request, approximately $4.3 billion supports direct 
aviation security activities, including a professionalized passenger 
and baggage screening workforce, and supporting equipment to prevent 
weapons and other contraband on aircraft. The budget also supports 
reimbursement to State and local law enforcement agencies, funding for 
the Federal Air Marshal Service to provide in-flight security, and it 
supports improvements in both air cargo and passenger screening methods 
and technology to reduce security risks.
    The request for TSA includes funding for new air cargo security and 
armed pilot initiatives, and it supports TSA's work to develop and 
implement security standards for non-aviation modes of transportation. 
Furthermore, it will advance the TSA's work on the Transportation 
Worker Identification Credential (TWIC) initiative.
    The Office for Domestic Preparedness will strengthen the readiness 
capabilities of State and local governments that play a critical role 
in the Nation's ability to prepare for and respond to acts of 
terrorism. ODP will manage the Department's First Responder initiative, 
providing grants for preparedness. ODP will award $3.5 billion to 
States to address the equipment, training, planning and exercise needs 
identified in their updated response plans. These State plans 
strategically outline goals and objectives for preparedness, State and 
local enforcement anti-terrorism initiatives, and Citizen Corps 
preparedness activities. ODP will also continue supporting a number of 
unique training facilities, and provide technical assistance for State 
and local planning efforts.
    The Federal Law Enforcement Training Center (FLETC) will continue 
to serve as a leading Government provider of high-quality law 
enforcement training to Federal, State, and local law enforcement 
officers. The fiscal year 2004 budget request for the Federal Law 
Enforcement Training Center is $146.1 million, including capital 
acquisitions. With these funds, FLETC will provide cost-effective and 
contemporary law enforcement training, support the specialized training 
needs of State, local, and international agencies, and deliver 
preventive and investigative law enforcement methodologies and 
terrorism training.
Conclusion
    The budget request for the Department of Homeland Security's Border 
and Transportation Security Directorate supports the President's 
National Strategy for Homeland Security, which is the framework for 
mobilizing and organizing the resources of the Federal Government, 
State and local governments, the private sector, and the American 
people to accomplish our unwavering and complex mission to protect the 
homeland. We have a good start on this work, but we are only at the 
beginning of what will be a long and difficult road. Many challenges 
lie ahead.
    The fiscal year 2004 budget request provides the resources to 
enable the Border and Transportation Security Directorate to manage its 
responsibilities and continue its work to secure the homeland to 
protect and serve the American people. We are committed to preventing 
terrorist attacks, reducing America's vulnerability, and responding to 
and recovering from attacks that occur. I look forward to continuing to 
work with you to successfully accomplish these objectives.
    Mr. Chairman, Senator Byrd, and Members of the Subcommittee, this 
concludes my prepared statement. I would be happy to answer any 
questions you may have at this time.

                 CHALLENGES OF UNDER SECRETARY'S OFFICE

    Senator Cochran. Thank you, Mr. Secretary, for your 
statement. The other day we had the Secretary of the Department 
of Homeland Security, Tom Ridge, before our committee talking 
about the overall budget request for the Department and the 
challenges that face him and the President and all of you who 
are responsible for the individual directorates and carrying 
out the responsibilities of the Department of Homeland Security 
Act.
    I wonder, as we celebrated the first 100 days just recently 
of the creation of this new Department, what you view as your 
most challenging responsibilities. You have had experience in 
other Federal offices, specifically the Drug Enforcement 
Administration, heading up that office. Tell us what your most 
difficult and challenging moments have been as Under Secretary.
    Mr. Hutchinson. Well, thank you, Mr. Chairman, and it has 
been challenging. I think any time you are setting up a new 
organization there exists an incredible organizational 
challenge. You overlay that with being in the Government, and 
then you overlay that being in a high threat environment, and 
our hostilities in Iraq enhanced our operational challenges, 
and so all of that together combined for a very challenging 
start.
    I have been pleased, quite frankly, with the momentum for 
the merging of the cultures between the 22 different agencies, 
and I think the reason we are having a better time than other 
Government reorganizations is because there is really a strong 
commitment to the homeland security effort. It gives our 
employees a tremendous sense of pride to be a part of this 
Department.

                                STAFFING

    Senator Cochran. Has there been a very high turnover in the 
offices, particularly the principal offices of leadership in 
the enforcement agencies and the inspection services that now 
come under your jurisdiction? Have you had to go out and find 
new people to hire, or are you bringing over a lot of folks who 
worked in the offices and were in charge before the new 
Department was created?
    Mr. Hutchinson. Senator, it has not been a particular 
problem with attrition or being able to recruit top-quality 
executives or middle-level management for the work we are 
doing. I think when you saw TSA created a couple of years ago, 
I was at the DEA at that time, and you saw a lot of changeover 
in Federal law enforcement. There was a lot of attraction to 
that new mission. There were some competitive advantages to TSA 
as they set up. I think the dust has settled since then, and 
stabilized in our Federal law enforcement workforce. We have 
people really knocking on our doors because they want to be 
engaged in this tremendous new mission, so I don't identify 
that as a problem.
    Senator Cochran. There is a specific amount in the budget 
request for you to hire employees and to staff up your own 
office. Have you completed that work now, and to what extent is 
the budget request sufficient to provide you with the number of 
employees in your office that you need to carry out your 
responsibilities?
    Mr. Hutchinson. Well, in the 2004 budget request for my 
operational team at the Under Secretary level it will be a part 
of the overall Department management budget, and in my judgment 
it has been adequate thus far. I believe it is adequate for the 
2004 time frame.
    We have budgeted for, I believe it is 67 personnel in the 
Under Secretary's Office. That is relatively small number to 
oversee 110,000 employees in the different agencies, but I 
think it is wise not to start up with a huge bureaucracy. We 
have detailed people from different agencies as part of that 67 
in the near term. That gives us support, and with the 
allocation we have I think that we've got a good team that 
we're putting together for that purpose.

                      STATE OF READINESS IN PORTS

    Senator Cochran. I know that when you mentioned the hiring 
of port directors, you've been traveling around the country 
meeting and getting to know some of the people that are in 
these offices throughout the country, including recently in our 
neighboring city of New Orleans. What do you consider to be the 
state of readiness to protect the security of our Nation's 
ports at this point in time?
    Mr. Hutchinson. Well, first of all it is much improved, as 
compared to prior to September 11. We have made enormous 
strides and progress with our ports. There has been an 
increasing number of ports that have done vulnerability 
assessments. That is an ongoing process. In addition, the 
information systems have improved, where the inspectors on the 
front line have access to more databases to check cargo and 
people, and it has been a partnership with the private sector. 
They have invested a substantial margin in the security of our 
ports. We have a greater distance to go in the future, but I 
believe that the personnel are ready and the systems are 
getting into place.
    When I was there in New Orleans I saw some from your State, 
Biloxi, that came over, doing an outstanding job there, so I 
think that the state of readiness is good.
    Senator Cochran. Senator Byrd. I am prepared to yield to 
you, sir.

TRANSPORTATION SECURITY ADMINISTRATION RESOURCES FOR MARITIME AND LAND 
                                SECURITY

    Senator Byrd. Well, thank you, Mr. Chairman.
    Mr. Secretary, you have referred to the $4.8 billion TSA 
budget. Only $86 million is requested for maritime and land 
security activity while over $4.3 billion is requested for 
aviation security. This means that less than 2 percent of your 
transportation security budget request is for maritime and land 
security, less than $1 in $50. In fact, the budget request for 
administrative costs associated with TSA headquarters and 
mission support centers, $218 million, is two-and-a-half times 
greater than the request for maritime and land security. How do 
you explain that?
    Mr. Hutchinson. Well, Senator, of course, subsequent to 
September 11 and really prior to that there was a great focus 
on airport security, airline security. Much of that was--of 
course, all of that was based upon a mandate from Congress to 
have 100 percent checked baggage inspection, as well as 
screening of each passenger, so that's where the emphasis has 
come from. But as you noted, the TSA has a broader mandate than 
just airline security, and we are moving in that direction.
    I don't think we treat every mode of transportation the 
same. Whenever you're looking at rail, we want to act on best 
practices with strong relationships with the modal 
administrations at the Department of Transportation, so we are 
mindful of our responsibility there. We are moving forward with 
stronger efforts in the other modes of transportation, and we 
will do it based upon threats and the vulnerabilities that we 
assess.
    Senator Byrd. All right. You have introduced my next 
question, and you've partially answered it. Why has more 
funding not been requested for other, equally important modes 
of transportation?
    Last month, Secretary Ridge provided the committee with a 
written statement of his priority guidelines for addressing 
vulnerabilities to another terrorist attack. He included 
attacks on confined spaces, such as rail and air transportation 
systems, that could be used to spread contamination. He 
expressed concern about catastrophic economic damage that could 
come from an attack on transportation systems and on petroleum 
facilities at our ports, and, yet, the request for adequate 
resources is not there. We've concentrated on the $4.3 billion 
requested for aviation security.
    I'm all for that, but, the budget request for 
administrative costs associated with TSA headquarters and 
mission support centers is two-and-a-half times greater than 
the request for maritime and land security. Are port and 
maritime security lower priorities? They must be. Why? Is it 
because there hasn't been a terrorist attack here yet? The 
terrorist track record is to exploit vulnerabilities. The first 
attack on the World Trade Center used truck bombs.
    The attempted millennium attack in Washington State sought 
to exploit our porous borders. The 9/11 attack used airplanes. 
I think we should have learned from this track record to 
address all of our vulnerabilities, and not just those that the 
terrorists have used most frequently.

      PRIORITIES IN TRANSPORTATION SECURITY ADMINISTRATION BUDGET

    Senator Byrd. Mr. Secretary, why is the security of our 
ports, why is the security of our bus and subway systems, why 
is the security of our rail systems, Amtrak, for example, why 
do they have such a lower priority in your budget?
    Mr. Hutchinson. Well, you're absolutely correct that we 
have to address the broad range of vulnerabilities in our 
transportation systems. Whenever you look at the airlines, we 
responded both to vulnerability but also an incident, and now 
we're conducting assessments, and it is important to conduct 
these assessments of the vulnerability of our transportation 
system so we know exactly how we're spending our money and 
where it should be invested.
    In the 2004 budget, $62 million is requested for the 
Container Security Initiative assessments. This also is an 
important part of our efforts to provide, both from the private 
sector and with our taxpayer partnership, greater security 
efforts in our ports. When it comes to other areas of critical 
infrastructure, we have the Directorate of Information Analysis 
and Infrastructure Protection. This directorate has requested 
$500 million to go toward critical infrastructure protection, 
and this has the broader arena of infrastructure.
    Part of it will be in the transportation sector, part of it 
will be in the petroleum or the energy sector, and there will 
be other aspects of critical infrastructure that have to be 
protected, so we'll go through the assessments, and then we 
will be assigning the responsibilities for the protection based 
upon those vulnerabilities.
    Senator Byrd. It appears to me from what you've said that 
you feel that the budget requests are inadequate. What would be 
an adequate request, in your judgment, to meet these 
vulnerabilities about which you have spoken?
    Mr. Hutchinson. With due respect, Senator, I believe the 
2004 budget request is appropriate. I think it is important not 
to measure success simply by the dollar amounts that are 
invested, but also by the strategy that is being implemented, 
and I think it is an appropriate strategy to logically go 
through the evaluations and the assessments and then put the 
money where the threats and greatest vulnerabilities are, so 
clearly down the road there is going to be additional money 
that is needed, but in terms of the 2004 budget, I think it is 
a correct strategy and the right amount to complete these 
assessments.
    Senator Byrd. How much did you request at the OMB level for 
these items?
    Mr. Hutchinson. I do not have that figure as to that 
discussion.
    Senator Byrd. You don't know what you requested at the OMB 
level?
    Mr. Hutchinson. I do not have that in front of me, sir.
    Senator Byrd. Will you supply it to the committee, please?
    Mr. Hutchinson. We will be glad to look at that and get the 
information to you.
    Senator Byrd. You will be glad to supply that information 
to the committee?
    Mr. Hutchinson. Provided there are not any issues there 
that I am unaware of at this time in terms of the 
communications that we had with OMB, but we will certainly want 
to support your request for that information and be able to 
answer you appropriately.
    Senator Byrd. Well, you have fuzzed up that response. I've 
been in Congress now more than 50 years, and I know when an 
answer, is a solid, firm, straightforward answer, and when it 
is not. So, please supply that information to this committee. 
It's our business to try to fund the needs to protect the 
people of this country, and on the basis of your testimony, I 
think that the budget request is inadequate. So, will you 
please supply that information so that this subcommittee can 
respond in an adequate fashion, as we are here to do and want 
to do? Do you understand that?
    Mr. Hutchinson. I understand, and will be happy to respond 
to your question.
    [The information follows:]

    A separate line item was not included in the fiscal year 2004 TSA 
budget for these items. Rather, budget requirements to address these 
needs and similar requirements across all sectors of the Department of 
Homeland Security were consolidated under the Directorate for 
Infrastructure Analysis and Infrastructure Protection.
    The budget requests that agencies send to OMB are part of the 
Executive Branch's deliberative process for developing the President's 
Budget submission to Congress. The longstanding Executive Branch 
position has been that agencies are to preserve the confidentiality of 
these internal deliberations and not release the funding requests that 
they send to OMB.

                  COAST GUARD GRANTS FOR PORT SECURITY

    Senator Byrd. I will just finish with one more question. 
The Coast Guard has estimated already the cost of improving 
port security at $1.4 billion for fiscal year 2004, and there 
are no dollars, none, in the budget request. Do you want to 
comment on that?
    Mr. Hutchinson. Well, an assessment was done by the Coast 
Guard. Obviously, when you look at needs for port security, 
part of it is borne by the private sector. A substantial part 
of that they are investing. In addition, we again are providing 
money to complete the assessments, and there are some grants 
that are available through TSA that would be broader than 
simply an assessment that would be grants for improvement of 
security.
    Senator Byrd. Mr. Chairman, I have further questions, but I 
will wait.
    Senator Cochran. Thank you, Senator Byrd. Senator Campbell.

         OFFICE FOR DOMESTIC PREPAREDNESS GRANT-MAKING PROCESS

    Senator Campbell. Thank you, Mr. Chairman. I have about, 
maybe 10 questions. Some of them I will submit in writing, too, 
with your permission.
    The portion of your budgets dedicated to managing the 
Department's first responder initiative providing for grants 
for preparedness, I think my office is like many of them here, 
and that is we have some disparity about how it ought to be 
administered at the State level. It seems like every town, at 
least major-sized towns in my State, would like to have their 
own Homeland Security office and their own network, their own 
system, and the States would prefer it go through the States. 
Could you explain very quickly how the process that's in place 
now, how it awards the grants?
    Mr. Hutchinson. Yes, Senator. The broad overarching 
principle is that we want to go through the State Homeland 
Security directors to channel the money flow to the first 
responders at the local government level, and the reason is 
that we want to make sure that a security response is highly 
coordinated, that there is a multijurisdictional response to 
any terrorist incident or the planning for it. The only way to 
do that is to have a State coordinating body that will make 
sure that the local entities are coordinating and moving in the 
same direction.
    Senator Campbell. So the grant is given to the State and 
they, in turn, disseminate it to communities as they see fit?
    Mr. Hutchinson. That is correct. Now, in reference to the 
most recent supplemental that was provided, over $2.2 billion, 
the bulk of that will go through the States, but Congress 
wisely put on a requirement that it has to go from the States 
to the local governments within 45 days. Sometimes in the past 
it has stayed there too long, and so that 45 days will move it 
in a more quick fashion to the local governments. There will be 
pressure from the bottom, and we will be putting pressure from 
the top.
    You also allowed, I think it was $10 million at least, for 
technical assistance, so ODP will be providing more technical 
assistance to the States to help them to get that money out to 
local governments. We recognize how important it is to get to 
the local governments. We are going to be working to accomplish 
that, but still, it's important to run that money through the 
State for coordination purposes.
    Senator Campbell. Okay, thank you.

  EMERGING TECHNOLOGIES RELEVANT TO BORDER AND TRANSPORTATION SECURITY

    There must be literally dozens of groups who have already 
come to you, and certainly they have come to us, that have some 
kind of a new, sophisticated technology that they think should 
be in the mix somewhere in trying to provide better security, 
particularly on airlines. I saw one about 6 months ago that 
was--I'm not a really high tech person, and it kind of amazed 
me. It was a very tiny monitor that could be put literally 
anywhere in the plane, in the cabin of the plane, and you 
almost couldn't see it. It was just like a little, small eye, 
and it was coupled with a screen on the ground so people on the 
ground at the appropriate agencies could actually watch what 
was going on inside the cabin of the plane and could 
communicate with the people on the ground, too. I thought that 
was really pretty advanced.
    Is there a process now in place in which these new emerging 
technologies, which are often done by very small groups around 
the country, is there a process in place now where they can get 
into the system and show their wares and have someone evaluate 
it?
    Mr. Hutchinson. Yes, there is, and I was pleased that one 
of the directorates created at Homeland Security is the Science 
and Technology Directorate, which is--I equate it to an R&D 
shop in private industry, and Dr. Chuck McQueary, does an 
outstanding job there, and as we see either new emerging 
technologies or maybe even existing technologies in the private 
sector that may have an application for border security or 
transportation security, we will ask them to evaluate it, to 
test, pilot it, to see if it can work on the border, or we 
might give them an idea that they will go out in the private 
sector and solicit bids for a particular project.
    So they do the evaluation, the piloting of it, we do the 
request, and then the implementation of it if it does have that 
application. I have encouraged those in private industry to 
check our Web sites. They have ways in which they can present 
their ideas to Homeland Security.
    Senator Campbell. And along that line, before 9/11 there 
was very little way to be able to communicate from the air to 
the ground, other than the normal channel to the tower, and the 
air marshals, do they have a way of communicating with the 
ground now, when they are on the airplane, and by the way, if 
there is something you shouldn't say in public, or before the 
committee, that's fine.
    Mr. Hutchinson. Senator, let me get back with you on that 
answer, if I might.
    [The information follows:]

    Pursuant to House Conference Committee Report 107-593, TSA's 
Federal Air Marshal Service (FAMS) was provided $15 million to begin 
implementation of an Air to Ground Communications program. TSA intends 
to utilize this funding to purchase a Commercial Off-the-Shelf (COTS) 
product, which includes hardware and software, for implementation of 
the Air to Ground communications system. This initial system will allow 
FAMS to utilize a portable, quickly deployable air to ground 
communications system which will seamlessly integrate existing FAMS 
wireless technology. This comprehensive wireless communications system 
may also be used by other local, State, and Federal agencies, and the 
Department of Defense, to achieve secure communications through a 
dedicated law enforcement network.

                     MONITORING UNTENDED AIRSTRIPS

    Senator Campbell. I mentioned in my opening statement, too, 
one of the weaknesses I saw, which raised some hackles of 
private aviation, but I know that there are literally hundreds 
and hundreds of runways around the country, many of them paved, 
by the way, that are on the FAA maps, but there's nobody 
around. They're just, literally abandoned.
    I know of two just within a few miles of my own home town, 
in fact, no towers, no FBOs, nothing on it, where people could 
land, and certainly the drug runners know most of these 
airports, and they are the ones who are using them.
    Is there anything that we are doing to catalog them, or 
monitor them, do something so that they would be less 
attractive as a place to put explosives on a private plane, as 
an example?
    Mr. Hutchinson. Well, there are a couple of things that 
we're doing. First of all, the general aviation industry has 
been very supportive in terms of, if they see something that is 
suspicious, they report that. We had a number of different 
reports that we've investigated based on their information, so 
they're really our eyes and ears out there if they see 
something strange or get an unusual request. The general public 
obviously is helpful.
    We have in the Bureau of Immigration and Customs 
Enforcement the Air and Marine Division, in which we monitor 
aircraft, in conjunction with other agencies that might be 
coming into our country. We, during Operation Liberty Shield, 
deployed many of those air assets to the Northern border. That 
helps us to track pilots that are unaccounted for, or might be 
operating under suspicious circumstances.
    So a combination of our own intelligence and law 
enforcement activities on the ground with our monitoring of our 
border air security gives us a pretty good idea of what's going 
on in that arena.
    Senator Campbell. Well, good luck in that arena, because I 
just think there's a huge weakness there yet.

                    PRIVATIZING AIR TRAFFIC CONTROL

    Recently, President Bush issued an Executive order that 
deleted a clause in a previous order signed by President 
Clinton that described air traffic control as an inherently 
governmental function. The administration, this administration 
has proposed studying whether to hire a private company to take 
over the air traffic control system. What effect would that 
have? Do you think it would solve any problems, or would it 
help the current system, or hinder the current system?
    Mr. Hutchinson. If there were private contractors for air 
traffic control?
    Senator Campbell. Yes.
    Mr. Hutchinson. I really wouldn't be in a position to 
comment from an expert standpoint on that. Obviously, we look 
at the private sector where appropriate. That is one that has 
to be closely integrated and we have to be careful about, but I 
would wait for the comments from the FAA before I would want to 
submit my own comments on that.
    Senator Campbell. Thank you, Mr. Chairman.
    Senator Cochran. Thank you very much. Senator Inouye.
    Senator Inouye. Thank you very much, Mr. Chairman.

                FURLOUGHING OF AIR PASSENGER INSPECTORS

    Mr. Secretary, recently TSA issued hundreds of yellow slips 
throughout the system, many to recently trained inspectors. 
Does that reflect itself on the budget, because I noticed, 
personnel, you have increased it?
    Mr. Hutchinson. It does, and the reason for that was 
twofold. One, there is a cap on the number of employees. This 
reduction, or right-sizing, as Admiral Loy calls it, will bring 
the screener workforce down to 49,000, and then secondly, there 
naturally needs to be an adjustment out there for efficiency 
purposes. The organization stood up very quickly. Not all of 
our personnel were allocated in the right way. We have to 
adjust it to allow for the traffic flow. There is going to be a 
reduction of 6,000, I think, in the next 6 months. It will be 
phased in.
    About half of those will happen through normal attrition. 
Others will be done through performance evaluations. There is 
some accommodation for those that have to be moved, so Admiral 
Loy is working closely with the workforce on that and with the 
management at TSA to do this in the best way, but it's 
something that was necessary from a budget standpoint and a 
management standpoint, and in answer to your question, it does 
save hundreds of millions of dollars by this reduction in 
force.
    Senator Inouye. Do you have similar caps in other areas?
    Mr. Hutchinson. In other areas of Homeland Security?
    Senator Inouye. Yes.
    Mr. Hutchinson. No. That is the only statutorily mandated 
limitation on numbers. Of course, others are fixed in terms of 
the amount that could be used for personnel, but that was a 
unique circumstance in which we had to stand it up so quickly. 
There was a limitation that was placed on it, and that is the 
only one that, because of budget constraints, TSA is the only 
one that had to do a right-sizing of the workforce.
    Senator Inouye. Thank you very much, Mr. Chairman. May I 
submit my other questions?
    Senator Cochran. Senator, thank you. Certainly, and we hope 
you will be able to respond, Mr. Secretary, to the written 
questions within a reasonable time.
    Mr. Hutchinson. I would be pleased to do so.
    Senator Cochran. Senator Hollings.

                             PORT SECURITY

    Senator Hollings. Mr. Chairman, on Senator Byrd's question 
of your request to OMB, add how much OMB cut your request, will 
you, please?
    Mr. Hutchinson. I will add that to the request.
    Senator Hollings. And this is friendly, because I'm with 
you, and I want to work with you, but you're way behind the 
curve when you intimate that, for example, the port security 
assessments are on course, and that security at ports is good. 
Let me--harken the actual facts.
    When we passed the port security bill in the United States 
Senate, it wasn't just an estimate. That was a determination of 
$4\1/2\ billion, and $1.4 billion immediately. That was voted 
on by every Republican and every Senator, 100 to nothing. When 
we got over on the House side, they bucked all year long, and 
we had to finally compromise just making an authorization bill 
in November.
    Again, in the emergency supplemental we had a billion in 
there that we could spend during the rest of this fiscal year. 
I know Senators, Republican Senators that wanted to cosponsor, 
wanted to vote for it, and word came from the White House, 
don't vote for that. There's no money.
    And when you intimate that money could come from the 
private sector, it won't come from the private sector. It won't 
even come from the public. Working with these folks you learn 
quickly, they don't want security. The name of the game at the 
port is to move it as fast as they possibly can, and so they're 
in competition, and they just cross their fingers and say, 
well, they'll blow up Houston, or they'll blow up Philadelphia, 
they won't come to mine, and I'm not going to spend my time and 
money on that particular story, and incidentally the law says 
the captain of the port is in charge of security, which means 
you, Mr. Secretary, the buck stops with you. We need that 
money. We need it right away.
    We do not have--for one, you testified, the transportation 
worker identification credentials. That's supposed to be 
available next month, in June, and these truck drivers coming 
on the port facility, they don't have credentials. They can't 
enforce it now, but that's what we said last year, that by June 
of this year we would have a card that you had approved in the 
Department of Homeland Security, and that Department would 
issue it, and then everybody would have an identification card.
    We have virtually no security whatever. I can identify 
every plane that approaches the coast of the United States. I 
cannot identify every ship. Now, we made the shipowners provide 
transponders, but we do not have the money for the channel 
towers. It just came out the other day when Secretary Ridge was 
here, and he testified that we don't have that money yet. 
You've got to get your Department on top of this particular 
problem, because Osama bin Laden has got 10 vessels that he 
owns. He used a rust bucket to go into Mombasa, the port of 
Kenya, to blow up U.S. Embassies in Nairobi and Tanzania, and 
they could come up to Houston, or come up the Delaware River.
    They could come up on, not on one of those rust buckets, 
they could take over--like they did the planes, they could take 
over an Exxon tanker coming right up there, throw the captain 
overboard and run it into the tank farm there, blow the whole 
thing. That would close down the eastern seaboard for several 
months--we've got Booz-Allen studies. All of this has been, not 
just estimates, but studies showing the tremendous danger that 
we're in, but to come to say, we're on course and the port 
security is good? I want to work with you and get on with that. 
We need the money now, and your budget doesn't call for it.
    Otherwise, there's been an ongoing, trying to get an 
additional 500 Customs agents. We debated an old textile bill 
back when President Reagan was in. I tried to get the 500 
there. Then when we debated another bill, NAFTA, in 1994--he is 
now the ranking member of the Budget, but Congressman Spratt, 
that you know very well, he voted for NAFTA on the promise that 
he would get 500 Customs agents. He hasn't gotten them yet.
    Now we go to the Customs agency and say, look, you say the 
$5 billion in train shipments in violation of textiles, and the 
agent looks at you and says, Senator, you want me to check 
drugs or do you want me to check textiles? He said, I'm 
checking drugs as best I can. Now, the agent says, excuse me, 
I'm checking terrorists, then I'm checking drugs, then I might 
get to your textiles, so you're way behind the curve on Customs 
agents, so I just suggest that you get on top of that.
    I see according to my news reporter here on the right we're 
getting rid of Mitch Daniels in 30 days.
    Senator Leahy. Hallelujah.
    Senator Hollings. Hallelujah is right. Let's get the money 
and get on, because you're the one that's going to be in 
charge. The buck stops there.
    I appreciate you've got a difficult task, and a lot of old 
things like the Customs things and identification card and the 
Port Security money. The money hasn't been there on rail 
security, it's not there on port security.
    Mr. Hutchinson. Senator, I just want to thank you for your 
comments. You have been a very constructive partner in this, 
and I take your admonitions very seriously, and I certainly do 
not mean to represent that everything is perfect in the 
security realm. We understand the many challenges that we face.
    Senator Hollings. Your problem is money, and let's get it 
out of that crowd.
    Mr. Hutchinson. Thank you for your comments, Senator.
    Senator Cochran. Senator Leahy.
    Senator Leahy. Thank you, Mr. Chairman. I checked--any 
further news? I'm so tempted to say something, but I'm not 
going to do that. I don't get the Arkansas wire here.
    Mr. Hutchinson. You're a wise man.
    Senator Leahy. I only get the Vermont political wire.
    Mr. Hutchinson. I'm staying right where I am.
    I think.

                RESTRUCTURING OF IMMIGRATION AND CUSTOMS

    Senator Leahy. Let me ask you a question. You and I have 
known each other and worked with each other for years, and I am 
thinking back to when you testified before the Judiciary 
Committee in March, and I asked you to make good use of the 
excellent former, now former INS employees from Vermont that 
you inherited. Vermont is home to the administrative offices 
for the INS that provides oversight administration for much of 
the eastern half of the United States. I mention them because 
the workers have always received the highest rankings for their 
work and efficiency, and most have felt it was a good bang for 
the buck, and you told me it was essential to get the facts and 
to communicate with them clearly.
    Now, since that testimony, the former INS and Customs 
employees of Vermont still want to know what the restructuring 
means to them. Of course, some confusion is inevitable. I was 
looking at the organizational chart of the Department of 
Homeland Security. It's a pretty daunting one, so could you 
tell me what is the current state of restructuring for the 
Bureau of Immigration and Customs Enforcement, and how will 
that command structure differ from what the INS now has?
    Mr. Hutchinson. Thank you, Senator, and first of all the 
Law Enforcement Service Center in Vermont does an outstanding 
job. Mike Garcia, the Acting Assistant Secretary in charge of 
ICE has been up there. I'm also aware of how critical a role 
they play in providing local law enforcement with information 
on alien absconders and other issues that they have to 
confront, so I'm very impressed with the work that they do in 
terms of our organizational structure with Immigration and 
Customs Enforcement. I call it ICE.
    This Bureau came into Homeland Security by simply linking 
the chain of command at the top, and so you had your 
immigration enforcement and you had your Customs enforcement. 
They just came up to the top. Now we're bringing those middle 
management structures together, and we're going to be moving 
forward in the next couple of weeks. The management of 
Immigration and Customs Enforcement is ready for this unified 
leadership change. I do not see that this impacts the 
enforcement services there in Vermont. We do not plan to reduce 
the staff there. They're doing an outstanding job, and they're 
very needed in this mission, and they will remain a critical 
part of Immigration and Customs Enforcement.

    LEADERSHIP ISSUES IN REORGANIZATION OF BORDER SECURITY AGENCIES

    Senator Leahy. Thank you. I was just wondering. I don't 
envy you having to do this, but you have to integrate the old 
INS, Customs, other agencies into the Bureau of Customs and 
Border Protection. If you've got overlapping personnel and 
administrative support staff and so on, how do you determine 
who takes the lead? Who is in charge? I mean, ultimately you 
are, I understand, but to make it function, how do you 
determine that?
    Mr. Hutchinson. Well, it is a challenge whenever you're 
looking at whether it's immigration enforcement director or 
Customs traditional enforcement, SAC, that takes the lead, when 
you bring the management structure together you look at their 
experience, you look at their grade level, and things like 
that, put an interim person in charge. Then you will go to a 
merit-based selection process where everybody can present 
themselves for that, so it's a process we're going through 
that's working fairly smoothly.
    The biggest challenge is with the services side and 
splitting things off there, because you had support functions 
that supported both the enforcement side as well as the 
services side, as well as the inspection side, and so you've 
got some blend. That's more difficult to split, but 
Commissioner Bonner, Mr. Garcia, and Eduardo Aguirre, who is 
head of the services side, have a working group between them 
that work on these issues, and they're resolving them very 
well. It's a challenge, but they are making progress on it.
    One of the biggest challenges, by the way, is the overseas 
offices, because usually in a small overseas office they serve 
everyone, and they're funded in many instances by the services 
side fee collection, and that is a difficult issue we're 
wrestling with.
    Senator Leahy. I am sure it is. I have other questions 
about TSA staff reductions, certainly at the Burlington Airport 
and others. I will submit that for the record.
    And I will make the same invitation to you I made to 
Governor Ridge. The snow has gone out in Vermont. It has now 
melted. The maple syrup crop is in. Come to Vermont and talk to 
these people. I really wish you would. They are amazing. I have 
spent a lot of time both in South Burlington and St. Albans, 
where we have so many INS, Customs, others up on the border, 
and I use that term, INS, Customs, all just realizing that has 
changed, but to indicate who I'm talking about.
    These are remarkable people. They are highly dedicated 
people, alien tracking system that you referred to in law 
enforcement. I remember one time we had 20 inches of snow 
overnight. This had to stay open around the clock. Everybody 
showed up to work on time, and I said something and they said, 
well, there has to be somebody here, of course. I mean, there's 
just never any question.
    So come on up there sometime. I would love to show you 
around.
    Mr. Hutchinson. Thank you. I'd be happy to do so.
    Senator Leahy. And I will submit my other question, if I 
might, for the record.
    Senator Cochran. Thank you, Senator Leahy.

        ENFORCEMENT ROLES AND COORDINATION UNDER REORGANIZATION

    Mr. Secretary, in your directorate there are several sub-
bureaus focused on enforcement of current law, specifically the 
Bureau of Customs and Border Protection, the Bureau of 
Immigration and Customs Enforcement, and the Transportation 
Security Administration. How do you intend to coordinate the 
policies and the investigations procedures of these different 
entities within your directorate? Will they be coordinated, or 
will they function more or less independent of each other?
    Mr. Hutchinson. They will be coordinated, and we're doing 
it in a couple of ways. First of all, every Friday we have a 
policy council, BTS policy council that meets. The heads of 
each of the agencies under the Border and Transportation 
Directorate meet and we work on this coordination every week, 
high level.
    For example, use of force. Whenever you have a multitude of 
different agencies coming from the Justice Department, the 
Treasury Department, Transportation coming over, everybody has 
a different policy. We want to unite them together. This 
afternoon I'll be meeting with the Deputy Secretary about the 
procurement of boats. Whenever you have Coast Guard, it's not 
in the BTS, but we're trying to coordinate that with our 
Immigration and Customs Enforcement procurement of some air and 
marine assets, so we're working at that level as well.
    Probably most importantly, though, is the IT architecture, 
the information infrastructure. We're working with Steve 
Cooper, our Chief Information Officer for the Department, and 
building it together. For example, TSA is proposing and trying 
to pilot the CAPPS-II program, which is an information-sharing 
system I also emphasize over and over again that ultimately we 
want to be able to collect information from our visa programs 
overseas and the consular offices, make sure that information 
is available to our inspectors at the airports and our land 
ports of entry. Furthermore the information that is collected 
must be Government-based, not any private databases there, but 
appropriate to be shared, can be shared, and so we want to 
integrate these functions together.
    It is a humongous challenge. I think there's almost 3,000 
different mission-oriented programs for our information 
infrastructure. That's a huge challenge, to coordinate those 
together, but we're working on it through policy development in 
our policy council.

                       CONSOLIDATED PROCUREMENTS

    Senator Cochran. In that connection, I think there could be 
opportunities for substantial savings if you bring together the 
procurement processes too. You mention the boats and ships that 
might be under the jurisdiction of the Coast Guard or some of 
the other agencies, but a number of automobiles and other 
vehicles like buses and helicopters are used by the Border 
Patrol, Investigations, Detention, and TSA. It seems to me that 
they could be consolidated in a procurement regime under your 
directorate, and you could end up saving money and become more 
efficient in the process. Is that your plan, and to what extent 
are you implementing that kind of plan?
    Mr. Hutchinson. That is the plan, and it will result in 
some savings. For example, the Canine Enforcement Divisions. 
TSA has a canine enforcement program, bomb-sniffing dogs. We 
have drug-sniffing dogs in terms of the border inspection, and 
we want to look at ways that we can bring these programs 
together, not just for cost savings, but also for better 
standards and better training, so that's one area.
    As you mentioned, there's a whole host of others. 
Helicopters is a good example, and not just in procurement but 
also in cross-training capabilities. I was in a meeting of 
employees where you had the Border Patrol having their 
helicopters, and then you had the Air and Marine Division of 
Immigration and Customs Enforcement with their helicopters, and 
they said, you know, we'd have less down time if we were cross-
trained, we could actually use the other's helicopters, so this 
is something that's being pushed at both the ground level and 
at a high level.
    In some instances we won't be able to have joint 
procurement. If we can't, we want to be able to explain why and 
check it out.

                  CONSOLIDATED INFORMATION TECHNOLOGY

    Senator Cochran. You mentioned information technology. Do 
you intend to consolidate hardware and software systems within 
your directorate so you eventually end up with one single 
technology platform, or will it be a combination of systems?
    Mr. Hutchinson. The ultimate goal is that they're 
integrated and that the information is shared. As to how you 
technically reach that goal, I will leave that to Steve Cooper, 
our Chief Information Officer, who has the technical 
capabilities, but I am working with him to accomplish that. It 
is not going to be--we can't stop every program development 
right now to say, wait till we get all this coordinated, but 
we're trying as we develop a program saying, make sure that 
this is going to be able to tie in to the other programs that 
we know have to be developed, so ultimately we will be measured 
by that, and we're committed to having success on that.
    Senator Cochran. Well, I wish you well. I think it is a 
very challenging responsibility that you face. To what extent 
do you try to impose your will on the agency heads within your 
directorate?
    I'm thinking about some of the specific requirements for 
security precautions at our Nation's airports. There still 
seems to be a good deal of controversy surrounding some of 
those things, whether they're needed or not, whether they take 
too long, do you have too many people as screeners, or not 
enough at some places. How much are you going to get involved 
in the details of those decisions?
    Mr. Hutchinson. Senator, first of all I have a lot of 
confidence in the agency heads. They're good managers. They are 
very thoughtful, and certainly want to do a good job for the 
country, so I don't want to micromanage them. We give broad 
direction to them, but we do ask the tough questions, and 
that's my responsibility, and so that is one of the reasons I 
get out in the field. I see how it's working out there, I come 
back and push them on a number of these things, and then we 
have our own initiatives, some of those I have mentioned, to 
bring them together.
    The greatest challenge, but opportunity, we have is to 
bring these cultures and operations together in a way the 
American public expects. For example, the sharing of 
information, where a boat operator does not have to send the 
cargo information to three different agencies but can send it 
to one--a common sense approach, and we're doing that. Those 
are the kinds of initiatives we want to be able to drive with 
them. Good managers, though. They have a lot of flexibility, 
but we are working for Department objectives that they will 
implement, and we're going to make sure that happens.
    Senator Cochran. Thank you. Senator Byrd. Excuse me, 
Senator Kohl. Senator Byrd is willing to yield to you for any 
questions you might have. We've been operating under sort of a 
loosely determined 5-minute rule for questions.

                REDUCTION OF AIRPORT SECURITY SCREENERS

    Senator Kohl. Thank you. I appreciate it very much.
    Mr. Secretary, recently the Administration announced that 
it intends to cut 6,000 security screeners at airports around 
the country. I do understand that some airports may well have 
more screeners than they need, and so I'm not opposing the 
reductions in their entirety. However, I'm concerned about a 
few airports in my State of Wisconsin that I believe will have 
a difficult time dealing with staff cuts.
    First, Dane County Airport is listed as going from 81 to 63 
screeners. I have been told that this is based on some 
misunderstanding about the number of security lines at that 
airport in Madison. TSA thought that Madison had only one 
security line when in fact it has three.
    I have also been informed that this confusion is in the 
process of being sorted out and that Madison should get an 
additional screener, which would bring it to a total of 82. Is 
my understanding correct, and can we expect a decision on this 
fairly soon?
    Mr. Hutchinson. There have been some--you know, in the 
process of adjustments there were errors made that have had to 
be reevaluated. Originally we had received some inaccurate 
information about the number of lanes in Wisconsin. The field 
resubmitted that information, and the numbers will be finalized 
in the next couple of weeks to reflect the added lane you 
mentioned. I will be glad to get back with you more 
specifically on your question to give you the commitment that 
you're asking for, but that is the information that I have 
right now, and we will continue to work on that.
    Senator Kohl. I appreciate it, and will stay in close 
touch.
    At another airport, at the Outagamie County Airport in 
Wisconsin, which serves the Appleton area, it's slated to go 
down to 29 screeners from its current level of 51. However, 
even with 51 screeners Outagamie County Airport is paying 10 
percent of its screeners' employment costs now in overtime, so 
the question is, why would screeners be reduced when TSA is 
currently paying overtime on a regular basis in this location?
    Mr. Hutchinson. I would have to look at that, too, and get 
back to you. The methodology for the changes that were made 
looked at passenger loads and the numbers of lanes, the use of 
part-time and seasonal employees. The split shifts were 
considered, but that doesn't answer the question that you're 
asking, and we will be glad to get back with you as to how the 
overtime that they were having to commit justifies the 
reduction that you refer to.
    Senator Kohl. Okay. Well, I would like to be able to stay 
in touch with you and the Department on that one.

                      SMUGGLING OF PSEUDOEPHEDRINE

    Mr. Secretary, in January of 2002 a trafficking operation 
operating in several U.S. cities was found to be smuggling 
pseudoephedrine, a precursor to meth, into the United States 
from Canada. Meth is a major problem in my own State of 
Wisconsin and throughout the Midwest, but what's even worse, 
the proceeds of that trafficking ring have been traced to 
Hezbollah and other terrorist groups operating in Yemen and 
Lebanon. In what ways has the Department of Homeland Security 
tightened its processes and procedures at the borders to stop 
the smuggling of illegal drugs or their precursors into the 
United States, in light of the link between drug trafficking 
and terrorism?
    Mr. Hutchinson. Excellent question, and I appreciate that 
both from my current standpoint of protecting the borders and 
the point I made when I was at the DEA. We are very concerned 
about these types of operations at Homeland Security. Illegal 
drugs constitute one of the biggest weapons of mass destruction 
that we suffer, and so it is appropriate that we protect our 
borders from both terrorist weapons and also drugs.
    What you refer to is Operation Mountain Express, a very 
successful investigation of the pseudo-traffickers, and as you 
mentioned, some of that money went to the Middle East, some of 
which went into the hands of some terrorist organizations. What 
we're doing at the border--and I was there at some of the ports 
of entry on the Northern border, and our inspectors are looking 
at shipments that may be suspect in terms of pseudoephedrine 
that would come from Canada.
    We're also certainly encouraging our Canadian counterparts 
to regulate pseudoephedrine so they do not have the legal 
capability of procuring it there and moving it through the 
Canadian commerce chain before it comes across our border. We 
are keeping an eye on that from an inspection standpoint at the 
borders, from an investigative standpoint through Immigration 
and Customs Enforcement, and finally working with the Canadian 
Government to regulate pseudoephedrine.
    Senator Kohl. Thank you.

                SEVERE ACUTE RESPIRATORY SYNDROME (SARS)

    A last question, Mr. Secretary. We can all be thankful SARS 
has not taken serious hold in our country. However, SARS has 
shown us that a deadly illness can be introduced and spread by 
visitors to our country, or upon the return of an American 
citizen who has traveled abroad. What is the Department of 
Homeland Security doing to ensure that visitors who come into 
the United States at border crossings or by airplane or by boat 
are not carrying SARS? What is the Department doing to prepare 
for and safeguard against other, possibly more lethal diseases?
    Mr. Hutchinson. It has been a wake-up call for all of us 
that have responsibility at our ports of inspection. In 
reference to SARS, we provided training information for our 
inspectors to know what SARS is about, how to identify the 
symptoms of that, and what to guard for.
    We certainly give them the protective equipment whenever 
they have reason to believe they might be exposed so they can 
protect themselves. We are closely working with the Center for 
Disease Control and Secretary Thompson's shop to make sure we 
have the right information.
    As we see passengers that come from areas of the world that 
have an outbreak of SARS we will give them information that CDC 
prepared, that they know that the passenger would be able to 
identify the symptoms and be able to check with a doctor if 
they encounter those symptoms.
    So it's training, it's information that we're providing for 
the passengers, and then we're looking down the road in the 
event it becomes more serious, or a greater concern, what 
additional steps we should take. That is difficult, difficult 
obviously when people are coming to our land borders 
particularly. There is very little that we can do, but we do 
want to be able to provide the training and the information, 
and to see if there's any additional action we can take in 
conjunction with CDC.
    Senator Kohl. I thank you very much, Mr. Secretary.
    Mr. Chairman, thank you.
    Senator Cochran. Thank you, Senator.
    Senator Byrd.

                           ENTRY/EXIT SYSTEM

    Senator Byrd. One crucial component of ensuring our 
homeland security is ensuring that we as a government know 
which foreigners are visiting our country, why they are here, 
and that they depart when they are required to do so. Our 
existing visa tracking systems are not doing the job. The 
budget before us requests $480 million for the new entry/exit 
visa tracking system. This is only a $100 million increase over 
last year's level of funding.
    A few days ago, Secretary Ridge announced a major change in 
the program, proposing to create the U.S. VISIT system. The 
Secretary has testified about the potential use of biometrics 
in the system, but he offered very few other details when he 
appeared before the panel last week.
    Many Members of Congress and outside experts are concerned 
about the lack of progress in implementing the previous system, 
much less this revised system. It's my understanding that the 
Department has not yet determined what technology will be used 
in developing the system. Do you have anything new on that 
point?
    Mr. Hutchinson. I believe Secretary Ridge set the goals and 
the direction for us in his testimony he presented to this 
committee. He has directed us to go through a review of the 
program that we inherited to see how we can meet the objectives 
that Congress set for us in their deadlines, but also the goals 
that Secretary Ridge has set. There are a number of policy 
decisions that have to be made in order to determine how we get 
to these objectives. We are due to provide the Appropriations 
Committee a report on this, and we look forward to getting that 
to you as soon as we can conclude this review.
    Senator Byrd. Considering the track record of the former 
INS in tracking foreign visitors, let alone identifying 
potential terrorists or even coordinating watch lists with 
other Federal agencies, I did not have much faith in that 
service's ability to get the job done. Shortcomings have 
plagued the INS, and are not far from plaguing the Border and 
Transportation Security Directorate. There remain too many 
holes in our borders and not enough agents. There are millions 
of visitors to this country, and there is not even an ability 
to guarantee that they are who they claim to be.
    What steps are being taken to ensure that this system is on 
track, and that it can be deployed in a timely fashion?
    Mr. Hutchinson. Well, first of all, the goal that was given 
to us in 2003 was to deploy, to have an entry/exit system for 
our airports and our seaports. As Secretary Ridge indicated, 
we're going to meet that congressionally mandated deadline. 
We're going to have that capability.
    In addition, really in my view further than the law 
requires, we're going to have the capability of capturing and 
reading biometric identifiers at that time in our airports and 
seaports, so we look forward to working with Congress to 
accomplish that goal.
    The second part of the mandate is to have the same type of 
system in the 50 land ports of entry by the end of 2004. We are 
moving forward aggressively to evaluate what has been done by 
the former INS in developing this system. As soon as we 
complete that review, we will report to the Congress as to 
where we will be in reference to the 2004 deadlines, but we're 
working very aggressively to accomplish that.
    When you talk about tracking visitors, a part of it is also 
getting better information on our visitors and checking them 
out at our consular offices overseas. We are working with the 
Department of State right now for a memorandum of understanding 
with them to transfer some of the oversight and training 
responsibilities on that from the Department of State to the 
Department of Homeland Security, which was a part of the 
legislation that created this Department.

               TRACKING OF STUDENTS AND EXCHANGE VISITORS

    Senator Byrd. One of the criticisms of the former INS, 
Immigration and Naturalization Service, was and remains its 
inability to adequately track the entry and subsequent exit of 
non-U.S. citizens who come to the United States and for 
whatever reason overstay their visa. For instance, only last 
month, the Department of Justice's Inspector General released a 
report stating that there are significant deficiencies in the 
tracking of foreign students.
    Your Acting Assistant Secretary of the new Bureau of 
Immigration and Customs Enforcement agreed with the IG's 
conclusion that they need more resources to properly manage one 
of the many tracking systems. What is your take on that? Are 
additional resources required to implement the new system?
    Mr. Hutchinson. Well, the Department of Justice Inspector 
General report was on the SEVIS system, which was the tracking 
system for foreign students that come to our educational 
institutions, and this has been a very successful deployment, 
in my judgment, by the former INS, and now, the Immigration and 
Customs Enforcement responsibility. There were some bugs in it, 
as was pointed out by the Inspector General. Those we are 
attempting to address, and working with the universities to 
accomplish the very important goal of being able to track our 
students.
    You asked about the resources. What we are creating is a 
lot of information for us to evaluate. We know, for example, 
that the universities will call in foreign students who have 
foreign student visas but they do not show up for class. Now, 
why is that? Do they just get a job somewhere? Do they go back 
to their home? If we have over 2,000 names of people, students 
who do not show up for class, we have a responsibility to check 
those out, and we are trying to develop that capability.
    So we want to be able to get information but also to have 
an enforcement mechanism to investigate and to prosecute those 
who violate our law. That is a challenge for us. We are trying 
to meet that. Do we need more resources? That is part of the 
2004 budget that I think will be adequate. We are going through 
to see what greater capability we need. I would be happy to 
report back to you, because I want to make sure we do not just 
get information from all these different tracking systems, but 
we have a capability to follow up on that information.

                  COUNTERFEIT IDENTIFICATION DOCUMENTS

    Senator Byrd. Last year, the Senate Finance Committee 
tasked the General Accounting Office with sending agents out to 
try to enter the United States from Canada, from Mexico, and 
from Jamaica, using false names and counterfeit identification 
documents. In short, in each instance those GAO officials 
succeeded in using these fake documents to enter the United 
States. On at least one occasion, they were not even stopped as 
they crossed over at one point of entry.
    They created fictitious driver's licenses and birth 
certificates, using off-the-shelf computer graphics software 
that is available to any purchaser. Additionally, they obtained 
and carried credit cards in the fictitious names that were used 
in the test. The agents entered the United States from all 
three locations using the fake names and documents. Officials 
of the former Immigration and Naturalization Service and the 
U.S. Customs Service whom the GAO agents encountered never 
questioned the authenticity of the counterfeit documents, and 
the GAO agents encountered no difficulty entering the country 
using the fake documents. On two occasions, INS officials did 
not ask for or inspect any identification documents when the 
GAO agents entered the United States. On another occasion, an 
agent was able to walk across a major border checkpoint without 
being stopped or inspected by any government official. The 
results of the exercise led the GAO to conclude that, (1) 
people who enter the United States are not always asked to 
present identification, (2) security to prevent unauthorized 
persons from entering the United States from Canada from at 
least one location is inadequate, and (3) inspectors from the 
former INS are not readily capable of detecting counterfeit 
identification documents.
    Now, what steps, Mr. Secretary, do you intend to have 
implemented in order to address the gaps, such as better 
training, more intense document scrutiny, and what additional 
resources do you need in order to accomplish these things?
    Mr. Hutchinson. Thank you, Senator. First of all, we need 
to learn from those type of GAO reports and to take those 
lessons and apply them in the field. A couple of points there. 
In that GAO attempt to enter the country, they utilized, I 
believe, in most of the instances, State driver's licenses. Our 
inspectors, with 50 different States, are not as trained in 
identifying all the nuances of the different States' driver's 
licenses versus foreign passports, and so it can be addressed 
by more training. It can also be addressed by the States 
implementing more security in the issuance of their driver's 
licenses that are more resistant to forgery, so we need to 
approach it in both ways.
    Secondly, I would point out that these are American 
citizens that were reentering the country, and our law does not 
require American citizens who travel to Canada and back to have 
any travel document, other than simply their affirmation or 
perhaps a driver's license that they are an American citizen. 
If we required our American citizens to have passports when 
they leave the country and return, obviously that would be a 
greater security measure, but I'm not sure we want to do that 
yet.
    I would also point out that I was pleased that there was an 
instance, I believe it was in a Niagara point of entry, that an 
Iranian came across the border with fraudulent Australian 
passports, and who was apprehended at the time. So I think 
there's a difference between capability of our inspectors in 
picking up on false passports versus a driver's license from 
the different States. So we need to work on training, we also 
need to work with the States to enhance the security of their 
travel, a driver's license and other documents.
    Senator Byrd. Mr. Chairman, I have further questions, but I 
would be glad to await your questions.

   TRANSPORTATION SECURITY ADMINISTRATION RESPONSE TO SECURITY ALERT 
                                 LEVELS

    Senator Cochran. Thank you very much, Senator Byrd. In 
connection with the Transportation Security Administration, 
while you don't get involved in the minutiae of day-to-day 
administration responsibility, you do have the responsibility 
of providing guidance and supervision of those who do run that 
agency on a day-to-day basis, and I wonder about the impact of 
these different stages of alert, the red alert, yellow, orange, 
or all the rest. To what extent are you involved in helping to 
determine exactly what the Transportation Security 
Administration does when it changes from one state of alert to 
another?
    Mr. Hutchinson. I am substantially involved in that. In 
fact, when we brought on TSA from Transportation, other 
agencies from Justice, they had different ways of responding to 
the different alert levels, so one of the first things we did 
under my leadership was to ask for a review of the actions that 
were taken when we raised the alert level, and to make sure 
that they are complementary of each other. We are very much 
involved from a leadership standpoint in the actions that are 
taken by those agencies.
    We also, most recently during Operation Iraqi Freedom, 
developed our own operation, Liberty Shield, in which we 
provided the leadership to the agencies working with them as to 
what should be the response and the additional security 
measures that would be taken as a result of the hostilities 
overseas.

                      AIRPORT SCREENER REDUCTIONS

    Senator Cochran. Also, with respect to the Transportation 
Security Administration, we observed that Admiral Loy, who is 
the Administrator, has announced he plans to cut the number of 
airport screeners, 3,000 during this month and another 3,000 by 
the end of the fiscal year. How did the Transportation Security 
Administration get in the position of having such a large 
number of screeners--I have been advised the number is 55,000--
when there is a statutory cap for full-time permanent positions 
at 45,000? Is this an indication that at least 10,000 of these 
were viewed as temporary employees, and it didn't violate the 
statutory cap?
    Mr. Hutchinson. That's correct, either temporary or part-
time, so it either could be a contract or they could be part-
time. The full-time equivalency, Admiral Loy submitted to 
Congress that those statutory caps were met, but 
notwithstanding that, the reduction of the screener force came 
about. We closely monitored this working with Janet Hale, our 
Under Secretary for Management, looking at it from a budget 
standpoint, knowing that there was going to be a shortfall in 
the TSA budget, and there is this need to be met.
    We worked with Congress, the Appropriations Committee with 
this, to know how we needed to address it, and as a part of 
that we were going to have this reduction in force. There were 
other components to meeting the budget requirements, but this 
was one phase of it.

             COST OF SECURITY INVESTMENTS AT SMALL AIRPORTS

    Senator Cochran. One other issue in this airport security 
area that is troublesome is the cost of security investments 
for small airports. For many of us, we represent States that 
don't have large airports but do have substantial investments 
through local governments and airport authorities in air 
transportation facilities. These smaller airports are being 
held to the same standards as larger more financially able 
airports, they are required to make changes for explosive 
detection systems and many other things. It looks to me, that 
we're going to either put some of these smaller airports out of 
business or make it very, very expensive for local taxpayers to 
fund the changes that are being ordered at the airports.
    You mentioned Biloxi, Mississippi, a while ago when you 
were talking about your visit to the New Orleans port. Not only 
do we have ports along the Mississippi Gulf Coast, but that's a 
rapidly growing area in our State. Air transportation demands 
are increasing enormously, and while they've done a good job of 
keeping pace, the airport now is being asked to relocate 
facilities for security purposes.
    They were asked to move the parking areas way beyond where 
they were, to shut down existing parking facilities, all at 
tremendous expense, and then some of those decisions were 
changed, actually repealed. I'm not complaining that they were 
repealed, but the fact is they went and incurred enormous 
expenses, and then they said well, we changed our mind, you 
really don't have to do exactly what we asked you to do before.
    Is there any plan for the administration to try to help 
meet the needs, the financial needs, of local airports, like 
the Biloxi, Jackson, Mississippi, Airports and others in our 
State, that are having to try to figure out how they're going 
to pay for all of this?
    Mr. Hutchinson. It is a burden that is shared by your 
airports in Mississippi but also my airports in Arkansas that 
I'm very familiar with that are under similar circumstances. It 
has been a burden, and it reminds us that we certainly need to 
have enhanced security, but it also creates a real mandate on 
the private sector and expense on their part. We did get the 
EDS equipment in, but it was in very awkward places, many times 
out in front of the ticket counters, and they needed to be 
moved. The airports wanted them moved, and so that's a process 
we're going through.

                     FUNDING FOR EDS INSTALLATIONS

    Approximately $1 billion in funding has been appropriated 
for EDS installations, $738 million in 2002, and $265 million 
in 2003. Of that, about half of that has been spent, and so 
there will be more that has been put out in the field based on 
that appropriation. The President's 2004 budget did not include 
additional funding for EDS employment in light of that $1 
billion that is already appropriated, but the most recent war 
supplemental did provide for the possibility of letters of 
intent to the airports for in-line EDS installations, and we 
are committed to utilize that mechanism if the airports believe 
that is appropriate and helpful.

                AIRPORT MODIFICATION FUNDING PRIORITIES

    Senator Cochran. Do you have a procedure, or some kind of 
priority in mind for making these grants? How are you going to 
determine which airports are eligible, or which applications 
are going to be approved? I assume you can't approve every 
application for Federal funding assistance.
    Mr. Hutchinson. That is correct, and there is a ranking of 
priority. Part of it is first of all those airports which 
utilized alternative means of baggage screening, and so they 
would have a priority first for the EDS installation, and then 
there are other rankings in priority. I would be glad to answer 
that more specifically and get that back to you.
    [The information follows:]

    Funds will be utilized for modifications to airports in two ways. 
TSA will continue to fund through an existing contract with Boeing for 
completion of work already assigned to Boeing by TSA. Second, TSA 
expects to utilize these funds towards in-line EDS solutions. TSA is 
developing a plan to be completed in the near future which outlines the 
Federal Government's long-term commitment for this purpose.

    Senator Cochran. We would appreciate being informed about 
procedures and the priorities that the TSA is going to follow 
in making funds available to local airport authorities. We just 
hope the smaller ones don't get left out. That's the whole 
point.
    Mr. Hutchinson. Absolutely.
    Senator Cochran. I know there are priorities for the larger 
airports, and maybe that's where the greatest threats occur and 
are. I have some other questions as well, but on other topics, 
but I'm happy to submit those to you.
    I think you've done an excellent job, coming in to the 
responsibility as you have with a lot of pressure, a lot of 
visibility. A lot of people want answers to questions that 
maybe can't be answered right away, and you have to work your 
way through a lot of these challenges. But I've been impressed 
with the way you've taken on the job and I appreciate the fact, 
just personally, that you've agreed to serve in this capacity. 
It is a very important responsibility, but you have a high 
level of energy and enthusiasm for it, and we appreciate your 
service very much.
    Mr. Hutchinson. Thank you, Senator.
    Senator Cochran. Senator Byrd.
    Senator Byrd. Mr. Chairman, I agree with your statement and 
your assessments of the Secretary's authority and his 
dedication, and I want to echo the same.

                          PORT SECURITY GRANTS

    Earlier, we discussed port security. In February, the 
Congress approved $150 million in the Omnibus Appropriations 
Act for port security grants. Three months later, your agency, 
Mr. Secretary, had done nothing to make those funds available 
to the ports, where the dollars can actually make our homeland 
more secure. What are your comments on this? Will you commit to 
using the $150 million right away to meet some of the $1 
billion in applications that are sitting on your desk in 
response to the recent competition for the $105 million 
appropriated in the fiscal year 2002 supplemental?
    Mr. Hutchinson. Senator, you're absolutely correct that 
that money is needed out there, and that money needs to move. 
Clearly TSA, with its budget constraints, in which they have 
had many aspects of direction and demands placed on them both 
from reality, but also from Congress, has demands greater than 
the resources they have right now. I know they have to evaluate 
these demands in conjunction with the Under Secretary for 
Management and OMB, and hopefully that money will be available 
to be put out in the field in the near future. We are waiting 
for the completion of that review and determination by our 
management folks.
    Senator Byrd. On November 25, 2002, the same day the 
President signed the Homeland Security Act, he also signed the 
Maritime Transportation Security Act.
    The Coast Guard has estimated that it will cost $1.4 
billion in the first year and $6 billion over 10 years to 
implement the Act. The Congress has included in three separate 
emergency supplemental bills, as well as, in the fiscal year 
2003 Omnibus Appropriations Act, funding for port security 
grants, and a total of $348 million has been provided. However, 
none of this was requested by the administration.
    Only $93 million has been distributed to the ports to date. 
So, while the administration was eager to sign the Maritime 
Transportation Security Act, the administration has been 
somewhat silent on the costs associated with implementing it. 
Do you have any further comment, Mr. Secretary?
    Mr. Hutchinson. Simply that we value our partnership with 
Congress, and that certainly reflects that you all provide 
leadership as well in this arena. The Coast Guard is 
responsible for conducting the port security assessments at the 
top 55 of our Nation's military and economically strategic 
ports. This is what has been mandated by the Maritime 
Transportation Security Act.
    They have moved forward on this. The part of the funding 
out of the 2004 budget to complete this includes $62 billion to 
complete the assessments. They have done 20 of them. They have 
35 more to do. That is completed in the assessments out of the 
2004 budget, so the Coast Guard will be moving forward on this 
and will be working closely from the TSA perspective and the 
Customs and Border Protection perspective with the Coast Guard 
to accomplish that mandate.

       COMPUTER ASSISTED PASSENGER PRESCREENING SYSTEM (CAPPS II)

    Senator Byrd. Mr. Secretary, in the Transportation Security 
Administration's budget request, $35 million is for the new 
passenger screening program, known as the computer-assisted 
passenger pre-screening system number 2. This new system is 
designed to enhance airline passenger safety by mining 
commercial databases of personal information and using pattern 
analysis to predict which passengers might engage in terrorist 
activities. It seems to me that this is a dangerous path that I 
fear will delve into every nook and cranny of an individual 
American's life. Under this new system, as I understand it, the 
TSA will assign each passenger a risk level of green, yellow, 
or red, and they will use that determination to prevent certain 
passengers from boarding the plane.
    Now, you're walking on a tightrope. Remember in the old 
silent movies, but perhaps you don't go back that far, they had 
people walking on tightropes without a safety net. You may be 
on such a tightrope. I don't know whether you have a net or 
not. You're designing a new system to screen airline and 
airplane passengers that may run headlong into individuals' 
rights to privacy. Your effort to identify potentially 
dangerous passengers is a good goal, but your mechanism, the 
so-called CAPPS-II system, is frankly scary. I'm not sure there 
is a safety net out there.
    Mr. Hutchinson. I've heard of them.
    Senator Byrd. I was there, and I've heard that--well, 
perhaps do you want to comment at this point before I go 
further?
    Mr. Hutchinson. I would be pleased to. Let me start by 
saying I was traveling with my chief of staff the other day on 
a commercial airline, and whenever my chief of staff received 
her ticket, it had selectee there, and this was coming from the 
airline. So right now you have the airlines designating who is 
going to be subject to secondary inspection based upon a very 
inadequate system. The design of CAPPS-II is to put a little 
more rhyme and reason into who would be subject to a secondary 
screening, and it is important. I worked in Congress on privacy 
issues, and I'm very concerned about that aspect of it, and 
CAPPS will not collect personal data such as credit history. 
Information collected will come from already available 
commercial databases, but there will be a firewall so that it 
will not be collected by the Government or retained by the 
Government. That firewall is very, very critical, and it is 
important, as you point out, that that firewall not be 
breached.
    I'm pleased that Homeland Security has brought on board a 
privacy officer, Nuala O'Connor Kelly, who from a privacy 
standpoint will be reviewing this system, and we will work with 
her and other privacy groups in terms of making sure that their 
concerns are addressed, that the firewall is in place, that the 
Government will not retain data, and that we will not collect 
that data that would be offensive to Americans.
    Senator Byrd. I've heard that personal indebtedness is one 
of the criteria to be evaluated when looking at a passenger's 
risk potential. Can you confirm that?
    Mr. Hutchinson. That is not correct. There will not be a 
review of personal indebtedness and creditworthiness. The 
Government will not be doing that.
    Senator Byrd. Well, I'm glad to hear you say that. It would 
seem a bit odd, wouldn't it?
    Mr. Hutchinson. Yes, it would.
    Senator Byrd. I fear that there's something there that 
would smack of elitism.
    Mr. Hutchinson. It would be inappropriate.
    Senator Byrd. There's a risk of abuse by the Government.
    Mr. Hutchinson. I might not qualify to fly if that was the 
case.
    Senator Byrd. That is frankly un-American, so I'm glad to 
hear you answer that question as you did.
    Congress built a number of safeguards into the Homeland 
Security Act to protect against privacy invasions, but to date 
the Department has not made available to the public any 
information about development of the system, nor has it 
confirmed that it will publish guidelines for the program. How 
is Congress to know that privacy rights will be respected?
    Mr. Hutchinson. Well, I do believe that Admiral Loy has 
made an extraordinary effort to keep the public informed 
through communication with privacy groups, and he has met with 
groups from the ACLU to other privacy advocates going over what 
the CAPPS program is and what it is not, and listening to their 
concerns. I think there has really been an extraordinary amount 
of communication to the public through those groups of concern 
and a great deal of public comment on it. In fact, I think he's 
going to be testifying in a hearing on it very shortly.
    So actually contrary to the development of some databases, 
this has been done through education and communication with the 
privacy groups, and we hope to continue to do that and listen 
to their concerns.
    Senator Byrd. What data sources are being mined, m-i-n-e-d? 
CAPPS-II has raised privacy concerns that the Department has 
not yet addressed, so what data sources are being mined? Who 
has access to the data? What mechanisms will the Department use 
to verify the accuracy of the data?
    Mr. Hutchinson. The Government will not be looking at any 
of these data sources. It will be only looking at the 
Government databases such as the terrorist watch list, then 
there will be the firewall, in which the commercial databases 
will be looked at from a commercial vendor's standpoint, but it 
will not be retained or examined by the Government. That is 
where the firewall comes into place, and that goal is, of 
course, to verify the passenger's identity and therefore refine 
the security screening selectee process and eliminate the 
majority of mistaken identity situations.
    The personal data will not be collected by the Government, 
and will not be retained by the Government, and I think these 
are standards that are important in the development of this 
system.
    Senator Byrd. Will the appropriate congressional committees 
be given an opportunity to review the proposed CAPPS-II 
guidelines before they are finalized?
    Mr. Hutchinson. Absolutely. We would be happy to make sure 
that you or your staff or any of the committee staff be 
briefed.
    Senator Byrd. Very well.

                     ADDITIONAL COMMITTEE QUESTIONS

    Mr. Chairman, I believe I would submit the remainder of my 
questions for the record, and I thank you, and I thank the 
Secretary.
    Senator Cochran. Thank you, Senator Byrd.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

              Questions Submitted by Senator Thad Cochran

                       department start-up issues
    Question. Please provide the Committee with the dollars, positions, 
and full-time equivalents that have been allocated to the Under 
Secretary's office in fiscal year 2003, requested for fiscal year 2004, 
and under which appropriation has requested these resources have been 
requested.
    Answer. See below

----------------------------------------------------------------------------------------------------------------
                                      Fiscal year                            Fiscal year
                                         2003        Source Appropriation       2004        Source Appropriation
----------------------------------------------------------------------------------------------------------------
Funding...........................      $1,990,111  Departmental               $9,715,000  Departmental
                                                     Operations.                            Operations
Positions.........................              67  .....................              67  .....................
FTE...............................       39 (est.)  .....................              67  .....................
----------------------------------------------------------------------------------------------------------------
Substantial additional support, including facilities costs, desktop information technology and telephony
  services, security, and postage costs are funded centrally.

    Question. Will there be a centralized Office of Legislative Affairs 
within the Under Secretary's office? Or do you plan to have legislative 
affairs responsibilities handled by each of your sub-bureaus?
    Answer. The Office of Legislative Affairs is centralized in at the 
Department with legislative affairs personnel assigned within our 
components to provide direct support.
    Question. What specifically has changed, and what has not yet 
changed for these agencies that transferred into your Directorate?
    Answer. Interim structures have been established, including interim 
port directors in the Bureau of Customs and Border Protection (BCBP) 
and interim District Directors within the Bureau of Immigration and 
Customs Enforcement (BICE). The Transportation and Security 
Administration transferred as a whole entity and has maintained their 
management structure.
    Question. How are you mitigating the impacts of this transition on 
the capabilities of each of the transferring agencies to continue to 
perform their homeland security missions and their non-homeland 
security missions?
    Answer. Operational personnel that perform daily activities; have 
been maintained in respective geographic locations to ensure the level 
of expertise and continuity that existed prior to March 1, 2003 is 
continued.
    Question. What specific steps have you taken to integrate the 
chains of command and the personnel of these organizations without 
interfering with their current capabilities to perform their missions?
    Answer. Interim structures have been established, including interim 
port directors in the Bureau of Customs and Border Protection (BCBP) 
and interim District Directors within the Bureau of Immigration and 
Customs Enforcement (BICE). This will provide the most effective 
consolidated organizational structure with the least disruption to 
operations and personnel.
    Question. The area that may present the most difficulty for 
integration are the three inspections services. After March 1, 2003, 
who assumed control of the inspections functions at each of the ports-
of-entry? How were the decisions made in appointing the acting port 
directors?
    Answer. On March 1st, approximately 40,000 employees were 
transferred from the U.S. Customs Service, the Immigration & 
Naturalization Service, and the Animal and Plant Health Inspection 
Service to the new Customs and Border Protection (BCBP) agency in the 
Department of Homeland Security. To address our priority mission of 
preventing terrorists and terrorist weapons from entering the United 
States, a single, clear chain of command was established. For the first 
time, there is one person at each of our nation's ports of entry in 
charge of all Federal Inspection Services. A group of senior managers 
from the legacy agencies (Customs, INS and APHIS) met to decide and 
apply criteria for identification of interim leaders. Designated 
interim port directors were identified by considering a number of 
factors including grade level, complexity of operational activity and 
size and variety of staff. A similar process to make the structure 
permanent will be completed in fiscal year 2003.
    Question. What concrete steps are you taking to meld the different 
cultures of these organizations in a way that preserves any unique, 
positive aspects while creating an overall ``Border and Transportation 
Security (BTS) Directorate'' culture?
    Answer. Our challenge is to convey to our over 170,000 employees 
that while the name of the agency has changed their mission remains the 
same. The success of BTS hinges on our men and women in the field and 
in our headquarters. When the Under Secretary and senior management 
travel they almost always have a roundtable or town meeting for all BTS 
employees in order to hear concerns and convey the Department's 
commitment to unify employees.
    Question. How do you intend to effectively and decisively respond 
to resistance to change from these separate ``cultures'' coming over to 
BTS?
    Answer. Through sound management practices and regular recurring 
meetings with BTS component senior staff, issues are addressed in a 
timely and effective manner. I also take every possible opportunity to 
hold town hall type meetings with employees to dispel misperceptions 
and reinforce the mission objectives of DHS/BTS. I have also instructed 
each of the respective agencies/bureaus within BTS to do the same.
    Question. When will you be able to provide more detailed transition 
plans to Congress that will outline more specific steps that are 
occurring to accomplish the transition?
    Answer. According to the Homeland Security Legislation, The 
Department of Homeland Security and the Border and Transportation 
Security Directorate (BTS) must report to Congress on a regular basis 
concerning the status of the transition and the reorganization. For 
example, 100 and 20 days after the legislation's enactment, DHS must 
report to Congress on the proposed division and transfer of funds 
between the Bureau of Citizenship and Immigration Services and the BTS. 
Furthermore, one year after the legislation's enactment, DHS must 
report to Congress on the implementation of visa provisions in the Act. 
We welcome this opportunity to report to you about our progress and the 
daily challenges that we confront during this tremendous undertaking.
                          coordination issues
    Question. What steps will you be taking to ensure that the three 
sub-bureaus focused on enforcement within your own organization, the 
Bureau of Customs and Border Protection, the Bureau of Immigration and 
Customs Enforcement, and the Transportation Security Administration, 
will be coordinating information, policy, intelligence, and 
investigations?
    Answer. Within the organizational structure of the Border and 
Transportation Security Directorate are offices of Policy and Planning, 
as well as Operations. These offices will ensure continuity, 
coordination and direction within BTS.
    Question. As just one example, the Container Security Initiative, 
and the Customs Trade Partnership Against Terrorism are both being run 
by the Bureau of Customs and Border Protection (BCBP), and Operation 
Safe Commerce is the responsibility of the Transportation Security 
Administration (TSA). While one is focused on screening high risk cargo 
before it leaves the outgoing port, the other two operations are to be 
focused on total supply chain security. How will these projects be 
coordinated to ensure no duplication of effort and the best use of the 
funding provided?
    Answer. BCBP has the sole statutory and regulatory responsibility 
for container security on containers destined for the United States. 
Although this authority is clearly delineated through the 
implementation of enforcement programs like Container Security 
Initiative (CSI) and Customs-Trade Partnership Against Terrorism (C-
TPAT), BCBP strives to comply with its mission in coordination with 
other equally vital offices within the Department of Homeland Security 
which have statutory and regulatory responsibility over a segment of 
sea transportation.
    Coordination and communication with our department partners ensures 
an effective and streamlined security process. For example, BCBP has 
established a protocol with the United States Coast Guard to handle 
certain types of serious threats through the High-Interest Vessel 
program. Also, BCBP has shared interest with DOT and TSA in developing 
industry partnership programs that improve container security (and 
other types of transportation security) and are consistent for domestic 
and international shipping.
    BCBP and TSA are working together through a jointly chaired 
steering committee that makes the final project selection decisions for 
Operation Safe Commerce. The Federal Register notice that initiated the 
Operation Safe Commerce program makes specific references to C-TPAT and 
CSI as initiatives that may be considered as part of Operation Safe 
Commerce business practices and technology supply chain ``test bed'' 
initiatives.
    As a voluntary government-business initiative, the C-TPAT 
complements the overseas targeting of the CSI and the development of 
new security techniques under Operation Safe Commerce. As of May 9, 
2003 C-TPAT membership includes over 3,000 companies that account for 
approximately 37 percent of all U.S. imports by value and approximately 
93 percent of all U.S.-bound sea-containerized cargo. By creating a 
significant network of reliable and secure companies, C-TPAT enables 
BCBP to direct its CSI targeting to areas of greater risk and 
establishes a mechanism for incorporating the best practices and new 
high-tech equipment identified by Operation Safe Commerce.
    Question. What steps have you taken to ensure that good 
coordination is established between your organization and the new 
Bureau of Citizenship and Immigration Services (BCIS)?
    Answer. Working groups have been established to ensure proper 
coordination between BICE, BCIS as well as BCBP. These groups will 
address issues that affect all components and develop protocols to 
address these issues in a manner that satisfies the needs of all 
members of the working groups. Coordination on day-to-day issues is on-
going between all components.
    Question. We are looking forward to getting the report on the 
implementation plan for the separation of personnel and funding between 
the BTS and the BCIS as called for in Section 477 of the Homeland 
Security Act. Please outline for us what steps you are taking to put 
this plan into place.
    Answer. On March 1, 2003, the Immigration and Naturalization 
Service ceased operations and its functions were transferred to three 
new Bureaus within the Department of Homeland Security. Recognizing the 
complexity of this transition, the Department adopted a phased 
approach, which focused first on realigning the operational components 
and chains of command within the Department. To ensure continuity of 
operations, no changes were made on March 1 in the areas of shared 
corporate and administrative support functions. For the interim, the 
former INS support functions continue to support former INS components, 
and the former Customs support functions continue to support former 
Customs components. Work is currently underway to identify existing 
resources and options for organizing these functions in the longer-
term. Transition offices have been established to coordinate and manage 
the transition process, and a number of working groups have been formed 
within the Department to address these issues, including a senior-level 
BICE, BCBP, BCIS group, which meets weekly. The Department will be 
forwarding a report with more specific information on the 
implementation plan later this month.
    Question. Another important Directorate within the Department of 
Homeland Security is that for Science and Technology. How will you 
ensure that the experience and knowledge of front-line employees is 
being used effectively by the Science and Technology Directorate in 
deciding research priorities?
    Answer. Science and Technology and Border and Transportation 
Security are developing a BTS technology strategy and plan. This would 
integrate the technology needs of the border and transportation 
security bureaus into one consolidated strategy, taking advantage of 
economies of scale, prioritize needs across mission areas, create 
synergistic opportunities among the bureaus and reduce unnecessary 
duplication. It would engender the confidence of the operational 
community, help demonstrate effective budget execution and justify the 
technology budget.
    Question. What plans do you have to ensure smooth coordination with 
the Department of Justice, in such areas as the Executive Office for 
Immigration Review and the Office of Federal Detention Trustee (OFDT)? 
Please provide a detailed description of how you plan to structure the 
relationship with the OFDT.
    Answer. The benefits of cooperation between law enforcement 
agencies are clear. To take advantage of existing efficiencies and 
economies of sale, and to avoid competition for detention space, the 
Office of Detention and Removal (DRO) pursued a service provider 
relationship with the Bureau of Prisons (BOP) and the Office of the 
Detention Trustee (OFDT). The DOJ/BOP/OFDT and DHS/ICE/DRO is 
developing and negotiating an Interagency Agreement that would allow 
DOJ to act as service provider for non-Federal detention services. At 
this time, the nature of support would include: the procurement of 
detention services; the inclusion of privately operated secure 
detention facilities and alternatives to detention; the establishment 
of intergovernmental service agreements with State and local entities 
for secure detention services; administration of contracts and 
agreements; management of Justice Prisoner and Alien Transportation 
Program; and oversight of the detention standards program.
    Question. How do you plan to work with the Department of State to 
coordinate the policies governing the issuance of visas?
    Answer. The Department of Homeland Security (DHS) and Department of 
State (DOS) currently are negotiating a memorandum of understanding 
(MOU) to implement section 428 of the Homeland Security Act (HLSA), 
which governs the visa issuance process. The MOU will address how DOS 
and DHS will issue regulations, policies, procedures, and other 
guidance that affect the visa process. Both agencies recognize there 
will be a need to develop standard operating procedures to further 
elaborate operationally on various aspects of the MOU. DHS and DOS, 
however, intend to work cooperatively and in a consultative manner to 
create an effective and efficient visa issuance process.
                     integration of physical assets
    Question. Virtually every individual program under your direction 
has a need and a budget for buying vehicles. What steps are you taking 
to review these budget items? What plans are there for consolidation of 
procurement, retrofitting, and maintenance?
    Answer. Within the Department we are working on these very issues 
as we develop our internal processes. We intend to look at requirements 
and find opportunities for economies and best value in procurements, 
improvements and maintenance support. In the interim we are seeking 
best practices and contract opportunities that offer efficiencies 
across components within the directorate as well as across the 
department and other partners.
    Question. The Border Patrol has helicopters and fixed wing 
aircraft, while the Customs' Air and Marine Interdiction program 
transferred to your Directorate has fixed wing aircraft and marine 
assets. How do you plan to review these programs to see if there are 
possibilities for merger? Do you have any estimated cost savings that 
could be seen from the integration of maintenance?
    Answer. While the priority will be to maintain the operational 
effectiveness of the Border Patrol and the BICE Air and Marine 
Interdiction program's, we will be reviewing the operational 
effectiveness and efficiency gains envisioned by the President when he 
submitted the proposal to create the Department of Homeland Security. 
BTS has already convened a group to look at the aircraft acquisition 
for BICE and the Coast Guard. As a result of the work group, the Deputy 
Secretary has directed the Department to establish procedures to ensure 
economies of scale for major procurements. This practice will be 
utilized in conjunction with the DHS investment review board.
    Question. Do you plan to sit down with the U.S. Coast Guard to see 
what potential there is in applying best practices to your procurement 
or maintenance programs? What potential is there in possibly 
integrating some of the physical assets operated by your Directorate 
with the Coast Guard?
    Answer. BTS has already convened a group to look at the aircraft 
acquisition for BICE and the Coast Guard. As a result of the work 
group, the Deputy Secretary has directed the Department to establish 
procedures to ensure economies of scale for major procurements. This 
practice will be utilized in conjunction with the DHS investment review 
board.
    Question. Do you plan to review all of the canine programs run by 
the various components of BTS? Do you have any estimated cost savings 
that could be seen from the integration of these various canine 
programs?
    Answer. BCBP has established a working group to review all of the 
canine programs, as well as to identify overlaps in missions. Output 
from this working group was provided to the Transition Team for the 
Commissioner's review and comments. The working group is waiting for 
direction on the final structure of the canine programs; however, the 
working group is being proactive in developing standards for like 
functions such as narcotics detection. Work is ongoing to standardize 
such things as evaluations, certifications, etc. At this time, the 
efforts would be budget neutral should they be implemented.
                     non-homeland security missions
    Question. What changes did you make in the fiscal year 2004 budget 
requests for these new entities to reflect the homeland security 
priorities of the new Department?
    Answer. The fiscal year 2004 budget represents an increase of 
nearly 100 percent from the fiscal year 2002 enacted level for the new 
entities. Compared to fiscal year 2002, the Bureau of Customs and 
Border Protection request represents an increase of 33 percent, the 
Bureau of Immigration and Customs Enforcement nearly 16 percent, and 
the Office of Domestic Preparedness request is 12 times greater than 
fiscal year 2002.
    Question. In deciding fiscal year 2004 budget allocations, did you 
change any of the allocations for non-homeland security missions and 
capabilities from the amounts appropriated in fiscal year 2003? If yes, 
what were those changes?
    Answer. The fiscal year 2004 budget requests allocations for non-
homeland security missions and capabilities were made consistent with 
the fiscal year 2003 request and prepared in advance of the fiscal year 
2003 appropriations.
    Question. How do any changes in these fiscal year 2004 allocations 
represent compliance with the Homeland Security Act direction?
    Answer. The Department's primary mission is the protection of the 
American people. The fiscal year 2004 request focuses on consolidating 
border and transportation security functions, merging response 
activities, creating a central point to map terrorist threats against 
vulnerabilities in our critical infrastructure. The Department also 
ensures that non-homeland security missions and capabilities are not 
diminished.
           information technology investments and integration
    Question. The fiscal year 2004 budget for BCBP requests $30.2 
million for an Information Technology Transformation to Homeland 
Security Fund, and has a separate request for $22.3 million for an 
Information Technology Infrastructure program called ATLAS. In the 
Bureau of Immigration and Customs Enforcement (BICE) budget request 
there is an additional $17.7 million for ATLAS. Are these separate 
program needs? If not, please explain in detail what each of there 
initiatives will accomplish and how they will be coordinated across the 
two bureaus. How do these two initiatives fit in with the request for 
$5.7 million for the International Trade Data System? How do they 
relate to the ongoing Automated Commercial Environment (ACE) project.
    Answer. The Information Technology Transformation to Homeland 
Security Fund creates a fund to address Information Technology (IT) 
compatibility and interoperability issues that will arise during the 
transition to the Department of Homeland Security, including, but not 
limited to: mission systems, electronic mail, networks, collaborative 
tools, and administrative capabilities. In addition, the transition 
creates an opportunity for broader sharing of border security and 
enforcement-related IT capabilities. This fund will be used to extend 
the enterprise architecture to provide expanded access to IT 
capabilities in support of the Homeland Security mission. This 
initiative is separate from the ATLAS request.
    The request for funding for the International Trade Data System 
(ITDS) will support the development of a Government-wide system that 
will provide the trade community with a single interface to file 
international trade data with the Government. The ITDS initiative is an 
e-Government strategy that will implement an integrated, government-
wide system for the electronic collection, use, and dissemination of 
the international trade transaction data required by the various trade 
related Federal agencies. Development of ITDS functionality will be 
coordinated with the Automated Commercial Environment (ACE) and the 
overall modernization effort, and will impact both border security and 
trade compliance within multiple Federal departments, agencies, and 
areas within the participating government agencies.
    ATLAS funding will allow the upgrade of legacy INS infrastructure 
to be compatible with existing Customs and Border Protection 
infrastructure, thus establishing a basis for interoperability.
    All information technology investments are reviewed for compliance 
with our enterprise architecture framework to ensure technical 
compatibility and alignment with business goals.
    Question. How do you plan to coordinate and integrate all of the 
information technology initiatives and legacy systems, like ACE?
    Answer. BCBP is sponsoring an interagency integration team with 
ICE, BCBP and APHIS to address the myriad of integration issues, and is 
also working with DHS on information technology investments and 
architecture to ensure alignment within the Department of Homeland 
Security.
    Question. What steps will you take to avoid the merger and 
integration problems that have been experienced by so many other 
agencies before you? Have you consulted with other agencies such as 
DOD, IRS, and the FBI for ``lessons learned'' from their unhappy 
experiences?
    Answer. The BCBPs experience with the ACE initiative has provided 
an effective model for the planning and management of large scale 
information technology management systems. This model, the interagency 
integration teams mentioned above, and the established BCBP enterprise 
architecture will guide this process. The ACE business plan is based on 
lessons learned by the DOD, IRS, and FBI among others.
                           personnel impacts
    Question. When will you have an estimate of potential job 
dislocations and job losses for your Directorate, and when will you 
inform the workers affected and the Congress?
    Answer. Program Managers within the Border and Transportation 
Security Directorate are currently reviewing the merged organizations 
to determine where consolidation of resources is appropriate. 
Competitive service employees within the Directorate will receive 
appropriate notification, as stated in the Reduction-In-Force 
regulations of Title 5, if and when a decision is made to close a 
facility or transfer a function to a new geographic location. We will 
ensure that Congress is notified in a timely fashion as soon as any 
decisions are made concerning worker dislocation.
    Question. What specific criteria are you establishing to determine 
who will be dislocated and who will lose their jobs, and will you 
provide affected employees a fair process in which they can appeal 
these decisions and the application of these criteria?
    Answer. Competitive service employees retain full rights under the 
Reduction-In-Force regulations in Title 5, to include appeal rights to 
the Merit Systems Protection Board. Any decision regarding which 
employees will be impacted will be based on the criteria as set out in 
these regulations to include creditable service, performance, and 
veterans' preference.
    Question. Secretary Ridge in his testimony last week mentioned that 
working groups have been created to allow current employees the 
opportunity to participate in the creation of the new system. How 
specifically is this working with your Directorate?
    Answer. The DHS Human Resources System design team has 
representatives from employee groups from throughout the Border and 
Transportation Security Directorate. Employees and managers will also 
have an opportunity to participate at town hall meetings and focus 
groups that will be conducted in the field over the next 2 months.
    Question. At this point, what changes do you envision for your 
employees in terms of performance evaluations, compensation, and 
collective bargaining arrangements?
    Answer. The DHS Human Resources design team is currently reviewing 
a variety of alternatives in all of these functional areas, and will be 
creating a set of options to be reviewed by a Senior Review Committee. 
Ultimately, the Secretary and the Director of the Office of Personnel 
Management will determine the final set of options that compose the new 
HR System.
    Question. A central issue in the rank and file of the Inspections 
officers will be the reconciliation of the highly disparate pay and 
benefit systems with which they are compensated. How will you approach 
the resolution of these pay and benefit issues? Do you anticipate 
proposing a legislative package addressing pay reform? When will that 
proposal be sent forward?
    Answer. The DHS Human Resources Design team has been fully briefed 
on the disparities in pay and benefits for employees across DHS and 
specifically in the Inspector occupation. This team will be providing 
options (which may include recommendations for new legislation) to 
address these disparities to a Senior Review Committee (SRC) later this 
summer. The SRC will then review the options and make recommendations 
to the Secretary and the Director, OPM, who will make the final 
determination on which options will be implemented.
                   merging agency regional structures
    Question. What specific objectives have been established for 
creating a new regional structure for your Directorate, and what 
specific issues are being considered in developing this plan? Do you 
anticipate that each of your major sub-components, BCBP, BICE, and TSA, 
will maintain separate regional structures?
    Answer. The overarching objective is to fulfill the DHS mission in 
support of the National Strategy for Homeland Security; to provide for 
unity of purpose among agencies. True integration of mission and 
department-wide effectiveness would be jeopardized with significantly 
different regional structures among DHS agencies.
    Question. Which of the agencies transferring to your Directorate 
would you expect to be most affected by the regional restructuring 
plan? APHIS? Customs? INS? TSA?
    Answer. We are in the data gathering and baseline analysis process, 
and the regional structure has not been developed. Impacts to various 
Departmental components cannot be estimated yet.
    Question. Which is a more important objective for the plan--to save 
money or to increase operational effectiveness? How do you intend to 
make trade-offs between operational effectiveness and cost savings?
    Answer. Increased operational effectiveness is not incompatible 
with cost effectiveness. It will be important for the Department to 
develop a regional concept that optimizes key factors including cost 
while maintaining the highest level of operational effectiveness.
    Question. What specific criteria are you using to evaluate the pros 
and cons of the changes being considered, and which of these criteria 
do you consider most important and less important?
    Answer. DHS is evaluating the best way in which to merge the field 
operations of twenty-two legacy agencies, represented by nine different 
regional alignments. To accomplish this, the DHS directorates, 
including BTS, are working to: (1) develop a baseline understanding of 
the current regional structures in the component organizations; (2) 
develop the options for a regional concept to ensure day-to-day 
operations and incident responses are well coordinated and planned.
    Question. Do you have any preliminary estimates of the costs to 
implement the changes you are contemplating, and of the savings that 
might be made? When can we expect the costs to occur and the savings to 
be realized?
    Answer. No. The baseline analysis currently underway will provide a 
better sense of the magnitude of the effort required to harmonize the 
regional structures of the legacy agencies.
    Question. How long would you expect it to take to fully implement 
the plan should Congress approve it?
    Answer. We won't know until the baseline analysis is complete.
    Question. What specific progress are you making in developing the 
plan?
    Answer. BTS is working with other DHS components to analyze various 
data and develop a baseline understanding of the relevant issues 
associated with the creation of a new Department-wide regional 
structure. An initial round of data collection has been completed and 
been passed to DHS staff for analysis.
    Question. What schedule has been established to complete the 
restructuring plan and to inform Congress and the affected employees 
about your recommended course of action? Are you ahead, behind, or on 
that schedule?
    Answer. We intend to create an implementation plan upon completing 
the baseline analysis.
    Question. Please provide for the record the Statement of 
Objectives, Terms of Reference, Fiscal Guidance, Operational 
Assumptions, and mandated schedule that have been issued to guide the 
development of this plan.
    Answer. These elements could be developed as part of an 
implementation plan, which would follow completion of the baseline 
analysis. The overarching objective is to fulfill the DHS mission in 
support of the National Strategy for Homeland Security; to provide for 
unity of purpose among agencies. True integration of mission and 
department-wide effectiveness would be jeopardized with significantly 
different regional structures among DHS agencies.
                             border patrol
    Question. Now that the Border Patrol is part of your Directorate, 
do you intend to keep the National Border Patrol Strategy that the 
former Immigration and Naturalization Service has attempted to 
implement over the past 9 years?
    Answer. The Border Patrol's national strategic plan was written in 
1994 with the focus of implementation in the areas with the highest 
level of illegal immigration. The plan is achieved with the ``forward 
deployment'' and proper balance of agents, equipment, technology, and 
border infrastructure (cameras, sensors, roads, lights, fences or other 
border barriers).
    Areas of operations that have become the focus of this plan have 
proved this to be an effective enforcement action. Participating 
sectors have seen a prolific change since the inception of their 
corresponding operations.
  --El Paso--Hold the Line (arrests down, crime reduced)
  --San Diego--Gatekeeper (29 year record low in apprehensions, crime 
        reduced)
  --McAllen--Rio Grande (crime and arrests reduced)
    Changes have occurred since the strategy's implementation, most 
notably following the September 11, 2001, attack on the United States 
The strategy's Phase IV implementation was accelerated to respond to 
the potential threats on the northern border. The upgrades and 
application of technology for border deterrence and enforcement has 
also improved.
    Continuation of the proven and successful National Border Patrol 
Strategic Plan is warranted in order to respond to emerging threats and 
changes in the past trends of illegal border entries.
    Question. What changes might you consider making to the strategy to 
increase its effectiveness and reduce migrant deaths?
    Answer. Due to concentrated border enforcement efforts, organized 
smugglers have shifted their techniques and areas of operation from 
traditional unlawful entry points near the ports of entry to extremely 
remote and dangerous areas. The intense summer temperatures and arduous 
terrain associated with these areas account for the majority of 
documented deaths. BCBP has been increasing efforts to identify and 
prosecute smugglers who choose more dangerous methods and routes to 
smuggle unsuspecting aliens. Yearly enhancements allow for BCBP to 
apply resources where the deaths occur to effectively deter and disrupt 
illegal border traffic. BCBP is also expanding its Border Safety 
Initiative, which incorporates a multi-pronged approach to making the 
border a safer environment. BCBP is increasing the number of qualified 
medical/rescue agents and is cooperating with Mexican counterparts at 
an unprecedented level. For example, a meeting of field representatives 
has just concluded, which produced a collaborative strategic plan for 
reducing deaths on both sides of the international border. As the 
strategy evolves other initiatives will be developed and supported. 
BCBP leadership is convinced that when the proper balance of personnel, 
equipment, technology, and tactical infrastructure exists, the illegal 
crossings will decline, bringing a commensurate decline in deaths and 
injury.
    Question. Given the level of additional resources that have been 
put into the Northern Border will you be revising that portion of the 
strategy?
    Answer. Since its implementation in 1994, the Border Patrol's 
National Strategic Plan has been the basis for a multi-year, multi-
phased approach for the deployment of additional personnel and 
resources, for the purpose of increasing control of our Nation's 
borders. The cornerstone of this strategy calls for ``prevention 
through deterrence'' as the means to restrict illegal entry attempts 
into the United States. Along the southwest border, the strategy has 
concentrated Border Patrol resources into those specific geographic 
areas experiencing the highest level of illegal activity. The key to 
the successful implementation of this strategy has been the deployment 
of the proper balance of personnel, equipment, technology and 
infrastructure into those areas.
    As originally written, the final phase of the National Strategic 
Plan calls for enhancing our enforcement posture along the northern 
border and coastal areas of the United States. Securing the northern 
border has traditionally presented many unique enforcement challenges 
for the Border Patrol. Our shared border with Canada is approximately 
4,000 miles long and is the longest non-militarized undefended border 
in the world. In the past, this vast expanse, coupled with an 
inadequate number of personnel and a lack of resources and 
infrastructure, has significantly limited the Border Patrol's deterrent 
effect upon illegal activity. In the wake of September 11, 2001, 
vulnerabilities and deficiencies along the northern border have 
received increased attention, which has caused the Border Patrol to 
accelerate its efforts in increasing our enforcement presence along the 
northern border.
    The current Northern Border Strategy encompasses interagency and 
international cooperation and coordination, effective technology 
development and deployment, and innovative resource allocation. The 
geographic and environmental conditions found on the northern border 
have led to the historic economic and cultural interdependence of the 
United States and Canada. In light of the long-standing cooperation and 
economic interdependency, the Border Patrol has conducted activities 
along the northern border with significantly fewer resources than were 
dedicated to the southwest border. For these reasons, the Border Patrol 
cannot simply replicate the same enforcement strategy implemented on 
the southwest border.
    The Northern Border Strategy relies upon maximizing existing 
resources in order to strengthen control of the border. The Northern 
Border Strategy also requires the proper balance of personnel, 
equipment, technology and infrastructure. To improve our effectiveness, 
the initial area of emphasis is the expansion of liaison and increased 
intelligence sharing with other Federal, State and local law 
enforcement agencies, as well as our counterparts within the Canadian 
government. The second emphasis is on the deployment of enforcement 
related technology along the border to act as a force multiplier, 
thereby increasing the area that can be adequately covered by available 
manpower. The final emphasis of the strategy calls for the deployment 
of additional personnel into our northern border sectors. As mentioned, 
subsequent to September 11, 2001, the Border Patrol accelerated into 
this phase by redeploying agents from the southwest border to the 
northern border.
  u.s. visitor and immigrant status indicator technology (u.s. visit)
    Question. BICE had been taking the lead on this project. Where will 
the responsibility for implementing the U.S. VISIT system lie?
    Answer. The Border and Transportation Security Directorate (BTS) is 
establishing a program office to oversee the project for which funds 
are requested under BCBP in fiscal year 2004.
    Question. In his testimony last week, Secretary Ridge said the 
entire project is under review. When will this review by complete? Who 
is conducting this review?
    Answer. The preliminary review was provided to the Secretary on May 
16, with an internal review completed by May 30. The U.S. VISIT Office, 
in conjunction with the BTS and other Department stakholders, is 
conducting the review.
    Question. In your budget request the funds for this system were 
requested under BCBP. Is this appropriate place for those funds?
    Answer. The Secretary delegated the implementation of the U.S. 
VISIT program to the Under Secretary of BTS. The U.S. VISIT program 
will ensure that funds appropriated for this system will be spent in 
accordance with the Spending Plans which are required under the fiscal 
year 2003 Omnibus Appropriations Act and Emergency War Supplemental 
Act.
    Question. What is the Department's acquisition strategy for the 
U.S. VISIT system? Does the strategy include the development of a 
prototype? Will the final solution include the selection of a single 
prototype or selected aspects of multiple prototypes?
    Answer. The acquisition strategy will not be finalized until the 
Spending Plan has been reviewed and approved by the Secretary of DHS.
    Question. A recent report by the Justice and State Departments and 
the National Institute of Standards stated that implementation of the 
entry/exit system at land borders was at least 1 year behind schedule. 
What is your current timeline for fielding the U.S. VISIT system at 
land border ports of entry?
    Answer. The entry/exit system, now known as the U.S. VISIT Program, 
is expected to be delivered on schedule as required by the Data 
Management Improvement Act. The law requires that travel documents 
contain biometric identifiers not later than October 26, 2004. The DOS 
requested an extension of this requirement. This does not affect the 
implementation of the U.S. VISIT program at the land borders.
    Question. What is your Department's position on the Justice and 
State Department reports?
    Answer. The report stated that the Department of State will require 
an additional year to implement changes to their processes and systems. 
There is a conflict in the report between implementing the U.S. VISIT 
program and the requirement for biometric identifiers in travel 
documents.
    Question. The entry/exit system will likely require substantial 
increases in staff and infrastructure modifications at 150-some land 
ports, particularly for the departure component. What assessments has 
the Directorate performed to determine the extent of additional staff 
needed?
    Answer. Workforce analysis and workforce staffing issues have been 
identified as part of the U.S. VISIT 45-day Spending Plan.
    Question. What assessments has the Directorate performed to 
determine the physical infrastructure changes that might be needed and 
their associated costs?
    Answer. Estimated physical infrastructure, environmental, and 
construction costs have also been identified as part of the 45-day 
Spending Plan. The scope and unique nature of this program required 
extensive assessments of the physical infrastructure. A facilities 
project team has been dedicated to the program on a full time basis, 
since March 2002. The facilities team is an integral part of the U.S. 
VISIT Program. The U.S. VISIT Program facilities team partnered with 
the General Services Administration (GSA) in early April 2002 to 
prepare the foundation for facilities and infrastructure improvements 
related to the U.S. VISIT Program. The facility team is charged with 
the development and implementation of facilities and infrastructure in 
accordance with the program objectives and requirements. Direction and 
guidance to the facilities program team is provided by a Steering 
Committee staffed by Senior Executives from BICE, BCBP, and the General 
Services Administration.
    The work to date has included:
  --Collected basic facilities planning data in a Geographic 
        Information System data base for all 165 Land Ports of Entry, 
        including
    --environmental data from State and Federal resource agencies
    --high-resolution aerial photography of all Land Ports of Entry 
            (POE)
    --operational data for all Land Ports of Entry
    --documentation on real estate ownership
  --Modeled traffic flows for the 50 largest Land Ports of Entry
  --Developed proto-type designs for the 60 small Land Ports of Entry
  --Completed Feasibility Studies for the 51 small Land Ports of Entry
  --Completed environmental baseline studies for each Land Ports of 
        Entry
  --Initiated a Strategic Environmental Appraisal for each Land Ports 
        of Entry
        student and exchange visitor information system (sevis)
    Question. Has that transition of authority from BCIS to your 
Directorate taken place? Who within the BICE will have formal 
responsibility for carrying out this program?
    Answer. Yes, authority for the Student Exchange Visitor Program 
(SEVP) has transitioned to BICE. The Director of SEVP will have 
responsibility for carrying out the program.
    Question. In March of 2003, the Department of Justice, Office of 
Inspector General (OIG) issued a report on SEVIS questioning whether 
the program has been fully implemented. What steps are you taking to 
remedy the problems in school certification that were found by the OIG?
    Answer. The Bureau is in the process of reviewing the issues raised 
in the OIG report and is preparing a response. We will make available 
our response to you as soon as it is completed and delivered to the 
OIG. We expect to have that reply completed by the end of May 2003.
    Question. Under the current timeline, the SEVIS system will not 
have complete information entered into it on every foreign student in 
the United States until August of 2003. This is 2 years after the 
events of September 11--some of those terrorists were on student 
visas--and 20 months after receiving full funding for the system. The 
Congressional mandate was to have the system completed by January 2003. 
Why is this taking so long? And what is being done to track these 
students in the meantime?
    Answer. The DHS worked hard to meet the aggressive deadline for 
SEVIS implementation (January 2003) set forth in the USA PATRIOT Act. 
On July 1, 2002, 6 months before the deadline, the SEVIS was initially 
deployed to begin preliminary enrollment of accredited schools on a 
volunteer basis. Also in July 2002, the core foreign student program 
functionality was made operational and schools began to utilize SEVIS. 
By January 1, 2003, the all facets of the SEVIS system, including 
exchange program and exchange visitor functionality, and all system 
interfaces were deployed. By regulation, all schools and exchange 
programs, certified to admit foreign students or exchange visitors, 
were required to utilize SEVIS for all new students as of February 15, 
2003. All continuing foreign students must be entered into SEVIS no 
later than August 1, 2003. The primary reason for a phased approach to 
collecting information on foreign students (e.g., entering students 
followed by continuing students) was to ensure program integrity. The 
schools needed adequate time to review and convert the considerable 
data on their continuing students to SEVIS.
    This multi-phase approach was described in proposed regulations 
published in May 2002 and highlighted in testimony before the U.S. 
House of Representatives, Committee on the Judiciary, Subcommittee on 
Immigration, Border Security, and Claims (September 18, 2002) as well 
as before the U.S. House of Representatives, Committee on Education, 
Workforce Subcommittees on Select Education and 21st Century 
Competitiveness (September 24, 2002). Finally, the multi-phase approach 
was codified in DHS final regulations in December 2002.
    Until August 1, 2003, foreign students already in the United States 
continue to be monitored under the paper-based processes of former INS 
information systems. Schools are still required to maintain records and 
report updated information on these continuing students and are 
required to report violations of status to the DHS.
    Question. What steps have you taken to tighten the oversight and 
training of contractors who are out there actually doing the on-site 
reviews of schools? What steps are being taken to improve the training 
being provided to adjudicators and inspectors?
    Answer.
    Training of Contractors.--The primary role of contractors 
conducting the on-site review of schools is to gather information 
pursuant to a standardized questionnaire developed by BICE. Once the 
information is collected, it is forwarded to BICE adjudicators where it 
is incorporated with other information and used in the decision-making 
process with respect to a school's certification or denial to SEVIS.
    BICE has actively managed the on-site contractors. Initially three 
firms were employed by BICE for on-site reviews. Due to poor 
performance, one of the three firms was removed. The two remaining 
firms have demonstrated sufficient capacity to complete the on-site 
reviews without delay. Adjudicators have been instructed to bring 
deficient reports to the attention of the Contacting Officer's 
Technical Representative (COTR) so that these issues may be addressed 
with the relevant contractor. The COTR meets and communicates regularly 
with managers from the two contractors to discuss deficiencies as well 
as best practices. When fully staffed, BICE will use its compliance 
officers to perform many of the functions currently performed by the 
contractors.
    Training of Adjudicators.--Officers assigned to adjudicate I-17 
school certifications were provided with two separate group-training 
sessions in June and August of 2002. Since that time, we prepared and 
disseminated a comprehensive update to the Adjudicators Field Manual 
(the core guidance to adjudications officers of all benefit 
applications) that covers all adjudicative aspects of the foreign 
student regulations. Additionally, Headquarters has been conducting 
weekly regional conference calls with all officers adjudicating I-17s 
to keep them current on the status of on-site reviews and to answer any 
general questions regarding the adjudication of cases or to address the 
specifics of an actual case. Finally, Headquarters provides one-on-one 
training for officers newly assigned to this duty, on an as needed 
basis.
    Training of Inspectors.--In January 2003, the BCBP inspections 
branch trained more than 300 inspectors at over 100 ports-of-entry via 
a web-based, interactive teleconference system. A copy of the training 
materials was provided to each port for follow-up training, conducted 
locally. The BCBP inspections branch continues to update its SEVIS 
related training.
    Question. An important purpose of the SEVIS system is to allow for 
the tracking down of those students who have fraudulently entered this 
country with no intent to abide by their visa status. Have procedures 
been set up to identify and refer potential fraud for enforcement 
action?
    Answer. Yes, procedures have been set up to identify and refer 
potential fraud for enforcement action. Leads are received from 
schools, from a variety of sources including the SEVIS system. The 
leads are entered into a database and record checks are conducted by 
the Law Enforcement Support Center against a number of databases 
including the Foreign Terrorist Tracking Task Force databases and the 
Non-immigrant Information System.
    When it is determined that a student or exchange visitor entered 
the United States, failed to comply with his or her status and then 
failed to depart, the lead is then deemed to be a viable lead which is 
referred for enforcement action. All viable leads are entered into 
immigration lookout databases. The leads are then prioritized based on 
national security concerns and, if appropriate, assigned to field 
offices for further investigation.
    With regard to the enforcement of SEVIS, approximately 3,000 leads 
have been received from schools since December 2002, resulting in over 
1,000 viable leads. All of these viable leads have been entered into 
automated lookout systems and 206 of these leads have been assigned to 
field offices based upon national security considerations. To date, 21 
arrests have taken place and 2 violators were denied entry into the 
United States. 84 cases are still pending in the field and the 
remaining cases were resolved without arrests.
                   integrated investigation strategy
    Question. The new Bureau of Immigration and Customs Enforcement 
BICE brings together the investigation arms of the Customs Service, the 
investigative functions of the former Immigration and Naturalization 
Service, and the Federal Protective Service. This unification of 
investigative functions is intended to enhance information sharing 
between Federal bureaus and provide for more cohesive enforcement of 
immigration and customs laws within the interior of the United States 
in addition to protecting Federal institutions and interests. Can you 
describe in more detail the nature of the Bureau's functions and how 
you plan to delegate specific roles and responsibilities within the 
Bureau?
    Answer. The Bureau's functions will fully integrate the previous 
investigative responsibilities held by the Special Agents of the 
Customs Service and the Immigration and Naturalization Service. The 
investigative components of BICE will enforce the full range of 
immigration and customs laws of the United States. By unifying the 
previously separate investigative functions, the new Bureau will 
enhance information sharing with Federal, State and local law 
enforcement and develop stronger relationships with the U.S. Attorneys' 
Office.
    The American public will only be able to identify a former Customs 
or INS agent as a BICE agent. To this end, all agents will receive 
training in the disciplines of their new counterparts to facilitate a 
cohesive effort in furtherance of the investigative mission of BICE.
    BICE will accomplish its mission through effective leadership, 
cooperation and coordination with internal components, law enforcement, 
other governmental agencies and through the development of information 
technology and appropriate sharing and use of intelligence information 
to assess threats and prioritize targets. BICE will further develop and 
enhance partnerships with international, Federal, State, and local 
entities to help identify, prosecute, and/or dismantle criminal 
organizations and to locate, apprehend, prosecute, and/or remove 
individuals who threaten the peace and stability of the nation. The IIP 
will focus its resources on the issues and threats identified as most 
severe and will systematically identify and prioritize those activities 
and apply all available laws and tools to counter those threats.
    Question. When do you anticipate putting together an integrated 
investigations strategy that will blend the customs and immigration 
responsibilities of BICE and sharing it with the Committee?
    Answer. The challenges of the 21st century and the aftermath of the 
September 11, 2001 attacks demand an integrated investigations strategy 
that provides a highly organized global approach with regard to the 
customs and immigration enforcement responsibilities. The unique 
authorities possessed by BICE special agents will allow them to play an 
integral role in defending the United States and securing its borders.
    BICE is currently endeavoring to implement an integrated 
investigations strategy, which should be completed in the near future. 
Putting together an integrated investigations strategy means the 
recognition that BICE must partner with other law enforcement and 
intelligence agencies to protect and defend the United States. It will 
seek strong functional liaisons, and will formulate an aggressive, 
integrated investigations strategy and infrastructure with its 
partners. However, the process of integration takes time--not only to 
integrate several program specific investigations strategies--but also 
to ensure the compatibility with interdependent systemic 
infrastructures including information technology, human and budgetary 
resource options. For example, a new chain of command (integrating the 
two agencies) will be established, agents will be cross-trained in the 
disciplines of their counterparts at Customs or INS, differences in 
operational policies will be reconciled, and joint facilities may need 
to be secured. Currently, under the direction of the Assistant 
Secretary, we are ensuring steady progress toward addressing these 
issues, including the process of assembling an integrated, efficient 
and effective investigations strategy. The Bureau looks forward to the 
opportunity to share these developments with the Committee, as they 
occur.
    Question. BICE has responsibility for investigating everything from 
intellectual property to smuggling of contraband. How do you plan to 
ensure that non-homeland security investigations are maintained at the 
same level?
    Answer. Because law enforcement investigative priorities must 
concurrently evolve with the trends in criminal activity, each year 
BICE will review its investigative priorities and establish a 
comprehensive investigative strategy.
    BICE will continue to collaborate with other law enforcement 
agencies to identify, prioritize, and pursue threats to the homeland. 
In addition, BICE will continue constant coordination with the 
intelligence community and with private, public, State, local, and 
Federal law enforcement agencies. This coordination will be a key 
component of achieving the strategic approach to the full range of 
investigations for which BICE is responsible.
    Question. There are approximately 355,000 individuals who have been 
issued final deportation orders that have just walked away, absconded. 
The fiscal year 2003 Consolidated Appropriations Resolution included 
$10 million for increased investigative staff to pursue absconders. 
What is the status of bringing on these new investigators? How do you 
plan to tackle the absconder situation?
    Answer. BICE is planning to dedicate the $10 million in new funds 
to locating, apprehending and deporting criminal alien fugitives in 
fiscal year 2003. These new funds will be used to acquire equipment as 
well as hire and train 69 new officers solely devoted to the initiative 
to locate, apprehend and remove absconders. Eight new fugitive 
operations teams will be deployed in key strategic locations; Georgia/
North Carolina, the Maryland/Washington DC/Virginia corridor, 
Massachusetts/New England, Mid-Atlantic, Illinois/Midwest, Central 
Texas, Pacific Northwest, and supplements to the existing Los Angeles 
team. Some of the positions will also be used to establish permanent 
staff at the Law Enforcement Support Center to aid in the entry of 
alien records into the National Crime Information Center (NCIC) which 
is used as a force multiplier.
    The $10 million supplements the $3 million from the counter-
terrorism supplemental the former INS received from the Patriot Act in 
fiscal year 2002. That $3 million was used to hire 40 new officers, 
deployed as 8 teams in 7 cities, devoted solely to fugitive operations. 
The locations included New York City (2 teams), Detroit, Miami, Newark, 
Chicago, Los Angeles and San Francisco.
    In order to provide a solid foundation to these teams, BICE has 
developed a new specialized training course for the members of the 
fugitive operations teams. The first class will begin training in July 
2003.
    Tackling the absconder problem will require an integrated system to 
arrest and remove current absconders in conjunction with programs 
designed to reduce the future absconder population. One element of this 
system will be the creation of new multi-agency task forces to focus on 
the problem of absconders. BICE has reached out to other Federal 
agencies, such as the U.S. Marshals, IRS, Social Security 
Administration and the Department of Labor as well as State and local 
law enforcement agencies, to expand the enforcement net and ensure that 
every tool available is utilized to find these aliens. Another key 
element of the system includes greater use of intensive supervision to 
ensure aliens show up for proceedings and removals, thus reducing the 
growth of absconders.
                      air and marine interdiction
    Question. What is the status of the modernization review of all air 
and marine assets?
    Answer. With respect to Air and Marine Interdiction assets, BICE 
has completed a review of all air and marine assets and expects to 
complete a revised modernization plan in late July 2003. We estimate 
delivering the plan to Congress in August 2003.
    The Border Patrol developed a replacement/enhancement plan for 
their air and marine assets in fiscal year 2000. The acquisition of new 
assets is based upon availability of funds for each fiscal year. 
Additional new aircraft and marine vessels acquisitions are planned for 
in fiscal year 2003.
    Question. Currently the base budget for Air and Marine Interdiction 
is spilt between BCBP and BICE, with the operations and maintenance 
budget in BCBP and a portion of the salaries and expenses of the 
personnel in BICE. What is the appropriate placement of this important 
program? Please provide the rationale for that decision.
    Answer. The Air and Marine Interdiction budget was deliberately 
placed in BICE. Some of the reasons for this decision are:
    Air and Marine staff and capital assets are deployed primarily for 
interdiction. The principal goals of interdiction are to enhance the 
BICE investigative process to prevent terrorist activity and to further 
investigations of major smuggling operations whether they be drug, 
alien, or terrorist in nature.
    As a key part of the BICE integration of the immigration and 
customs enforcement mission with other Federal agencies, OAMI will 
support investigative processes at Coast Guard, Secret Service, 
Emergency Management, TSA, and FPS. OAMI will support investigative 
processes at non-DHS agencies from DEA to FBI.
    The use of OAMI mission and assets must be closely connected to the 
BICE intelligence mission and operations to be effective. It is this 
connection that ensures that the limited air and marine assets are 
effectively deployed to specific targets over a vast sea or border 
resulting in maximum deterrence capability. BICE intelligence based 
operations must be the lynchpin of OAMI strategy.
    Operationally, OAMI is more identified with investigations than 
inspections or surveillance activity. OAMI has historically reported 
through the investigations division of Customs. In fiscal year 2002, 
approximately 60 percent of OAMI flight hours supported customs 
enforcement. With the integration of customs and immigration 
enforcement, we estimate that more than 80 percent of OAMI operational 
flight hours will directly support BICE investigations, foreign 
operations, border and maritime patrols. The remaining 20 percent will 
support transportation of people and assets, as well as training and 
maintenance, and other customers for support flights.
    Based upon the above factors, placement of OAMI within BICE 
accomplishes the objectives of intelligence-based operations; more 
effective support of DHS and inter-agency law enforcement missions; and 
furtherance of investigations of terrorists and other crime syndicates. 
Air and Marine support of border protection functions will continue 
under this placement and will be formalized in an upcoming management 
directive. The proper placement of all our programs remains subject to 
periodic review.
    Question. Please provide the fiscal year 2004 positions, FTE, and 
dollars for the following: operations and maintenance, to include the 
proper level of adjustments to base; salaries and expenses to, include 
the appropriate level of administrative overhead from the legacy 
appropriation and adjustments to base.
    Answer. In order to fund the authorized strength of 1,105 FTE, the 
legacy appropriation with adjustments to base includes $112 million for 
salaries and expenses in the fiscal year 2004 budget request. An 
additional $175.05 million is included in the fiscal year 2004 budget 
request for legacy operations and maintenance with adjustments to base. 
Appropriate levels of administrative overhead are pending the 
completion of administrative support and structures between BCBP and 
BICE.
                federal law enforcement training center
    Question. How do you plan to balance the training needs of the 
Border and Transportation Directorate with the training needs of other 
Departments?
    Answer. The Federal Law Enforcement Training Center (FLETC) 
conducts training and provides training support services for 75 partner 
organizations from across all three branches of Federal Government. 
FLETC also provides training for international, State and local law 
enforcement agencies on a selective basis. In the President's fiscal 
year 2004 request, FLETC was projected to train 45,208 students for a 
total of 183,202 student weeks of training at Glynco, Georgia, Artesia, 
New Mexico and Charleston, South Carolina. In early fiscal year 2004, a 
fourth site in Cheltenham, Maryland, is anticipated to be fully 
operational for requalification training in the Washington, DC 
metropolitan area. Currently, training statistics for Cheltenham are in 
the developmental stage and are not part of the President's budget 
request. Of the projected student weeks of training, 65 percent will 
come from the nine law enforcement agencies transferred to the 
Department of Homeland Security.
    The fiscal year 2003 projections are unprecedented for FLETC. To 
meet the training needs, FLETC will continue a 6-day workweek, which 
was started in January 2002, at its largest site in Glynco. Further, 
FLETC has a priority training system, which ensures that all mandated 
entry level law enforcement training is given first scheduling 
priority. The FLETC has received updated projections for fiscal year 
2004. The new training projections have increased significantly and 
FLETC is currently evaluating the impact of the increased requests for 
training. If these requests are substantiated the FLETC will have to 
explore other options, including extended work days, realignment of 
training among sites under FLETC's scheduling control, and the use of 
other available Federal, State and local training resources on a 
periodic basis.
                    office for domestic preparedness
    Question. How does the Administration propose to allocate the $500 
million requested for firefighters and the $500 million proposed for 
law enforcement? For example, do you intend to retain the current grant 
programs now being managed by the Emergency Preparedness and Response 
Directorate (formerly FEMA) which provide emergency management 
performance grants to states or grants directly to fire departments 
through the Assistance to Firefighters Grant program?
    Answer. There are two separate allocations of $500 million in the 
fiscal year 2004 request. One $500 million allocation will be for the 
traditional Fire Act program being transferred from FEMA. Since its 
inception, DHS's Office for Domestic Preparedness has enjoyed a strong 
relationship with the nation's fire service. The planned transfer of 
the Fire Act program to ODP will not change the manner in which the 
program is administered nor is it an attempt to merge the program with 
ODP's formula grant program. The program will continue to be managed 
consistent with the statutory requirements as a direct, competitive 
grant program to address the health and safety of firefighters.
    The other $500 million allocation request for State and local law 
enforcement for terrorism preparedness and prevention activities which 
include: training and equipment for WMD events, support for information 
sharing systems, training of intelligence analysts, development and 
support of terrorism early warning methods, target hardening and 
surveillance equipment, and opposition force exercises.
    Question. There was controversy during consideration of the 
Homeland Security Act as to whether the Department's Border and 
Transportation Security Directorate or its Emergency Preparedness and 
Response Directorate should properly manage and oversee the first 
responders program. Do you believe that the Office for Domestic 
Preparedness is properly placed under the Department's Border and 
Transportation Security Directorate?
    Answer. I support moving ODP to the Office of State and Local 
Coordination. With ODP's ever-expanding responsibilities and broadening 
scope, I think it is important for the agency providing funding to 
States and locals to reside within the office assigned in acting as 
liaison to those very States and locals. Therefore, the proposition of 
moving ODP from BTS to the Office of State and Local Coordination will 
be a means to several ends. Moving ODP will enhance the Office of State 
and Local Coordination because of ODP's long standing relationships 
with State and local public safety agencies and responders. Perhaps 
most importantly, a move will give DHS a ``one-stop-shop'' for all 
first responder funding within the Department.
    Question. No additional funding is requested for fiscal year 2004 
for critical infrastructure protection grants (funded in the fiscal 
year 2003 Emergency Wartime Supplemental Appropriations Act) or for 
high-threat urban areas (funded in the fiscal year 2003 Consolidated 
Appropriations Act and the fiscal year 2003 Emergency Wartime 
Supplemental Appropriations Act). Do you foresee a need to continue 
funding for either of these grant programs in fiscal year 2004?
    Answer. The $200 million appropriated in the 2003 Emergency Wartime 
Supplemental Appropriations Act was for reimbursement of states for 
expenses incurred protecting critical infrastructure during Operation 
Liberty Shield.
    Urban Area Security Initiative (UASI) was developed and implemented 
after the fiscal year 2004 budget request was developed. We believe the 
states will find this program an integral part of their strategic 
planning, and continue to fund it with grant funds ODP allocates to 
them on an annual basis.
    Question. First responders funding has been awarded to states with 
a pass-through to local governments on the basis that statewide plans 
are developed to deal with the issues of terrorism preparedness, 
vulnerability assessments and the like, and that the funds be spent by 
the States and local governments consistent with this plan. How 
important do you believe the statewide plans are in assuring the proper 
expenditure of this assistance at the State and local level?
    Answer. The State Homeland Security Strategy is designed to give 
each state and territory one comprehensive planning document that 
includes response requirements for a WMD terrorism incident, 
irrespective of the sources of funding. It is developed based on 
assessments of threats, vulnerabilities, capabilities at both the State 
and local jurisdiction levels. It should serve as a blueprint for the 
coordination and enhancement of efforts to respond to WMD incidents, 
using Federal, State, local, and private resources within the State. 
Because of the importance of this information, the grants are awarded 
based on the submission of this state plan to ensure the state uses the 
funds according to the needs identified in the strategy.
    There have been many concerns from the government as well as first 
responders in the field regarding the grant funding reaching local 
jurisdictions in a timely manner. Therefore, the fiscal year 2003 State 
Homeland Security Grant Program I (SHSGP I) and SHSGP II incorporate a 
strict timeline to facilitate the release and obligation of this 
funding.
    The SHSGP I application kit was posted online on March 7, 2003. 
States had to submit their applications to ODP within 45, by April 22, 
2003. Applications were reviewed at ODP within 7 days of submission. 
Once approved by ODP, grants will be awarded to the States within 21 
days. States have 45 days to obligate funds from the time the grant is 
awarded. As mandated by Congress, 80 percent of the equipment funds 
must be provided to local units of government. The required bi-annual 
Categorical Assistance Progress Reports must reflect the progress made 
on providing funds to the local jurisdictions.
    The SHSGP II application kit was posted online on April 30, 2003. 
States must submit their applications to ODP within 30 days, by May 30, 
2003. Applications will be reviewed at ODP within 7 days of submission. 
Once approved by ODP, grants will be awarded to the States within 21 
days. States have 45 days to obligate funds from the time that the 
grant is awarded. As mandated by Congress, 80 percent of the total 
amount of the grant to each State must be provided to local units of 
government. The required bi-annual Categorical Assistance Progress 
Reports must reflect the progress made on providing funds to the local 
jurisdictions.
    Question. In testifying before the Senate Appropriations Committee 
on the fiscal year 2003 supplemental request and again before this 
Subcommittee last week, Secretary Ridge indicated that there may be 
reason to rethink how we distribute future terrorism preparedness 
funding, whether the population-based distribution formula historically 
used by the Office for Domestic Preparedness is appropriate, or whether 
it should take into account such factors as threat, vulnerability, 
critical infrastructure needs, and the like. Does the Administration 
plan to propose a formula change for distributing this funding? What 
formula change will you be seeking?
    Answer. The current formula for the allocation of ODP funds to the 
States for the fiscal year 2003 State Homeland Security Grant Program 
(SHSGP) I and SHSGP II was computed on a base, pursuant to the Patriot 
Act, plus a population formula. Starting in fiscal year 2004, the 
Department will seek to make changes in how it distributes funding to 
the States. Each State and territory will continue to receive a base 
amount, but the balance of funds will utilize a multi-faceted formula, 
taking into account factors including threat and risk assessments, 
critical infrastructure of national importance, and population density.
    Until the overall formula is changed, each State must take into 
consideration needs and capabilities when allocating their State funds 
to local jurisdictions.
    Question. What formula was used to award the approximately $100 
million in fiscal year 2003 funds for grants to high-threat urban areas 
announced by the Department on April 8, 2003, for distribution to seven 
U.S. cities (New York City, N.Y.; Washington, D.C. and the National 
Capital Region; Los Angeles, CA; Seattle, WA; Chicago IL, San 
Francisco, CA; and Houston, TX)? Do you expect to use this same formula 
to award the additional $700 million provided in the fiscal year 2003 
Emergency Wartime Supplemental Appropriations Act?
    Answer. While the specifics of the formula used to award the 
approximately $100 million, and subsequent $700 million, for the Urban 
Areas Security Initiative is classified, it includes a weighted linear 
combination of current threat estimates, critical assets within the 
urban area, population and population density, the result of which is 
used to calculate the proportional allocation of resources.
                                 ______
                                 

            Questions Submitted by Senator Pete V. Domenici

 unmanned aerial vehicles at the las cruces, new mexico international 
                                airport
    Question. I was pleased to learn of Secretary Ridge's interest in 
using unmanned aerial vehicles (UAVs) for improved surveillance along 
our nation's borders. I strongly support such action to improve our 
nation's ability to patrol our borders, particularly in less-populated 
areas.
    Southern New Mexico is already the site of ongoing UAV flights out 
of the Las Cruces International Airport. This airport is the 
headquarters of New Mexico's emerging UAV Center of Excellence, the 
newly formed joint regional UAV Systems and Operations Validation 
Facility (USOVF), a partnership between the 46th Test Group at Holloman 
Air Force Base and the Physical Science Laboratory of New Mexico State 
University. The USOVF is pre-approved by the Federal Aviation 
Administration for file and fly in a regional flight area of 300,000 
square miles in the western United States. The Las Cruces International 
Airport is situated less than 40 miles from the U.S.-Mexico border, and 
in a central location among U.S. border states.
    I understand that Senator Stevens is interested in using UAV's to 
patrol the maritime border between Alaska and Russia in the Bering 
Straight. What do you anticipate will be the size and scope of the 
Department of Homeland Security's deployment of UAV's on our borders?
    Answer. BTS has asked the Science and Technology Directorate to 
evaluate the use of UAVs in a Border and Transportation Security 
environment. S&T was also asked to evaluate other potential 
applications.
    Question. What funding and facilities will the Department need for 
a UAV program?
    Answer. Until the requirements have been scoped to determine the 
feasibility and extent of a UAV program, we cannot predict what amount 
of funding and the type of facilities might be appropriate for the 
Department to implement a UAV program.
    Question. On what timeline will the Department implement this 
initiative?
    Answer. At this time, it is unknown what the timeline would be for 
the Department to implement this type of initiative. A proposed project 
plan including milestones and deliverables is expected to be ready for 
review by June 2003. The project plan will discuss the BTS-specific 
project as well as strategies in developing UAV initiatives in the 
near, mid, and long term for DHS venues such as borders and ports.
    Question. Based upon the characteristics of the Las Cruces, New 
Mexico International Airport, could you provide an assessment of its 
potential for utilization by the Department of Homeland Security for 
serving as a platform for the deployment of UAV's for Homeland Security 
purposes?
    Answer. Based upon the description of the Las Cruces, New Mexico 
International Airport, the facility appears to have potential for 
serving as a platform for UAV deployment for Homeland Security 
purposes. After UAV program feasibility, requirements and scope is 
determined a more detailed assessment on available testing and 
deployment facilities would need to be made.
                             border issues
    Question. It has been 17 years since the Federal Government 
launched a major effort to upgrade U.S. borders and that effort focused 
only on the Southwest border.
    I have just sponsored the Border Infrastructure and Technology 
Modernization Act (S. 539). The new bill will focus on U.S. borders 
with Canada as well as Mexico. This bill has the dual goals of 
facilitating the efficient flow of trade while meeting the challenges 
of increased security requirements.
    This will include:
  --More funding for equipment at our land borders
  --Additional funding for personnel
  --Additional funding for training, and
  --Additional funding for industry/business partnership programs along 
        the Mexican and Canadian borders.
    It is important for the border enforcement agencies to work with 
the private sector on both sides of the border and reward those 
partners who adopt strong internal controls designed to defeat 
terrorist access to our country.
    What are your thoughts on the importance of trade partnership 
programs along the Southwest border?
    Answer. Industry Partnership Programs (IPP) allow the BCBP to 
expand our influence beyond the borders and into Mexico, Central 
America, South America and the Caribbean. Under the umbrella of the 
Customs-Trade Partnership Against Terrorism (C-TPAT), these priority 
initiatives include the Land Border Carrier Initiative Program (LBCIP), 
the Business Anti-Smuggling Coalition (BASC) and the Americas Counter 
Smuggling Initiative Program (ACSI). Each IPP enables the Trade to 
tighten our borders through the enhancement of supply chain security 
standards that deter smugglers from using conveyances and cargo to 
smuggle terrorist devices and narcotics. These complementary programs 
benefit both BCBP and the private sector by securing the integrity of 
shipments destined for the United States while promoting the efficient 
flow of trade.
    We are currently working on additional security requirements that 
take into account the additional terrorist and drug threat on the 
Southwest border for conversion of the LBCIP carriers to C-TPAT. BASC 
chapters have been established throughout Ecuador, Colombia, Costa 
Rica, Mexico, Panama, Peru, Venezuela and most recently in Jamaica, 
where a chapter was founded in March 2003. The ACSI Teams continue to 
support BASC through security site surveys, briefings on smuggling 
trends and techniques and security and drug awareness training.
    The primary purpose of LBCIP is to prevent smugglers of illegal 
drugs from utilizing commercial conveyances for their commodities. 
Carriers can effectively deter smugglers by enhancing security measures 
at their place of business and on the conveyances used to transport 
cargo. By signing agreements with the BCBP, land and rail carriers 
agree to enhance the security of their facilities and the conveyances 
they use and agree to cooperate closely with BCBP in identifying and 
reporting suspected smuggling attempts.
    BASC is a business-led, BCBP supported alliance created to combat 
narcotics smuggling via commercial trade that was formed in March 1996. 
BASC examines the entire process of manufacturing and shipping 
merchandise from foreign countries to the United States, emphasizing 
the creation of a more security-conscious environment at foreign 
manufacturing plants to eliminate, or at least reduce, product 
vulnerability to narcotics smuggling. BCBP supports BASC through ACSI, 
which are teams of BCBP officers that travel to the BASC countries to 
assist businesses and government in developing security programs and 
initiatives that safeguard legitimate shipments from being used to 
smuggle narcotics and implements of terrorism.
    Question. What plans do you have to increase cooperation with the 
Mexican government on border issues?
    Answer. Under the C-TPAT programs consisting of the Americas 
Counter Smuggling Initiative (ACSI), and the Business Anti-Smuggling 
Coalition (BASC), BCBP is engaging the Mexican trade community and 
Mexican Customs in a cooperative relationship against the smuggling of 
drugs and implements of terror. Meetings have been held with Mexican 
Customs through a bilateral U.S.-Mexican Government Working Group. 
Through this working group, the United States and Mexico can work 
jointly through these programs to establish a secure supply chain 
between our countries, while facilitating cross border trade. BCBP is 
also working with Mexican Customs to identify what areas in Mexico 
should be targeted for the establishment of new BASC chapters.
    Under the high-level United States and Mexico Customs Bilateral 
Working Group, a demonstration project to test a fast and secure lane 
at El Paso is underway. This bilateral program is designed to expedite 
and facilitate commercial truck crossings at the Ports of Entry (POEs) 
by implementing the mandated requirements of securing the flow of 
people, transportation, and goods under a secure infrastructure. This 
program is aimed at facilitating cross border trade, while improving 
and ensuring the supply chain security of the participants that range 
from manufacturing, to transportation, to importation.
    BCBP has two ACSI teams travelling throughout Mexico to work with 
the BASC Chapters in Monterrey, Ciudad Juarez and Mexico City to 
prevent drug smugglers and elements of terrorism from using legitimate 
cargo to enter their illegal merchandise into the U.S. BASC, which was 
initiated in March 1996, continues to be a private sector business-led, 
BCBP supported alliance under C-TPAT that complements and enhances our 
efforts to secure the supply chain. C-TPAT is an anti-terrorism 
response to the events of September 11, 2001 which engages the trade 
community in a cooperative relationship with Customs in the war against 
terrorism. C-TPAT will work with foreign manufacturers, exporters, 
carriers, importers and other industry sectors emphasizing a seamless, 
security conscious environment throughout the entire commercial 
process.
            federal law enforcement training center (fletc)
    Question. Congress created the Federal Law Enforcement Training 
Center (FLETC) to be the consolidated training center for almost all 
law enforcement agencies. As the law enforcement training arm of the 
Department of Homeland Security (DHS) it seems logical that FLETC 
should develop and conduct standardized training for all Homeland 
Security law enforcement and inspection personnel.
    Such a training approach would ensure that all law enforcement 
personnel receive appropriate and consistent instruction. This is 
particularly important as you retrain and cross-train border agencies 
which have been merged under DHS (e.g. Customs, Immigration, and 
Agriculture Inspectors).
    Congress specifically created the Federal Law Enforcement Training 
Facility in Artesia, New Mexico to handle the advanced and special 
training of almost all Federal law enforcement personnel.
    In the past, Federal agencies have chosen not to use FLETC 
facilities for training and instead have contracted with non-Federal 
institutions. Over the past few years, Congress has provided over $30 
million for the FLETC Artesia facility, alone.
    When the need for Federal Air Marshal training arose after 
September 11, FLETC-Artesia answered the call to duty by developing and 
providing this training in a remarkably short period of time. By way of 
example, FLETC-Artesia brought in three 727 airplanes for use in 
training to go along with the 18 firing ranges and 3 shoot-houses.
    FLETC-Artesia boasts 683 beds, state-of-the-art classrooms, and a 
brand new cafeteria to accommodate approximately 700 students a day, 
yet it has been running at around 320 students during fiscal year 2003.
    FLETC-Artesia's close proximity to the Southwestern border, 
recently constructed facilities and optimal training conditions 
certainly suggest the center should be highly utilized by DHS.
    Question. How do you intend to provide training for the newly hired 
DHS personnel as continued training for existing DHS personnel in light 
of the new security challenges facing our country?
    Answer. As we enter a new era in law enforcement operations in the 
United States, the FLETC is a good example of the new government 
approach intended by the legislation creating the DHS: a means to 
harmonize the work of many law enforcement agencies through common 
training, while at the same time maintaining quality and cost 
efficiency. In fiscal year 2003, 65 percent of the FLETC's projected 
training workload will come from nine law enforcement agencies 
transferred to the new Homeland Security department. In fiscal year 
2004, this workload will continue to be above 73 percent of our 
estimated total Federal training workload.
    FLETC intends to work closely with all segments of DHS. Placing 
FLETC within the DHS will help to support the ``unity of command'' and 
the coordination and efficiency themes sought in the public law that 
created DHS. FLETC has a long history of service to many of the DHS 
components--the U.S. Secret Service, the former Customs and Immigration 
and Naturalization Services including the U.S. Border Patrol (USBP), 
the Federal Protective Service, and more recently, the Transportation 
Security Administration (TSA).
    With the start-up of the Bureaus of Customs and Border Protection 
and Immigration and Customs Enforcement, FLETC is ready to help 
facilitate, develop, and implement new training and cross training 
programs. We recognize that much of this effort and expertise will 
necessarily come from the agencies involved, but there likely will be 
significant adjustments made over time to all DHS-related training 
programs, basic and advanced. Already, an effort is underway to 
systematically review existing training for these new entities and to 
address whatever capabilities are needed to meld the duties of the 
participants. In the meantime, training will continue unabated to 
achieve all of the hiring expectations of our agencies.
    Question. How do you intend to use FLETC facilities for training 
DHS employees?
    Answer. The national ``war on terrorism'' precipitated by the 
events of September 11, 2000 placed new and increased demands on the 
nation's Federal law enforcement agencies. Officers and agents 
immediately began to work extended hours and many have been reassigned 
geographically and/or to expanded duties. Nearly all Federal law 
enforcement agencies made plans to increase their cadre of qualified 
officers and agents, and submitted urgent requests to the FLETC for 
basic law enforcement training far in excess of the FLETC's normal 
capacity. These requests were for increased numbers of graduates and 
for their speedy deployment to buttress the hard-pressed Federal law 
enforcement effort.
    The events of September 11 also increased the need for certain 
advanced law enforcement training conducted at the FLETC, especially 
classes associated with such issues as counter-terrorism, weapons of 
mass destruction, money laundering, etc. Likewise, the need for 
instructor training classes increased, to strengthen the cadre of 
instructors qualified to handle the training surge--at the FLETC and 
within the agencies.
    In addressing the unprecedented increase in training requirements, 
FLETC has conducted capability analyses to determine the set of actions 
most likely to result in optimum throughput without compromising the 
qualifications of graduating officers and agents, and maximizing the 
use of each of its training facilities. With the consultation and 
concurrence of its partner organizations (POs), FLETC leadership 
directed that training be conducted on a 6-day training schedule 
(Monday through Saturday), thus generating a 20 percent increase in 
throughput capability. More importantly, the 6-day training schedule 
drives a corresponding compression of the length of each training 
program, effectively delivering each class of new law enforcement 
officers to their agencies weeks sooner than under the conventional 
training schedule. Should the 6-day training schedule be insufficient 
to meet the demand, an extended work day will be considered.
    In addition to the 6-day training schedule, FLETC has expanded its 
staff with a supplemental cadre of re-employed annuitants (primarily 
retired Federal law enforcement officers) who are contributing their 
skills and experience as instructors to help sustain the surge in 
training operations. This is a 5-year authority provided by Congress in 
fiscal year 2002.
    Further, the Federal Law Enforcement Training Center has been 
tasked by BTS with establishing a Training Academy Committee to 
identify and assess the training capabilities of all of the BTS 
training academies. This study will be the basis for determining the 
schedule and priority for training elements of DHS in a coordinated 
manner.
    Question. How should DHS use FLETC Artesia's facilities and 
specialized training capabilities?
    Answer. FLETC intends to utilize its Artesia facility to its 
maximum potential. I have tasked the Federal Law Enforcement Training 
Center with establishing a Training Academy Committee to identify and 
assess the training capabilities of all of the BTS training academies. 
The Committee will use a two-phase methodology to identify the training 
assets and to develop a plan for operating the facilities employed by 
each of the Directorate's bureaus, and will also include the Coast 
Guard, Secret Service, and the Bureau of Citizenship and Immigration 
Services. The operational plan will provide the framework for 
coordinating academy training in all BTS bureaus. The Committee will 
develop and submit a report at the conclusion of each phase. Once the 
Committee has identified all of the BTS training capabilities, FLETC 
can develop a more definitive utilization plan for Artesia and all 
other sites.
                     purchase of the town of playas
    Question. Approximately 1 week ago, I sent you a letter suggesting 
the Department of Homeland Security purchase the town of Playas for the 
training of state and local first responders.
    As you are aware, Playas is a deserted company town in Southern New 
Mexico that could be used as a real world anti-terrorism training 
center.
    Playas incorporates almost 260 homes, several apartment buildings, 
a community center, post office and airstrip, a medical clinic, 
churches and other typical small town structures.
    This town would cost the government $3.2 million dollars--a bargain 
that should not be passed up. While Federal law enforcement has access 
to modern training facilities at FLETC, state and local first 
responders do not have access to the same quality of facilities. Playas 
can meet this vital need in a cost-effective manner.
    Currently, New Mexico Tech, a member of Homeland Security's 
National Domestic Preparedness Consortium, has put together a proposal 
for the Department of Homeland Security through their Office of 
Domestic Preparedness to purchase Playas.
    Question. What role do you foresee Playas playing in the defense of 
our homeland?
    Answer. At this time, a decision as to the role of Playas is 
undetermined, although the site could have potential value in a 
national training architecture. Playas' usefulness as a location for 
homeland defense preparedness training must first be assessed through a 
feasibility study to determine if acquisition of the property will make 
a contribution to the national first responder training program.
    Question. Will you evaluate the feasibility of using Playas as a 
training site for State and local first responders before we lose this 
unique opportunity?
    Answer. A feasibility study to determine the potential use of 
Playas as a training center would be the first step in the decision-
making process. If upon review of the completed feasibility study a 
decision is made to move forward with utilizing the property for a 
training facility, a detailed plan will be developed to determine the 
most advantageous manner in which to acquire the property. This would 
be a lengthy process given the many legal issues involved, particularly 
if the decision is for the Federal Government and ODP to purchase or 
lease the property.
                          national guard issue
    Question. I have been told that the Department of Defense has 
decided to terminate National Guard support to the Department of 
Homeland Security's border inspection operations. I believe that the 
National Guard has been an intricate partner with Customs for well over 
a decade, providing the extra hands necessary to help inspect cargo at 
our land borders, seaports, and mail facilities. I believe there are 
approximately 350 National Guardsmen working alongside Customs in this 
capacity, at any given time.
    This work is of particular importance to New Mexico on our border 
with Mexico. There are approximately 52 guardsmen along the New Mexican 
border supporting a total of 90 plus Customs, Immigration and 
Agriculture inspectors. It is my understanding that for every guardsman 
who works searching cargo or screening mail allows an extra Department 
of Homeland Security (DHS) inspector to be on the frontlines looking 
for terrorists.
    As I understand, the Defense Department would like to place these 
guardsmen in positions (along the U.S. border) that are more ``military 
unique'', such as intelligence collection.
    Is now the time for DOD to move these guardsmen from these critical 
positions?
    Answer. In September 2002, DOD officially informed the U.S. Customs 
Service, now Bureau of Customs and Border Protection (BCBP), that they 
would discontinue funding National Guard counternarcotics support of 
BCBP's Cargo and Mail Inspection operations (the only BCBP operations 
supported by National Guard soldiers) effective September 30, 2003. DOD 
subsequently changed this date to September 30, 2004. The reason for 
discontinuing the National Guard support, as stated by DOD officials, 
is that they wish to phase out all National Guard counternarcotics 
support that does not require unique military skills.
    As a result of the September 2002 notification, aggressive hiring 
strategies to offset any negative impact of losing National Guard 
support were implemented. Through regular appropriations, supplemental 
funding and an overall increase in our inspector corps as a result of 
the March 1, 2003 transition to BCBP, our agency is prepared to do 
without National Guard support beginning October 1, 2004.
    Question. Shouldn't we be increasing the number of guardsman at our 
borders?
    Answer. As a result of the significant increase in BCBP staffing, 
as outlined above, it is not necessary to retain National Guard support 
at our borders, nor is it necessary to increase the number of National 
Guard soldiers at the border locations. BCBP welcomes National Guard 
support beyond September 30, 2004, but the support is not critical for 
BCBP to accomplish its mission.
    Question. If DOD pulls the Guard from the border will DHS need more 
funding to replace personnel?
    Answer. No. Through regular appropriations, supplemental funding 
and an overall increase in our inspector corps as a result of the March 
1, 2003 transition to BCBP, our agency is prepared to do without 
National Guard support beginning October 1, 2004.
                                 ______
                                 

         Questions Submitted by Senator Ben Nighthorse Campbell

                            first responders
    Question. A portion of your budget is dedicated to managing the 
Department's First Responder initiative, and providing grants for 
preparedness. Within this initiative, you plan to award grants to 
states to address the equipment, training, planning and exercise needs 
(as recognized in their updated response plans, which identified goals 
and objectives for preparedness, State and local enforcement anti-
terrorism initiatives, and Citizen Corps preparedness activities). What 
do you believe is the most efficient way to get funding into the hands 
of those first responders, who so desperately need it?
    Answer. There have been many concerns from the government as well 
as first responders in the field regarding the grant funding reaching 
local jurisdictions in a timely manner. Therefore, the fiscal year 2003 
State Homeland Security Grant Program I (SHSGP I) and SHSGP II 
incorporate a strict timeline to facilitate the release and obligation 
of this funding. Also, as mandated by Congress, 80 percent of the 
equipment funds in the SHSGP I, and 80 percent of the total amount of 
the grant to each state in the SHSGP II, must be provided to local 
units of government. The required bi-annual Categorical Assistance 
Progress Reports for both grant programs must reflect the progress made 
on providing those funds to local jurisdictions.
    Question. Can you explain to me the process in place for awarding 
the grant program?
    Answer. The fiscal year 2003 State Homeland Security Grant Program 
I (SHSGP I) application kit was posted online on March 7, 2003. States 
had to submit their applications to ODP within 45 days, by April 22, 
2003. Applications were reviewed at ODP within 7 days of submission. 
Once approved by ODP, grants will be awarded to the States within 21 
days. States have 45 days to obligate funds from the time the grant is 
awarded.
    The SHSGP II application kit was posted online April 30, 2003. 
States must submit their applications to ODP within 30 days, by May 30, 
2003. Applications will be reviewed at ODP within 7 days of submission. 
Once approved by ODP, grants will be awarded to the States within 21 
days. States have 45 days to obligate funds from the time the grant is 
awarded.
                 transportation security administration
    Question. In the hours following the attacks on the Pentagon and 
the World Trade Center, it was clear that the lines of communication 
between everyone involved in air travel--the FAA, Federal authorities, 
airlines, and customers--was severely deficient, if not to say 
completely inadequate. What steps have been taken to improve this so 
that information moves quickly and accurately from the air traffic 
controllers to the airlines to the passengers, and most importantly, to 
the appropriate agencies in the event of another emergency?
    Answer. The communications flow between air traffic controllers, 
airline corporate headquarters and security divisions, Department of 
Defense, and other Departments occurs under processes established among 
the Federal Aviation Administration, Transportation Security 
Administration, Department of Homeland Security, and the Department of 
Defense. In cases where there is a known threat to aviation security, 
the agency that identifies the threat establishes communications with 
the other agencies via established conference calls, at which time all 
command centers are brought into a coordination conference call. In 
addition to these interagency conference calls, each agency initiates 
calls within its own organization for coordination with internal 
response and information sources to build and maintain situational 
awareness. The Transportation Security Administration establishes 
direct links to internal and external agencies via secure and non-
secure means for information gathering and direction. The communication 
systems are tested regularly to identify and correct glitches in the 
lines of communication so that we are confident there will not be any 
problems in a real emergency. At the end of every test, we conduct an 
outbrief to review the exercise and identify areas for improvement. 
These communications links encompass the full spectrum of agency 
capabilities to respond to any threat to aviation security. Additional 
details on the secure elements of the communication links can be 
provided in a classified setting.
                              air marshals
    Question. On September 11th, it became apparent that our nation's 
protectors of the commercial skies, the U.S. Air Marshals, needed to be 
in better communication--not only with their superiors but also with 
each other. Who knows what could have been averted, and how many lives 
could have been saved had communications technology been available.
    I know that over the past year or so, the TSA has been working with 
technology companies in order to develop a communications system that 
allows the air marshals to communicate in real time with officials on 
the ground, as well as other air marshals stationed on other commercial 
aircraft. I think this is necessary so that our air marshals are not 
isolated at 30,000 feet.
    Do you have any knowledge of the progress of this technology 
development?
    Answer. Pursuant to House Conference Committee Report 107-593, 
TSA's Federal Air Marshal Service (FAMS) was provided $15 million to 
begin implementation of an Air to Ground Communications program. TSA 
intends to utilize this funding to purchase a Commercial Off-the-Shelf 
(COTS) product, which includes hardware and software, for 
implementation of the Air to Ground communications system. This initial 
system will allow FAMS to utilize a portable, quickly deployable air to 
ground communications system which will seamlessly integrate existing 
FAMS wireless technology. This comprehensive wireless communications 
system may also be used by other local, State, and Federal agencies, 
and the Department of Defense, to achieve secure communications through 
a dedicated law enforcement network.
                           baggage screeners
    Question. The TSA recently announced plans to eliminate 3,000 more 
airport screening jobs by the end of September, coupled with 3,000 
others announced in March, amount to about 11 percent of the 55,600 
screeners employed.
    This plan will save the TSA an estimated $280 million. I applaud 
the TSA's effort to trim their budgetary needs, however, is a good idea 
to cut the work force and putting some workers on part-time hours? Do 
you believe this to be a wise decision at this time?
    Answer. TSA acknowledges the requirement to reduce and re-
distribute some of the screener workforce. Getting the right number of 
screeners at airports will continue to be a management challenge. It 
will be essential for us to use our work force in a flexible manner if 
we are to avoid long lines after the reduction. Part time employees 
will be essential for staffing checkpoint lanes during peak periods. 
Through the implementation of good management principles and practices, 
TSA will be able to maintain its charter of world-class security with a 
more efficient, more effective screener workforce.
    Question. Will we still have enough workers to screen 100 percent 
of the bags?
    Answer. Yes. The resulting workforce, made up of full and part time 
employees, will be able to electronically screen 100 percent of the 
bags when the balance of baggage screening equipment is deployed to the 
remaining airports.
                        air traffic controllers
    Question. A year ago, we discussed the need for accountability in 
the security screeners and airport employees as a whole. Then Congress 
passed the Aviation and Transportation Act which federalized those 
employees. Recently, President Bush issued an executive order that 
deleted the clause in a previous order signed by President Clinton that 
described air traffic control as an ``inherently governmental 
function.'' The Administration has proposed studying whether to hire a 
private company to take over the air traffic control system. What 
effect will privatizing the Air Traffic Controllers will have on the 
current system?
    Answer. Because the safe operation of the Nation's air traffic 
control system is the responsibility of the Federal Aviation 
Administration (FAA), an agency within the Department of Transportation 
(DOT), this question is more appropriately addressed to that agency.
    Question. Do you believe it will solve current issues, or create 
problems?
    Answer. Because the safe operation of the Nation's air traffic 
control system is the responsibility of the Federal Aviation 
Administration (FAA), an agency within the Department of Transportation 
(DOT), this question is more appropriately addressed to that agency.
                   cross-check of passenger identity
    Question. When passing the Aviation and Transportation Act, 
Congress felt the need to include the Computer Assisted Passenger Pre-
screening System (CAPS II). CAPS II would scan government and 
commercial databases for potential terrorist threats when a passenger 
makes a reservation. Under this program, passengers will be required to 
provide their full name, address, telephone phone number, and date of 
birth. The airline computer reservation system will then automatically 
link to the Transportation Security Administration (TSA) for a computer 
background check that can include credit, banking history, and criminal 
background checks. The TSA will then assign a score to the passenger 
based on the agency's risk assessment of the traveler.
    However, the Office of Management and Budget (OMB) has doubts about 
the project and believes that there may be better use for the money 
slated for this project, and has the power to remove the project if 
they deem appropriate. Not to mention the potential infringement on 
personal privacy, and the possibility for mistakes effecting innocent 
people.
    Do you believe the CAPPS II program is necessary, and what are you 
doing to ease the OMB's worries regarding the program's effectiveness 
and operation?
    Answer. Yes, TSA believes that the CAPPS II program is necessary. 
Not only will it enhance security, but it will improve security 
resource allocation (including screeners and FAMs) and it will relieve 
the airlines of the burden of running the current CAPPS program 
(estimated at $150-200 million annually). TSA has submitted a Business 
Case for CAPPS II which is under review.
                  qualified antiterrorism technologies
    Question. The Homeland Security Act of 2002 (Sections 862) provided 
the Department of Homeland Security with authority to compile a list of 
``qualified antiterrorism technologies'' that would qualify or receive 
certain protection under that Act. Has this list been compiled? If not, 
why?
    Answer. The list of ``qualified antiterrorism technologies'' has 
not yet been compiled. The regulations to govern implementation of the 
SAFETY Act must be completed before the SAFETY Act can be implemented. 
Promulgation of these regulations is a high priority, and DHS is 
working with the Office of Management and Budget (OMB) to finalize an 
initial set of SAFETY Act regulations. We expect to publish these 
regulations for comment very shortly. Following the public comment 
period, the regulations will be finalized and issued. As soon as the 
regulations are issued, applications can be made to DHS for 
consideration of possible technologies that are determined to meet the 
criteria set forth in Subtitle G, Sec. 862.
    Question. If this list has been compiled, can Members of this 
Committee get a copy of this list?
    Answer. This list has not yet been compiled; please see answer to 
Question BTS-S56 for current status.
    Question. How would a company that has an antiterrorism technology 
be considered for approval?
    Answer. DHS has developed plans for both an immediate 
implementation path, and for a longer-term ``ideal state'' process, to 
implement the SAFETY Act. Public notification of the application 
process and of the select categories of technologies that will be 
considered for certification will be made through the DHS website after 
regulations are issued.
    Question. Do they need to wait for the rulemaking process to be 
completed to apply for approval?
    Answer. Yes, companies will need to wait until after the rulemaking 
process has been completed. DHS does not yet have an application or 
approval process in place. Final application and approval processes are 
contingent upon issuance of regulations. DHS wants to ensure that 
applicants are well informed about requirements so that they can make 
informed decisions regarding submitting their technologies for 
consideration
    Question. If so, when will that process be completed?
    Answer. Until DHS and OMB have completed their review and issued 
guidance for the actual implementation of the SAFETY Act, it is not 
possible to determine an actual date for completing the process. 
However, the Department does place a high priority on completing the 
necessary guidance and regulations and is prepared to act quickly after 
issuance of the guidance.
                            border security
    Question. This Directorate arguably has one of the toughest jobs in 
the Department. Ideally, if this Directorate performs its job to 
perfection, then the concerns of terrorists coming into our country to 
attack our citizens or our infrastructure are reduced to a great 
extent. With 7,500 miles of land borders with Canada and Mexico and 
95,000 miles of coastline to keep watch over, short of building a large 
wall around the country, how much success have you had in strengthening 
our border security?
    Answer. The priority mission BCBP is to detect and prevent 
terrorists and terrorist weapons from entering the United States at and 
between Ports of Entry (POEs) while simultaneously facilitating 
legitimate trade and travel.
    In order to carry out its priority mission, BCBP has developed and 
is implementing Smart Border initiatives with other nations and with 
the private sector, such as the Container Security Initiative (CSI), 
the Customs-Trade Partnership Against Terrorism (C-TPAT), NEXUS, and 
the Free and Secure Trade (FAST) Program, and will continue to push our 
zone of security outwards.
    Our layered inspection process and the components of a Smart Border 
include:
  --Advance electronic information
  --Automated targeting tools
  --Identifying and facilitating low-risk travelers and shipments
  --Non-intrusive inspection technology
  --Industry partnerships
  --Training
  --Pushing security beyond our borders
    BCBP uses various large-scale, portable and hand-held technologies 
in different combinations to substantially increase the likelihood that 
a nuclear or radiological weapon or weapons grade material will be 
detected. We have identified and are deploying nuclear and radiological 
detection equipment to include personal radiation detectors, portal 
radiation monitors and radiation isotope identifier devices.
    In combination with our layered enforcement process, these tools 
currently provide BCBP with significant capacity to detect nuclear or 
radiological materials.
    Additional initiatives include, but are not limited to:
  --Training to further develop a highly skilled and trained workforce;
  --Sensors to remotely monitor low volume ports of entry; and
  --Exchange of intelligence and information to identify potential 
        nuclear and radiological smuggling threats.
    Our goal is to examine 100 percent of all high-risk cargo and 
conveyances and to screen all high-risk people, cargo and conveyances 
for radiation. The Border Patrol, a component of the Bureau of Customs 
and Border Protection, is responsible for preventing the illegal entry 
of any persons crossing between the ports of entry along the 8,000 
miles of international border with Canada and Mexico. To accomplish 
this enormous mission, there are currently over 10,000 agents deployed 
on the border to deter, detect, and apprehend any illegal entrants at 
the border. These dedicated agents have historically arrested in excess 
of 1,000,000 illegal entrants annually. In order to improve the 
enforcement effectiveness of these agents, the use of technology and 
enhanced detection systems are continuing to be deployed along the 
border. In addition to the technology, additional border barriers, high 
intensity lighting units and improved border roads have been used to 
assist the agents in providing the maximum in border security measures 
between the ports of entry. The success of these measures has recently 
lead to reductions in illegal entry arrests along certain major border 
areas, as well as the continued disruption of organized smuggling 
efforts on the border.
    Question. Are any of these projects visible to our country's 
citizens to make them feel safer?
    Answer. BCBP has developed a multi-layered process to target high-
risk shipments while simultaneously facilitating legitimate trade and 
cargo. Our Smart Border initiatives include components that are 
invisible to a majority of the traveling public. These include 
cooperative efforts with other nations to push security beyond our 
borders, advance electronic information, automated targeting tools, 
intelligence and partnering with industry.
    Portions of our layered enforcement process are highly visible to 
the general public. These include our inventory of hand-held, portable 
and large-scale non-intrusive inspection (NII) technologies deployed to 
our nation's air, land and seaports of entry, as well as the additional 
personnel and canine resources necessary to support the technology.
    Many of the Border Patrol's newest assets are visible to the 
citizens who reside in our many border communities. Those assets 
include the latest in state of the art helicopters, which frequently 
patrol over these communities. In addition, there are infrastructure 
improvements in fencing, checkpoint facilities and expanded canine 
units for locating persons and contraband hidden in vehicles and train 
boxcars. Also visible to our citizens is the increase in the number of 
agents patrolling in marked sedans and four-wheeled drive trucks along 
the border. In addition, every Border Patrol sector has a community 
out-reach program to educate and inform the local communities of the 
activities of the Border Patrol and to reassure the citizens of the 
Patrol's efforts in providing security along the border of the country. 
While many of the assets used by the Border Patrol are not readily 
visible to the public, such as surveillance and detection equipment, 
the results of the increased presence of agents along the border 
continues to be favorably noted by the local media and civic 
organizations in many border communities.
                                 ______
                                 

             Questions Submitted by Senator Robert C. Byrd

                        expiration of cobra fees
    Question. The COBRA fees--which fund nearly all overtime for the 
legacy Customs inspectors among others--expire at the end of this 
fiscal year. Have you submitted legislation to the appropriate 
authorizing committees and discussed with them the need for the 
extension of these fees? Also, what contingency plans, if any, do you 
have in place to cover the costs of the current COBRA-funded functions 
should the fees not be extended in time?
    Answer. We have briefed both the House Ways and Means Committee and 
the Senate Finance Committee staffs on the need for an extension of the 
COBRA fees, and both Committees have developed proposals to extend the 
fees. The expiration of the COBRA fees will present numerous problems 
for BCBP, as well as fee paying parties-in-interest. Other existing 
statutes require that airlines be billed for overtime services and 
preclearance (19 USC 267 and 31 USC 9701) and that foreign trade zones 
and bonded warehouses be billed for inspectional and supervision 
services (19 USC 81n and 19 USC 1555). Other charges, such as fees for 
reimbursement of compensation of boarding officers under 19 USC 261 
will also need to be reinstated. These statutes are held in abeyance 
while the COBRA fees are in effect (see 19 USC 58c(e)(6)). While the 
reimbursements from these other statutes would offset some of the 
losses from the expired COBRA fees, the amounts are not expected to be 
significant. If the COBRA fees expire, service to international 
passengers and the trade would need to be reduced to a level 
commensurate with available funding.
    It should also be noted that the failure to reauthorize the fees 
provided for under the COBRA statute (19 USC 58c) will result in an 
additional loss in collections of approximately $1 billion annually. 
This represents the Merchandise Processing Fees, which are deposited 
into the General Fund of the Treasury as an offset to the commercial 
operations portion of the BCBP budget.
 legacy custom service and immigration and naturalization service fees
    Question. A significant portion of the budgets of the new Bureaus 
of Customs and Border Protection and Immigration and Customs 
Enforcement are based on the assumed collection of fees from the legacy 
Customs Service and Immigration and Naturalization Service. What 
happens if these fees do not materialize or materialize at levels lower 
than estimated? How do you intend to bridge that funding gap should one 
occur?
    Answer. If funding shortages occur because of smaller fee receipts, 
BCBP will adjust the level of inspection services accordingly in order 
to function within available resources.
                 anti-dumping authority (bice and bcbp)
    Question. What is the expected cost in fiscal year 2003 of 
administering the anti-dumping authority in section 754 of the Tariff 
Act of 1930 (19 USC 1675c)?
    Answer. While enforcement of the Tariff Act is a major priority of 
the BCBP, its efforts to enforce this legislation cut across many 
different programs and organizations which are concurrently performing 
a variety of trade compliance functions within BCBP. Therefore, the 
cost of BCBP's enforcement efforts in this area is not easily tracked 
or monitored in a way that enables BCBP to provide a quick and easy 
answer to this question. Ultimately, any answer would be an estimate of 
BCBP's costs.
                            budget documents
    Question. The budget justification documents for BCBP and BICE do 
not include detailed legacy information on the agencies/accounts broken 
out in a manner similar to that which used to be provided by the former 
Customs Service. Was information provided to the Department by the 
former Customs Service staff prepared in that format? Please provide 
the Subcommittee with a copy of that submission to assist us in tracing 
the budgets from fiscal year 2003 to fiscal year 2004?
    Answer. The former Customs Service did not provide a draft of the 
fiscal year 2004 budget to the Department in its traditional format.
                           dhs first 100 days
    Question. Secretary Ridge noted in his list of the Department's 
accomplishments for the 1st 100 days that BCBP had ``acquired and 
deployed additional ``A-STAR'' and ``HUEY'' helicopters to bolster 
enforcement efforts along the U.S. Southern border''. With what fiscal 
year funds were these aircraft purchased? Are other rotary or fixed-
wing aircraft in the procurement pipeline? If so, where is their 
planned deployment?
    Answer. The purchase of the additional ``A-STAR'' helicopters was 
made in fiscal year 2002 with funding received from counter-terrorism 
supplemental appropriations in that year. The ``HUEY'' helicopters were 
obtained through the military on-loan program for special operations 
and tactical training requiring the mission capabilities of that 
aircraft. The deployment of the ``HUEY'' helicopters to bolster border 
enforcement operations occurred in fiscal year 2002.
              national capitol region airspace protection
    Question. Last week, in his commemoration of the first 100 days of 
the new Department of Homeland Security, Secretary Ridge noted that the 
Department's Bureau of Immigration and Customs Enforcement Office of 
Air and Marine Interdiction has, ``provided 24-7 airspace security 
coverage over Washington, D.C.'' I understand that Blackhawk 
helicopters were transferred to this area to provide this ``airspace 
security''. How many assets have been assigned to this region and from 
which parts of the country are they being borrowed? How long are they 
expected to be assigned to this region? What are the impacts on the on-
going operations at the other regions from which these assets have been 
borrowed? Is there a long term ``fix'' in the planning stages for this 
problem? Does the Department intend to establish an air security branch 
for the National Capitol Region?
    Answer. The Bureau of Customs and Immigration Enforcement (BICE), 
Office of Air and Marine Interdiction (OAMI) is providing two Blackhawk 
helicopters and two Citation Tracker aircraft with associated aircrews 
and support personnel for National Capital Region (NCR) air security 
operations. Additionally, OAMI is providing Detection Systems 
Specialists (DSSs) and four operator consoles from the Air and Marine 
Interdiction Coordination Center to establish and provide 24-7 law 
enforcement air surveillance to the NCR. These assets are drawn from 
throughout the OAMI program and are rotated on a regular basis to 
minimize the impact to any one sector. The impact on aircraft 
maintenance at the other regions is the reduction of man-hours. There 
is no expectation of this mission terminating.
    Question. Given the importance of all of these missions, as well as 
the limited number of Department air assets, why are no funds requested 
in your fiscal year 2004 budget for additional aircraft? Further, if 
you decide to create a National Capitol Region program, how much money 
is required to do so?
    Answer. The Department of Homeland Security's fiscal year 2004 
budget will leverage existing assets to accomplish this mission.
                  restructuring air and marine program
    Question. What are the plans for updating and restructuring the Air 
and Marine program? Will pilots who train and graduate from the same 
academy as agents be eligible to become 1811's? Will there be any 
equipment upgrades? Will there be new offices set up in the New York 
Metro and National Capitol Region? Will new offices with assets in 
these areas be cost effective in the event of changing security levels?
    Answer. In addition to NCR coverage, OAMI has developed plans to 
expand air security and interdiction operations beyond the traditional 
southern focused alignment to include the Northern Border. Currently 
OAMI has a ``permanent'' temporary air unit in the Northwest and 
routinely deploys air units to other Northern Border locations. Also, 
in order to meet the increased demands from Northern Border operations, 
OAMI plans to increase the capacity of the OAMI national training and 
standardization center to include flight simulators. This will increase 
the safety and proficiency of OAMI personnel.
    BICE Special Agents, Pilots, Air Interdiction Officers, Air 
Enforcement Officers and Marine Enforcement Officers attend and 
graduate from the Federal Law Enforcement Training Center. Graduation 
from this academy qualifies personnel as Criminal Investigators (1811).
    The OAMI Modification Plan is a living document and currently under 
revision. Previous versions have been forwarded to OMB and Congress for 
consideration. This includes equipment upgrades as well as 
recapitalization of aircraft and vessels. OAMI has a standing 
requirement to upgrade operational equipment to keep pace with 
technological advancements.
    Currently there are no plans to set up additional offices in New 
York City other than the existing Air Unit. However, AMI has 
established a communication and radar surveillance infrastructure for 
the New York City area that can be easily accessed and used for 
training or operational events. There is a plan for a National Capital 
Region Air Branch and NCR Coordination Center.
                          operation greenquest
    Question. By all accounts, the on-going anti-terrorism initiative 
known as ``Operation Greenquest'' is working quite well. However, there 
have been rumblings that the FBI may be attempting to take control of 
the Operation from the Department's Bureau of Immigration and Customs 
Enforcement. Is this true? If so, does the Department support shifting 
control of the program from legacy Customs to the FBI? For what reason? 
What is the status of negotiations with other Departments and agencies 
regarding terrorism financing (Operation Greenquest) and Narcotics 
investigations (Title 21)? Are you pushing to ensure that ICE Agents 
retain this authority?
    Answer. In an effort to unify the U.S. Government's war against 
terrorist financing, the Departments of Homeland Security and Justice 
entered into a Memorandum of Agreement (MOA) on May 13, 2003. This MOA 
assigns lead investigative authority and jurisdiction regarding the 
investigation of terrorist finance to the Federal Bureau of 
Investigation (FBI).
    Those cases that are determined to be ``terrorist financing'' cases 
will be investigated only through participation by the Bureau of 
Immigration and Customs Enforcement (BICE) in the FBI Joint Terrorism 
Task Forces (JTTF). All appropriate BICE-developed financial leads will 
be reviewed by the FBI, and if a nexus to terrorism or terrorist 
financing is identified, the leads will be referred to the JTTF under 
the direction of the FBI's Terrorist Financing Operations Section 
(TFOS). There are no provisions in the current agreement between DHS 
and DOJ that allow for delegation of authority of terrorist financing 
investigations.
    In accordance with BICE's independent authority and jurisdiction 
relative to other financial crimes and money laundering investigations, 
BICE will be the lead investigative agency for financial investigations 
that are not specified as ``terrorist financing'' cases. BICE will 
continue to vigorously and aggressively proceed with its DHS mission to 
target financial systems that are vulnerable to exploitation by 
criminal organizations, and to protect the integrity of U.S. financial 
infrastructures.
                      aqi fumigation investigation
    Question. The Agriculture Department's Animal and Plant Health 
Inspection Service--Agriculture Quarantine Inspection (AQI) program was 
transferred by law to the Department of Homeland Security. However, the 
investigators who follow-up, review and investigate the importation of 
prohibited goods from prohibited countries remain part of the 
Agriculture Department. Similarly, the personnel responsible for 
fumigation, following the discovery of pests, remain at USDA. Does this 
make sense? Is the Administration considering a legislative fix to 
correct this contradiction?
    Answer. The separation of mutually dependent program functions, 
such as the USDA investigators and personnel responsible for 
fumigation, from the AQI program transferred to the DHS is problematic 
and requires high levels of cooperation, communication, and 
coordination at multiple levels. To facilitate this, DHS and USDA 
addressed issues early by including relevant Articles in a Memorandum 
of Agreement (MOA) required by the Homeland Security Act of 2002. 
Specifically, there are Articles for separating functions and then 
coordinating these functions once separated. Further, additional and 
more specific agreements are necessary and are being developed. The MOA 
will be periodically reviewed and modified as mutually agreed to by DHS 
and USDA. Through the MOA and additional, more specific agreements, DHS 
and USDA will have an opportunity to re-adjust the assignment of 
program functions and responsibilities to maximize collective ability 
to carry out respective missions. Program officials from both DHS and 
USDA are working together to accomplish this. Legislative fixes offer 
another means to accomplish necessary and beneficial re-adjustments and 
changes. DHS Agricultural Inspection Policy and Program staff is not 
currently working on developing legislative fixes.
   justice department's recent decision regarding illegal immigrants
    Question. On April 24, Attorney General Ashcroft announced that his 
agency has determined that broad categories of foreigners who arrive in 
the U.S. illegally can be detained indefinitely without consideration 
of their individual circumstances if immigration officials say their 
release would endanger national security. Apparently, Homeland Security 
officials appealed that decision but their objections were overruled by 
the Attorney General. There are significant costs that are born by 
detaining illegal immigrants until their eventual deportation. For 
instance, it is estimated that the detention of Haitians in Florida 
over a 6 month period has cost the Department $12.5 million. Given that 
the Justice Department decision could have a significant impact on the 
Homeland Security Department's budget, how will the costs of these 
policy decisions be paid and by whom? Is the Department making further 
appeals of the Justice Department's ruling in this case?
    Answer. BICE is fully supportive of the decision by the Attorney 
General to allow national security implications to be considered as 
part of bond determinations. This decision was requested by BICE in the 
face of a recent Board of Immigration Appeals (BIA) decision which had 
ruled that bond determinations could only be based on individual 
circumstances.
                         detention and removal
    Question. The fiscal year 2004 budget request for detention and 
removal activities appears to be cut by $37.4 million below the level 
appropriated in the fiscal year 2003 Omnibus Act. Given Attorney 
General Ashcroft's decision to permit the detention--on national 
security grounds--of entire categories of aliens found entering or 
residing in the United States, as well as the already relatively 
crowded conditions at ICE detention facilities across the country, how 
can the Department justify any reductions in this activity? Will the 
Justice Department provide additional funds to bridge any potential 
resources gaps or will this just become yet another unfunded mandate?
    Answer. As stated previously, BICE is fully supportive of the 
decision by the Attorney General to allow national security 
implications to be considered as part of bond determinations. This 
decision was requested by BICE in the face of a recent Board of 
Immigration Appeals (BIA) decision which had ruled that bond 
determinations could only be based on individual circumstances.
    There were two significant reductions to the funding level for the 
fiscal year 2003 Detention and Removal budget. In the appropriate 
account, $615 million identified for the Office of the Federal 
Detention Trustee was reduced by $22 million in the Conference Report. 
In the User Fee account, Detention and Removal funds were reduced by 
$5.6 million due to a decrease in expected User Fee revenue. As a 
result, 1,081 beds would have to be reduced. If a reduction in beds is 
necessary, the result will be 9,729 fewer aliens being detained. For 
aliens in detention, approximately 92 percent are removed, while 
approximately 13 percent of aliens on the non-detained docket are 
removed. Thus, the reduction in 1,081 beds may result in 7,686 fewer 
removals.
                           letters of intent
    Question. The fiscal year 2003 Iraqi War Supplemental (Public Law 
108-11) included a provision allowing the Under Secretary for Border 
and Transportation Security to issue letters of intent to airports to 
provide assistance in the installation of explosive detection systems. 
What is the status of this issue? Is the Office of Management and 
Budget delaying the issuance of these letters?
    Answer. TSA has received OMB approval to begin using the LOI 
process. Once an LOI is established, TSA and the relevant airport 
development authority enter into a Memorandum of Agreement (MOA) to 
outline the specific details of the work to be accomplished to complete 
an in-line explosive detection system (EDS) solution.
                        high threat urban areas
    Question. Just last week the Office for Domestic Preparedness 
released the application kit for the $100 million High Threat Urban 
Area program that Congress funded in the fiscal year 2003 Omnibus 
Appropriations Act. The applications for the seven eligible cities are 
due June 16. By the time the funds get to the cities, it will have been 
at least 4\1/2\ months since the Omnibus bill was signed into law. 
Getting out this first round of money required a lot of work on the 
part of the Department. You had to develop a funding formula from 
scratch, and had to design an application kit. But I'm concerned about 
the next round of funding.
    In the fiscal year 2003 supplemental, Congress appropriated $700 
million for the high threat urban area program. I do not want cities--
and this time it will be more than just seven eligible cities--to wait 
4 months to receive their grants. When will you award the $700 million? 
Congress required that the $700 million be allocated to high threat 
urban areas within 60 days of enactment, which is June 11, 2003. Given 
that applications for the first round of funding are due June 16, can 
the Department award all $800 million at that time? This would prevent 
cities from applying more than once for the same program, and would 
allow for coordinated planning and implementation.
    Answer. Due to concerns from the government as well as first 
responders in the field regarding the grant funding reaching local 
jurisdictions in a timely manner, the grant application for the 
approximately $100 million for the Urban Areas Security Initiative 
incorporates a strict timeline in order to facilitate the release and 
obligation of this funding. The application kit was posted online on 
April 30, 2003, with a deadline for applications due June 16, 2003. The 
additional $700 million referenced in Public-Law 108-11, The Wartime 
Supplemental Appropriations, was not allocated by DHS before April 30, 
2003. On May 14, 2003, DHS announced how the $700 million was 
allocated, identifying the cities that are eligible to participate in 
the program. Therefore, the first application cannot be combined with 
the next application for the $700 million. To expedite the grant awards 
for the $700 million, ODP will again adhere to a strict timeline.
                fire grants and first responder funding
    Question. Mr. Secretary, FEMA--in conjunction with the National 
Fire Protection Association--released a study on January 22, 2002, 
entitled ``A Needs Assessment of the U.S. Fire Service'' which reported 
that only 13 percent of our nation's fire departments are prepared 
handle a chemical or biological attack involving ten or more injuries. 
Last year, FEMA awarded $334 million in fire grants but received more 
than 19,000 applications that requested over $2 billion.
    Given the critical unmet needs of our nation's first responders, I 
simply do not understand the Administration's lack of commitment to 
this program. In fiscal year 2002, the President refused to spend $150 
million approved by the Congress for this program. For fiscal year 
2003, the President proposed to eliminate all funding for the program. 
For fiscal year 2004 you are proposing a 33 percent reduction to the 
fire grants program from the 2003 enacted amount of $745 million.
    Please explain to the Subcommittee why the Administration does not 
view this program as a critical part of our strategy to secure the 
homeland.
    Answer. ODP has been providing Federal assistance to State and 
local emergency responders through grant funding since 1998. Eligible 
disciplines for these grant funds include the fire service, law 
enforcement, emergency medical services, and other emergency services 
disciplines. While the allowable costs for these grants do not include 
hiring of operational personnel such as fire fighters, they do include 
many items related to prevention, response and recovery, such as: 
equipment, exercises, training and administrative staff and overtime 
costs. All of these items are crucial to the support and readiness of 
fire departments.
    The Department of Homeland Security budget request for fiscal year 
2004 includes at least an additional $500 million in grants that 
contribute to firefighter preparedness, as well as $2.5 billion for 
State domestic preparedness grants to provide equipment, exercises, 
strategic planning, and support to the national training and exercise 
program. This amount is in addition to the $566.295 million in State 
domestic preparedness grants available through the fiscal year 2003 
State Homeland Security Grant Program (SHSGP) I, and the $1.5 billion 
in State domestic preparedness grants that is available for the SHSGP 
II. Basic turn-out gear covered under the Fire Act is also equipment 
that would be used in response to a terrorist event, therefore funds 
that are available for the State homeland security grants can be used 
to provide much needed equipment and other direct services to the fire 
fighting community.
                  fiscal year 2003 tsa financial plan
    Question. The Transportation Security Administration advised the 
Congress that we would be provided with a spending plan for how you 
intend to obligate the funds appropriated to your agency for this 
fiscal year. We have now entered the 8 month of this fiscal year--and 
we have yet to be provided with such a spending plan. We are told that 
TSA faces a significant funding shortfall--perhaps in excess of $900 
million. We have not received a supplemental request from the President 
to meet this shortfall. The Administration opposed efforts to add 
funding to the recent supplemental to close the operating deficit. Do 
you believe that TSA can live within its current budget and, if so, 
what steps are you and they taking to live within that budget? Why has 
TSA waited 3 months since enactment of the Omnibus to deliver a plan?
    Answer. Since enactment of fiscal year 2003 Omnibus Appropriations 
Act (Public Law 108-7) in February and the Emergency Wartime 
Supplemental Appropriations Act (Public Law 108-11), TSA has been 
working with the assistance of the Department of Homeland Security and 
the Office of Management and Budget to develop a budget execution plan 
that will meet the needs of the agency within the funding provided.
    Since the establishment of TSA, the agency has confronted a series 
of unforeseen and extraordinary requirements as it worked to meet 
mandated deadlines and to establish normalized business practices. In 
addition, development of a fiscal year 2003 budget plan was 
particularly challenging since the Omnibus Appropriations Act contained 
a large number of earmarks that were not budgeted. The transfer of TSA 
from the Department of Transportation to the Department of Homeland 
Security on March 1 was another unusual dynamic.
    TSA has prioritized its spending needs for fiscal year 2003, 
resulting in a budget plan that has been transmitted to the Congress as 
a reprogramming notification. TSA will adhere to this plan and will 
closely monitor its execution for the remainder of the fiscal year.
                        ins construction backlog
    Question. Please provide the Subcommittee with details on the 
current INS construction backlog.
    Answer. The DHS will begin addressing these backlogs following a 
strategic, multi-year approach.
               private mail radiation detection equipment
    Question. The Department has provided its employees who inspect 
U.S. Postal Service mail with radiation detection equipment. Does it 
also provide similar equipment for employees who inspect United Parcel 
Service and FedEx mail? If not, why not? Is there a plan to provide 
this equipment in the future?
    Answer. The Bureau of Customs and Border Protection (BCBP) 
personnel are equipped with radiation detection devices at FedEx and 
United Parcel Service (UPS) facilities. At the present time BCBP 
personnel use both Personal Radiation Detectors (PRD) and Radiation 
Isotope Identification Devices to screen cargo at both FedEx and UPS 
facilities.
    Both UPS and FedEx are in the process of procuring and installing 
company owned radiation detection devices at overseas locations. Once 
completely installed, this equipment will allow these companies to 
screen all incoming cargo and parcels before entering the commerce of 
the United States. Both companies will be relying on several types of 
equipment, such as Hand-Held Devices and Radiation Portal Monitors, at 
their overseas facilities. The types of radiation screening devices 
used will depend on the size of the facility and amount of cargo 
screened.
   bureau of immigration and customs enforcement: on-going operation
    Question. My staff recently was briefed on an on-going Bureau of 
Immigration and Customs Enforcement activity referred to as ``Operation 
Blue Girard''. Is there money in the fiscal year 2004 budget request 
specifically designated for this activity? If so, how much and for what 
purposes?
    Answer. Operation Blue Girard is one part of a multifaceted port 
security program coordinated by the BICE SAIC/Miami, which falls under 
Operation Enduring Vigilance, which is a comprehensive multi agency 
approach to securing the seaports, cruise passengers and sea cargo in 
South Florida. Agencies from the Federal, State and local governments 
combine resources to address the threat to homeland security and from 
drug or alien smuggling. There is no funding in the fiscal year 2004 
budget request specifically designated for this activity. Funding for 
maritime port security operations such as Operation Enduring Vigilance 
is handled internally within the agency budget process to include 
special operations funding.
     wyden amendment to s. 165--air cargo security improvement act
    Question. During mark-up of S. 165 in the Commerce Committee, 
Senator Wyden won voice vote approval of an amendment requiring a 
report on plans by the Transportation Security Administration to gather 
data on plane passengers. He said he wanted to determine how the 
collection of data impacts civil liberties and privacy. Has the 
Administration taken a position on the Wyden provision? Does it share 
the same concerns about personal privacy and data mining issues?
    Answer. The Administration does not oppose the Wyden provision. TSA 
is committed to ensuring that personal privacy is protected in the 
CAPPS II program and welcomes the opportunity offered by Senator Wyden 
to demonstrate that commitment. With regard to data mining, while the 
Administration believes that it can be an important tool, the CAPPS II 
program will not be involved in data mining.
                       port security assessments
    Question. Have you reviewed the port security assessments that have 
been completed to date to determine if there are patterns in port 
vulnerability that ports generally should begin to address immediately?
    Answer. Review of the port security assessments completed to date 
has yielded valuable preliminary information regarding security 
enhancement requirements. These assessments have identified a number of 
physical security enhancements that were either non-existent or needed 
improvement, such as fencing, lighting, and closed circuit television 
systems. Other common recommendations included: standards for 
transportation worker identifications systems, security plans, 
communications systems, and screening equipment standards for cargo and 
passengers.
               enforcement of intellectual property laws
    Question. The enforcement activities of the Customs Service are 
critical to the health, safety and well being of U.S. citizens and our 
economy. Historically, Customs has been our first line of defense and 
this is reflected by the responsibilities we have given Customs through 
the laws granting it powers to detain citizens and cargo and, if 
necessary, to seize and forfeit goods.
    In the 5 fiscal years from 1998 to 2002, Customs stopped over 
19,700 shipments because of trademark and copyright violations. Customs 
seized over $373.9 million of counterfeit and pirated product. Because 
of the public health and safety risks posed by counterfeits and the 
injury to our commercial enterprises, these enforcement activities 
should continue in order to protect our national economic security.
    In several well-publicized cases, millions of dollars made from 
cigarette smuggling were funneled to terrorist groups. Given that there 
may be numerous priority areas for our new bureaus with border 
responsibilities (Bureau of Customs and Border Protection and Bureau of 
Immigration and Customs Enforcement), where is the issue of product 
counterfeiting and piracy on your list of priorities?
    Answer. Customs and Border Protection's top priority is the 
detection and apprehension of terrorism and terrorism related material. 
Interdiction of counterfeiting and piracy remain a priority because of 
the potential use of money generated from the smuggling of 
counterfeited and pirated goods for terrorist activity
    Question. Also, the security of the United States has many 
dimensions. How are the new agencies--the Bureau of Customs and Border 
Protection and the Bureau of Immigration and Customs Enforcement--going 
to increase the needed protection of our commercial enterprises from 
those who bring counterfeit and illegal products into the United 
States?
    Answer. BCBP has increased protection of commercial enterprises by 
implementing stringent cargo manifest rules, increasing importation 
research, and conducting more high-risk shipment exams.
    Question. The enforcement responsibilities of the Bureau of Customs 
and Border Protection and the Bureau of Immigration and Customs 
Enforcement appear to be distinct; yet, overlapping. How will these two 
bureaus not only coordinate their enforcement efforts but also 
strengthen efforts to stop trafficking in counterfeit and illegal 
products in the United States?
    Answer. The combining of agencies and personnel under DHS will 
increase the research and examination capabilities of each agency. The 
increase of research and investigative personnel leads to a broader and 
more productive work force.
    Question. In fiscal year 2002, Customs stopped over 5,000 shipments 
that involved intellectual property theft, amounting to nearly $100 
million. Will this continue to be an area of enforcement in view of the 
magnitude of the violations?
    Answer. Due to the sheer volume and monetary value of BCBP seizures 
involving intellectual property theft, IPR will continue to be a 
priority. IPR will continue to be a focus for enforcement in order to 
protect the owners of intellectual property and prevent the movement of 
terrorist funds through this illegal activity.
    Question. The U.S. Customs Service has been split between the 
Bureau of Customs and Border Protection and Bureau of Immigration and 
Customs Enforcement. How will this new structure increase the number of 
inspections of containers?
    Answer. The restructuring of BCBP and BICE will potentially 
increase the number of inspections. It will allow for a greater amount 
of personnel dedicated to the research, exam and investigations leading 
to the apprehension of terrorists or others that commit violations of 
U.S. laws and regulations.
    Question. Given the terrorist link, how can the new Department 
better target containers and seize illegal products entering the United 
States?
    Answer. BCBP is able to update and implement targeting systems and 
research shipments related to entities associated with terrorism or 
commodities associated with acts of terrorism. Advanced technology and 
cooperation from foreign countries have increased the targeting and 
interdiction of illegal products from entering the United States.
    Question. In terms of budgeting and personnel and training, what is 
being proposed for fiscal year 2004 compared to the last several years?
    Answer. Current projections for fiscal year 2004 are to train 
approximately 5,000 new inspectors and 2,000 new Border Patrol agents. 
Past training workloads for new recruits are indicated in the table 
below.

----------------------------------------------------------------------------------------------------------------
                                                   Border Patrol        INS         Agriculture       OFO \1\
----------------------------------------------------------------------------------------------------------------
2001............................................           2,100           1,110             192             460
2002............................................           2,000           2,720             308           1,210
2003............................................           1,980           2,960             334           1,830
2004 (est.).....................................           2,000             N/A             432           5,000
----------------------------------------------------------------------------------------------------------------
\1\ With the establishment of DHS, legacy INS, Customs and Agriculture inspectors become part of the Office of
  Field Operations in Customs and Border Protection. Legacy Border Patrol becomes its own office in Customs and
  Border Protection.

    Question. In fiscal year 2002, U.S. Customs seizures of 
intellectual property reached a new record and eclipsed the previous 
year by over 33 percent. Illegal cigarettes shot up from the 5th 
largest commodity to the top commodity being smuggled into the United 
States. Is the large increase in tobacco smuggling due to operations 
run by foreign terrorists?
    Answer. Tobacco smuggling has not been linked solely to the funding 
of terrorist operations. Tobacco smuggling is known to be a profitable 
and highly lucrative cash commodity. However, through the use of BCBP 
databases tobacco shipments can be tracked and monitored for possible 
illicit or terrorist activity when linked to direct intelligence or 
derived from investigations.
    Question. What efforts are you taking to intercept cigarette 
smuggling?
    Answer. Efforts to intercept cigarette smuggling include greater 
scrutiny of imports from international sources known to be lenient to 
smuggling activity as well as importation trends, and the greater use 
of non-intrusive examinations. The use of automated targeting systems 
allows for efficient review of import information. Non-intrusive exams 
are utilized to uncover false compartments or other methods of 
concealment.
    Question. In the fiscal year 2002 appropriations, $800,000 was 
designed for ``tobacco smuggling task forces''? What have the task 
forces done to increase the number of seizures of illegal product?
    Answer. To combat cigarette smuggling, the U.S. Customs Service 
created a Tobacco Task Force at headquarters. Last fiscal year, two 
full time agent positions and one full-time intelligence research 
specialist position were filled. Additionally, one full time agent 
position in Brussels was filled. This agent serves as coordinator with 
related European entities as part of the Tobacco Task Force. The Task 
Force provides coordination and investigative expertise to numerous 
complex international tobacco smuggling investigations involving 
Federal, State and Foreign law enforcement agencies. The Task Force 
provided funding and training in support of joint State/Federal Tobacco 
Smuggling Task Force members and funded an International Cigarette 
Smuggling conference in September 2002 for all disciplines of the U.S. 
Customs Service, to several Federal prosecutors, and to some of our law 
enforcement counterparts from around the world. These efforts have lead 
to a large increase in tobacco related investigations and has 
contributed significantly to the increase in seizures as well. No 
additional appropriations were earmarked for the Task Force in fiscal 
year 2003.
    Question. In the fiscal year 2002 appropriations, $5 million went 
to the Intellectual Property Rights Center and Investigations 
Initiative. Could you please explain their activities and 
accomplishments? How does this investigative unit relate to the new 
bureaus--BCBP and BICE--and how will it increase the likelihood of 
seizures of illegal products?
    Answer. The enforcement of intellectual property rights was a high 
priority trade strategy for the U.S. Customs Service, Office of 
Investigations, throughout fiscal year 2002. Since the reorganization, 
BICE has retained its foremost position. The IPR Center provides 
coordination and expertise to the BICE field offices in IPR-related 
investigations. It is a centralized collection and analysis point for 
allegations of Intellectual Property crime and investigative leads 
generated by law enforcement agencies, industry associations, the right 
holders and the public.
    In fiscal year 2002, the IPR Center funded twelve Special Agent and 
nine Intelligence Research Specialists positions. The IPR Center funded 
positions have allowed the placement of investigative resources in 
Customs Attache offices located in Beijing, Hong Kong, Bangkok, and 
Singapore, as well as, field offices located in Houston, Los Angeles, 
Miami, San Francisco and New York. These resources provided the 
technical expertise and support, which facilitated successful outcomes 
in domestic and foreign investigations.
    During fiscal year 2002, the Center received over 200 incoming 
allegations and complaints from industry sources and right holders. 
After analyzing the information, multiple cases were referred to 
Customs field offices. During this period, the U.S. Customs Service 
initiated over 75 IPR related criminal investigations, which resulted 
in multiple arrests and convictions. In addition, over 85 IPR related 
seizures were effected by the Customs Service.
    During fiscal year 2002, the Center personnel conducted dozens of 
training and outreach activities to domestic and foreign law 
enforcement officials, industry groups and associations. The Center 
personnel are regularly called upon to present the enforcement programs 
in the IPR arena to foreign dignitaries and delegations, who visit the 
United States as part of the State Department's Foreign Visitor Program 
and on other initiatives.
    The Center is one of the leading members of the INTERPOL 
Intellectual Property Crime Action Group, which is a joint industry-law 
enforcement group designed to promote and coordinate IPR enforcement 
around the world. The IPR Center is now part of the Immigration & 
Customs Enforcement. The BICE and BCBP elements involved in the 
enforcement of Intellectual Property laws are continuing their 
respective duties and operational relationship. The Director of IPR 
Center continues to chair the BICE-BCBP IPR Trade Strategy Board 
meetings and represents BICE as the leading component of the joint 
effort in this area.
    Question. Could you provide this Subcommittee with a report 
detailing your plans in fiscal year 2004 for the interdiction of 
illegal products in the United States and how you would measure success 
in this critical area? I would appreciate having such a report within 
30 days for the Subcommittee's use in consideration of the fiscal year 
2004 budget request of the department.
    Answer. BCBP agrees to provide the report.
    Question. One example cited of a decrease in emphasis on 
intellectual property (IP) enforcement is the cancellation of training 
sessions. I am told that several ports of entry including Honolulu, 
Buffalo, Cleveland, Champlain (NY), Detroit, Port Huron (MI), St. 
Alban's (VT), San Francisco/Oakland, and Minneapolis have cancelled 
scheduled IP training sessions. The reason given is that a lack of 
resources and new mission priorities make IPR enforcement a non-
essential activity. Are you aware of these cancellations and don't you 
believe these sessions remain important to the Department's overall 
mission? What figures do you have on the number of training sessions 
cancelled this fiscal year? Should such training be centralized through 
the Department or left to the individual ports?
    Answer. Port directors are free to accept or reject offers of 
product identification training offered by parties-in-interest. Given 
the fact that antiterrorism is, and must continue to be, our first 
priority, field resources have been reallocated to respond to this 
threat, leaving fewer resources available for IPR enforcement. In the 
case of the vast majority of the ports cited, they have not 
historically been major points of entry for IPR violating goods, thus 
the need for such training is not critical to these locations.
    Question. These same companies indicate that Customs inspectors 
familiar with IPR enforcement are being reassigned at alarming rates. 
For example, the Port of Newark, New Jersey reportedly had 40 
inspectors assigned to conduct IP investigations before the move the 
DHS, and now it has one. We have heard that Los Angeles has seen a 
similar reduction. Is this true? Have there been actions at other ports 
to divert agents from IP inspections to other functions?
    Answer. In order to respond to our antiterrorism mission, it has 
been necessary to reallocate resources at all locations.
    Question. What is the effect of changes in the Threat Advisory 
Level to Custom's mission priorities? Has DHS established enforcement 
or operations guidelines for the different security levels? What impact 
does a change from Code Yellow to Code Orange have on the enforcement 
of intellectual property rights?
    Answer. When the nation is at Code Orange, all cargo examination 
criteria which do not have an antiterrorism, national security, or 
public health and safety nexus are suspended.
    Question. The Container Security Initiative (CSI) is designed in 
part to allow Customs to search more cargo containers, better target 
suspect shipments, and still facilitate trade. Will CSI also help in 
the detection of other nefarious products such as drugs and counterfeit 
merchandise, or is it restricted to protecting against weapons? What 
steps are you taking to ensure that programs such as the CSI aren't 
used against the United States to facilitate trafficking in illegal 
goods that don't pose an immediate threat to the public?
    Answer. The twin goals of the BCBP are to increase security and to 
facilitate trade. BCBPs obligation to make our borders and our country 
safer, includes making sure that legitimate goods continue to enter 
efficiently. In order to fulfill our twin goals, we have developed and 
implemented many important initiatives designed to carry out both of 
those goals effectively.
    In a standard CSI in-country team, BCBP officers target with the 
host nation cargo containers destined for, or transiting through, the 
United States. If during the course of the manifest targeting or 
container screening processes the BCBP officer discloses a shipment 
containing goods which violate a U.S. law or regulation, the 
information is transmitted to our National Targeting Center, the port 
of destination, and the appropriate Bureau of Immigration and Customs 
Enforcement office for action.
    The CSI in-country team pre-screens and inspects commodities prior 
to lading in the host nation. Commodities rejected for potential 
weapons of mass destruction (WMD) or terrorist contraband will not be 
permitted to continue on its course to an U.S. port. Furthermore, that 
ship will not be allowed into U.S. territorial waters.
    If, on the other hand, a container is targeted for inspection for 
commercial reasons, and is not inspected in the foreign port, it will 
be inspected when it reaches the intended U.S. port of entry. Under 
this scenario, BCBP officers at the U.S. port of entry will initiate 
the appropriate enforcement and penalty against the member the chain 
supply (carrier, importer).
    Question. In an article posted on its website describing Operation 
Green Quest, Customs States that one of the many criminal enterprises 
used to fund terrorist organizations derive is the sale of counterfeit 
merchandise. To what extent has Operation Green Quest investigated or 
uncovered the connection between intellectual property theft and 
terrorist financing? To the extent that this link has been made, 
shouldn't Customs continue to focus on IP enforcement as a means to 
foreclose counterfeiting and piracy as a source of funding for 
terrorists?
    Answer. Operation Green Quest investigations have revealed that a 
variety of criminal activities serve as funding sources for various 
criminal elements, some of which are alleged to have ties to terrorist 
organizations. Among these are violations of laws protecting 
intellectual property rights and prohibiting the manufacture, 
trafficking and sale of counterfeit merchandise. The Bureau of 
Immigration and Customs Enforcement is conducting several on-going 
investigations involving the use of proceeds derived from the sale and 
trafficking of counterfeit merchandise, alleged to support designated 
terrorist organizations. BICE is committed to investigating any 
violation of Federal law that may be used to fund criminal enterprises.
                                 ______
                                 

             Question Submitted by Senator Patrick J. Leahy

                           airport screeners
    Question. I understand the TSA has finished assessing how many 
screener positions--full- and part-time--are needed at each airport 
around the country and that 6,000 airport security jobs will be trimmed 
by the end of this fiscal year. What is the average percentage of cuts 
taking place at airports nationwide? And what is the percentage of cuts 
you expect at the Burlington International Airport in Vermont? In 
addition, did the cuts planned for Burlington take into account that 
bomb-detection machines are not yet in place at the airport?
    Answer. Nationwide, the percentage reduction of passenger and 
baggage screeners is 11 percent. To screen passengers' baggage at BTV, 
all baggage screening equipment has been deployed and the screener 
workforce at the airport has been hired and fully trained to provide 
the proper operation of this equipment. TSA has taken into account 
BTV's recent receipt of twelve additional Electronic Trace Detection 
machines. TSA is concluding a second round of modeling to determine 
final screener staffing numbers for each airport.

                          SUBCOMMITTEE RECESS

    Senator Cochran. Mr. Secretary, we appreciate very much 
your cooperation with our subcommittee. We had planned to 
continue to review the fiscal year 2004 budget request for the 
Department of Homeland Security on Thursday, with witnesses 
being the Commissioner of the Bureau of Customs and Border 
Protection, the Administrator of the Transportation Security 
Administration, and the Director of the Federal Law Enforcement 
Training Center, but because of schedule conflicts my intention 
now is to try to reschedule that hearing for next week. We will 
make an announcement about our next hearing as soon as 
possible.
    Senator Byrd. Senator, do I understand you, Mr. Chairman, 
to say that the Thursday meeting this week may be rescheduled?
    Senator Cochran. Yes, sir. We will try to reschedule that 
hearing for next week.
    Senator Byrd. I'm glad you're doing that, because the Armed 
Services Committee is marking up the DOD authorization bill at 
the same time Thursday morning that the subcommittee had 
planned that hearing.
    Senator Cochran. I thank you for advising me of that 
conflict. The subcommittee will stand in recess.
    [Whereupon, at 11:52 a.m., Tuesday, May 6, the subcommittee 
was recessed, to reconvene subject to the call of the Chair.]

















  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2004

                              ----------                              


                         TUESDAY, MAY 13, 2003

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:02 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Thad Cochran (chairman) presiding.
    Present: Senators Cochran, Specter, Domenici, Byrd, and 
Murray.

                    DEPARTMENT OF HOMELAND SECURITY

STATEMENTS OF:
        ROBERT C. BONNER, COMMISSIONER, CUSTOMS AND BORDER PROTECTION 
            BUREAU
        ADMIRAL JAMES M. LOY, ADMINISTRATOR, TRANSPORTATION SECURITY 
            ADMINISTRATION
        CONNIE L. PATRICK, DIRECTOR, FEDERAL LAW ENFORCEMENT TRAINING 
            CENTER

               OPENING STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. The hearing will please come to order.
    Today our subcommittee on Homeland Security Appropriations 
continues its hearings on the President's budget request for 
fiscal year 2004 for the Department of Homeland Security.
    This morning, our panel consists of three components of the 
new Border and Transportation Security Directorate. These 
include the Bureau of Customs and Border Protection, the 
Transportation Security Administration, and the Federal Law 
Enforcement Training Center.
    We are very pleased to welcome our witnesses this morning: 
the Commissioner of the Bureau of Customs and Border 
Protection, the Honorable Robert C. Bonner; the Administrator 
of the Transportation Security Administration, Admiral James M. 
Loy; and the Director of the Federal Law Enforcement Training 
Center, Ms. Connie Patrick.
    There is another bureau of the Border and Transportation 
Security Directorate, which is going to be headed by Michael 
Garcia, but he has not yet been confirmed as the head of the 
Bureau of Immigration and Customs Enforcement. No witness was 
available for the Office for Domestic Preparedness which is 
also under the directorate.
    We appreciate your cooperation with our committee, and your 
being here this morning to discuss the budget request for those 
activities under the jurisdiction of your agencies. We 
appreciate the fact that this is a new undertaking for some of 
you in connection with the Department of Homeland Security. 
Others, such as Admiral Loy and Mr. Bonner, have had 
experiences in those agencies, and we appreciate the fact that 
the President and Secretary Ridge have attracted a very 
talented and capable team to run this new Department of 
Homeland Security.
    It is immensely important, the work that is to be done by 
this directorate and the Department, and we are going to 
carefully consider the President's request and hope that we 
will be able to make the correct judgments on allocating the 
limited amount of funding that is available to our 
subcommittee.
    The budget resolution that was adopted limits the amount of 
money that can be spent. And, it is our job to try to identify 
the priorities and to make sure that the money is being spent 
efficiently and in a thoughtful way to protect the security of 
our homeland.
    It is a pleasure, too, as we draw to a close with our 
hearings for this year to work with my good friend, Robert 
Byrd, the distinguished Senator from West Virginia, who is the 
ranking member of the full Committee on Appropriations and 
chose to assume the responsibility as the ranking member on 
this subcommittee.
    I think it indicates the seriousness of the subjects that 
we are dealing with on this subcommittee, and we appreciate his 
assistance and work with us as we carry out our 
responsibilities.
    Senator Byrd.

                  STATEMENT OF SENATOR ROBERT C. BYRD

    Senator Byrd. Mr. Chairman, I thank you for your overly 
charitable remarks concerning me. I am grateful for the 
opportunity to serve with you on this committee. You run a 
tight ship. You are fair and I consider it a real privilege to 
be associated with you in this committee.
    I know of no Senator with whom I could have a greater 
rapport and a better working relationship. I join you in 
welcoming our witnesses to today's hearings. You represent 
three of the four major bureaus that comprise the Border and 
Transportation Security Directorate. All of them have a 
critical role to play in securing our homeland and the 
subcommittee looks forward to hearing from them and to working 
with them.
    The terrorist attacks in Saudi Arabia overnight are a grim 
reminder that there are people in this world who have as their 
aim the destruction of America and the death of its citizens. 
It is a sobering morning.
    These agencies, this department, and, in fact, this 
subcommittee share the duty to do everything possible to 
prevent such attacks from happening within these shores. This 
subcommittee will provide the resources to protect the Nation. 
It is the job of this department to carry out that mission to 
the best of its capabilities.
    Commissioner Bonner has performed ably in his leadership of 
the former U.S. Customs Service. I am pleased that he is 
continuing that performance at the Department.
    Director Patrick is relatively new to her role in leading 
the Federal Law Enforcement Training Center, but she has 
demonstrated her appreciation of the task of training our 
varied law enforcement personnel.
    Admiral Loy did a superb job when he was at the Coast 
Guard, and I appreciate his taking on the daunting task of 
establishing a Transportation Security Administration. However, 
I am troubled that well into the 8 year--8 month of the fiscal 
year, despite a significant shortfall in funding, that Congress 
has yet to receive the spending plan for his agency for this 
fiscal year.
    How can we inquire about his agency's plans for the next 
fiscal year when we have yet to receive information about the 
current fiscal year? I am well aware that the agency is facing 
a budgetary shortfall for this year. And Admiral--and the 
admiral is being forced to make difficult decisions, including 
the laying off of thousands of airport screeners.
    Many members of this subcommittee, including myself, we are 
troubled by the allocation of those cuts. I am disappointed 
that the administration and the OMB have not supported our 
efforts to assist you, Admiral, in bridging your funding gap.
    However, this problem must not be fixed--and I put fixed--I 
say fixed with quotation marks around it. This problem must not 
be fixed by reallocating funds, which the Congress has directed 
to be spent on specific programs. Congressional direction must 
be respected.
    Congress passed several appropriation bills directing that 
this agency take certain steps. The President signed those 
bills into law. In addition, the Homeland Security Act directs 
that funds transferred to the new Department be used for the 
purposes for which they were appropriated. These laws must be 
respected.
    I understand that you are in a very difficult position. You 
have a demanding and important job to do. And we will do what 
we can on this subcommittee under the chairmanship of Senator 
Cochran to provide you with the resources you need to meet your 
mission.
    I only hope that the green eyeshade set downtown is 
listening. We cannot secure the homeland on the cheap. Either 
we are serious about protecting our borders and our 
transportation systems, or we are merely engaged in a public 
relations exercise.
    In addition, as I expressed last week when Under Secretary 
Hutchinson was before this subcommittee, I am concerned that 
the budget for the Transportation Security Administration 
appears to focus the limited resources only on aviation 
security, virtually to the exclusion of other transportation 
systems. Our port, our rail, and other transportation systems 
are also vulnerable to attack.
    And I am committed to doing everything that I can to 
address each of these vulnerabilities. I look forward to the 
testimony this morning, Mr. Chairman, and thank you again.
    Senator Cochran. Senator Domenici, welcome to the meeting 
of this subcommittee.
    Senator Domenici. Thank you, Mr. Chairman.
    Senator Cochran. I am happy to recognize you for any 
opening statement you would like to make.

                 STATEMENT OF SENATOR PETE V. DOMENICI

    Senator Domenici. I appreciate it, just a brief opening 
statement, if you would.
    First, I would like to welcome the commissioner, and 
Admiral Loy, and Director Patrick.
    We are all aware of the events of September 11, and now the 
more recent events, and we know we have a very difficult job 
ahead of us. We must rethink how we do business and how, in 
doing so, to reorganize our government to meet the challenges 
of the future. I believe we have accomplished the first two 
steps in passage of the homeland security bill.
    The next step will be--internal to the Homeland Security 
Department, to bring together all of the pieces of the puzzles 
to make sure that all of the pieces fit.
    It will be our job in this committee to supply you with any 
of the missing pieces, including personnel, equipment, and 
authorities to do your job properly. I look forward to working 
with you--with all three of you in this new Department.
    I would like to highlight just a few areas. First, the area 
I would like to touch upon is border operations. As a Senator 
from a border State, I will work with you, Commissioner Bonner, 
to make sure that you get the proper tools you need to do this 
job.
    It has been 17 years since the Federal Government launched 
a major effort to upgrade the United States' borders, and that 
effort focused only on the southwest border. I have just 
introduced, with many co-sponsors, a border infrastructure and 
technology modernization act.
    This new bill focuses on the borders of both Canada and 
Mexico. The bill has dual goals of facilitating the efficient 
flow of trade, while meeting the challenges of increased 
security requirements.
    It will include more funding for equipment at our land 
borders, additional funding for personnel, funding for 
training, and additional funding for industry-business 
partnership arrangements along the border.
    The future of our border successes lie in modernizing these 
ports of entry, including new modern technology so that they 
are the most modern; not the archaic, ancient border crossings 
that we now have in many places. It is important for the border 
enforcement agencies of the new Department to work with the 
private sector on both sides of the border and reward those 
partners who adopt strong internal controls designed to defeat 
terrorist access to our country.
    My second interest lies in the Federal Law Enforcement 
Training Center, FLETC. It was important that the Federal Law 
Enforcement Training Center was transferred to the new 
department. It is your job to make sure that the transition of 
that bureau of the Treasury Department to the Homeland Security 
Department goes smoothly. It is my understanding that there 
will be tremendous need for training new officers, as well as 
cross-training and advanced training of current employees.
    A few thoughts on FLETC. The DHS needs to catalog all of 
the Department training activities and facilities. It must 
develop short-and long-term plans and analyze agency needs and 
maximize the use of current facilities, and project future 
capacity needs.
    It is very important that Homeland Security use the proven 
resources of FLETC before using non-FLETC facilities. I know 
that FLETC has an ancillary facility in my State, and you know 
about it too, at Artesia, New Mexico. It is growing. It is new, 
and it is playing a very important role. I hope that it will 
continue to operate as an integral part of your mission.
    I have a third interest that I will just briefly mention 
and call it domestic air cargo security. I only mention it 
because I am hopeful that those in charge of it will make use 
of the great capacity of our national laboratories at Sandia 
and Los Alamos and Lawrence Livermore, in helping make this 
transport of domestic air cargo and security as easy as 
possible, and as modern as possible as quickly as possible.
    Thank you very much, Mr. Chairman.
    Senator Cochran. Thank you, Senator, for your statement and 
your contribution to the work of this subcommittee.
    Senator Murray, I am happy to recognize you for any opening 
statement that you would like to make.

                   STATEMENT OF SENATOR PATTY MURRAY

    Senator Murray. Mr. Chairman, thank you. I just want to 
welcome all of our witnesses. Let me just say that this is a 
very important hearing, because we all know the importance of 
security since September 11 obviously, but we also know the 
economic impacts of the decisions we make in balancing that.

                           prepared statement

    And my State is extremely important. We are the number one 
trade State in the Nation and we want to make sure our borders 
are secure, that our ports are secure, but that we impact the 
flow of commerce as little as possible, because it is having a 
severe impact on our State as we struggle with the economy. So 
I do have a number of questions to ask both Mr. Bonner and 
Admiral Loy in that time period.
    Senator Cochran. Thank you very much, Senator.
    The subcommittee has received a statement from Senator 
Campbell which will be inserted in the record.
    [The statement follows:]

         Prepared Statement of Senator Ben Nighthorse Campbell

    Thank you Mr. Chairman and I'd like to thank our witnesses for 
taking the time to come talk to us today.
    My constituents in Colorado, as well as the entire Nation, are 
looking toward this Committee to provide the necessary funds to protect 
those who travel our country's skies, seas, railways, and roads. The 
three of you here today are responsible for ensuring the safety of our 
borders, the security of our skies, and for training the personnel 
needed to perform these duties. Not an easy task for any of you, but I 
look forward to working with all of you to meet these challenges and to 
ensure that our Nation's priorities are well balanced.
    While I commend you all for the advancements made in our Nation's 
security infrastructure, there are a few concerns I have about possible 
loopholes that remain in the security network. There have been many 
questions as to whether or not our focus on security is appropriately 
balanced in the right areas to prevent additional terrorist attacks. 
Our borders, for instance, while more closely watched than they were a 
few years ago, still need to be better patrolled, both in the north and 
the south.
    Security at airports nationwide has improved, though efforts have 
focused mainly on passengers and their luggage. Loopholes still exist 
in the air transportation of cargo. I also believe that loopholes still 
exist with fixed-base operations, or FBO's, as they are called. My 
concern is that literally just anyone can get on a private aircraft 
carrying whatever they want and go wherever they please.
    Port security is no less frightening. About 95 percent of U.S. 
imports come by container ship and there are over 2,500 of these ships 
at sea. Once these containers come off the boats, the can be driven 
anywhere by anyone with a CDL license or placed on a train to any point 
in the United States. While Colorado has no such ports, as the Senate's 
only CDL-licensed member, I know how easily these containers can move 
across the country as soon as they are off-loaded from the ships.
    The protection of our borders and shorelines is imperative to our 
country's economy which is dependent on travel and the easy mobility of 
commerce. Additionally, the people of the United States deserve the 
ability to move about our Nation in a safe and secure manner.
    I believe that we have made major advancements very quickly by 
upgrading our security procedures, response plans, and better training 
personnel to react and respond in times of need. This is very important 
as no issue is more paramount to me and this committee than the safety 
of the American people.
    Again, thank you, Mr. Chairman. I look forward to hearing the 
testimonies of our guests and I will have a number of questions to ask 
at the appropriate time.

    Senator Cochran. I think we will hear opening statements 
from each of the witnesses before we get into questions, and we 
would encourage you to make summary statements of your printed 
statements. We have those statements. We thank you for them and 
they will be printed in the record in full.
    Mr. Bonner, we will start with you. Mr. Bonner is the 
Commissioner of the Bureau of Customs and Border Protection.

               STATEMENT OF COMMISSIONER ROBERT C. BONNER

    Mr. Bonner. Thank you, Chairman Cochran and Senator Byrd, 
Senator Domenici, Senator Murray. I am pleased to appear before 
you today to discuss the Customs and Border Protection and the 
President's 2004 budget request for this new agency within the 
Department of Homeland Security.
    As you know, on March 1, just 2\1/2\ months ago, customs 
inspectors of the former U.S. Customs Service, immigration 
inspectors of the former INS, agricultural inspectors formerly 
with the Animal and Plant Health Inspection Service of the 
Agriculture Department, and the entire Border Patrol, merged to 
form the new Bureau of Customs and Border Protection within the 
Department of Homeland Security. This means, by the way, that 
about one-half of all the personnel of the former INS are now 
part of the Bureau of Customs and Border Protection.
    Customs and Border Protection is certainly the largest and, 
I believe, perhaps the most profound actual reorganization 
taking place as a result of the creation of the Department of 
Homeland Security.
    The creation of Customs and Border Protection means that 
now for the first time in our country's history, all agencies 
of the United States Government with significant border 
responsibilities are unified into one agency of our Government, 
into one border agency. When combined with the customs trade, 
revenue, and support functions, the new agency, Customs and 
Border Protection, has a requested budget of $6.7 billion and 
41,000 FTE, and that means that Customs and Border Protection 
personnel are over one-fifth of the entire personnel of the 
Department of Homeland Security, which is a reflection, I 
believe, of how important the security of our borders is to the 
security of our homeland.
    For the first time, we are now able to take a holistic view 
of our Nation's borders and to devise a comprehensive strategy 
for the ports of entry and, indeed, for the entirety of our 
Nation's border, because now one agency, not multiple agencies, 
is responsible for the management of our country's borders.
    By unifying the border agencies, a good government reform 
advocated in many studies over the past 30 years, I am 
convinced that we will be far more effective and efficient than 
we were when border responsibilities were fragmented among four 
different agencies and three different departments of our 
Government as they were prior to March 1 of this year.
    I have already moved to unify the management of all of the 
inspectional personnel at our border ports of entry by 
designating one port director to be in charge of all of the 
inspectional functions, customs, immigration, and agriculture 
at each of the 307 ports of entry of the United States. And I 
have put in place a full-time transition management office to 
focus on achieving a fully unified agency as rapidly as 
possible.
    I also have put into place a clear and understandable chain 
of command, from the port directors at all of our 300-plus 
ports of entry to Customs and Border Protection Headquarters, 
and similarly have established a clear and short chain of 
command for the Border Patrol into Customs and Border 
Protection Headquarters.
    The priority mission of Customs and Border Protection is 
homeland security. And for a border agency, that means nothing 
less than preventing terrorists and terrorist weapons from 
entering our country. That is the priority mission of Customs 
and Border Protection, plain and simple.
    And we need to perform that priority mission without 
stifling the flow of legitimate trade and travel. We do this, 
in part, by pushing our border out, extending our zone of 
security beyond our physical borders. We must also accomplish 
our priority mission while continuing to perform the many very 
important traditional missions of Customs and Border 
Protection.
    Support from Congress through the fiscal year 2002 
supplemental and the 2003 budget has put us in a very good 
position to carry out our priority and traditional missions. 
Our total program increase for fiscal year 2004 is $338 
million. And that funding will help us to develop and expand 
our ``smart border'' initiatives like the Container Security 
Initiative, our overseas program for identifying and 
prescreening high-risk containers before they leave foreign 
ports for ports of the United States. I want to thank the 
committee members for their support of this initiative in 
fiscal year 2003.
    Since I announced the Container Security Initiative just 
over a year ago, a total of 15 countries representing 18 of the 
top 20 foreign container ports have agreed to implement the 
Container Security Initiative with us.
    The 2004 funding we are requesting will enable us to expand 
the program to other foreign ports beyond the top 20. Our 
funding request will also support expansion of the Customs-
Trade Partnership Against Terrorism, a program in which we 
partner with the private sector to protect the entire supply 
chain against potential exploitation by terrorists.
    So, Mr. Chairman, this new agency, I can tell you, faces 
two great challenges. One is merging the border agencies, which 
we are in the process of doing; and secondly, fulfilling our 
priority and our traditional missions.
    But now that all the border agencies have been unified into 
Customs and Border Protection, we are in a better position to 
accomplish those goals. And with the continued support of the 
President, and the leadership of Secretary Ridge and Under 
Secretary Hutchinson, and the support of this committee, and 
the Congress, I am confident that Customs and Border Protection 
will play a major role in the Department of Homeland Security 
by better securing our borders against the terrorist threat.

                           prepared statement

    Mr. Chairman, I thank you for the opportunity to testify 
and I would be happy to answer any questions that the members 
might have.
    Senator Cochran. Thank you very much, Mr. Bonner, for your 
statement.
    [The statement follows:]

                 Prepared Statement of Robert C. Bonner

Introduction and Overview
    Chairman Cochran, Ranking Member Byrd, Members of the Subcommittee, 
it is a privilege to appear before you today to discuss Customs and 
Border Protection's 2004 budget request--the first ever budget request 
for this new agency in the Department of Homeland Security.
    As you know, on March 1, 2003, immigration inspectors from the 
Immigration and Naturalization Service (INS), agricultural inspectors 
from the Animal and Plant Health Inspection Service (APHIS), customs 
inspectors from U.S. Customs Service, and the entire Border Patrol 
merged to form the Bureau of Customs and Border Protection--BCBP--
within the Border and Transportation Security (BTS) Directorate of the 
Department of Homeland Security. Now, for the first time in our 
country's history, all agencies of the United States government with 
significant border responsibilities have been brought under one roof. 
With our combined skills and resources, we will be far more effective 
than we were when we were separate agencies. I was honored to be 
appointed by the President to serve as the Commissioner of U.S. Customs 
in September 2001, and now I have the great privilege of serving as the 
first Commissioner of BCBP.
    I want to thank Congress for the focus and support it provided in 
creating the new Department of Homeland Security, and the new Customs 
and Border Protection agency within that Department. As the head of 
BCBP, I look forward to working with you to ensure that BCBP 
successfully achieves its critical mission.
    The priority mission of BCBP is to prevent terrorists and terrorist 
weapons from entering the United States. That extraordinarily important 
priority mission means improving security at our physical borders and 
ports of entry, but it also means extending our zone of security beyond 
our physical borders--so that American borders are the last line of 
defense, not the first line of defense. And we must do this while 
continuing to perform our traditional missions well--the combined 
missions of Customs, immigration, and agriculture inspectional officers 
at our borders, as well as the Border Patrol. In sum, the BCBP's 
missions include apprehending individuals attempting to enter the 
United States illegally; stemming the flow of illegal drugs and other 
contraband; protecting our agricultural and economic interests from 
harmful pests and diseases; protecting American businesses from theft 
of their intellectual property; and regulating and facilitating 
international trade, collecting import duties, and enforcing U.S. trade 
laws. We must perform our all important security mission without 
stifling the flow of legitimate trade and travel that is so important 
to our Nation's economy.
    Support from Congress through the fiscal year 2002 Supplemental and 
the fiscal year 2003 budget has put us in good stead to carry out our 
mission. The President's total program increase request for BCBP in 
fiscal year 2004 is $338,183,000. These funds will help BCBP fulfill 
its mission-critical responsibilities, first and foremost of which is 
preventing terrorists and terrorist weapons from entering the United 
States. These funds will continue to support the automation and 
information technology programs that will improve overall operations of 
the agency, and the traditional missions for which BCBP is responsible.
    Key program increases BCBP is requesting in its fiscal year 2004 
budget include:
  --$61,754,000 for the Container Security Initiative, which will 
        support continued operation and expansion of the program, 
        including the stationing of BCBP personnel in additional key 
        international ports to examine high-risk cargo before it is 
        placed on ships bound for the United States;
  --$16 million for the Customs-Trade Partnership Against Terrorism and 
        the Free and Secure Trade Program to increase supply chain 
        security and expedite the clearance of legitimate trade; and
  --$57.8 million for deployment of additional Non-Intrusive Inspection 
        (NII) technology to increase our ability to detect conventional 
        explosives, nuclear weapons, radioactive components, and other 
        weapons of mass destruction.
    In my statement, I will discuss these programs and others, and how 
BCBP uses and will continue to use them to accomplish its mission. I 
would like to begin, though, with a brief update for the Subcommittee 
on the status of the standup of BCBP.
Standup of Customs and Border Protection
    On March 1st, approximately 40,000 employees were successfully 
transferred from the U.S. Customs Service, the Immigration & 
Naturalization Service, and the Animal and Plant Health Inspection 
Service to the new Customs and Border Protection agency in the 
Department of Homeland Security. Each of the agencies merging into BCBP 
worked closely to effect the transfer. Prior to and after the standup 
of the agency on March 1st, Under Secretary Hutchinson and I both 
traveled around the country to talk with employees of BCBP. I am 
pleased to report that there is a high level of enthusiasm, dedication, 
and commitment to the Department of Homeland Security and to BCBP's 
mission. The men and women of BCBP are ready, willing, and able to do 
their part to protect our Nation.
    Secretary Ridge, Under Secretary Hutchinson and I have established 
clear, understandable chains of command for all BCBP personnel, and 
have directed that operations not be interrupted. To this end, 
effective March 1, 2003, twenty interim Directors of Field Operations 
(DFOs) were appointed, based on the twenty-office field structure of 
U.S. Customs, to exercise line authority over 317 ports of entry within 
their jurisdiction. At each of the ports of entry--land, sea, and air--
interim Port Directors were appointed to be in charge of and 
responsible for all the BCBP inspection functions, customs, 
immigration, and agriculture. A clear chain of command was also 
established for the Border Patrol, with the Border Patrol's twenty-one 
Sector Chiefs reporting directly to the Chief of the Border Patrol, who 
reports to me.
    This is the first time there has been one person at each of our 
Nation's ports of entry in charge of all Federal Inspection Services. 
We are in the process of competitively selecting individuals to fill 
these DFO and Port Director positions on a permanent basis, and that 
process should be completed in the near future. In addition, a full-
time Transition Management Office has been put in place to help address 
the challenges that come from the standup of any new organization. That 
office is staffed with representatives from all the incoming agencies.
Responding to the Terrorist Threat
    As the single, unified border agency of the United States, BCBP's 
mission is vitally important to the protection of America and the 
American people. In the aftermath of the terrorist attacks of September 
11th, numerous initiatives were developed to meet our twin goals of 
improving security and facilitating the flow of legitimate trade and 
travel. Funds from the fiscal year 2004 budget will help us expand 
those initiatives to ensure further protection of both the American 
people and the American economy. Our strategy in implementing these 
initiatives--and accomplishing our twin goals--involves a number of 
factors, including (A) improving targeting systems and expanding 
advance information regarding people and goods, (B) pushing our ``zone 
of security outward'' by partnering with other countries, (C) pushing 
our ``zone of security outward'' by partnering with the private sector, 
(D) deploying advanced inspection technology and equipment, (E) 
increasing staffing positions for border security, and (F) working in 
concert with other agencies.
           targeting and the necessary of advance information
    Information is one of the most important keys to our ability to 
increase security without stifling legitimate trade and travel. Good 
information enables us to more accurately identify--or target--what is 
``high risk,'' defined as a potential threat, and what is low risk or 
absolutely no risk whatsoever. The separation of high risk from no risk 
is critical because searching 100 percent of the cargo and people that 
enter the United States would unnecessarily cripple the flow of 
legitimate trade and travel to the United States. What is necessary and 
advisable is searching 100 percent of the high-risk cargo and people 
that enter our country. To do this, we need to be able to identify what 
is high risk, and do so as early in the process as possible. BCBP has 
several programs and initiatives that help us accomplish that task.
National Targeting Center (NTC)
    The National Targeting Center (NTC), created last year with fiscal 
year 2002 Emergency Supplemental funding, has significantly increased 
our overall capacity to identify potential terrorist threats by 
providing centralized, national targeting of passengers and cargo for 
the first time. NTC inspectors and analysts use a sophisticated 
computer system to monitor, analyze, and sort information gathered by 
BCBP and numerous intelligence and law enforcement agencies against 
commercial border crossing information. By mining the information in 
that system, NTC personnel identify potential terrorists and terrorist 
targets for increased scrutiny at the border ports of entry. When NTC 
personnel identify potential threats, they coordinate with our officers 
in the field and monitor the security actions that are taken. Because 
multiple agencies both contribute information to the National Targeting 
Center and rely on it for information, the Center assures a coordinated 
and centralized response to potential threats.
Automated Targeting System (ATS)
    The Automated Targeting System (ATS), which is used by NTC and 
field targeting units in the United States and overseas, is essential 
to our ability to target high-risk cargo and passengers entering the 
United States. ATS is the system through which we process advance 
manifest and passenger information to pick up anomalies and ``red 
flags'' and determine what cargo is ``high risk,'' and therefore will 
be scrutinized at the port of entry or, in some cases, at the foreign 
port of export.
    In fiscal year 2002, we implemented a domestic targeting initiative 
at all U.S. seaports using the Automated Targeting System. Under that 
initiative, all manifests for ocean going cargo destined for the United 
States are processed through ATS and reviewed by trained personnel. 
When high-risk shipments are identified, inspectional officers at U.S. 
seaports conduct standardized security inspections on those shipments. 
Importantly, the goal is to inspect 100 percent of the high-risk sea 
cargo. We are already working on putting the same system in place for 
cargo transported by truck through the land border ports of entry.
    Furthermore, in April 2002, USDA National Information Technology 
Center (NITC) received access to ATS. ATS now receives complete Customs 
data feed for all ports, with all bills and entries of agricultural 
interest.
24-Hour Rule
    Common sense tells us that the earlier in the process that we have 
information, the more effective and efficient we can be in using that 
information to identify high-risk cargo and eliminate potential threats 
before they have a chance to reach our ports of entry.
    To that end, last year, a final advance manifest regulation--the 
so-called ``24-hour rule''--was issued to require the presentation of 
accurate, complete manifest information on oceangoing cargo destined 
for the United States 24 hours prior to loading of a container on board 
a vessel at the foreign port. The regulation also improves the quality 
of information presented by prohibiting the vague descriptions of cargo 
such as ``FAK'' (Freight All Kinds). The data is processed through the 
ATS system, and reviewed by the NTC to identify high-risk oceangoing 
cargo.
    On February 2, 2003, a strategy was undertaken to ensure compliance 
with the 24-hour rule, following a 90-day grace period to permit the 
trade to adjust its business practices. The compliance strategy has 
involved, for the first time, issuing ``no-load'' orders and denying 
permits to unlade in the event of non-compliance. Compliance with the 
rule is high, and we are receiving more and better information through 
our Automated Manifest System (AMS) significantly earlier in the 
process. This greatly improves our ability to detect, deter, and 
eliminate potential terrorist threats involving sea cargo before they 
become a reality.
Trade Act of 2002--Advance Information on Other Modes
    Successful targeting of high-risk goods transported through other 
commercial modes is as important as successful targeting of high-risk 
goods transported by sea. As with oceangoing cargo, good information 
received earlier in the process is the key to that successful targeting 
and the application of sound risk management principles.
    In the Trade Act of 2002, Congress recognized the importance of 
such advance information by mandating presentation of advance manifest 
data on all commercial modes, both inbound and outbound. BCBP is in the 
process of working through the consultative process called for in the 
Trade Act of 2002 to determine the most appropriate advance cargo data 
requirements for land, rail, and air cargo. We held public hearings in 
January, launching a process of discussion and proposal preparation 
that will ultimately lead to our issuing rules later this year. During 
this process, we have met continuously with all segments of the trade. 
This process will help us ensure that the final rules meet the security 
objectives of BCBP while also taking into account the realities of the 
businesses involved in the different transport modes.
Advance Passenger Information System
    Advance information is also critical to our efforts to identify 
individuals who may pose a security threat. Before September 11th, 
2001, air carriers transmitted information on international airline 
passengers in advance of their arrival to the Advance Passenger 
Information System (APIS) on a purely voluntary basis. Legislation 
enacted by Congress in late 2001 made submission of this information 
mandatory, and funds allocated from the fiscal year 2002 Supplemental 
and the fiscal year 2003 budget have enabled us to begin upgrading and 
expanding APIS and move to a mandatory program in a very short time. An 
informed, enforced compliance plan has resulted in 99 percent of all 
passenger and crew information (including those pre-cleared outside the 
United States) now being transmitted through APIS in a timely and 
accurate manner.
 pushing our zone of security outward /partnering with other countries
    BCBP must do everything possible to advance and improve on our 
smart border initiatives and push our zone of security outward--that 
is, to make our borders the last line of defense instead of the first 
line of defense. We have done this on a far reaching basis by 
partnering with other countries on our Container Security Initiative, 
one of the most significant and successful initiatives developed and 
implemented after 9-11. We are also extending our zone of security 
through partnerships with Canada, our neighbor to the north, and 
Mexico, our neighbor to the south. Those partnerships enable us jointly 
to better secure the North American perimeter.
Container Security Initiative (CSI)
    Oceangoing sea containers represent the most important artery of 
global commerce--some 48 million full sea cargo containers move between 
the world's major seaports each year, and nearly 50 percent of all U.S. 
imports (by value) arrive via sea containers. Approximately 6 million 
cargo containers arrive at U.S. seaports annually. Because of the sheer 
volume of sea container traffic and the opportunities it presents for 
terrorists, containerized shipping is uniquely vulnerable to terrorist 
attack.
    In January, 2002, the Container Security Initiative (CSI) was 
unveiled to address this threat. Under CSI, which is the first program 
of its kind, we are identifying high-risk cargo containers and 
partnering with other governments to pre-screen those containers at 
foreign ports, before they are shipped to our ports.
    The four core elements of CSI are:
  --First, identifying ``high-risk'' containers, using ATS and the 24-
        hour rule, before they set sail for the United States
  --Second, pre-screening the ``high-risk'' containers at the foreign 
        CSI port before they are shipped to the United States
  --Third, using technology to pre-screen the high-risk containers, 
        including both radiation detectors and large-scale radiographic 
        imaging machines to detect potential terrorist weapons.
  --Fourth, using smarter, ``tamper-evident'' containers--containers 
        that indicate to BCBP officers at the port of arrival whether 
        they have been tampered with after the security screening.
    Since CSI was announced in January 2002, the program has generated 
exceptional participation and support. The goal for the first phase of 
CSI was to implement the program at as many of the top 20 foreign 
container ports--in terms of volume of cargo containers shipped to 
United States seaports--as possible, and as soon as possible. Those 
ports account for nearly 70 percent, over two-thirds, of all cargo 
containers arriving at U.S. seaports. Within 1 year of our announcement 
of CSI, the governments representing 18 of the top 20 ports agreed to 
implement CSI, and those governments where the remaining two ports are 
located have expressed support for the initiative and a desire to 
participate. CSI has been implemented and is already operational in Le 
Havre, France; Rotterdam, the Netherlands; Antwerp, Belgium; 
Bremerhaven and Hamburg, Germany; Felixstowe, England; Yokohama, Japan; 
and Singapore, the largest container transshipment port in the world. 
We are also operational at the Canadian ports of Halifax, Montreal, and 
Vancouver, and will be operational in Hong Kong this month. CSI will be 
operational at other CSI ports soon.
    We are in the process of formulating the second phase of CSI. Under 
CSI Phase II, we will implement the CSI program at other foreign ports 
that ship a significant volume of cargo to the United States, and that 
have the infrastructure and technology in place to support the program. 
We have already signed CSI agreements with Malaysia and Sweden, 
covering the two major ports of Malaysia and Gothenburg, Sweden, the 
main container port for the Nordic countries. To date, a total of 15 
countries (including Canada) have agreed to implement CSI with us, and 
at least 7 other countries that qualify have already expressed a desire 
to join. Once we have Phase II implemented, we anticipate that CSI will 
cover approximately 80 percent of the containers coming to the United 
States.
    I want to express my gratitude to the Committee members for their 
support of CSI in fiscal year 2003. With the $62 million increase in 
funding that we are requesting for CSI in fiscal year 2004, we will 
complete implementation in the top 20 ports, and expand CSI to other 
ports around the world. In fiscal year 2004, BCBP will also continue to 
pursue ongoing multilateral initiatives to enhance container security.
Partnership with Canada
    Since the terrorist attacks of September 11, 2001, we have worked 
closely with Canada to develop and implement initiatives that increase 
security and facilitate travel and trade at our shared 4,000 mile 
border. Many of these initiatives have been implemented under the Smart 
Border Declaration entered into between the United States and Canada in 
December 2001. This Declaration focuses on four primary areas: the 
secure flow of people; the secure flow of goods; investments in common 
technology and infrastructure to minimize threats and expedite trade; 
and coordination and information sharing to defend our mutual border. 
By benchmarking our security measures and sharing information, we are 
able to relieve pressure and congestion at our mutual land border.
In-Transit Container Targeting Program
    One example is the In-Transit Container Targeting Program, which 
served as a model for the CSI program. Under this program, Canadian 
inspectors are stationed at our seaports in Newark and Seattle, and 
BCBP officers are stationed at Halifax, Montreal, and Vancouver. Our 
personnel are helping to target and pre-screen cargo containers 
arriving at Canadian seaports that are in transit to the United States, 
and Canadian Customs and Revenue Agency inspectors are doing the same 
at U.S. seaports for shipments in transit to Canada. Approximately $2.4 
million in 2002 and 2003 funding has enabled us to develop and 
implement this program.
Free and Secure Trade (FAST)
    Another of these initiatives is the Free and Secure Trade, or FAST, 
program. Through FAST, importers, commercial carriers, and truck 
drivers who enroll in the program and meet our agreed to security 
criteria are entitled to expedited clearance at the Northern Border. 
Using electronic data transmission and transponder technology, we 
expedite clearance of approved trade participants. The FAST program 
fosters more secure supply chains, and enables us to focus our security 
efforts and inspections where they are needed most--on high-risk 
commerce--while making sure legitimate, low-risk commerce faces no 
unnecessary delays.
    FAST was announced by President Bush and Prime Minister Chretien in 
Detroit in September 2002, and it is currently operational in 27 lanes 
at six major crossings along the northern border. Eventually FAST is 
projected to expand to all 25 commercial centers located throughout the 
northern border. The increase of approximately $3.9 million that we are 
requesting for the FAST program in fiscal year 2004 will enable us to 
expand FAST on the northern border, as well as develop and implement a 
pilot similar to FAST on the southern border with Mexico.
NEXUS
    With Canada, we have also implemented a program that enables us to 
focus our resources and efforts more on high-risk travelers, while 
making sure those travelers who pose no risk for terrorism or 
smuggling, and who are otherwise legally entitled to enter, are not 
delayed at our mutual border. This is the NEXUS program, under which 
frequent travelers whose background information has been run against 
crime and terrorism indices are issued a proximity card, or SMART card, 
allowing them to be waived expeditiously through the port of entry. 
NEXUS is currently operational at six crossings located at four major 
ports of entry on the northern border: Blaine, Washington (3 
crossings); Buffalo, New York; Detroit, Michigan; and Port Huron, 
Michigan. We also recently opened a new NEXUS lane at the International 
Tunnel in Detroit. Some upcoming expansion sites for NEXUS include 
Niagara Falls, New York; Alexandria Bay, New York; and Pembina, North 
Dakota.
Partnership with Mexico
    We have continued important bilateral discussions with Mexico to 
implement initiatives that will protect our southern border against the 
terrorist threat, while also improving the flow of legitimate trade and 
travel.
    With respect to cargo crossing our border with Mexico, for example, 
some of the fiscal year 2004 funds we are requesting for the FAST 
program would be used to implement a pilot FAST program on the southern 
border. We also continue to work on a possible joint system for 
processing rail shipments and on shared border technology.
    Another initiative is the SENTRI program. SENTRI is a program that 
allows low-risk travelers to be processed in an expedited manner 
through a dedicated lane at our land border with minimal or no delay. 
SENTRI is currently deployed at 3 southwest border crossings: El Paso, 
San Ysidro, and Otay Mesa, and expansion plans are being considered. In 
fact, our SENTRI team met with their Mexican counterparts last week to 
discuss expansion logistics.
      pushing security outward /partnering with the private sector
Customs-Trade Partnership Against Terrorism
    Any effort to ``push our zone of security outwards'' and protect 
global trade against the terrorist threat must include the direct 
involvement of the trade community. The Customs-Trade Partnership 
Against Terrorism, C-TPAT, is an initiative that was proposed in 
November 2001 began in January 2002, to protect the entire supply 
chain, against potential exploitation by terrorists or terrorist 
weapons. Under C-TPAT, companies sign an agreement with BCBP to conduct 
a comprehensive self-assessment of their supply chain security and to 
improve that security--from factory floor to foreign loading docks to 
the U.S. border and seaports--using C-TPAT security guidelines 
developed jointly with the trade community.
    Companies that meet security standards receive expedited processing 
through our land border crossings, through our seaports, and through 
our international airports, enabling us to spend less time on low-risk 
cargo, so that we can focus our resources on higher risk cargo. C-TPAT 
is currently open to all importers, air, sea, and rail carriers, 
brokers, freight forwarders, consolidators, non-vessel operating common 
carriers (NVOCCs), and U.S. Marine and Terminal operators. As of 
October 1, 2002, C-TPAT eligibility for trucking companies along the 
U.S./Canada border has been made available through the Free and Secure 
Trade Program. (Participation in C-TPAT is a requirement for bringing 
goods from the United States into Canada through the FAST lane.) We are 
currently developing the mechanism and strategy to enroll foreign 
manufacturers and shippers into C-TPAT. The intent is to construct a 
supply chain characterized by active C-TPAT links at each point in the 
logistics process.
    To date, over 2,200 companies are participating in C-TPAT to 
improve the security of their supply chains. Members of C-TPAT include 
60 of the top 100 importers and 32 of the 50 largest ocean carriers. To 
make sure that C-TPAT is realizing its promise, BCBP is developing 
expertise in supply chain security. In December 2002, we began 
providing training in the security validation process to ten 
supervisory customs inspectors. In January 2003, these individuals 
started the validation process in cooperation with our C-TPAT partners.
    We used $11 million in fiscal year 2002 and fiscal year 2003 funds 
to begin implementing C-TPAT. The $12.1 million funding increase we are 
requesting for C-TPAT in fiscal year 2004 will enable us to continue to 
expand the program, including adding new C-TPAT Security Officers and 
headquarters staff to help oversee the program.
            deployment of technology, equipment, and systems
    BCBP depends on a broad range of technology and other tools to 
effectively inspect people and goods entering the country, including 
technology for detecting weapons of mass destruction, explosives, 
chemicals, and contraband. We are requesting a funding increase of 
$119.2 million to enable us to deploy a variety of additional 
inspection technology and equipment that will increase the number of 
inspections, improve security, minimize risks to our personnel, and 
facilitate processing.
Non-Intrusive Inspection Technology
    For example, non-Intrusive Inspection (NII) technology provides for 
a more effective and efficient, as well as less invasive, method of 
inspecting cargo, compared with drilling or dismantling of conveyances 
or merchandise. NII equipment includes large-scale x-ray and gamma-ray 
imaging systems, portal radiation monitors, and a mixture of portable 
and handheld technologies to include personal radiation detection 
devices that greatly reduce the need for costly, time-consuming 
physical inspection of containers and provide us a picture of what is 
inside containers.
    The Committees on Appropriations have generously funded NII in 
fiscal year 2002 and fiscal year 2003. Along with the amounts funded in 
those years, the $57.8 million we are requesting for NII technology in 
fiscal year 2004 will enable us to add radiation detection systems and 
isotope identifiers on the southwest border, radiation detection 
systems and Mobile Vehicle and Cargo Inspection Systems (VACIS) on the 
northern border, Mobile VACIS at seaports, isotope identifiers and x-
ray equipment for international mail, and isotope identifiers at 
Express Courier hubs, as well as additional inspector positions for 
deploying and operating this equipment. This technology will detect 
anomalies and the presence of radiological material in containers and 
conveyances, with minimal impact to port operations in a fraction of 
the time it takes to manually inspect cargo. It will give BCBP a 
tactical edge in keeping weapons of mass destruction and instruments of 
terrorism from entering the United States.
Hardening of Northern Border
    After the terrorist attacks of September 11th, efforts were stepped 
up to ``harden''--to prevent unauthorized crossings of--the northern 
and southern land borders. In addition to staffing increases, the 
hardening of these ports of entry involved the installation of gates, 
signs, lights, and remote surveillance systems at ports of entry, many 
of them in remote locations, along the vast northern border with 
Canada. The Border Patrol also deployed additional agents to strategic 
locations along the northern border to aid in providing security and 
deterring future attacks.
    Funding from fiscal year 2003 is enabling us to continue to improve 
the northern border infrastructure by deploying additional barriers, 
gates, and bollard systems; security lighting; secure communications 
(voice/data/messaging capabilities); signage addressing operational 
security; and video security systems. We will also continue bolstering 
Border Patrol staffing and technology between the northern border ports 
of entry in fiscal year 2004.
                                staffing
    As important as our efforts to improve targeting, build 
partnerships with other countries and industry, and deploy technology 
are to preventing terrorism, these efforts simply cannot be effective 
if we do not have adequate staffing and training of inspectors, canine 
enforcement officers, and Border Patrol Agents at and between the 
border ports of entry to carry out our mission. The most important 
component of BCBP's success in protecting America and the American 
people lies in the men and women who work directly on our Nation's 
frontlines.
    One need only recall that it was a Customs inspector, Diana Dean, 
who in December 1999 stopped and arrested an Al Qaeda terrorist from 
crossing into the United States from Canada with a trunk load of 
powerful explosives in his car. His mission, as we now know, was to 
blow up Los Angeles International Airport.
    Inspector Dean relied on nothing but her training to pick up on 
Ahmed Ressam's nervous behavior, his unusual travel itinerary, and his 
evasive responses to her questions. And thanks to her skill and 
professionalism, and the skill and professionalism of her fellow 
inspectors at Port Angeles, Ressam was arrested and a deadly Al Qaeda 
terrorist plot to do great harm to American lives was foiled.
    I am pleased to tell you that in fiscal year 2002, the number of 
new customs inspectors, canine enforcement officers, and special agents 
was more than doubled. Many of these new hires were able to relieve 
customs inspectors who had been sent to the northern border for 
temporary duty after the terrorist attacks of September 11, 2001, and 
to ameliorate the huge amounts of overtime being put in by U.S. Customs 
inspectors at our ports of entry.
    1,025 new immigration inspectors were hired in fiscal year 2002, 
and the beginning of fiscal year 2003, 355 of whom have been 
specifically assigned to supplement northern border enforcement 
activities. The Border Patrol hired 2,050 new agents in fiscal year 
2002, and, as of February 2003, a total of 560 Border Patrol Agents 
have been deployed all along the Northern Border. It is also worth 
noting that 125 additional Border Patrol agents and 4 Border Patrol 
helicopters have been redeployed temporarily to the Northern Border in 
support of Operation Liberty Shield. We intend to have a total of 1,000 
Border Patrol Agents deployed to the northern border this year.
    Our fiscal year 2004 budget request includes an additional $13 
million to continue to fund journeyman-level pay upgrades for Border 
Patrol Agents and Immigration Inspectors. Attrition rates for these 
positions are reaching crisis proportions, so it is essential that BCBP 
provide to them the upgrade from journeyman-level GS-9 to GS-11 that 
became effective for Customs Inspectors in August 2002.
    I am extremely grateful for the strong support shown by Congress to 
implement critical staffing increases at and between our border ports 
of entry. I can assure you that because of them, our Nation is more 
secure. The standup of BCBP--and its integration of all the Federal 
Inspection Service (FIS) personnel under one roof--gives us the 
unprecedented opportunity to make America's frontline personnel even 
more effective and efficient in carrying out their duties. In fiscal 
year 2004, we will focus on achieving a unified agency and integrated 
operations at our ports of entry.
     partnership with bureau of immigration and customs enforcement
    In performing our priority homeland security mission, BCBP will 
foster cooperative efforts with other agencies. Because the mission 
facing us has components that reach broadly into other agencies both 
within and outside of the Department of Homeland Security, such 
cooperation is essential to our success. This includes cooperation 
with, among others, the Bureau of Immigration and Customs Enforcement 
(BICE). Close cooperation between agents carrying out investigations 
and inspectors conducting inbound and outbound searches at the ports of 
entry is crucial for ensuring the continued success of operations that 
advance both our homeland security mission, and our traditional 
missions, including cooperation with respect to trade fraud, 
intellectual property rights violations, controlled deliveries of 
illegal drugs, and money laundering.
Automation/Information Technology
    Mr. Chairman, no discussion of a successful strategy to protect the 
American people and the American economy in the 21st century would be 
complete without consideration of the central importance of automation 
and information technology to BCBP's mission. The Automated Commercial 
Environment (ACE) and International Trade Data System (ITDS) are BCBP's 
major automation/information technology efforts.
Automated Commercial Environment
    ACE is an important project for BCBP, for the business community, 
for our country, and for the future of global trade. If done properly, 
it will reform the way we do business with the trade community. It will 
also greatly assist BCBP in the advance collection of information for 
targeting high-risk cargo to better address the terrorist threat. And 
in doing so, it will help us expedite the vast majority of low-risk 
trade.
    The successful and timely design, implementation, and funding of 
ACE is a priority of BCBP. It has been and continues to be one of my 
top priorities as Commissioner. Increasing support from Congress and 
the Administration for ACE has been essential to the development of the 
new system. Funding of $130 million in fiscal year 2001 and $300 
million in fiscal year 2002 allowed us to establish the fundamental 
design framework for ACE, and to begin developing user requirements for 
the new system, in concert with our prime contractor, the e-Customs 
partnership led by IBM. Funding of $307 million in fiscal year 2003 
enabled us to continue development and begin to deliver on the first 
installment of ACE benefits to the trade community.
    The development of ACE and the efforts to put its capabilities to 
work on America's borders has continued full throttle. Starting this 
year, BCBP and trade community users will receive initial online 
account capabilities. Ultimately, ACE will enhance border security and 
deliver efficiencies to the trade process by providing interagency 
information sharing, and real-time, cross-government access to more 
accurate trade information. By centralizing and integrating the 
collection and analysis of information, ACE will enhance BCBP's ability 
to target illicit cargo, illegal persons, and unsafe conveyances. The 
trade data will be analyzed prior to arrival, allowing advanced inter-
agency assessment of risks and threats to determine which goods and 
people must be scrutinized. Results will determine if, upon arrival, a 
shipment is to be examined or cleared for release.
    I want to thank Congress again for its past support of ACE. The 
continued support of ACE with $307 million in funding for fiscal year 
2004 will enable us to keep pace with our schedule for ACE releases in 
2003 and 2004.
International Trade Data System (ITDS)
    One important, fully integrated component of ACE is ITDS. The ITDS 
initiative is an e-Government strategy being designed, developed, and 
deployed jointly with ACE that will implement an integrated, 
government-wide system for the electronic collection, use, and 
dissemination of the international trade transaction data required by 
the various trade-related federal agencies. It is customer-focused and 
will serve as the government's ``single window'' into international 
trade data collection and distribution. Significantly, ITDS will also 
improve risk assessment by providing pre-arrival data that allows 
border enforcement agencies to perform selectivity and targeting prior 
to arrival to assess risk and deploy inspection resources. Over 100 
agencies will be integrated through ITDS with ACE, of which 48 have 
been identified as having admissibility and export control 
responsibilities at the border.
    Through ACE, the ITDS will be capable of linking the government's 
law enforcement and other databases into one large-scale relational 
database that tracks all commerce crossing our borders. ITDS extends 
the functionality of ACE by bringing together critical security, public 
health, public safety, and environmental protection agencies under a 
common platform. That platform will allow businesses to report data 
through the use of a single, harmonized data set.
    The $11.2 million we are requesting in the fiscal year 2004 budget 
for ITDS will allow us to continue to develop and implement ITDS, and 
keep us on schedule to have full functionality rolled out by winter 
2006-2007.
Other Traditional Missions
    Although BCBP's priority mission is preventing terrorists and 
terrorist weapons from entering the United States, we know that we 
must--and will--accomplish that priority mission while continuing to 
perform our traditional missions well. Included among those missions 
are our responsibilities for interdicting drugs at borders and points 
of entry, apprehending individuals who enter the United States 
illegally, regulating and facilitating international trade, and 
protecting U.S. agricultural and economic interests from harmful pests 
and diseases.
Drug Interdiction
    Our counterterrorism and counternarcotics missions are not mutually 
exclusive, and one does not necessarily come at the expense of the 
other. The initiatives we put in place to prevent terrorists and 
terrorist weapons from entering the United States will enable us to be 
more effective in seizing other illegal contraband, including illegal 
drugs. And, it is worth noting that the lessons we have learned in our 
battle against international drug trafficking will help us in the fight 
against international terrorism. In many ways, our priority mission of 
preventing terrorists and terrorist weapons from crossing our borders 
is a natural outgrowth of our interdiction role.
    Our heightened state of security along America's borders will 
strengthen, not weaken, our counternarcotics mission. As we add 
staffing for both inspectors at the ports of entry and Border Patrol 
Agents between the ports of entry, acquire more inspection technology, 
conduct more questioning of travelers, and carry out more inspections 
of passengers and goods in response to the terrorist threat, it should 
come as no surprise that drug seizures will increase as well. As an 
example heightened security along the southwest land border produced a 
dramatic rise in the amount of cocaine seized in fiscal year 2002, 
compared to fiscal year 2001. Overall the amount of cocaine seized rose 
76 percent at the southwest land border stations. In addition, in 
fiscal year 2002, total Border Patrol narcotics seizures included over 
1.2 million pounds of marijuana and over 14,000 pounds of cocaine.
    Some specific recent examples of our successes against drug 
smuggling include:
  --On March 23, 2003, BCBP inspectors seized 394 pounds of cocaine in 
        Miami, Florida. The cocaine was found in false compartments in 
        the plane walls and ceiling.
  --On March 10, 2003, BCBP inspectors seized more than five tons of 
        marijuana in Laredo, Texas. The load was valued at over $10 
        million.
  --On March 13, 2003, Border Patrol agents seized 83.5 pounds of 
        cocaine and 3,141 pounds of marijuana in Laredo, with a 
        combined value of over $5 million.
  --During the week of March 1, 2003, BCBP inspectors seized $2.4 
        million of narcotics at the Hidalgo/Pharr Port of Entry, 
        including 559 pounds of marijuana, 74 pounds of cocaine, and 
        4.5 pounds of heroin.
    Effective coordination between inspectors at the ports of entry and 
agents who carry out investigative activities is essential to the 
success of our counternarcotics mission. For that reason, BCBP will 
continue to cooperate closely with special agents in BICE to carry out 
this mission.
Apprehending individuals entering illegally between the ports of entry
    The Border Patrol, now part of BCBP, is specifically responsible 
for patrolling the 6,000 miles of Mexican and Canadian international 
land borders and 2,000 miles of coastal waters surrounding the Florida 
Peninsula and the island of Puerto Rico. Their primary task is securing 
America's borders between official ports of entry. Foremost, the Border 
Patrol's mission is to provide for the national security of the United 
States by preventing the illegal entry of people, goods, and contraband 
across our borders. Secondly, Border Patrol operations are designed to 
detect, interdict, and apprehend those who attempt to illegally enter 
the United States or transport any manner of goods or contraband across 
our borders. The Border Patrol also maintains traffic checkpoints on 
highways leading from border areas, conducts city patrol and 
transportation checks, and carries out anti-smuggling investigations.
    The Border Patrol executes its mission through a proper balance of 
agent personnel, enforcement equipment (such as a fleet of specialized 
aircraft and vehicles of various types), technology (such as sensors 
and night vision cameras), tactical infrastructure (such as roads and 
vehicle barriers), and intelligence and liaison efforts. Often the 
border area in which these efforts are brought to bear is a barely 
discernible line in uninhabited deserts, canyons, or mountains.
    Although the scope of the Border Patrol mission has not changed 
since the terrorist attacks of September 11, 2001, enforcement efforts 
have been accelerated, to enhance Border Patrol presence along the 
northern border and to make clear that its priority mission--like 
BCBP's--is keeping terrorists and terrorist weapons from entering the 
United States. As we expand that presence on the northern border, it is 
also essential that we expand control of the southwest border.
    In fiscal year 2001 and 2002, Border Patrol Agents apprehended a 
combined total of over 2 million people for illegally entering the 
United States. In fiscal year 2004, the Border Patrol will continue 
focusing on strengthening northern border security between the ports of 
entry; maintaining and expanding border enforcement capabilities on the 
southwest border, with primary focus on the Arizona corridor; and 
expanding and integrating technologies with other components of BCBP to 
support border control efforts.
Preventing individuals from entering illegally at the ports of entry
    With respect to preventing individuals from entering the country 
illegally at the ports of entry, BCBP works with the Department of 
State to ensure BCBP inspectors have the tools they need to verify the 
identity of visa holders and the authenticity of visas issued by the 
Department of State. Data on holders of immigrant visas is transferred 
electronically to ports of entry. When the electronic record is updated 
to reflect an immigrant's admission at a port of entry, that data is 
transferred electronically to the Bureau of Citizenship and Immigration 
Services for production of a permanent resident card and creation of 
the immigrant file.
    More importantly, beginning in 2002, immigration inspectors--now in 
BCBP--have had access to photographs and data transmitted 
electronically by the Department of State relating to holders of 
nonimmigrant visas. This permits inspectors to review visa application 
data and verify the identity of the holder. Senior BCBP and State 
Department staff met during the week of March 24 to reaffirm their 
commitment to these initiatives and to outline new goals for electronic 
data sharing that will expand the exchange of data between State and 
BCBP, and further enhance both the visa issuance and inspections 
process.
Regulating and facilitating international trade
    BCBP maintains responsibility for regulating and facilitating 
legitimate international trade. With the right level of industry 
partnership and the right combination of resources, we can succeed not 
only in protecting legitimate trade from being used by terrorists, but 
also in actually building a better, faster, more productive system of 
trade facilitation for the U.S. economy. The Office of Trade Relations 
has helped ensure effective, extensive communication between U.S. 
Customs and all facets of the trade community. It remains a central 
point through which the trade community can convey issues to BCBP, 
especially the broad issues of how we do business together, and how we 
improve the security of our country against the terrorist threat.
Protecting U.S. agricultural and economic interests from harmful pests 
        and diseases
    An important part of BCBP is the agriculture border inspection 
program formerly in the Agriculture and Plant Health Inspection Service 
(APHIS). Thus, a significant part of BCBP's mission is preventing 
agricultural pests and diseases from crossing U.S. borders, either 
through intentional--possibly terrorist--acts, or through unintentional 
means. BCBP minimizes the threat of invasive species entering the 
United States by conducting inspections of travelers and cargo at our 
ports of entry. We have revised the Customs Declaration as directed by 
the Committee. The global economy and free trade expansion have 
dramatically increased the volume of passengers and cargo arriving in 
the United States from foreign locations, and this has created an 
increased need for agriculture inspection resources. In addition, 
foreign animal diseases, such as Foot-and-Mouth Disease (FMD), that 
exist in other countries pose serious threats to our livestock industry 
and therefore require us to increase inspectional activities at our 
borders.
    The President's fiscal year 2004 funding request will provide 
additional inspections and canine teams that will increase our 
effectiveness in preventing dangerous diseases and pests from entering 
the United States.
User Fees
    User fees make up a significant portion of BCBP's budget. In fact, 
combined, they represent over $1 billion of our overall budget. An 
additional $1.1 billion in Merchandise Processing Fees is collected as 
an offset to our appropriations. In fiscal year 2003, we expect to 
collect $991 million in user fees, $305 million of which comes from 
fees established under the Consolidated Omnibus Budget Reconciliation 
Act (COBRA). We expect to collect $1.1 million in Merchandise 
Processing Fees in fiscal year 2003. The fiscal year 2004 budget 
request assumes that the fees established under COBRA, which expire at 
the end of the fiscal year 2003 will be reauthorized.
Conclusion
    Mr. Chairman, Members of the Subcommittee, I have outlined a broad 
array of initiatives today that, with your assistance, will help BCBP 
to protect America from the terrorist threat while fulfilling our other 
traditional missions. We know that this new agency, BCBP, faces great 
challenges in merging the border agencies and in fulfilling both our 
priority and traditional missions. But, now that all the Federal 
Inspection Services and the Border Patrol have been unified in BCBP, 
under the Department of Homeland Security, we are in a far better 
position to meet those challenges and accomplish those goals. We will 
be far more effective working together, than we were as separate 
agencies in different departments. With the continued support of the 
President, DHS, and the Congress, BCBP will succeed in meeting the 
great demands placed upon it, and will play a key role--by better 
securing our border against the terrorist threat--in the Department of 
Homeland Security.
    With your support for BCBP's 2004 budget request, we will be able 
to build this new agency, continue and expand our counterterrorism 
initiatives, and improve our efforts to protect America, the American 
people, and the American economy.
    Thank you again for this opportunity to testify. I would be happy 
to answer any of your questions.

    Senator Cochran. We will now hear from Admiral James M. 
Loy, Administrator of the Transportation Security 
Administration.

                   STATEMENT OF ADMIRAL JAMES M. LOY

    Admiral Loy. Good morning, Senator Cochran, Senator Byrd, 
and members of the Subcommittee. First, let me offer my 
condolences to the Senate on the loss of Senator Long. I know 
that long-serving, distinguished member is on all of your minds 
this morning.
    Mr. Bonner and Director Patrick, they both work 
tremendously in our new Department of Homeland Security and I 
am proud to sit with them here this morning. I am pleased to 
testify this morning and allow me to congratulate each member 
on their assignment to this enormously important committee. As 
we work together today, we still are at war, both overseas and 
here at home as we try to understand and cope with this 9/11 
security environment.
    We need look no further than today's headlines, as Senator 
Byrd has reminded us, the truck bombs in Riyadh, Saudi Arabia, 
let alone the TOPOFF exercise that is being run in Seattle and 
Chicago. This is today's business, and we are in the midst of 
it. Thank you, sir.
    The global war on terrorism is a frightening notion to many 
Americans, because we know so little about this new enemy with 
no flag and no borders, but with a hatred that truly seems to 
defy our comprehension. And I join you today, representing a 
TSA relocated into the Department of Homeland Security. It is 
clearly the right place for us, because our mission is 100 
percent homeland security.
    I can report to you that as a person, we at DHS are working 
hard to build the Department's capacity to secure America. Let 
there be no doubt it is very hard work.
    There seemed to be vulnerabilities everywhere. And the 
President has provided the vision, the Congress has provided 
the framework, and Secretary Ridge is leading the way to 
breathing life into DHS. We will get this right.
    I will be brief this morning, Mr. Chairman, I would like to 
mention just a couple of words on four things. First to look 
back over my shoulder for a moment. I spent 42 years in 
uniform. I went to war in Vietnam. I went to Valdez where there 
were 11 million gallons of crude oil in Prince William Sound. I 
commanded ships at sea. I directed operations that saved tens 
of thousands of lives, Haiti and Cuban migrant crises. And I 
can truthfully say that this past year has been the most 
challenging and rewarding leadership experience of my life. It 
continues apace today with no end in sight.
    The work is gratifying. The stakes are impossibly high. I 
am surrounded by deeply committed patriots and am enormously 
proud of what we have accomplished this past year. I am also 
enormously appreciative of the patience shown by the 
Administration and the congressional subcommittees who provided 
oversight and resources as we grappled to meet the 36 mandates 
outlined in ATSA.
    We literally re-baselined our budget a half-a-dozen times 
over the course of this past year, as we learned day by day 
what the price tag on one hand and the programmatic direction 
on the other should be for this new agency.
    We are really still doing that. Week by week, we juggle 
both the job description and the budget. I believe that is 
pretty normal, as the Congress and the Administration sort out 
the expectations that they have for this new agency.
    Even as we speak, we continue to sort out a spending plan 
for the rest of fiscal year 2003. I hope to have that to the 
committee shortly. We have certainly learned from this 
experience and want to work closely with you on our fiscal year 
2004 requirements so that we can avoid the significant 
adjustments necessary to accommodate the allocations not 
included in the President's request.
    The Congress has been particularly patient with me as we 
respectfully disagreed on the size of the screener work force 
needed to secure our airports. As you know, we are grappling 
with that now as part of our effort to make efficiency and 
effectiveness our trademarks at this agency.
    You have all heard many times the inventory of 
accomplishments this past year, so I will not repeat them. What 
I will repeat is the pride we all take at TSA in what we got 
accomplished.
    Were there holes and bad days and things we wish we did 
better? Of course. We were and we are at war. But even those 
things we did poorly are being systematically cleared up one by 
one. You have my pledge to complete that task. And in the 
meantime, we have done a lot of things well, on time, on 
budget, and against huge expectations that they simply could 
not be done.
    Second, the President's 2004 budget seeks $4.81 billion, 
about half of which is to be financed by the passenger and 
airline fees established in ATSA. This budget is dedicated to 
stabilizing and strengthening our essential missions.
    The request is some $350 million less than the budget 
enacted in the fiscal year 2003 Omnibus Appropriations Act. 
That is reasonable considering how much of our 2002 and 2003 
experience focused on one-time start-up costs, including $1 
million per machine and significant contractor outlays.
    The President's request seeks funding in five major areas: 
aviation security; maritime and land security; intelligence; 
R&D; and administration. And the documents submitted itemize 
specific dollars for all five areas, and I will gladly go into 
specifics during questions.
    Third, I would like to comment on a small but very 
important group of special projects that we have underway. Much 
has been written recently about CAPPS II. I certainly invite 
the Committee's questions, but let me just say it will be the 
most significant tool we build to contribute to both security 
and customer service. We have offered a number of briefs to the 
Congress, and they have all been well attended. And we will 
provide more as requested.
    I understand deeply the privacy implications of the 
project, and we are reaching out systematically to gain counsel 
and input from all as we build this project and its privacy 
strategy. I am absolutely committed to providing Americans a 
full measure of both security and privacy, and I ask for your 
informed support for this project.
    Our Transportation Worker Identification Credential project 
is now in its evaluation stage. It will offer efficient and 
effective leaps forward in identification and verification and 
access control for workers across the transportation system. I 
am appreciative of the Committee's support for TWIC and ask 
that it continue.
    These two projects, TWIC and CAPPS II, provide the 
foundation blocks for a ``Registered Traveler'' Program, which 
will expedite processing for those who volunteer to meet its 
specifications.
    Lastly, the Federal Flight Deck Officer Program. We have 
trained and graduated our prototype class of 44 volunteer 
pilots, which we conducted at FLETC. We will learn from that 
experience and tweak the curriculum as necessary to press on to 
the full scope training that will add another dimension to our 
layered security system in aviation.
    Mr. Chairman, I want to address just three personal 
organizational goals, and I intend to focus on them until I get 
them right. The first is to finish the work we started at the 
Nation's airports. We crossed the country twice and left a wake 
behind us in many places. We must finish the checkpoint 
reconfiguration work where needed, and we must finish the 
explosives detection installations in many airports across the 
country.
    A few airports must still be brought to 100 percent 
electronic screening. Others must be kept in compliance as the 
busier flying season approaches. Equipment must be repositioned 
because it had to be installed often in haste and in lobbies to 
meet the 12/31/2002 deadline.
    There are some airports where simple efficiency and 
effectiveness suggest inline EDS installations as the only 
reasonable alternative. And my goal is to optimize the use of 
every dollar appropriated for this task to get as much of this 
work done as soon as possible.
    I thank the Congress for the provision of the Letter of 
Intent (LOI) tool. It will instantly enable us to negotiate 
with airport directors to leverage private sector capital to 
accomplish these projects and then reimburse those airports 
over multiple budget cycles.
    My second goal is hinged to the first. We will aggressively 
manage the size of our workforce. I have two staff projects 
underway to right-size the screener workforce. One in the short 
term, and one midterm, both based on risk management 
principles.
    I will challenge every position in the model used and 
insist the new standard pass the common sense test. I will also 
challenge every FSD, Federal security director, to optimize his 
or her management of the resulting screener force. That means 
we replace attrition over the next couple of months, even 
years. The focus as we do that will be on part-time hiring to 
provide the flexibility necessary at those airports. We will do 
this work with great respect to our workforce but we will meet 
the reduction goals and do so with the first skills-based 
retention program in this Government's history.
    My last focus, Mr. Chairman, will be on building an 
adequate administrative support structure in TSA. I must ensure 
that we have in place the structure to adequately deal with 
contract oversight, workforce administration, EEO complaints, 
customer inquiries, and those other classic support functions 
that we only talk about when they do not get done well.
    Our new H.R. contractors will be held accountable for what 
we expect of them. We brought aboard 55,000 people in very 
short order and are only now building the H.R. infrastructure 
they deserve. These are dedicated Americans employed to provide 
us the security we demand, and we owe them the model workplace 
that I have described.
    In closing, Mr. Chairman, allow me to follow up on the 
discussion the subcommittee had with Mr. Hutchinson last week. 
Several members asked him about transportation sectors other 
than aviation. ATSA is very clear that TSA is responsible for 
the security of the entire transportation system. And I take 
that charge quite seriously and am close to the first draft of 
a national transportation system security plan. We will deal 
with aviation, maritime, rail, transit, highways, and pipelines 
as the six critical elements of that system.
    Our intention is not to necessarily do security in those 
other five sectors in the people-intensive way that we were 
required to do so in aviation. But we must ensure the other 
modes are adequately security conscious.
    The Congress has expressed a keen interest in ports and 
rail, and I believe my charter is to be able to advise 
Secretary Hutchinson and Secretary Ridge as to the security, 
status and readiness of the entire system. I look forward to 
working with all the transportation stakeholders in the 
Congress to eliminate any weak links from our system and to 
integrate this work into the greater homeland security 
challenge being met by DHS.

                           prepared statement

    Thank you, Mr. Chairman. I look forward to your questions, 
sir.
    Senator Cochran. Thank you very much, Admiral Loy.
    [The statement follows:]

               Prepared Statement of Admiral James M. Loy

    Good morning, Chairman Cochran, Senator Byrd, distinguished Members 
of the Subcommittee. I am pleased to testify before the Subcommittee on 
the fiscal year 2004 Budget request for the Transportation Security 
Administration (TSA). I join you today representing TSA as part of the 
new Department of Homeland Security (DHS). Our inclusion in this new 
department is both fitting and natural, because our mission is 
completely aligned with the mission of DHS. Secretary Ridge is deeply 
engaged in fusing together the 22 agencies contained in DHS, and TSA is 
proud to be a part of the DHS team working to find efficiencies, make 
management improvements, and coordinate the necessary protection of our 
homeland.
    In a little over a year of existence, TSA has achieved much. We 
have met 100 percent of the aviation screening mandates and all of the 
other statutory deadlines set by Congress. We have focused on getting 
the job done and done well. Although we are off to a great start, there 
is still more to do to successfully accomplish our transportation 
security mission. Much of this additional work is about understanding 
the bigger picture of our national transportation security system, 
which is intermodal, interdependent, and international in scope.
    We wish to thank you for addressing TSA's critical needs with 
additional funding in the War Supplemental. This funding represents 
much needed relief in continuing to achieve results that are critical 
to our mission. We appreciate the additional resources and are taking 
action to fulfill the direction set in the legislation. We are working 
with your staff to explain our revised fiscal year 2003 TSA spending 
plan. As I recently announced, TSA will be reducing its workforce--
3,000 by May 31, 2003, and an additional 3,000 by September 30, 2003--
in the months ahead. In addition, TSA will reduce the cost for law 
enforcement and move away from fixed point stationing of officers, all 
the while maintaining appropriate security requirements. TSA also is 
working rapidly to implement the provisions of the supplemental 
legislation providing assistance to airlines for strengthening cockpit 
doors and for TSA-mandated aviation security costs and foregone 
revenue. We fully intend to make these disbursements within 30 days as 
Congress directed.
    Now I would like to speak to you about where TSA is going and how 
our fiscal year 2004 budget will get us there. I urge you first to 
consider TSA's critical budget needs in the context of where we have 
been. We have had to use available resources to build our organization 
from the ground up at the same time we have been focused on 
accomplishing our mission.
    I can report to you today that TSA has produced significant results 
during its short existence:
  --On Saturday, April 19, 2003 the inaugural class of volunteer 
        commercial pilots graduated from TSA's Federal Flight Deck 
        Officer (FFDO) training. After 48 hours of intensive training, 
        these pilots were sworn in as federal law enforcement officers, 
        with jurisdiction limited to the flight deck, or cockpit. These 
        officers add another layer of security to the skies.
  --We have identified, intercepted, and therefore kept off aircraft 
        more than 4.8 million dangerous items, including 1,101 
        firearms; nearly 1.4 million knives; 39,842 box cutters; 
        125,273 incendiary or flammable objects; and 15,666 clubs.
  --We have put in place a Federalized passenger and baggage screener 
        workforce, which has been widely complimented as professional, 
        courteous, and competent.
  --We have recruited, trained, and deployed a professional cadre of 
        Federal Air Marshals, who protect passengers and provide 
        security on aircraft.
  --We have implemented 100 percent screening of checked baggage 
        through EDS or Congressionally approved alternative means.
    I am personally committed to making TSA a model workplace as we 
achieve these and even greater results. This means building and 
maintaining carefully a professional culture across the organization to 
form a foundation for future success. This culture includes:
  --Aligning our operational programs with DHS and TSA threat-based 
        risk management plan;
  --Close and constant communication with the entire TSA workforce and 
        our stakeholders about our mission, vision, values, and goals 
        and objectives;
  --A commitment to rigorous performance management, both at the 
        organizational and individual levels;
  --Creating a diverse and inclusive workplace culture based on mutual 
        respect, fairness, optimal communication, cooperative problem 
        solving and teamwork, and enabling all TSA employees to perform 
        at the highest level;
  --Continued targeted investments in critical training and information 
        technology to reduce the size of the workforce while maximizing 
        its impact;
  --Creating a streamlined and effective administrative infrastructure 
        to support all our operations.
    A key aspect of a true learning organization is to learn from past 
mistakes. We had some missteps last fall as we moved rapidly to hire 
screeners to meet the Congressionally mandated deadlines for 
Federalizing passenger screening checkpoints and complete 100 percent 
checked baggage screening. We have learned from these challenges and 
will continue to improve in this fiscal year and fiscal year 2004. Over 
the past several months, we have implemented several acquisition, 
financial, and other management initiatives that address fiscal year 
2002 concerns raised by the Subcommittee.
    As we build our culture and the organization, we must constantly 
focus on our mission. TSA's mission is to protect the Nation's 
transportation systems to ensure the freedom of movement for people and 
commerce. Our vision is to continuously set the standard for excellence 
in transportation security through TSA's people, processes, and 
technologies. We have embraced the values of integrity, innovation, and 
teamwork as we pursue excellence in public service. TSA also strives to 
be efficient and effective in its use of resources.
    Our strategic goals provide a clear understanding of our security 
responsibilities, including awareness of the full scope of potential 
risks; deployment of comprehensive prevention, protection and response 
activities; and organizational mandates to optimize performance and 
stewardship requirements. We are building a system of performance and 
accountability that incorporates a clear line of sight linking every 
employee's role and responsibility to the central TSA mission and 
strategic goals.
    In establishing and communicating our mission, vision and values, 
and in identifying our strategic goals, we have given all TSA employees 
and the stakeholders we serve a clear agenda of purpose and excellence. 
Our budget identifies the programs and resources required to most 
effectively achieve TSA's goals.
    In accomplishing our mission, we are also acutely aware of the 
challenge of maintaining balance--between freedom and security, and 
between security and customer service. Our mission is to ensure freedom 
of movement for people and commerce, and our process is to meet the 
needs and expectations of the American people with the greatest 
consideration for their privacy and the least disruption to their 
routine behavior. Our top priority is providing maximum security with 
minimum intrusion. TSA's fiscal year 2004 Budget of $4.812 billion is 
dedicated to stabilizing and strengthening our essential mission. Our 
fiscal year 2002 and fiscal year 2003 budgets included many large 
start-up costs, including the purchase and installation of necessary 
explosives detection equipment. Although these costs will not recur in 
fiscal year 2004, savings are partially offset by recurring costs for 
maintenance and administration. Before I summarize the key elements of 
our fiscal year 2004 Budget request, I would like to highlight several 
programs that I know are items of interest to Members of the 
Subcommittee.
  --Computer Assisted Passenger Pre-screening System.--Funding in the 
        amount of $35 million is requested for development of the 
        second generation Computer Assisted Passenger Pre-Screening 
        System (CAPPS II). CAPPS II is an automated threat assessment 
        tool for airline passengers that can be modified based on new 
        intelligence information and changing threat priorities. It 
        will enhance aviation security, refine the passenger secondary 
        screening selection process, and improve airport passenger 
        flow. We are aware of privacy concerns with this system and are 
        building strong privacy protections into the system to address 
        those concerns. We will continue to work with key stakeholders 
        as development of this system moves forward. As Secretary Ridge 
        has committed to Congress, we will work closely with the 
        Department's newly appointed Privacy Officer to ensure that 
        CAPPS II respects the privacy rights of Americans. We have also 
        held several briefings, both in closed and open session, for 
        Members of Congress and their staffs and will work with 
        Congress to create a better understanding of what CAPPS II is 
        and is not.
  --Federal Flight Deck Officers.--A request of $25 million will 
        support the first full year of implementation of federal flight 
        deck officer training, which supports the recently passed 
        legislation authorizing the arming of pilots. These pilots will 
        complement the Federal Air Marshals deployed within the 
        aircraft and will be authorized to act only if the cockpit is 
        threatened. TSA has established an initial program for 
        participant qualification and is planning for requalification 
        certification. Our prototype class just graduated April 19, and 
        it is expected that the training program will be ready for full 
        deployment in late fiscal year 2003 and fiscal year 2004.
  --Transportation Worker Identification Credential.--This initiative 
        focuses on developing identification standards for documents to 
        identify individuals for access purposes. Multiple types of 
        technology are being evaluated to determine the best approach.
  --Registered Traveler.--TSA requests $5 million to develop a 
        registered traveler program that will pre-screen low risk 
        travelers so that available resources can focus on unknown and 
        high-risk individuals.
  --Air Cargo Security.--The TSA budget requests $20 million to design 
        and develop a random, threat-based, risk-managed freight 
        screening process and continue the development of an automated 
        and enhanced ``known'' shipper program. It is estimated that 
        there are 12.5 million tons of cargo transported per year, 2.8 
        million tons of which is now secured on passenger planes and 
        9.7 million tons on cargo planes.
  --Explosives Detection System (EDS) Installation.--TSA is continuing 
        to work with airports to install remaining EDS systems and will 
        continue to ensure that all checked baggage is screened. As 
        part of our effort to utilize letters of intent (LOI) to 
        optimize these installations, TSA expects to amend its fiscal 
        year 2004 request within the proposed funding level to finance 
        LOI costs. We will do so in the near future.
    The five major components of the TSA budget are Aviation Security, 
Maritime and Land Security, Research and Development, Intelligence, and 
Administration.
Aviation Security
    The majority of TSA's budget is centered on securing the air 
transportation system, as provided in the Aviation and Transportation 
Security Act. The September 11 terrorist attacks highlighted the need 
for vigilant aviation security, and there is every indication that 
aviation will continue to be an attractive target for terrorist groups.
    Our first priority is to protect air travelers by continuing to 
build on the aviation security measures now in place at all of the 
Nation's more than 400 commercial airports, maintaining a balance 
between world-class security and outstanding customer service. TSA has 
set into place a system of reinforcing rings of security to mitigate 
the risk of future terrorist or criminal acts. These security measures 
cover air traffic from curbside to cockpit, supported overall by 
intelligence and threat analysis. In full compliance with Congressional 
deadlines and mandates, passenger and baggage screening operations are 
federalized and meet established standards of screening 100 percent of 
checked and unchecked baggage. The screeners we have trained and 
deployed put a face on TSA and provide to the American public the most 
visible expression of our efforts. Their thoroughness, professionalism, 
and courtesy are key elements in restoring and maintaining the 
traveling public's confidence in the safety of aviation. We have also 
deployed state-of-the-art metal detectors and explosives detection 
machines.
    TSA has selected 158 Federal Security Directors to oversee air 
transportation security, and worked with State and local officials to 
post law enforcement personnel at passengerscreening checkpoints. I 
appreciate the authority provided by Congress for flexible stationing 
of law enforcement officers where we feel it is appropriate. TSA both 
performs background checks for TSA airport personnel, and also 
undertakes regulatory inspection and enforcement of agency security 
directives. We are providing these security measures with a workforce 
that is proud of its important work and that has won the respect of the 
traveling public.
    The $4.2 billion request for aviation security activities for 
fiscal year 2004 includes approximately $1.8 billion for passenger 
screening, $944 million for baggage screening, and $1.5 billion for 
airport support and enforcement.
    Fully funding the fiscal year 2004 funding request will allow TSA 
to ensure the safety of the traveling public in secure airport 
terminals and aboard aircraft. TSA will continue to implement 
efficiencies in screening operations, including both technological 
enhancements and cross training of passenger and baggage screeners, to 
further reduce the reliance on personnel. As a result, our 2004 request 
represents a staffing decrease of 3,000 screeners as compared to 2003 
levels.
    We are requesting $27 million to expand deployment of technologies 
to improve physical security at the passenger and baggage screening 
checkpoints. We will be augmenting existing surveillance systems 
currently in use or planned at many airports, sharing cost and 
information with airports.
    The President is requesting a total of $45 million for risk 
management initiatives to increase the effectiveness and efficiencies 
of the passenger screening process. This includes the $35 million for 
the CAPPS II project already described above, plus $5 million to 
support the creation of a registered traveler program to increase 
security while decreasing the hassle factor for travelers. The goal of 
such a program is to better utilize available resources by focusing on 
unknown and high-risk individuals. Another $5 million is requested to 
continue background checks for airport personnel and vendors operating 
in secure terminals of an airport to streamline the gate screening 
process.
    To provide baggage-screening security, TSA uses a combination of 
EDS; explosives trace detection machines (ETD), and where necessary 
other congressionally approved alternative methods of screening, such 
as passenger-bag match, canine teams, and physical search. EDS is 
deployed as a cost-effective screening process at many of the higher 
volume and high-risk airports, and ETD is deployed as a comparable 
screening system of acceptable effectiveness at those airports where 
operational factors do not warrant EDS deployment.
    In 2004, TSA will continue to improve the efficiency and 
effectiveness of baggage and cargo screening. We expect ``on-screen'' 
resolution procedures to reduce many false alarms. We request $100 
million for in-service upgrades and maintenance of approximately 8,000 
explosives trace and detection devices at more that 400 commercial 
airports. TSA will continue to develop information on EDS performance 
to assure that our baggage screening equipment and procedures represent 
the most effective and reliable operations available.
    Consistent with our multi-layered approach, TSA requests $900 
million to provide strong security direction and enforcement presence 
on-site at the Nation's commercial airports. This funding will support 
a numbers of different activities. This includes the 158 Federal 
Security Directors and support staff, the required leasing of airport 
space and the development of IT infrastructure to support those 
offices. These funds will provide resources for working with State and 
local law enforcement personnel, where appropriate, to ensure passenger 
safety and national security. This funding will also continue the 
regulatory screening and enforcement program to monitor security 
measures performed by airport operators and air carriers. It is 
imperative that a standardized approach to physical aviation security 
measures be implemented at the Nation's airports. TSA field inspectors 
across the country will perform the regulatory screening and 
enforcement activities, which were previously administered by the 
Federal Aviation Administration's Civil Aviation Security program. 
Finally, this funding includes funds requested to expand the Federal 
Flight Deck Officer program to train and arm volunteer pilots.
    A request of $600 million will support the full complement of 
officer and support staff assigned to the Federal Air Marshal Service 
(FAMS). The Federal Air Marshals are an integral part of our layered 
rings of security for aviation, defending against on-board passengers 
intending to harm an aircraft and our aviation system.
Maritime & Land Security
    As the prospect of further terrorist attack continues to loom, the 
security of maritime and land transportation systems merits additional 
consideration. TSA, as part of the Border and Transportation Security 
Directorate, is partnering with other DHS organizations, such as the 
Coast Guard, the Bureau of Customs and Border Protection, the 
Information Analysis and Infrastructure Protection (IAIP) Directorate 
and the Science and Technology Directorate of DHS, to address other 
surface and maritime transportation security responsibilities.
    The Memorandum of Agreement I have signed with the Federal Aviation 
Administration and correspondence I have exchanged with Secretary 
Mineta establish the framework for continued cooperation with the 
Department of Transportation. We continue to partner with the operating 
administrations of the Department of Transportation, that provide a 
vital link with the transportation providers to ensure that there is 
neither duplication nor are there gaps in critical federal 
transportation security initiatives. The framework provides a vehicle 
for continuing cooperation and collaboration, and paves the way for 
further security-related legislation, rulemaking, resource utilization, 
and administration of transportation security grants.
    TSA is proceeding on a number of fronts, including.--(1) awarding 
grants to improve the security of ports and cargo, (2) working with the 
IAIP Directorate and the Coast Guard to design a terrorism risk 
assessment tool tailored specifically to maritime and surface 
transportation facilities, and (3) working with our other federal 
partners to ensure intermodal consistency, where appropriate, in 
security regulations for the national transportation system, including 
requirements that will facilitate assessing and improving the security 
of transportation facilities and infrastructure.
    TSA's Maritime and Land operations are continuing to work with 
IAIP, the Coast Guard, and the Bureau of Customs and Border Protection 
to develop security standards and regulations for all non-aviation 
modes of transportation. These efforts will include benchmarking to 
establish best practices, industry outreach, and extensive 
collaboration with Department of Transportation (DOT) agencies in order 
to leverage these agencies stakeholder contacts and transportation 
expertise. These standards will not displace or conflict with the 
security standards being developed by other federal agencies. Rather, 
they will complement the efforts of other federal agencies to ensure 
there are no gaps in the security of the national transportation 
system.
    Specific project funding included in the fiscal year 2004 
President's request includes $55 million for the Transportation Worker 
Identification Credential (TWIC), a sophisticated access control 
credential, and $2.5 million to complete work on our Operation Safe 
Commerce pilot program, to continue to learn the best approach to 
dealing with the container vulnerability threat.
Research & Development
    TSA is requesting $20 million for aviation related research and 
development initiatives in 2004. This request includes initiatives 
related to Next Generation EDS ($10.0 million), and Air Cargo ($10.0 
million). The Next Generation EDS initiative aims to increase 
throughput and lower false alarm rates at equivalent or better 
detection performance capability. This program will perform simulation 
and modeling of alternative checked baggage-screening technologies, and 
expand systems testing of off-airport screening capability. This 
research will also explore EDS screening capabilities for small 
airports.
    The request of $10 million for the Air Cargo Pilot will support 
research and development of new performance methodologies in detecting 
threats to air cargo. The 2004 effort will continue to address how 
existing devices and procedures can best be applied to air cargo, and 
to investigate new air technology security concepts, including advanced 
sensors for effective cargo screening.
Intelligence
    TSA is requesting $13,600,000 to continue to support 100 TSA 
intelligence positions in 2004. Included in the base funding request 
are base salaries and benefits, including locality pay, and data base 
access and equipment maintenance requirements. As part of DHS, TSA will 
work to integrate its analysis and products with other intelligence 
components of DHS while continuing to support its transportation 
customer base with analysis on transportation security and 
intelligence. DHS will disseminate information on possible threats as 
rapidly as possible to our Federal Security Directors, airport staff, 
and airline personnel, current and strategic warnings will be provided 
regarding threats to U.S. transportation modes, and trends and changes 
in targeting will be identified. TSA is working with IAIP to increase 
its intelligence capabilities increase in other transportation areas 
and to disseminate information to other key officials.
Administration
    Funding in the amount of $421.2 million is requested for essential 
administrative support of program activities. This amount represents 
less than 10 percent of TSA's total budget request, and provides 
financial and human resources support; information technology support; 
policy development and oversight; performance management and e-
government; communication, public information and legislative affairs; 
training and quality performance; internal conduct and audit; legal 
advice; and overall headquarters administration.
    Effective use of information technology (IT) is key to TSA's 
success, and $145.2 million of the administrative request supports 
information technology core requirements, which are being provided 
through a managed service contract.
    As a new organization, we have used the opportunity of our ``clean 
slate'' to create a lean administrative infrastructure that can serve 
as a model for other agencies. We have outsourced high volume 
administrative activities to streamline Government operations.
    TSA's management structure and business processes are fully aligned 
with the President's Management Agenda, and we are establishing a 
culture of management efficiency through initiative and innovation.
    In the human capital area, training and performance assessment will 
continue to receive high priority focus and resources, and in fiscal 
year 2004, TSA will address human capital planning, standards for 
internal accountability systems, and organizational development. We 
have stood up a large organization and now must concentrate on building 
the infrastructure to support that workforce.
    Competitive sourcing has been a key component of TSA since its 
inception, and TSA will continue to use the private sector to perform 
commercial functions whenever possible and appropriate. For example, 
TSA has outsourced the hiring, training, and servicing of screeners; 
the design and installation of explosives detection equipment; and the 
redesign and reconfiguration of passenger checkpoints. In fiscal year 
2004, TSA will continue to pursue contracting opportunities, 
particularly in the areas of equipment deployment and financial 
management, incorporating robust contract oversight into this process.
    Financial management is identified as a fundamental element of 
improving management of government programs. At its standup, TSA 
implemented the Department of Transportation's Delphi financial 
management system. Under the Department of Homeland Security, we are 
migrating to Oracle Financials, and exploring the use of Oracle and 
other financial systems to meet all Joint Financial Management 
Improvement Program requirements and to give managers budget and 
performance information on their program operations.
    The TSA budget request includes funding to continue to implement 
and maintain a comprehensive, enterprise-wide architecture to support 
TSA's mission and the President's E-Government initiative. This 
architecture will be the transport mechanism for data and will provide 
the necessary support services to TSA's major programs. TSA will also 
continue its e-government efforts through the implementation of the 
TSAWeb to provide public information as well as shared services and all 
mission-critical, operational and administrative applications for 
internal and external stakeholders.
    We will adopt budget and performance integration as the fundamental 
structure of TSA's program planning and execution to make sure we 
support and fund those programs that make American transportation 
systems more secure. We will establish accountability by linking how 
much we're spending with what we're achieving. TSA intends to implement 
full integration of cost accounting that links costs to performance 
goals and therefore to performance results.
    I have initiated a rightsizing project that will enable us to 
reduce the screener workforce as called for in both the fiscal year 
2003 and fiscal year 2004 budgets. Obviously, this will be done in a 
manner that is consistent with maintaining the security paradigm. We 
will use a riskbased approach to rightsize our workforce and 
demonstrate to the President and Congress that we are obtaining the 
maximum security and protection for the traveling public from the 
resources provided. That is our challenge and I intend to meet it.
    Mr. Chairman, Senator Byrd, Members of the Subcommittee, we intend 
to meet our responsibility for providing security for the Nation's 
transportation systems with both sensitivity and common sense, by 
meeting core statutory requirements, by developing and implementing 
supplementary programs, and by partnering with Federal, State, and 
local agencies, and with private industry and other stakeholders, to 
advance the mission of protecting our homeland.
    The role of the Transportation Security Administration in meeting 
this challenge is unmistakable. The nine stars and eleven stripes that 
appear behind the American eagle on the TSA logo are a daily visual 
reminder of the ``Why'' of our organization. The programs and resources 
I have talked about today represent the ``How''. I appreciate the 
support TSA has received from this Subcommittee and look forward to 
working with you as we continue this important effort. I will be 
pleased to answer your questions.

    Senator Cochran. We will now hear from Ms. Connie Patrick, 
Director of the Federal Law Enforcement Training Center.

                STATEMENT OF DIRECTOR CONNIE L. PATRICK

    Ms. Patrick. Good morning, Chairman Cochran, Senator Byrd, 
and the other distinguished members of the committee. It is a 
pleasure to be here with you today to discuss the President's 
fiscal year 2004 budget request, our first under the Department 
of Homeland Security.
    This marks our first opportunity to appear at--for me to 
appear before a Senate subcommittee since being appointed the 
Director of the Federal Law Enforcement Training Center in July 
2002.
    I want to extend my appreciation to Secretary Tom Ridge and 
Under Secretary Asa Hutchinson, who have already demonstrated 
their enthusiastic and unqualified support for the vital role 
of the FLETC and the role it is expected to play in the new 
Department of Homeland Security.
    I also want to acknowledge the support the Congress has 
long extended to the FLETC. I stand ready to work with you and 
direct the FLETC towards successful completion of the 
objectives set forth by the Administration and Congress in the 
protection of our national security and interests.
    The two pillars upon which FLETC was founded are quality in 
training and economy of scale. Neither of these can be achieved 
without the cooperation of our partner agencies. There are now 
75 partner agencies who train at the FLETC. And we all train 
under the concept of consolidated training, which means we 
share training knowledge and experience, funds, and law 
enforcement training uniformity and standardization to 
accomplish the mission.
    FLETC is now 33 years old. We have trained more than 
500,000 agents and officers across government, and have 
graduated them from both agent and officer training programs. 
Those programs include statutory requirements for law 
enforcement, as well as ethical training, firearms, physical 
training, investigative skills and techniques. I think it is 
important to mention that for every dollar given to training, 
it goes not directly to one agency, but to 75 agencies.
    Mr. Chairman, as we enter a new era in law enforcement 
operations in the United States, I believe that FLETC is a 
great example of a government approach intended by the 
legislation creating the Department of Homeland Security, a 
means to harmonize the work of many law enforcement agencies 
through common training, while at the same time maintaining 
quality and cost efficiency.
    In fiscal year 2003, 65 percent of the FLETC's projected 
workload will come from the nine law enforcement agencies 
transferred into Homeland Security. In fiscal year 2004, this 
work will continue to be above 50 percent of our estimated 
total Federal training workload. And within the last week those 
numbers have been reported to me to be approximately 73 percent 
of our workload, will come from the nine law enforcement 
agencies now in Homeland Security. In addition to that, we 
maintain robust State, local, and international law enforcement 
training activities, many of which will help further complement 
the mission to secure our homeland.
    Under the leadership of Secretary Ridge and Under Secretary 
Hutchinson, FLETC intends to work closely with all segments of 
DHS. FLETC, as a member of DHS, will help support the unity of 
command and the coordination and efficiency themes sought in 
the public law that created the Department.
    FLETC has a long history of service to many of the DHS 
components, to include the Secret Service, the Customs and 
Immigration and Naturalization Services, including the Border 
Patrol, the Federal Protective Service, and most recently, the 
Transportation Security Administration.
    With the establishment of the Bureaus of Customs and Border 
Protection and Immigration and Customs Enforcement, FLETC is 
ready to help facilitate, develop, and implement new training 
and cross-training programs. We recognize that much of this 
effort and expertise will necessarily come from the agencies 
involved, and that there will be significant adjustments made 
over time to all DHS-related training programs, basic and 
advanced. We are already involved in a systematic review of the 
existing training for these new entities to address the need to 
meld the duties of the participants. In the meantime, training 
will continue unabated to achieve the expectations of our 
agencies.

                    FISCAL YEAR 2004 BUDGET REQUEST

    In this fiscal year 2004 budget, the President submitted a 
budget request for the FLETC that included an operating 
expenses appropriation of approximately $122 million, and 754 
FTE. The request for the Capital Acquisitions appropriation is 
approximately $24 million, for a total request of just over 
$146 million.
    FLETC's overall fiscal year 2004 budget is $206.058 million 
based on an estimated $60 million in funds to be reimbursed by 
partner agencies for certain training and related services. As 
a matter of long-established fiscal policy, the FLETC 
operations are partially covered by agency reimbursements in 
addition to the appropriation authorized by Congress. 
Essentially, this has evolved to a point where FLETC funds the 
mandated entry-level training and facility development and 
operations, while the participating agencies reimburse us for 
certain training costs and support.

                         OVERVIEW OF OPERATIONS

    As part of my discussion, I would like to provide you with 
a brief overview of the operations of FLETC. We conduct both 
basic and advanced training for the vast majority of the 
Federal law enforcement officers in the United States. We 
provide training for State, local, and international officers 
in specialized program areas and support the training provided 
by our partner agencies that is specific to their individual 
mission needs.
    In addition to our onsite training at the FLETC residential 
facilities, some advanced training, particularly for State, 
local, and international law enforcement, are exported to 
regional sites, many of which are in your States, and that 
provides a lower cost of training to our customers, as well as 
making it more convenient for them to obtain training.

                                WORKLOAD

    As a result of the September 11 attacks, our partner 
agencies' workload have increased significantly. We are 
projecting the greatest increase in training requirements in 
our history. And to give you just a scale on that, before 2001, 
our highest training workload was about 25,000 students. This 
year we will train approximately 37,000, and the numbers 
projected for next year are somewhere around 55,000 students.
    Over the years, the FLETC has experienced a number of 
periods of sustained growth in the training requests by its 
partner agencies, and we have been able to accommodate those by 
being innovative in the use of our existing resources. To meet 
the training needs, the FLETC continues to work on a 6-day 
workweek at the Glynco facility, which we began in January of 
2002.
    This format allowed FLETC to accelerate training to get 
students on the streets more quickly. In fact, we have 
graduated about 2,000 more students this year than we would 
have had we not been on a 6-day work week, just to meet the 
needs of our agencies, primarily those in DHS.

                  FACILITIES CONSTRUCTION MASTER PLAN

    For future planning purposes, FLETC contracted with a 
private firm experienced in facility planning to conduct a 
study that will project future facility requirements. This 
study should be completed shortly. It is a three-phase plan 
that will place emphasis on eliminating capacity shortcomings 
at all FLETC sites.
    It is important to point out that as we consider the plan 
to be--that we consider this plan to be a living document that 
may still undergo significant changes in the future as the 
requirements of DHS agencies become clearer.

                    SELECTED ACHIEVEMENT HIGHLIGHTS

    Very briefly, I would like to discuss just a couple of the 
specific achievements based on the support Congress and the 
Administration have given us. We have exceeded all of our 
performance targets. We completed our third year of a financial 
audit with an unqualified opinion. We have begun partnering 
with the Office of Personnel Management to provide law 
enforcement training on the new GOLEARN site. This partnership, 
initiated on January 20th of 2003, provides the first-responder 
communities secured, encrypted access to both general and 
customized law enforcement training. We are very excited about 
the great opportunities that lie ahead in the field of 
technology through the use of blended learning, combining the 
best uses of distance learning and hands-on residential 
learning.
    And finally, I want to note the progress that has been made 
in the area of accreditation and standardization. This project 
is fully underway, working in collaboration with Federal 
agencies, including the FBI, DEA, and the U.S. Postal 
Inspection Service; private organizations; professional 
associations; and others to develop a format to accredit 
training facilities, the instructors, and programs and courses 
provided by every Federal law enforcement training 
organization. When this is fully implemented, it may prove to 
be one of the more far-reaching impacts that we have seen in 
law enforcement since the establishment of consolidated 
training itself.

                               CONCLUSION

    In closing, let me assure you that we are ready to provide 
the highest quality law enforcement training at the lowest 
possible cost. Substantial savings is being realized through 
the operation of consolidated training sites. We are aware of 
the important opportunities and challenges that remain ahead. I 
want to publicly commend the remarkable people at FLETC and in 
our partner agencies who have contributed so much to the 
success of consolidated training. This concludes my prepared 
statement, and I would be pleased to answer any questions that 
you might have at this time.
    [The statement follows:]

                Prepared Statement of Connie L. Patrick

    Chairman Cochran, Senator Byrd, and distinguished members of the 
Subcommittee. It is a pleasure to be with you today, and I am pleased 
to discuss the President's fiscal year 2004 budget request for the 
Federal Law Enforcement Training Center (FLETC)--its first under the 
Department of Homeland Security.
                            opening remarks
    This marks the first occasion that I am appearing before the 
Homeland Security Subcommittee since my appointment as Director of the 
FLETC in July 2002. I want to extend my appreciation to Secretary Tom 
Ridge and Under Secretary Asa Hutchinson, who have already demonstrated 
their enthusiastic and unqualified support for the vital role the FLETC 
is expected to play in the new Department of Homeland Security (DHS). I 
also want to acknowledge the generous support the Congress has long 
extended to the FLETC. I stand ready to work with you and direct the 
FLETC towards successful completion of the objectives set forth by the 
Administration and Congress in the protection of our national security 
and interests.
    The two pillars upon which the foundation of the FLETC was formed 
are quality in training and economy of scale. Neither of these can be 
achieved without the cooperation of our partner agencies. More than 75 
Federal agencies are now participating in the FLETC concept of 
consolidated training, which means shared training knowledge and 
experiences, better use of available funds, and law enforcement 
training uniformity and standardization. During its 33-year history, 
more than 500,000 agents and officers, across all three branches of 
government, have graduated from training conducted at FLETC, ranging 
from individual agency statutory enforcement responsibilities and the 
more common elements of training required for all agencies, including 
ethics, firearms use, physical training, and investigative skills and 
techniques. Furthermore each dollar provided to FLETC goes for the 
benefit and use of every partner organization.
    Mr. Chairman, as we enter a new era in law enforcement operations 
in the United States, I believe the FLETC is a good example of the new 
government approach intended by the legislation creating the DHS: a 
means to harmonize the work of many law enforcement agencies through 
common training, while at the same time maintaining quality and cost 
efficiency. In fiscal year 2003, 65 percent of the FLETC's projected 
training workload will come from nine law enforcement agencies 
transferred to the new Homeland Security department. In fiscal year 
2004, this workload will continue to be above 50 percent of our 
estimated total Federal training workload. In addition, FLETC maintains 
robust State, local, and international law enforcement training 
activities, many of which will help further complement the mission to 
secure the homeland.
    Under the leadership of Secretary Ridge and Under Secretary 
Hutchinson, FLETC intends to work closely with all segments of DHS. 
Placing FLETC within the DHS will help to support the ``unity of 
command'' and the coordination and efficiency themes sought in the 
public law that created DHS. FLETC has a long history of service to 
many of the DHS components--the U.S. Secret Service, the former Customs 
and Immigration and Naturalization Services including the U.S. Border 
Patrol (USBP), the Federal Protective Service and more recently, the 
Transportation Security Administration (TSA).
    With the start-up of the Bureaus of Customs and Border Protection 
and Immigration and Customs Enforcement, FLETC is ready to help 
facilitate, develop, and implement new training and cross training 
programs. We recognize that much of this effort and expertise will 
necessarily come from the agencies involved, but there likely will be 
significant adjustments made over time to all DHS-related training 
programs, basic and advanced. Already, an effort is underway to 
systematically review existing training for these new entities and to 
address whatever capabilities are needed to meld the duties of the 
participants. In the meantime, training will continue unabated to 
achieve all of the hiring expectations of our agencies.
    Our experience with the TSA is evidence of our capability to work 
collaboratively, flexibly and quickly. For example, together our two 
agencies developed and implemented a new Federal Air Marshal (FAM) 
training program within days of the September 11, 2001 attacks. FLETC 
also assisted in the development of the security screeners prototype 
training and is currently assisting in the prototype of a Federal 
Flight Deck Officers (FFDO) training program.
                    fiscal year 2004 budget request
    In his fiscal year 2004 budget, the President submitted a budget 
request for the FLETC that included an Operating Expenses (OE) 
appropriation of $122,379,000 and 754 full-time equivalents (FTE). The 
request for the Capital Acquisitions (CA) appropriation is for 
$23,679,000 and provides funding for all of the cyclical maintenance 
and upkeep of our permanent sites, including renovation of several 
older facilities in Glynco, GA.
    Together, the OE and CA fiscal year 2004 requests total 
$146,058,000. FLETC's overall fiscal year 2004 budget is $206,058,000 
based on an estimated $60,000,000 in funds to be reimbursed by partner 
agencies for certain training and related services. As a matter of long 
established fiscal policy, the FLETC operations are partially covered 
by agency reimbursements in addition to the appropriation authorized by 
Congress. Essentially, this has evolved to a point where FLETC funds 
the mandated entry level training and facility development and 
operations, while the participating agencies reimburse us for certain 
training costs and support.
    The fiscal year 2004 budget also revises FLETC performance measures 
to align them with the organization's mission and funding, consistent 
with the President's Management Agenda for budget and performance 
integration.
                         overview of operations
    As part of my fiscal year 2004 budget discussion, I would like to 
provide the Committee with a brief overview of the operations of the 
FLETC and the resulting workload.
    The FLETC conducts basic and advanced training for the vast 
majority of the Federal Government's law enforcement officers. We also 
provide training for State, local, and international law enforcement 
officers in specialized areas, and support the training provided by our 
partner agencies that is specific to their individual mission needs. 
There are now more than 200 separate training programs offered through 
the FLETC and its partners. Twenty-three agencies maintain training 
academy operations at Glynco, GA, three are housed at Artesia, NM and 
one is located in Cheltenham, MD.
    The FLETC provides entry-level training programs in basic law 
enforcement for police officers and criminal investigators, along with 
advanced training programs in areas such as marine law enforcement, 
anti-terrorism, computer forensics, health care fraud, and 
international banking and money laundering. Training is conducted at 
Glynco, GA, Artesia, NM, and Charleston, SC facilities.
    The Charleston, SC site was established in fiscal year 1996 to 
accommodate a large increase in the demand for basic training, 
particularly the former USBP. The training workload increase over a 
period of years for the former USBP and other former Immigration and 
Naturalization Service (INS) training categories was the direct result 
of initiatives to control illegal immigration along the United States' 
borders. That training is expected to continue to be of substantial 
importance with respect to the integration of border personnel and 
functions.
    In addition to the training conducted on-site at the FLETC's 
residential facilities, some advanced training, particularly for State, 
local, and international law enforcement, is exported to regional sites 
to make it more convenient and affordable for our customers. The use of 
export sites for other types of training has proven to be highly 
successful. In using these sites, most of which are local police 
academies, the FLETC does not incur any capital expenditure 
obligations.
                                workload
    During fiscal year 2002, the FLETC graduated 32,092 students, 
representing 160,677 student-weeks of training. This total included 
22,158 students who were trained at Glynco, GA; 5,952 students trained 
at Artesia, NM; 959 students trained at the training site in 
Charleston, SC; and 3,023 students trained in export programs. There 
were 19,881 basic students; 9,188 advanced students; and 3,023 
international students trained, providing for an average resident 
student population (ARSP) of 3,090.
    As a result of the tragic September 11th attacks, our partner 
agencies' workload projections increased significantly. FLETC is 
projecting the greatest increase in training requirements in its 
history. In fiscal year 2003, the FLETC will train 37,848 students 
representing 205,692 student-weeks of training. This total includes 
30,184 students to be trained at Glynco, GA; 3,423 students at Artesia, 
NM; 1,899 students in Charleston, SC; and 2,342 students in export 
programs. A total of 22,746 basic students; 12,760 advanced students; 
and 2,342 international students are projected for a total ARSP of 
3,956. Simply stated, this growth is unprecedented.
    Over the years, the FLETC has experienced a number of periods of 
sustained growth in the training requests by its partner agencies, and 
we have been able to accommodate most of these increases by being 
innovative in the use of our existing resources. To meet the training 
needs, the FLETC continues the 6-day workweek at Glynco, GA that was 
started in January 2002. By implementing this format, FLETC will be 
able to accelerate training to get students graduated more quickly and 
``on the streets''. Our inclusion of an additional day of training 
resulting in a 6-day workweek in fiscal year 2002, and into fiscal year 
2003, has enabled us to graduate over 2,000 more law enforcement 
officers and agents than we could have graduated on the normal 5-day 
workweek. Through the use of a multi-year reemployed annuitant hiring 
authority granted by the Congress in the Supplemental Appropriations, 
fiscal year 2002 (Public Law 107-206); careful scheduling of 
instructors and programs; and other measures, good progress has been 
maintained in meeting requirements. The fiscal year 2004 budget request 
includes sufficient funding to provide the level of training being 
requested by our Partner Agencies.
                  facilities construction master plan
    I would also like to brief you on the status of the progress that 
has been made in expanding the FLETC's facilities. The FLETC initiated 
a multi-year facilities construction program at the end of the last 
decade in order to meet the training growth needs of our partner 
organizations. Following the terrorist incidents of September 11, 2001, 
FLETC sites have been used nearly to capacity. For future planning 
purposes, FLETC contracted with a private firm experienced in 
facilities and site development to conduct a study that includes 
Artesia, NM; Glynco, GA; and Cheltenham, MD. The study, which should be 
completed in late spring, is a three-phase plan that places emphasis on 
eliminating the capacity shortcomings of Center facilities. With 
respect to facility construction, I also wanted to take a moment to 
discuss the Washington DC area site and some other accomplishments.
    Initial funds were appropriated in fiscal year 2001 for the 
development of a training site within the Washington, DC area, 
primarily for short-term requalification training and as a site for in-
service U.S. Capitol Police (USCP) training. The site ultimately 
selected, following an extensive review of available Federal sites, was 
the former naval communications base in Cheltenham, MD. Since assuming 
ownership of the Cheltenham, MD property, excellent progress is being 
made in design and development work. A completely enclosed and 
environmentally-safe firearms complex is under construction and 
expected to be completed in the fall of 2003, and construction will 
begin on a vehicle training complex for non-emergency, obstacle and 
pursuit driving and related support facilities in the next month or so. 
Also, consistent with appropriations, FLETC placed the highest priority 
on completion of an in-service academy operation for the USCP, for 
which the dedication and opening ceremony was conducted in September 
2002. The new building contains classrooms, offices and support 
capabilities to train 50-100 officers at any one time.
    Also, design work already has been completed and construction begun 
for most of the remaining projects, the majority of which will be 
completed by late 2003. The District of Columbia Metropolitan Police 
Department (MPDC) has transferred $4,000,000 to FLETC to help defray 
the cost of the firearms range complex. MPDC is one of the principal 
agencies specifically incorporated into the legislation as a partner 
organization at Cheltenham, MD. In total, the FLETC projects more than 
60 agencies in the Washington, DC area will receive requalification 
training at Cheltenham, MD when it is opened.
    With respect to other construction, I should note that in Artesia, 
NM the new Administration Building was completed this year. We expect 
to complete the new dining hall in June. Design has begun on a new 
classroom building that was funded in the fiscal year 2003 
appropriation. In Glynco, GA, the new Port-of-Entry Building became 
operational in March 2003. Later this year we plan to complete the 
renovation or construction of the Indoor Firearms Building, the 
Administrative Building and the Anti-Terrorism Building. Next year we 
plan to complete a Firearms Multi-Activity Building and an indoor 
Firearms range.
                 selected other achievement highlights
    I would also like to discuss briefly some of the FLETC's other 
specific achievements based on the past support of Congress and the 
Administration.
    In fiscal year 2002, the Center's overall performance against its 
most critical performance target, the Student Quality of Training 
Survey measure, was very good. A total of 99.3 percent of all 
graduating basic training students expressed satisfactory or higher 
rating of their training. Also, the FLETC's training costs measurement 
was below the cost figure established for the variable unit cost per 
basic student-week of training. The plan projected a weekly cost of 
$927, and the actual cost was $802. The volume of training conducted 
and the efficient management of facilities scheduling allowed us to 
realize reductions in costs.
    In fiscal year 2002, the FLETC had its third complete audit of its 
financial records and systems and received another ``unqualified 
opinion'' for its operations. By changing processes and procedures, the 
FLETC has been able to meet mandated goals. Systems standardization and 
integration played major roles in achieving fast-close and data quality 
end-of-year submissions.
    During fiscal year 2002, on behalf of U.S. law enforcement 
agencies, FLETC assumed the lead for the establishment of a United 
States International Law Enforcement Academy (ILEA) operation in 
Gaborone, Botswana, the first of its kind on the African continent. The 
official opening ceremonies were conducted in March 2003, with the 
President of Botswana and other African nation dignitaries 
participating. The academy, like similar sites in Europe and the Far 
East--under the joint direction of the Departments of State, Justice 
and now Homeland Security--is providing training to law enforcement 
officers from nations throughout that region, and is jointly funded by 
the Government of Botswana and the U.S. Department of State.
    The FLETC also has begun partnering with the Office of Personnel 
Management (OPM) to provide law enforcement training on the new OPM 
GOLEARN.gov training site. This partnership initiated on January 20, 
2003, provides the first responder communities (law enforcement, 
firefighter, public safety and health, and security personnel) secure, 
encrypted access to both general and customized law enforcement 
training. We are excited about the great opportunities that lie ahead 
in the field of this technology through the use of ``blended learning'' 
--combining the best uses of distance learning and hands-on residential 
learning.
    Finally, I want to note the progress that is being made in the area 
of accreditation and standardization of Federal law enforcement 
training based on an fiscal year 2002 appropriation and other 
authorized funds. This project is fully underway. FLETC is working in 
collaboration with Federal agencies, including the Federal Bureau of 
Investigation, the Drug Enforcement Administration, and the U.S. Postal 
Inspection Service; private organizations; professional associations; 
and others, to develop a format to accredit training facilities, 
instructors, and programs and courses provided by every Federal law 
enforcement organization. When fully implemented over the next several 
years, this project may prove to have the most far-reaching impact on 
the way law enforcement training is conducted at the Federal level 
since the establishment of consolidated training itself.
                                closing
    In closing, let me assure you that FLETC is committed to providing 
the highest quality law enforcement training at the lowest possible 
cost. Substantial savings are being realized through the operation of 
consolidated training sites. We are also aware of the important 
opportunities and challenges that lay ahead.
    The fiscal year 2004 budget request provides the resources to 
enable the FLETC to manage its responsibilities and continue to serve 
as a leading Government provider of high-quality law enforcement 
training to Federal, State, and local law enforcement officers. With 
the requested funds, the FLETC will provide cost-effective and 
contemporary law enforcement training, support the specialized training 
needs of State, local and international agencies, and deliver 
preventive and investigative law enforcement methodologies and 
terrorism training. I look forward to continuing to work with you and 
your support to successfully accomplish these objectives.
    I also want to publicly commend the remarkable people at FLETC and 
in our partner agencies who have contributed so much already to the 
success of consolidated training. Their talented assistance will 
continue to be of great benefit.
    Mr. Chairman and Members of the Subcommittee, this concludes my 
prepared statement. I would be happy to answer any questions you may 
have at this time.

                               COBRA FEES

    Senator Cochran. Thank you very much, Ms. Patrick.
    Mr. Bonner, I am going to ask each of you a question or two 
and--because we have several Senators here this morning, I am 
going to limit my initial round of questioning to 5 minutes and 
hope that other Senators will limit theirs to that time as 
well. We will continue to go around as long as Senators have 
questions to ask.
    In connection with the fees that are collected by your 
bureau, these are authorized by law. There are many different 
fees, as you know, immigration user fees, agriculture 
inspection fees. Some were authorized back in 1985 in the 
Consolidated Omnibus Budget Reconciliation Act (COBRA).
    The fees authorized by the COBRA expire as a matter of law 
at the end of this fiscal year. My question is, do you have a 
plan in place for making a recommendation to the Congress for 
new legislation authorizing the continued collection of fees, 
because well over $300 million worth of fees are going to be 
collected under that Act? It seems to me that if you have not 
started that process you need to start thinking about what you 
are going to recommend to the Congress in the way of new 
authority to collect fees.
    Mr. Bonner. Yes. Senator, you are absolutely right. A very 
important part of our funding comes from, and historically has 
come from, the so-called COBRA fees. And a large percentage of 
those are the air passenger user fees. Those have been used 
historically to fund virtually all of the U.S. Customs 
overtime, as well as approximately 1,100 to 1,200 actual FTE, 
in other words, Customs inspection positions.
    And those fees sunset, or expire, at the end of this fiscal 
year. The ideal plan would be that we would get appropriated 
funding to cover these, but I believe the plan that we are 
pursuing right now is to ask the Congress and this committee to 
extend these COBRA fees beyond the end of this fiscal year.
    And, in fact, if that does not happen, we will have a gap 
in the Customs and Border Protection budget of around $250 
million, because that is how much is generated right now 
primarily through air passenger user fees to support all of our 
overtime, and these 1,100 to 1,200 FTE.
    This is consistent with the Administration's request that 
when the budget came over the Administration has taken the 
position that it would be desirable to extend these COBRA fees, 
including the air passenger user fee.
    So that would be our plan. I am very hopeful that there 
will be an extension for 1 or more years of these user fees, so 
that we can continue to fund the overtime and inspectional 
positions that are supported by these user fees.

                        TSA SCREENER REDUCTIONS

    Senator Cochran. Admiral Loy, you recently announced that 
you were going to reduce the number of airport screeners, those 
who work looking at baggage and performing other security 
responsibilities at our Nation's airports. A lot of cutbacks 
are going to be made. I trust savings will be achieved in this 
effort.
    But, in doing that, you have established some categories in 
terms of size and employments at airports. One of our airports 
notified me that thinks it has been miscategorized. They have 
been put in a lower category than they think they ought to be 
in terms of the number of screeners. Specifically, this is the 
Biloxi/Gulfport or Gulfport/Biloxi airports depending on which 
town you are in, that is how you say that--you have got to be 
careful--on the Mississippi Gulf Coast, and it has been growing 
pretty rapidly down there in terms of the amount of business it 
handles. How would they go about appealing that decision, if 
they believe it is a factual miscalculation, and they are going 
to end up having to reduce screeners way beyond what they would 
have if they had been accurately categorized?
    Admiral Loy. Mr. Chairman, we are obviously after the truth 
and the right data to use for this enormously important 
calculation. We have challenged our Federal security directors 
responsible for all the 430 airports across our country to work 
with our airport directors in the aftermath of having received 
the figures that we provided. And should there be some 
structural error like you were just describing, we will work 
with that airport to get the right number.

                       FLETC FACILITIES EXPANSION

    Senator Cochran. Ms. Patrick, I heard you talk about the 
growth in the capacity that you are going to experience in 
terms of training Federal law enforcement officials. I assume 
this is going to require expansion of facilities or upgrading 
of facilities. Is there, in this budget, funding being 
requested for that purpose so you can accommodate the new 
responsibilities of the Center?
    Ms. Patrick. There are no capital acquisition items in this 
budget proposal. However, we are currently conducting a study 
to determine our capacities, not only at FLETC facilities, but 
at all of those facilities that are within DHS.
    And prior to coming into the Department of Homeland 
Security, we did not have jurisdiction over those facilities. 
And now that we are all co-located within DHS, Mr. Hutchinson 
has asked us to look at capacities to be gained for the benefit 
of all, at all those facilities, and that study is currently 
underway.
    We believe that we will be able to meet this year's goals 
and our master plan, 15-year master plan, will be completed 
this year, and we will have submissions for the fiscal year 
2005 budget that will have capital acquisition within it.
    Senator Cochran. Thank you very much.
    Senator Byrd.
    Senator Byrd. Thank you, Mr. Chairman.
    Thank you, members of the panel. We have a good audience 
this morning. Someone said something about looking over their 
shoulder. There are plenty of people watching you. I think it 
was Milton who said, ``They also serve who only stand and 
wait.''

                               U.S. VISIT

    Commissioner Bonner, one crucial component of providing for 
homeland security is ensuring that we, as a Government, know 
which foreigners are visiting our country, why those foreigners 
are here, and that those foreigners depart when they are 
required to do so. Our existing visa tracking systems are not 
doing the job.
    According to your budget justification documents, the 
illegal alien population has risen to record levels. The 
undocumented alien population has grown from approximately 3 
million in 1990 to an estimated 9 million today. In other 
words, it has tripled in 10 years.
    Your department estimates that approximately 40 percent of 
those 9 million individuals are aliens who arrived in this 
country lawfully, but who had subsequently violated the terms 
of their non-immigrant status. These are the 3.5 million 
individuals that an effective entry/exit system should track.
    The budget before us requests $480 million for the new 
entry/exit visa tracking system. This is $100 million over last 
year's level of funding. Recently, Secretary Ridge announced a 
major change in the program proposing to create the U.S. VISIT 
system and to add biometric identifiers to the mix.
    An entry/exit system was originally authorized by the 
Congress in 1996. A September 1998 deadline to get the system 
up and running was not met. A March 2001 deadline was not met.
    Now, the Department is required to meet a December 2003 
deadline, 7 years after an entry/exit system was originally 
authorized. Why should this subcommittee--Commissioner Bonner, 
why should this subcommittee believe that the Department is 
going to be successful in meeting the deadline for getting this 
system up and running? It has not done very well thus far.
    Mr. Bonner. Well, I would say, Senator Byrd, the Government 
has not done very well in getting it up and running given the 
history, but it is a new era. That is number one.
    The agency that was responsible for implementing the entry/
exit system was the INS. It was part of the Justice Department. 
I think there is some issue, by the way, historically as to 
whether and when that was funded. I do not think we need to go 
into that, but I would say this, it is a new era. There is a 
new department in government that is now responsible for taking 
on and implementing the entry/exit system, which I believe 
Secretary Ridge has renamed U.S. VISIT.
    And I know that this is among the highest priorities of the 
Department of Homeland Security--to implement an entry/exit 
system that will give us the ability to identify those 
individuals who have legally entered the country with visas but 
have either overstayed their visas or are no longer entitled to 
be in this country. We will have a system that will let us know 
that they have not exited the country and we will be able, with 
the appropriate resources, to locate and remove them from our 
country.
    Now, I believe that this is going to be done, because I am 
very much aware that Secretary Ridge himself and Under 
Secretary Hutchinson are personally involved and committed to 
making this happen, and obviously I and everybody else within 
the Department of Homeland Security will be contributing to 
that effort to see that it gets done.
    It is huge. If I said that this is not an extraordinary 
challenge to get this done within the timelines that have been 
set forth by the Congress, I would be less than candid with 
this committee, because----
    Senator Byrd. What----
    Mr. Bonner [continuing]. I think it is an enormous 
challenge. I actually personally----
    Senator Byrd. My time is short.
    Mr. Bonner. Yes.
    Senator Byrd. What time--if you will forgive me?
    Mr. Bonner. Yes, sir.
    Senator Byrd. What specific steps are you taking to make 
this happen?
    Mr. Bonner. Well, number one, I understand that there has 
been a program review undertaken by the Department of Homeland 
Security. I further understand that the ownership, if you will, 
of this program is going to be vested in the Border and 
Transportation Security Directorate, and that there is every 
intention, Senator, of meeting the ambitious timeline, which is 
by December of this year. We will do everything we can to have 
an entry/exit system deployed at least to certain of the 
international airports within the timeline.
    Customs and Border Protection is contributing to this, 
because the entry/exit system ultimately is going to have to be 
put at international airports, the land borders, every place 
that people move in and out of this country. And so we are 
contributing to what the infrastructure issues are, and the 
funding requirements. There is also obviously, as you know, an 
information technology and a biometric part of this.
    But it is a task that is being undertaken by the Department 
of Homeland Security, not just within Customs and Border 
Protection.
    Senator Byrd. You have referred to biometrics, are you 
working with the Defense Department in this regard?
    Mr. Bonner. Senator, I do not know, but I believe the 
Department of Homeland Security is. As I say, Customs and 
Border Protection has not been given ownership of this program. 
Nobody has come to me and said, ``Commissioner Bonner, I want 
you to make this happen.'' So I am not personally and directly 
involved in the actual development of the program at this 
juncture.
    Senator Byrd. The reason I ask, the Defense Department has 
a biometrics program, which the Appropriations Committee has 
been following and funding. You have referred to----
    Mr. Bonner. I will find out for you, Senator, and----
    Senator Byrd. Thank you. You have referred to your need for 
resources, financial resources. The budget requests $480 
million for the entry/exit system. In light of the recently 
announced biometrics component to the new U.S. VISIT system, 
will this request be enough?
    Mr. Bonner. I do not know the answer to that. I will have 
to----
    Senator Byrd. Is there anyone there who can help you on 
that question?
    Mr. Bonner. Well----
    Senator Byrd. Anyone that----
    Mr. Bonner. This is something that is going to have to be 
answered at the departmental level by the responsible program 
managers, Senator Byrd. I will pass it along and we will see if 
we cannot get you an answer.
    Senator Byrd. Well, we will hope for that.

                    FISCAL YEAR 2004 BUDGET REQUEST

    One crucial component of providing for homeland security is 
that you be provided with the--with adequate funding resources, 
and at our hearing with Under Secretary Hutchinson last week, I 
asked him how much he had requested of the OMB for his agencies 
for the coming fiscal year. He said that he did not have that 
information in front of him, and when I asked if he would 
provide the information to the committee I believe he fuzzed up 
the response a little bit.
    I understand the requirement that agency heads must support 
the President's budget request as submitted, but agency heads 
must also be responsive to the Congress, the elected 
representatives of the people. The military branches are not at 
all shy about providing information to the Congress on their 
original requests for funding. And this causes me to wonder why 
other agencies are more reluctant than the military.
    I believe that the budget request for most of the 
Department of Homeland Security agencies are insufficient. It 
would be valuable for the committee to know what the agencies 
that are actually defending the homeland think their budget 
requirements are, not just the final opinion of the budget 
personnel at the Office of Management and Budget.
    Commissioner Bonner, how much did you request in the way of 
funding in your fiscal year 2004 budget submission to the 
Office of Management and Budget?
    Mr. Bonner. Senator Byrd, first of all, just by way of 
process, this is an incredibly unusual year in one sense, 
because we are merging with Customs all of these other 
elements, the Border Patrol, all of the immigration inspection 
program, and so forth.
    I have absolutely no idea what was requested for Border 
Patrol or the Immigration Inspection. I had no part in how that 
was developed. When that budget was developed, INS was part of 
the Justice Department, and it went to the Attorney General. 
Something went forward from the AG to OMB.
    I obviously played a part in developing the U.S. Customs 
budget request, and processing that up through the Treasury 
Department.
    I can tell you that there was, of course, an unusual 
process this year in the sense that the Treasury Department 
looked at our budget, and I guess it is fair to say, they 
punted. They did not know what to do with it and so forth.
    I can tell you that I believe as a result of then Governor 
Ridge's capacity in the Office of Homeland Security, we did get 
a substantial initiative funding ultimately through OMB.
    As I sit here, I do not know exactly what our request was. 
I am very aware of the question you put to Under Secretary 
Hutchinson, and I do not want to give you, Senator, a fuzzy 
answer.
    At this point I think that prudence would dictate that if 
you are interested, and I think you are interested, in what 
request ultimately went to OMB with respect to, let us say, the 
Customs side of this budget, that is something I just have to 
tell you, I would need to consult with the Department 
leadership as to what position they are going to take with the 
request that you made of Under Secretary Hutchinson.
    And I do not know precisely what that position is, but I am 
just a mere Commissioner of the Customs and Border Protection, 
and I have a chain of command, which is I report to Asa 
Hutchinson as the Under Secretary, and he reports to Secretary 
Ridge.
    So I do not want to fuzz an answer here. I am just going to 
say that I will look into that question. I understand the 
request the Senator is making. If there is a way that we can 
affirmatively respond to that request, I will make every effort 
to see that we do that.
    Senator Byrd. Well, if you can, do that. The people have 
the right to know and the elected representatives of the people 
on this committee have a right to know. But we also need to 
know in order to adequately meet your funding needs. And you 
referred to the need for having adequate resources in your 
statement. And it would be very helpful to the committee--as a 
matter of fact having been on this committee now 45 years--I am 
in my 45th year on the Appropriations Committee, that is a 
rather, in a way, stunning response to a very legitimate 
question.
    Will you provide this subcommittee with that information 
for the record?
    Mr. Bonner. I will, if after discussions with the 
Department, it is okayed.
    Senator Byrd. You mean--are you meaning to say to me if it 
is okay that this committee has that information?
    Mr. Bonner. I----
    Senator Byrd. The reason we--the reason it helps the 
committee is because we really know then what you perceived as 
being the needs, the funding needs in order to meet your goal 
and carry out your responsibility. We really get a better 
insight if we have that information.
    Mr. Bonner. Senator, I know exactly what you are saying. I 
have been around, actually have testified before the 
Appropriations Committee and subcommittees, and I understand 
the important work that this committee has and must do, so I 
understand that. But you did put the request to Under Secretary 
Hutchinson, and I know that that is being looked at in terms of 
whether the Border and Transportation Security Directorate and 
the component agencies under the Border and Transportation 
Security Directorate can provide the information. The request 
essentially went to OMB.
    Senator, with all due respect to you, sir, and to this 
committee, I will make it very clear the importance that you 
attribute to this and, frankly, the importance for the 
committee itself, the subcommittee, in terms of its evaluation 
of the budget request to have this information. I will get an 
answer back to you, but it will have to be after consultations 
with the higher-ups in the Department of Homeland Security.
    Senator Byrd. Would you accept----
    Senator Cochran. Senator, your time has expired.
    Senator Byrd. Yes. I just have a P.S. here. Would you 
accept a slight modification to your own statement, ``and the 
importance to the Department''?
    Mr. Bonner. I will accept that as well.
    Senator Byrd. I thank the Commissioner.
    Senator Cochran. Thank you, Senator.
    Senator Domenici.
    Senator Domenici. Thank you very much, Mr. Chairman.
    Well, let me stay with you, Mr. Bonner, for a little bit.

         U.S. BORDER INFRASTRUCTURE AND TECHNOLOGY REQUIREMENTS

    You heard me in my opening remarks talk about the borders 
of the United States between Mexico and Canada. I happen to 
know something about it because one of my early appropriations 
assignments, about 12 or 14 years ago, happened to be the 
subcommittee that had the border. That was the only time in the 
past 40 or 50 years that we did anything of a comprehensive 
nature in an effort to repair and modernize some of the border 
facilities.
    So I have a very serious interest in the condition of the 
border crossings and the equipment on the borders with Mexico 
and Canada--I know more about Mexico than Canada. I have 
introduced a bill, on which I think we will have a hearing 
soon.
    That says one of the shortcomings is that we do not have a 
master plan for how we go about bringing these border crossings 
current, which ones need to be reformed, remodeled, torn down, 
rebuilt, added to, et cetera, and in which order. We do not 
have any plan for what new technology there is and how we can 
implement the use of the new technology at our border 
crossings.
    I say to you there is nothing more important with reference 
to the control of our borders, both for trade and contraband 
and illicit crossings than that these borders be made modern. 
Do you agree with that?
    Mr. Bonner. I do. I am also familiar with a good many of 
the ports of entry, both on the northern and southern border, 
and we have some serious modernization we have to do, and 
infrastructure improvements to do that would permit better 
security with technology, and at the same time be able to 
better facilitate the movement of legitimate trade and people 
across----
    Senator Domenici. Sir, I believe that border crossings 
between Mexico and the United States in particular require a 
little bit of vision, require that somebody begin to think 
about the future.
    I can imagine a day when there would be a common border 
crossing manned by Mexicans and Americans, and that we would 
not go through two crossings, and that the technology be modern 
for both sides. I can imagine a couple of border crossings that 
would be built as now, within the next 18 months, as ultra-
modern crossings with every modern type of technology 
available, sort of as a model to look at, to see what can be 
done for our borders to bring them into a better state of 
repair. This is not because we want them to look good or 
because I am a high-tech buff, but rather they will do a much 
better job.
    Could you talk to that and could you assure the committee 
that you are going to look into modernization of these ports of 
entry and implementation of modern technology at the crossings?
    Mr. Bonner. I will assure you right now that that is 
something that we are looking at, we will continue need to look 
at, and I would like to work with this committee and you, 
Senator, with respect to how that might best be done, where the 
priority areas are, and how we construct the infrastructure so 
that we are efficiently using the existing technology we have, 
detection technology and the like, radiation detection 
technology, and so on, in the best possible way.
    I think this is a very important issue. It is something 
that I have been discussing with Secretary Ridge over the last 
18 months or so. I have had discussions with the Canadians and 
the Mexican Government about how we might work better together.
    Senator Domenici. Yes.
    Mr. Bonner. Right now, we have maybe four or five very 
small ports of entry that are shared with the Canadians.
    Senator Domenici. Yes.
    Mr. Bonner. So it is not as if it has never been done. It 
can be done. We need to look at doing more of that.
    Senator Domenici. I wonder if you would take a look at 
Senate Bill 539 and tell the committee what you think about it 
in terms of whether it might help meet the needs that you are 
identifying together for the border.
    Mr. Bonner. Right. Is this the bill that you have 
recently----
    Senator Domenici. Yes, that I have alluded to.
    Mr. Bonner. Right. And as I think you may know, Senator, 
the Congressional Affairs Office has been working with members 
of your staff on that legislation. I have not studied it in 
depth yet.
    Senator Domenici. Yes, I understand.
    Mr. Bonner [continuing]. To be familiar with----
    Senator Domenici. I do not need a lot of explanation on it. 
I would just like you to take a look at it, and through your 
good office comment for the record on what parts of it you 
think you need, and whether it should be implemented.
    Mr. Bonner. I would be happy to do that. With your 
permission, Senator, is that something I can do and submit 
something for the record?
    Senator Domenici. Absolutely----
    Mr. Bonner. All right.
    Senator Domenici [continuing]. In due course. Is that 
correct, Mr. Chairman?
    Senator Cochran. We would appreciate the fact that you 
would do that. We will make that a part of the record.
    Mr. Bonner. All right. Thank you.
    [The information follows:]
                                 S. 539
    As requested, the Bureau of Customs and Border Protection (BCBP) 
has reviewed S. 539, the Border Infrastructure and Technology 
Modernization Act. The bill responds to the infrastructure issues 
facing many ports of entry. It would dramatically further address the 
requirements identified in the Ports of Entry Infrastructure Assessment 
Study completed by the U.S. Customs Service in consultation with GSA 
and other Federal Inspection Service agencies in June 2000. The agency 
appreciates the support of Senator Domenici and his cosponsors.

           ``FIRST USE'' ASSURANCE FOR FLETC-OWNED FACILITIES

    Senator Domenici. I will quickly go to my next question. It 
has to do with FLETC.
    Ms. Patrick, there are some people that know that this 
Senator has a genuine and longstanding interest in FLETC.
    That is why, Senator Byrd, quite by accident when I was a 
brand-new Senator, I attached a rider to a public works bill 
where FLETC was going to be built brand-new somewhere here in 
Maryland. I put a little rider on the bill and said, ``Do not 
build it for a year and look around the country and see if we 
happen to have a place we already own.''
    And guess what? In the 10 month of that study, they found 
this Navy base, which is where it is now, this giant facility 
in Georgia. It was found that way.
    And so since that time, I have had an interest in FLETC, 
and a piece of it is now in New Mexico at Artesia. It is 
growing. What I would like to know from you, ma'am, on the 
record, I would like your assurance that as you look at 
training needs that you will, in fact, use FLETC's facilities 
first for the required training that FLETC is expected to do 
under the law. Secondly, that people will not be sent to other 
kinds of training centers and facilities in preference to a 
FLETC-owned facility, if there is facility available for such 
training. Can we have that assurance?
    Ms. Patrick. You can.
    Senator Domenici. I believe you are already aware of that 
problem as it exists, as I have expressed it to you, in my 
office, are you not?
    Ms. Patrick. I am.
    Senator Domenici. Sometimes agencies want to move trainees 
off to some other place closer to a home or where they would 
like to be, miles away from where the training, original 
training is, and you are going to look at whether or not that 
is a practical thing for FLETC in the future, is that correct?
    Ms. Patrick. Yes, I am.

                        UNMANNED AERIAL VEHICLES

    Senator Domenici. My last question has to do with the use 
of unmanned vehicles on the border. Who is the expert on that? 
Does that belong to you too, Mr. Bonner?
    Mr. Bonner. I may not be the expert on it----
    Senator Domenici. Yes.
    Mr. Bonner [continuing]. But it really belongs to me.
    Senator Domenici. Could you tell me if there is a plan 
being developed as to where we will use and what we will do 
with unmanned vehicles in an effort to assist us with 
ascertaining what is going on our borders?
    Mr. Bonner. Now, by unmanned vehicles, you mean the drone 
aircraft and that sort of thing----
    Senator Domenici. Yes.
    Mr. Bonner [continuing]. That have been used so 
successfully by our military----
    Senator Domenici. Yes.
    Mr. Bonner [continuing]. And--overseas?
    I know there is a lot of interest in this, and I do not 
mean to be unresponsive. I have asked for a briefing myself----
    Senator Domenici. All right.
    Mr. Bonner [continuing]. As to how unmanned vehicles or 
drones could be helpful. I think there is some potential there, 
but I want to make sure that it makes sense. There is potential 
in the sense that we have, as you know, on our southwest border 
with Mexico, we have a huge problem that remains, and that is 
that we do not totally control the borders of our country.
    Senator Domenici. Right.
    Mr. Bonner. And we have huge amounts, significant amounts 
of both illegal aliens and illegal drugs flowing across that 
border through the ports of entry and between the ports of 
entry. We do not have in my judgment a sufficient surveillance 
air capability in the Border Patrol at this juncture for that. 
So it sounds like something that might be very, very helpful, 
but I need to understand how it would work and how it would 
work in conjunction with, let us say, cueing the Border Patrol, 
Border Patrol agents to the situation and----
    Senator Domenici. Sir, would you take a look at it and, for 
the record, give us your best judgment of whether UAVs are 
going to be used, and how they might work, so we will have an 
understanding?
    Mr. Bonner. Happy to do that, sir.
    [The information follows:]
                    Unmanned Aerial Vehicles (UAVs)
    The Border and Transportation Security Directorate has asked the 
Science and Technology Directorate to evaluate the use of UAVs in a 
Border and Transportation Security environment. S&T was also asked to 
evaluate other potential applications.
    Until the requirements have been scoped to determine the 
feasibility and extent of a UAV program, we cannot predict either what 
amount of funding or type of facilities might be appropriate for the 
Department to implement a UAV program.
    At this time, it is unknown what the timeline would be for the 
Department to implement this type of initiative. A proposed project 
plan including milestones and deliverables is expected to be ready for 
review by early summer, 2003. The project plan will discuss a BTS-
specific project as well as strategies in developing UAV initiatives in 
the near, mid, and long term for DHS venues such as borders and ports.
    After UAV program feasibility, requirements and scope are 
determined, a more detailed assessment on available testing and 
deployment facilities would need to be made.

    Senator Domenici. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator Domenici.
    Senator Murray.

                         24-HOUR MANIFEST RULE

    Senator Murray. Thank you very much, Mr. Chairman.
    Commissioner Bonner, let me begin by just thanking you for 
all of your efforts on the 24-hour manifest rule for U.S.-bound 
container cargo. You and I discussed this in my office, and I 
shared with you my concerns that the economic implications and 
the security implications as cargo is being diverted to 
Vancouver--and I know you have worked hard with the Canadians 
and I understand that they have agreed to implement a similar 
rule, and I really applaud that decision.
    But I have to tell you I have real concerns that Canada is 
going to continue to use the time before implementing a rule to 
divert cargo and business from U.S. ports in the Pacific 
Northwest. This is really an important issue to us in Seattle 
and Tacoma, and I wondered if you could give me an update on 
your discussions with the Canadians on this issue, and 
specifically any information about when Canada will finally 
implement its 24-hour rule?
    Mr. Bonner. Right. Let me bring you up to date on that. 
First of all, the good news is that the Canadian Government--
and this was the Canadian Customs and Revenue Agency that was 
very much involved in this--has decided to adopt essentially 
the identical 24-hour rule, and to move quickly to do that. 
They need to get some regulations out just like we would for 
comment and the like.
    But I will continue, as I did at the shared border accord 
meeting with our Canadian counterparts in Halifax, Canada, just 
about 3 weeks ago, to prod them to move more quickly in terms 
of getting those regulations out and implemented.
    I am very concerned about the issue that we discussed with 
respect to the potential diversion of container traffic from 
any U.S. sea port including the port of Seattle-Tacoma and so 
forth to Vancouver. I think you have seen some public 
statements I have made, and that is to say that if we believe 
that any shipping line is attempting to evade the U.S. 24-hour 
rule by diverting containers to, let us say, a Canadian port or 
any other port, we are going to increase our inspectional 
efforts with respect to those containers in two ways.
    One, we have U.S. Customs and Border Protection personnel 
right now at Vancouver, at the Canadian port, and so we will be 
increasing and asking the Canadians to work with us to increase 
the rate of inspections for anything that appears to be 
diverted, because by definition, it is a higher risk container 
if somebody is trying to evade our advance manifest reporting 
requirements.
    And secondly, we have a chance to examine it again when it 
reaches the U.S. border, either on a truck or by rail.
    So I made it very clear, if we see evidence of that--and I 
would be happy to have further discussions with you on this, if 
we see evidence of that, we are going to take some action, and 
I have talked to, as you know, the head of the port authority 
there in Seattle, and I will continue to monitor that 
situation.
    The best answer, though, is the Canadians adopt and 
implement their regulation that is identical to ours so there 
is no advantage by virtue of the advanced manifest information 
requirement by shipping cargo containers destined for the 
United States to Vancouver or to Halifax.
    Senator Murray. Thank you. I really appreciate that and 
appreciate your staying on top of it, because it is both an 
economic concern, but it is also a security concern. And we 
want to make sure that they do not just say they are 
implementing the rule and it takes forever, and we have cargo 
coming in and moving to the United States in other ports. So I 
really appreciate your answer to that question.

                           CONTAINER SECURITY

    Admiral Loy, I wanted to talk to you about container 
security. TSA received $28 million for Operation Safe Commerce 
back in 2002, and another $30 million for that in 2003. So far, 
not a penny of that money has been spent.
    This is an initiative that I authored to enable TSA to 
ensure the security of the 6 million containers that come into 
our ports every year by monitoring their movement from the time 
they are loaded to the time that they are unloaded.
    Now, TSA promised me that the 2002 funds for this 
initiative would be spent by February of this year. It was not 
done. Now, they are telling me it is going to be spent by June. 
I asked Secretary Ridge about this last week, and he promised 
to get back to me, but I have not heard from him yet on this. 
So can you explain to this subcommittee why TSA has not moved 
forward on Operation Safe Commerce that has now been funded in 
two separate fiscal years to address terrorist threats to 
global container traffic?
    Admiral Loy. Yes, ma'am. I will. You are absolutely right. 
The $28 million was a 2002 appropriation. For 2003 there was an 
amount of $30 million, and for 2004, we are asking for another 
couple of million dollars to sort of tidy up the program.
    As you know, we have made a broadcast announcement with 
respect to applications from the three major load centers that 
are associated with Safe Commerce. You and I had spoken about 
the notion of port of origin to point of destination in 
transit, supply chain transparency for the obvious value that 
that represents. And we have worked with the Coast Guard, with 
Customs, now BCBP, on a variety of these challenges associated 
with Safe Commerce.
    At the moment, there are implications in the spending plan 
that we will get to the Congress, I would hope, within days 
associated with Safe Commerce.
    I can say that the application package that solicited from 
the three major load ports almost a billion dollars' worth of 
applications for how best to use those funds are in hand, are 
being evaluated, and are staged for. As soon as that spending 
plan is blessed, they will go out the door, such that the 
appropriated dollars, and not only for the $30 million that we 
have in 2003. We want to make sure those dollars potentially 
can become appropriated against that same application package.
    Senator Murray. So can you assure me that all $58 million 
will be spent on this, and that it will not be diverted to some 
other program under TSA?
    Admiral Loy. I cannot assure you of that, as we speak here 
this morning, Senator Murray. I think the potential for fixing, 
as Senator Byrd was inferring, the structural shortfall in the 
TSA budget for 2003 offers us unfortunately the challenge of 
looking for funds in places that have the potential for 
reprogramming or have the potential for being found.
    Senator Murray. Well, I just have to say that is really 
disconcerting. We appropriated those funds properly through 
Congress, specifically for Operation Safe Commerce. The three 
ports that are involved, Seattle-Tacoma, Los Angeles, New York, 
have been working diligently now for almost 2 years to put 
together their requests. And we now have 6 million containers 
coming into this country that we do not know--and we have not 
tracked them, we do not know what is in them. This is a vital 
issue for all of us who have States that are close to these.
    It should be a vital interest for every State in this 
country because of the economic impact. I do not want to see 
any of that money diverted. This is what Congress said it was 
to be spent for.
    Admiral Loy. I understand.
    Senator Murray. Well, we will continue to follow that 
throughout the process.
    In fact, Commissioner Bonner, if you could respond. You are 
a member of the steering committee to implement Operation Safe 
Commerce. Can you tell me why, from your point of view, none of 
this funding has been spent yet?
    Mr. Bonner. I know that we are co-chairing with TSA and 
reviewing the applications for the funding that has been made 
available. And I understand that decisions with respect to 
funding are fairly close.
    I do not know whether it is the $28 million or the $30 
million. I think it is the first $28 million, but I could be 
mistaken.
    This is very, very important, as you know, and I know 
Admiral Loy agrees, that we test out smarter containers, more 
secure containers that are moving from foreign ports to the 
United States. And that is what this funding is going to do.
    I do not know that I can speak to the delay per se other 
than I know that there has been a process of getting 
applications from the various ports and the various parties in 
interest here, and making some decisions with respect to which 
proposals make the most sense in terms of giving us, 
potentially, at the end of the day something that would be 
useful to us for purposes of securing containers.
    Senator Murray. Well, let me just say that the ports all 
have their requests in, and if the delay is so that we can 
divert funds, that is not acceptable. We need to get this money 
out there.
    And, Admiral Loy, you said in your opening statement that 
you care about security in all modes of transportation. If we 
cut container security initiatives, we are not paying attention 
to all modes of transportation. So this is something that I am 
going to continue to follow and I want to have follow up 
conversations with you on this.
    I want to make sure this money goes to container security. 
We have ports in this Nation that are extremely vulnerable 
right now with all of these containers coming and we do not 
know what is in them. And I just simply think we cannot ignore 
this, and we cannot divert the funds that are supposed to go 
for that important initiative. So I will continue to have this 
discussion with you.
    Mr. Bonner. We do have information, Senator, in terms of 
what is in containers and that sort of thing. We have required 
that by regulation now, before those containers are even loaded 
on the foreign ports.
    So we do have information about what is in there. We are 
evaluating that information. We are making risk management 
decisions as to which containers pose a high risk for security, 
and need to be screened. And under CSI we are now doing 
targeting and screening at foreign ports in Singapore and so 
forth.
    Senator Murray. I understand that. But there is a 
difference between doing that at the port and doing it, 
tracking that container, knowing where it is and where it comes 
in. And not just at the port. In the Port of Seattle, it is 
loaded onto a truck or a train and it ends up being unloaded in 
Chicago or somewhere else. So knowing what is in that container 
and keeping track of that container is an important initiative 
in terms of security.
    Admiral Loy. Across the entire supply chain, as you 
describe.
    Senator Murray. That is correct.

                      EXPLOSIVE DETECTION SYSTEMS

    Admiral Loy, I am also very concerned with the delays in 
funding, the extraordinary costs of installing the explosive 
detection systems, EDS systems, at the new south terminal 
expansion at SeaTac Airport in my State. Over the last couple 
of years, I have worked to provide your agency almost $500 
million more for those airport modifications than your 
Administration requested of Congress. Both the 2002 
supplemental appropriations and the 2003 omnibus specifically 
cited the needs of the projects at SeaTac. And just a few days 
ago, you announced, I believe, your attention to sign letters 
of intent to fund these airport projects and said that Seattle 
would be one of them.
    But it is my understanding these letters have not been 
signed. Can you tell me when you expect to finally sign a 
letter of intent with the SeaTac Airport on that?
    Admiral Loy. Senator Murray, I hope we are able to do that 
within a week or two. Our whole capacity to fund what this 
organization is responsible for is bound up in this spending 
plan challenge that we have had for 2003. You know how 
difficult that has been from the very beginning. In the 
aftermath of the original request, which of course developed 4 
or 5 months' worth of CR challenges for those of us who had to 
live within that, including in the TSA's part that the first 
quarter, which was enormously capital intensive for us, because 
that is when we had hoped to purchase all the rest of the EDS 
equipment and pay an enormous amount of contractor support in 
the first quarter of fiscal year 2003.
    Living under the CR, there was an enormously difficult 
financial challenge for us. When it led to the omnibus bill, 
where the Congress then chose to allocate within the 
President's request over $1 billion worth of allocations, that 
has prompted this structural shortfall in terms of very 
important things the Congress wants to do, very important 
things the Administration wants to do, and literally trying to 
get $6 billion worth of work in a $5 billion kind of a 
framework.
    The war supplemental offered the Congress an opportunity to 
fix about half of that problem, which they did. And over these 
last weeks, we have been working diligently with DHS and OMB to 
fund the rest of that structural challenge.
    The LOI instrument that has now been blessed by the Office 
of Management and Budget, as well as the Congress, offers us a 
chance to break through with respect to these EDS installations 
and literally leverage $1 billion or more worth of private 
sector monies to do these security projects and then reimburse 
those airports over multiple budget cycles to come. I believe 
that is the right way to do this work. And we have those 
literally poised negotiated settlements with a number of the 
airport directors, including SeaTac, ready to go as soon as the 
spending plan is approved by the Hill.
    Senator Murray. Okay. I appreciate that. And just one other 
question. Is your letter--will your letter of intent commit 
some 2003 funds to this project, or are you going to be 
requiring SeaTac to do a future?
    Admiral Loy. I will have to call you on the specifics in 
the SeaTac piece. There are a number of these negotiated 
settlements with the airport directors where they preferred to 
gain the letter of intent but with the zero funding line for 
2003 to be then paid over 2004, 2005, 2006, as appropriate. I 
will call you with the specifics of the SeaTac LOI.
    Senator Murray. Thank you.

                        DELAY IN RELEASING FUNDS

    I know my time is up, Mr. Chairman. I would remind all of 
us that the President vetoed $480 million for this agency in 
the last request. And I am deeply concerned that we do not have 
the funds available today for many of these projects. And just 
on Operation Safe Commerce, let me just go back to that.
    If you are delaying the release of this money simply so 
that you can divert it to other causes, that is unacceptable. 
These ports have been working diligently to do this. It is 
extremely important that we get this done. And I will follow up 
on this with you later.
    Admiral Loy. I look forward to that follow-up, Senator 
Murray. And we are not delaying it for the sake of diverting 
the money. The challenge associated with this organization is 
to have the legitimate spending plan for the rest of the year. 
Where that involves DHS authorities and the use of them and 
where that involves the potential for reprogramming is to be 
notified to the Congress very shortly. That is the package that 
is keeping us from pressing on.
    We are staged to press on with all of this work as soon as 
this spend plan comes clear.
    Senator Murray. Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator Murray.

                  FEDERAL FLIGHT DECK OFFICER TRAINING

    Admiral Loy, the Homeland Security Act authorized the use 
of firearms by pilots to defend their aircraft against 
hijacking or other criminal activity that was life threatening. 
The Transportation Security Administration has recently 
completed the training of 44 pilots, who have been sworn in as 
Federal flight deck officers. We notice your budget request 
suggests that over $17 million for this training should be 
approved for the next fiscal year. It is a substantial increase 
over current-year funding.
    Let me ask you the question of whether or not TSA is going 
to continue to do this training. Do you intend to contract it 
out to private sector training centers or to use the Federal 
Law Enforcement Training Center for some or all of this 
training?
    Admiral Loy. Senator Cochran, as you know, the 44-student 
prototype was conducted at FLETC in Glynco, and tremendous 
support came from the facility manager and all the folks that 
were part of the training there. My intention is to certainly 
press forward with FLETC-based training for the FFDO program.
    There are, for example, however, midyear recertification 
requirements that do not necessarily, I believe, call for a 
trip to Glynco, Georgia, to get that work particularly done. So 
we are very much a part of the plan that Ms. Patrick was 
describing to you in terms of a 5-year game plan for how to 
optimize the use of FLETC not only in Glynco, but in Artesia, 
as well.
    I have encouraged a number of private sector training site 
owners to work with FLETC to get under the wing of what FLETC's 
wide reach might be to find the right place to do this training 
on down the road. But the basic original training we would like 
very much to continue to do within the FLETC organization, sir.
    Senator Cochran. Ms. Patrick, what is your assessment of 
the training program and the capacity of your center to carry 
out this responsibility?
    Ms. Patrick. The pilot program that was just conducted 
there, I believe that it is currently under review and that 
they are evaluating the program as we speak, in terms of making 
any modifications to the program that would enhance the skills 
of the pilots. So I think that they, the TSA, is doing the 
current review consistent with our methodologies and the way in 
which we conduct training.
    And the most important part of that training program is 
actually the review and the after action that follows any 
training course that we give. So I think that they are doing a 
very good job of that.
    In terms of conducting the training and the training needs, 
we do intend to accommodate their training requests. However, 
as Admiral Loy mentioned, as is true with all of the agencies 
that we train, every year they are required, especially in the 
area of firearms, to receive recertification training. And we 
will and continue to use export training sites located around 
the United States that our National Center uses to accommodate 
that training. And in those instances, we do contract for 
trainers to provide those services when there are no available 
FLETC resources to do that.

                           AIR CARGO SECURITY

    Senate Cochran. The Senate last week passed a bill called 
the Air Cargo Security Improvement Act. It would put into place 
several enhancements for security of cargo transported by air, 
particularly aboard passenger aircraft. The Transportation 
Security Administration is requesting $10 million for the 
research and development of an air cargo pilot program in this 
next budget year.
    The Act allows for pilots and crew members of air cargo 
aircraft to carry firearms, such as the way passenger aircraft 
pilots are permitted to operate now. There will also be funding 
needed to train Federal flight deck officers with the 
possibility of an additional 15,000 air cargo pilots being 
authorized. Do you feel that the Transportation Security 
Administration can carry out this responsibility with this 
amount of funding?
    Admiral Loy. We do, Mr. Chairman. The challenge, of course, 
is to attempt to project the number of volunteers from the 
greater pool of pilots, both commercial pilots for passenger 
aircraft, as well as the added number of air cargo pilots that 
will actually want to become Federal flight deck officers. We 
do not really have a very good feel for that. I have seen 
estimates that range from as low as 18 or 20 percent of the 
total population, which is pushing 80,000, as you know, to as 
many as half.
    We will just have to see how the volunteers step forward 
for the program. As it relates to the cargo pilots being 
included in the pool, I think TSA is basically silent on that 
question. If, in fact, that is the Congress's desire, that you 
add the pilots from air cargo to the pool, so be it.
    I have a couple of challenges with the bill, our thoughts 
with the bill, as it went down. And I look forward to working 
with the Committee as that continues on its way. For example, 
allowing any trained individual to be sitting in the jump seat 
and travel armed, whether or not it is an employee of that 
particular airline that is flying that plane. There are a 
couple of subtle things like that that are part of the bill, as 
I see it today, sir, that I would like to continue the dialogue 
with the committee on.
    Senator Cochran. I am sure others would join me in 
welcoming your input and observations on that. We would be glad 
to have the benefit of your suggestions.

                         AIR AND MARINE ASSETS

    Mr. Bonner, the Bureau that you are now in charge of has 
brought together a wide variety of physical assets, like 
planes, boats, and helicopters, that may now be the subject of 
new management efficiencies. Do you have plans for streaming 
the procurement or maintenance of these physical assets so that 
we derive some efficiencies and can also make our funds go 
further because of this consolidation of activity?
    Mr. Bonner. Well, let me say first of all that it is true 
that Customs and Border Protection, by virtue of having the 
Border Patrol, actually has a significant number of air assets. 
I think it is 100-plus, mainly helicopters, also some marine or 
small boat craft. On the other hand, as part of the 
reorganization, the U.S. Customs Air and Marine Interdiction 
Division, which also had aircraft and helicopters and some 
boats, it moved over to BICE. So to the extent there is----
    Senator Cochran. For those of us that cannot remember all 
the acronyms in this town, what is BICE?
    Mr. Bonner. BICE would be the bureau that is not here 
today. That is the Bureau of Immigration and Customs 
Enforcement. About 15 percent of the old U.S. Customs that 
represented the special agents, the criminal investigators, and 
the Air and Marine Interdiction Division that did air and 
marine interdiction, at or near our borders, went to BICE.
    So the upshot is that I have some air and marine assets 
still, from the Border Patrol, but I no longer have those 
formerly in U.S. Customs. I think there can be tremendous 
efficiencies here, both with respect to procurement and 
maintenance and, frankly, mission, that we ought to achieve.
    But it is going to be something that we have to figure out 
how to do at a higher level than Customs and Border Protection, 
because I do not control all of these assets or the budget for 
them. It is going to have to be done at the Border and 
Transportation Security level. We must figure out, one, how do 
we make the most efficient use of these assets to perform the 
border and the interdiction mission? And secondly, how do we do 
this in way that also achieves some economies and efficiencies 
with respect to procurement of aircraft, as well as maintenance 
and other issues?
    So we will be working on that issue. It is just a little 
bit more complex because it involves more than just Customs and 
Border Protection.
    Senator Cochran. Thank you very much.
    Senator Byrd.
    Senator Byrd. Well, again, thank you, Mr. Chairman.

                     FISCAL YEAR 2003 SPENDING PLAN

    Admiral Loy, the Transportation and Security Administration 
advised Congress that we would be provided with a spending plan 
for how you intend to obligate the funds appropriated to your 
agency for this fiscal year. We are now in the 8 month of this 
fiscal year. We have yet to be provided with such a spending 
plan. We are told that your agency faces a significant funding 
shortfall, perhaps as much as $1 billion. We have not received 
a supplemental request from the President to cover that 
shortfall or to meet it.
    The administration opposed Congress's efforts to, or at 
least our efforts, to add funding to the recent supplemental to 
close the operating deficit. Do you believe that you can live 
within your current budget? And if so, what steps are you 
taking to do so?
    Admiral Loy. Thank you, Senator Byrd. As I described just a 
moment ago, answering Senator Murray's question, I believe, 
Senator, that we are in this classic challenge of trying to 
understand the job description on one hand and the budget 
envelope on the other that will facilitate that work to be 
done.
    This is a brand new agency, which was set out to 
accomplish, first of all, the enormous set of mandates that the 
Congress provided immediately in the wake of the 9/11 tragedy. 
And here we are, essentially a year-and-a-half later, grappling 
with, I will call it, the sticker shock associated with what it 
takes to get the work done that the Congress has stipulated in 
the original legislation, which founded the organization.
    Senator Byrd. This is about as I predicted.
    Admiral Loy. I am sorry, sir?
    Senator Byrd. This is about as I predicted----
    Admiral Loy. Yes, sir. As a matter of fact, it is.
    Senator Byrd [continuing]. When we had this legislation 
before the Senate.
    Admiral Loy. Yes, sir, as is clearly the case. So we have 
gone over the course of time here literally with spending plans 
being briefed to the committees, the appropriating committees, 
over the course of the last year, a different committee, to be 
sure. But we brought forward a spending plan in September. We 
brought forward a new spending plan in December.
    Then we got on into the omnibus bill and the war 
supplemental that followed, all of which was a struggle between 
not only the agency trying to do the right thing, the Congress 
and the Administration also trying to do the right thing, and 
sorting the job description and the budget envelope necessary 
to do this work by this organization.
    As you just described it, as we walked away from the 
omnibus bill, we were in about a $1 billion hole. As we 
approached the war supplemental, the Congress was able to 
identify about half of that differential and make that 
significant assistance available in the war supplemental.
    These past weeks, I have been working day in and day out 
with both the Department of Homeland Security and the Office of 
Management and Budget to accept that war supplemental 
differential and then find in DHS authorities or 
reprogrammings, as appropriate, the wherewithal to close this 
spending gap for this organization for fiscal year 2003. That 
package is literally on the doorstep. I provided that to DHS 
and OMB a couple of weeks ago. And I believe it is literally 
about to be walked to the Congress almost as we speak, sir. 
That will define what we will try to do for the rest of fiscal 
year 2003.
    Senator Byrd. What was the reception at OMB?
    Admiral Loy. The reception at OMB was to recognize the 
authorities that the new Department of Homeland Security had in 
terms of finding monies within the structural authority that 
the new Secretary owns and to offer the notification back to 
the Congress of the intended reprogrammings necessary to make 
the agency whole for fiscal year 2003.

                    TSA SCREENER WORKFORCE REDUCTION

    Senator Byrd. On April 30, TSA announced a plan to 
eliminate 6,000 airport baggage screener positions. TSA took 
the action to bring total baggage screening staffing down 
closer to the limits in the fiscal year 2003 omnibus 
appropriations act and the 48,000-person level required in the 
President's fiscal year 2004 budget. As of March 31, TSA had 
55,600 screeners at the Nation's 427 commercial airports.
    Your plan would reduce staffing by 3,000 persons by the end 
of this month and an additional 3,000 by the end of the fiscal 
year. However, this action is expected to save approximately, 
is that $3 billion? How much is it that you expect to save?
    Admiral Loy. The annualized rate of those savings would be 
about $280 million next year, sir. But that is already 
internalized in the President's request.
    Senator Byrd. This is narrowing the nearly $1 billion 
funding gap, is it not?
    Admiral Loy. Yes, sir.
    Senator Byrd. I say hardly narrowing. Is that correct?
    Admiral Loy. That is correct, sir.
    Senator Byrd. TSA should provide Congress with a complete 
plan for closing the gap. On April 30, as I say, this plan was 
announced. This reduction of 6,000 positions by the end of the 
fiscal year is approximately 12.6 percent of the total screener 
workforce. Clearly, you must take difficult steps to get your 
agency's budget under control. And I would not want to try to 
second guess you, but I am concerned that screener reductions 
at some airports might be too steep.
    Of the Nation's 427 commercial airports, 12 airports are 
losing over 50 percent, more than half of their screeners, 
while 151 airports are actually gaining screeners. I am 
specifically concerned about the proposed reductions at 
Charleston, West Virginia's Yeager Airport, which is scheduled 
to experience a 54 percent reduction in baggage screeners. Your 
plan would reduce the number of screeners from 63 screeners to 
29, a 54 percent reduction.
    This is far in excess of the national average reduction of 
12.6 percent. And the Yeager Airport has not experienced a 
sharp reduction in the number of passengers using the airport. 
Your decision, as it relates to the Yeager Airport and the 11 
other airports just does not make sense. And I speak with, I 
think, considerable knowledge with reference to the Yeager 
Airport.
    Please explain why 12 airports would lose over 54 percent 
of their screeners and, in particular, why Yeager Airport is 
being cut by 54 percent.
    Admiral Loy. I will have to get back to you and will, 
Senator Byrd, on the specifics of the one airport you asked me 
about. Let me describe, though, that in a number of cases 
across the country we found that we were just an awful lot 
smarter 7 or 8 months later than we were when we originally put 
allocations at these respective airports. There were a number 
of places where they were simply over-hired by mistake by the 
contractor that we had doing that work for us in the turmoil of 
the first year of this organization's existence.
    Our challenge needs to be to focus on positions necessary 
to conduct the business at the airport, not the body count that 
might happen to be there at the moment. So in many instances--I 
do not know whether Yeager is among them, sir--we have found 
that there were hirings well in excess of the required work to 
be accomplished at the airport and are acting accordingly.
    This is not just a budget-induced adjustment. I believe 
that I owe this subcommittee, as well as my boss back in DHS, a 
notion of efficiency and effectiveness and good stewardship of 
the taxpayers' dollar in addition to the emotional thrust that 
we all took over the course of the first year by making 
judgments toward security virtually at every fork in the road 
that we came to.
    That is the effort that we have undertaken. It is now 
buttressed by several technological opportunities that we have. 
As we go from very people-intensive ETD machines and make the 
installations permanent of EDS equipment across the country, 
that will save an awful lot of money. When we have finished the 
information technology architecture at our respective airports, 
we will be able to get the right kind of management-scheduling 
software available to the Federal security directors to 
optimize the use of the people that he has there.
    So there are a number of things that play, Senator Byrd, 
with respect to why we are doing it and how we are doing it. I 
will get you a very solid review, sir, of the airport that you 
asked me about.
    Senator Byrd. Will you get that to the subcommittee?
    Admiral Loy. I will, sir.
    [The information follows:]
                          Screener Reductions
    An equitable process is being applied to the screener workforce 
reductions for all airports, using objective, fair, consistent, and 
pertinent factors in determining appropriate staffing levels regardless 
of airport size or location. There is no intention to single out West 
Virginia airports for larger reductions. Initial analysis revealed that 
Yeager Airport currently has a larger screener complement than 
necessary to operate the single passenger screening lane. As the 
process moves forward, TSA is inviting Federal Security Directors, 
community and airport leaders, and others to provide feedback in the 
form of airport specific information or other factors that are expected 
to drive TSA's upcoming refinement process. TSA will evaluate all the 
newly obtained information and will refine the preliminary numbers 
using this information and originating passenger data to arrive at a 
far more accurate reflection of the staffing needs at all airports. We 
will keep you apprised of the results of our on-going process to 
provide efficient, effective screening.

    Senator Byrd. It is important that the subcommittee know, 
as well as that I know.
    Now keep in mind here, I board a plane at Charleston, West 
Virginia. It has a straight, direct course to Washington, the 
capital of the country. I think we have to keep that in mind. 
It is not a large airport, like Chicago or Washington or New 
York. But it is on a direct course.
    So then you will--will you review your decision regarding 
these hard-hit airports?
    Admiral Loy. I absolutely will, sir. We are doing it 
routinely. I have asked my Federal Security Directors, as I 
said earlier, in consonance with the airport directors, the two 
of them getting together and thinking through very carefully 
the numbers involved in getting any challenges and their 
corrections back to us.

               MARITIME AND LAND TRANSPORTATION SECURITY

    Senator Byrd. Your agency is entitled the Transportation 
and Security Administration, not the Aviation Security 
Administration. Yet within your agency's $4.8 billion budget 
request for next year, only $86 million is requested for 
maritime and land security activities, while over $4.3 billion 
is requested for aviation security. Last week I asked Under 
Secretary Hutchinson why less than 2 percent of the 
transportation and security budget request is for maritime and 
land security. That is more than $1 in $50. And I asked him why 
the $218 million budget request for administrative costs 
associated with TSA headquarters and mission support centers is 
2.5 times greater than the request for maritime and land 
security. And I did not get a very convincing response.
    I say this with all due respect to Under Secretary 
Hutchinson. I am quite impressed with him as a man, man of 
ability. And I have great admiration for him. And I know that 
he has a big, huge responsibility here. But after all, we do 
have to try to get the answers to our questions. And in order 
to do a good job of adequately funding the agencies, we need 
the information that we ask for.
    I simply am not satisfied with the view, the apparent view, 
at least it seems that way, that port security is solely the 
responsibility of the ports. Ports focus on moving goods 
through the ports swiftly. The Federal Government must do more 
to direct the ports to focus on security and to provide 
resources to do so. Just 1 year ago this month, we were 
receiving reports that up to 25 Islamic extremists had entered 
the United States as stowaways in cargo ships. Our ports are 
vulnerable. And our ports need the funds to begin protecting 
them now.
    Over $1 billion in grant applications were received in 
response to the original $105 million appropriated for port 
security grants in the fiscal year 2002 supplemental. Last week 
I asked Under Secretary Hutchinson if he would commit to 
allowing the $150 million provided for port security grants in 
the omnibus appropriations act to be used to address the $1 
billion in grant applications sitting on his desk. Rather than 
run another competition for this next set of funds, does it not 
make more sense to use the additional $150 million provided by 
Congress just 3 months ago to address what is unarguably an 
urgent need for enhanced port security?
    Admiral Loy. I think it is absolutely the case that it is 
the right thing to do, Senator Byrd. And I think we can 
probably not only deal with that $150 million, but the 
additional $20 million that was appropriated in the war 
supplemental as well.
    So I think, based on the fact that we have, as you 
described, over a billion dollars worth of applicants, or 
applications in hand, we have every intention of distributing 
all the port security grant monies for 2003, including the 150 
and the 20 against those applications.
    Senator Byrd. Well, the Congress, let me just say for the 
record again, that the Congress has included in three separate 
emergency supplemental bills, as well as in the fiscal year 
2003 omnibus appropriations act, funding for port security 
grants. In total, $348 million has been provided. However, none 
of this was requested by the administration. And only $93 
million has been distributed to the ports to date. While the 
administration was eager to sign the Maritime Transportation 
Security Act, they have been silent on the costs associated 
with implementing it.
    I have just another brief question or so.

            COMPUTER ASSISTED PASSENGER PRE-SCREENING SYSTEM

    Admiral Loy, when Under Secretary Hutchinson testified 
before the subcommittee, I asked him about the Department's 
plans in regards to CAPPS II. Air travelers are very curious 
about this new system because it will examine information about 
people attempting to board a plane and will use that 
information to assign a threat level to each passenger. This is 
an important endeavor for Homeland Security, but there are many 
troubling questions raised by such a system, not least of which 
is what information will the Government use to determine threat 
level.
    I asked Secretary Hutchinson to tell us whether consumer 
debt history would be included in such information. He told us 
it would not. Secretary Hutchinson's answer did not quite set 
the record straight. Since his testimony, there have been 
numerous media reports that name credit history as one of the 
factors that CAPPS II may examine.
    On January 15, 2003, the Department of Transportation 
issued a notice in the Federal Register that named ``financial 
and transaction data'' as one of the categories of records for 
CAPPS II. You have not issued a new notice or a CAPPS II 
guideline since January 15. Will you issue new updated 
guidelines that reflect Mr. Hutchinson's assertion that credit 
history will not be part of the CAPPS II system?
    And I do not care if you check my credit history. I have 
been married now 66 years come Thursday, 2 weeks from now. And 
the only items that my wife and I have purchased on credit in 
those 60 years was a bedroom suite to begin with. And that was 
purchased at the coal company store. And I paid $7.50 every 2 
weeks on that.
    Admiral Loy. Is that paid off now, sir?
    Senator Byrd. How is that?
    Admiral Loy. Is that paid off now, sir?
    Senator Byrd. I did not understand you.
    Admiral Loy. Is the bedroom suite paid off at this point?
    Senator Byrd. Well----
    Admiral Loy. That is none of my business, sir. And I 
apologize.
    Senator Byrd. We are supposed to ask the questions here.
    And, of course, we had to go in debt for the first house we 
lived in, when we moved to Washington 50 years ago.
    Admiral Loy. Yes, sir.
    Senator Byrd. But we paid that off just in a couple of 
years. And in debt for the present home. And I cannot remember 
any other item we have ever gone in debt for. We do not owe 
anybody. So I can ask these questions without any trepidation.
    What steps will you take--did I get an answer for the first 
question? Will you issue new updated guidelines that reflect 
Secretary Hutchinson's assertion that credit history will not 
be part of the CAPPS II system?
    Admiral Loy. Absolutely we will, sir. We intentionally put 
the Federal Register notice out literally as widely as we 
could. We recognized from the very beginning the importance of 
the privacy end of this project. If I may, sir, you have given 
me an opportunity to just describe a couple of things about 
CAPPS II that I believe are fundamental and critical to our 
doing a better job with passenger pre-screening.
    First of all, the system that is in place today is broken. 
It is run by the airlines in a wide variety of different ways, 
from hand-held mimeograph lists to sophisticated software on 
the other end with respect to name recognition. These are 
enormously high stakes. Our first and foremost challenge, as 
directed by the Congress, was to keep terrorists off airplanes.
    CAPPS II will become a very narrowly focused threat 
assessment tool that will allow us to do an infinitely better 
job of identification authentication so that the person who 
claims them to be Joe Jones we have some confidence level that 
they are actually that person.
    Secondly, they will use a much stronger list of foreign 
terrorists that has been developed principally by the Justice 
Department over the course of this last year-and-a-half, so 
that we have a firmly identified person being bounced off a 
firmly put-together list, not a haphazard list, not just a name 
only kind of recognition as to whether or not the person is who 
he claims to be.
    They will also have a system that will allow us to sort of 
rheostat it based on the intelligence that we have for that 
day. If the intelligence for that day is threatening about an 
airline, about an airport, about a region of the country, about 
a flight, we will be able to adjust resources, both in terms of 
Federal air marshals, screeners at our airports, or even 
potentially the Federal flight deck officers that we have just 
begun to put into our system.
    This is not about data mining. This is not about NCIC 
checks or credit checks on creditworthiness of a person one way 
or the other. There are many of us who perhaps would actually 
find that if our creditworthiness was not so hot, that would 
prove that we are Americans. But we are not going there in any 
case, as to checking creditworthiness as part of this process.
    There will be no data held on these travelers, with the 
exception of those that are determined to be potentially 
foreign terrorists or those who are hanging around with them. 
And there will be absolutely no racial or ethnic profiling as 
part of this project that we are building.
    I have personally conducted, and my team has conducted, an 
extensive outreach to the privacy community. We have held off-
sites with privacy officers from the business world with the 
most strong advocates of the Fourth Amendment anywhere in this 
country. And we are learning from them as to what ought to be 
the privacy strategy that is in place as part of this project.
    We have briefed the Hill several times and look forward to 
any other opportunities to educate either the Committee members 
or their staffs as to why this project is so important to our 
future.

                             PRIVACY RIGHTS

    Senator Byrd. Well, you have answered my next question, it 
being what steps will you take to protect air passengers' 
privacy rights? Are there any additional thoughts you have on 
that question?
    Admiral Loy. Only that as we have worked with the privacy 
advocates and communities, sir, they have four or five basic 
things that they want to be assured of. First of all, they want 
to be assured of an oversight of what we are doing that is 
ongoing in nature, not just a check in the box at the point we 
get the thing blessed and press on, but an ongoing oversight 
responsibility for making sure we do not allow mission creep to 
enter into that system.
    They want a protocol for redress, if they, any individual, 
American citizen, feels they have been wronged at the pre-
screening process, that they have a means by which they can get 
redress to the system. They want to make sure that the 
information that they are offering, which is, by the way, a 
traveler-initiated information package, name, address, phone 
number, date of birth. Those are the four things that we will 
be asking for as part of the process. That the security 
associated with anything uncovered as a result of providing 
that information is very real. These are standards that we want 
to build into that next privacy notice to make sure all of 
America understands what this project is about.
    Senator Byrd. Will the new notice name the precise 
databases of information CAPPS II will collect about air 
passengers?
    Admiral Loy. I do not know that we have any reason not to 
name those in the privacy notice that will follow the rest of 
our review, Senator Byrd. But if you will, sir, I would be 
happy to get back to you, as we are about to formulate that 
second Register notice and advise you directly at that point.
    Senator Byrd. And how long will that be? I mean, how soon 
will that be?
    Admiral Loy. We are talking about weeks, perhaps a month. 
We are not talking about months or a year. We are anticipating 
that the developmental work on CAPPS II will proceed and that 
likely we will be at a point of having it online for America 
sometime in the spring of 2004.
    Senator Byrd. So you will supply the subcommittee with that 
information?
    Admiral Loy. I will, sir.
    [The information follows:]
                                CAPPS II
    CAPPS II will use commercial and government databases. The new 
notice will identify all of the information that will be collected on 
passengers and brought into the government system of records. TSA will 
not, however, identify the commercial data providers in the notice 
because CAPPS II will merely obtain authentication scores from 
commercial data providers and the underlying data belonging to 
commercial data providers will not be brought into the CAPPS II system. 
Furthermore, for security reasons, the notice will not disclose the 
nature or details of government-owned intelligence or other data that 
will be in the system.

    Senator Byrd. Just another question or so, Mr. Chairman. 
And will the guidelines, in your opinion, be as clear as you 
have been today?
    Admiral Loy. They will be directly that clear, sir. 
Absolutely.
    Senator Byrd. Just a postscript with regard--well, I will 
hold that for a moment.
    Admiral Loy, you were the Administrator of TSA last fall 
when you transmitted through the Department of Transportation 
to the OMB your request for fiscal year 2004. As a former Coast 
Guard commandant and as the Administrator of TSA, I am 
interested in your specific views of the resource needs for 
TSA. Would you tell us how much was requested at the OMB level?
    Admiral Loy. Senator, I will be happy to stand right beside 
Judge Bonner when we report back to the Committee. But let me 
just say two things----
    Senator Byrd. Now the head of this pin is getting awfully 
narrow.
    Admiral Loy. I understand. And we are dancing and trying to 
keep both feet off the ground, sir.
    Two things. I think the judge hit directly on the head of 
that pin when he described the opportunity that must be present 
for the new Secretary to consider the kinds of dispersion of, 
for example, threat assessment monies that are important for 
the whole range of what the Department is now responsible for. 
So many of the dollars that we had identified, for example, 
outside of aviation for what we thought was important work for 
TSA to press on with have been momentarily gathered at the 
Secretary's level to allow him the benefit of making judgments 
as to where the most important dollars could be spent for the 
well-being of our homeland.
    I think that is an important step for him to take. And I 
think it was the right thing for the gathering of such things 
as vulnerability assessment dollars that had been requested to 
be centralized in the new directorate known as the Information 
Analysis and Infrastructure Protection Directorate and allow 
Secretary Ridge the first opportunity to disperse those funds 
in the right direction.
    I trust, and I have every confidence, that a lot of those 
dollars are going to find their way back to transportation 
issues in ports, in rail, in transit systems, and other such 
work as I have offered to the Secretary to get on with.
    Senator Byrd. Well, thank you, Mr. Chairman. And thank you, 
all members of the panel.
    May I just say in closing that my references to my own 
personal financial data were not intended to be bragging. My 
old mom used to tell me that a self-braggart is a half-
scoundrel. But I think I want to make it clear for the record 
that my wife and I have always handled our business the old-
fashioned way.
    Admiral Loy. As we all wish we could, sir.
    Senator Byrd. We all might do better if we tried.
    Admiral Loy. You bet.
    Senator Byrd. Thank you.
    Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator Byrd.

                           LETTERS OF INTENT

    Admiral Loy, the budget request submitted by the 
Transportation Security Administration does not include any 
requests for funds for installation of explosive detection 
systems. But I notice in your testimony you mention that there 
is an intent to amend the request to include funds associated 
with the Letters of Intent program.
    Do you have a plan or a timetable for when you are going to 
submit this or how much you will be requesting to carry out the 
Letter of Intent program?
    Admiral Loy. I think it is important for two things to be 
brought to this discussion, sir. First of all, I think it is so 
important for this program to press forward that my commitment 
to the Department of Homeland Security has been that I would 
find monies within the request already on the table to press on 
with the EDS installation program.
    I also see that in the reauthorization legislation 
associated with the air, what used to be Air-21, there is a 
notion of a substantial fund being established to provide for 
the funding of major security projects at airports. There was 
originally a discussion associated with whether that should be 
dealt with inside the Department of Transportation or within 
the Department of Homeland Security.
    I would hope that if they are truly, if the intent of that 
segment of the bill is to fund security projects for our 
country about aviation, that they would be in the Department of 
Homeland Security and made available to TSA to administer. That 
would be an appropriate means by which we could find those 
dollars to do that work.

                        LAW ENFORCEMENT OFFICERS

    Senator Cochran. There is, in the TSA's plans for this 
year, agreements with local airports and State agencies for 
uniformed officers at security checkpoints. Now there is an 
announcement, I understand, that has gone out that TSA will not 
reimburse local airports for law enforcement officers. We had a 
couple of airports in our State that had been counting on some 
funding to help pay the costs of providing uniformed officers 
at security checkpoints.
    What is the explanation, or is there any rationale, for 
changing your mind about reimbursement for the expense of local 
law enforcement officers at airports?
    Admiral Loy. Yes, sir. I will be happy to provide that. As 
you know, the original ATSA legislation required Federal law 
enforcement officers to be stationed at each checkpoint across 
our country. Those responsibilities were largely fulfilled by 
the National Guard in the immediate wake of the tragedies of 9/
11. As the National Guard disbanded from the airports, State 
and local officials, law enforcement officials, filled the gaps 
with absolutely excellent performance across this last year.
    Our first recognition of whether or not the original law 
needed adjusted was to take out the word Federal. And we got 
the technical amendment associated with that accomplished. Just 
in the course of the last appropriations cycle, the requirement 
that they be stationed at the checkpoint was also eliminated. 
We felt, after having observed this and with the great counsel 
from the State and local people who have been doing this work 
for us, that there was an infinitely greater capacity for law 
enforcement to be done at the airport, if we went toward a 
flexible response kind of an approach, where they were not 
rigidly stationed at the checkpoint, rather could be roving to 
a standard of response to get back when necessary, if something 
happened at the checkpoint, but in the meantime could be doing 
excellent law enforcement surveillance work, counterdetection 
work, other very good things that those officers could be doing 
for us at the airport, not unlike they had actually done many 
times before 9/11/01.
    So my announcement on the end of this month will be that, 
A, it is no longer required for that officer to be rigidly 
stationed at that checkpoint. And we will adopt a flexible 
response approach.
    We will eliminate the existing memoranda of agreement 
associated with doing that and, where appropriate, renegotiate 
reimbursable agreements in airports across the country. We 
think we will probably be able to provide better security at 
far less money for the American taxpayer.

                  PROFESSIONALISM OF AIRPORT SCREENERS

    Senator Cochran. I appreciate that. And, in closing, I 
wanted to make an observation and ask for your reaction to it. 
Members of the Senate and Congress, as well as others, I am 
sure, travel a good bit on airplanes. We have an opportunity to 
observe the passenger screening procedures and the personnel 
conducting those operations at a number of airports throughout 
the country.
    These individuals are charged with doing the things 
necessary to assure that our airplanes are safe from hijackers 
and others who are likely to cause or engage in terrorist 
activities, hijackings, or commit crimes. It seems to me that 
there is a wide disparity between airports and among different 
individuals who are working to screen passengers. There ought 
to be some way to standardize and have a predictable level of 
competence and courtesy, building confidence among those who 
are traveling by air that the screeners know what they are 
doing and that we have good people, talented people, working 
throughout the air passenger system.
    But that is just not the case right now. I mean, there is a 
wide disparity from airport to airport. I was surprised and 
really very pleased this weekend, when I came across some 
airport screeners who were very courteous and almost treated us 
all as if we had not been convicted of a terrorist act as we 
were proceeding through the lines. Others tend to be pretty 
aggressive and some even mean-spirited, it seems.
    I wonder when we can expect to get to the point where we 
can count on a predictable level of competence and courtesy, 
that the air-traveling public can expect, as we go through the 
lines and are screened before we get on the airplanes?
    Admiral Loy. Actually, I am very disappointed to hear that 
report, Senator Cochran, because we had been working very 
diligently to gain passenger feedback by focus groups and 
asking questions of folks who are actually in the middle of the 
experience across the country. And on balance, our feedback had 
been that the courtesy, respect, professionalism of the 
federalized screening force that took the place of many of 
those screeners of the past, who unfortunately were more apt to 
be described as you just described them, and that we had 
actually done a very good job in that regard.
    Our training program was exactly the same from coast to 
coast. And to the degree there is a leadership challenge for 
that Federal Security Director to mandate from his workforce 
the descriptors you just described, that is exactly the 
standard that I want those screeners to deal with across the 
country. I will personally put out a message reinforcing that, 
because that is what we taught at the training. And if it is 
not there, I would actually like to know about that, so that I 
can fix it anywhere in the country, sir.
    Senator Cochran. Well, we appreciate that. I think it is a 
matter of leadership. And I am not suggesting that you are not 
a good leader. But somewhere down the line at some airports 
there is a breakdown in that.
    Admiral Loy. Yes, sir. We need that feedback so we can 
correct that where it is appropriate.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Cochran. We have another hearing that we had 
scheduled, where we were going to review the budget request for 
the Department of Homeland Security's Information Analysis and 
Infrastructure Protection. The individual named to that 
position has not been confirmed, so that hearing is going to be 
postponed and hopefully will be rescheduled at a later date.
    As you know, Senators may submit additional questions to 
you to be answered for the record. And, we hope you will 
respond to those questions within a reasonable time. We 
appreciate very much your cooperation with our efforts to 
review your budget request. We look forward to continuing to 
work closely with you as we try to identify the priorities in a 
thoughtful way to help ensure our Nation's security.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

   Questions Submitted to the Bureau of Customs and Border Protection

              Questions Submitted by Senator Thad Cochran

                              fee revenue
    Question. Within your Bureau, there are multiple fees that are paid 
by air and sea passengers for inspections services. Are you reviewing 
the various fee structures with an eye towards rationalizing where, 
when, and how these various fees are paid? Do you plan to send a 
legislative proposal to the Congress?
    Answer. A working group composed of representatives from the legacy 
agencies is currently reviewing the various structures. The group is 
tasked with identifying solutions to address the varied issues to 
accomplish an integrated Bureau program. The critical objective of the 
group is to develop a legislative BCBP user fee proposal for the 
Congress to consider.
    Question. What is the current financial condition of the 
Immigration User Fee Account? Although additional hiring was 
authorized, what plans do you have in place to ensure that the 
Immigration User Fee will live within its means this fiscal year and 
next fiscal year?
    Answer. Fiscal year 2003 collections averaged 10.5 percent higher 
($268.0 million) for the first two quarters than our projection of 
$243.6 million. In fact, this per quarter average increase has held 
since the 3rd quarter of fiscal year 2002. During the first two 
quarters of fiscal year 2003, the immigration user fee collections 
reached just over 47 percent of the annual fiscal year 2003 projection 
of $567.8 million. Depending on the impact that severe acute 
respiratory syndrome (SARS) has on the normally robust summer 
international travel, we are cautiously optimistic about achieving the 
fiscal year 2003 projection.
    When immigration user fees for persons entering the United States 
through an air or sea ports-of-entry materialize at levels lower than 
estimated, as they did in fiscal year 2002 (-$85 million), we implement 
as many of the following cost reducing actions as are needed to bridge 
the funding gap.
  --Reduce discretionary overtime
  --Offset (to other accounts) or defer (to the next fiscal year) 
        selected non-payroll spending
  --Delay hiring enhancement positions until late in the fiscal year
  --Don't fund servicewides associated with the number of enhancement 
        positions not hired
  --Don't hire seasonal inspections staff
  --Freeze non-payroll spending
  --Implement a furlough
    The order listed is generally the order in which actions are 
considered; however, there are exceptions. For example, in fiscal year 
2002, overtime was required to operate at heightened threat levels. 
Therefore, steps taken to bridge the fiscal year 2002 gap skipped step 
1, and the gap was resolved by a combination of steps 2-4. Steps are 
implemented only as far as necessary to resolve the gap. Thus far, the 
gaps have not been serious enough to implement steps 5-7.
    Immigration user fee passenger volume has been recovering toward 
the pre-September 11, 2001 trend for the last 4 quarters but has not 
yet reached pre-September 11, 2001 levels. The fiscal year 2003 
projected collections ($568 million), although showing a $63 million 
increase over fiscal year 2002 collections, would still be $90 million 
below the fiscal year 2003 authorized spending authority ($658 
million).
    The steps taken in fiscal year 2002 are being repeated in fiscal 
year 2003 to bridge the fiscal year 2003 gap.
    Question. The Land Border Inspection Fee is also facing a deficit 
this fiscal year. What plans do you have in place to fix this 
situation?
    Answer. The immigration land border fees including nonimmigrant 
arrival/departure records and Canadian boat landing permit, as 
examples, have not been increased in many years and do not fully 
recover the cost of services. They are currently undergoing a cost 
review, and recommendations for fee increases are likely. Prior to 
fiscal year 2003, the $7-$8 million annual gap for 398 authorized 
positions was absorbed in the Exams Fee account where these fees were 
collected. With the transfer of these fees to the immigration land 
border fee account in fiscal year 2003, the gap between costs and 
collections has to be offset with appropriated funds. Our plan to fix 
the situation in fiscal year 2003 is to offset approximately $7.4 
million of payroll and non-payroll costs with appropriated Inspections 
funds.
    Question. The authority to collect a fee for land border 
inspections has been used successfully to fund commuter express lanes. 
In fiscal year 2002 the authority to run pilots was expanded from 6 
ports of entry to 96 ports of entry. Do you have any plans to study 
requiring all vehicles and pedestrians that use the land border to pay 
a fee for that service, not just express commuters? Have you considered 
requesting that the prohibition in Public Law 103-317 on assessing such 
a fee be lifted?
    Answer. We are not planning for a universal land border fee and are 
not planning to request that the prohibition be lifted. However, over 
the next 5 years, we are considering increasing the numbers of 
dedicated commuter lanes so that many land border ports will have more 
than one dedicated commuter lane available for pre-approved enrollees. 
We believe the increased lane access will encourage greater 
participation in the NEXUS and SENTRI programs and will increase the 
numbers of pre-cleared travelers, as well as begin the process of 
integrating the dedicated commuter lane concept with the U.S. VISIT 
entry--exit concept. Increasing the numbers of dedicated lanes at 
selected ports will provide for increased revenues to cover the cost of 
operating the dedicated commuter lane enrollment centers. The cost of 
increasing numbers of dedicated lanes would have to be paid from 
appropriated funds as they have been in the past.
                            physical assets
    Question. Virtually every individual program that has been merged 
into BCBP has a need and a budget for buying vehicles. What steps are 
you taking to review these budget items? What plans are there for 
consolidation of procurement, retrofitting, and maintenance?
    Answer. We are reviewing options for consolidating functions to 
include fleet management. We currently have one bureau with a very 
robust fleet management program that covers over 67 percent of the BTS 
fleet. They have three established vehicle retrofit factories through a 
partnership with Federal Prison Industries that provide over one 
million high-quality, low-cost, labor hours to retrofit our vehicles. 
The vehicle retrofit factories convert production line vehicles into 
customized law enforcement vehicles. They provide a complete vehicle 
replacement service to our customers that includes delivery of a 
turnkey vehicle, the disposal of the replaced vehicle, and the 
initiation of the vehicle file in our fleet maintenance management 
system. They are also implementing a state-of-the-art commercial off-
the-shelf maintenance management system and fleet services. The new 
service will allow our fleet managers to analyze and compare vehicle 
life-cycle costs; in-house maintenance and commercial costs; 
performance of fleet vehicles by type, year, region, etc; and the 
status of vehicle and component warranties. It will allow our field 
personnel to focus on their core Homeland Security mission while 
improving the quality and economy of their vehicle fleet.
                              canine units
    Question. The creation of the Customs and Border Protection Bureau 
brought together 1,210 canine teams--705 from the Customs Service, 334 
from the Border Patrol, 30 from the Immigration Inspections program, 
and 141 from the Animal Plant Health and Inspection Service. Are you 
reviewing the multitude of canine programs that are already in 
existence in your organization to look for overlaps in mission?
    Answer. Yes. The Legacy U.S. Customs Service, Legacy Border Patrol 
and Legacy Animal and Plant Health and Inspection Service have 
developed working groups to work with the transition team to identify 
overlaps in missions. Output from this working group was provided to 
the Transition Team for the Commissioner's review and comments.
    Question. Do you have any estimated cost savings from combining 
these programs? Are any assumed in the President's fiscal year 2004 
budget request?
    Answer. No. The working group is waiting for direction on the final 
structure, which was provided to the transition team. The working group 
is being proactive in developing standards for like functions such as 
narcotics detection. Work is ongoing to standardize such things as 
evaluations, certifications, etc. At this time, the efforts would be 
budget neutral should they be implemented.
                          consolidation issues
    Question. How are plans proceeding on the integration of the 
inspections programs and when do you anticipate seeing the cost savings 
from creating a consolidated inspections program?
    Answer. A plan is in place to roll out a unified primary 
inspections program as well as an improved counterterrorism secondary 
inspection program. For cargo, a working group has been established to 
develop a unified cargo inspections process. It is anticipated that 
consolidated facilities and systems will produce a cost savings once 
the unified programs are in place. The roll-out of the unified primary 
inspections program is projected to be completed by the end of fiscal 
year 2004 at land and in airports. Roll-out plans for seaports are in 
the process of being developed.
    Question. After March 1, 2003, who assumed control at each of the 
ports-of-entry? How were the decisions made in appointing the acting 
port directors?
    Answer. On February 27, 2003, Commissioner Bonner appointed 20 
interim Directors for Field Operations to oversee operations at 
approximately 300 ports of entry nationwide. These appointments became 
effective on March 1, 2003.
    The Interim Port Directors were recommended through an interagency 
process that involved senior managers from the Legacy organizations of 
Customs, Immigration and Agriculture. Current management officials at 
the ports, from the various legacy organizations, were considered in 
this process. The Interim Port Directors were then appointed by the 
Assistant Commissioner for the Office of Field Operations. Each of the 
Bureau of Customs and Border Protection (BCPB) Interim Port Directors 
report directly to one of the Interim Directors for Field Operations.
    Question. How are you approaching the reconciliation of the 
disparate pay and benefit issues? Have you received input from the 
Office of Personnel Management on this issue?
    Answer. We have established a transition working group to address 
the issues of the duties, pay and benefits of our workforce. This group 
has presented preliminary recommendations to the Commissioner regarding 
strategies to resolve these issues. We have plans to discuss these 
strategies with the Office of Personnel Management in the coming 
months.
    Question. When do you plan to send a legislative proposal forward?
    Answer. Once the personnel system flexibilities are determined, the 
pay disparities will be addressed. It is likely that they will require 
legislation. The Department of Homeland Security will be responsible 
for developing any required legislation.
                                training
    Question. What type of guidance have you provided to the Federal 
Law Enforcement Training Center concerning cross-training for existing 
inspectors from the legacy agencies?
    Answer. When the Department of Homeland Security was created on 
March 1, 2003, all inspectors from legacy Customs, INS and Agriculture 
became part of a single agency, the Bureau of Customs and Border 
Protection (BCBP). The Commissioner of BCBP, the Honorable Robert C. 
Bonner, launched an immediate initiative to cross-train all existing 
inspectors in fulfillment of his statutory obligation as head of the 
agency to determine the training requirements of agency personnel.
    Currently anti-terrorism training is being delivered to all 17,000 
existing Inspectors and cross training on frontline primary inspections 
is being delivered to BCBP Inspectors at the ports of entry through CD-
ROMs. This month, BCBP will begin training personnel to return to their 
duty stations and conduct live classes at the airports to prepare all 
inspectors to work in all primary areas. Closely following the airport 
rollout, land border and seaport inspectors will receive specialized 
training by trained trainers at their ports of entry. First line 
supervisors of the inspectors will also receive training. All 
inspectors will to receive monthly ``muster modules'' (short training 
sessions delivered at the ports on counter-terrorism topics). Training 
delivered on``)site is the most efficient and effective way to meet the 
immediate needs of the existing workforce while maintaining vital 
operations at the border.
    Question. What type of guidance have you provided to the Federal 
Law Enforcement Training Center for basic training for Customs and 
Border Protection inspector recruits?
    Answer. The Office of Training and Development (OTD) in the Bureau 
of Customs and Border Protection (BCBP) is designing the new basic 
Inspector curriculum for its new recruits. This training will integrate 
the formerly separate elements of the legacy Inspector positions. This 
new training curriculum will meet all Federal Law Enforcement Training 
Center (FLETC) standards.
    BCBP is working with the FLETC to coordinate their support of 
BCBP's projected training requirements in terms of the number of 
students to be trained, the approximate content and length of the 
proposed course, and the types of training that BCBP expects the FLETC 
to provide. While BCBP Instructors provide the majority of the training 
hours to its recruits, FLETC provides elements of training that are 
common to all law enforcement agencies such as training in Firearms, 
Arrest Techniques, Narcotics Identification and fingerprinting.
    Question. Where will these inspectors train? Will they train as a 
group or separately or a combination?
    Answer. All incumbent Inspectors for the Bureau of Customs and 
Border Protection (BCBP) will receive training at their current ports 
using a combination of group training to foster unification and 
teamwork, self-study to enable rapid uptake of critical skills and 
knowledge, and apprentice-style, on-the-job training (OJT) that 
provides opportunities for legacy Immigration, Agriculture Quarantine, 
and Customs Inspectors to demonstrate field practices to each other.
    New recruits for BCBP Inspector positions will receive structured 
on-the-job training (OJT) at their duty station before and after they 
attend the classroom and practical exercise training at the Bureau of 
Customs and Border Protection Academy in Glynco, Georgia.
                             border patrol
    Question. Now that the Border Patrol is part of your organization, 
do you intend to keep the National Border Patrol Strategy that INS has 
attempted to implement over the past 9 years?
    Answer. The Border Patrol's national strategic plan was written in 
1994 with the focus of implementation in the areas with the highest 
level of illegal immigration. The plan is achieved with the ``forward 
deployment'' and proper balance of agents, equipment, technology, and 
border infrastructure (cameras, sensors, roads, lights, fences or other 
border barriers).
    Areas of operations that have become the focus of this plan have 
proved this to be an effective enforcement action. Participating 
sectors have seen a prolific change since the inception of their 
corresponding operations.
  --El Paso--Hold the Line (arrests down, crime reduced)
  --San Diego--Gatekeeper (29 year record low in apprehensions, crime 
        reduced)
  --McAllen--Rio Grande (crime and arrests reduced)
    Changes have occurred since the strategy's implementation, most 
notably following the September 11, 2001, attack on the United States. 
The strategy's Phase IV implementation was accelerated to respond to 
the potential threats on the northern border. The upgrades in 
technology and its application for border deterrence and enforcement 
has also improved.
    Continuation of the proven and successful National Border Patrol 
Strategic Plan is warranted in-order to respond to emerging threats and 
changes in the past trends of illegal border entries.
    Question. What changes might you consider making to the strategy to 
increase its effectiveness and reduce migrant deaths?
    Answer. Due to concentrated border enforcement efforts, organized 
smugglers have shifted their techniques and areas of operation from 
traditional unlawful entry points near the ports of entry to extremely 
remote and dangerous areas. The intense summer temperatures and arduous 
terrain associated with these areas account for the majority of 
documented deaths. BCBP has been increasing efforts to identify and 
prosecute smugglers who choose more dangerous methods and routes to 
smuggle unsuspecting aliens. Yearly enhancements allow for BCBP to 
apply resources where the deaths occur to effectively deter and disrupt 
illegal border traffic. BCBP is also expanding its Border Safety 
Initiative, which incorporates a multi-pronged approach to making the 
border a safer environment. BCBP is increasing the number of qualified 
medical/rescue agents and is cooperating with Mexican counterparts at 
an unprecedented level. For example, a meeting of field representatives 
has just concluded, which produced a collaborative strategic plan for 
reducing deaths on both sides of the international border. As the 
strategy evolves other initiatives will be developed and supported. 
BCBP leadership is convinced that when the proper balance of personnel, 
equipment, technology, and tactical infrastructure exists, the illegal 
crossings will decline, bringing a commensurate decline in deaths and 
injury.
    Question. Given the level of additional resources that have been 
put into the Northern Border, will you be revising that portion of the 
strategy?
    Answer. Since its implementation in 1994, the Border Patrol's 
National Strategic Plan has been the basis for a multi-year, multi-
phased approach for the deployment of additional personnel and 
resources, for the purpose of increasing control of our Nation's 
borders. The cornerstone of this strategy calls for ``prevention 
through deterrence'' as the means to restrict illegal entry attempts 
into the United States. Along the southwest border, the strategy has 
concentrated Border Patrol resources into those specific geographic 
areas experiencing the highest level of illegal activity. The key to 
the successful implementation of this strategy has been the deployment 
of the proper balance of personnel, equipment, technology and 
infrastructure into those areas.
    As originally written, the final phase of the National Strategic 
Plan calls for enhancing our enforcement posture along the northern 
border and coastal areas of the United States. Securing the northern 
border has traditionally presented many unique enforcement challenges 
for the Border Patrol. Our shared border with Canada is approximately 
4,000 miles long and is the longest non-militarized undefended border 
in the world. In the past, this vast expanse, coupled with an 
inadequate number of personnel and a lack of resources and 
infrastructure, has significantly limited the Border Patrol's deterrent 
effect upon illegal activity. In the wake of September 11, 2001, 
vulnerabilities and deficiencies along the northern border have 
received increased attention, which has caused the Border Patrol to 
accelerate its efforts in increasing our enforcement presence along the 
northern border.
    The current Northern Border Strategy encompasses interagency and 
international cooperation and coordination, effective technology 
development and deployment, and innovative resource allocation. The 
geographic and environmental conditions found on the northern border 
have led to the historic economic and cultural interdependence of the 
United States and Canada. In light of the long-standing cooperation and 
economic interdependency, the Border Patrol has conducted activities 
along the northern border with significantly fewer resources than were 
dedicated to the southwest border. For these reasons, the Border Patrol 
cannot simply replicate the same enforcement strategy implemented on 
the southwest border.
    The Northern Border Strategy relies upon maximizing existing 
resources in order to strengthen control of the border. The Northern 
Border Strategy also requires the proper balance of personnel, 
equipment, technology and infrastructure. To improve our effectiveness, 
the initial area of emphasis is the expansion of liaison and increased 
intelligence sharing with other Federal, State and local law 
enforcement agencies, as well as our counterparts within the Canadian 
government. The second emphasis is on the deployment of enforcement 
related technology along the border to act as a force multiplier, 
thereby increasing the area that can be adequately covered by available 
manpower. The final emphasis of the strategy calls for the deployment 
of additional personnel into our northern border sectors. As mentioned, 
subsequent to September 11, 2001, the Border Patrol accelerated into 
this phase by redeploying agents from the southwest border to the 
northern border.
    Question. In December 2001, the Northern Border sectors of the 
Border Patrol were directed to create or expand Integrated Border 
Enforcement Teams or Integrated Maritime Enforcement Teams. What 
progress has been made in carrying out this directive?
    Answer. IBETs are intelligence driven/intelligence led enforcement 
teams comprised of Federal, State/provincial and local law enforcement 
personnel working together to enhance our shared border's integrity and 
security. They are multi-disciplinary in nature and work in land, air 
and marine environments along the Canadian/United States border, 
respecting the laws and jurisdiction of each nation. They identify, 
investigate and interdict persons and organizations that pose a threat 
to our national security or are engaged in other organized criminal 
activity.
    Since December 2001, the Northern Sectors of the Border Patrol have 
created and expanded the Integrated Border Enforcement Team (IBET) 
program to include participation by all Northern Border Sectors. There 
are 14 IBET locations along the Northern Border with 12 currently fully 
operational. All IBET regions should be staffed and operational by the 
autumn of 2003.
    BCBP/USBP has 17 assigned IBET intelligence sources. BICE has 60 
IBET resources, 4 of which are intelligence resources. Currently, the 
total number of RCMP IBET assets is 131, with 25 being intelligence 
resources. Canadian Customs Revenue Agency has 14 dedicated IBET 
intelligence resources.
    A multi-agency monthly report is what the IBET's are currently 
working towards. From this report, a national multi-agency monthly 
report/bulletin will be compiled and distributed to all partner 
agencies. A yearly Risk Assessment will be established for each IBET 
and a national Risk Assessment will be compiled. A weekly IBET 
Information Brief containing open source information is currently 
produced by the National RCMP IBET analyst and is distributed to all 
partner agencies through intelligence contacts that have been developed 
in those agencies.
    To ensure that all local, State and Federal participating IBET 
agencies are aware of the IBET program and concept, training has been 
established and conducted with Federal, State and local law enforcement 
agencies on both sides of the border to inform participants on IBET 
concepts and operations. Four 3 day IBET workshops have been completed 
in 4 locations with a total of 146 members from multiple government 
agencies participating. This training has been extremely successful.
    Present initiatives under development call for improving the IBET 
model. Current efforts include the co-location of intelligence 
resources in 4 locations and the dedication of full time resources to 
the Intelligence group from all participating agencies.
    Question. What is the current status of overall Border Patrol 
hiring? Do you expect to hire all of the new authorized positions this 
year? Please provide the committee with the total number of on-board 
agents as of the date of this hearing.
    Answer. Border Patrol hiring continues at a steady pace. Interest 
in the Border Patrol as a career remains high among our applicant 
market, with more than 37,000 applications received as far this fiscal 
year. Through our highly selective screening and processing, we project 
a net new hiring figure of 600 new agents for fiscal year 2003. This 
number will meet the additional 570 agents directed by Congress and 
will make significant progress towards overcoming the hiring shortfall 
of fiscal year 2002. As of May 13th, the date of the hearing, the 
Border Patrol had 10,381 agents on-board.
                       inspections--documentation
    Question. Current Federal regulation exempts certain persons, such 
as U.S. citizens, from presenting a passport when arriving into the 
United States from most countries in the Western hemisphere. Inspectors 
can allow a person to enter based upon only an oral claim of 
citizenship. Inspectors intercept thousands of aliens each year who 
falsely claim to be a U.S. citizen in order to unlawfully enter the 
United States. What policy changes, if any, would you recommend that 
would mitigate an alien's ability to successfully enter the United 
States by falsely claiming to be a U.S. citizen?
    Answer. These issues have significant legal, domestic policy, and 
foreign policy implications, all of which must be analyzed and 
carefully weighed before a final recommendation and policy decision can 
be made.
    Question. Your Department is charged with developing a 
comprehensive Entry Exit system to track the arrival and departure of 
all aliens into this country. Given that, should the Western hemisphere 
exemption be reconsidered, such that everyone, U.S. citizen or Canadian 
will have to present a passport to gain entry into the United States at 
an international border crossing?
    Answer. These issues have significant legal, domestic policy, and 
foreign policy implications, all of which must be analyzed and 
carefully weighed before a final recommendation and policy decision can 
be made.
                     cargo and passenger processing
    Question. Over the years, the Customs Service and the former 
Immigration and Naturalization Service have recognized the natural 
tension between ``enforcement'' and ``facilitation'' when processing 
cargo and passengers entering the United States. Striking a balance 
between the two can be complicated by the fact that the cargo and 
passenger transportation networks are predominantly controlled by the 
private sector. What views and options will you bring to the Department 
of Homeland Security to help mitigate this tension?
    Answer. The need to facilitate the flow of cargo and the need for a 
strong security and enforcement posture is not mutually exclusive. The 
need for both underlines the importance of advanced, electronic 
information on goods before they arrive in the country. BCBP realizes 
that and is working towards that end in many programs, the 24-Hour 
cargo rule and the forthcoming proposed regulation under the Trade Act 
of 2002 being excellent examples. Both are efforts to capture cargo 
information from the Trade earlier in the transportation cycle so that 
security decisions on release or examination are made efficiently 
before goods actually arrive in the country.
    Question. Recognizing that it is a difficult proposition, how best 
can we gain reasonable assurance that laws will be enforced without 
unduly clogging supply chains and slowing the flow of passenger 
traffic?
    Answer. The best method is to work towards the acceptance of 
electronic information from all parties involved in the transaction who 
must report to BCBP as well as those who may offer additional 
information to facilitate cargo movement. Since BCBP is relying on this 
data for important decision-making, the sources of the data must be 
well known and, if necessary, regulated by the government. BCBP must be 
willing to expand its communications with various trade parties, and 
has acknowledged this with its C-TPAT program and its acceptance of 
Non-Vessel Operating Commercial carriers into the Vessel Automated 
Manifest Systems.
    Question. Given the fact that the cargo and passenger 
transportation networks are predominantly controlled by the private 
sector, how can the government and private sector work in a partnership 
to ensure that security becomes a natural and reinforced part of the 
supply chain in a cost-effective and operationally efficient manner?
    Answer. BCBP can ensure that it is able to communicate with all 
trading partners who need to supply data. It can also act to serve as a 
communication link between trade partners so that some or all of the 
necessary shipment data can be shared, thereby saving the trade from 
having many communications links to many different companies. In doing 
so, BCBP can also shield data that should not be seen by all the 
parties to a transaction.
                         information technology
    Question. The fiscal year 2004 budget for the Bureau of Customs and 
Border Protection requests $30.2 million for an Information Technology 
Transformation to Homeland Security Fund, and has a separate request 
for $22.3 million for an Information Technology Infrastructure program 
called ATLAS. Please explain the differences between these two 
requests.
    Answer. The Information Technology Transformation to Homeland 
Security Fund is being created to address Information Technology (IT) 
compatibility and interoperability issues that arise during the 
transition including, but not limited to, mission systems, electronic 
mail, networks, collaborative tools, enforcement data integration, 
administrative capabilities and expanded services to other DHS 
components. It is imperative that IT operability remains stable in 
order to efficiently meet BCBP mission requirements. This fund will be 
used to extend the BCBP enterprise architecture to provide expanded 
access to IT capabilities in support of the Homeland Security mission.
    Legacy INS initiated the ATLAS program in 2001 to transform its 
stove-piped and aging IT infrastructure into an up-to-date environment 
that can provide improved data sharing and applications 
interoperability that will support the underpinning of all mission-
critical, application development initiatives and all systems that are 
in an operations and maintenance mode.
    Question. With the consolidation of Customs and INS into DHS' 
Border and Transportation Security Directorate and DHS' associated 
effort to integrate border protection and immigration and customs 
enforcement, what are the implications for continuing ACE, the 
Modernization project, and ATLAS as separate projects?
    Answer. The Modernization Program and its first project, ACE, will 
support the overall mission of the Directorate of Border and 
Transportation Security (BTS) and, more specifically, enhance the 
operational effectiveness of the Bureau of Customs and Border 
Protection (BCBP). ACE will play a major role in enhancing both border 
security and border efficiency. It provides an integrated information 
base and IT platform that can be leveraged for border security.
    Starting this year, ACE will help enhance border security and 
deliver efficiencies to the trade process by providing interagency 
information sharing, and real-time, cross-government access to more 
accurate trade information. By centralizing and integrating the 
collection and analysis of this information, ACE will enhance BCBP 
ability to target illicit cargo, illegal persons, and unsafe 
conveyances. The trade data will be analyzed prior to arrival, allowing 
advanced inter-agency assessment of risks and threats to determine 
which goods and people must be scrutinized. Results will determine if, 
upon arrival, a shipment is to be examined or cleared for release.
    As noted above, the ATLAS program was initiated in 2001 to 
transform its stove-piped and aging IT infrastructure into an up-to-
date environment that provides improved data sharing and applications 
interoperability that will support the underpinning of all mission-
critical, application development initiatives and all current systems 
that are in an operations and maintenance mode.
                    international trade data system
    Question. What is the status of implementing the International 
Trade Data System? What will the request for $5.7 million in additional 
funding for fiscal year 2004 be used for?
    Answer. The ITDS initiative is currently in the process of 
integrating the first 9 agencies with responsibilities at the border 
including BCBP; U.S. International Trade Commission (USITC); Federal 
Motor Carrier Safety Administration (FMCSA); Bureau of Census; Federal 
Communications Commission (FCC); Food and Drug Administration (FDA) and 
U.S. Army Corp of Engineers (USACE).
    The original fiscal year 2004 budget request for ITDS was approved 
at $5.4 million prior to the identification and incorporation of agency 
inputs related to ITDS development. That original funding allowed the 
ITDS development contractor to perform only high-level requirements 
gathering. The request for the $5.7 million in additional funding in 
fiscal year 2004 will be used to perform detailed requirements 
gathering and analysis for incorporation into ITDS and will include 
integration plans and agency readiness review criteria. This effort 
will include the development of a consolidated and harmonized 
government-wide data requirements for all import and export 
transactions.
    Question. How many of the over 100 government agencies involved in 
ITDS have participated in identifying requirements?
    Answer. As of this date, over twenty of the over 100 government 
agencies have directly participated in the identification of 
requirements for ITDS. In addition, with the inclusion of Census in the 
list of participating agencies, numerous statistical agencies who 
currently receive their data exclusively or significantly through 
Census are considered to have their requirements addressed within the 
system. Through the on-going ITDS outreach efforts to the agencies and 
the system definition taking place within the ITDS Process Analysis 
Teams, additional agencies are being solicited to populate business 
process areas that align with an agency's mission.
    Question. How many of the over 100 government agencies involved in 
ITDS have initiated changes to their existing systems and processes so 
they will work with ITDS?
    Answer. Of the over 100 government agencies identified for 
inclusion in ITDS, at least nine have begun in earnest initiating 
changes in their systems and processes to work with ITDS. Numerous 
others have begun assessing the system and process changes that will be 
required once their integration begins. Agencies are coordinating their 
schedules for implementing change with the incremental delivery 
schedule of ITDS as functionality is deployed that best aligns with 
their mission needs.
    Question. What will be the impact on anticipated ITDS benefits if 
trade agencies do not position themselves to use ITDS?
    Answer. Benefits from ITDS fall into several categories: improved 
border and port security; improved port operations; improved data 
quality; reporting burden reduction to the international trade and 
transportation communities; and, streamlined operations post-entry.
    These benefits will be lessened if agencies do not participate in 
ITDS. Paramount to this is the failure to leverage the ITDS development 
efforts and meet the spirit of the President's Management Agenda and 
its five government wide goals. It is difficult to quantify the extent 
to which benefits will not accrue to the Government. However, it is 
possible, depending upon which agencies do not participate, that port 
inspectional personnel may have to use more than one system for 
processing goods or conveyances; some trade and transportation 
companies may have to provide information to the Government through 
multiple information systems; the Government will not have all of the 
information available to support a single, knowledge-based risk 
management system; and, data quality issues will remain as long as data 
is reported through multiple information systems.
    Question. What actions are planned to overcome any resistance trade 
agencies may have to positioning themselves for ITDS?
    Answer. The ITDS Board of Directors has recently completed a major 
effort to contact all agencies that are potential candidates for 
inclusion in ITDS. The agencies were offered an opportunity to meet 
with ITDS and BCBP personnel to discuss the mission and vision for 
ITDS, expected benefits, and steps that agencies should take to be 
included. As a result of those contacts, the number of agencies 
participating in the Government Support Network (a user group 
conference for Federal agencies) tripled over previous meetings and the 
number of agencies participating in the Program Support Group (an ITDS 
participant group) has increased.
    Commissioner Bonner will personally meet with heads of agencies 
that have resisted outreach efforts but which are important for 
homeland security, border operations, and trade facilitation or which 
are developing competitive or redundant systems. The list of specific 
agencies to be covered by these meetings is not finalized as of May 28, 
2003, but will be finalized shortly. A representative of the 
international trade community will participate in those meetings.
    Several meetings have been held with the Office of Management and 
Budget to solicit support for agency budget requests that include 
integration into ITDS and OMB support for the initiative. Another 
meeting is being scheduled with budget examiners from all of the 
departments that have agencies that are possible candidates for 
inclusion in ITDS.
                     container security initiative
    Question. While your organization has launched the Container 
Security Initiative and continues to operate the Customs-Trade 
Partnership Against Terrorism, there is also Operation Safe Commerce, 
which is the responsibility of the Transportation Security 
Administration. Operation Safe Commerce is working to identify and fund 
business driven initiatives to enhance security for the movement of 
cargo through the supply chain. While each of these projects has a 
particular focus, how will these be coordinated to ensure no 
duplication of effort and the best use of the funding provided?
    Answer. BCBP has the sole statutory and regulatory responsibility 
for container security on containers destined for the United States. 
Although this authority is clearly delineated through the 
implementation of enforcement programs like Container Security 
Initiative (CSI) and Customs-Trade Partnership Against Terrorism (C-
TPAT), BCBP strives to comply with its mission in coordination with 
other equally vital offices within the Department of Homeland Security 
which have statutory and regulatory responsibility over a segment of 
sea transportation.
    Coordination and communication with our department partners ensures 
an effective and streamlined security process. For example, BCBP has 
established a protocol with the United States Coast Guard to handle 
certain types of serious threats through the High-Interest Vessel 
program. Also, BCBP has shared interest with DOT and TSA in developing 
industry partnership programs that improve container security (and 
other types of transportation security) and are consistent for domestic 
and international shipping.
    BCBP and TSA are working together through a jointly chaired 
steering committee that makes the final project selection decisions for 
Operation Safe Commerce. The Federal Register notice that initiated the 
Operation Safe Commerce program makes specific references to C-TPAT and 
CSI as initiatives that may be considered as part of Operation Safe 
Commerce business practices and technology supply chain ``test bed'' 
initiatives.
    As a voluntary government-business initiative, the C-TPAT 
complements the overseas targeting of the CSI and the development of 
new security techniques under Operation Safe Commerce. As of May 9, 
2003 C-TPAT membership includes over 3,000 companies that account for 
approximately 37 percent of all U.S. imports by value and approximately 
93 percent of all U.S.-bound sea-containerized cargo. By creating a 
significant network of reliable and secure companies, C-TPAT enables 
BCBP to direct its CSI targeting to areas of greater risk and 
establishes a mechanism for incorporating the best practices and new 
high-tech equipment identified by Operation Safe Commerce.
                                 ______
                                 

            Questions Submitted by Senator Pete V. Domenici

                             border issues
    Question. It has been 17 years since the Federal government 
launched a major effort to upgrade U.S. borders and that effort focused 
only on the Southwest border.
    I have just sponsored the Border Infrastructure and Technology 
Modernization Act (S-539). The new bill will focus on U.S. borders with 
Canada as well as Mexico. This bill has the dual goals of facilitating 
the efficient flow of trade while meeting the challenges of increased 
security requirements.
    This will include:
  --More funding for equipment at our land borders;
  --Additional funding for personnel;
  --Additional funding for training; and
  --Additional funding for industry/business partnership programs along 
        the Mexican and Canadian borders.
    It is important for the border enforcement agencies to work with 
the private sector on both sides of the border and reward those 
partners who adopt strong internal controls designed to defeat 
terrorist access to our country.
    What are your thoughts on the importance of trade partnership 
programs along the Southwest border?
    Answer. Industry Partnership Programs (IPP) allow BCBP to expand 
our influence beyond the borders and into Mexico, Central America, 
South America and the Caribbean. Under the umbrella of the Customs-
Trade Partnership Against Terrorism (C-TPAT), these priority 
initiatives include the Land Border Carrier Initiative Program (LBCIP), 
the Business Anti-Smuggling Coalition (BASC) and the Americas Counter 
Smuggling Initiative Program (ACSI). Each IPP enables the Trade to 
tighten our borders through the enhancement of supply chain security 
standards that deter smugglers from using conveyances and cargo to 
smuggle terrorist devices and narcotics. These complementary programs 
benefit both BCBP and the private sector by securing the integrity of 
shipments destined for the United States while promoting the efficient 
flow of trade.
    We are currently working on additional security requirements that 
take into account the additional terrorist and drug threat on the 
Southwest border for conversion of the LBCIP carriers to C-TPAT. BASC 
chapters have been established throughout Ecuador, Colombia, Costa 
Rica, Mexico, Panama, Peru, Venezuela and most recently in Jamaica, 
where a chapter was founded in March 2003. The ACSI Teams continue to 
support BASC through security site surveys, briefings on smuggling 
trends and techniques and security and drug awareness training.
    The primary purpose of LBCIP is to prevent smugglers of illegal 
drugs from utilizing commercial conveyances for their commodities. 
Carriers can effectively deter smugglers by enhancing security measures 
at their place of business and on the conveyances used to transport 
cargo. By signing agreements with the BCBP, land and rail carriers 
agree to enhance the security of their facilities and the conveyances 
they use and agree to cooperate closely with BCBP in identifying and 
reporting suspected smuggling attempts.
    BASC is a business-led, BCBP supported alliance created to combat 
narcotics smuggling via commercial trade that was formed in March 1996. 
BASC examines the entire process of manufacturing and shipping 
merchandise from foreign countries to the United States, emphasizing 
the creation of a more security-conscious environment at foreign 
manufacturing plants to eliminate, or at least reduce, product 
vulnerability to narcotics smuggling. Customs BCBP supports BASC 
through ACSI, which are teams of BCBP officers that travel to the BASC 
countries to assist businesses and government in developing security 
programs and initiatives that safeguard legitimate shipments from being 
used to smuggle narcotics and implements of terrorism.
    Question. What plans do you have to increase cooperation with the 
Mexican government on border issues?
    Answer. Under the C-TPAT programs consisting of the Americas 
Counter Smuggling Initiative (ACSI), and the Business Anti-Smuggling 
Coalition (BASC), BCBP is engaging the Mexican trade community and 
Mexican Customs in a cooperative relationship against the smuggling of 
drugs and implements of terror. Meetings have been held with Mexican 
Customs through a bilateral U.S.-Mexican Government Working Group. 
Through this working group, the United States and Mexico can work 
jointly through these programs to establish a secure supply chain 
between our countries, while facilitating cross border trade. BCBP is 
also working with Mexican Customs to identify what areas in Mexico 
should be targeted for the establishment of new BASC chapters.
    Under the high-level United States and Mexico Customs Bilateral 
Working Group, a demonstration project to test a fast and secure lane 
at El Paso is underway. This bilateral program is designed to expedite 
and facilitate commercial truck crossings at the Ports of Entry (POEs) 
by implementing the mandated requirements of securing the flow of 
people, transportation, and goods under a secure infrastructure. This 
program is aimed at facilitating cross border trade, while improving 
and ensuring the supply chain security of the participants that range 
from manufacturing, to transportation, to importation.
    BCBP has two ACSI teams traveling throughout Mexico to work with 
the BASC Chapters in Monterrey, Ciudad Juarez and Mexico City to 
prevent drug smugglers and elements of terrorism from using legitimate 
cargo to enter their illegal merchandise into the U.S. BASC, which was 
initiated in March 1996, continues to be a private sector business-led, 
BCBP supported alliance under C-TPAT that complements and enhances our 
efforts to secure the supply chain. C-TPAT is an anti-terrorism 
response to the events of September 11, 2001 which engages the trade 
community in a cooperative relationship with BCBP in the war against 
terrorism. C-TPAT will work with foreign manufacturers, exporters, 
carriers, importers and other industry sectors emphasizing a seamless, 
security conscious environment throughout the entire commercial 
process.
 unmanned aerial vehicles at the las cruces, new mexico international 
                                airport
    Question. I was pleased to learn of Secretary Ridge's interest in 
using unmanned aerial vehicles (UAVs) for improved surveillance along 
our Nation's borders. I strongly support such action to improve our 
Nation's ability to patrol our borders, particularly in less-populated 
areas. Southern New Mexico is already the site of ongoing UAV flights 
out of the Las Cruces International Airport. This airport is the 
headquarters of New Mexico's emerging UAV Center of Excellence, the 
newly formed joint regional UAV Systems and Operations Validation 
Facility (USOVF), a partnership between the 46th Test Group at Holloman 
Air Force Base and the Physical Science Laboratory of New Mexico State 
University. The USOVF is pre-approved by the Federal Aviation 
Administration for file and fly in a regional flight area of 300,000 
square miles in the western United States. The Las Cruces International 
Airport is situated less than 40 miles from the U.S.-Mexico border, and 
in a central location among U.S. border states. What do you anticipate 
will be the size and scope of the Department of Homeland Security's 
deployment of UAV's on our borders?
    Answer. BTS has asked the Science and Technology Directorate to 
evaluate the use of UAVs in a Border and Transportation Security 
environment. S&T was also asked to evaluate other potential 
applications.
    Question. What funding and facilities will the Department need for 
a UAV program?
    Answer. Until the requirements have been scoped to determine the 
feasibility and extent of a UAV program, we cannot predict what amount 
of funding and the type of facilities the Department will need to 
implement a UAV program.
    Question. On what timeline will the Department implement this 
initiative?
    Answer. At this time, it is unknown what the timeline will be for 
the Department to implement this type of initiative. A proposed project 
plan including milestones and deliverables is expected to be ready for 
review by June 2003. The project plan will discuss the BTS-specific 
project as well as strategies in developing UAV initiatives in the 
near, mid, and long term for DHS venues such as borders and ports.
    Question. Based upon the characteristics of the Las Cruces, New 
Mexico International Airport, could you provide an assessment of its 
potential for utilization by the Department of Homeland Security for 
serving as a platform for the deployment of UAV's for Homeland Security 
purposes?
    Answer. Based upon the description of the Las Cruces, New Mexico 
International Airport, the facility appears to have potential for 
serving as a platform for UAV deployment for Homeland Security 
purposes. After UAV program feasibility, requirements and scope is 
determined a more detailed assessment on available testing and 
deployment facilities needs to be made.
                                 ______
                                 

             Questions Submitted by Senator Mitch McConnell

    Question. In your testimony, you mentioned the significant success 
of the Container Security Initiative (``CSI'') in helping to eliminate 
the threat of terrorist attacks by means of oceangoing sea containers. 
Will the CSI also help in the detection of items such as illicit drugs 
and counterfeit merchandise in addition to cargo that could be a 
potential terrorist threat?
    Answer. BCBP screens the data and information for all cargo 
containers arriving in the United States each year; and closely 
scrutinizes and examines all shipments identified as high risk. BCBP 
has developed a multi-layered process to target high-risk shipments 
while simultaneously facilitating legitimate trade and cargo.
    Our multi-layered approach involves electronic manifest 
information, partnerships, Automated Targeting System (ATS), the human 
factor, and non-intrusive inspection technology.
    The BCBP goal is not to search a specific percentage of cargo. BCBP 
thoroughly screens and ultimately examines 100 percent of shipments 
that pose a risk to our country.
    Question. Do changes in the Homeland Security Advisory System 
Threat Level have an effect on the BCBP's mission priorities? If so, 
what effect do threat level changes have on the BCBP's enforcement of 
intellectual property rights?
    Answer. During times of ``ALERT LEVEL ORANGE'' or greater BCBP's 
main focus of operation will be that of detection and interdiction of 
terrorist entities and weapons of mass destruction. However, the BCBP 
continues to work hard on its other key mission priorities that include 
but are not limited to matters relative to intellectual property 
rights. The interdiction of counterfeit goods remains one of six 
priority trade areas for BCBP. The Bureau of Customs and Border 
Protection and the Bureau of Immigration and Customs Enforcement 
continue our collaborative efforts of detection, interdiction and 
investigation of counterfeit goods. Through the collective efforts of 
employees at over 300 ports of entry, BCBP continues to target, 
intercept and seize shipments of goods that violate U.S. patent and 
trademark laws and regulations. A multi-disciplined IPR Working Group 
is currently working to improve the agency's targeting of shipments 
that may potentially contain counterfeit goods. This will be 
accomplished by identifying risk factors, focusing on high-risk 
products and implementing a coordinated targeting initiative of 
containerized freight to detect, deter and interdict the movement of 
counterfeit products.
    Question. I understand that the former Customs Service has 
participated in the Treasury Department's Operation Green Quest, which 
seeks to identify, disrupt, and dismantle the financial sources of 
terrorist funding. The findings of that investigation indicate that one 
of the many criminal enterprises used to fund terrorist organizations 
is the sale of counterfeit merchandise. Could you please describe what 
information you have about the extent of the connection between 
intellectual property theft and terrorist financing and what the BCBP 
is doing to counter this threat?
    Answer. Operation Green Quest investigations have revealed that a 
variety of criminal activities serve as funding sources for various 
criminal elements, some of which are alleged to have ties to terrorist 
organizations. Among these are violations of laws protecting 
intellectual property rights and prohibiting the manufacture, 
trafficking and sale of counterfeit merchandise. The Bureau of 
Immigration and Customs Enforcement (BICE) is conducting several on-
going investigations involving the use of proceeds derived from the 
sale and trafficking of counterfeit merchandise, alleged to support 
designated terrorist organizations. BICE is committed to investigating 
any violation of Federal law that may be used to fund criminal 
enterprises.
    Question. Some in industry fear that an unintended consequence of 
merging the Customs Service into the BCBP has been a reduction in the 
number of inspectors assigned to detect counterfeit merchandise. Have 
there been reassignments in the BCBP that have diverted personnel from 
intellectual property enforcement to other functions? If so, how does 
the BCBP plan to balance its traditional missions, including protecting 
American businesses from theft of their intellectual property, with the 
Bureau's primary mission of preventing terrorists and terrorist weapons 
from entering the United States?
    Answer. Yes, there have been some reassignments of personnel due to 
the Bureau of Customs and Border Protection's new primary mission of 
preventing terrorists and terrorist weapons from entering the United 
States. However, BCBP continues to work hard on its other key mission 
priorities that include but are not limited to matters relative to 
intellectual property rights. The interdiction of counterfeit goods 
remains one of six priority trade areas for BCBP. BCBP continues its 
collaborative efforts of detection, interdiction and investigation of 
counterfeit goods with BICE.
    Through the collective efforts of employees at more than 300 ports 
of entry, BCBP continues to target, intercept and seize shipments of 
goods that violate U.S. patent and trademark laws and regulations. A 
multi-disciplined IPR Working Group is currently working to improve the 
agency's targeting of shipments that may potentially contain 
counterfeit goods. This will be accomplished by identifying risk 
factors, focusing on high-risk products and implementing a coordinated 
targeting initiative of containerized freight to detect, deter and 
interdict the movement of counterfeit products.
    BCBP anticipates bringing on-board approximately 1,700 new 
Inspector hires by the end of fiscal year 2003. As these new Inspectors 
are brought on-board, trained and placed in ports of entry throughout 
the country they will increase the number of personnel BCBP will have 
at its disposal to focus on the important mission of counterfeit goods 
detection and interdiction. Under the IPR Trade Strategic Plan, 
developed by the former Customs Service's IPR Working Group, BCBP is 
providing its field personnel with the additional knowledge they 
require for IPR enforcement through advanced fraud and IPR law, 
procedures and enforcement training.
                                 ______
                                 

         Questions Submitted by Senator Ben Nighthorse Campbell

                  qualified antiterrorism technologies
    Question. The Homeland Security Act of 2002 (Sections 862) provided 
the Department of Homeland Security with authority to compile a list of 
``qualified antiterrorism technologies'' that would qualify or receive 
certain protection under that Act. Has this list been compiled? If not, 
why?
    Answer. The list of ``qualified antiterrorism technologies'' has 
not yet been compiled. The regulations to govern implementation of the 
SAFETY Act must be completed before the SAFETY Act can be implemented. 
Promulgation of these regulations is a high priority, and DHS is 
working with the Office of Management and Budget (OMB) to finalize an 
initial set of SAFETY Act regulations. We expect to publish these 
regulations for comment very shortly. Following the public comment 
period, the regulations will be finalized and issued. As soon as the 
regulations are issued, applications can be made to DHS for 
consideration of possible technologies that are determined to meet the 
criteria set forth in Subtitle G, Sec. 862.
    Question. If this list has been compiled, can Members of this 
Committee get a copy of this list?
    Answer. The list of ``qualified antiterrorism technologies'' has 
not yet been compiled. The regulations to govern implementation of the 
SAFETY Act must be completed before the SAFETY Act can be implemented. 
Promulgation of these regulations is a high priority, and DHS is 
working with the Office of Management and Budget (OMB) to finalize an 
initial set of SAFETY Act regulations.
    Question. How would a company that has an antiterrorism technology 
be considered for approval?
    Answer. DHS has developed plans for both an immediate 
implementation path, and for a longer-term ``ideal state'' process, to 
implement the SAFETY Act. Public notification of the application 
process and of the select categories of technologies that will be 
considered for certification will be made through the DHS website after 
regulations are issued.
    Question. Do they need to wait for the rulemaking process to be 
completed to apply for approval?
    Answer. Yes, companies will need to wait until after the rulemaking 
process has been completed. DHS does not yet have an application or 
approval process in place. Final application and approval processes are 
contingent upon issuance of regulations. DHS wants to ensure that 
applicants are well informed about requirements so that they can make 
informed decisions regarding submitting their technologies for 
consideration
    Question. If so, when will that process be completed?
    Answer. Until DHS and OMB have completed their review and issued 
guidance for the actual implementation of the SAFETY Act, it is not 
possible to determine an actual date for completing the process. 
However, the Department does place a high priority on completing the 
necessary guidance and regulations and is prepared to act quickly after 
issuance of the guidance.
                            border security
    Question. This Directorate arguably has one of the toughest jobs in 
the Department. Ideally, if this Directorate performs its job to 
perfection, then the concerns of terrorists coming into our country to 
attack our citizens or our infrastructure are reduced to a great 
extent. With 7,500 miles of land borders with Canada and Mexico and 
95,000 miles of coastline to keep watch over, short of building a large 
wall around the country, how much success have you had in strengthening 
our border security?
    Answer. The priority mission BCBP is to detect and prevent 
terrorists and terrorist weapons from entering the United States at and 
between Ports of Entry (POEs) while simultaneously facilitating 
legitimate trade and travel.
    In order to carry out its priority mission, BCBP has developed and 
is implementing Smart Border initiatives with other Nations and with 
the private sector, such as the Container Security Initiative (CSI), 
the Customs-Trade Partnership Against Terrorism (C-TPAT), NEXUS, and 
the Free and Secure Trade (FAST) Program, and will continue to push our 
zone of security outwards.
    Our layered inspection process and the components of a Smart Border 
include:
  --Advance electronic information;
  --Automated targeting tools;
  --Identifying and facilitating low-risk travelers and shipments;
  --Non-intrusive inspection technology;
  --Industry partnerships;
  --Training; and
  --Pushing security beyond our borders.
    BCBP uses various large-scale, portable and hand-held technologies 
in different combinations to substantially increase the likelihood that 
a nuclear or radiological weapon or weapons grade material will be 
detected. We have identified and are deploying nuclear and radiological 
detection equipment to include personal radiation detectors, portal 
radiation monitors and radiation isotope identifier devices.
    In combination with our layered enforcement process, these tools 
currently provide BCBP with significant capacity to detect nuclear or 
radiological materials.
    Additional initiatives include, but are not limited to:
  --Training to further develop a highly skilled and trained workforce;
  --Sensors to remotely monitor low volume ports of entry; and
  --Exchange of intelligence and information to identify potential 
        nuclear and radiological smuggling threats.
    Our goal is to examine 100 percent of all high-risk cargo and 
conveyances and to screen all high-risk people, cargo and conveyances 
for radiation.
    The Border Patrol, a component of the Bureau of Customs and Border 
Protection, is responsible for preventing the illegal entry of any 
persons crossing between the ports of entry along the 8,000 miles of 
international border with Canada and Mexico. To accomplish this 
enormous mission, there are currently over 10,000 agents deployed on 
the border to deter, detect, and apprehend any illegal entrants at the 
border. These dedicated agents have historically arrested in excess of 
1,000,000 illegal entrants annually. In order to improve the 
enforcement effectiveness of these agents, the use of technology and 
enhanced detection systems are continuing to be deployed along the 
border. In addition to the technology, additional border barriers, high 
intensity lighting units and improved border roads have been used to 
assist the agents in providing the maximum in border security measures 
between the ports of entry. The success of these measures has recently 
lead to reductions in illegal entry arrests along certain major border 
areas, as well as the continued disruption of organized smuggling 
efforts on the border.
    Question. Are any of these projects visible to our country's 
citizens to make them feel safer?
    Answer. BCBP has developed a multi-layered process to target high-
risk shipments while simultaneously facilitating legitimate trade and 
cargo. Our Smart Border initiatives include components that are 
invisible to a majority of the traveling public. These include 
cooperative efforts with other Nations to push security beyond our 
borders, advance electronic information, automated targeting tools, 
intelligence and partnering with industry.
    Portions of our layered enforcement process are highly visible to 
the general public. These include our inventory of hand-held, portable 
and large-scale non-intrusive inspection (NII) technologies deployed to 
our Nation's air, land and seaports of entry, as well as the additional 
personnel and canine resources necessary to support the technology.
    Many of the Border Patrol's newest assets are visible to the 
citizens who reside in our many border communities. Those assets 
include the latest in state of the art helicopters, which frequently 
patrol over these communities. In addition, there are infrastructure 
improvements in fencing, checkpoint facilities and expanded canine 
units for locating persons and contraband hidden in vehicles and train 
boxcars. Also visible to our citizens is the increase in the number of 
agents patrolling in marked sedans and four-wheeled drive trucks along 
the border. In addition, every Border Patrol sector has a community 
out-reach program to educate and inform the local communities of the 
activities of the Border Patrol and to reassure the citizens of the 
Patrol's efforts in providing security along the border of the country. 
While many of the assets used by the Border Patrol are not readily 
visible to the public, such as surveillance and detection equipment, 
the results of the increased presence of agents along the border 
continues to be favorably noted by the local media and civic 
organizations in many border communities.
                                 ______
                                 

             Questions Submitted by Senator Robert C. Byrd

                        expiration of cobra fees
    Question. The COBRA fees--which fund nearly all overtime for the 
legacy Customs inspectors among others--expire at the end of this 
fiscal year. Have you submitted legislation to the appropriate 
authorizing committees and discussed with them the need for the 
extension of these fees? Also, what contingency plans, if any, do you 
have in place to cover the costs of the current COBRA-funded functions 
should the fees not be extended in time?
    Answer. We have briefed both the House Ways and Means Committee and 
the Senate Finance Committee staffs on the need for an extension of the 
COBRA fees, and both Committees have developed proposals to extend the 
fees. The expiration of the COBRA fees will present numerous problems 
for BCBP, as well as fee paying parties-in-interest. Other existing 
statutes require that airlines be billed for overtime services and 
preclearance (19 USC 267 and 31 USC 9701) and that foreign trade zones 
and bonded warehouses be billed for inspectional and supervision 
services (19 USC 81n and 19 USC 1555). Other charges, such as fees for 
reimbursement of compensation of boarding officers under 19 USC 261 
will also need to be reinstated. These statutes are held in abeyance 
while the COBRA fees are in effect (see 19 USC 58c(e)(6)). While the 
reimbursements from these other statutes would offset some of the 
losses from the expired COBRA fees, the amounts are not expected to be 
significant. If the COBRA fees expire, service to international 
passengers and the trade would need to be reduced to a level 
commensurate with available funding.
    It should also be noted that the failure to reauthorize the fees 
provided for under the COBRA statute (19 USC 58c) will result in an 
additional loss in collections of approximately $1 billion annually. 
This represents the Merchandise Processing Fees, which are deposited 
into the General Fund of the Treasury as an offset to the commercial 
operations portion of the BCBP budget.
 legacy customs service and immigration and naturalization service fees
    Question. A significant portion of the budgets of the new Bureaus 
of Customs and Border Protection and Immigration and Customs 
Enforcement are based on the assumed collection of fees from the legacy 
Customs Service and Immigration and Naturalization Service. What 
happens if these fees do not materialize or materialize at levels lower 
than estimated? How do you intend to bridge that funding gap should one 
occur?
    Answer. If funding shortages occur because of smaller fee receipts, 
BCBP will adjust the level of inspection services accordingly in order 
to function within available resources.
                 anti-dumping authority (bice and bcbp)
    Question. What is the expected cost in fiscal year 2003 of 
administering the anti-dumping authority in section 754 of the Tariff 
Act of 1930 (19 USC 1675c)?
    Answer. While enforcement of the Tariff Act is a major priority of 
the BCBP, its efforts to enforce this legislation cut across many 
different programs and organizations which are concurrently performing 
a variety of trade compliance functions within BCBP. Therefore, the 
cost of BCBP's enforcement efforts in this area is not easily tracked 
or monitored in a way that enables BCBP to provide a quick and easy 
answer to this question. Ultimately, any answer would be an estimate of 
BCBP's costs.
                            budget documents
    Question. The budget justification documents for BCBP and BICE do 
not include detailed legacy information on the agencies/accounts broken 
out in a manner similar to that which used to be provided by the former 
Customs Service. Was information provided to the Department by the 
former Customs Service staff prepared in that format? Please provide 
the Subcommittee with a copy of that submission to assist us in tracing 
the budgets from fiscal year 2003 to fiscal year 2004?
    Answer. The former Customs Service did not provide a draft of the 
fiscal year 2004 budget to the Department in its traditional format.
                           dhs first 100 days
    Question. Secretary Ridge noted in his list of the Department's 
accomplishments for the 1st 100 days that BCBP had ``acquired and 
deployed additional ``A-STAR'' and ``HUEY'' helicopters to bolster 
enforcement efforts along the U.S. Southern border''. With what fiscal 
year funds were these aircraft purchased? Are other rotary or fixed-
wing aircraft in the procurement pipeline? If so, where is their 
planned deployment?
    Answer. The purchase of the additional `A-STAR' helicopters was 
made in fiscal year 2002 with funding received from counter-terrorism 
supplemental appropriations in that year. The `HUEY' helicopters were 
obtained through the military on-loan program for special operations 
and tactical training requiring the mission capabilities of that 
aircraft. The deployment of the `HUEY' helicopters to bolster border 
enforcement operations occurred in fiscal year 2002.
                      aqi fumigation investigation
    Question. The Agriculture Department's Animal and Plant Health 
Inspection Service--Agriculture Quarantine Inspection (AQI) program was 
transferred by law to the Department of Homeland Security. However, the 
investigators who follow-up, review and investigate the importation of 
prohibited goods from prohibited countries remain part of the 
Agriculture Department. Similarly, the personnel responsible for 
fumigation, following the discovery of pests, remain at USDA. Does this 
make sense? Is the Administration considering a legislative fix to 
correct this contradiction?
    Answer. The separation of mutually dependent program functions, 
such as the USDA investigators and personnel responsible for 
fumigation, from the AQI program transferred to the DHS is problematic 
and requires high levels of cooperation, communication, and 
coordination at multiple levels. To facilitate this, DHS and USDA 
addressed issues early by including relevant Articles in a Memorandum 
of Agreement (MOA) required by the Homeland Security Act of 2002. 
Specifically, there are Articles for separating functions and then 
coordinating these functions once separated. Further, additional and 
more specific agreements are necessary and are being developed. The MOA 
will be periodically reviewed and modified as mutually agreed to by DHS 
and USDA. Through the MOA and additional, more specific agreements, DHS 
and USDA will have an opportunity to re-adjust the assignment of 
program functions and responsibilities to maximize collective ability 
to carry out respective missions. Program officials from both DHS and 
USDA are working together to accomplish this. Legislative fixes offer 
another means to accomplish necessary and beneficial re-adjustments and 
changes. DHS Agricultural Inspection Policy and Program staff is not 
currently working on developing legislative fixes.
                        deployment of rail vacis
    Question. I understand that the Department has procured some rail 
VACIS systems that are awaiting deployment along the Northern Border. 
How many systems are procured (or are being procured with fiscal year 
2003 Omnibus and fiscal year 2003 Supplemental funds) and where are 
they planned to be deployed? How many rail VACIS systems are provided 
for in the fiscal year 2004 budget request?
    Answer. With budget requests made prior to fiscal year 2003, BCBP 
procured fourteen rail VACIS systems; however, only five have been 
installed (all along the Southern Border). The remaining nine rail 
VACIS systems will be installed later this year at the following 
locations:
  --El Paso (Rail), Texas
  --El Paso (Del Norte), Texas
  --Calexico (West Rail), California
  --Blaine, Washington
  --International Falls, Minnesota
  --Portal, North Dakota
  --Buffalo, New York
  --Noyes (#1), Minnesota
  --Noyes (#2), Minnesota
    BCBP is procuring five additional rail VACIS systems with the 
fiscal year 2003 Omnibus and fiscal year 2003 Supplemental funds. All 
five of these rail VACIS systems will be installed along the Northern 
Border. These rail VACIS systems will be deployed at the following 
Northern Border locations:
  --Eastport, Idaho
  --Walkersville, Canada (Detroit, Michigan)
  --Rouses Point, New York (Champlain)
  --Sarnia #2, Canada (Port Huron, Michigan)
  --Sarnia #1, Canada (Port Huron, Michigan)
    While no rail VACIS systems are scheduled for procurement via the 
fiscal year 2004 budget request, fourteen additional rail VACIS systems 
are planned for future deployment along the Northern Border pending 
available funding.
                          inspection personnel
    Question. The President's fiscal year 2004 budget proposal for the 
Bureau for Customs and Border Protection (BCBP) is $5.6 billion. How 
many new inspection personnel are requested within the President's 
Budget?
    Answer. BCBP has requested 1,142 inspection personnel FTE in the 
fiscal year 2004 President's Budget.
    Question. How many new Customs inspectors have been added (net) 
since September 11, 2001? How much increased border and port coverage 
have they provided?
    Answer. From September 11, 2001, to May 3, 2003, the number of 
Inspectors and Canine Enforcement Officers on-board and stationed at 
ports of entry increased by 1,380 (+1,310 Inspectors and +70 Canine 
Enforcement Officers), increasing the overall port coverage by 16.9 
percent.
    Question. We have heard reports that many of the new hires are 
being assigned to work in place of senior inspectors, rather than to 
augment and increase border coverage across the country. Is this 
correct? If so, why are you deploying relatively inexperienced 
personnel at critical locations across the country?
    Answer. New hires are not being assigned to work in place of senior 
inspectors. New resources are being placed strategically to increase 
border coverage, meet workload demands and increase the utilization of 
technology. New hires work side-by-side with the more seasoned 
inspectors and receive formal, intensive training on all aspects of the 
position prior to being allowed to work independently. Additionally, 
management oversight is provided for each and every inspector.
                           staffing increases
    Question. The USA PATRIOT Act authorized a tripling of legacy 
Customs and Immigration staffing at our Nation's borders. Since passage 
of the Act, how many new personnel have been brought on board and how 
close have these hires come in meeting the authorization goal?
    Answer. As of May 1, 2003, the Bureau of Customs and Border 
Protection had 2,563 Inspectors and Canine Enforcement Officers (CEOs) 
stationed at Northern Border Ports of Entry (POEs). This is an increase 
of 58.7 percent since September 11, 2001, at which time the agencies 
had 1,615 Inspectors and CEOs stationed at Northern Border Ports of 
Entry.
              it transformation to homeland security fund
    Question. I note that $30.21 million is proposed in the fiscal year 
2004 budget request for a fund for Information Technology 
Transformation for the new Department. Is this in is essence a working 
capital fund? Are all DHS agencies contributing to it? If so, in what 
proportion? How was that level of contributed funding determined? What 
was the methodology used?
    Answer. The Information Technology Transformation to Homeland 
Security Fund is not a working capital fund. These appropriated funds 
will be used to extend the BCBP enterprise architecture to provide 
expanded access to Information Technology (IT) capabilities in support 
of the Homeland Security mission and to address IT compatibility and 
interoperability issues that arise during the transition including, but 
not limited to, mission systems, electronic mail, networks, 
collaborative tools, and administrative capabilities. It is imperative 
that IT operability remains stable in order to efficiently meet Customs 
and Border Protection (BCBP) mission requirements.
                             new technology
    Question. Compromise is not an option when providing for the 
security of our Nation's ports and borders. With the advent of a new 
era where we must be on guard for car and truck bombs, weapons 
smuggling, and radiological and biological threats, it is imperative 
that we set a high standard of threat assessment, detection, and 
prevention. Following the terrorist attacks of September 11, has BCBP 
increased the threat detection standards for security at our ports and 
borders, and if so, what new technologies are you using and how have 
they improved security?
    Answer. The priority mission of the Bureau of Customs and Border 
Protection (BCBP) is to detect and prevent terrorists and terrorist 
weapons from entering the United States at and between ports of entry 
while simultaneously facilitating legitimate trade and travel.
    In order to carry out its priority mission, BCBP has developed and 
is implementing Smart Border initiatives with other nations and with 
the private sector, such as the Container Security Initiative (CSI), 
the Customs-Trade Partnership Against Terrorism (C-TPAT), NEXUS, and 
the Free and Secure Trade (FAST) Program that will continue to push our 
zone of security outwards.
    Our layered inspection process and the components of a Smart Border 
include:
  --Advance electronic information;
  --Automated targeting tools;
  --Identifying and facilitating low-risk travelers and shipments;
  --Non-intrusive inspection technology;
  --Industry partnerships;
  --Training; and
  --Pushing security beyond our borders.
    BCBP uses various large-scale, portable and hand-held technologies 
in different combinations to substantially increase the likelihood that 
a nuclear or radiological weapon or weapons grade material will be 
detected. We have identified and are deploying nuclear and radiological 
detection equipment to include personal radiation detectors, portal 
radiation monitors and radiation isotope identifier devices.
    In combination with our layered enforcement process, these tools 
currently provide BCBP with significant capacity to detect nuclear or 
radiological materials.
                   legacy customs air-marine program
    Question. I understand that while the legacy Customs Air-Marine 
program has been transferred to the Bureau of Immigration and Customs 
Enforcement, your Bureau retains certain responsibility for parts of 
the program. Please explain how this has been divided.
    Answer. The Air and Marine Interdiction budget was deliberately 
placed in BICE. Some of the reasons for this decision are:
    Air and Marine staff and capital assets are deployed primarily for 
interdiction. The principal goals of interdiction are to enhance the 
BICE investigative process to prevent terrorist activity and to further 
investigations of major smuggling operations whether they be drug, 
alien, or terrorist in nature.
    As a key part of the BICE integration of the immigration and 
customs enforcement mission with other Federal agencies, OAMI will 
support investigative processes at Coast Guard, Secret Service, 
Emergency Management, TSA, and FPS. OAMI will support investigative 
processes at non-DHS agencies from DEA to FBI.
    The use of OAMI mission and assets must be closely connected to the 
BICE intelligence mission and operations to be effective. It is this 
connection that ensures that the limited air and marine assets are 
effectively deployed to specific targets over a vast sea or border 
resulting in maximum deterrence capability. BICE intelligence based 
operations must be the lynchpin of OAMI strategy.
    Operationally, OAMI is more identified with investigations than 
inspections or surveillance activity. OAMI has historically reported 
through the investigations division of Customs. In fiscal year 2002, 
approximately 60 percent of OAMI flight hours supported customs 
enforcement. With the integration of customs and immigration 
enforcement, we estimate that more than 80 percent of OAMI operational 
flight hours will directly support BICE investigations, foreign 
operations, border and maritime patrols. The remaining 20 percent will 
support transportation of people and assets, as well as training and 
maintenance, and other customers for support flights.
    Based upon the above factors, placement of OAMI within BICE 
accomplishes the objectives of intelligence-based operations; more 
effective support of DHS and inter-agency law enforcement missions; and 
furtherance of investigations of terrorists and other crime syndicates. 
Air and Marine support of border protection functions will continue 
under this placement and will be formalized in an upcoming management 
directive. The proper placement of all our programs remains subject to 
periodic review.
                         border patrol airwing
    Question. Your Bureau now includes all Border Patrol air assets. 
Please provide the Subcommittee with a breakout of the Border Patrol 
air assets and where they are located. Are any funds requested in the 
fiscal year 2004 budget for new aircraft? If not, what is the base 
level of funding in the budget for operation and maintenance of the 
existing assets?
    Answer. The BCBP/Border Patrol air wing has 111 aircraft (78 
Helicopters and 33 Fixed-wing) dedicated to patrolling the northern and 
southern border. Border Patrol aircraft are stationed at all Border 
Patrol sectors on the northern border, southern border, and Puerto 
Rico. There are no funds requested in the fiscal year 2004 budget for 
new aircraft. The base level of funding in fiscal year 2003 for 
operation and maintenance of aircraft is $21,491,000.
           adjustments to the fiscal year 2004 budget request
    Question. The fiscal year 2004 BCBP budget request includes 
reductions totaling over $301 million for ``Non-recurring costs for 
fiscal year 2003 Initiatives'' and ``Adjustments for discontinuing Low-
Value Efforts''. Please break out in detail the specific, one-time 
fiscal year 2003 costs for non-recurring initial equipment costs and 
other items that you are reducing to achieve these savings.
    Answer. The following chart details the one-time fiscal year 2003 
non-recurring initial equipment costs and discontinued low-value 
efforts that achieve savings:

------------------------------------------------------------------------
                   NON-RECURRING COSTS                        AMOUNT
------------------------------------------------------------------------
Construction............................................    $145,000,000
Border Patrol Transfer Costs............................      25,000,000
Northern Border Hardening Equipment.....................      28,798,000
Northern Border NEXUS Equipment.........................       4,760,000
Northern Border NII Technology..........................      12,759,000
mmigration Fees.........................................       9,107,000
Maritime Port Security NII Technology...................      25,481,000
Security Infrastructure Technology......................      11,454,000
Helicopters.............................................       8,000,000
                                                         ---------------
      TOTAL NON-RECURRING COSTS.........................     270,359,000
------------------------------------------------------------------------

    During the fiscal year 2004 budget formulation process, the Bureau 
of Customs and Border Protection identified $31,540,000 in savings. 
These savings were realized by activities such as reforming and 
simplifying the Drawback process, redirecting field analyst specialist 
positions to border security, and realigning resources that support the 
Trade community. In addition, other program areas where savings were 
realized include the Intern Program, Labor and Employee Relations, 
Mandatory Fitness Program, Customs Health Enhancement Program, 
redistribution and cross servicing of field work, and the processing of 
anti-dumping/countervailing and harbor maintenance fee refunds.
               private mail radiation detection equipment
    Question. The Department has provided its employees who inspect 
U.S. Postal Service mail with radiation detection equipment. Does it 
also provide similar equipment for employees who inspect United Parcel 
Service and FedEx mail? If not, why not? Is there a plan to provide 
this equipment in the future?
    Answer. The Bureau of Customs and Border Protection (BCBP) 
personnel are equipped with radiation detection devices at FedEx and 
United Parcel Service (UPS) facilities. At the present time BCBP 
personnel use both Personal Radiation Detectors (PRD) and Radiation 
Isotope Identification Devices to screen cargo at both FedEx and UPS 
facilities.
    Both UPS and FedEx are in the process of procuring and installing 
company owned radiation detection devices at overseas locations. Once 
completely installed this equipment will allow these companies to 
screen all incoming cargo and parcels before entering the commerce of 
the United States. Both companies will be relying on several types of 
equipment, such as Hand-Held Devices and Radiation Portal Monitors, at 
their overseas facilities. The types of radiation screening devices 
used will depend on the size of the facility and amount of cargo 
screened.
                     alternative shoulder holsters
    Question. Recently, the Bureau of Customs and Border Protection 
informed the employee representatives of Customs personnel (the 
National Treasury Employees Union) that the Department would no longer 
allow employees to use ``alternative firearms holsters'' as long as 
they are properly trained in the use of the holster. By and large, 
``alternative firearms holsters'' have been used by women in the late 
stages of pregnancy. The shoulder holster enables them to continue to 
carry a firearm in the performance of their work. It seems that this 12 
year old alternative holster provision has provided a reasonable 
accommodation between the needs of the legacy Customs Service and the 
interests of women who desire to continue working while pregnant. Why 
has Department decided to not continue the use of the alternative 
shoulder holster for pregnant legacy Customs personnel?
    Answer. A single request was made through the Office of Field 
Operations (OFO) for an alternate firearms holster accommodation on May 
24, 2002. This request was forwarded to the Firearms and Tactical 
Training Division (FTTD). The FTTD conducted an evaluation of the 
Safariland model 1060 shoulder holster that was named in the request to 
determine its suitability for use by pregnant OFO uniformed personnel. 
The primary evaluation criteria used to determine suitability was 
safety and feasibility.
    There were numerous safety and training issues related to the 
shoulder holster. The shoulder holster is designed for the concealed 
carrying of firearms, and does not possess retention characteristics 
needed for officer safety for exposed carry. The weapon's grip is 
presented toward the front making it readily accessible to a subject 
during a physical confrontation, and the retention devices on this 
holster are easy to defeat. Also, the shoulder holster would not be 
feasible for wear with the authorized maternity uniforms such as class 
seven (7) maternity shirts and trousers, and the class seven (7) 
maternity jumper. This is because the suspender type clips could not be 
fastened to the belt or pants as the belt or pants would be under the 
maternity shirt.
    The FTTD concluded that given the inherent risks and difficulties 
associated with the use of this type of holster, they did not recommend 
the use of it for OFO officers in uniform with close interaction with 
the public.
                           transfer of funds
    Question. Has BCBP been required to transfer any funds to the 
Department? If so, how much and for what purposes? Are any future 
transfers to the Department anticipated?
    Answer. Yes, BCBP has transferred funds to the Department. BCBP 
transferred $30 million to DHS for start-up costs. We anticipate two 
future transfers to DHS as follows: $900,000 for Departmental 
enterprise architecture and $21 million to assist with the 
Transportation Security Administration shortfall.
                            personnel issues
    Question. The Department of Homeland Security has created a 
separation between Customs Agents and Inspectors who work at various 
ports of entry. Is there a plan in place for continuing the 
relationship between Inspectors and Agents? Will Agents continue to 
respond directly to airport seizures and arrests? Will the new 
reporting requirements hinder investigative and enforcement activity?
    Answer. Although the Department of Homeland Security created a 
separation between Agent and Inspector, the working relationship 
remains strong between BCBP and BICE and enforcement actions are being 
coordinated. Additionally, BCBP inherited the Senior Inspector Program. 
The Senior Inspector position was created for high-risk ports of entry 
to be responsible for the enforcement of the Immigration and 
Nationality Act and other criminal statutes by identifying, 
investigating, apprehending, and prosecuting persons who attempt and 
abet illegal entry into the United States. BCBP plans to maintain the 
Senior Inspector program to assist in meeting the challenges of 
coordinating the enforcement functions of three formerly distinct 
agencies, but BCBP will continue to refer customs-related 
investigations and arrests to ensure no disruption of enforcement and 
investigative activity.
    Question. I understand that the legacy Customs Special Agents who 
formerly conducted criminal investigations in the Internal Affairs (IA) 
Division, have also been transferred to ICE. Who will now conduct those 
investigations? Will this merger inhibit the response to internal 
affairs investigative matters? Are you concerned about the loss of this 
investigative expertise which has been used to ``clean up'' past 
corruption problems within the former Customs Service?
    Answer. The Inspector General of the Department of Homeland 
Security will be responsible for coordinating all investigations. 
Integrity has always been a cornerstone of the legacy BCBP 
organizations and will continue to be one in the future.
                    entry-exit visa tracking system
    Question. The vast majority of the $480 million in funds for the 
``entry-exit'' system are proposed as part of the CBP budget request. 
It is my understanding, however, that you are not the bureau in charge 
of designing and implementing the system. Why? Which Bureau is supposed 
to be in charge of designing and implementing the program?
    Answer. The Undersecretary of the Border and Transportation 
Security has determined that the design and implementation of the 
``entry-exit'' system will be managed at his level.
                            security detail
    Question. Given your past positions in government, as well as your 
heading up the agency most closely involved in tracking and stopping 
narco-terrorists, do you have a security detail? If not, why not? Has a 
threat assessment been done to determine whether you or other agency 
heads at your level require security details?
    Answer. The Commissioner does not now have a security detail. 
Regular risk assessments are conducted to determine if a security 
detail is required.
                             national guard
    Question. The National Guard has played a critical role in 
assisting the former Customs Service in inspection activities at our 
borders--including inspecting shipping containers and operating VACIS 
equipment. This role has continued with the transformation to the new 
Department, however, I am concerned about reports that the Guard may 
soon cease its operations in this regard. What is the status of 
National Guard cooperation with your Bureau? Will they continue to 
assist the Bureau with inspection activities and, if so, for how long? 
Has the Defense Department attempted to curtail the Guard's role with 
the Bureau?
    Answer. In September 2002, the Department of Defense (DOD) 
officially informed the U.S. Customs Service, now Bureau of Customs and 
Border Protection (BCBP), that they would discontinue funding National 
Guard counternarcotics support of BCBP's Cargo and Mail Inspection 
operations (the only BCBP operations supported by National Guard 
soldiers) effective September 30, 2003. DOD subsequently changed this 
date to September 30, 2004. The reason for discontinuing the National 
Guard support, as stated by DOD officials, is that they wish to phase 
out all National Guard counternarcotics support that does not require 
unique military skills.
    As a result of the September 2002 notification, aggressive hiring 
strategies that will offset any negative impact of losing the support 
of the National Guard were implemented. Through regular appropriations, 
supplemental funding and an overall increase in our Inspector corps as 
a result of the March 1, 2003 transition to BCBP, our agency is 
prepared to do without National Guard support beginning October 1, 
2004.
                           personnel breakout
    Question. In your testimony at the hearing you stated that the 
Bureau was requesting funds for 41,000 FTE for fiscal year 2004. You 
also said that on March 1 approximately 6,000 legacy INS, 3,000 legacy 
APHIS and 11,000 Border Patrol personnel were incorporated into the new 
BCBP. Please provide the subcommittee with a breakdown for fiscal year 
2002-2004 of the approximate 41,000 FTE requested by function--both in 
a comparable breakdown from the legacy agencies as well as by current 
function (i.e. inspection activity, Border Patrol, etc.)
    Answer. The fiscal year 2004 President's Budget requests funding 
for the Department consistent with the enacted Homeland Security Act.

                       BUREAU OF CUSTOMS AND BORDER PROTECTION INSPECTIONAL PERSONNEL FTE
----------------------------------------------------------------------------------------------------------------
                                                                                                   Inspectional
                                                                   Inspectional    Inspectional    FTE funded in
                                                                  FTE Authorized   FTE Expected     the fiscal
                                                                  in fiscal year     on Board        year 2004
                                                                       2003        September 30,   Appropriation
                                                                                       2003           Request
----------------------------------------------------------------------------------------------------------------
Direct Appropriation............................................          19,780          20,070          20,298
Reimbursable....................................................           1,664           1,664           1,664
                                                                 -----------------------------------------------
      TOTAL.....................................................          21,444          21,734          21,962
----------------------------------------------------------------------------------------------------------------


                    BUREAU OF CUSTOMS AND BORDER PROTECTION IMPORT AND ENTRY/LIQUIDATION FTE
----------------------------------------------------------------------------------------------------------------
                                                                                                    Import and
                                                                    Import and      Import and        Entry/
                                                                      Entry/          Entry/        Liquidation
                                                                    Liquidation     Liquidation    FTE funded in
                                                                  FTE Authorized   FTE Expected     the fiscal
                                                                  in fiscal year     on Board        year 2004
                                                                       2003        September 30,   Appropriation
                                                                                       2003           Request
----------------------------------------------------------------------------------------------------------------
Direct Appropriation............................................           1,570           1,570           1,584
Reimbursable....................................................              39              39              39
                                                                 -----------------------------------------------
      TOTAL.....................................................           1,609           1,609           1,609
----------------------------------------------------------------------------------------------------------------


                        BUREAU OF CUSTOMS AND BORDER PROTECTION INTELLIGENCE ANALYSTS FTE
----------------------------------------------------------------------------------------------------------------
                                                                                                   Intelligence
                                                                   Intelligence    Intelligence     Analyst FTE
                                                                    Analyst FTE     Analyst FTE    funded in the
                                                                   Authorized in    Expected on     fiscal year
                                                                    fiscal year        Board           2004
                                                                       2003        September 30,   Appropriation
                                                                                       2003           Request
----------------------------------------------------------------------------------------------------------------
Direct Appropriation............................................              51              51              66
Reimbursable....................................................               7               7               7
                                                                 -----------------------------------------------
      TOTAL.....................................................              58              58              73
----------------------------------------------------------------------------------------------------------------


                         BUREAU OF CUSTOMS AND BORDER PROTECTION COMPUTER SPECIALIST FTE
----------------------------------------------------------------------------------------------------------------
                                                                                                     Computer
                                                                     Computer        Computer     Specialist FTE
                                                                  Specialist FTE  Specialist FTE   funded in the
                                                                   Authorized in    Expected on     fiscal year
                                                                    fiscal year        Board           2004
                                                                       2003        September 30,   Appropriation
                                                                                       2003           Request
----------------------------------------------------------------------------------------------------------------
Direct Appropriation............................................             298             298             298
Reimbursable....................................................               6               6               6
                                                                 -----------------------------------------------
      TOTAL.....................................................             304             304             304
----------------------------------------------------------------------------------------------------------------


               BUREAU OF CUSTOMS AND BORDER PROTECTION ADMINISTRATIVE AND OPERATIONAL SUPPORT FTE
----------------------------------------------------------------------------------------------------------------
                                                                                                  Administrative
                                                                  Administrative  Administrative        and
                                                                        and             and         Operational
                                                                    Operational     Operational     Support FTE
                                                                    Support FTE     Support FTE    funded in the
                                                                   Authorized in    Expected on     fiscal year
                                                                    fiscal year        Board           2004
                                                                       2003        September 30,   Appropriation
                                                                                       2003           Request
----------------------------------------------------------------------------------------------------------------
Direct Appropriation............................................           5,225           5,225           5,225
Customs Reimbursable............................................             116             116             116
                                                                 -----------------------------------------------
      TOTAL.....................................................           5,341           5,341           5,440
----------------------------------------------------------------------------------------------------------------

                        ins construction backlog
    Question. In your April 30 letter to me regarding the deployment of 
570 additional Border Patrol agents at our nation's borders, you stated 
that the fiscal year 2004 budget request pending before the Congress 
does not request ``new enhancement construction funds''. You further 
state that, ``Additional requirements related to construction projects 
for the Border Patrol will be addressed in future budget cycles''.
    On May 14, 2002, the President signed the Enhanced Border Security 
Act of 2002, authorizing significant improvements in our efforts to 
secure our borders. However, a congressionally mandated June 2000 study 
of our land border ports included a list of 822 projects totaling $784 
million. These projects ranged from overloaded electrical outlets at 
facilities built in the 1930s which are not equipped to accommodate 
21st century computers to a border station in Maine that is literally a 
trailer.
    Commissioner Bonner, the lack of funding for construction projects 
along the border deeply troubles me. Significant expansion of our 
border facilities is anticipated to meet the requirements and deadlines 
specified in the former ``entry-exit'' program. How can we meet these 
deadlines if the Administration does not request the funds to do so? 
Without these funds, how can you be successful? The bulk of the funding 
of this system resides within your Bureau. Do I have your assurance 
that the Department will meet the December 2003 deadline?
    Answer. Secretary Ridge recently outlined the Department's plan to 
create a new entry-exit system backed by 21st century technology called 
the U.S. Visitor and Immigrant Status Indication Technology system 
(U.S. VISIT). U.S. VISIT is a critical new border security and 
enforcement tool that will capture point of entry and exit information 
on visitors. U.S. VISIT is designed to make entering the United States 
easier for legitimate tourists, students and business travelers, while 
making it more difficult to enter the U.S. illegally through the 
implementation of biometrically authenticated documents. Development 
and deployment of this system will be coordinated by the Undersecretary 
for Border and Transportation Security. The system will be in its first 
phase of operation at international air and sea ports of entry by the 
end of 2003.
                                 ______
                                 

            Questions Submitted by Senator Patrick J. Leahy

    Question. Many former Customs and INS employees in Vermont and 
throughout the nation remain in a state of limbo, awaiting information 
about how their old agencies will be restructured and what it means for 
them. I think that they would appreciate hearing your perspective as to 
how the combination of your old agency with the INS and numerous other 
agencies is progressing. First, how would you describe the progress 
that has been made in creating the Bureau of Immigration and Customs 
Enforcement? What has been the most difficult aspect? How will the 
command structure differ from the framework that Customs used?
    Answer. The command structure of the Bureau of Immigration and 
Customs Enforcement is being determined by Michael Garcia, Assistant 
Secretary of the Bureau of Immigration and Customs Enforcement, in 
conjunction with the Undersecretary of Border and Transportation 
Security and Secretary Ridge.
    Question. Second, can you give the Committee your impressions about 
the process of integrating the old INS, Customs, and other agencies 
into the Bureau of Customs and Border Protection? What has been the 
most difficult aspect there?
    Answer. BCBP is in the process of conducting both a merger and a 
divestiture of agencies and functions. This process is going well, 
employee morale is high, efficiency has increased and we have 
established a single chain of command to the port of entry level. As in 
any endeavor of this magnitude, the most difficult challenge is 
answering our employees questions and providing them with information 
at the appropriate time.
    Question. Third, in either bureau, where the old agencies bring 
overlapping personnel, such as administrative support staff, how is 
that being handled? Where INS and Customs personnel were performing the 
same task before March 1, what criteria do you think should be used to 
determine who should perform that task now?
    Answer. BCBP and BICE are working together to determine where 
common services can be shared in the future. We believe that there are 
opportunities to accomplish this.
                                 ______
                                 

   Questions Submitted to the Transportation Security Administration

              Questions Submitted by Senator Thad Cochran

                           personnel cutbacks
    Question. On April 30, TSA announced the reduction of 6,000 airport 
screeners--3,000 by May 2003 and another 3,000 by the end of fiscal 
year 2003--as the Transportation Security Administration works to 
realign the screener workforce and to bring its budget into line. How 
will the reduction of screeners affect security? Does TSA have, or will 
it conduct, any assessment of current screening needs to verify that 
these reduced levels are appropriate?
    Answer. There will be no effect on security. TSA is working to 
optimize both its scheduling, utilizing a mix of full and part-time 
employees. TSA used several staffing models to meet the requirements of 
standing up the organization by late 2002. In early 2003, under the 
mandate of Congress, TSA developed an expedited Phase 1 Reduction 
Methodology which enabled us to start the reduction process as fast as 
possible. A second phase modeling methodology, which takes into account 
essentially all of the variables, is in process and scheduled for 
completion in early June. This second phase modeling effort assesses 
current needs to verify the reduction plans.
    Question. What analysis was initially conducted on what the needs 
would be for aviation security prior to the hiring of the screeners, 
and what did this analysis show, including the number of full-time and 
part-time screener positions that would be required?
    Answer. The initial analysis of screener requirements was based on 
TSA's assessment of the work requirements at each passenger-screening 
checkpoint. As the recruiting, hiring, and deployment process unfolded, 
TSA made adjustments to the number of screeners required to provide the 
necessary level of security at each airport. Although the initial 
workforce requirements analysis was based on a desire to create a 
workforce consisting of both full-time and part-time employees, 
initially TSA encountered a very low interest in part-time 
applications. As a result, TSA hired a preponderance of full-time 
employees to meet the level of security required at each airport, as 
well as to meet the ATSA-mandated screener deployment dates for the 
fully federalized screener workforce. TSA believes that making 
effective use of part-time screening personnel is in the best interest 
of both security and the taxpayer. Most airports have a peak time, or 
several peak times, during which a screening presence is needed beyond 
the normal throughput. The ability to use part-time or split-shift 
personnel during these focused periods is a policy with significant 
possibilities. With the implementation of improved scheduling tools, 
TSA expects to be able to optimize the workforce with the appropriate 
mix of full-time, part-time and split-shift personnel to better match 
travel patterns.
    Question. What other components are being considered to meet the 
budget requirements?
    Answer. All programs within TSA continue to undergo constant 
scrutiny and monitoring in order to align scarce resources to the 
highest priorities and realign anticipated availability to other 
underfunded requirements.
    Question. What will be the amount of the projected savings in 
fiscal year 2003 from the reduction of screeners?
    Answer. TSA's anticipated fiscal year 2003 savings is $32 million 
as a result of the reduction in screeners.
    Question. Concerns have been raised that in the rush to meet the 
statutory deadline of November 19, 2002, for the deployment of Federal 
screeners at all of the Nation's airports that all of the screeners 
hired did not receive a full background check, including a criminal 
history record check. Can you say for certain that all of the screeners 
working in the Nation's airports have received a full background check?
    Answer. More than 98 percent of TSA's current screener workforce 
has received, at a minimum, a fingerprint-based FBI criminal history 
records check. In addition, more than 98 percent of the current 
workforce has undergone the first phase of the ChoicePoint check, which 
includes a search of public records for an applicant's criminal 
history, credit history, and potential links to terrorist activity. 
This check exceeds what is required for nearly every Federal employee 
to begin working.
    Question. Can you describe to the Committee the process of deciding 
which airports would lose screeners, which airports would receive 
additional screeners, and which airports would not be affected?
    Answer. The methodology used in the first round of modeling 
consisted of applying a standard screening model applied to the number 
of screening points within a given airport. The model considered the 
number of screening lanes, and the presence of selectee checkpoint 
screening. Based on the model results, each airport requirement was 
compared with the screener population and the gain or loss was 
determined.
    As the process moves forward, TSA is inviting Federal Security 
Directors, community and airport leaders, and others to provide 
feedback in the form of airport specific information or other factors 
that are expected to drive TSA's upcoming refinement process. TSA will 
evaluate all the newly obtained information and will refine the 
preliminary numbers using this information and originating passenger 
data to arrive at a more accurate reflection of the staffing needs at 
all airports. We will keep you apprised of the results of our on-going 
process to provide efficient, effective screening.
    Question. How can an airport negotiate with TSA if it is believed 
that too many screeners have been cut and will affect the airport's 
ability to provide an adequate amount of security? Is there an appeals 
process that an airport can submit to?
    Answer. The airports and Federal Security Directors have been 
encouraged to highlight unique characteristics of their airports to the 
staffing team within TSA. This team consists of industrial engineers 
and senior management within Aviation Operations. Each appeal is 
carefully considered and the data provided, validated, is used to 
accomplish the final modeling. Specific information on enplanements is 
a major consideration in this modeling.
    Question. A concern among some of the smaller airports is that the 
classification of airports that determines the number of passengers 
handled annually has not been accurately assessed and therefore is 
losing screeners because of it. Will TSA conduct assessments of 
airports to determine that they are categorized correctly?
    Answer. TSA has just completed a preliminary re-categorization of 
all federalized airports. This effort has resulted in several proposed 
category changes that will affect the final screener allocation.
    Question. If an airport can accurately document that it has not 
been categorized correctly how steps can be taken to appeal?
    Answer. TSA welcomes any information that affects the 
categorization of a specific airport. The passenger origination and 
enplanements information is particularly important and is compared with 
DOT statistics to determine the validity of the claim.
                      tsa: increased threat level
    Question. When the National Threat Level is raised, as it was 
before the beginning of Operation Iraqi Freedom from ``Yellow'' to 
``Orange'', new security directives are issued to airlines and 
airports, such as random vehicle inspections, more stringent 
identification checks, and increased canine patrols to lessen the 
chance of any terrorist incidents. There have been concerns that enough 
guidance has not been given to airport managers to implement increased 
security when the terrorist threat level is raised. How does the 
Transportation Security Administration share threat information, not 
only with airports but also with port security managers, when an 
increase in security is necessary?
    Answer. The Transportation Security Intelligence Service has the 
ability to tailor dissemination based on the nature of the threat. Such 
information can be disseminated to a small, focused group of recipients 
if the threat is specific to a particular transportation asset or 
facility, or it can be provided to a wider audience if the threat could 
impact multiple transportation modes or modal interests.
    Information can be disseminated in the following manner:
  --Information Circulars (IC) inform the various modes (aviation, 
        surface a/or maritime) of threat information and provide an 
        analytical perspective regarding the credibility, timing, 
        location and other available information.
  --Security Directives (SD) issued by TSA operations policy, direct 
        air carriers and airports to take specific action designed to 
        counter a known threat. Such threat information is provided by 
        TSA Intelligence. TSA is currently reviewing the efficacy of 
        issuing SDs for other modes at appropriate times.
  --Intelligence Notes
  --Response to Request for Information (RFI)
  --Telephone briefings may be conducted in situations where time is of 
        the essence or where the threat is very narrowly focused to a 
        particular carrier or geographic location.
  --E-mail Fax notification messages
  --Automated Message Handling System (AMHS)
  --Recipients include, among others, DHS Homeland Security Center, DHS 
        Information Analysis and Infrastructure Protection, TSA Federal 
        Security Directors, TSA Area Representatives at overseas 
        locations, Federal Air Marshals Service, FAA, DOT, U.S. Coast 
        Guard, as well as stakeholders and other elements of the 
        aviation and maritime communities.
    Question. Is there a certain procedural checklist to follow in 
order to make sure all possible security precautions have been 
implemented?
    Answer. Each airport has a detailed security plan and its own 
checklist in accordance with its security plan. Specifically how a 
particular airport does this is dependent upon local conditions. The 
directives from TSA are in the context of these plans and current 
operations and are straightforward and easy to understand. TSA relies 
on Federal Security Directors (FSDs) to coordinate with airport 
authorities and to verify and report on airports' compliance with TSA 
directives.
    Question. Will the Transportation Security Administration reimburse 
airports and others for meeting additional requirements such as 
conducting random vehicle searches?
    Answer. TSA views airport security as a partnership between all 
stakeholders at the airport, including the airport authorities. TSA 
also believes that a true partnership implies shared responsibility for 
expenses. TSA continues to work closely with its aviation stakeholders 
in determining which specific types of safeguards are feasible and 
appropriate at each threat level. However, TSA is not planning on using 
its resources to reimburse airports for these costs.
    Question. Have you developed plans for what happens at airports if 
the threat level is elevated to ``Red?'' Will this result in the 
grounding of airliners?
    Answer. Yes. The specific actions to be taken in any increase or 
decrease of threat level are considered Sensitive Security Information 
(SSI) at the minimum. A specific threat may elevate that information to 
the Secret level. Without speaking to all actions that may be taken 
under increased security, there are many steps that can be taken prior 
to stopping air commerce. Each step will be threat based and risk 
managed to determine a level of security appropriate to the threat 
environment.
              role within department of homeland security
    Question. The Homeland Security Act of 2002 requires the 
Transportation Security Administration be maintained as a distinct 
entity within the Department of Homeland Security for 2 years from the 
date of enactment. How do you envision the Transportation Security 
Administration's role within the Department of Homeland Security after 
this 2-year period?
    Answer. TSA's mission is a vital component of the Border and 
Transportation Security Directorate's responsibilities. To achieve its 
mission, TSA is developing a National Transportation System Security 
Plan (NTSSP) that will explain TSA's vision to complete the important 
task of ensuring the security of all modes of transportation. The NTSSP 
will also lay out how TSA, other DHS components, other Federal 
agencies, state and local authorities, and the private sector will work 
together to ensure system-wide security. The creation and 
implementation of the Plan will involve extensive interaction and 
cooperation with other involved agencies and the private sector.
    TSA's involvement in providing mode-specific security will vary 
across modes based upon assessed needs and determination of TSA's 
responsibilities relative to other DHS organizations. Currently, TSA 
plays a very active operational role in the aviation mode, while we are 
still establishing our capabilities and activities in other modes such 
as highway and mass transit.
    Within DHS, the cooperation and interaction that already exists 
between TSA and the Bureau of Customs and Border Protection (BCBP), the 
Bureau of Immigrations and Customs Enforcement (BICE), the U.S Coast 
Guard and the Information Analysis and Infrastructure Protection 
Directorate (IAIP) will only grow over the next 2 years.
  --We expect to perform or facilitate a vast number of vulnerability 
        assessments in the Transportation Sector under the overall 
        oversight of and coordination with IAIP.
  --We expect to greatly increase our use of information and 
        intelligence that will be provided by IAIP.
  --We will enhance the tactical cooperation with BCBP that exists now 
        at major airports of entry, including joint screening and joint 
        training programs--e.g., TSA screeners recognizing drug and 
        money contraband.
  --We will continue and increase coordination with BCBP on major 
        developing issues such as cargo security and collecting 
        passenger name lists, to promote effective security and 
        efficient commerce.
  --We will work with BICE where possible to further the investigation 
        and enforcement of transportation security concerns and 
        violations.
    Also within DHS, the transportation-focused specialists at the 
Transportation Security Labs (TSL) will share information and resources 
with the Science and Technology Directorate. This will leverage the 
efforts of both organizations, while maintaining the benefits of TSL's 
specialization and transportation security focus.
    Question. Do you feel that TSA would function best as a separate 
entity within the Border and Transportation Security Directorate or do 
you believe it should be merged into one of the other functions of this 
Directorate?
    Answer. The Transportation Security Administration serves a 
distinct need, particularly with respect to aviation. The 
characteristics and security needs of the transportation system are 
often unique from the characteristics and security needs of border 
protection, and from those of immigration and customs enforcement. For 
these reasons, we believe the Nation is best served by protecting the 
transportation system with a dedicated and distinct entity that 
provides the necessary expertise and focus to address the unique 
characteristics and security needs of the transportation system.
    Having said this, we fully agree that the security of the 
transportation system intersects significantly with the security of our 
borders, Ports of Entry, cargo and passengers and the security needs of 
Customs and Immigration. It is very appropriate that the TSA work 
closely and coordinate with the BCBP and the Bureau of Immigration and 
Customs Enforcement (BICE), with oversight and guidance from the Under 
Secretary for BTS, as well as in coordination with other DHS 
directorates and agencies. As DHS evolves, the Secretary must continue 
to assess how to best manage our critical mission, including the 
organization of its functions.
                        tsa: guns in the cockpit
    Question. The Homeland Security Act of 2002 authorized the use of 
firearms by pilots in order to defend the flight decks of aircraft 
against criminal violence. The Transportation Security Administration 
has now begun to train pilots on a volunteer basis and recently 44 
pilots have completed training and have been sworn in as Federal flight 
deck officers. The fiscal year 2004 budget requests an increase of over 
$17 million for the training of arming pilots with firearms. What is 
the cost of training each pilot and is such a large increase feasible 
and achievable?
    Answer. The initial cost of training for a Federal Flight Deck 
Officer (FFDO) is approximately $2,000. In addition, the assessment of 
an individual's eligibility to be a FFDO costs approximately $3,000. To 
equip (firearm, holster, lockbox) a trained FFDO costs approximately 
$1,100. Therefore, the total cost to train and deploy an FFDO is 
approximately $6,200. Finally, semi-annual re-qualification is expected 
to cost about $700 per FFDO.
    Additional program costs include building and maintaining an on-
line application system and providing new FTEs to facilitate program 
oversight, operations support, and internal investigation.
    With the funding requested for fiscal year 2004, TSA expects to be 
able to assess, train, equip and deploy thousands more FFDOs (the 
actual number is considered sensitive security information).
    Question. From learned efficiencies will there be one agency that 
will administer all of the training or is it more feasible for several 
agencies to carry out the training?
    Answer. TSA intends to conduct all initial (or basic) FFDO training 
at the Federal Law Enforcement Training Center (FLETC) campuses in 
Glynco, GA and Artesia, NM. TSA is working in partnership with both 
locations to deliver this training. Use of these facilities ensures 
consistent and thorough training of new FFDOs.
    Question. Do the airlines incur any expense for the training of 
their pilots? If not, do you believe this should be a shared cost?
    Answer. APATA specifically states that air carriers should not bear 
the costs to train their pilots as FFDOs.
    Question. When will the Transportation Security Administration 
conduct the next training session and what criteria will be established 
to decide which pilots will receive the limited number of training 
positions if the interest is as large as expected?
    Answer. The next training class commences on July 21, 2003. 
Volunteers will be scheduled for training on a rolling basis as they 
complete the selection process. Applications will be viable for a 
period of 1 year; persons eligible but not scheduled for training in 
the remainder of the current fiscal year will be scheduled for training 
in fiscal year 2004. No additional applications will be solicited until 
the eligible volunteers from the current application period have been 
scheduled for training.
                       tsa: port security grants
    Question. For fiscal years 2002 and 2003, Congress has appropriated 
a total of $388 million for port security grants by TSA for this 
important program to better secure our Nation's ports. Included in the 
recently passed Emergency Wartime Supplemental Appropriations Act for 
fiscal year 2003, an additional $20 million was provided for port 
security grants in addition to the $150 million made available just 
three months ago by the fiscal year 2003 Consolidated Appropriations 
Resolution. How soon will you be able to obligate these funds?
    Answer. TSA expects to announce a second round of Port Security 
grants in late May/early June 2003. TSA and the Department of Homeland 
Security are working with the Administration to finalize budget 
execution plans for the spending of fiscal year 2003 appropriated funds 
for port security grants.
    Question. How does the Coast Guard work with TSA to administer the 
grant-making process?
    Answer. The Coast Guard, as well as the Maritime Administration of 
the Department of Transportation, has worked collaboratively in all 
aspects of the Port Security grants process. This includes developing 
the Broad Agency Announcement; defining the eligibility requirement, 
evaluation criteria, and evaluation process; and participating in all 
levels of application review and award decision making.
    The Coast Guard, the Maritime Administration, and TSA jointly 
monitor the progress of all grants and collectively determine whether 
all grant requirements have been met.
                   explosive detection systems (eds)
    Question. Of the baggage screened at 429 commercial airports, TSA 
estimates that 90 percent of the baggage is screened electronically by 
either Explosive Detection Systems (EDS) or Explosive Trace Detection 
(ETD) machines. The President's budget provides $100 million only for 
the maintenance of these screening devices and does not provide any 
monies for the purchase of additional machines. How much of the $180 
million in funding for fiscal year 2003 and carryover funds available 
from fiscal year 2002 for Explosive Detection Systems has been 
obligated in order for airports to comply with statutory deadlines 
mandated by Congress? If no funds have been obligated, when do you 
intend on obligating the remainder of the funds for the purchase of 
additional Explosive Detection Systems?
    Answer. A total of $179,300,000 from fiscal year 2002 and fiscal 
year 2003 (including FAA funding) will be obligated by the end of May 
2003 for EDS/ETD purchases.
    Question. Do you believe if Congress appropriated funds for fiscal 
year 2004 for the purchase of additional Explosive Detection Systems 
that airports that are in the most need of these machines would be able 
to accommodate them and would this accelerate the electronic screening 
of all passenger baggage?
    Answer. TSA is in the final stages of developing a deployment plan 
for those in-line installations that will be supported by the Federal 
Government through appropriations funding and the Letter of Intent 
(LOI) program. Throughout this process we have updated the actual 
numbers of machines that TSA will have to purchase and deploy to 
accommodate in-line installations.
    Question. Now that the deadline to screen all checked airline 
baggage has passed and 100 percent of the checked baggage is now being 
screened for explosives, whether it be electronically or manually, what 
further efforts do you plan to implement to enhance the process of 
making sure all baggage that is checked for air travel is completely 
safe of explosives?
    Answer. TSA's Transportation Security Lab (TSL) is aggressively 
working with manufacturers of new technologies that show promise of 
meeting the TSA's certification standards within a 2-3 year window for 
producing viable systems to enhance the screening process. TSL is also 
working with current manufacturers to enhance performance of currently 
deployed EDS equipment to improve detection capabilities, reduce false 
alarm rates and increase throughput capacity.
    Question. It is reported that while improving, false alarm rates 
for baggage screening machines still occur too frequently. Can you 
address what new technologies are being pursued to address this problem 
and give us further detail on the $30 million proposed for fiscal year 
2004 for the next generation explosive detection systems?
    Answer. TSA has planned a two phase R&D program to identify and 
develop next generation EDS technology.
  --First Phase.--TSA will direct approximately 85 percent of allocated 
        R&D efforts towards a program which addresses evolutionary 
        growth of present technology. The project will focus on:
    --Life cycle extension of existing systems to include software 
            enhancements that will lower the machine false alarm rates, 
            increase baggage throughput and improve detection 
            capabilities;
    --Combining technologies (such as a combination of X-ray with 
            quadrupole resonance or X-ray diffraction technology); and
    --Emerging technology and products that are within a 2-3 year 
            window for producing viable systems.
  --Second Phase.--TSA will direct approximately 15 percent of R&D 
        efforts to a project which is a longer-range project with 
        potentially greater payoff. This is a 5 to 10 year project that 
        will challenge industry to develop the next generation of EDS 
        technology.
                  airport security improvement project
    Question. TSA announced recently that Letters of Intent would be 
signed for about 20 airports to provide Federal assistance for 
permanent installation of explosive detection equipment. Which airports 
will receive this funding and when can we expect these monies to be 
obligated?
    Answer. TSA is currently working to develop a comprehensive plan 
for EDS in-line installations that will include an estimate of how many 
LOIs TSA intends to utilize. We will provide details on that plan when 
it is completed.
    Question. The fiscal year 2004 budget for TSA does not include 
additional monies for installation of explosive detection systems but 
in your prepared testimony you state that TSA expects to amend its 
budget request for costs associated with the Letter of Intent program. 
When can we expect a budget amendment from the Administration for 
additional funding?
    Answer. TSA is working with the Department of Homeland Security 
(DHS) and the Office of Management and Budget (OMB) to determine what 
adjustments are needed to the TSA fiscal year 2004 Budget Request. 
These discussions include consideration of funds for the Letter of 
Intent program. When an Administration proposal is completed, TSA will 
provide details to the Congress.
    Question. The Nation's largest airports that handle the greatest 
passenger volume are most in need of money for terminal modifications. 
However, if Congress provides additional funding for fiscal year 2004, 
there is concern that these same airports will receive funding and the 
smaller airports will be left out. Under Secretary Hutchinson testified 
that there is a procedure, or a priority system, to determine which 
airports will receive funding. Can you explain the order of how 
airports are chosen to receive funding for security improvement 
projects?
    Answer. TSA has developed, and is applying, a prioritization 
process that provides for an objective method for determining which 
airports will be the first to move forward in the Letter of Intent 
(LOI) process to fund installations of in-line explosive detection 
system (EDS) equipment. The prioritization and complete plan for 
installations will be completed in the near future.
      computer assisted passenger pre-screening system (capps ii)
    Question. Under Secretary Hutchinson testified before the 
Subcommittee that firewalls would be established for the Computer 
Assisted Passenger Pre-screening System in order to prevent personal 
data from being collected by the government or retained by the 
government. What procedures are being put into place to prevent this 
firewall from being breached?
    Answer. The firewalls which are being incorporated into the CAPPS 
II system to protect privacy will themselves be protected through the 
use of the ``Radiant Trust'' system. This system will audit, in real 
time, the flow of all data into and out of the CAPPS II system and will 
also audit any access to or modification of the data in the system. The 
software used in the auditing component of the system is the same 
software trusted by intelligence agencies for the protection of highly 
classified information. In short, we believe that data processed by the 
CAPPS II system will be accorded the highest level of security 
available for such data in any system in the government.
    Question. Some Transportation Security Administration passenger 
screeners have repeatedly searched individuals who clearly do not fit 
the profile of possible terrorists. What is the Transportation Security 
Administration doing to cut down on these ``false alarms'' or ``wasted 
searches?''
    Answer. One of the advantages of the CAPPS II system will be that 
it will greatly reduce the type of unnecessary screening referred to in 
this question. Unlike the current prescreening system in place, 
currently administered by the airlines, TSA is developing CAPPS II to 
have a robust authentication function to help ensure that people who do 
not pose a threat to commercial aviation security and will not be 
confused with those who are identified as posing such a threat, and 
therefore will not be subjected to repeated and unnecessary additional 
scrutiny when they travel. Further, if such errors do occur under the 
CAPPS II system, TSA will have a ``Passenger Advocate'' who will be 
empowered to investigate any errors and assist in correcting repeated 
instances of misidentification.
    In sum, TSA agrees that repeated screening of the wrong person 
wastes resources and that once implemented, CAPPS II will be a useful 
resource allocation tool that will assist in ensuring more 
appropriately focused screening.
                    law enforcement officers (leos)
    Question. For fiscal year 2003, the Transportation Security 
Administration previously planned to negotiate long-term agreements 
with state and local law enforcement agencies to provide uniformed 
officers at passenger security checkpoints this year and in the future. 
Recently, TSA announced that local airports would not be reimbursed for 
law enforcement officers and the airports would now have to shoulder 
the burden for this mandate. What is the rationale behind elimination 
of reimbursing law enforcement officers at airports?
    Answer. TSA will continue to provide reimbursements for some law 
enforcement. However, the fiscal year 2003 Omnibus Appropriations bill 
(Public Law 108-7) provided new authority for the Administrator of TSA 
to allow stationing of law enforcement personnel at places other than 
the airport screening checkpoints if TSA determines that such 
stationing will still provide adequate responsiveness to incidents 
(problems) at these locations. Flexible stationing enhances overall 
security by providing surveillance detection and visual deterrence at 
the airports. Roving patrols can cover more ground, will be observed by 
more passengers, will gain a better understanding of the airport domain 
and will lessen the manpower constraints on local jurisdictions. In 
addition to enhancing security, this provision will greatly affect the 
reimbursement program by significantly reducing funding requirements. 
TSA is reviewing the current and historical requirements of the 
security and law enforcement program for each airport. TSA Federal 
Security Directors are consulting with the Airport Operators and local 
law enforcement agencies to determine whether returning to a No-Cost 
Flexible Response Alternative Program as provided by the Airport 
Security Program (ASP) is sufficient to meet the needs for security at 
that particular airport.
    Question. How do you anticipate financially-strapped airports to be 
able to make up for this shortfall?
    Answer. Financial assistance in the form of a Reimbursement 
Agreement (RA) will be available in cases where a no-cost program would 
critically and adversely affect the financial resources and security 
staffing requirements of the host agency.
            transportation worker identification card (twic)
    Question. The Transportation Security Administration was provided 
$35 million in fiscal year 2003 to initiate a credentialing program for 
all transportation workers, such as dockworkers, truck drivers, and 
airline caterers, to carry Federal identification in order to provide a 
more secure work environment. The Transportation Security 
Administration is now in the process of carrying out a four-month pilot 
project where workers will be issued a transportation worker 
identification card (TWIC) with one of five technologies in order to 
determine the most appropriate, secure technology before a prototype is 
developed. Can you give us a status report on the pilot project and 
explain the different technologies that are being considered that will 
be incorporated in the prototype transportation worker identification 
card? Will biometric technologies, technologies that incorporate iris, 
facial, and fingerprint recognition, be incorporated in the pilot?
    Answer. A contract to conduct the Transportation Worker 
Identification Credential (TWIC) Technology Evaluation Phase pilot 
projects in the Philadelphia/Delaware Basin and Los Angeles/Long Beach 
areas was awarded to Maximus, with EDS (Electronic Data Systems) as a 
subcontractor, on April 23, 2003. The multi-modal pilot projects will 
include testing credentialing technologies in applications for 
aviation, highway, maritime, rail workers, and others.
    The intent of the Technology Evaluation Phase is to evaluate a 
range of potential access technologies for interoperability and 
performance at six facilities in each area. The test will include six 
different access control technologies including digital photographs, 
optical (laser) media stripes, microchips, magnetic stripes, and two 
different types of bar codes. As part of this phase, the benefits of 
employing a centralized card production and issuance center will be 
evaluated.
    Biometric technologies will be incorporated in the Prototype Phase 
of the TWIC program. During this next phase, a TWIC reference biometric 
will be incorporated into the credential and tested at the pilot sites. 
A specific reference biometric has not yet been chosen. In addition to 
the biometric technology selected for the reference biometric, the TWIC 
credential will have the capability to store other biometric 
information for use in various security applications as required by 
individual transportation facilities.
                         highway watch program
    Question. Does the Transportation Security Administration intend on 
any contractual agreements between the Federal Motor Carrier Safety 
Administration and the trucking industry for the Highway Watch program 
as recently directed by Congress?
    Answer. The Highway Watch Program is a joint government/industry 
program and TSA expects to build-on rather than replace this existing 
program as it defines future highway security needs. TSA is working 
with the Federal Motor Carrier Safety Administration to determine the 
requirements for expansion of the current Highway Watch Program.
                                 ______
                                 

         Questions Submitted by Senator Ben Nighthorse Campbell

                         lines of communication
    Question. In the hours following the attacks on the Pentagon and 
the World Trade Center, it was clear that the lines of communication 
between everyone involved in air travel--the FAA, Federal authorities, 
airlines, and customers--was severely deficient, if not to say 
completely inadequate. What steps have been taken to improve this so 
that information moves quickly and accurately from the air traffic 
controllers to the airlines to the passengers, and most importantly, to 
the appropriate agencies in the event of another emergency?
    Answer. The communications flow between air traffic controllers, 
airline corporate headquarters and security divisions, Department of 
Defense, and other Departments occurs under processes established among 
the Federal Aviation Administration, Transportation Security 
Administration, Department of Homeland Security, and the Department of 
Defense. In cases where there is a known threat to aviation security, 
the agency that identifies the threat establishes communications with 
the other agencies via established conference calls, at which time all 
command centers are brought into a coordination conference call. In 
addition to these interagency conference calls, each agency initiates 
calls within its own organization for coordination with internal 
response and information sources to build and maintain situational 
awareness. The Transportation Security Administration establishes 
direct links to internal and external agencies via secure and non-
secure means for information gathering and direction. The communication 
systems are tested regularly to identify and correct glitches in the 
lines of communication so that we are confident there will not be any 
problems in a real emergency. At the end of every test, we conduct an 
outbrief to review the exercise and identify areas for improvement. 
These communications links encompass the full spectrum of agency 
capabilities to respond to any threat to aviation security. Additional 
details on the secure elements of the communication links can be 
provided in a classified setting.
                              air marshals
    Question. On September 11th, it became apparent that our Nation's 
protectors of the commercial skies, the U.S. Air Marshals, needed to be 
in better communication--not only with their superiors but also with 
each other. Who knows what could have been averted, and how many lives 
could have been saved had communications technology been available. I 
know that over the past year or so, the TSA has been working with 
technology companies in order to develop a communications system that 
allows the air marshals to communicate in real time with officials on 
the ground, as well as other air marshals stationed on other commercial 
aircraft. I think this is necessary so that our air marshals are not 
isolated at 30,000 feet. Do you have any knowledge of the progress of 
this technology development?
    Answer. Pursuant to House Conference Committee Report 107-593, 
TSA's Federal Air Marshal Service (FAMS) was provided $15 million to 
begin the initial implementation phase of the Air to Ground 
Communications program. TSA intends to utilize this funding to purchase 
a Commercial Off-the-Shelf (COTS) product, which includes hardware and 
software, for implementation of the Air to Ground communications 
system. This initial system will allow the FAMS to utilize a portable, 
quickly deployable air to ground communications system which will 
seamlessly integrate existing FAMS wireless technology. This 
comprehensive wireless communications system may also be used by other 
local, State, and Federal agencies, and the Department of Defense, to 
achieve secure communications through a dedicated law enforcement 
network.
                           baggage screeners
    Question. The TSA recently announced plans to eliminate 3,000 more 
airport screening jobs by the end of September, coupled with 3,000 
others announced in March, amount to about 11 percent of the 55,600 
screeners employed. This plan will save the TSA an estimated $280 
million. I applaud the TSA's effort to trim their budgetary needs, 
however, is a good idea to cut the work force and putting some workers 
on part-time hours? Do you believe this to be a wise decision at this 
time?
    Answer. TSA believes that making effective use of part-time 
screening personnel is in the best interest of both security and the 
taxpayer. Most airports have a peak time, or several peak times, during 
which a screening presence is needed beyond the normal throughput. The 
ability to use part-time or split shift personnel during these focused 
periods is a policy with significant possibilities. With the 
implementation of improved scheduling tools, TSA expects to be able to 
optimize the workforce with the appropriate mix of full-time, part-time 
and split shift personnel to better match travel patterns.
    Question. Will we still have enough workers to screen 100 percent 
of the bags?
    Answer. Yes, the screening force will not be cut below the level 
needed to screen 100 percent of the baggage.
                        air traffic controllers
    Question. A year ago, we discussed the need for accountability in 
the security screeners and airport employees as a whole. Then Congress 
passed the Aviation and Transportation Act which federalized those 
employees. Recently, President Bush issued an executive order that 
deleted the clause in a previous order signed by President Clinton that 
described air traffic control as an ``inherently governmental 
function.'' The Administration has proposed studying whether to hire a 
private company to take over the air traffic control system. What 
effect will privatizing the Air Traffic Controllers will have on the 
current system? Do you believe it will solve current issues, or create 
problems?
    Answer. Because the safe operation of the Nation's air traffic 
control system is the responsibility of the Federal Aviation 
Administration (FAA), an agency within the Department of Transportation 
(DOT), these questions are more appropriately addressed to that agency. 
However, it is our understanding that although DOT recently deemed the 
FAA's air traffic controllers to be ``commercial'' within the meaning 
of the required annual FAIR Act inventory of agency functions, the 
Secretary also decided that the non-contract tower functions are core 
capabilities of the agency and will not be subject to competition or 
contracted out.
                  qualified antiterrorism technologies
    Question. The Homeland Security Act of 2002 (Sections 862) provided 
the Department of Homeland Security with authority to compile a list of 
``qualified antiterrorism technologies'' that would qualify or receive 
certain protection under that Act. Has this list been compiled? If not, 
why?
    Answer. The Department of Homeland Security is in the process of 
drafting regulations for implementation of Section G of the Homeland 
Security Act of 2002 and places a high priority on their issuance for 
public comment and implementation. These regulations will provide the 
basis for the Department to compile a list of qualified antiterrorism 
technologies in accordance with the criteria and provisions of the 
Homeland Security Act.
    Question. If this list has been compiled, can Members of this 
Committee get a copy of this list?
    Answer. A list of ``qualified antiterrorism technologies'' has not 
yet been compiled because the regulations needed to implement Subtitle 
G of the Homeland Security Act of 2002 have not yet been issued.
    Question. How would a company that has an antiterrorism technology 
be considered for approval?
    Answer. At present, there is no process by which a company can 
submit its technology for consideration for approval as a qualified 
antiterrorism technology. Such a process will be available after the 
regulations needed to implement the provisions of Section 862 of the 
Homeland Security Act have been finalized and issued.
    Question. Do they need to wait for the rulemaking process to be 
completed to apply for approval?
    Answer. Yes.
    Question. If so, when will that process be completed?
    Answer. As indicated earlier, the process is currently in progress 
and will include a public comment period on the proposed regulations 
prior to their finalization and issue. At this time, it is not possible 
to provide a specific date for completion of the rulemaking process.
                                 ______
                                 

             Questions Submitted by Senator Robert C. Byrd

                   full-time equivalent screeners cap
    Question. The Congress has required your agency to achieve a cap on 
full-time screening employees of 45,000 individuals. Does this staffing 
limitation force your agency to make bad or inefficient management 
decisions?
    Answer. As a threshold matter, the cap referred to in the question 
applies to full time permanent employees throughout TSA and not just 
screeners. The cap affects, among others, TSA headquarters staff and 
Federal Air Marshals.
    TSA acknowledges the requirement to reduce and re-distribute some 
of the screener workforce. At some of the airports, we did not 
experience the voluntary attrition we expected, and at other airports, 
attrition has been greater than programmed. Getting the right number of 
screeners hired and trained at the right airports will continue to be a 
management challenge. It will be essential for us to use our work force 
in a flexible manner if we are to avoid long lines after the reduction. 
Part time employees will be essential for staffing checkpoint lanes 
during peak periods. Through the implementation of good management 
principles and practices, TSA will be able to maintain world-class 
security with a more efficient, more effective screener workforce.
                              bus security
    Question. TSA has been given funds for a program to enhance motor 
coach security ($25 million total from the Supplemental and 
Transportation Appropriations bill). The first application period ended 
in March. When do you expect that your agency will announce those 
grants and what criteria have you used to award these funds?
    Answer. Request for applications for the initial round of bus 
security grants was published in the Federal Register on January 17, 
2003. The application period closed on March 19, 2003. Interagency 
national and executive review teams recently completed their 
evaluations of the proposals. TSA anticipates awarding the grants in 
June 2003.
    In developing funding recommendations, the national evaluation team 
used the evaluation criteria published in the Request for Applications, 
which included the following: relevance and importance, technical 
quality of the proposal, competence of the project team to perform the 
work, appropriateness and reasonableness of the budget, and corporate 
experience and capability.
    Question. With all your focus on the airlines and their security, 
when do you expect that you will turn to other modes of transportation 
and have you done any preliminary studies or have any ideas as to what 
can be done to protect rail and bus passengers?
    Answer. TSA, working through the Border and Transportation Security 
Directorate (BTS) and with the Information Analysis & Infrastructure 
Protection Directorate (IAIP), is currently working with Federal 
surface and maritime transportation modes, and governmental and 
industry stakeholders to better assess security vulnerabilities, 
identify security enhancements, and, where needed, establish best 
practices, national standards, and security plans and regulations.
    Additionally, TSA continues to assess security vulnerabilities and 
identify needed security enhancements to the rail and bus system and 
related infrastructure and is engaged in the following rail and bus 
security activities:
  --Coordinating information and threat sharing through the Surface 
        Transportation Information Sharing and Analysis Center (ISAC), 
        which is managed by the Association of American Railroads, 
        including deploying TSA personnel to the ISAC.
  --Studying (in collaboration with Amtrak and Federal Railroad 
        Administration) the feasibility of prototyping the screening of 
        both passengers and baggage in a rail environment.
  --Identifying the gaps in antiterrorism training among rail 
        personnel.
    TSA also provided support to a study conducted by the Volpe 
National Transportation Systems Center entitled ``Security Enhancement 
Study for the U.S. Motor coach Industry.'' This study assesses the 
level of security threats within the motor coach industry, prioritizes 
industry vulnerabilities and identifies potential areas of opportunity 
to enhance security.
    Question. In your opinion, is it more important to enhance 
protection to transportation routes and corridors or significant 
transportation destinations?
    Answer. Both transportation routes and corridors and significant 
transportation destinations play a critical role in our economy. 
Enhancing protection of both of these areas will ensure the 
uninterrupted flow of commerce and maintain the confidence of the 
traveling public. Because the routes and corridors and destinations are 
economically interdependent, leaving one unprotected is not an 
acceptable alternative. Risk analysis does indicate however, that the 
greatest threat lies within the transportation destination, for it is 
there that those who would do us harm achieve the greatest impact 
(potential greatest loss of life, impact on critical infrastructure and 
economy, and access to major media markets).
    Question. Some bus operators (e.g. Greyhound Bus Lines) have begun 
``wanding'' passengers in its largest terminals. Has TSA had any 
discussions with Greyhound or with the industry's trade association 
(American Bus Association) about the usefulness, cost and practicality 
of expanding such efforts?
    Answer. TSA has had broad discussions with both Greyhound Bus Lines 
and the American Bus Association (ABA) with regard to Greyhound's pilot 
project to perform random ``wanding'' of passengers at 32 cities across 
the Nation. Greyhound has found that ``wanding'' works well on several 
fronts, discouraging passengers from bringing drugs and dangerous or 
otherwise threatening items onboard as well as providing a tangible 
demonstration of enhanced security. Greyhound is exploring the 
feasibility of and identifying resources needed to expand their 
``wanding'' program to include 50 percent of Greyhound's terminals. In 
addition, other bus operators are evaluating whether and how to 
incorporate ``wanding'' into their security protocols.
                 federal air marshals training location
    Question. Does TSA, in conjunction with FLETC, plan to consolidate 
training of Federal Air Marshals at one location (Artesia) as opposed 
to the expense of training in Atlantic City?
    Answer. The Federal Air Marshal Service (FAM) has no plans in 
conjunction with FLETC to consolidate the training of Federal Air 
Marshals (FAMs) at one location (Artesia).
    All FAMs are required to attend the FAMS 7-week Basic Training 
Course conducted at FLETC in Artesia, New Mexico and the 4-week FAMS 
Phase II Specialized Training Course conducted at the FAMS Training 
Center in Atlantic City, New Jersey. The training in Artesia consists 
primarily of basic police and law enforcement training that is aimed at 
providing a student the fundamental law enforcement training related to 
their positions. The training in Atlantic City is specialized training 
related directly to the FAMS mission. It takes place in facilities and 
on equipment that are designed to replicate the working environment 
that a FAM will encounter during a mission. In addition, instructors 
from the Federal Aviation Administration (FAA) and other outside 
entities that conduct some of the specialized FAMS training would not 
be available if the training were conducted at the FLETC-Artesia 
location.
    A recently held curriculum review conference was attended by 
representatives of the FAMs, TSA's Office of Training and Quality 
Performance, and FLETC-Artesia. A coordinated effort is underway to 
eliminate all duplicative training courses in each segment of the 
training to maximize the time FAMs spend in the specialized mission-
related training facilities uniquely available in Atlantic City.
                  federal air marshals retention rates
    Question. Regarding the retention rate of Federal Air Marshals, 
does the turnover exceed training costs? What is being done to enhance 
retention? Is emphasis in hiring placed on Federal law enforcement 
officials--most of whom have already received FLETC-certified 
training--and whom we understand are relatively less costly to train 
than other recruits?
    Answer. In order to address the issue of retention, two points need 
to be addressed. First, looking at Federal Air Marshal (FAM) attrition 
over the year and a half since the program has undergone a significant 
build up, it is apparent that the attrition rate is no greater than 
that of the rest of the Federal Law Enforcement workforce. FAM 
attrition was initially very low, and then there was a spike noted late 
last summer. Since December 2002, the attrition rate has stabilized at 
half of a percent per month. Second, the build up to comply with the 
Congressional mandate resulted in hiring the FAM workforce without 
being able to sufficiently hire the warranted supervisory personnel. 
Since this past fall, when a cadre of experienced Federal Law 
Enforcement Supervisors and Managers were selected and deployed to each 
of the Field Offices, there has been a significant reduction in the 
number of resignations and a noted stabilization of the FAM workforce.
    Turnover does not exceed training costs. The cost of half of a 
percent per month attrition does not exceed the monthly budget 
allocation for training.
    The Federal Air Marshal Service (FAMS) recruits from a variety of 
sources including those individuals with Federal law enforcement 
experience. It is the goal of the FAMS to select the best-qualified 
individuals for the workforce, following all applicable OPM 
regulations. Since September 2001, the FAMS has actively recruited 
individuals with prior Federal law enforcement experience, as have many 
other Federal, State, and local agencies with law enforcement 
responsibilities. Competition for those best-qualified individuals has 
been intense. During the emergency stand-up period running through July 
2002, approximately 50 percent of the FAMs hired had previous Federal 
law enforcement experience. Hiring personnel with former Federal law 
enforcement experience realizes cost savings; however, all personnel, 
regardless of their backgrounds, require specialized Federal Air 
Marshal Training.
     wyden amendment to s. 165--air cargo security improvement act
    Question. S. 165, as it passed the Senate, requires a report on 
plans by the Transportation Security Administration to gather data on 
plane passengers. He said he wanted to determine how the collection of 
data impacts civil liberties and privacy. Has the Administration taken 
a position on the Wyden provision? Does it share the same concerns 
about personal privacy and data mining issues?
    Answer. The Administration does not oppose the Wyden provision. TSA 
is committed to ensuring that personal privacy is protected in the 
CAPPS II program and welcomes the opportunity offered by Senator Wyden 
to demonstrate that commitment. TSA is developing CAPPS II in ways that 
protect personal privacy. Strict firewalls and access rules will 
protect a commercial air traveler's personal information from 
inappropriate use, sharing or disclosure. Also, CAPPS II will include 
real-time auditing capabilities in the system architecture to ensure 
compliance with domestic and international laws and the privacy 
policies of TSA and other Federal agencies. In addition, it is TSA's 
goal to listen to the views of our stakeholders, the traveling public, 
privacy advocacy groups and the Congress and to use the feedback to 
help create and develop the CAPPS II system. With regard to data 
mining, as understood by TSA, ``data mining'' means sifting through 
vast amounts of data to identify any possible patterns. CAPPS II starts 
with a known person, the air traveler, and seeks to authenticate his/
her identity and to determine whether that person poses a terrorist 
risk to the aircraft, other passengers, or the public. It is not 
seeking out unknown patterns in vast quantities of data.
                        trusted traveler program
    Question. In conjunction with development of the CAPPS II program, 
there has been some discussion of also exploring development of a 
``trusted traveler'' program similar to those in place at certain 
overseas airports for frequent, especially business, travelers. Has the 
Department explored piloting such a program in this country? If not, 
why not? If so, what has the Department learned in this regard?
    Answer. The concept of the Registered Traveler (RT), or ``trusted 
traveler,'' is still in its development stage. TSA is conducting a 
business-based feasibility study to examine the range of program 
alternatives, evaluate viable technologies and develop a range of 
funding and cost-sharing options. As TSA makes progress with CAPPS II 
and further defines the registered traveler concept, we will be in a 
better position to determine how a RT program might be implemented and 
identify other advantages for travelers who volunteer to participate.
    TSA is still in the process of developing CAPPS II to identify 
those persons who are involved with or linked to foreign terrorism and 
who pose a threat to aviation security. At the same time, TSA is 
reviewing the RT concept, per Section 109 of the Aviation and 
Transportation Security Act (ATSA), which provided TSA with the 
discretion to ``[e]stablish requirements to implement trusted passenger 
programs and use available technologies to expedite security screening 
of passengers who participate in such programs, thereby allowing 
security screening personnel to focus on those passengers who should be 
subject to more extensive screening.''
    The current thinking around RT is that passengers who apply to the 
RT program will voluntarily submit to background checks. Based on these 
checks, TSA would be able to assess whether the passenger presents a 
risk to aviation security. If it is determined that the passenger does 
not pose such a threat, they will be registered as a RT, or, 
alternatively, if they do pose a threat to aviation security, they 
would not be registered. Thus, there are no levels of clearance--people 
either participate in the program or they do not. If they are in the 
program, it is possible that this group of people could be entered into 
the CAPPS II system as individuals who do not present a risk to 
aviation security.
    In this situation it is envisioned that RTs would generally be 
exempt from secondary screening. For the majority of cases, RTs would 
only receive secondary screening if they trigger an alarm at the walk 
through metal detector (WTMD). The benefit to the RT is the potential 
for expedited security screening.
                       tsa: goals and management
    Question. A recent General Accounting Office report has given the 
Transportation Security Administration high marks, saying it is off to 
``an impressive start'' in motivating its workforce to achieve 
performance goals. At the same time, the agency has focused the vast 
majority of its resources on the aviation side of the ledger almost to 
the exclusion of other modes of transportation. The budget request for 
fiscal year 2004 appears to continue this trend, with only $86 million 
planned for Maritime and Land Security out of a budget request of $4.82 
billion. There are reports that TSA is working on a national security 
plan that will address all modes of transportation, including the 
development of partnerships with the private sector. Can you give us 
some examples of what these might be? Do you anticipate modifying or 
realigning your budget request to accommodate these plans?
    Answer. We do not anticipate modifying the TSA request for this 
purpose. DHS, overall, has requested substantial resources in fiscal 
year 2004 across the Department outside of aviation, including 
resources in the Coast Guard for ports and maritime security; in BCBP 
for cargo security; in IAIP for vulnerability assessment, intelligence, 
and infrastructure protection for all sectors including transportation; 
and in EP&R for emergency response. ODP recently announced grants 
including $75 million for port security and $65 million for mass 
transit security in fiscal year 2003. TSA is continuing key standards-
setting efforts, and will work closely with modal administrations of 
the Department of Transportation to help leverage resources of that 
agency, where appropriate, to accomplish security goals.
         tsa: business assistance in developing security plans
    Question. Transportation Security Administrator, Admiral Loy, 
recently told a group of business leaders that he needs their 
assistance in developing a national security plan for transportation 
systems. He said, ``This is an all-hands evolution. We are sort of in 
this together.'' What types of assistance is TSA looking for from the 
private sector? Is there a timetable for deliverables on this national 
transportation security plan? What measures are being used to determine 
whether the plan is working?
    Answer. Industry participation is vital to TSA's success and our 
security paradigm involves industry input at almost every step of the 
process. From domain awareness, where industry has the benefit of day-
to-day observation, to prevention, protection, response, restoration 
and consequence management, TSA, its modal partners and industry will 
be essential to the establishment and effectiveness of a comprehensive 
transportation security plan.
    Specific measures of effectiveness will be developed as the plan is 
put in place and appropriate security standards are decided.
                           letters of intent
    Question. The fiscal year 2003 Iraqi War Supplemental (Public Law 
108-11) included a provision allowing the Under Secretary for Border 
and Transportation Security to issue letters of intent to airports to 
provide assistance in the installation of explosive detection systems. 
What is the status of this issue? Is the Office of Management and 
Budget delaying the issuance of these letters?
    Answer. OMB supports the use of LOIs as a tool for improving 
security, leveraging private sector resources and is working with TSA 
on its in-line installation plan and the use of LOIs in support of that 
plan.
              tsa's cruise ship to airlines pilot project
    Question. My staff had the opportunity while in Miami to observe 
the operation of a temporary pilot project which has been instituted 
between a major cruise line and a major airline. In this pilot, 
disembarking cruise passengers who are immediately transiting through 
to the airline have their bags examined by Transportation Security 
Administration screeners at a dock-side facility and receive their 
boarding passes from airline representatives. Then their bags are 
transferred to the airport in a secure vehicle while the passengers 
take a bus to the airport and, upon arrival, proceed directly to the 
gate. Under this system, the passenger is able to avoid waiting in 
additional lines at the airport, while at the same time congestion is 
slightly reduced at the airport itself. By all accounts, this is a 
system that is working well and demonstrates a fresh approach to both 
security as well as passenger processing. How much does this pilot 
program cost and are funds included in the fiscal year 2004 budget for 
it to be continued? Are there other locations to which this project 
could be expanded? What other innovative ideas, if any, is your agency 
considering piloting in the coming year?
    Answer. The program mentioned in this question is called Synergy 
and is currently working well in Miami. There are no additional costs 
in this program, and it actually improves security by eliminating much 
of the congestion accompanying a cruise ship's passengers all arriving 
at the airport simultaneously. Other, similar programs are proposed for 
areas with hotel concentrations, as well as other major cruise ship 
embarkation points. TSA will pursue all avenues to allow air commerce 
to more freely move while maintaining the same high level of security.
                  transportation worker identity card
    Question. You have included in your budget request for the next 
fiscal year funds to begin implementing the Transportation Workers 
Identity Card program. Given that some transportation workers in 
certain locations often have criminal records, what will be some of the 
determining or prohibiting factors under which a worker will be 
provided or denied a card?
    Answer. At the present time, the determining factors for whether or 
not a person obtains any federally-based TWIC across transportation 
sectors have not been determined. Many considerations must be assessed 
and evaluated, and ultimately these may vary depending on the nature of 
an employee's work and risk to the transportation system. The three 
primary acts which guide our current policy on credentialing include 
the Aviation and Transportation Security Act of 2001, the USA PATRIOT 
Act of 2001 and the Maritime Transportation Security Act of 2002. The 
acts differ both in specificity and in the length and range of offenses 
that would be disqualifying for obtaining a credential.
                       port security assessments
    Question. Have you reviewed the port security assessments that have 
been completed to date to determine if there are patterns in port 
vulnerability that ports generally should begin to address immediately?
    Answer. Review of the port security assessments completed to date, 
both by the ports themselves using TSA port security grant funds and 
those completed by the Coast Guard, has yielded valuable preliminary 
information regarding security enhancement requirements. These 
assessments have identified a number of physical security enhancements 
that were either non-existent or needed improvement, such as fencing, 
lighting, and closed circuit television systems. Other common 
recommendations included: setting standards for transportation worker 
identification systems, creating security plans, enhancing 
communications systems, and establishing screening equipment standards 
for cargo and passengers.
                           support contracts
    Question. In response to questions at the hearing, you spoke to the 
difficulties TSA has experienced with a number of its contracted out 
functions--including screener training, human resources and the like. 
Please provide the Subcommittee with a list if the contracts that TSA 
has let for specific functions since its creation, the number of people 
hired to perform the contracts, the prices of each contract and if a 
contract has been terminated and a new contractor brought on to perform 
the same function.
    Answer. TSA has awarded 6 significant contracts for its 
``contracted out services''. The six contracts and their associated 
information are listed in the attached document. None of these 
contracts have been terminated, although the period of performance for 
one contract has expired. Each of these contracts is a performance-
based service contract (PBSC), where the contractor is required to 
deliver services in accordance with specific performance metrics. In 
general, TSA requires these contractors to achieve desired outcomes, 
and does not require them to adhere to non-performance standards (such 
as contract staffing levels). The contractor has the flexibility to 
achieve performance metrics utilizing innovative approaches that have 
not been restricted by procedural or resource requirements. TSA does 
not require these contractors to report the number of people employed.
    To this point, TSA has awarded contracts to Cooperative Personnel 
Services and Accenture to perform human resources management functions 
previously provided to TSA in part by NCS Pearson for the deployment of 
the aviation security workforce. The current contracts now cover the 
entire TSA workforce, not only the screener component. And, the 
recently awarded contract to Lockheed Martin services for security 
training services replaces the contract with Lockheed Martin Services 
for passenger screener training. In both situations the new contract 
requirements are for a broader range of services than those provided 
under the original contract.
                     s. 165--air cargo security act
    Question. The Senate recently passed this legislation. What new 
activities will this law impose on your agency? If enacted into law, 
what impact will this law have on your agency's budget? What additional 
resources--personnel, funds, etc. will be required?
    Answer. TSA generally does not believe it will be necessary to 
increase personnel and funding to meet the requirements of the Senate 
bill. Should this bill, or TSA's air cargo security strategy, suggest 
new resources are needed, these will be found in base TSA funding. TSA 
has already set up screening protocols for air cargo, is regularly 
inspecting air cargo facilities, and is working to complete its 
``known'' shipper database. $30 million in requested fiscal year 2004 
funding will enable TSA to refine and improve its screening protocols, 
through development of a risk-based, freight screening process, and 
investigate cargo screening technologies.
    This legislation would also transfer responsibility for 
investigating foreign applicants for flight training from the Attorney 
General to the Under Secretary for Border and Transportation Security. 
TSA may assess fees for the cost of the investigations.
    The legislation further provides that TSA may establish a program 
to use identification verification technologies. The use of 
surveillance and recognition technology may ultimately proves useful in 
airport applications, but it would require maintenance of an 
appropriate photo watch-list based on intelligence and law enforcement 
resources from outside TSA.
                                 ______
                                 

             Question Submitted by Senator Patrick J. Leahy

    Question. As you may know, law enforcement officials from New 
England and New York have been national leaders in establishing an 
initiative for cargo container security called Operation Safe Commerce 
Northeast (OSC Northeast). OSC Northeast represents a comprehensive 
coalition of Federal agencies, State governments and private sector 
businesses committed to the concept of enhancing border and 
international transportation security without impeding free trade and 
international commerce. Originally conceptualized a month before the 
tragic events of September 11, 2001, I commend Vermont U.S. Attorney 
Peter Hall and others for being such forward thinkers about the need to 
monitor the security of overseas freight that is coming into our 
country.
    On April 21, 2003 the Wall St. Journal carried an article warning 
that Canadian ports could provide a back door into the continent for 
terrorists targeting the United States. The Canadian Ports of Montreal 
and Halifax are among the principal seaports servicing much of the 
northeast and mid-west. For example: of the 1.2 million containers 
unloaded in Montreal last year, half (600,000) were destined for the 
United States. One billion U.S. dollars of trade is conducted daily 
between the United States and Canada, therefore, a disruption of trade 
between the two countries would be devastating to our respective 
economies.
    Last year (May 2002), OSC Northeast conducted a beta study of 
international container cargo entering the United States via Montreal. 
This project, involving both United States and Canadian participants, 
monitored, tracked and sealed a container from its point of origin in 
Eastern Europe through the Ports of Hamburg Germany to its final 
destination in Hillsboro, New Hampshire. To date, I believe this is the 
only group to have conducted and completed such a study and compiled a 
detailed report of findings and recommendations.
    This group, which is chaired by the Governor of New Hampshire and 
the U.S. Attorneys for Vermont and New Hampshire, is prepared to 
proceed with a Phase II initiative dealing with container verification 
and the transshipment of international cargo. Most recently they have 
partnered with Lawrence Livermore National Laboratory--one of the 
nation's premier applied science labs--to further examine international 
cargo entering the continent via Canada and then transshipped via rail 
and truck inland, or transshipped via feeder vessels for delivery along 
the Atlantic (New England) coast. This interesting initiative consists 
of a collaboration of State, Federal and private sector (United States 
and Canadian) partners prepared to assist the Nation and homeland 
security.
    Therefore, in light of the recognized disruption to the northeast 
and mid-west economies should a catastrophic event occur related to 
international trade corridors the TSA should better engage and utilize 
the resources of the OSC Northeast group. To replicate such a group 
would take a team one full year just to organize and prepare. I 
understand the TSA is preparing to provide funding awards to the three 
largest United States load centers, as prescribed in the fiscal year 
2002 Supplemental Appropriations Bill: Los Angeles/Long Beach, Seattle/
Tacoma and New York/New Jersey. And data from all these sources should 
be used to detect and analyze vulnerabilities in our supply chains. I 
hope the TSA will take a closer look at funding the OSC Northeast 
initiative too. We are very vulnerable along our Northern Border, and 
this group would enhance the safety of cargo entering the United States 
through New England and Canadian ports.
    What steps are TSA taking to incorporate the efforts of OSC 
Northeast into our national port security strategy? Will TSA be able to 
fund Phase II of the OSC Northeast initiative?
    Answer. OSC Northeast was a public-private partnership that yielded 
invaluable information regarding our Nation's port security strategy. 
TSA has incorporated lessons learned from OSC Northeast, as well as 
from other initiatives and experience in order to capture, analyze, and 
build further upon the knowledge base.
    Appropriated funding prioritized Operation Safe Commerce (OSC) 
pilot program funds to the three largest container Load Centers in the 
United States--the ports of Los Angeles and Long Beach, the ports of 
Seattle and Tacoma, and the Port Authority of New York/New Jersey. One 
of the project criteria for the OSC grants is to consider a supply 
chain through the Load Centers, which includes feeder ports and supply 
chains to Canada. To date, no supply chains have been submitted to the 
OSC Executive Steering Committee for consideration that include 
Northeast U.S. ports, eastern Canadian ports, or truck or train 
shipments destined for eastern or central Canada. TSA expects to 
complete work on this pilot program during fiscal year 2004, which we 
hope will provide useful solutions for supply chain security.
                                 ______
                                 

   Questions Submitted to the Federal Law Enforcement Training Center

              Questions Submitted by Senator Thad Cochran

    Question. The Federal Law Enforcement Training Center's fiscal year 
2004 budget requests $146 million. This amount represents a decrease of 
roughly 13 percent. Will the 2004 funding request provide for 
sufficient instructor staffing, training, and facility upgrades?
    Answer. Yes, the President's fiscal year 2004 budget request 
provides sufficient funding for FLETC. It was based on levels of 
training requested by the partner agencies.
    Question. The fiscal year 2003 supplemental appropriations bill 
provided the Federal Law Enforcement Training Center with an additional 
$2 million to support Operation Liberty Shield activities. How were 
these funds used to support Operation Liberty Shield?
    Answer. The funding provided for additional training requested by 
our Partner Organizations and the security costs associated with the 
increased threat levels. As a result of increased security 
requirements, our partner agencies requested 35 additional mandatory, 
basic training programs, totaling 7,084 student weeks of training, in 
order to deploy 744 more agents and officers. The increased threat 
levels required the implementation of a roving security patrol at the 
Artesia training site and an increase to the roving patrol already in 
place at the Glynco training site.
    Question. When the Department of Homeland Security elevates the 
Threat Advisory System, how does the heightened readiness affect the 
Federal Law Enforcement Training Center, and what impact does this 
elevated readiness have on the agency's budget?
    Answer. When the DHS elevates the threat advisory level, the 
following increased security measures are implemented in accordance 
with published directives:
                        threat level 4 (orange)
    This threat level will be implemented based upon anticipated needs 
or communicated threats and will encompass all previously applied 
security measures at security levels 1, 2, and 3. Additionally, a 100 
percent positive identification process, consisting of a valid FLETC-
issued identification card and a second form of a state or federally-
issued government identification with a full-face photograph, will be 
implemented. Both forms of official identification must be produced and 
displayed to FLETC Security Police by all incoming personnel seeking 
access to any FLETC facility. Access will be denied if these specific 
identification requirements are not met. Additionally, FLETC Security 
Police will conduct random verifications and examinations of displayed 
FLETC identification at the various facilities within the FLETC proper; 
as such display of FLETC identification is required of all persons on 
any FLETC facility.
                          threat level 5 (red)
    This threat level will be implemented based upon anticipated needs 
or communicated threats and will encompass all previously applied 
security measures at security levels 1, 2, 3, and 4. The facilities 
will be closed to all visitors and only essential personnel on official 
governmental business will be granted access. All non-essential 
contract personnel will be dismissed. A 100 percent search of all 
vehicles (commercial, government and privately-owned) entering FLETC 
facilities will be conducted and increased security police patrols of 
all areas will be implemented. At this threat level, all Partner 
Organizations will be tasked with providing security to their personnel 
at any off-facility housing areas in support of local police agencies. 
The FLETC Director may cancel any or all training within the affected 
bureau facilities.
    The security activities associated with the heightened threat 
advisory levels are ordinarily accomplished within the parameters of 
the Security Police contract at no additional cost to FLETC. However, 
if security threat situations dictate that the service contractor 
employ additional resources and/or authorize overtime to accomplish the 
required security activities, then additional fiscal resources will be 
necessary.
    Question. Since September 11, the training needs of Federal 
agencies with homeland security missions have increased substantially. 
What is FLETC doing to respond to increased training requests from its 
partner organizations?
    Answer. The near-term increased demand for law enforcement training 
has been accommodated by maximizing the use all available facilities 
and resources at Artesia, Glynco and Charleston. A FLETC management 
team worked systematically through a series of constraints analyses to 
optimize FLETC throughput capacity. As system constraints were 
identified, temporary measures/facilities were brought on-line to 
eliminate or reduce the constraint, increasing the FLETC overall 
training capacity. Additionally, FLETC has developed a number of 
creative scheduling solutions to accommodate the increased training 
demand (i.e. extended training week and extended training day).
    To accommodate the mid-term demand, FLETC is currently studying all 
available options to meet the fiscal year 2004 through 2006 training 
requests, including shifting some basic and/or advanced training 
normally conducted at Glynco, Georgia to alternate sites which may 
include Artesia, New Mexico, Charleston, South Carolina, or, the soon 
to be completed, Cheltenham, Maryland facilities. This option will only 
be employed after consultation with the affected partner organizations 
and consideration of response ramifications.
    Question. Many of the Federal agencies that rely on FLETC for 
training would prefer to establish their own training facilities. What 
additional steps does FLETC need to take to ensure partner 
organizations that coordinated Federal training is best for the agency 
and the taxpayers?
    Answer. H.R. 2590, enacted into law by President Bush on November 
11, 2001, provided appropriations in fiscal year 2002 to the Federal 
Law Enforcement Training Center (FLETC). A provision contained in this 
legislation directed the FLETC to initiate collaborative interagency 
efforts to establish written standards for the accreditation of Federal 
law enforcement training. As the principal source of consolidated 
Federal law enforcement training, the FLETC assists all Federal 
agencies. Currently, the Federal Law Enforcement Training Office of 
Accreditation, located at Glynco, is working to quantify what 
facilities exist and the capability of those facilities.
    In addition, at the request of the Under Secretary, Border and 
Transportation Security (BTS) Directorate, Department of Homeland 
Security (DHS), the Federal Law Enforcement Training Center has been 
tasked with establishing a Training Academy Committee to identify and 
assess the training capabilities of all of the BTS training academies. 
The committee will use a two phased methodology to identify the 
training assets and to develop a plan for operating the facilities 
employed by each of the Directorate's bureaus, and will also include 
the Coast Guard, Secret Service, and the Bureau of Citizenship and 
Immigration Services. The operational plan will provide the framework 
for coordinating academy training. The Committee will develop and 
submit a report at the conclusion of each phase according to the 
timelines established by its charter. Once the committee has identified 
all of the BTS training capabilities, FLETC can develop a more 
definitive utilization plan of facility usage at all BTS sites.
    Question. On March 1, 2003, FLETC was transferred to the Department 
of Homeland Security. Is FLETC working to develop a cohesive training 
curriculum that will cross-train all Department of Homeland Security 
law enforcement personnel in counter terrorism practices?
    Answer. FLETC is currently working with the newly formed Department 
of Homeland Security (DHS) law enforcement organizations to modify, 
design, and develop appropriate training curricula to ensure their 
specific mission requirements are met, to include the cross-training of 
agency personnel. In the interim, all DHS law enforcement personnel 
attend either FLETC basic training programs (Mixed Basic Police 
Training Program, Criminal Investigator Training Program, Federal Air 
Marshal Training Program) or FLETC integrated basic programs and 
receive anti-terrorism and counter-terrorism training as part of their 
basic training, The same personnel also attend FLETC's advanced Anti-
terrorism and Counter-Terrorism Training Programs.
    Question. The Congress intends for agencies within the Department 
of Homeland Security to improve information sharing. What training 
techniques is the Federal Law Enforcement Training Center utilizing to 
encourage information sharing among law enforcement personnel?
    Answer. The Federal Law Enforcement Training Center, through the 
Financial Fraud Institute (FFI), employs training techniques which 
encourage information sharing among law enforcement personnel in the 
following ways:
    First, FFI offers the Intelligence Analyst Training Program (IATP), 
which is a comprehensive 4-week training program designed for the law 
enforcement intelligence community. This program focuses on 
intelligence methodology, analytical skills, research techniques, and 
the processes necessary to support the effective collection, analysis 
and sharing of intelligence data. FLETC is currently proposing to 
expand this program to accommodate the training needs of the Department 
of Homeland Security.
    Second, in addition to the IATP, FFI offers twelve other advanced 
training programs to a cross-section of Federal, State, and local law 
enforcement. This training ranges in topics from International Banking 
and Money Laundering to Computer Forensics. FFI provides advanced Money 
Laundering and Financial Investigative training to High Intensity 
Financial Crime Areas and High Intensity Drug Traffic Areas Federal 
task forces to assist in the national effort to combat money laundering 
and terrorist financing. FFI also provides advanced training in the 
area of computer network security, computer intrusions, and internet 
forensics. These computer forensic training programs encourage law 
enforcement personnel to coordinate with and to interact among law 
enforcement agencies and the private sector to combat computer crimes. 
This cooperation is stressed as being vital to the effective 
investigation of advanced technology crimes.
    Third, FFI serves the international law enforcement community by 
exporting training in international money laundering and computer 
forensics to the International Law Enforcement Academy (ILEA) training 
sites worldwide.
    Through the Criminal Investigators Training Program (CITP), the FFI 
introduces new criminal investigators to the information stored in a 
number of law enforcement data and intelligence resources, to include: 
NCIC/NLETS, the Financial Crimes Enforcement Network (FinCEN), El Paso 
Intelligence Center (EPIC), Narcotics and Dangerous Drugs Information 
System (NADDIS), and Interpol. FFI also trains law enforcement 
personnel in modern electronic information storage techniques which 
allow for the safe and efficient sharing of investigative materials.
    Finally, FFI exposes students through its Internet Investigations 
Training Program (IITP) to the Cybercop Secure Portal which provides an 
encrypted secure collaborative network where over 3,700 law enforcement 
and private sector security personnel share sensitive but unclassified 
information. This portal is sponsored by the Extranet Secure Portal 
Group and is used by many other personnel within the Department of 
Homeland Security.
    Question. As terrorists turn to the use of biological and chemical 
weapons to target America and our allies, what kinds of chemical and 
biological training has the training center developed to counter these 
activities?
    Answer. In response to terrorist attacks, as well as the threat of 
biological and chemical weapons that target our country, the FLETC's 
Security Specialties Division has developed courses and training 
programs to train law enforcement personnel to be prepared for the 
worst case scenario. One of the more effective actions taken was the 
development of the Weapons of Mass Destruction Training Program 
(WMDTP).
    The WMDTP is a 5 day train-the-trainer program. The program goal is 
to instruct the trainer on how to identify the characteristics and 
effects of chemical, biological and nuclear/radiological terrorist 
weapons. Furthermore, the students/trainers are trained as first 
responder officers to these terrorist attacks. As trainers, the 
students are given course materials and taught how to share this 
information and train other officers and administrators to better 
prepare this country should such an incident occur. This program is 
offered to any law enforcement officer in the United States.
    The course content of the WMDTP includes: Overview of Terrorism, 
Chemical Agents and Physiological Effects, Biological Agents and 
Radiological Weapons, Nuclear Devices, Delivery and Dissemination 
Devices, Principles of Decontamination, Conventional Explosives as WMD, 
Detection and Identification of CBR Agents Planning for WMD incidents, 
Personal Protective Equipment and Managing a WMD attack.
    Question. The Federal Law Enforcement Training Center has partnered 
with the Office of Personnel Management and the Office of Management 
and Budget to provide e-learning opportunities. Does the fiscal year 
2004 budget request provide funding for additional distance learning 
programs for law enforcement training?
    Answer. In September 2002, the Federal Law Enforcement Training 
Center (FLETC) sent the Office of Personnel Management (OPM) a Letter 
of Intent to partner in providing law enforcement e-Learning 
opportunities. This partnership included ``support for the creation and 
integration of robust custom law enforcement courseware based upon 
government and industry standards''. In OPM's fiscal year 2004 e-
Learning Exhibit 300, OPM requested $585,000 in support of the FLETC. 
Of these monies, approximately $185,000 was to support additional 
distance learning programs for law enforcement training. Fiscal year 
2004 was the first budget submission that incorporated our partnership 
with OPM. The FLETC will continue to work through OPM's joint e-
Learning initiative for future support of distance learning law 
enforcement content creation and hosting.
    Question. The Federal Law Enforcement Training Center provides 
training to State, local, and international law enforcement officers. 
How is FLETC responding to the increased number of requests from State 
and local law enforcement, especially for hazardous materials and 
weapons of mass destruction training?
    Answer. First response to terrorism or weapons of mass destruction 
incidents are normally handled by State and local officers. Federal 
agencies may be hours away from the scene and State and local law 
enforcement agencies need the training and equipment to respond to 
critical incidents. Some examples of Federal Law Enforcement Training 
Center (FLETC) training programs available to State and local officers 
are the First Responder Training Program (FRTP), Weapons of Mass 
Destruction Training Program (WMDTP), Seaport Security Anti-terrorism 
Training Program (SSATP), and Critical Incident Response Training 
Program (CIRTP). Since September 11, 2001, the demand for these types 
of training programs has increased significantly.
    In fiscal year 2003, the FLETC received an additional $1 million in 
appropriations to expand its delivery of tuition-free training to Small 
Town and Rural (STAR) law enforcement agencies. When possible, the 
FLETC has increased student enrollment in the FRTP from 24 to up to as 
many as 70 students.
    Additionally, the FLETC is partnering with the Environmental 
Protection Agency (EPA) to coordinate delivery of hazardous materials 
training programs such as Advanced Environmental Crimes Training 
Program (AECTP). The FLETC is also developing a partnership with the 
Federal Emergency Management Agency (FEMA) to assist in the delivery of 
various training programs to include: incident command, emergency 
response to terrorism, public information and weapons of mass 
destruction programs.
    Question. Does FLETC have adequate capacity to meet Federal agency 
law enforcement training demands as well as those training needs of 
State, local, and international law enforcement agencies? Is there a 
priority?
    Answer. At this time, FLETC does not have the training capacity to 
meet all the Federal, State, local, and international law enforcement 
agencies training demands while utilizing a standard 8-hour day, and 5-
day training week. However, given adequate scheduling flexibility and 
the use of non-traditional training sites, the FLETC does have the 
capacity to meet the short-term training demands of our Partner 
Organizations. The long-term solution to the training capacity issue is 
the development, refinement, funding, and completion of the FLETC 
Master Plan for facilities.
    Classes are scheduled on a priority basis as indicated below, 
allocating facilities to:
  --Basic Training Programs,
  --Agency Specific Basic,
  --Center Advanced,
  --Agency Advanced and
  --Others (i.e., State, Local, and International).
    Question. The Committee remains concerned about the security of 
power plants and nuclear facilities. Is the Federal Law Enforcement 
Training Facility working with the Office for Domestic Preparedness to 
develop best practices for first responders in protecting identified 
critical infrastructure and assets?
    Answer. The FLETC's Security Specialties Division offers a Critical 
Infrastructure Protection Training Program (CIPTP) which addresses 
protection for all critical infrastructure sectors and key assets as 
outlined in The National Strategy for the Physical Protection of 
Critical Infrastructures and Key Assets, February 2003. Power plants 
and nuclear facilities are included as assets in this document. It also 
addresses security measures for cyberspace, because cyberspace is what 
allows our critical infrastructure to work. The CIPTP is designed for 
those individuals who have the responsibilities to protect and manage 
critical infrastructures, key assets, resources or facilities. Though 
FLETC's priority is the Federal law enforcement community, when space 
is available, participants are accepted from all levels of law 
enforcement.
    The CIPTP provides the participants with an overview of critical 
infrastructure protection, a threat brief, a Critical Infrastructure 
Protection (CIP) Model, instruction related to the components of the 
CIP Model, a case study related to contemporary issues, and a practical 
exercise. Heavy emphasis is placed on two points: One, the fact that 
protecting critical infrastructure and key assets requires a multi-
disciplinary approach involving many people from numerous disciplines; 
and two, the need to build public-private partnerships, because 85 
percent of the infrastructure is owned by the private sector.
    Question. Section 109 of the Maritime Security Act tasked the 
Secretary of Transportation with the development of standards and 
curriculum for the training and certification of maritime security 
professionals. What is the Federal Law Enforcement Training Center's 
involvement in this process?
    Answer. FLETC has established a partnering relationship with the 
U.S. Coast Guard and the Global Maritime and Transportation School, 
U.S. Merchant Marine Academy (USMMA), in anticipation of legislation 
being passed directing the development of a Seaport Security Training 
Program. Preliminary discussions are on-going with regard to training 
site selection and curricula identification, but no funding or 
direction has been given for this activity to date.
    Question. The Federal Law Enforcement Training Center provides 
training to rural law enforcement personnel through its partnership 
with Minot State University and Southwest Texas State University. Does 
FLETC have plans to expand this program or develop other partnerships?
    Answer. Since 1991, the FLETC has developed many long-term 
partnerships with Federal agencies, training partners, State and local 
agencies, and universities. The FLETC, through its National Center for 
State and Local Training, serves on the International Association of 
Chiefs of Police (IACP) and the National Sheriffs' Association (NSA) 
Education and Training Committees, as well as the National Guard 
Counterdrug Training Advisory Counsel.
    In 1996 and 1999, the National Center partnered with Illinois State 
University, to conduct random sample training needs assessments of 
small town and rural law enforcement agencies. Over 2,200 law 
enforcement agencies--county, city, and Indian Country--were surveyed 
to determine their training needs. The results of the 1996 study 
provided the foundation for the development of the STAR training 
series. Since fiscal year 2000, the National Center has contracted with 
Minot State University (MSU), to conduct a training needs assessment of 
all Federal, tribal, State, and local law enforcement agencies in the 
Northern Plains States Region (North Dakota, South Dakota, Montana, and 
Wyoming).
    In fiscal year 2003, Congress allocated $1,000,000 to the National 
Center to expand its contract with MSU for research and validation 
efforts in support of the STAR training series nationwide. 
Additionally, the National Center received $500,000 to contract with 
the MSU to provide a comprehensive evaluation/assessment of the 
effectiveness of law enforcement vehicle pursuit training, previously 
conducted nationwide with law enforcement executives. The MSU is to 
provide recommendations for curriculum revision, training delivery 
methods, and program policy modifications in fiscal year 2004.
    The National Center is currently partnering with Southwest Texas 
State University by providing assistance in the delivery of their 
Advanced Law Enforcement Rapid Response Training Program (ALERRT). This 
program is designed to provide law enforcement officers the skills 
necessary to respond to active shooters.
    The National Center has been conducting a number of site visits to 
training facilities that submitted requests for consideration as hosts 
for National Center and/or FLETC training. Some of these locations are 
in Idaho, Louisiana, California, and Maryland. National Center staff 
evaluates each facility based upon accreditation standards, geographic 
location, demographic considerations, and the requirements to host a 
program.
    Question. The Federal Law Enforcement Training Center is 
responsible for management oversight of the International Law 
Enforcement Academy in Gabarone, Botswana, and will be responsible for 
another facility to be located in San Jose, Costa Rica. How do these 
facilities further FLETC's training mission?
    Answer. In the Department of Treasury's Strategic Plan for fiscal 
year 2000-fiscal year 2005, one of the objectives was to enhance basic, 
advanced, and in-service training programs to meet the changing needs 
and increasing demands of all law enforcement agencies.
    Following the attacks of September 11th, and in a world where there 
is increasing globalization of crime, U.S. law enforcement at all 
levels need to interact with foreign law enforcement organizations.
    For over 30 years, the Federal Law Enforcement Training Center 
(FLETC) has fulfilled its mandate to provide high quality, cost 
effective law enforcement training utilizing modern facilities, state 
of the art equipment and modern teaching methodologies and techniques.
    As the nation's leading organization for interagency law 
enforcement training, FLETC has become the expert in the development 
and management of training facilities, training needs assessment, 
course and curriculum development, instructor training, certification, 
program accreditation, testing, and evaluation.
    With facility management and academic responsibility for multiple 
locations in the United States, which trains a diversity of Federal, 
State, local and international students, FLETC offers a wealth of 
technical experience in the management of International Law Enforcement 
Agencies (ILEA). The ILEAs offer core programs focused on leadership, 
terrorism, white collar crime, drug enforcement, financial crimes, 
ethics, rule of law, police procedures, and the investigative process. 
All ILEA locations-Botswana, Budapest, Bangkok, and Roswell, NM-are 
under the Department of State's appropriation. The FBI, DEA and FLETC 
have leadership roles in administering these sites. Costa Rica's 
consideration as an ILEA site is still under review, so FLETC has not 
taken on the day-to-day operational oversight.
                                 ______
                                 

            Questions Submitted by Senator Pete V. Domenici

    Question. Congress created the Federal Law Enforcement Training 
Center (FLETC) to be the consolidated training center for almost all 
law enforcement agencies. As the law enforcement training arm of the 
Department of Homeland Security (DHS) it seems logical that FLETC 
should develop and conduct standardized training for all Homeland 
Security law enforcement and inspection personnel.
    Such a training approach would ensure that all law enforcement 
personnel receive appropriate and consistent instruction. This is 
particularly important as you retrain and cross-train border agencies 
which have been merged under DHS (e.g. Customs, Immigration, and 
Agriculture Inspectors).
    Congress specifically created the Federal Law Enforcement Training 
Facility in Artesia, New Mexico to handle the advanced and special 
training of almost all Federal law enforcement personnel.
    In the past, Federal agencies have chosen not to use FLETC 
facilities for training and instead have contracted with non-federal 
institutions. Over the past few years, Congress has provided over $30 
million for the FLETC Artesia facility, alone.
    When the need for Federal Air Marshal training arose after 
September 11, FLETC-Artesia answered the call to duty by developing and 
providing this training in a remarkably short period of time. By way of 
example, FLETC-Artesia brought in three 727 airplanes for use in 
training to go along with the 18 firing ranges and 3 shoot-houses.
    FLETC-Artesia boasts 683 beds, state-of-the-art classrooms, and a 
brand new cafeteria to accommodate approximately 700 students a day.
    FLETC-Artesia's close proximity to the Southwestern border, 
recently constructed facilities and optimal training conditions 
certainly suggest the center should be highly utilized by DHS. How do 
you intend to provide training for the newly hired DHS personnel as 
continued training for existing DHS personnel in light of the new 
security challenges facing our country?
    Answer. As we enter a new era in law enforcement operations in the 
United States, FLETC is a good example of the new government approach 
intended by the legislation creating the DHS: a means to harmonize the 
work of many law enforcement agencies through common training, while at 
the same time maintaining quality and cost efficiency. In fiscal year 
2003, 65 percent of FLETC's projected training workload will come from 
nine law enforcement agencies transferred to the new Homeland Security 
department. In fiscal year 2004, this workload will continue to be 
above 73 percent of our estimated total Federal training workload.
    Under the leadership of Secretary Ridge and Under Secretary 
Hutchinson, FLETC intends to work closely with all segments of DHS. 
Placing FLETC within the DHS will help to support the ``unity of 
command'' and the coordination and efficiency themes sought in the 
public law that created DHS. FLETC has a long history of service to 
many of the DHS components--the U.S. Secret Service, the former Customs 
and Immigration and Naturalization Services including the U.S. Border 
Patrol (USBP), the Federal Protective Service and more recently, the 
Transportation Security Administration (TSA).
    With the start-up of the Bureaus of Customs and Border Protection 
and Immigration and Customs Enforcement, FLETC is ready to help 
facilitate, develop, and implement new training and cross training 
programs. We recognize that much of this effort and expertise will 
necessarily come from the agencies involved, but there likely will be 
significant adjustments made over time to all DHS-related training 
programs, basic and advanced. Already, an effort is underway to 
systematically review existing training for these new entities and to 
address whatever capabilities are needed to meld the duties of the 
participants. In the meantime, training will continue unabated to 
achieve all of the hiring expectations of our agencies.
    Question. How do you intend to use FLETC facilities for training 
DHS employees?
    Answer. The national ``war on terrorism'' precipitated by the 
events of September 11, 2001 placed new and increased demands on the 
nation's Federal law enforcement agencies. Officers and agents 
immediately began to work extended hours and many have been reassigned 
geographically and/or to expanded duties. Nearly all Federal law 
enforcement agencies made plans to increase their cadre of qualified 
officers and agents, and submitted urgent requests to the FLETC for 
basic law enforcement training far in excess of the FLETC's normal 
capacity. These requests were for increased numbers of graduates and 
for their speedy deployment to buttress the hard-pressed Federal law 
enforcement effort.
    The events of September 11 also increased the need for certain 
advanced law enforcement training conducted at the FLETC, especially 
classes associated with such issues as counter-terrorism, weapons of 
mass destruction, money laundering, etc. Likewise, the need for 
instructor training classes increased, to strengthen the cadre of 
instructors qualified to handle the training surge--at the FLETC and 
within the agencies.
    In addressing the unprecedented increase in training requirements, 
FLETC has conducted capability analyses to determine the set of actions 
most likely to result in optimum throughput of students at each of its 
training sites without compromising the quality of training. With the 
consultation and concurrence of its partner organizations (POs), FLETC 
leadership directed that training be conducted on a 6-day training 
schedule, thus generating a 20 percent increase in throughput 
capability. More importantly, the 6-day training schedule drives a 
corresponding compression of the length of each training program, 
effectively delivering each class of new law enforcement officers to 
their agencies weeks sooner than under the conventional training 
schedule. Should the 6-day training schedule be insufficient to meet 
the demand, an extended work day will be considered.
    In addition to the 6-day training schedule, FLETC has expanded its 
staff with a supplemental cadre of re-employed annuitants (primarily 
retired Federal law enforcement officers) who are contributing their 
skills and experience as instructors to help sustain the surge in 
training operations. This is a 5-year authority provided by Congress in 
fiscal year 2002.
    Further, the Federal Law Enforcement Training Center has been 
tasked by BTS with establishing a Training Academy Committee to 
identify and assess the training capabilities of all of the BTS 
training academies. This study will be the basis for determining the 
schedule and priority for training elements of DHS in a coordinated 
manner.
    Question. How should DHS use FLETC Artesia's facilities and 
specialized training capabilities?
    Answer. FLETC intends to utilize its Artesia facility to its 
maximum potential. At the request of the Under Secretary, Border and 
Transportation Security (BTS) Directorate, Department of Homeland 
Security (DHS), the Federal Law Enforcement Training Center has been 
tasked with establishing a Training Academy Committee to identify and 
assess the training capabilities of all of the BTS training academies. 
The Committee will use a two phased methodology to identify the 
training assets and to develop a plan for operating the facilities 
employed by each of the Directorate's bureaus, and will also include 
the Coast Guard, Secret Service, and the Bureau of Citizenship and 
Immigration Services. The operational plan will provide the framework 
for coordinating academy training in all BTS bureaus. The Committee 
will develop and submit a report at the conclusion of each phase 
according to the timelines established by its charter. Once the 
Committee has identified all of the BTS training capabilities, FLETC 
can develop a more definitive utilization plan of facility usage at 
Artesia and all other sites.
                                 ______
                                 

             Questions Submitted by Senator Robert C. Byrd

                           training curricula
    Question. Have provisions been formulated regarding possible 
curriculum changes due to the merger of departments and the eventual 
cross training of agency personnel?
    Answer. FLETC is currently working with the newly formed Department 
of Homeland Security (DHS) law enforcement organizations to modify, 
design, and develop appropriate training curricula to ensure their 
specific mission requirements are met, to include the cross-training of 
agency personnel.
                 federal air marshals training location
    Question. Does FLETC, in conjunction with TSA, plan to consolidate 
training of Federal Air Marshals at one location (Artesia) as opposed 
to the expense of training in Atlantic City?
    Answer. The Transportation Security Administration (TSA) has 
recently requested the FLETC conduct 3 weeks of their 4-week agency 
specific basic training program, which is firearms and physical 
training intensive, at our Artesia facility. It is our understanding 
that TSA will continue to conduct the final week of their agency 
specific training, which involves primarily tactics, at their Atlantic 
City facility.
                        master plan construction
    Question. When do you contemplate delivering to Congress the 
revised construction master plan? Does the plan include construction 
requirements at the FLETC-used facilities in Charleston, SC?
    Answer. The completed FLETC Master Plan project is expected this 
summer. FLETC has not included construction requirements of the 
Charleston, SC training facility in its master plan, nor has it 
estimated the cost of transforming the Charleston campus into a full-
fledged, permanent facility. No cost estimates have been developed or 
reviewed by the Department of Homeland Security to date. A study group 
has been formed to examine the planning and decision making process on 
training program implementation for all of the new components in DHS. 
Once the study group formed by the Under Secretary for Border 
Transportation Security has completed its work and decisions made on 
the content, length and type of training needed by the agencies brought 
under the DHS legislation, a determination will be made on the future 
of the Charleston site.
            lack of construction funding in fiscal year 2004
    Question. What will be the impact on training from the lack of any 
construction funding in fiscal year 2004?
    Answer. Facility procurement, design and construction normally 
require 18 months to 2 years to complete. Any training facilities that 
cannot be appropriated and completed during this period will require 
the use of alternative approaches to training, including distance 
learning and use of available Federal, State and local training sites.
                     rural law enforcement training
    Question. How much is in the base budget for the on-going rural law 
enforcement training program at Minot State University?
    Answer. The fiscal year 2004 base budget does not provide for any 
on-going rural law enforcement training programs at Minot State 
University. The fiscal year 2003 enacted appropriation included $3.3 
million to support these programs. This funding is not continued in the 
fiscal year 2004 President's request.
                planned usage of the cheltenham facility
    Question. What agencies have already made plans, and coordinated 
with FLETC, to use the facilities in Cheltenham, MD?
    Answer. The Cheltenham facility is currently utilized by seven of 
its 62 partner organizations. The primary users of the Cheltenham 
facility are the U.S. Capitol Police, U.S. Park Police, the Washington, 
D.C. Metropolitan Police Department, the Prince George's County Police, 
Sheriffs, Fire/EMS Departments, and Pentagon Police. The U.S. Capitol 
Police conducts their basic follow-on, agency specific and advanced in-
service training at Cheltenham on a daily basis. These agencies utilize 
the existing 13 building Cheltenham tactical village for in-service 
agency specific tactical team training, as well as the classroom and 
conference center for in-service chem-bio, emergency medicine, and WMD 
training sessions on a weekly basis. Other groups, such as the Federal 
Law Enforcement Training Accreditation Group and FLETC Distance 
Learning program, have utilized classroom space in the Cheltenham 
conference center for day and week long seminars. Also, the Prince 
George's County Fire and EMS Training Academy utilize vacant FLETC 
buildings for recruit firefighter training on a regular basis.
    To date, 62 separate Federal law enforcement agencies in the 
metropolitan Washington, D.C. area, including the D.C. Metropolitan 
Police Department, have expressed their intention to use the indoor 
firing ranges and driver training range for requalification training.
    Cheltenham will be used by State and local law enforcement 
agencies. In fact, the Metropolitan Police Department of Washington, 
D.C., Maryland State Police, Prince George's County Police and Sheriffs 
Department are currently utilizing Cheltenham facilities on a weekly 
and monthly basis. However, with the exception of the D.C. Metropolitan 
Police Department, which was specifically identified in the legislation 
that created Cheltenham, Federal agencies will be given scheduling 
priority.

                         CONCLUSION OF HEARINGS

    Senator Cochran. Until our next hearing, this subcommittee 
will stand in recess.
    [Whereupon, at 12:20 p.m., Tuesday, May 13, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]
















  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2004

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [The following testimonies were received by the 
Subcommittee on Homeland Security for inclusion in the record. 
The submitted materials relate to the fiscal year 2004 budget 
request for programs within the subcommittee's jurisdiction.]

  Prepared Statement of the American Public Transportation Association

    Mr. Chairman, thank you for this opportunity to submit written 
testimony on the security and safety needs of public transportation 
systems. We appreciate the subcommittee's interest in transportation 
security, and we look forward to working with the subcommittee as it 
develops the fiscal year 2004 appropriations bill for the Department of 
Homeland Security.
                               about apta
    The American Public Transportation Association (APTA) is a 
nonprofit international association of over 1,500 public and private 
member organizations including transit systems and commuter rail 
operators; planning, design, construction, and finance firms; product 
and service providers; academic institutions; transit associations and 
State departments of transportation. APTA members serve the public 
interest by providing safe, efficient, and economical transit services 
and products. Over 90 percent of persons using public transportation in 
the United States and Canada are served by APTA member systems.
                   public transportation and security
    Mr. Chairman, we do not need to emphasize the critical importance 
of keeping our Nation's surface transportation infrastructure secure in 
this time of heightened national security. In that connection, APTA is 
honored to play a critical role in public transportation security. We 
work closely with a number of Administration security agencies, and 
administer an industry audit program that oversees a system safety and 
security management plan for transit systems around the country. Our 
safety audit program for commuter rail, bus, and rail transit 
operations has been in place for many years, and contains security 
planning and emergency preparedness elements. Separately, in connection 
with Presidential Decision Directive Number 63, we are pleased to have 
been designated a Public Transportation Sector Coordinator by the 
Department of Transportation, and as my testimony notes below, we are 
establishing a Transit Information Sharing Analysis Center that 
provides a secure two-way reporting and analysis structure for the 
transmission of critical alerts and advisories to transit agencies 
around the country.
    Since the events of 9/11, State and local public transit agencies, 
like all State and local entities, have spent significant sums on 
police overtime, enhanced planning and training exercises, and capital 
improvements related to security. In response to an APTA survey, 
transit agencies around the country have identified some $6 billion in 
transit security needs. These include both one-time capital investments 
and recurring operating expenses related to security. It is important 
to note that these costs are above and beyond the capital 
infrastructure needs we have identified under the TEA 21 
reauthorization effort. Mr. Chairman, my testimony summarizes these 
security needs in greater detail below in the ``Security Investment 
Needs'' section.
    We also note that Congress just concluded the conference agreement 
on the fiscal year 2003 supplemental appropriations bill (H.R. 1559) 
that funds a number of homeland security programs, including some $2.2 
billion for formula and discretionary grants to enhance the capability 
of State and local jurisdictions to prepare and respond to terrorist 
attacks. This measure includes funding for overtime expenses related to 
increased security by State and local entities. Transit agencies, as 
local public bodies, are expected to be eligible recipients for such 
funding, which will be administered by the Homeland Security 
Department's Office of Domestic Preparedness.
                               background
    Mr. Chairman, prior to and following September 11, 2001--the date 
of the most devastating terrorist attack in United States history--APTA 
has been heavily involved in addressing the safety and security issues 
of our country. American public transportation agencies have also taken 
significant measures to enhance their security and emergency 
preparedness efforts to adjust to society's new state of concern. 
Although agencies were largely secure at the time of the World Trade 
Center and Pentagon attacks and already had emergency response plans in 
place, the September 11 incidents energized and prioritized security 
efforts throughout the industry.
    Transit agencies have had a good safety record and have been 
working for many years to enhance their system security and employee 
security training, partly responding to government standards, APTA 
guidelines, and attacks on transit agencies abroad. For example, the 
1995 sarin gas attack in the Tokyo subway system caused United States 
transit properties managing tunnels and underground transit stations to 
go on high alert. The San Francisco Bay Area Rapid Transit District, 
for instance, responded to the possible threat of chemical weapons 
attacks by sending a police team to Fort McClellan, Alabama, in 1996 to 
learn response tactics from United States Army chemical weapons 
experts.
    In the months following September 11, transit agencies of all sizes 
worked to identify where they might be vulnerable to attacks and 
increased their security expenses for both operations and capital 
costs. The agencies subsequently upgraded and strengthened their 
emergency response and security plans and procedures, taking steps to 
protect transit infrastructure and patrons and increase transit 
security presence while giving riders a sense of security.
    Transit industry services are, by design and necessity, an open 
infrastructure. Over 9 billion transit trips are taken annually on all 
modes of transit service. This is more than sixteen times the level on 
domestic air travel trips and emphasizes the challenges for enhancing 
security within our transit environments.
    After September 11, many transit organizations worked to prevent 
unauthorized entry into transit facilities. The need for employees and 
passengers to stay alert and report suspicious occurrences became a key 
goal of many agencies. These efforts are paying off. Many transit 
agencies report being more secure than prior to September 11, but 
suggest that many improvements are still in the planning stages.
    Since the attacks, APTA and the Federal Transit Administration have 
emphasized the need for effective transit security and emergency 
preparedness. FTA has sent security resources toolkits to transit 
agencies; completed security-vulnerability assessments of the nation's 
largest transit systems; and provided technical support and grants of 
up to $50,000 to fund agency emergency drills.
    FTA continues to provide emergency preparedness and security forums 
nationwide. In emphasizing the importance of enhancing transit 
security, FTA Administrator Jennifer L. Dorn noted that thousands of 
lives were spared on September 11 in New York City and Washington 
``because of the quick action of first responders and transit 
workers.''
    APTA has launched many additional efforts to further transit 
industry security and preparedness, collaborating with FTA in 
developing emergency preparedness forums, and sponsoring and organizing 
security-related conferences and workshops. Moreover, APTA developed a 
list of critical safety and security needs faced by the transit 
industry, which it has provided to the Department of Transportation and 
the United States Congress.
    public transportation information sharing analysis center (isac)
    Presidential Decision Directive #63 authorizes and encourages 
national critical infrastructures to develop and maintain ISACs as a 
means of strengthening security and protection against cyber and 
operations attacks. APTA is pleased to have been designated a public 
transportation Sector Coordinator by the U.S. Department of 
Transportation, and in that capacity has received a $1.2 million grant 
from the Federal Transit Administration to establish a transit ISAC. 
APTA recently formalized an agreement with a private company to 
implement the ISAC and make it available to public transit systems 
around the country.
    This ISAC for public transit provides a secure two-way reporting 
and analysis structure for the transmission of critical alerts and 
advisories as well as the collection, analysis and dissemination of 
security information from transit agencies. The public transit ISAC 
also provides a critical linkage between the transit industry, the U.S. 
Department of Transportation, the Transportation Security 
Administration, and the Office of Homeland Security.
                   ongoing transit security programs
    Mr. Chairman, while transit agencies have moved to a heightened 
level of security alert, the leadership of APTA has been actively 
working with its strategic partners to develop a practical plan to 
address our industry's security and emergency preparedness needs. 
Shortly after the September 11 events, the APTA Executive Committee 
established a Security Task Force under the leadership of Washington 
Metro's CEO, Richard A. White. The APTA Security Task Force has 
established a security strategic plan that prioritizes direction for 
our initiatives. Among those initiatives, the Task Force serves as the 
steering group for determining security projects that are being 
implemented through over $2 million in Transit Cooperative Research 
funding through the Transportation Research Board.
    Through this funding, four transit security workshop forums were 
held for the larger transit systems with potentially greater risk 
exposure. These workshops were held in confidential settings to enable 
sharing of security practices and applying methodologies to various 
scenarios. The outcomes from these workshops were made available in a 
controlled and confidential format to other transit agencies unable to 
attend the workshops. The workshops were held in New York, San 
Francisco, Atlanta, and Chicago.
    In partnerships with the Transportation Research Board, the APTA 
Security Task Force has also established two TCRP Panels that 
identified and initiated specific projects developed to address 
Preparedness/Detection/Response to Incidents and Prevention and 
Mitigation. The Security Task Force emphasized the importance for the 
research projects to be operationally practical.
    In addition to the TCRP funded efforts, a generic Checklist For 
Transit Agency Review Of Emergency Response Planning And System Review 
has been developed by APTA as a resource tool and is available on the 
APTA web-site. Also through the direction of the Security Task Force, 
APTA has reached out to other organizations and international 
transportation associations to formally engage in sharing information 
on our respective security programs and directions and to continually 
work towards raising the bar of safety and security effectiveness.
    Within this concept of partnership and outreach, APTA also 
continues in its ongoing collaboration with the Federal Transit 
Administration to help in guiding and developing FTA programs. Among 
these are regional Emergency Preparedness and Security Planning 
Workshops that are currently being delivered through the Volpe Center 
and have been provided in numerous regions throughout the United 
States. The primary focus of such workshops has been to assist 
particularly smaller transit systems in building effective emergency 
response plans with first responders and their regional offices of 
emergency management. Also within this partnership, APTA has assisted 
the FTA and the National Transit Institute in the design of a new 
program ``Security Awareness Training for Frontline Employees and 
Supervisors.'' This program is now being provided by NTI to transit 
agencies throughout the nation.
    Collaborative efforts between APTA, FTA, Volpe Center, and the 
National Transit Institute are also underway to establish a joint web-
site that will specifically gather and disseminate effective transit 
practices with initial emphasis on safety and security.
    As you may be aware, APTA has long-established Safety Audit 
Programs for Commuter Rail, Bus, and Rail Transit Operations. Within 
the scope of these programs are specific elements pertaining to 
Emergency Response Planning and Training as well as Security Planning. 
In keeping with our industry's increased emphasis on these areas, the 
APTA Safety Audit Programs have similarly been modified to place added 
attention to these critical elements.
    APTA's Committee on Public Safety, chaired by Paul Lennon, Managing 
Director-Intelligence and Counterterrorism, Los Angeles County, 
Metropolitan Transportation Authority, will continue to provide a most 
critical forum for transit security professionals to meet and share 
information, experiences and programs and to also provide valuable 
input to programs being developed by the FTA.
                       security investment needs
    Mr. Chairman, APTA has conducted a nationwide survey of its transit 
system membership that sought information about the level of need for 
security and safety investments for the specific transit property. The 
survey was not intended to be an inclusive list of all needed security 
and safety projects. On the basis of the survey, APTA has identified 
areas of investment needs related to transit security. The areas and 
needs are--
    For personnel, $500 million for ongoing cost of staffing for 
increased security planning, surveillance, patrols, and response to 
alert notifications.
    For training, ongoing costs of $50 million for the development and 
delivery of internal security programs; participation in established 
security programs external to transit agencies; internal and inter-
agency emergency preparedness drills; and for national and regional 
security workshops/symposiums through government, industry and 
partnered initiatives.
    For a one-time cost of technical support, $100 million for security 
and emergency preparedness plan development/refinement; comprehensive 
security needs assessments; and infrastructure security plan 
development.
    For a one time cost infrastructure and rolling stock security, $5.1 
billion for communications, surveillance, detection systems and 
equipment for enhancing security of rolling-stock, stations, 
facilities, rights-of-way, bridges tunnels, electronic and other 
systems.
    For emergency response support equipment, $100 million for personal 
protective and detection equipment for personnel; support vehicles and 
equipment for emergency response and recovery.
    In support of national defense, a one-time cost of $50 million for 
development/refinement of evacuation plans; and mobilization of public 
transit systems for evacuation needs.
    For aid for extraordinary expenditures not including New York City, 
or Washington, D.C., a one-time cost of $50 million for aid for 
extraordinary expenditures for transit agencies that have incurred 
significant expenses to date for costs associated with security and 
recovery initiatives that are in need of cost relief.
    For research and development, ongoing costs of $50 million for 
research and development of systems that will enhance detection of 
security; and for threats in mass transit environments.
    In sum, transit industry security investment needs result in 
capital and operational investment needs of some $6 billion.
    We respectfully ask that as the Subcommittee takes up the fiscal 
year 2004 Homeland Security Appropriations bill it consider these 
critical needs for Federal investment in transit security. It is 
important to note that after September 11, 2001, the necessity has 
become apparent to appropriately fund a new state of heightened 
security to combat against potential threats to our nation's public 
transportation system. As noted earlier, these security needs are 
distinct from the infrastructure needs we have identified in connection 
with the TEA 21 reauthorization.
                               conclusion
    Mr. Chairman, these are just some of the issues and Federal 
investments that we believe can be made to improve safety and security 
of transit services. We again thank you and the Subcommittee for your 
commitment to investing in the nation's transportation infrastructure 
and look forward to working with you on safety and security issues.
                                 ______
                                 

  Prepared Statement of the Association of State Dam Safety Officials

    The Association of State Dam Safety Officials (ASDSO) is pleased to 
offer testimony on the President's proposed fiscal year 2004 budget for 
the Department of Homeland Security.
    The Association of State Dam Safety Officials is a national 
organization of more than 2,200 State, Federal and local dam safety 
professionals and private sector individuals dedicated to improving dam 
safety through research, education and technology transfer. ASDSO also 
represents the 50 State dam safety programs, as the State dam safety 
officials are the governing body of the Association. Our goal is simple 
to save lives, prevent property damage and to maintain the many 
benefits of dams by preventing dam failures.
    During the 1970's this country suffered devastating dam failures 
that caused tragic loss of life and enormous property damage; and 
focused national attention on the catastrophic consequences of dam 
failures. Those failures serve as a constant reminder that dams must 
always be properly constructed, properly designed and properly operated 
and maintained to provide the benefits and prevent failures.
    Today our focus in not only on the safety of dams related to 
maintenance issues but on security as the Nation faces a significant 
challenge to protect our infrastructure from terrorist attacks. Dams 
are a major concern and focus of national planning within the 
Department of Homeland Security.
National Dam Safety Program
    The National Dam Safety Program Act of 1996 (Public Law 104-303) 
created the first national program that focuses on improving the safety 
of the nation's dams. The Program was recently reauthorized by the Dam 
Safety and Security Act of 2002 (Public Law 107-310). This small, yet 
critical program provides much needed assistance to the State dam 
safety programs in the form of grant assistance, training and research; 
and through facilitating the exchange of technical information between 
Federal dam safety partners and the States. The program provides $6 
million in grant assistance to States based on the relative number of 
dams in each State. The grants may be utilized to best suit the 
individual State's needs. In addition, the National Dam Safety Program 
provides $500,000 each year to be used for training of State dam safety 
engineers and $1.5 million annually for research. These research funds 
are used to identify more effective methods of evaluating the safety of 
dams and more efficient techniques to repair dams. And now, these 
research funds go toward developing better methods to assess and 
improve the security of dams.
    There are over 79,000 dams in the United States, but the 
responsibility of assuring their safety falls on the shoulders of the 
States, as they regulate 95 percent of the country's dams. Because of 
limited staff and limited funding, most states are overwhelmed by that 
challenge. Table 1 attached to this testimony provides state-by-state 
data on the number of dams, the number of staff, the state budget and 
the number of dams that are considered ``unsafe.'' Unsafe means that 
they have identified deficiencies that make the dam more susceptible to 
failure, which may be triggered by a large storm event, an earthquake 
or simply through inadequate maintenance. Currently states have 
identified 2,332 dams as being unsafe. There are over 10,000 dams 
classified as ``high hazard'' meaning that the consequences of the 
dam's failure will likely include loss of human life and significant 
downstream property damage.
    Every member of this Subcommittee has high hazard dams in their 
home state. There are 757 high hazard dams in Pennsylvania, 277 high 
hazard dams in Mississippi and 245 dams in West Virginia whose failure 
will likely cause loss of life. According to the National Inventory of 
Dams more than 25 percent of the high hazard potential dams have not 
been inspected in the last 10 years. High hazard potential dams should 
be inspected every year. Many states do not regulate all of their dams. 
In Missouri, for example, there are 4,000 dams on the National 
Inventory, however, Missouri only regulates 638 dams.
    The task for state dam safety programs is staggering; in 
Mississippi there are over 3,300 dams yet there are only two engineers 
assigned to the state's dam safety program. Iowa has less than one 
staff person in their dam safety program to oversee 3,233 dams.
    The American Society of Civil Engineers' 2001 Report Card for 
America's Infrastructure gave a grade of ``D'' to dams. The dams across 
the United States are aging and showing signs of the lack of routine 
maintenance. 25 percent of the nation's dams are over 50 years old, and 
by 2020 85 percent of the dams will be 50 years or older.
    Downstream development within the dam failure flood zone places 
more people at risk. When homes are built in the dam failure flood zone 
below a low hazard dam, (low hazard: failure is not expected to cause 
loss of life or significant property damage) the dam no longer meets 
dam safety criteria as the consequences of a failure determine the 
hazard class and the minimum safety standards.
    In summary, adequate support for dam safety regulatory programs is 
lacking in many states. Insufficient regulatory authority, inadequate 
enforcement and staffing shortages combine to increase the probability 
of a tragic dam failure.
Federal Leadership Role
    There is a clear need for continued Federal leadership to provide 
assistance in support of dam safety. This country suffered several 
large and tragic dam failures in the 1970s that focused attention on 
dams and prompted Congress to pass national dam safety legislation. In 
1972, the Buffalo Creek Dam in West Virginia failed and killed 125 
individuals. That failure also left 3,000 people homeless. In 1976, the 
Federally owned Teton Dam failure killed 14 people and cost $1 billion 
in downstream damages and cleanup costs.
    The Kelly Barnes Dam in Toccao Falls, Georgia failed in 1977 
killing 39 Bible college students. That same year, 40 people died from 
the failure of the Laurel Run Dam in Pennsylvania. The majority (58 
percent) of dams in the United States are privately owned, including 
the 38 foot tall Meadow Pond Dam in Alton, New Hampshire which failed 
killing one woman and causing $8 million in damage to the downstream 
town in the late 1990s.
    Dam failures do not respect state boundaries as a dam failure in 
one state may cause loss of life and property damage in an adjacent 
state. The Federal government funds the recover costs from the 
President's disaster relief fund and through the Flood Insurance 
Program, but the cost of one small dam failure can easily exceed the 
annual costs of the National Dam Safety Program. Full funding of the 
National Dam Safety Program is an investment in public safety that will 
be repaid many times over in fewer dam failures, reduced Federal 
expenditures for dam failure recovery costs and, most importantly, 
fewer lives lost.
    The Association of State Dam Safety Officials respectfully requests 
that Subcommittee increase the President's budget proposal of $5.9 
million to the full-authorized funding level of $8.6 million for the 
National Dam Safety Program for fiscal year 2004.
Benefits of the National Dam Safety Program
    The National Dam Safety Program has been very successful in 
assisting the state programs through the training funds ($500,000) for 
training states dam safety engineers. This training has offered low 
cost technical courses and workshops that states could otherwise not 
attend. Examples include Dambreak Analysis, Concrete Rehabilitation of 
Dams, Slope Stability of Dams, Earthquake Analysis, Emergency Action 
Planning and many others including recent training in Dam Site 
Security. Training courses are also offered through FEMA's training 
facility at their Emergency Management Institute in Maryland where 
state dam safety inspectors receive training at no cost to the states.
    The Research funds have been used to identify future research needs 
such as inspections using ground penetrating radar or thermal 
tomography. In addition, these funds have been used to create a 
national library and database of dam failures and dam statistics in the 
National Performance of Dams Program at Stanford University as well as 
a national clearinghouse and library of dam safety bibliographic data 
at ASDSO.
    The Research funds will continue to provide technical assistance to 
the dam safety community and, now will be essential in identifying 
techniques and methods of assessing dam security as well as practical 
means to improve the security at critical dams. Dam site security is 
now an urgent area of concern for state dam safety officials both in 
training needs and in research to better understand and respond to 
potential threats to dams.
    The most valuable benefit to the state programs comes from the 
State Grant Assistance Program. The grants are based on the number of 
dams in each of the participating states and are used as an incentive 
to encourage states to improve their program by meeting basic criteria 
such as:
  --Statutory authority within the state to conduct inspections of 
        dams.
  --Authority to require repairs to unsafe dams.
  --Authority to regulate all dams that meet the national dam 
        definition.
    Use of these grants is left up to the states' discretion as each 
state has its own unique challenges. States have utilized grant funds 
to perform dam failure and dam stability analyses; hire additional 
staff to conduct inspections and to conduct owner education workshops. 
In addition, grant funds have enabled states to provide additional 
staff training, to purchase equipment such as computers, field survey 
equipment and software; and remote operated cameras for internal 
inspections.
    Mississippi received nearly $600,000 over fiscal year 1998 through 
fiscal year 2002 in grant assistance funds. Mississippi's dam safety 
program hosted dam safety workshops for engineers and dam owners. The 
grant assistance also enabled Mississippi to hire additional part time 
dam inspectors and to purchase needed field equipment.
    West Virginia, with their total $145,000 grant, was able to repair 
large capacity pumps, owned by the State, which are now strategically 
located and can be used in emergencies. West Virginia also used with 
their grant funds to update their dams inventory database and they will 
be seeking to hire summer interns to assist with emergency action 
plans.
    Iowa, which received $423,000 from fiscal year 1998 to fiscal year 
2002, has hired four part time dam inspectors and has conducted 75 dam 
inspections in fiscal year 2002.
    In Pennsylvania, the $279,000 dam safety assistance grants have 
been used to purchase remote operated inspections cameras and global 
positioning equipment to improve their inspections. They have also used 
the funding to produce and distribute public awareness videos and 
Emergency Action Plan guidelines. Pennsylvania has hired an additional 
engineer to support the National Dam Safety Program efforts in 
Pennsylvania.
    Kentucky has received over $250,000 from fiscal year 1998 through 
fiscal year 2002 and has used these funds to purchase computer 
equipment and software for its dam inventory database and to provide 
specialized training for engineers in hydraulic evaluations of dams. 
Futures uses include training workshops for dam owners and the public.
    The grant assistance program has been very successful. The number 
of dam inspections has increased, the number of Emergency Action Plans, 
used for evacuation in the event of a dam failure, have increased; and 
states have better technical equipment to conduct inspections and 
perform safety analyses and dam failure modeling.
    Table 2 attached to this testimony provides information on the 
amount of state grant assistance received for each state over the 5-
year program.
Dam Security of non-Federal Dams
    The horrific events of September 11, 2001 have focused 
unprecedented attention on the security of our nation's critical 
infrastructure, including dams. Dams, in fact, have been identified by 
intelligence and law enforcement agencies in specific threat alerts. 
Federal agencies that own dams, such as the U.S. Army Corps of 
Engineers and the Bureau of Reclamation, have been conducting 
vulnerability assessments and security improvements on these Federally 
owned dams. While the Association certainly supports this necessary 
effort, little has been provided by the Federal Government in 
leadership or assistance to the states who have similar and equally 
urgent dam security demands.
    Security experts advise that it is very difficult to make a site 
completely safe from intentional acts of terror. They offer that their 
goal is to enhance security and effectively deter a potential attack at 
their site so that the terrorist will seek another site with less 
security. The improved security at Federally-owned dams makes non-
Federal dams more attractive targets. There are clearly thousands of 
non-Federal dams that are potential targets based on type of 
construction, size, purpose (water supply, hydro power, flood control); 
and on the population and infrastructure at risk below the dam. Federal 
leadership is urgently needed to provide technical and financial 
assistance to states for training, for conducting vulnerability 
assessments and for identifying and implementing security improvements 
on dams determined to have an inadequate security program.
    The Association of State Dam Safety Officials respectfully requests 
that this Subcommittee appropriate $15 million in fiscal year 2004 for 
assistance to state dam safety programs to address security at critical 
non-Federal dams, which are regulated, by the states.
Conclusion
    Dams are a vital part of our aging national infrastructure that 
provide many vital benefits, but that also pose a threat to life and 
property if they are unsafe. The National Dam Safety Program is a 
valuable program that offers assistance to states as an investment in 
public safety. We urge you to recognize its benefits and support full 
funding to continue the progress we have made.
    In addition, we strongly urge this Subcommittee to recognize that 
large non-Federal dams are also potential targets of terrorist attacks; 
and that people and critical infrastructure below these dams are also 
at risk. States need the leadership and support of Congress and the 
Administration to provide the necessary level of security at all 
critical dams.
    Thank you Mr. Chairman and Members of the Subcommittee for this 
opportunity offer this testimony. The Association looks forward to 
working with you and the Subcommittee staff on this important issue of 
safe dams.

                                      TABLE 1.--STATE-BY-STATE STATISTICS ON DAM AND STATE SAFETY REGULATION--2003
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                           No. State
                                  Total Dams in    Total Dams      High-Hazard       State-       State Dam Safety   No. State Staff     Regulated Dams
             State                  National       Under State      Potential      Determined        Budget (       Dedicated to Dam  Per FTE Staff (to
                                  Inventory \1\  Regulation \2\  State Dams \3\  Deficient Dams      thousand)      Safety Regulation    nearest whole
                                                                                       \4\                                                    no.)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Alabama \5\....................           1,570           1,704             184             150              $0                  0                >1,704
Alaska.........................             112              81              16         ( \6\ )              98                  1                    81
Arizona........................             335             261              87              59             564                  6                    44
Arkansas.......................           1,290             427              98              25             264                  4.2                 102
California.....................             523           1,213             335               0           7,900                 65                    18
Colorado.......................           1,733           1,883             317             191           1,440                 12                   157
Connecticut....................             707           2,000             236              12             472                  4.3                 465
Delaware \5\...................              73              98               9         ( \6\ )         ( \6\ )            ( \6\ )               ( \6\ )
Florida........................             778             778             100               8           5,000                 38                    20
Georgia........................           4,977           3,412             399             105             682                 10                   341
Hawaii.........................             129             129              56               0             135                  2                    65
Idaho..........................             360             439             106         ( \6\ )             350                  7.5                  59
Illinois.......................           1,226           1,311             173              20             345                  5.5                 238
Indiana........................           1,472           1,129             238         ( \6\ )             340                  5                   226
Iowa...........................           3,233           3,311              73         ( \6\ )              55                   .75              4,415
Kansas.........................           5,859           5,821             192              34             250                  5.1               1,141
Kentucky.......................           1,022             991             214               0           1,517                 14                    71
Louisiana......................             391             304              12              11             261                  5                    61
Maine..........................             845             841              26              68              46                  1                   841
Maryland.......................             299             407              63               6             415                  5                    80
Massachusetts..................           1,528           2,917             333              40             500                  4                   729
Michigan.......................             873           1,156              83         ( \6\ )             400                  4.5                 257
Minnesota......................             932             852              40         ( \6\ )             237                  2.2                 387
Mississippi....................           3,303           3,550             277              53             268                  2                 1,775
Missouri.......................           4,096             638             445              16             288                  6                   106
Montana........................           3,522           2,871              97               7             170                  5                   574
Nebraska.......................           2,155           2,155             107              10             284                  5.2                 414
Nevada.........................             323             592             123              24             130                  2                   296
New Hampshire..................             613           3,281              85               0             612                  7                   469
New Jersey.....................             777           1,651             194              48             950                 16                   103
New Mexico.....................             525             382             156         ( \6\ )             469                  5.5                  69
New York.......................           1,891           5,021             380             54+             746                  6.32                795
North Carolina.................           2,939           4,241             988              53             902                 14                   303
North Dakota...................             772           1,779              27              3+             200                  4.5                 395
Ohio...........................           1,727           2,709             471             450           1,100                 11.5                 235
Oklahoma.......................           4,507           4,348             145               6             185                  1.8               2,415
Oregon.........................             833           3,733             122               0             255                  3.1               1,204
Pennsylvania...................           1,412           3,025             757              49           1,698                 22.5                 134
Puerto Rico....................              36              36              33               2             466                  8                     5
Rhode Island...................             185             528              16              98              78                  1.1                 528
South Carolina.................           2,263           2,304             153               3         ( \6\ )                  4.5                 512
South Dakota...................           2,469           2,328              47               3         ( \6\ )                  2.5                 931
Tennessee......................           1,154             643             151              33             275                  7                    92
Texas..........................           6,838           8,060             851             403             300                  5                 1,612
Utah...........................             676           4,083             199              84             450                  7                   583
Vermont........................             364             538              54         ( \6\ )             215                  2.2                 245
Virginia.......................          1,603+          1,300+            150+             50+             400                  6                   217
Washington.....................             653             903             128              31             550                  6.5                 139
West Virginia \5\..............             537             350             245              40             335                  6                    59
Wisconsin......................           1,291           3,402             192         ( \6\ )             486                  6.5                 523
Wyoming........................           1,270           1,374              66               3             131                  3.4                 404
                                ------------------------------------------------------------------------------------------------------------------------
      TOTAL....................          79,001          97,290          10,049           2,252          33,214.00             380.17   26,639 (522 av.)
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Includes dams of any size that are likely to pose a significant threat to human life or property in case of failure, and all other Federal and non-
  Federal dams > 25 high that impound > 15 acre-feet; and dams > 6 high that impound > 50 acre-feet.
\2\ Estimated number of all dams under state regulatory control.
\3\ High-Hazard by state definition derived from state inventory in column 2 Individual states' definitions may differ from the Federal (National
  Inventory of Dams) definition. * indicates figure taken from NID and based on NID definition.
\4\ Dams with identified deficiencies by state definition (varies state to state) derived from state inventory in column 2.
\5\ For Alabama and Delaware, this data precedes 2001. West Virginia data is from 2001.
\6\ NR Not Reporting. Some states do not keep data on these categories.



         TABLE 2.--STATE GRANT AMOUNTS FOR FISCAL YEAR 1998-2002
------------------------------------------------------------------------
                                            Total State
                                            Assistance     Annual State
                                            Grant (from     Dam Safety
                  STATE                     Fiscal Year       Budget
                                            1998-Fiscal   (excludes FEMA
                                            Year 2002)        grants)
------------------------------------------------------------------------
Alabama.................................              $0              $0
Alaska..................................         112,324              98
Arizona.................................         130,843             564
Arkansas................................         157,811             264
California..............................         280,791           7,900
Colorado................................         330,607           1,440
Connecticut.............................         202,245             472
Delaware................................          94,351              NR
Florida.................................         183,005           5,000
Georgia.................................         631,703             682
Hawaii..................................         118,691             135
Idaho...................................         159,357             350
Illinois................................         280,257             345
Indiana.................................         229,213             340
Iowa....................................         423,456              55
Kansas..................................         992,576             250
Kentucky................................         247,527           1,517
Louisiana...............................         144,942             261
Maine...................................         192,198              46
Maryland................................         152,106             415
Massachusetts...........................         325,251             500
Michigan................................         203,799             400
Minnesota...............................         223,966             237
Mississippi.............................         593,107             268
Missouri................................         189,641             288
Montana.................................         509,441             170
Nebraska................................         395,736             284
Nevada..................................         161,613             130
New Hampshire...........................         212,013             612
New Jersey..............................         307,762             950
New Mexico..............................         165,560             469
New York................................         430,227             746
North Carolina..........................         651,658             902
North Dakota............................         183,060             200
Ohio....................................         351,921           1,100
Oklahoma................................         745,806             185
Oregon..................................         259,440             255
Pennsylvania............................         279,410           1,698
Puerto Rico.............................         105,329             466
Rhode Island............................         135,981              78
South Carolina..........................         424,436              NR
South Dakota............................         396,560              NR
Tennessee...............................         184,474             275
Texas...................................       1,078,772             300
Utah....................................         178,777             450
Vermont.................................         149,160             215
Virginia................................         178,087             400
Washington..............................         174,066             550
West Virginia...........................         145,062             335
Wisconsin...............................         239,939             486
Wyoming.................................         292,522             131
                                         -------------------------------
      Total.............................      14,936,579          33,214
------------------------------------------------------------------------

                                 ______
                                 

Prepared Statement of the Association of State Floodplan Managers, Inc.

    The Association of State Floodplain Managers, Inc. (ASFPM) is 
pleased to share comments on four specific aspects of the fiscal year 
2004 budget proposal for the Department of Homeland Security, Emergency 
Preparedness and Response Directorate (FEMA):
  --Oppose elimination of the Hazard Mitigation Grant Program;
  --Preserve the Flood Mitigation Assistance Program;
  --Continue support for modernization of flood maps; and
  --Financial status of the National Flood Insurance Program.
    The Association of State Floodplain Managers, Inc. and its 16 state 
chapters represent over 5,000 State, local, and private sector 
officials as well as other professionals who are engaged in all aspects 
of floodplain management and hazard mitigation. All are concerned with 
reducing our Nation's flood-related losses and reducing the costs of 
flooding.
Oppose Elimination of the Hazard Mitigation Grant Program
    ASFPM opposes the suspension or elimination of the Hazard 
Mitigation Grant Program (HMGP). HMGP has proven to be a very effective 
way to achieve mitigation. The Disaster Mitigation Act of 2000 that 
requires communities to have mitigation plans in order to access HMGP 
assures that projects will be done according to pre-disaster plans. We 
object to the budget's proposal to replace HMGP entirely with a 
nationwide competitive grant program. We believe the logic behind this 
proposal is not sound: it ignores the realities of why individual 
citizens participate in mitigation; it ignores a multitude of benefits 
that are difficult to quantify; it ignores the recently authorized 
requirement for local mitigation planning; it ignores the leveraging of 
state and local funds that often are made available post-disaster; it 
ignores the complexities of project implementation; it ignores the 
distinct differences between hazards; and it ignores the needs of small 
communities.
    HMGP mobilizes financial and technical assistance in the aftermath 
of disasters--exactly the time when citizens and elected officials are 
most receptive to undertaking projects and initiatives that reduce the 
impacts of future disasters. The fact is that most cities, counties and 
towns across the country have many immediate and pressing financial 
needs. Regardless of the statistical evidence of the likelihood of 
future disaster occurrence, communities will not place mitigation 
higher than today's demands for education, social programs, local first 
responders, and the like. This is especially true in smaller 
communities where financial resources are always tight.
    On the proverbial ``sunny day'' flooding is a low priority for the 
millions of homeowners and business owners in the Nation's flood hazard 
areas--regardless of the mounting evidence that future floods will 
occur. Homeowners view offers for buyouts, elevations, and retrofit 
floodproofing very differently when they are shoveling mud, coping with 
toxic mold, or faced with collapsed foundations. The budget proposal 
will have many adverse consequences, not the least of which is that 
people who have just experienced damage and are most receptive to 
change are much less likely receive mitigation assistance since post-
disaster HMGP will not be allocated to their states.
    ASFPM is greatly concerned about the criticism expressed by some 
people that a large percentage of HMGP projects do not appear to be 
cost effective. While shifting to a purely competitive program may mean 
``the most cost-beneficial projects receive funding,'' it will turn 
mitigation into a numbers game that ignores the needs of many. A 
single-minded focus on the projects with the highest benefit:cost ratio 
will severely penalize many communities that have good projects that 
will reduce taxpayer costs, and thus are cost-effective for the Nation.
    There is an important conceptual distinction between cost-
beneficial and cost-effective. The process for determining benefits and 
costs is less than perfect, and as currently structured it yields 
skewed results. Too often, projects that are more expensive to the 
taxpayer have higher benefit:cost ratios, even though a less costly 
project achieves the same objective of hazard reduction. This 
illustrates only one unintended consequence of relying on B:C to decide 
which projects get funded.
    ASFPM also urges consideration of another unintended consequence of 
the focus on the projects with the highest benefit:cost ratio. For 
years, other agencies with flood control responsibilities routinely 
dismissed non-structural measures (such as floodplain acquisition or 
elevation-inplace) even though these non-structural projects can be 
demonstrated to be cost-effective. Such projects tended to be dismissed 
in favor of structural measures (levees, dams, floodwalls), in large 
part because such projects often have a higher benefit: cost ratio, yet 
ignoring the long-term operation and maintenance costs often borne by 
communities. However, time and time again, there has been evidence of 
the multiple benefits of non-structural measures. A single focus on the 
benefit:cost ratio will result in fewer non-structural flood mitigation 
projects and increased long-term costs for government, as well as 
residual risk associated with structural projects.
    Pre-disaster funding should be directed to community-based planning 
in order to prepare communities to undertake mitigation projects when 
the disaster strikes. It would also be reasonable to make pre-disaster 
mitigation funds available to support public works projects that 
address potential damage to state and community buildings and public 
infrastructure--among the more costly categories of public disaster 
assistance.
    ASFPM urges the Subcommittee to retain the Hazard Mitigation Grant 
Program and restore its funding level to 15 percent of certain Federal 
disaster expenditures.--The Disaster Mitigation Assistance Act of 2000 
calls for communities to have pre-disaster local mitigation plans in 
order to access HMGP. One result of this requirement is that 
communities will be better prepared to identify eligible activities 
after the next declared disaster, thus further shortening the time 
needed to obligate and expend the HMGP funds.
    ASFPM strongly recommends that the Subcommittee focus the pre-
disaster mitigation funds on support of cost-effective projects, as 
opposed to the most cost-beneficial projects.--This simple change will 
make a dramatic difference in supporting non-structural projects for 
floodplain management, while not detracting from projects that retrofit 
buildings to resist the effects of earthquakes and hurricane winds.
    ASFPM recommends that the Subcommittee direct FEMA to fully 
investigate the implications of the nationwide pre-disaster program 
funded in fiscal year 2003.--Particular attention should be paid to 
citizen, community and state receptivity to mitigation offers and how 
the ability to cost share differs in the pre- and post-disaster 
periods. Another critical aspect to attend to is how FEMA proposes to 
balance between different hazards, different geographic areas, and 
communities of different sizes and capabilities.
Preserve the Flood Mitigation Assistance Program
    The Flood Mitigation Assistance Program (FMA) authorized by the 
National Flood Insurance Reform Act of 1994 is funded entirely by flood 
insurance premium income that is paid by individual policyholders. It 
is not funded from general funds and therefore we are concerned with 
proposals to combine it with other mitigation funds, even to achieve 
accounting efficiencies. To ensure accountability to the policyholders 
and to ensure that these funds are used only for the explicit purposes 
authorized, the FMA funds are best kept separate. In particular, how 
FMA is administered must not be changed. FMA is specifically intended 
to support cost containment for the NFIP, in part by addressing the 
problem characterized as repetitive losses, but also to mitigate 
against severe flood damage and imminent threats due to coastal 
erosion.
    ASFPM urges the Subcommittee to clarify that Flood Mitigation 
Assistance Program funds are not to be co-mingled with other pre-
disaster mitigation funds.--In addition, we urge that the Subcommittee 
direct that FMA continue to be administered as a separate program under 
existing procedures.
Continue Support for Flood Map Modernization
    Good flood maps play a major role in disaster cost reduction 
through wise floodplain management. They also serve many purposes 
beyond the immediate needs of the National Flood Insurance Program. 
FEMA estimates that local regulation of flood hazard areas, using the 
flood maps, avoids property losses of nearly $1 billion each year. 
These savings accrue to property owners, communities, and taxpayers. 
FEMA's estimate does not count the benefits associated with using the 
maps to guide development to less hazard-prone areas. Flood maps yield 
benefits at all levels of government, including reducing the need for 
Federal disaster assistance when people build elsewhere or build to 
minimize damage. Since 1986, most of the funding for flood maps has 
been taken out of the National Flood Insurance Fund, which is funded by 
premiums and service fees from about 4.2 million flood insurance 
policyholders. Those funds are inadequate to the task of modernizing 
the inventory of over 100,000 flood map panels.
    The Flood Map Modernization effort will use current technologies to 
expedite cost-effective collection of mapping data, and to develop the 
models to identify flood-prone areas. This will yield digitized map 
products that will be accessible on the Internet. Digitized maps will 
also significantly reduce current outlays that are spent just to 
correct old maps in response to individual property owner concerns, 
thus allowing more of the base funding derived from policyholders 
(approximately $50 million/year) to be used more effectively.
  --ASFPM strongly endorses the Administration's request for $200 
        million, and urge the addition of $200 million, to continue 
        FEMA's map modernization initiative.--The continuance of this 
        second year funding will ensure progress on the mufti-year 
        effort that is now underway. The additional funding will 
        shorten the overall timeframe and help state and communities 
        that have had identified priorities for several years ago.
Financial Status of the National Flood Insurance Program
    The Association of State Floodplain Managers believes that the 
National Flood Insurance Program is an exceptional example of the 
Federal Government working with state partners, community partners, and 
private sector partners. Established in 1968 in part to shift the 
burden of recovery to people who are at-risk (in the floodplain), the 
NFIP was carefully crafted by Congress to balance the need to pay 
insurance claims with concerns about financial impacts on homeowners 
and business owners who pay premiums on flood insurance policies. To 
that end, the NFIP establishes rates based on the ``average loss 
year,'' and thus intentionally does not build up substantial reserves 
for years when floods occur more frequently. To pay claims in those 
years, the NFIP borrows from the U.S. Treasury.
    ASFPM believes that criticism often heard when the NFIP goes into 
borrowing authority is unjustified. The Federal Insurance Administrator 
recently testified to the efficiency of this original Congressional 
mandate. Tropical Storm Allison hit the Gulf Coast in June of 2001, and 
continued inland to flood states across the southeast. It was the 
NFIP's first billion-dollar storm and prompted borrowing of $600 
million. In just 16 months, those funds were repaid, with interest. The 
NFIP is one of the government's best creditors.
    The NF1P is not supported in any other way by the United States 
taxpayer. A service fee charged on all policies pays for the program's 
administration, including: salaries and expenses of over 200 Federal 
employees; costs of contractors that support servicing policies and 
claims; a portion of flood mapping costs; the Flood Mitigation 
Assistance Program (described above); and grants to states to provide 
technical assistance to communities and property owners. Thus, only 
about 4.2 million citizens are paying for this program that serves the 
Nation as a whole. ASFPM believes this make it all the more important 
that the NFIP's funds be tracked separately so that accountability to 
the policyholder is clear.
    ASFPM understands that there will be a small increase in NFIP-
funded Community Assistance Program in fiscal year 2004. This program 
is a good return to policyholders because it provides small, cost-
shared grants to the states to provide partial support of state 
floodplain programs. CAP is critical to implementation of the NFIP 
because it facilitates direct technical assistance and training 
available to nearly 20,000 communities and millions of property owners. 
The best way to limit increases in future damage is to ensure that 
communities are properly administering their floodplain management 
regulations and that developers are complying with the rules. FEMA's 
staff is too small to provide this vital assistance to nearly 20,000 
communities, thus the partnership with states was established. ASFPM 
appreciates this recognition of the importance of CAP funding to 
continue the State-Federal partnerships.
  --ASFPM supports the increase in CAP funding in order to increase the 
        technical assistance and training the states provide as FEMA's 
        partners.
    For information about ASFPM and this testimony, contact Larry 
Larson, Executive Director, at (608) 274-0123, or email 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="debfadb8aeb39eb8b2b1b1baadf0b1acb9f0">[email&#160;protected]</a>
                                 ______
                                 

          Prepared Statement of the Fleet Reserve Association

             certification of non-receipt of federal funds
    Pursuant to the requirements of House Rule XI, the Fleet Reserve 
Association has not received any federal grant or contract during the 
current fiscal year or either of the two previous fiscal years.
                              introduction
    Thank you Mr. Chairman and other distinguished members of the 
Subcommittee for the opportunity to submit the Fleet Reserve 
Association's views on funding the fiscal year 2004 Coast Guard 
request. The Fleet Reserve Association (FRA) is a Congressionally 
Chartered, non-profit organization, representing the interests of U.S. 
Navy, Marine Corps, and Coast Guard personnel with regard to pay, 
health care, and other benefits.
    Before addressing specific issues, the Association wishes to thank 
Congress for its tremendous support for pay and benefit improvements 
enacted during the 107th Congress. Across the board and targeted pay 
increases, higher housing allowances, reform of the PCS process and 
increased funding for health care are significant improvements and 
perceived as important recognition of the service and sacrifice of the 
men and women serving in the Coast Guard, and those who've served in 
the past.
    The Association notes the significant progress toward ensuring 
Coast Guard parity with all pay and benefits provided to DOD services 
personnel in recent years and restates it commitment to this goal.
                         pay and benefit parity
    The Fleet Reserve Association appreciates and thanks the 
Administration and Congress for continued support for the pay and 
entitlements of Coast Guard personnel. These include increases in base 
pay, target pay raises for senior enlisted personnel and some officer 
grades and annual housing allowance increases. (BAH).
    The fiscal year 2004 Budget supports an average military pay raise 
of 4.1 percent with pay levels ranging from 2 percent for E-1s to 6.25 
percent for E-9s. The majority of members will receive an increase of 
3.7 percent and out of pocket housing costs will be reduced from 7.5 
percent to 3.5 percent in keeping with a multi-year plan to reduce the 
average out of pocket expense to zero by 2006.
    FRA recommends full-funding of all pay and entitlements for Coast 
Guard personnel and seeks continuing strong support for benefit parity 
with the Department of Defense.
    As a footnote, the Association is extremely disappointed that the 
Administration is proposing to cap the pay of NOAA and USPHS officers 
at 2 percent for fiscal year 2004. FRA strongly objects to this 
disparate treatment of these members of the uniformed services and 
urges you to intercede in their behalf with colleagues on the 
appropriate oversight committees to halt this plan and ensure pay 
comparability for these personnel.
                      recruiting and end strength
    The Coast Guard is in a period of large personnel and mission 
growth. The service continues to balance mission requirements against 
workforce strength and asset availability to ensure a safe operational 
tempo is maintained and missions are completed.
    FRA strongly supports recently authorized increased end strengths 
and urges adequate funding for same in fiscal year 2004. This is 
especially important given the Coast Guard's broad and demanding 
mission requirements related to its key position in the new Department 
of Homeland Security. The President's budget authorizes 1,788 military 
and 188 civilian positions and includes six Maritime Safety and 
Security Teams, 53 Sea Marshalls, two Port Security Units, and new 
Coast Guard Stations in Boston and Washington, D.C. Also included is 
support for the Search and Rescue (SAR) Program and to allow the 
stations to meet readiness requirements with watch standers maintaining 
a maximum 68-hour workweek.
    Recruiting, training, and deploying a workforce with the skills and 
experience required to carry out the Coast Guard's many missions is a 
formidable challenge. The overall experience level of the workforce 
decreased since 9/11 and during this large growth period it will 
require a few years to come back to that 2001 level.
    Enlisted workforce retention is the best it has been since 1994 
having increased by 2.1 percent since fiscal year 2000. The Coast Guard 
met its active duty recruiting goal in fiscal year 2002 and is on 
target to meet it again in fiscal year 2003. However, Reserve 
recruiting fell slightly short of the fiscal year 2002 goal but is on 
target for fiscal year 2003. The fiscal year 2004 budget recommends 
funds to fully train, support and sustain the Coast Guard's Selected 
Reserve Force as an integral part of Team Coast Guard with growth to 
10,000 personnel (up from 9,000 in fiscal year 2003).
    The Coast Guard training system is operating effectively at maximum 
level in order to process the growing number of trainees. Additional 
contract instructors have been hired at the training centers and 
temporary classrooms accommodate day and night classes to increase 
capacity and efficiency.
    FRA supports funding all recruiting initiatives and incentives. The 
Coast Guard's robust recruiting system coupled with enlistment bonuses 
has ensured a steady flow of recruits entering the service. The Coast 
Guard also opened new recruiting offices to target diversity rich 
communities.
                              health care
    FRA continues to work with Congress and DOD to ensure full funding 
of the Defense Health Budget to meet readiness needs and deliver 
services, through both the direct care and purchased care systems, for 
all uniformed services beneficiaries, regardless of age, status and 
location. The Association strongly supports TRICARE improvements 
recently enacted for active duty, Reserve and retired personnel and 
their families.
    Oversight of the Defense Health Budget is essential to avoid a 
return to the chronic under funding of recent years that led to 
execution shortfalls, shortchanging of the direct care system, and 
reliance on annual emergency supplemental funding requests. Even though 
supplemental appropriations were not needed last year, FRA is concerned 
that the current funding level only maintains the status quo. 
Addressing TRICARE provider shortfalls will require additional funding.
    Access to care is the number one concern challenging Coast Guard 
personnel assigned to duty in areas not served by military treatment 
facilities (MTFs). Some beneficiaries report that there are providers 
not willing to accept new TRICARE Standard patients. Areas most 
affected by this are: Alaska; Humboldt Bay/County, California (AIRSTA/
Group Humboldt Bay); Novato, California, and other Bay Area locations 
(Pacific Strike Team/TRACEN Petaluma/ISC Alameda); and Santa Barbara, 
California.
    In areas away from MTFs, access can be especially challenging. 
Providers do not wish to take TRICARE patients mainly due to the low 
reimbursement rates. In the locations where TRICARE Prime is present, a 
trend is developing whereby providers are leaving the network. This not 
only affects active duty service members and their dependents but 
retirees and their dependents.
    The message sent by The TRICARE Management Activity ``selling'' the 
three TRICARE options (Prime, Extra or Standard) only applies to those 
fortunate to live near an MTF that has an established network. These 
members have choices. If assigned to a high cost or remote/semi-remote 
area where Prime is not available, the only option is Standard. In 
addition, it is unfair for Coast Guard personnel to have to absorb the 
higher costs associated with health and dental care, including 
orthodontics in assignment areas. In reality there is no uniform 
benefit at this time since the three TRICARE options are not available 
to all beneficiaries nationwide.
    FRA urges the Subcommittee to provide appropriations to enhance the 
ability of Coast Guardsmen to have access to and afford adequate health 
care for their families.
                                housing
    FRA is concerned about Coast Guard housing challenges that include 
adequate appropriations for new construction and/or maintenance. While 
the objective is to ensure that all members have access to quality 
housing, whether for single personnel or personnel with families, the 
Commandant's people-oriented direction acknowledges the importance of 
quality of life, and the important role of housing in obtaining and 
retaining a productive workforce.
    During recent congressional testimony, Master Chief Petty Officer 
of the Coast Guard Frank Welch, stated that Coast Guard personnel and 
their families ``continue to face a lack of affordable and adequate 
housing in many of our assignment areas.''
    The following locations are deemed Critical Housing Areas (CHAs) 
for Coast Guard personnel.
  --Cape Hatteras, North Carolina (NC176)
  --Montauk, New York (NY218)
  --Cape May, New Jersey (NJ198)
  --Abbeville, Louisiana (ZZ553)
  --Port O'Connor, Texas (ZZ583)
  --Rockland, Maine (ME141)
  --Carrabelle, Florida (ZZ630)
  --Marathon/Islamorada, Florida (FL069)
  --Plus any area currently designated as a CHA by the U.S. Navy.
    The situation is exacerbated by assignment areas that are typically 
in or near remote, high-cost areas along the coasts.
    While housing allowances have increased, the availability of 
quality, affordable housing within a reasonable distance to work 
remains another challenge--especially for junior enlisted personnel. In 
certain areas, hyper increases in utility costs may also financially 
impact accompanied members residing on the economy and paying their own 
utilities. Although housing privatization initiatives are helping ease 
this challenge for the DOD Services and the Coast Guard's authority to 
participate in these ventures, FRA believes increased funds should be 
appropriated to address the Coast Guard's protracted housing problem.
                               child care
    Having available and accessible childcare is a very important 
quality of life issue for Coast Guard personnel and their families and 
the Administration's fiscal year 2004 Budget supports an expansion of 
this service.
    While comparing Coast Guard childcare parity with the Department of 
Defense is difficult--the childcare needs of Coast Guard personnel and 
their families are no different than for DOD services personnel. 
Approximately 640 children are in Coast Guard childcare facilities and 
FRA believes that this program should be adequately funded to ensure 
parity.
                           education benefits
    FRA strongly supports increased funding for education benefits. For 
fiscal year 2003, tuition assistance is paid at 100 percent up to $250 
per semester hour with an annual cap of $4,500 for Coast Guard 
personnel. This puts the service on a par with the Department of 
Defense.
    With regard to the MGIB program, participants may receive a full-
time student rate of $985/month or more, depending on whether they 
contribute to an increased benefit program. Recent enhancements are 
positive steps to improving this program, however FRA believes MGIB 
benefits should be benchmarked to the average cost of a four-year 
public college education.
    The Coast Guard adjusts discretionary funding to best address its 
particular needs. Hopefully, this Subcommittee will support the 
President's fiscal year 2004 budget recommending the Coast Guard to be 
fully competitive with DOD education benefits.
                               conclusion
    The Association again appreciates the opportunity to present its 
recommendations on the Coast Guard's fiscal year 2004 Budget and is 
grateful to this Distinguished Subcommittee for its great work in 
support of the men and women serving in our Nation's fifth Armed Force.
    The broad range of services and support provided by the Coast Guard 
are not fully understood and recognized by the American public. FRA is 
working to broaden awareness of the incredible work done by Coast Guard 
men and women in support of the service's many missions and our 
national security. Hopefully the service's well deserved prominence 
within the new Department of Homeland Security will help increase 
recognition of the Coast Guard's tremendous service to our great 
Nation.
                                 ______
                                 

      Prepared Statement of the Greater Orlando Aviation Authority

    Chairman Cochran and distinguished members of the Senate 
Appropriations Subcommittee on Homeland Security: The Greater Orlando 
Aviation Authority (``the Authority'') appreciates the opportunity to 
submit written testimony on the advancement of an in-line EDS baggage 
screening system for Orlando International Airport (OIA). The Authority 
recognizes and applauds the excellent and on-going assistance Congress 
has given in past efforts to obtain federal funding for critical 
capacity improvements at OIA.
    Orlando International Airport remains steadfast in its commitment 
to help restore public confidence and ensure the highest standard of 
security in air travel. The Authority has diligently developed and 
begun implementation of a comprehensive security enhancement program to 
meet the challenges resulting from the tragic events of September 11, 
2001.
    In addition, the Authority recognizes the importance in continuing 
support of enhanced security at OIA. The Authority supports the U.S. 
Department of Homeland Security's commitment to keep air travel 
security enhancement initiatives on track.
    The Authority respectfully requests your Subcommittee's 
consideration and support of our request for $50 million in funding 
which is essential to ensure the full and timely implementation of a 
Phase 2 Long-Term Checked Baggage Screening Solution using In-line EDS 
Equipment.
TSA Phase 2 Long-Term Checked Baggage Screening Solution
    The Transportation Security Administration (TSA) approved a Phase 1 
short-term solution to enable Orlando International Airport to meet 
Congress December 31, 2002 100 percent checked baggage-screening 
requirements. Together, TSA and the Authority established the following 
goals for the checked baggage screening functions at OIA:
  --Create an experience the traveler and customer see as safe, secure, 
        comfortable, efficient, and affordable.
  --Provide a well-studied recommendation to TSA on how to achieve 100 
        percent checked baggage screening specific to OIA's operations 
        and terminal layout.
  --Meet or exceed TSA checked baggage screening standards and 
        procedural requirements while maintaining efficiency of 
        passenger and baggage processing and flow.
  --Implement Phase 1 solution to meet the December 31, 2002 deadline 
        with Phase 2 solution intended for the long-term, permanent 
        solution.
    The temporary Phase 1 solution required the combined deployment of 
Explosive Detection Systems (EDS) and Explosive Trace Detectors (ETD) 
equipment throughout public areas within the airport's main terminal 
building. It is manpower and space intensive, requiring over 200 ETD 
operators per shift and constricting passenger movement and circulation 
through the airport.
    Passenger baggage in some areas must be manually transported from 
ticket counters to EDS/ETD devices positioned along the passenger 
walkways for screening and then returned to the ticket counter to be 
loaded on the plane, resulting in longer bag processing times and 
interference in passenger movement.
    Due to these shortcomings and other factors, the Authority 
continues to work with TSA in developing a long-term Phase 2 checked 
baggage screening solution that is integrated with existing baggage 
systems. Phase II is an automated solution that relies primarily on EDS 
technology, supplemented with ETD for false alarm resolution. Phase 2 
will be less manpower intensive and passenger intrusive as it is 
integrated into the existing baggage conveyance system. Simply put, it 
will be more secure, more customer friendly, and more efficient. It is 
anticipated that the Phase 2 solution could be completed in 22 months 
at an estimated cost of $50 million.
    The Authority respectfully requests a specific line item in the 
fiscal year 2004 Department of Homeland Security budget for $50 million 
to implement a Phase 2 Long-Term Baggage Screening Solution at Orlando 
International Airport.
Funding Justification for Orlando International Airport
    Orlando International Airport remains steadfast in its commitment 
to help restore public confidence and ensure the highest standard of 
safety and security in air travel.
    Orlando International Airport is one of the Central Florida's 
primary assets and has been designated as an U.S. Security Category X 
airport. In 2001, OIA served approximately 28.3 million passengers 
making it the 15th busiest commercial service airport in the nation and 
the 24th busiest in the world. In terms of origin and destination (O&D) 
passenger traffic at domestic airports, OIA ranked 5th behind Los 
Angeles International and traditional airline hub airports such as Las 
Vegas' McCarran International, Chicago's O'Hare International, and 
Atlanta's Hartsfield International. Importantly, this means OIA faces a 
unique responsibility to safely and efficiently process a large volume 
of checked passenger baggage entering the sterile security environment 
for the first time. In fact, O&D passengers represent approximately 85 
percent of all passengers at OIA. This high level of O&D activity is 
expected to continue, as well as our heightened responsibility to 
process the disproportionately large volume of checked baggage related 
to O&D traffic as it enters the secured system for the first time.

        TOP TEN ORIGINATION AND DESTINATION AIRPORTS IN THE U.S.
                              [In millions]
------------------------------------------------------------------------
               Rank                        Airport        O&D Passengers
------------------------------------------------------------------------
1.................................  Los Angeles (LAX)...            31.0
2.................................  Las Vegas (LAS).....            25.8
3.................................  Chicago (ORD).......            24.8
4.................................  Atlanta (ATL).......            24.3
5.................................  Orlando (MCO).......            22.2
6.................................  Phoenix (PHX).......            20.1
7.................................  New York (LGA)......            19.4
8.................................  New York (EWR)......            18.4
9.................................  Dallas (DFW)........            18.4
10................................  Seattle (SEA).......           18.3
------------------------------------------------------------------------
Source: U.S DOT OD1A database.

    OIA has scheduled service to 70 non-stop service plus 14 True-
Direct domestic and 14 non-stop and 10 True-Direct international 
destinations, promoting increased airline service and competitive 
fares. The largest rental car market in the world is located at OIA. 
The airport shares a unique relationship with the regional economy. A 
completed Economic Impact Study determined OIA generates a $14 billion 
annual economic impact on Central Florida and is responsible for 54,400 
direct and indirect jobs.
    The Authority is extremely fortunate to operate a commercial 
airport containing 13,297 acres of land. With these extraordinary 
resources, OIA is a critical component of the National Aviation System.
Regional and Economic Development Facts
    The Orlando region has positioned itself as an international force 
in global business. Department of Commerce statistics show that this 
region leads the state's major markets in terms of export growth. With 
a population exceeding 1.7 million, metropolitan Orlando is one of the 
fastest growing population and employment markets in the country with a 
solid infrastructure in place to support major high-tech growth.
    The region's private/public sectors work hand-in-hand with higher 
education institutions to enhance the region's climate for high-tech 
growth. Orlando has one of the most advanced telecommunications 
infrastructures in the southeast and the area's utility services are 
noted for reliability. With a civilian labor force exceeding 845,000--
more than 200,000 of whom possess a college degree--the region's 
residents are well educated. It is estimated that more than 1,100 new 
adult residents move to the metropolitan Orlando area each week, 
providing an additional pool of labor for companies. Metropolitan 
Orlando's median household income is higher than both Florida and 
national averages. Clearly, the metropolitan Orlando area exhibits the 
demographic and work force growth, prowess and potential that only the 
nation's very best business communities can offer.
    Orlando has become a world class meeting destination. The elegant, 
award-winning Orange County Convention Center, the second largest in 
the nation, will add one million square feet with its expansion, 
bringing the total exhibit space to a record 2.1 million square feet. 
This expansion, scheduled to open in 2003, will boost the center's 
space and services to accommodate meetings from mega-shows to smaller 
events. What's more, Orlando is transforming and enhancing its 
accommodations for meeting attendees with plans to add more than 23,000 
hotel rooms to the area's existing 99,000-room inventory.
    With its strategic geographical location within the Western 
Hemisphere, the state of Florida offers both a diverse culture and a 
flourishing business and industrial environment. With close to $370 
billion in gross state product, Florida's economy is ranked 5th largest 
in the Western Hemisphere and the 16th largest in the world--far 
outpacing other states in the Southeast. Florida's robust state economy 
provides nationally recognized support for business expansion, new 
investment and international trade. With an unparalleled multi-modal 
transportation network, Florida provides easy access to any global 
destination, thus providing the obvious solution for moving people, 
goods and services around the world--today, and continuing throughout 
the 21st century.
In Summary
    The Authority expresses its gratitude for the opportunity to 
present this testimony to your Subcommittee. The Senate's past support 
and interest in the development of the Authority's commercial airport 
is greatly appreciated. The Authority looks forward to working with you 
in advancing safety and security initiatives that will benefit the 
National Aviation System. We believe our request for $50 million to 
fund our permanent, Long-Term Phase 2 Checked Baggage Screening 
Solution using In-Line EDS Equipment is such an initiative.
                                 ______
                                 

   Prepared Statement of the International Association of Emergency 
                                Managers

    Chairman Cochran, Ranking Member Byrd, and distinguished members of 
the Subcommittee, thank you for this opportunity to provide a statement 
for the record regarding the fiscal year 2004 budget proposal for the 
Department of Homeland Security.
    My name is J.R. Thomas, and I am the emergency management director 
for Franklin County (which includes Columbus), Ohio. I currently serve 
as the President of the International Association of Emergency Managers 
(IAEM), whose membership is comprised of more than 2,000 of my 
colleagues from across the United States. We are city and county 
emergency managers who perform the crucial function of coordinating and 
integrating the efforts at the local level to prepare for, mitigate the 
effects of, respond to, and recover from all types of disasters 
including terrorist attacks.
    We respectfully submit suggestions on three particular issues 
relating to the Department of Homeland Security budget for 2004.
    Emergency Management Performance Grants (EMPG):
  --Urge that funding be specifically designated in the Appropriations 
        Bill
  --Request that funding be increased from $165 million in 2003 to $300 
        million in 2004
  --Urge that this program be returned to the Emergency Preparedness 
        and Response Directorate (FEMA)
    Hazard Mitigation Grant Program (HMGP):
  --Oppose the budget request to eliminate the 404 HMGP program
  --Urge Subcommittee to retain the program and return the funding 
        level to 15 percent of certain eligible disaster costs
    Flood Map Modernization:
  --Support request for $200 million.
    Emergency Management Performance Grants (EMPG).--The Emergency 
Management Performance Grants are pass-through funds to state and local 
emergency management offices to provide a foundation for basic 
emergency preparedness and response capabilities. This funding has 
existed in the past under several different names such as Emergency 
Management Assistance and State and Local Assistance, but the dollars 
have always served the same purpose.
    The conferees on H.J.Res. 2, the Omnibus Appropriations Bill for 
fiscal year 2003, recognized the importance of this funding and 
specified $165,000,000 in legislative language for EMPG. In addition, 
the conference report (H. Report 108-10) stated the following:

    The conferees have taken this action because EMPG is the backbone 
of the nation's emergency management system, builds state and local 
emergency management capability, is the foundation for first responder 
activities, and because this important activity has been severely 
underfunded for many years. Now more than ever, the planning activities 
carried out in this program are of utmost importance.

    EMPG Not Specified in 2004 Budget.--The coordination function which 
EMPG supports faces an uncertain future within the Department of 
Homeland Security. What is certain is that the need for this grant 
program remains, and in fact, has dramatically increased due to recent 
Homeland Security efforts. We have been advised that state and local 
programs like EMPG are being consolidated into the Office of Domestic 
Preparedness under the Border and Transportation Security Directorate. 
However, no funding has been designated for this activity in the budget 
documents we have seen. The Budget in Brief for fiscal year 2004 for 
the Department of Homeland Security includes a request for $3.5 billion 
for the Office of Domestic Preparedness and specifies $500,000,000 for 
law enforcement grants, $500,000,000 for fire grants and $181,000,000 
for Citizen Corps, but contains no mention of the EMPG. In addition, in 
response to hearing questions from Members of Congress, Department of 
Homeland Security Officials have verified that no funding has been 
specified for this program.
    Importance of EMPG.--As America strives to promote homeland 
security and to advance first responder capability, several pressing 
needs are apparent, including:
  --Integrated comprehensive plans which involve stakeholders at all 
        levels
  --Interoperable communications
  --Standardization and expansion of training and exercising programs 
        which involve all response agencies
  --Regionalization of efforts to maximize effectiveness given limited 
        funding
  --Comprehensive critical infrastructure planning including both 
        public and private sectors
    It is the state and local emergency managers who orchestrate the 
efforts to meet these needs. The national emphasis on homeland security 
has generated major efforts requiring state and local governments to 
plan, train, exercise, and equip themselves for a variety of possible 
future emergencies, including those that result from terrorism. It is 
important to note that such planning and coordination does not 
generally emanate from the first responder agencies themselves, but 
from the efforts of state and local emergency managers. Given continued 
support and funding, emergency managers have the skills, the expertise, 
and the willingness to rise to the planning and coordinating challenges 
presented by the full range of hazards affecting their communities.
    Funding.--Historically, funding for EMPG has been inadequate. The 
program was intended to be 50 percent Federal and 50 percent state or 
local funding. Currently many jurisdictions receive 20 percent or less. 
State and local emergency management programs are in desperate need of 
financial support if they are to effectively implement the President's 
homeland security strategy in states, counties, cities and 
neighborhoods across America. Given the new security concerns arising 
from the War in Iraq, emergency management is more important than ever. 
It is imperative that adequate funding be allotted to EMPG so that 
emergency managers can continue to serve as a unifying force in the 
effort to preserve public safety and maintain homeland security as well 
as continue to meet the requirements of all hazard planning and 
coordination.
    We respectfully request the EMPG be increased from $165,000,000 to 
$300,000,000.
    Location of EMPG Program.--It is essential that the Directorate of 
Emergency Preparedness and Response and state and local emergency 
management offices continue to prepare and plan for floods, hurricanes, 
earthquakes, ice storms, tornadoes and other natural disasters as well 
as acts of terrorism. It is vital that the link between EMPG and those 
who integrate the programs on the Federal level be maintained. The 
focus of this particular grant program is much broader than training 
and purchase of equipment. It is a program that supports the foundation 
of emergency management for all hazards, including terrorism and for 
which deliverables are required. In order to maintain the critical 
federal, state and local emergency management infrastructure, the value 
of which has been demonstrated in hundreds of disasters over the past 
few years, the essential elements of that EMPG program should be moved 
back to Emergency Preparedness and Response Directorate.
Hazard Mitigation Grant Program (HMGP)
    The Administration's request for fiscal year 2004 would eliminate 
the 404 Hazard Mitigation Grant Program, which provides post-disaster 
funding and fund a pre-disaster mitigation program at $300 million per 
year. In order to reduce future disaster costs, commitments must be 
made to both pre-disaster and post disaster mitigation. Citizens and 
elected officials are most receptive to undertaking projects and 
initiatives that reduce the impacts of future disasters immediately 
after a disaster has occurred. Without the 404 funding, those 
opportunities will be missed. The fiscal year 2003 Omnibus 
Appropriations Bill reduced the 404 Hazard Mitigation Grant Program 
from an amount equivalent to 15 percent of eligible disaster costs to 
7.5 percent. We urge that the program be retained and that it be 
restored to the previous 15 percent.
Flood map Modernization
    IAEM supports the Administration's request for $200 million for 
flood map modernization. Flood maps play a key role in disaster 
reduction, mitigation, and community planning and development 
activities. Many of the flood maps in place are 15 to 30 years old and 
do not reflect recent development, and may contain inaccurate 
information about the floodplains as a result. FEMA estimated the cost 
of a multi-year map modernization plan at $750 million over a 7-year 
period. We support this multi-year effort.
    Thank you for giving us the opportunity to provide this testimony.
                                 ______
                                 

       Prepared Statement of the International Loran Association

    Dear Chairman Cochran: On behalf of the International Loran 
Association (ILA), I am writing in conjunction with your work on the 
fiscal year 2004 Department of Homeland Security Appropriations bill. 
Specifically, the ILA is asking for your support in funding the U.S. 
Coast Guard (USCG) budget to continue the modernization of the Loran-C 
system. Because Loran is the only multimodal system we have that can 
support the global positioning satellite (GPS) system, which has 
recognized vulnerabilities affecting the security of our critical 
national infrastructure and the safety of tens of millions of American 
citizens, we believe completing Loran modernization has critical 
national importance. I respectfully request that this letter be made 
part of your hearing record in conjunction with the Subcommittee's 
work.
    In recent years, because of continued strong bipartisan support 
from the Appropriations Committee and the widespread recognition of 
national vulnerabilities associated with overdependence on GPS, nearly 
$100 million in resources have been provided to modernize the Loran-C 
infrastructure through an inter-agency agreement between the USCG and 
the Federal Aviation Administration (FAA). The Coast Guard's move to 
the new Homeland Security Department now makes it imperative that 
funding be provided from the USCG budget to continue and complete the 
infrastructure modernization effort and to augment operations funds 
already provided through Coast Guard resources.
    With regard to the Subcommittee's objectives and its focus on 
national security issues, let me briefly summarize issues associated 
with GPS and Loran:
GPS and Loran
    GPS and Loran are radionavigation and timing systems that operate 
in virtually identical ways but have extremely different properties--
properties that make them uniquely synergistic systems. GPS is a 
satellite-based, high frequency, and very low signal level system, 
while Loran is a ground-based, low frequency, and a very high signal 
level system. Given their distinctly different properties, GPS and 
Loran do not share vulnerabilities, e.g. interference that may affect 
one system will not affect the other. Both GPS and Loran are multimodal 
(i.e. they can be used for aviation, marine, terrestrial and timing 
applications), and they are the only multimodal systems we have. Given 
its multimodal capabilities, Loran is the second most widely used 
navigation and timing system in the world.
    From approximately 1994-2001, the Department of Transportation and 
its agencies were driving towards a ``sole-means'' GPS system, in hopes 
of eliminating all other systems and relying totally on GPS. 
Fortunately, it is now generally acknowledged that a sole-means system 
cannot be justified on safety, security, technical, economic, or 
political grounds, and that integrated or hybrid systems provide the 
most robust, highest performance and do so in the most economic manner. 
Not only is Loran our least expensive system, it is also the most 
complementary system to GPS.
    The matrix below summarizes Loran's unique multimodal advantages, 
and graphically illustrates Loran is the only system we have that can 
provide an independent backup to GPS in the diverse roles that are 
critical to the national infrastructure and our nation's security. From 
a national perspective, it is clear that investments in the Loran 
infrastructure will result in a system that can support GPS in 
multimodal applications and that has considerable upside potential with 
regard to national security and safety, system performance, and user/
provider/manufacturer/national economic benefits.

                                                  RADIONAVIGATION SYSTEMS AND GPS AUGMENTATION SYSTEMS
                                          [Applications and Performance--* = vehicles, railroads and personal]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                       Terrestrial*       Aviation          Marine           Timing      GPS Independent
--------------------------------------------------------------------------------------------------------------------------------------------------------
Loran-C............................................................               +                +                +                +                +
VOR/DME............................................................               -                +                -                -                +
NDGPS..............................................................               +                -                +                -                -
WAAS...............................................................               +                +                +                +                -
--------------------------------------------------------------------------------------------------------------------------------------------------------

GPS Interference, Dependence, and National Security and Safety
    As a result of 9/11, the Volpe report on GPS vulnerabilities, the 
President's Commission on Critical Infrastructure Protection, and 
numerous other events/studies, Congress and the nation have become 
extremely focused on protecting the national infrastructure and safety 
of life, and seek practical, cost effective solutions to these very 
real concerns. Through these studies and reports, including the Volpe 
Center's ``Vulnerability Assessment of the Transportation 
Infrastructure Relying on the Global Positioning System,'' overwhelming 
evidence has accumulated about the need for complementary systems, 
including Loran.
    Since virtually every aspect of our national infrastructure (e.g. 
transportation, telecommunications, and power) relies on GPS, and 
because GPS is an inherently fragile system, GPS dependence is a core 
national vulnerability. Basically, GPS is extremely vulnerable to 
intentional and unintentional interference, and neither can be 
completely controlled today or in the future, regardless of system 
augmentations/modifications or monies expended on those efforts. For 
example, intentional jamming is currently underway in Iraq, as reported 
by The Washington Post, Reuters, and other news sources, and while such 
acts are recognized tactics in modern war situations, recent history 
tells us that such tactics could easily be brought to our land. I will 
note that in the August 19, 2002 Colorado Springs Gazette, General 
Lance Lord, Commander of the Air Force Space Command, stated that the 
most likely attack on U.S. satellites would be GPS jamming attacks on 
the ground.
    There have also been numerous examples of unintentional jamming, 
and these incidents exemplify how easily GPS reception can be 
disrupted. For example, GPS World recently published an article about 
GPS jamming that inadvertently continued for well over 2 months, 
completely blocking Moss Landing Harbor in California. In this case, 
the ``jammers'' were commercially available TV antennas located on 
private boats, and the owners were completely unaware of the 
interference caused by these devices. One must only turn to personal 
experience with cell phones, AM/FM radios, TV reception etc. to 
recognize that wireless communications are not perfect, and will not 
become so in our lifetime. I believe it is also reasonable to assume, 
particularly given the huge popular migration to wireless communication 
technologies, that these conditions will only be exacerbated in the 
future.
    In summary, the reality is that our national transportation, 
telecommunications, and power infrastructure is totally reliant on GPS 
and our infrastructure is vulnerable. The reality is also that GPS can 
never be made to be invulnerable, and we cannot completely control our 
radio frequency environment today or in the future. Loran is the only 
system we have that can mitigate this vulnerability and provide an 
infinite backup to GPS.
Economic and National Security Issues
    While it is clear that GPS dependence is a national vulnerability, 
it is also clear that the nation must seek the most cost-effective 
means to protect all modalities that compose the national 
infrastructure. In this regard, I think it is fair to state that 
Congress has shown exceptional, pragmatic leadership with regard to 
Loran and GPS, but in contrast, agencies and the DOT have been unable 
to formulate a cohesive policy that addresses national needs.
    For example, the FAA currently maintains the very high frequency 
omnidirectional range (VOR) and distance measuring equipment (DME) 
systems to backup GPS when GPS is unavailable. Neither system provides 
nearly the coverage or performance of Loran, and their annual O&M costs 
are roughly three times that of Loran's, which will drop to about $15 
million when the modernization is complete. In addition, VORs and DMEs 
are single modality systems (i.e. they can only be used by aviation), 
and cannot even be used in the future ``Free Flight'' system envisioned 
by the FAA. In contrast, the FAA's own studies have identified Loran as 
``the best theoretical'' backup to GPS and point out that Loran will 
fit in their future Free Flight system. Lastly, Loran is a multimodal 
system that can provide similar benefits to millions of other 
Americans, and can do so much less expensively than the single modal 
VOR/DME system.
    Another example is the situation with the USCG, which has not 
formally identified a GPS backup that would enable continued port 
operations during a period of GPS denial or unavailability. The USCG 
currently states that radar with visual aiding is the backup that can 
be used during a GPS outage. On its face, this answer completely avoids 
the basic issue, as it assumes a GPS outage would only occur during 
daylight hours with good visibility. It eschews the fundamental concern 
of continuing operations during nighttime and storms or perhaps 
terrorist activity, the very situations where a backup system is 
absolutely required. Moreover, the USCG has not identified a GPS backup 
for the automatic identification system (AIS), which will be used to 
track and monitor vessels in and around U.S. ports, and relies 
completely on GPS. Fortunately, the USCG has initiated studies on Loran 
for these roles, and the modernization program will enhance Loran's 
ability to fulfill these roles. In this regard, I will also note that 
the United States Power Squadron (USPS) has recently joined the 
National Boating Federation (NBF) in endorsing Loran's continuation and 
modernization, and written the USCG Commandant to express these views.
    In summary, Loran is not only the most cost effective system we 
have that can backup GPS and protect our multimodal national 
infrastructure, it is the only system we have that can address these 
essential national requirements. At this point in our history, Loran is 
not only a national asset, but also a national requirement; its 
modernization is a necessity.
Loran Modernization
    As indicated above, the Loran recapitalization effort has already 
yielded substantial benefits to the nation, which are reflected not 
only in national security and infrastructure enhancements across all 
modalities, but also in cost savings. For example, major progress has 
been made in replacing eleven old tube transmitters with modern, high 
efficiency transmitters and associated modern electronic systems. This 
modernization program has already enabled personnel reductions, 
increased reliability, and enhanced performance. These improvements 
will ultimately reduce Loran's annual O & M costs from $27 million to 
under $15 million, and do so while improving Loran's ability to 
complement GPS. Well into our future, Loran can act as a multimodal 
insurance policy for our national infrastructure for under $15 million 
annually.
    Last year, Congress approved $25 million for the Loran 
modernization program. The Coast Guard is effectively using those funds 
for important projects that simultaneously assist the modernization 
effort and advance security and safety benefits presented by Loran and 
GPS compatibilities. These projects are demonstrating that Loran and 
GPS uniquely work hand-in-hand, and cost-effectively benefit all modes 
of transportation users. In summary, it is hard to imagine how 
taxpayers' money could have been more productively spent to generate 
more security, safety, performance, and economic benefits for the 
nation. The Loran modernization program is indeed a wise and necessary 
investment in America's future, and I respectfully ask that the 
Committee continue this investment at its current level of $25 million.
    In conclusion, Loran is a national asset of inestimable value. 
Loran is the second most widely-used radionavigation system in the 
world; it is the most cost-effective, most complementary system to GPS; 
and it is the only other multimodal system available to meet our 
national security and transportation system objectives. The Loran 
modernization program is well underway, and already has provided 
multimodal benefits to the nation, and more will follow. I urge you to 
support fiscal year 2004 funding in the Coast Guard budget of no less 
than $25 million to continue a Loran modernization program that will 
help assure our nation's transportation safety and infrastructure 
security in the most cost effective manner for both government 
providers and private users.
                                 ______
                                 

        Prepared Statement of the Lummi Indian Business Council

    My name is Darrell Hillaire, Chairman of the Lummi Nation. The 
Lummi Nation, is located on the northern coastline of Washington State, 
and is the third largest tribe in Washington State serving a population 
of over 5,200. The modern Lummi government is heir to the traditional 
territories of the Lummi and Semiahmoo People, which covers lands 
rivers and marines areas in the United States (Washington) and Canada 
(British Columbia).
    On behalf of the Lummi Nation I want to thank you and the members 
of the Committee for the opportunity to express our concerns and 
requests regarding the fiscal year 2004 appropriation for the U.S. 
Department of Homeland Security. The following written testimony 
presents the Lummi Nation funding priorities, as well as regional and 
national concerns and recommendations for your consideration.
    The Lummi Nation's relationship with the United States of America 
means that it must also confront threats to the United States and the 
American people that are presented by World events that have occurred, 
at times, in distant lands and disturbingly in our own backyard. In 
January 2002 several members of the Lummi Nation Council and I attended 
the Tribal Homeland Security Summit. While that meeting did provide 
information is did not result in any increased security for our 
membership. Although isolated the Lummi Nation has witnessed major 
terrorist activities in our area.
  --A terrorist from the middle east was caught entering the United 
        States less than 90 miles from the Lummi Nation with plans and 
        equipment to bomb Los Angles International Airport.
  --Within the last 2 years the Federal government successfully 
        prosecuted 5 residents of our County for involvement in 
        American ``militia'' activities similar to those that led to 
        the bombing in Oklahoma City. And finally the terrorist father 
        and stepson, who held the Washington DC area in fear last year 
        were living in the nearby city of Bellingham, prior to 
        beginning their cross country shooting spree.
  --Tribal members routinely fish and hunt in remote areas of what is 
        now known as northwest Washington State that are the scene of 
        drug smuggling.
  --Tribal member routinely cross through the boarder stations into 
        Canada to visit relatives, perform and participated in 
        ceremonies and participate in Tribe to Tribe trade, tax free, 
        under the Jay Treaty of 1789. These activities also take place 
        in remote areas of British Columbia.
  --Lummi Tribal members are dependent of water resources that flow 
        from reservation aquifers fed by surface water wetlands and the 
        waters of the Nooksack river.
  --Lummi Nation's dwindling fisheries resources are also dependent on 
        these water resources. All of which are open to contamination.
  --Tribal lands are not part of the State of Washington, Lummi Nation 
        is a sovereign federally recognized Indian Government.
  --The Coastal Zone Management Plan of Washington State indicates 
        Lummi Nation Lands as a blank space on their Plan Map. The 
        Lummi Nation owns and manages 12 contiguous miles of Coastline.
    I, along with other tribal leaders, are concerned that the 
Department fully include and involve Tribal governments as it develops 
the programs services functions and activities that are designed to 
assist Tribal governments needs to meet the ever changing nature of 
terrorism. The Lummi Nation has an Office of Emergency Services, has 
developed Emergency Services Plans and works with Whatcom county and 
the State of Washington to insure that emergency services are ready and 
are provided as needed.
Tribal Government Consultation
    On behalf of the Lummi Nation I am recommending that the 
Department, following the example of many other Federal departments, 
develop a policy of planning through consultation with Tribal 
governments on a government-to-government basis. This means 
consultation prior to developing plans meant to benefit tribal 
governments. Such a policy is needed due to the unique status of Tribal 
governments within the American system of government, their strategic 
location and isolation that present unique challenges for all law 
enforcement and security activities.
Senate Bill 578 and Tribal Self-Governance
    The Lummi Nation fully supports proposed legislation to amend the 
Homeland Security Act of 2002 to include Indian tribes among the 
entities consulted with respect to activities carried out by the 
Secretary of Homeland Security, and for other purposes. The Lummi 
Nation is not only a Self-Governance Tribe--it is the first Self-
Governance Tribe. The Lummi Nation is seeking to be a full, active and 
productive partner with the United States and the Department of 
Homeland Security. This can best be accomplished through the passage of 
this legislation.
Emergency Domestic Preparedness
    Tribal governments must be part of the Department's efforts to 
strengthen America's first responder community and make our homeland 
safer from potential threats. The Lummi Nation needs financial and 
technical assistance to plan and develop its preparedness for terrorism 
as well as its coordinated terrorism prevention and security 
enhancement for first responders within Lummi reservation communities. 
The Lummi Nation needs financial assistance to develop preparedness 
plans, purchase equipment, develop and implement training, and support 
the costs of preparedness exercises to enhance our security: The Lummi 
Nation wants to be one of the ``critical infrastructure facilities as 
part of Operation Liberty Shield.''
    The Lummi Nation and other Tribal governments need the U.S. 
Homeland Security Department to recognize that there are significant 
security needs on reservations that are substantially different from 
those of metropolitan areas. There are unique needs for protection or 
preparedness of rural and isolated areas that attract infiltration 
activities.
Counter-terrorism Programs, Services, Functions and Activities
    In the planning the Department will undertake I ask you to consider 
the role of the Lummi Nation and other Tribal governments in the 
counter terrorism activities of the United States the support expanded 
responsibilities of the Department of Homeland Security.
    The Lummi Nation can provide many trained officers and other who 
want work and training to support the increased transportation security 
operations including additional screening of visitors crossing the 
border, more secondary inspection of immigrants and visitors at ports-
of-entry, increased inspection of high-risk goods and cargo at ports-
of-entry, additional flight hours for airspace security.
    The Lummi Nation can provide the administrative support and the 
labor force to support the protection of Federal assets located in our 
area. The Lummi Nation is in an excellent position to provide increased 
security between ports-of-entry on the borders.
    The Lummi Nation can develop the facilities to support the pre-
deployment of Federal emergency response assets and provide the labor 
force needed to support the activation of government emergency response 
plans.
                 tribal specific appropriation request
               $160,000 tribal emergency response offices
    Lummi Nation request funding to support the development, 
implementation and operation of its Emergency Assistance Preparedness 
and Management Plan $50,000, Office Staffing $100,000 and start-up 
equipment $10,000.

----------------------------------------------------------------------------------------------------------------
 
----------------------------------------------------------------------------------------------------------------
Budget Period........................  2004...................  20O5...................  2006
Funding Amount.......................  $160,000...............  $150,000...............  $150,000
Project Activity.....................  Planning...............  Operations Support.....  Operations Support
----------------------------------------------------------------------------------------------------------------

                   $150,000 emergency communications
    The Lummi Nation needs assistance to plan develop, construct and 
operate reliable, real time, reservation wide emergency communication 
Dispatch services, and the problems with 911 and complaints in delays 
getting L&O officer response. Dispatch services.

----------------------------------------------------------------------------------------------------------------
 
----------------------------------------------------------------------------------------------------------------
Budget Period........................  2004...................  2005...................  2006
Funding Amount.......................  $150,000...............  $50,000................  $50,000
Project Activity.....................  Planning & Equipment...  Implementation.........  Operations Support
----------------------------------------------------------------------------------------------------------------

                 lummi nation first responders network
    The Lummi Nation is seeking financial assistance in planning 
developing implementing and operating a reservation-wide first 
responder network.
Emergency Medical Service program
    Emergency Medical Services request funds for an Ambulance, staff 
training and assistance in establishing a 24/7 First Responder and 
Emergency Medical Technician Service. Construction of an Lummi Nation 
Emergency Services Facility that would house the ambulances and support 
reservation wide emergency services first responders.

----------------------------------------------------------------------------------------------------------------
 
----------------------------------------------------------------------------------------------------------------
Budget Period........................  2004...................  2005...................  2006
Funding Amount.......................  $800,000...............  $5,000,000.............  $300,000
Project Activity.....................  Planning & Training,     Construction...........  Operations Support
                                        Staffing Equipment
                                        $160,000 for 2
                                        ambulances.
----------------------------------------------------------------------------------------------------------------

Fire Department (Development preparedness, training funds)
    A shrinking State Fire Department that is dependent on volunteers 
serves the Lummi Nation. Volunteers whose training is no longer 
supported by the State of Washington due to its own budget problems. 
The Lummi Nation is seeking to work with the State to develop this 
small service base into a effective tire and first respond department.

----------------------------------------------------------------------------------------------------------------
 
----------------------------------------------------------------------------------------------------------------
Budget Period........................  2004...................  2005...................  2006
Funding Amount.......................  Planning $250,000......  $1,000,000.............  $300,000
Project Activity.....................  Planning...............  Construction...........  Operations Support
----------------------------------------------------------------------------------------------------------------

                  lummi nation citizen watch programs
    Citizens of the Lummi Nation are as concerned about the potential 
for injury and death due to terrorist attacks. Our Tribal members want 
opportunities to get involved in the process of protecting themselves. 
They have information about unusual activities in areas that are remote 
for most non-Indian citizens. Because of their unique lifestyle our 
members travel both by land and sea to areas that are not regularly 
inhabited. Therefore the Lummi Nation is requesting funding to plan, 
develop, implement and operate the Citizen Watch Program.

----------------------------------------------------------------------------------------------------------------
 
----------------------------------------------------------------------------------------------------------------
Budget Period........................  2004...................  2005...................  2006
Funding Amount.......................  Planning $250,000......  $150,000...............  $150,000
Project Activity.....................  Planning Operations and  Operations Support.....  Operations Support
                                        Implementation.
----------------------------------------------------------------------------------------------------------------

                   lummi natural resources department
    $230,000. Annual Recurring Funding Request to support the increased 
staff, support and equipment due to increased security needs and 
activities of the Lummi Nation Natural Resources Department.
Protection of Natural Resources and the People who use these Resources
    The Lummi Natural Resource Officers have concentrated on bringing 
quality cases to the Tribal Court this year. These cases have been 
coordinated with other Tribes, Washington Fish and Wildlife and 
National Marine Fisheries Service in accordance with the sovereignty 
and jurisdiction of the Lummi Nation. Additional officers has made it 
possible to spend more patrol time in tideland and beach enforcement as 
well as in the usual and accustomed area by water and land patrol.
    The Lummi Tribe possess and exercises treaty rights that are 
protected and reaffirmed, by the U.S. Federal courts (Washington vs. 
U.S., (1974) Western District Court, Ninth Circuit Court and U.S. 
Supreme Court) to preserve the Lummi people's right to harvest salmon 
and other marine resources ``in common'' with the citizens of 
Washington in their ``usual and accustomed grounds'' inland or marine 
territories. The Lummi people possess--the right to catch up to 50 
percent of the harvestable salmon in their traditional fishing areas, 
located throughout Puget Sound's marine waters. These treaty rights 
extend beyond the harvesting of fish, or salmon to include other 
species including: hunting of deer, elk; gathering, harvesting shed 
ash, clams, oysters, scallops, mussels, sea urchins, shrimp, abalone, 
and squid.
    The preservation and management for these species and their 
continued survival is are essential function of LIBC tribal government. 
The Lummi people have traditional depended upon the harvesting of 
marine and natural resources for subsistence with many contemporary 
family households rely upon the annual harvest as the primary source of 
income. The development of offshore structures and increased vessel 
traffic in and/or near traditional fishing areas will present a 
hindrance to the Lummi peoples capability to sustain an income.

----------------------------------------------------------------------------------------------------------------
 
----------------------------------------------------------------------------------------------------------------
Budget Period........................  2004...................  2005...................  2006
Funding Amount.......................  $400,000...............  $230,000...............  $230,000
Project Activity.....................  Increased Staffing       Support for increased    Operations Support
                                        Increased Support        Operations.
                                        Equipment Start-up
                                        costs.
----------------------------------------------------------------------------------------------------------------

                lummi law and order (police) department
    The Lummi Law and Order Division is responsible to provide 
enforcement services to patrol the Lummi Nation Reservation and its 
``traditional hunting and fishing'' territories. This geographic area 
is much larger and extends beyond the Lummi Indian reservation exterior 
boundaries. The Lummi Nation need for patrol and enforcement is a year 
round activity in order to protect the people, their property, their 
natural resources and preserve the tribe's Treaty Right. The Lummi 
Nation controls, regulates and manages over 6,000 acres of tidelands 
and shoreline properties surrounding the Lummi Indian Reservation. 
However the Lummi Nation is entitled to harvest shellfish over 15 miles 
of ``off reservation'' coastal areas that extend up to the Canadian 
Border and all along the western coastal boundaries of Whatcom and 
Snohomish Counties, Washington State.
    The Lummi Nation treaty right guarantees the tribe and its 
membership future access and use, of existing aquatic waterways, 
without obstruction or hindrance, and further to navigate, operate 
boats or harvesting equipment in traditional fishing grounds and 
corresponding marine water areas. The Lummi traditional fishing areas 
extend beyond the physical boundaries of the Lummi Indian Reservation. 
Marine water areas extend north of the Reservation to Pt. Robert's and 
the U.S./Canada border, and south of the reservation throughout the San 
Juan Islands The tribe's traditional ``Hunting'' territory includes all 
the ceded land identified in the Pt. Elliot treat and covers over Four 
Counties in the Pacific Northwest. The Lummi Law and Order Division 
needs additional officers, salaries and support funding to address the 
security needs of both on and oil reservation activities.
$200,000 Lummi Nation Law and Order Patrol Boat
    The Lummi Nation Law and Order needs a new Patrol Boat. The costs 
for the Lummi Law and Order patrol boat are quoted to be $200,000.

----------------------------------------------------------------------------------------------------------------
 
----------------------------------------------------------------------------------------------------------------
Budget Period........................  2004...................  2005...................  2006
Funding Amount.......................  $500,000...............  $300,000...............  $300,000
Project Activity.....................  Increased Staffing       Support for increased    Operations Support
                                        Increased Support        Operations.
                                        Equipment Patrol Boat
                                        $200,000 Start-up.
----------------------------------------------------------------------------------------------------------------

    Thank you for allowing us to submit this statement of testimony on 
the fiscal year 2004 Homeland Security Appropriations.
                                 ______
                                 

         Prepared Statement of the National Boating Federation

    Mr. Chairman, Members of the Subcommittee: I am writing to 
respectfully request that this letter be made part of your hearing 
record in conjunction with the Subcommittee's work on the fiscal year 
2004 Department of Homeland Security Appropriations bill and to request 
your support of funding in the United States Coast Guard budget to 
continue the modernization of the Loran-C system. On behalf of our 2 
million members nationwide, the National Boating Federation (NBF) 
strongly supports Loran as a backup operational system to GPS, and we 
urge continuation of the Loran modernization program. We understand 
other marine users and related groups, including the United States 
Power Squadrons (USPS), have also expressed strong support for Loran 
modernization and the need for it as an operational backup to satellite 
navigation.
    The move of the Coast Guard to the new Homeland Security Department 
now makes it essential that funding be provided from the Coast Guard 
budget to continue the Loran infrastructure modernization effort. The 
Appropriations Committee has provided nearly $100 million in resources 
in recent years to modernize the Loran infrastructure through an inter-
agency agreement between the U.S. Coast Guard and the Federal Aviation 
Administration (FAA).
    As a result of the Coast Guard recapitalization effort, substantial 
progress has been made and many efficiencies implemented. When 
complete, the modernization will reduce the Loran system's operation 
and maintenance (O&M) costs from $27 million to under $15 million 
annually. This is a remarkably low annual cost, particularly given 
Loran serves so many diverse user groups.
    Loran is serving as a multi-modal GPS backup not only because of 
the navigation it provides to marine users and other modes of 
transportation, but also because of its ability to provide precise time 
services to the nation. Moreover, Loran is the second most widely used 
radio navigation system in the world; it is a national asset that is 
the most cost-effective, most complementary system to the GPS; and it 
is the only other multi-modal radio navigation system available to meet 
many of our national security and transportation system objectives.
    It is imperative that Loran be part of the nation's long term 
navigation system mix because it is essential to marine and other users 
to meet ongoing navigation, timing and other requirements.
    Last year, $25 million was provided for Loran modernization because 
of overwhelming evidence that the technology offers cost-effective 
security, safety, efficiency and other benefits.
    The NBF urges you to support fiscal year 2004 funding in the Coast 
Guard budget of no less than $25 million in resources for continuation 
of the Loran modernization program.
                                 ______
                                 

  Prepared Statement of the National Emergency Management Association

Introduction
    Thank you Chairman Cochran, Ranking Member Byrd, and distinguished 
members of the Committee for allowing me the opportunity to provide you 
with a statement for the record on the Department of Homeland Security 
(DHS) fiscal year 2004 budget. I am Peter LaPorte, Co-Chair of the 
National Emergency Management Association Homeland Security Committee 
and Director of District of Columbia Emergency Management Agency. In my 
statement, I am representing the National Emergency Management 
Association (NEMA), who are the state emergency management directors in 
the 50 states and the U.S. territories. NEMA's members are responsible 
to their governors for emergency preparedness, homeland security, 
mitigation, response, and recovery activities for natural, man-made, 
and terrorist caused disasters.
    This is a historic time as you have reorganized to consider the 
Department of Homeland Security's budget and the Federal Government's 
reorganization to stand-up the Department is in its infancy. It is 
critical that the fiscal year 2004 budget and future budgets do not 
lose sight of the all-hazards approach to emergency management. Our 
Nation cannot afford to build a new system for homeland security. We 
must utilize the pieces already in place to deal with natural hazards 
and other emergencies. Our most frequent opportunity to affirm our 
preparedness comes with recurrent natural hazards. In this year alone, 
the country has experienced ten major disasters, 15 emergency 
declarations, and one fire suppression declaration. While we continue 
to enhance our preparedness for domestic terrorism, we continue to 
prepare for and respond to frequent disasters of all sizes and impacts.
    The Department of Homeland Security budget provides critical 
support to state and local emergency management programs through actual 
dollars, grants, and program support. This year, NEMA would like to 
address three main issues with the proposed Federal budget for 
Department of Homeland Security.
  --The first is our concern for the elimination and lack of attention 
        to building and sustaining emergency management infrastructure 
        capabilities. This has traditionally been accomplished through 
        the Emergency Management Performance Grant (EMPG) program;
  --The second is our support for continuing and enhancing the First 
        Responder Grant program and the intention to coordinate and 
        manage these grants through the states; and
  --The third is our concern about the proposal to eliminate the Hazard 
        Mitigation Grant Program (HMGP) in order to finance a 
        competitive predisaster mitigation grant program only.
Emergency Management Infrastructure Funding
    More than any other intergovernmental program, emergency management 
and disaster response is a joint and shared responsibility among local, 
State, and Federal levels. The increase or decrease in resources for 
one level has a direct impact on the responsibility and impacts of 
disasters on the other partners. For example, a decrease in the 
capability of local governments to respond to any disaster 
automatically passes the burden of cost and activity to the state and 
Federal Governments. Unfortunately, the consequences of such policies 
are much more significant in terms of the effects of disasters on our 
citizens and communities since an inability to respond to life 
threatening emergencies at the local government level can not be 
replaced by efforts at the state and Federal levels. Additionally, the 
basic elements of comprehensive emergency preparedness cannot be 
replaced by narrow program funding for homeland security efforts.
    The President's budget proposal would eliminate the all-hazards 
focused Emergency Management Performance Grant (EMPG) program and roll 
it into the domestic terrorism focused First Responder Grant program. 
After a decade of static funding for the program, EMPG received a 
modest increase of $29 million in fiscal year 2003. Additionally, 
Congress recently affirmed the importance of EMPG in the fiscal year 
2003 appropriations bill stating:

    ``EMPG is the backbone of the Nation's emergency management system, 
builds state and local emergency management capability, is the 
foundation for first responder activities, and because this important 
activity has been severely under funded for many years. Now more than 
ever, the planning activities carried out in this program are of utmost 
importance. The conferees believe that FEMA should consider an 
allocation system for these funds that takes into consideration not 
only population, but also risk and vulnerability assessments.''

    We would like to take this opportunity to thank you for your 
support towards this important program and respectfully request that 
you not only prevent elimination of EMPG in the 2004 appropriations, 
but also address the program's shortfalls. While it is called a grant, 
EMPG is really a cost-share system which ties together the emergency 
management system of local, State, and Federal governments.
    This program was funded in fiscal year 2003 at $165 million, but a 
NEMA survey demonstrates an additional $200 million shortfall in basic 
state and local level program support in this joint effort to prepare 
the Nation's emergency management infrastructure for an adequate 
preparation and response to any catastrophe. The increased homeland 
security focus is an enhancement to our basic emergency management 
capacity and we will not succeed in building vigorous and robust 
preparedness for homeland security by taking away the basic building 
blocks of the emergency management system. An analogy for this is 
likened to the building of a second story on a house by using the very 
bricks that are integral to the foundation.
    The Nation is faced with an increased threat of terrorism and the 
necessity for increased planning and coordination with public health, 
law enforcement, agriculture and other state and local organizations. 
Further, significant grants management responsibilities with all 
response organizations cannot be accomplished effectively with current 
capabilities. An additional $200 million in funding for EMPG or other 
similar program in fiscal year 2004 is critical to addressing these 
immediate needs and sets the stage for future multi-year funding based 
upon national assessments of existing capabilities and needs.
    The elimination of this program will result in immediate, near-term 
and long-term degradations in the Nation's ability to effectively 
address emergencies and disasters. Citizens and communities that 
handled emergencies locally will no longer be able to do so and the 
responsibility and costs will be passed to the next higher level of 
government. But the costs will be greater, more frequent, and more 
dramatic. Straight-lining this funding in the current homeland security 
environment of increased programmatic activity without a commensurate 
increase in infrastructure will have a similar result. Therefore, an 
immediate increase and sustained program over the long term is 
necessary.
                     first responder grant program
    We appreciate the attention and funding that the Congress has given 
to ensuring first responders and emergency management is adequately 
prepared for domestic terrorism threats. Our emergency responders are 
better prepared today to face the various threats associated with 
terrorism because of the Federal commitment to address the war on 
terrorism that is being played out in our states, cities, and towns. 
States continue to take an all-hazards approach to disaster 
preparedness as we have integrated our domestic preparedness efforts 
into the proven systems we already use for dealing with both man-made 
and natural disasters.
    We have a great opportunity before us to build and sustain a 
national emergency infrastructure that addresses the needs of the 
entire emergency community (for example, fire, law enforcement, 
emergency medical services, emergency management, public health, and 
emergency communications) without taking away programs that are the 
basic building blocks of these components. We must seek to build 
baseline capabilities in each state that are adequately funded through 
reliable multi-year funding. NEMA continues to support Federal efforts 
to increase emergency management capacity building at the state, 
territory, and local level for personnel, planning, training, 
equipment, interoperable communications, coordination, and exercises. A 
significant Federal commitment must be made to give state, territorial, 
and local governments the tools to ensure adequate preparedness. While 
states have significantly increased their commitment to emergency 
management over the last decade, states are struggling with budgetary 
issues and the increased investments necessary to meet new demands. 
Critically important to the above is allowing funds for emergency 
responders to be used to pay for training, exercises, and security 
costs for critical infrastructure and key assets, as well as hardening 
defenses and security to these potential targets.
State Coordination
    All efforts to increase emergency management capacity building must 
be coordinated through the states to ensure harmonization with the 
state emergency operations plan, ensure equitable distribution of 
resources, and to synthesize resources for intra-state and inter-state 
mutual aid. Also, the Stafford Act, which governs the way disaster 
assistance is allocated, successfully uses states and Governors as the 
managers of Federal disaster relief funds for local governments, which 
can become overwhelmed and in need assistance when disasters occur.
    States understand the need to get funding quickly to the first 
responders and have long coordinated statewide and regionally to ensure 
adequate state assistance to local governments for emergency 
preparedness and response. There has been some discussion of the 
states' effectiveness to coordinate these programs; our data shows that 
the criticism is exaggerated. An April, 2003 NEMA Report found that of 
the 1999-2002 funds provided by the Office of Domestic Preparedness 
Grants, 76 percent of the funding has been expended or obligated and 
that of the fiscal year 2002 supplemental funds to the Federal 
Emergency Management Agency (now the Emergency Preparedness and 
Response Directorate), 69 percent of the funding has been obligated or 
expended. States continue to work to ensure the grants get out as 
quickly as possible to the localities. We suggest that the Department 
of Homeland Security provide quarterly reports on the status of Federal 
funds for State and local governments in detail to Congress and share 
those reports with key state and local government associations and 
first responder associations. We believe this would provide the 
opportunity for all interested parties to see the same data regarding 
homeland security grants as well to see where assistance is needed in 
getting grant funding distributed and most importantly, it would 
provide an ability to track our progress in protecting our communities 
from terrorism.
    Finally, Federal streamlining is necessary to consolidate the 
Federal grant application process for homeland security funds in order 
to ensure that funding can be provided faster to first responders. The 
current application submission, review, and approval process is lengthy 
and should be reviewed for efficiency.
Fiscal Conditions and Match Requirements
    Further, because the war on terrorism is a national emergency and 
states and local governments are in the toughest fiscal situations 
since the deep recession in the early 1980s, we must be wary of 
programs that would require significant matches. In fact, for local 
governments to meet the match would be even more difficult given their 
fiscal constraints. If a significant match is required, the application 
of this initiative will only go to those agencies and governments that 
can fiscally afford the match and not necessarily where the need is 
greatest. If a match is necessary, we would suggest that the match be 
non-fiscal or in the form of a deliverable as opposed to soft or hard 
dollars. We also recommend continuation of the current match 
requirements for Emergency Operations Centers enhancements of 75 
percent Federal and 25 percent state and local.
Flexibility for Personnel to Manage the Program
    State emergency managers need to have a commitment for sustained 
Federal resources and the flexibility to ensure the hiring and training 
of sufficient professional personnel to manage the expanding 
antiterrorism programs. We are concerned that an influx of funding 
programs from the Federal Government could detract from the ``all 
hazards'' approach and we will have to turn our focus away from natural 
disaster preparedness and response and thereby actually reduce overall 
preparedness and efficiency. Building a statewide emergency management 
capability is key to ensuring preparedness across the board. 
Flexibility to use some of the first responder grants for personnel 
both at the state and local level to manage the programs is critical to 
completing the preparedness mission. As an existing funding stream, 
EMPG is used in part to fund state and local staff to manage critical 
programs and build the incremental emergency management capacity to 
prepare for the first responder grants and the coordination that will 
be required to effectively execute the program. The First Responder 
Grants should provide the same flexibility. State and local government 
emergency management and responder organizations are already working at 
capacity and need Federal support for more than just purchasing pieces 
of equipment. Flexibility based on strategic approaches should be the 
norm, not single-issue, narrowly focused grants.
    Another area where flexibility is needed is to cover the overtime 
costs associated with training and exercising. In order to send a first 
responder to train on equipment, states and localities must pay 
overtime for that person's time, but also overtime for the person who 
takes their shift to replace them on duty. The current equipment and 
exercise grants do not cover such training costs.
Standards
    Standards must be developed to ensure interoperability of 
equipment, communications, and training across state, regional, and 
local jurisdictions. In terms of establishing voluntary minimum 
standards for the terrorism preparedness programs of state and local 
governments, NEMA offers itself as a resource in this area. Our 
organization, along with other stakeholder groups such as the Federal 
Emergency Management Agency, the International Association of Emergency 
Managers, National Governors' Association, National Association of 
Counties, International Association of Fire Chiefs, and others, has 
developed and is implementing an Emergency Management Accreditation 
Program (EMAP). EMAP is a voluntary standards and accreditation program 
for state and local emergency management that is based on NFPA 
(National Fire Protection Association) 1600 ``Standard for Disaster/
Emergency Management and Business Continuity Operations'' (an ANSI or 
American National Standards Institute approved standard) and FEMA's 
Capability Assessment of Readiness (CAR). Consequence management 
preparedness, response and recovery standards are being developed in 
conjunction with those for the traditional emergency management 
functions. NEMA suggests that these standards already being 
collaboratively developed through EMAP be considered in the development 
of minimum standards for training, exercises and equipment. 
Additionally, EMAP acceptance would provide the natural mechanism for 
Federal and state agencies to meet the requirements of the Government 
Performance Results Act (GPRA). EMAP has already completed a pilot 
phase in North Carolina and North Dakota is now conducting baseline 
assessments of all states, some of which wish to pursue accreditation 
in conjunction with this initial assessment.
Specific Program Needs
    As you consider the appropriations bills this year, we ask that you 
consider other specific needs to: upgrade emergency operations centers; 
assess, plan, and provide interoperable communications equipment; 
address the lack of public safety spectrum and radio frequency; provide 
mutual aid planning assistance; provide Federal funding for state 
security clearances; provide effective warning systems for all 
citizens; complete fielding of one National Guard Civil Support Team in 
every state; and provide funding for upgraded Urban Search and Rescue 
Teams with Weapons of Mass Destruction capabilities.
    NEMA is taking the initiative to develop solutions to some of the 
issues and concerns of state government related to homeland security 
with strategic partnerships. On April 1, 2003, NEMA, along with the 
Adjutants General Association of the United States and Mitretek Systems 
launched the Center for State Homeland Security. The Center will 
provide assistance for states in implementing their homeland security 
missions by facilitating access to the best available tools, 
information and facilities. The Center will provide direct support to 
states in key areas where assistance is needed including engineering, 
analysis, program planning, management, and procurement, in addition to 
identifying best practices. This project will help states navigate the 
vast web of information on homeland security and provide a framework 
for benchmarks to assist with spending accountability.
        hazard mitigation grant program & predisaster mitigation
    The Administration's budget proposal to eliminate the post-disaster 
Hazard Mitigation Grant Program in favor of funding a competitive pre-
disaster mitigation program gives NEMA significant concern. While 
Federal costs towards disasters remain a concern, significant 
commitments must be made towards both pre-disaster and a fully funded 
post-disaster mitigation program in order to lower overall disaster 
costs.
    Last year, Congress changed the formula for post-disaster 
mitigation grants from 15 percent to 7.5 percent. This change limits 
the availability of funds for post-disaster mitigation and prevents the 
lessons learned from disasters from being immediately incorporated into 
mitigation projects to prevent losses of life and destruction of 
property. As a result, state governments no longer can offer buy-outs 
or mitigation projects to as many disaster victims. The months 
immediately following disasters provide unique opportunities to 
efficiently incorporate risk reduction measures in a very cost-
effective manner, in many cases lowering the overall cost of the 
project by leveraging other funding sources including insurance 
settlements. We ask that you restore the formula to 15 percent this 
year and also prevent the program from being eliminated.
    The HMGP has proven to be a highly effective tool in steering 
communities toward risk reduction measures, in many cases breaking 
repetitive loss cycles that have cost other Federal disaster relief 
programs multiple times. Cost-benefit analysis is currently a 
requirement for predisaster mitigation programs. In a purely 
competitive grant program, lower income communities, often those most 
at risk to natural disaster will not effectively compete with more 
prosperous communities. Also, disasters graphically and vividly expose 
the need for and value of mitigation projects. We must not lose these 
opportunities to initiate projects to enhance our communities and 
reduce future disaster costs. Damage caused by disasters would go 
largely unrepaired thereby further impacting the economic and social 
recovery of particular areas. There are not enough mitigation dollars 
available to address all of the vulnerabilities that exist in this 
country.
    Making mitigation funds available only in a predisaster competitive 
environment will set this country's mitigation efforts back by removing 
the prime motivation factor, the disaster itself. The Administration's 
proposal to eliminate post-disaster mitigation programs is not a cost-
savings initiative, because disaster costs to the Federal Government 
would significantly increase as a result of the absence of prevention. 
Pre-disaster mitigation is essential, but we need to ensure that pre-
disaster mitigation corresponds with the Disaster Mitigation Act of 
2000 that was passed overwhelmingly by the House and Senate and signed 
into law.
    NEMA calls on Congress to maximize the benefits of both HMGP and 
predisaster mitigation, while including provisions for increased 
accountability. NEMA supports increased funding for predisaster 
mitigation, but maintains that HMGP should be retained as a separate 
and fully funded post-disaster program.
                               conclusion
    As we work to implement a new Federal Department of Homeland 
Security, we must not forget about the all-hazards approach to 
emergency management and the role it plays in preventing our Nation 
from losing focus on the daily perils that we face in addition to new 
threats. We must be prudent and thoughtful in addressing the homeland 
security enhancements to our preparedness and not waste the 
opportunities we have before us today.
    Whether it is a flood in West Virginia, a hurricane in Florida, or 
tornadoes in Mississippi, states need a Federal commitment to recognize 
that each state and local government has unique disaster preparedness 
and response needs that require flexible, predictable, and adequate 
funding assistance that is coordinated with the state emergency 
management plan. I thank you for the opportunity to testify on behalf 
of NEMA and welcome any questions that you might have. Only through a 
partnership of Federal, State, local government, along with our 
citizens and businesses, can our country prepare and respond to 
emergencies and disasters. Thank you for your consideration.
                                 ______
                                 

 Prepared Statement of the National Institute for Agricultural Security

               agricultural biosecurity in rural america
    There is a growing concern among security experts that acts of 
bioterrorism may be more likely than other forms of terrorist attack. 
America's farms, ranches, forests and our food production systems are 
vulnerable. In order to ensure continued public confidence in the 
safety of the food supply, immediate steps need to be taken to 
strengthen the technology and systems that will prevent and mitigate 
acts of bioterrorism. Local communities need to be prepared to work 
with State and Federal agencies to manage the consequences of an 
attack.
    The State Agricultural Experiment Stations and the State Extension 
Services have a long history of working with State and local 
communities to address issues of national concern. This Federal State-
local partnership has been critical to address the needs of 
agricultural producers and food processors, and it will be essential to 
develop integrated and comprehensive national programs for addressing 
agricultural biosecurity. A series of activities and projects are 
proposed that address biosecurity concerns in rural America.
          securing agricultural research facilities and agents
    Agricultural research facilities contain a vast array of biological 
and chemical agents that can be accessed and abused. The Agricultural 
Experiment Stations must develop new practices and procedures for 
insuring that they can meet emerging university security requirements 
while coordinating with their Federal laboratory partners to meet a 
different set of Federal security requirements. Improved security must 
be developed in a manner that still allows for interaction with the 
public for whom the research is being performed.
Preventing and Preparing for Agricultural Bioterrorism
    The critical time to deal with an act of bioterrorism is before it 
occurs. Potential vulnerabilities need to be assessed. Local, State and 
Federal emergency management communications networks need to be 
developed and tested for use in rural areas to address these new 
threats. Rural community leaders need to prepare management plans with 
public health, law enforcement, disaster management agencies. Farmers, 
ranchers, and foresters need education programs to recognize and 
respond to potential acts of terrorism, as well as to understand steps 
they can take to reduce their own vulnerability to attack. New vaccines 
and protective immunity needs to be developed for animals and crops.
Quickly Detecting Toxic Biological and Chemical Agents
    New sensor technologies for plants, animals and microbes need to be 
developed for detecting specific and broad categories of potential 
bioweapons. These sensors need to be mobile, broadly distributed, quick 
in their detection and analysis, and inexpensive. Sensors need to be 
developed for monitoring farms, ranches and forests to detect and 
report on the movement and dispersion of biological agents. Sensors 
must also be developed for identifying food borne pathogens in the food 
production and distribution system.
Interpreting the Appearance and Movement of Biological and Chemical 
        Agents
    Once detected, the pattern of appearance and dispersion of 
biological agents and food borne pathogens needs to be quickly 
incorporated into Geographic Information Mapping systems and computer 
models to determine if a natural event or a terrorist attack has 
occurred. Mapping and modeling make it possible to determine in hours 
and days that an event has occurred, making it possible to respond 
quickly enough to contain and mitigate the attack. Moreover, mapping 
and modeling make it possible to anticipate the movement of bioweapons 
through the landscape and the food distribution system, enabling local 
leaders to take appropriate actions to protect their communities.
Recognizing and Reporting Hazardous Events
    In addition to developing new equipment and computer technologies, 
people need to be trained to recognize the symptoms of biological 
attacks. Extension agents, veterinarians, and crop consultants need to 
be trained to recognize biological outbreaks and to know how to 
communicate appropriately with local and Federal officials. Reporting 
by individuals and mechanical sensors needs to be integrated into a 
comprehensive biosurveillance network.
Responding to and mitigating an act of bioterrorism
    In the event of an attack, local leaders need to be prepared to 
make appropriate emergency management decisions. Local public health, 
law enforcement, and disaster response teams need to be coordinated 
with prepared processes for informing and managing the public response. 
Treatment and care must be implemented immediately and appropriately. 
Early detection and treatment may mitigate most acts of bioterrorism.
            the national institute for agricultural security
    The National Institute for Agricultural Security (NIAS) is a 
nonprofit corporation developed by the State Agricultural Experiment 
Station Directors in collaboration with the State Extension Services 
and in consultation with the Colleges of Agriculture. The Institute was 
developed to address bioterrorism as it impacts U.S. agricultural and 
food production systems.
Partner Institutions
    In addition to working with all State Agricultural Experiment 
Stations, the NIAS works with and through lead universities to utilize 
their unique areas of technical and programmatic expertise to address 
national and regional biosecurity issues. NIAS is currently engaged in 
discussions regarding the development of specific pilot test projects 
with a number of universities. Federal Agencies and Appropriation 
Subcommittees All of the proposed programs described here will be 
developed in collaboration and coordination with the appropriate 
agencies within the Department of Agriculture. However, ongoing 
discussions with an array of agencies has made it clear that the 
proposed activities and projects should involve new collaboration and 
partnerships with a number of Federal agencies, including the 
Department of Homeland Security and the Department of Defense. For 
example, the agricultural research community needs to build on the 
security expertise, computer modeling, and biological research 
capacities that are supported by these departments. The six areas of 
activity described in this testimony have been designed to complement 
emerging programs and projects being planned by the Department of 
Homeland Security's Office of Science and Technology. The intent is to 
build on the biological work of the Office of Science and Technology 
through the Federal laboratories and research network, by harnessing 
the state-based agricultural research network of the State Agricultural 
Experiment Stations and Colleges of Agriculture. The agricultural 
research community has expertise and detailed knowledge of local 
conditions that will be imperative for the new programs being developed 
within the Department of Homeland Security and ongoing programs in the 
Department of Defense. Therefore the Appropriations Subcommittees for 
Homeland Security and the Department of Defense are suggested as the 
appropriate Committees of jurisdiction.
First Steps
    It is understood that there are many urgent and immediate homeland 
security concerns. However, it is also imperative that the security of 
our agricultural and food production system not be left unattended. The 
NIAS, the State Agricultural Experiment Stations, and the State 
Extension system offer a cost-effective mechanism for harnessing an 
existing infrastructure of local and state-based research, education 
and communications capacities that extends throughout the country. This 
research and extension system provides a trusted communications and 
facilitation network throughout rural America that should be linked to 
the emerging programs of the Department of Homeland Security.
    Detailed project proposals and budgets have been developed for each 
of the six areas of activity described previously in this testimony. 
More detailed resource documents are being provided to appropriate 
agency officials and will be provided to Congressional staff as 
appropriate. Each project begins with a developmental or pilot phase, 
which is then evaluated and adapted before being ramped-up for regional 
or national implementation.
    By way of example, the first area of activity includes the 
development of national guidelines for securing agricultural research 
facilities, followed by a national assessment of state-based 
facilities, to be followed by ``hardening'' state-based agricultural 
research facilities nationwide.
    Securing agricultural research facilities and agents Agricultural 
research facilities contain a vast array of biological and chemical 
agents that can be accessed and abused. The Agricultural Experiment 
Stations have a unique mix of field and laboratory research with a 
network of widely dispersed laboratory and field research sites within 
every State and territory--creating tremendous security challenges for 
research managers trying to respond to new biosecurity concerns. 
Several universities and agricultural research facilities have already 
been the targets of domestic terrorist attacks. Biological agents have 
been stolen from agricultural research laboratories. A comprehensive 
process for securing agricultural research facilities needs to be 
undertaken immediately. Research security requirements must be 
consistent nationally, but with flexibility for correct implementation 
given the unique characteristics of each site.
            AES Biosecurity Guidelines
    In order to quickly develop agricultural research security 
practices for the Agricultural Experiment Stations, the National 
Institute for Agricultural Security (NIAS) will convene panels of 
security and research experts to develop draft ``AES Biosecurity 
Guidelines.'' These guidelines will outline suggestions for (1) 
biosecurity site assessments, (2) policies for managing personnel 
access to research facilities and equipment, (3) developing new 
personnel training programs, and (4) managing access to sensitive 
research information. The expert panels and working groups will seek to 
include representatives from the appropriate Federal agencies. The 
workshops will include leaders from the Agricultural Colleges and the 
Agricultural Experiment Stations, but also field station and laboratory 
managers. The draft AES Biosecurity Guidelines will be shared with all 
Experiment Stations through web-based conferences, where each State 
will have the opportunity to gather the appropriate mix of specialists 
to review and evaluate the draft guidelines. Several States might be 
utilized as pilot sites for testing the new guidelines; the selected 
Experiment Stations would use test the proposed national guidelines to 
determine what final adjustments might be needed. After testing, all 
State Agricultural Experiment Stations could utilize the national 
guidelines to conduct site security assessments, develop new personnel 
guidelines, and to develop new training programs. After completing the 
site security assessments, each institution would be able to clearly 
define local security enhancements that would be needed to reach a 
consistent national standard of security for field and laboratory 
research facilities and equipment.
Closing
    The National Institute for Agricultural Security will strive to 
facilitate collaboration between the state-based agricultural research 
and extension communities and our Federal partners to address 
biosecurity and agricultural security concerns. The Institute stands 
ready to provide any additional information that may be of interest to 
the appropriate Congressional Committees and offices.
                                 ______
                                 

    Prepared Statement of the Pilot Disaster Resistant Universities

    Chairman Cochran, Ranking Member Byrd, and distinguished members of 
the Subcommittee, thank you for giving me the opportunity to provide 
testimony on the Disaster Resistant University initiative and to 
request continued funding in the fiscal year 2004 appropriations bill 
of your Subcommittee.
Program Background
    The FEMA Disaster Resistant University (DRU) Initiative was created 
to reduce the potential for large loss of life and hundreds of millions 
of dollars in key Federal research and billions of dollars in damage 
from natural disasters. The University of California/Berkeley was the 
prototype and founding member of the program. In October 2000, FEMA 
selected five additional universities to join Berkeley in the pilot 
phase of the program: the University of Alaska/Fairbanks, University of 
Miami, University of North Carolina/Wilmington, Tulane University, and 
University of Washington/Seattle. The selected universities have two 
elements in common: a vulnerability to disasters and a commitment to 
improve protection of students, faculty and staff, and one of our most 
valuable assets, intellectual property. The pilot program was funded 
with $700,000 in grants from predisaster mitigation funds and the U.S. 
Fire Administration.
Purpose of the Program
    The purpose of the program is to help the nation's colleges and 
universities facing the threat of natural disasters and acts of 
terrorism to assess their vulnerabilities and find ways to protect the 
lives of their students, faculty, and staff; their research; and their 
facilities. It will provide a framework and process for other 
universities to do the same.
Need for the Program
    The Federal Government funds nearly $15 billion in university 
research annually. This Federal investment in the vital intellectual 
property of the nation should be protected.
    Universities are critical to the economic health of surrounding 
communities. Their ability to resume operations quickly following a 
disaster greatly speeds the recovery of the entire community. For 
example, the University of Miami is the 3rd largest employer in Miami-
Dade County and has a $1.9 billion a year impact on the community; the 
University of Washington is the 3rd largest employer in the state of 
Washington and has a $3.4 billion impact; the University of North 
Carolina at Wilmington is the 3rd largest employer in the area and is a 
$400 million annual benefit to an eight county area; the University of 
California, Berkeley is the 5th largest employer in the Bay area and 
generates $1.1 billion annually in personal income in the Bay area; 
Tulane University is the largest employer in Orleans Parish and the 5th 
largest in Louisiana with a $1.5 billion gross impact on New Orleans; 
and the University of Alaska/Fairbanks is the largest civilian employer 
in the Tanana Valley. In addition, many universities operate medical 
schools which provide essential clinical services to the residents of 
their communities and adjacent areas.
    Many recent events underscore the need for the program: the loss of 
many years of research at the Texas Medical Center as result of 
flooding from Tropical Storm Allison, the earthquake damage to the 
University of California/Northridge and the University of California at 
Los Angeles, the facility damage and loss of life at the University of 
Maryland as result of a tornado, hurricane damage to the University of 
North Carolina/Wilmington, the earthquake damage to the University of 
Washington/Seattle, and the declaration by the FBI that our 
universities are ``soft'' targets for terrorists.
Status of the Program and Accomplishments
    Although no funding was made available in 2002, great progress has 
been made by the universities with the modest 2001 Federal investment. 
Participation in the DRU brought high level commitment and a framework 
for disaster planning and mitigation activities that helped 
universities focus and enhance efforts to protect their students, 
faculty, staff, vital research, and facilities.
    Each university has made significant improvements in developing 
awareness campaigns on campus; assessing their risks, vulnerabilities, 
and mitigation options, prioritizing and implementing some of the 
mitigation options; updating emergency operations plans; and developing 
and implementing plans for business continuity. The universities have 
improved disaster resistant design specifications for buildings and 
their contents, incorporated disaster resistance into campus master 
planning, and partnered more closely with governmental and private 
entities.
    These six pilot universities are making strong efforts to protect 
their collective 120,567 students, 60,214 employees, 1,550 buildings 
valued at over $11,820,458,000, and $1,600,710,000 in annual research.
    In meetings in March with representatives of the DRUs, FEMA staff 
expressed strong interest in continuing to work on this program. The 
six participating Disaster Resistant Universities look forward to 
continuing their progress and to mentoring the six new universities 
which FEMA will be selecting soon.
Congressional Interest
    We very much appreciate the support Congress has given this program 
the last 2 years. The Conference Report on the VA, HUD and Independent 
Agencies Appropriations bill for 2002 contained the following language: 
``The conferees believe that many of the nation's universities are 
vulnerable to disaster and urge FEMA to continue its Disaster Resistant 
University program and expand the scope to include safe-guarding 
university assets from acts of terrorism.'' [House Report 107-272, page 
155]
    The Conference Report on the fiscal year 2003 Omnibus bill in the 
FEMA section of the VA, HUD and Independent Agencies stated the 
following: The conferees are in agreement that FEMA should continue the 
Disaster Resistant University program and direct FEMA to carry out the 
direction contained in House Report 107-740.
    House Report 107-740 stated the following: The Committee directs 
FEMA to continue the Disaster Resistant University Program with grants 
of $500,000 to each of the six pilot Disaster Resistant Universities 
and $100,000 each to at least six additional universities, including at 
least one HBCU, to join the program.
Request for fiscal year 2004
    In fiscal year 2003, the program was funded through the Federal 
Emergency Management Agency section of the VA, HUD and Independent 
Agencies section of the Omnibus Appropriations Bill. In fiscal year 
2004, the program will be under Department of Homeland Security, 
Directorate of Emergency Preparedness and Response.
    We request your consideration of the following language in the 
fiscal year 2004 Department of Homeland Security Appropriations Bill:

    The Committee directs the Department of Homeland Security 
Directorate of Emergency Preparedness and Response (FEMA) to continue 
the Disaster Resistant University Program by providing continued 
support of $500,000 to each of the six pilot Disaster Resistant 
Universities to implement mitigation projects, $500,000 for each of the 
new universities added to the program in fiscal year 2003, and $200,000 
each to at least six additional universities to join the program in 
fiscal year 2004.

    We again thank you for the opportunity to provide written comment 
on the need for funding of this important program. We would welcome the 
opportunity to discuss the program further with your staff.
                                 ______
                                 

  Prepared Statement of the Upper Mississippi River Basin Association

    The Upper Mississippi River Basin Association (UMRBA) is the 
organization created in 1981 by the Governors of Illinois, Iowa, 
Minnesota, Missouri, and Wisconsin to serve as a forum for coordinating 
the five states' river-related programs and policies and for 
collaborating with Federal agencies on regional water resource issues. 
As such, the UMRBA has an interest in the budgets for the U.S. Coast 
Guard and the Emergency Preparedness and Response Directorate within 
the new Department of Homeland Security.
    Transition to the new department is an on-going process that will 
undoubtedly bring both challenges and opportunities. However, in the 
current national security environment, it has become more important 
than ever to ensure that the Coast Guard and the former Federal 
Emergency Management Agency (FEMA) have the resources they need to 
fulfill their multiple missions. Both have vital new functions and 
priorities specifically related to homeland security that must be 
adequately funded. But both also have other traditional missions that 
are equally vital to public health and safety, economic well-being, and 
environmental protection. For the Coast Guard, these include activities 
such as aids to navigation, vessel and facility inspections, emergency 
response, and mariner licensing. For the former FEMA, key traditional 
missions include the National Flood Insurance Program, flood map 
modernization, hazard mitigation, and response to floods and other 
natural disasters. Nowhere are these services more important than on 
the Upper Mississippi River System, which supports a vital link in the 
inland waterway transportation system, some of the nation's most 
productive agricultural land, population centers ranging from small 
towns to major metropolitan areas, and a nationally significant 
ecosystem.
                              coast guard
Operating Expenses
    A continuing priority for the UMRBA is the Coast Guard's Operating 
Expenses account. The President's fiscal year 2004 budget proposal 
includes $4.838 billion for this account, an increase of 10 percent 
from the fiscal year 2003 enacted level. However, much of this increase 
is targeted to homeland security and maritime projects, including new 
Maritime Safety and Security Teams, Sea Marshall positions, and 
increased search and rescue staffing. These initiatives are important 
in their own right, and some will undoubtedly help enhance other Coast 
Guard missions. However, it is also true that there will be increased 
demands on other mission areas to support security operations.
    The Coast Guard's stated objective is to sustain traditional 
missions near their pre 9/11 levels. These traditional missions are 
critical to the safe, efficient operation of the Upper Mississippi 
River and the rest of the inland river system. Under these mission 
areas, the Coast Guard maintains navigation channel markers, regulates 
a wide range of commercial vessels in the interest of crew and public 
safety, and responds to spills and other incidents. The beneficiaries 
include not only commercial vessel operators, but also recreational 
boaters; farmers and others who ship materials by barge; and the 
region's citizens, who benefit enormously from the river as a 
nationally significant economic and environmental resource.
    Even prior to September 11, recent years had brought a number of 
changes to the way the Coast Guard operates on the inland river system, 
including elimination of the Second District; closure of the Director 
of Western Rivers Office; decommissioning the Sumac, which was the 
largest buoy tender on the Upper Mississippi River; and staff 
reductions. The states understand that these decisions were driven by 
the need for the Coast Guard to operate as efficiently as possible, and 
the states support that goal. However, such changes must be carefully 
considered and their effects monitored, particularly in light of the 
increased demands that we are now placing on the personnel and assets 
that remain in the region. The UMRBA is quite concerned that staff 
reductions and resource constraints have combined to impair the Coast 
Guard's ability to serve as an effective, proactive partner.
    Specifically, increased security demands have reduced the staff 
assigned to vessel inspections and limited the Coast Guard's 
investigation of reported spills. Sending a single person to conduct 
vessel inspections reduces the rigor of those inspections, and, in a 
worst case scenario, potentially puts the inspector at risk. Similarly, 
electing not to respond to reports of small spills means some of these 
spills will go uninvestigated and puts increased demands on local 
officials who do not have the Coast Guard's expertise or resources. 
Moreover, it could result in costly delays should a spill turn out to 
be larger than first reported, an all-too-common occurrence. While 
everyone recognizes the need to adjust to our new security environment, 
it is essential for the Coast Guard to retain the capacity to perform 
its traditional missions on the Upper Mississippi River. Temporary 
adjustments have been necessary as the Coast Guard strives to meet 
immediate needs, but these should not become long term standard 
operating procedures. Toward that end, the UMRBA supports the 
President's fiscal year 2004 budget request for the Coast Guard's 
Operating Expenses account and urges Congress to ensure that sufficient 
resources from within this account are allocated to the Coast Guard's 
inland river work.
Priorities and Procedures in a New Environment
    The UMRBA calls on Congress to ensure that the Coast Guard's 
partners and stakeholders are consulted as decisions are made regarding 
how to execute traditional missions in the new security environment. 
For example, the Office of Management and Budget has called for a study 
of the Aids to Navigation Program to determine whether this function 
should be privatized. While the states do not oppose such a study per 
se, we do have reservations concerning the efficacy and efficiency of 
privatization in this instance. Moreover, it is absolutely essential to 
fully consider the perspectives of the navigation industry and others 
who rely on these aids before making any such decision. The states 
would oppose any fees for aids to navigation or other navigation 
assistance services. The nation's navigable waterways are a critical 
part of our transportation infrastructure, just as is the national 
highway system, and the benefits of the waterways system accrue quite 
broadly. Therefore, providing the basic services required to operate 
that infrastructure safely is a fundamental role of government.
    The Coast Guard is reportedly considering a range of other 
potential changes, such as reducing non-security contingency planning, 
suspending certain safety inspections, reducing some enforcement 
efforts, and suspending response to spills of up to 500 gallons from 
domestic vessels. These potential changes could have profound 
implications, including diminished public and worker safety, increased 
demands on state and local jurisdictions, and reduced environmental 
protection. They should not be undertaken without extensive 
consultation with potentially affected parties.
Boat Safety Grants
    The Coast Guard's boat safety grants to the states have a proven 
record of success. The Upper Mississippi is a river where all types of 
recreational craft routinely operate in the vicinity of 15-barge tows, 
making boating safety all the more important. As levels of both 
recreational and commercial traffic continue to grow, so too does the 
potential for user conflicts. This is particularly true with major 
events, such as the upcoming commemoration of the Lewis and Clark 
expedition, which is expected to draw large numbers of boaters to the 
St. Louis area, and the Grand Excursion 2004, during which flotillas of 
boaters will retrace President Millard Fillmore's 1,854 steamboat 
journey from Rock Island, Illinois to the Twin Cities. Boat safety 
training and law enforcement are key elements of prevention. In fiscal 
year 2003, Congress recognized the importance of boating safety, 
providing $71 million for the state boat safety grants. Unfortunately, 
this year the Coast Guard continued its long-standing practice of 
requesting only $59 million for state grants. The UMRBA urges Congress 
to appropriate the full authorized amount in fiscal year 2004 to the 
Boat Safety account to support the states in this important mission.
                  emergency preparedness and response
Hazard Mitigation
    Among those programs now administered by the Department of Homeland 
Security's Emergency Preparedness and Response Directorate, UMRBA is 
particularly interested in those that help mitigate future flood 
hazards. Mitigation, which is the ongoing effort to reduce or eliminate 
the impact of disasters like floods, can include measures such as 
relocating homes or community facilities off the floodplain, elevating 
structures, and practicing sound land use planning. Mitigation planning 
and implementation measures are essential to reducing the nation's 
future disaster assistance costs. Given the importance of mitigation, 
UMRBA supports the new Pre-Disaster Mitigation (PDM) grant program for 
which Congress provided first-time funding of $150 million in fiscal 
year 2003 and for which the President has requested $300 million in 
fiscal year 2004. The UMRBA recognizes that there are concerns about 
how PDM grant funds will be allocated, including the effect of relying 
solely on benefit/cost analysis. In addition, there is limited 
experience in administering the new program. Applications for planning 
grants ($248,375 per state) are due April 30 and FEMA has yet to issue 
guidance for the competitive grants. Despite these growing pains of a 
new program, the PDM grant program holds promise for enhancing 
communities' ability to prevent future damages, particularly in areas 
that have--not experienced a major disaster and thus have not had 
access to post-disaster mitigation assistance through the Disaster 
Relief Fund. In addition, pre-disaster mitigation assistance is an 
effective means of meeting the ongoing need in all communities to plan 
for future floods and reduce their vulnerability before the next flood 
disaster.
    Unfortunately, the Administration's support for the new Pre-
Disaster Mitigation program is based on the premise that the existing 
post-disaster Hazard Mitigation Grant Program (HMGP) will be 
eliminated. This would be a major mistake. Although the PDM program 
will be very useful, funding for that program should not come at the 
expense of the HMGP. The HMGP has been a particularly popular and 
enormously helpful program. Authorized under Section 404 of the 
Stafford Act, the HMGP provides grants to states and local governments 
to implement long-term hazard mitigation measures after a major 
disaster declaration. Because grant funds are made available during the 
immediate recovery from a disaster, it offers a particularly attractive 
option for communities that may not otherwise consider mitigation. It 
is critical to maintain this post-disaster option, in addition to 
creating a new pre-disaster mitigation option. Local communities need 
both. In addition, by retaining the HMGP, mitigation assistance 
specifically for flood damages would continue to be available to 
communities that experience disastrous flooding. In contrast, flood 
mitigation projects under the new pre-disaster program will need to 
compete for funding with mitigation projects for a wide variety of 
other potential disasters, thus diminishing the likelihood that flood 
mitigation needs will be met.
    Therefore, UMRBA supports funding of $300 million in fiscal year 
2004 for the Pre-Disaster Mitigation grant program and urges Congress 
to continue to make post-disaster mitigation funding available through 
the HMGP, by authorizing allocation of the full 15 percent of disaster 
relief funding to the HMGP.
Flood Map Modernization
    UMRBA enthusiastically supports the Administration's proposal to 
provide $200 million to modernize and digitize Flood Insurance Rate 
Maps (FIRMs). Among other things, flood maps are used to determine 
risk-based National Flood Insurance Program premium rates and develop 
disaster response plans for Federal, State, and local emergency 
management personnel. However, most flood maps are over 15 years old 
and are rapidly becoming obsolete. Many flood maps are outdated by the 
effects of land use changes in the watersheds. When outdated maps 
underestimate flood depths, it can often lead to floodplain development 
in high risk areas. It is therefore important that flood maps be 
updated on an ongoing basis and in a timely way.
    The Corps of Engineers will soon complete its Flow Frequency Study, 
updating the discharge frequency relationships and water surface 
profiles for approximately 2,000 miles of the Upper Mississippi, Lower 
Missouri, and Illinois Rivers. This data will have a variety of uses, 
including updating Flood Insurance Rate Maps used by hundreds of flood 
prone communities along these rivers. The Corps and FEMA have estimated 
that 4,237 map panels in the 130 counties along these rivers will need 
to be revised at a cost of approximately $30 million. Using data from 
the Corps study will be a far more cost-effective way to update FIRMs 
than having FEMA independently study flood hazards and update the maps. 
UMRBA therefore urges Congress to designate funding specifically for 
the Upper Mississippi flood mapping project and direct FEMA and the 
Corps to coordinate their efforts to advance FIRM updates.










       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page
American Public Transportation Association, Prepared Statement...   439
Association of:
    State Dam Safety Officials, Prepared Statement...............   442
    State Floodplan Managers, Inc., Prepared Statement...........   448

Basham, W. Ralph, Director, U.S. Secret Service, Department of 
  Homeland Security..............................................   185
    Opening Statement............................................   186
    Prepared Statement...........................................   188
Bonner, Robert C., Commissioner, Customs and Border Protection 
  Bureau, Department of Homeland Security........................   331
    Prepared Statement...........................................   338
    Statement of.................................................   336
Brown, Hon. Michael, Under Secretary, Emergency Preparedness and 
  Response Directorate, Department of Homeland Security..........     1
    Prepared Statement...........................................     5
    Statement of.................................................     3
Byrd, Senator Robert C., U.S. Senator From West Virginia:
    Questions Submitted by....39, 74, 160, 238, 250, 320, 406, 424, 437
    Statements of...........................................1, 264, 332

Campbell, Senator Ben Nighthorse, U.S. Senator From Colorado:
    Prepared Statements........................................265, 335
    Questions Submitted by...........................160, 316, 404, 422
    Statement of.................................................   264
Cochran, Senator Thad, U.S. Senator From Mississippi:
    Opening Remarks..............................................   185
    Opening Statements......................................1, 263, 331
    Questions Submitted by....31, 65, 137, 237, 241, 296, 392, 415, 430
Collins, Admiral Thomas H., Commandant, U.S. Coast Guard, 
  Department of Homeland Security................................   185
    Prepared Statement...........................................   207
    Statement of.................................................   205
Craig, Senator Larry, U.S. Senator From Idaho:
    Prepared Statement...........................................    46
    Questions Submitted by.......................................    74

Domenici, Senator Pete V., U.S. Senator From New Mexico:
    Questions Submitted by...........................156, 311, 401, 435
    Statement of.................................................   333

Fleet Reserve Association, Prepared Statement....................   451

Greater Orlando Aviation Authority, Prepared Statement...........   454

Harkin, Senator Tom, U.S. Senator From Iowa, Questions Submitted 
  by.............................................................   181
Hollings, Senator Ernest F., U.S. Senator From South Carolina, 
  Statement of...................................................   266
Hutchinson, Hon. ASA, Under Secretary, Border and Transportation 
  Security Directorate, Department of Homeland Security..........   263
    Prepared Statement...........................................   269
    Statement of.................................................   266

Inouye, Senator Daniel K., U.S. Senator From Hawaii, Questions 
  Submitted by...................................................    80
International:
    Association of Emergency Managers, Prepared Statement........   456
    Loran Association, Prepared Statement........................   458

Kohl, Senator Herb, U.S. Senator From Wisconsin, Questions 
  Submitted by...................................................   182

Leahy, Senator Patrick J., U.S. Senator From Vermont, Questions 
  Submitted by...................................42, 176, 330, 414, 429
Loy, Admiral James M., Administrator, Transportation Security 
  Administration, Department of Homeland Security................   331
    Prepared Statement...........................................   352
    Statement of.................................................   348
Lummi Indian Business Council, Prepared Statement................   461

McConnell, Senator Mitch, U.S. Senator From Kentucky, Questions 
  Submitted by..................................................72, 403
McQueary, Dr. Charles, Under Secretary, Science and Technology 
  Directorate, Department of Homeland Security...................    45
    Prepared Statement...........................................    48
    Statement of.................................................    46
Murray, Senator Patty, U.S. Senator From Washington:
    Questions Submitted by.......................................   257
    Statement of.................................................   335

National:
    Boating Federation, Prepared Statement.......................   464
    Emergency Management Association, Prepared Statement.........   465
    Institute for Agricultural Security, Prepared Statement......   470

Patrick, Connie L., Director, Federal Law Enforcement Training 
  Center, Department of Homeland Security........................   331
    Prepared Statement...........................................   361
    Statement of.................................................   357

Ridge, Hon. Tom, Secretary, Department of Homeland Security......    83
    Prepared Statement...........................................    93
    Statement of.................................................    90

Shelby, Senator Richard, U.S. Senator From Alabama, Questions 
  Submitted by...................................................    73
Stevens, Senator Ted, U.S. Senator From Alaska, Questions 
  Submitted by...................................................39, 71

Upper Mississippi River Basin Association, Prepared Statement....   474














                             SUBJECT INDEX

                              ----------                              

                    DEPARTMENT OF HOMELAND SECURITY

                                                                   Page
Activities.......................................................     6
Additional Committee Questions..............31, 137, 296, 392, 415, 430
Adjustments to the Fiscal Year 2004 Budget Request...............   410
Agriculture......................................................   180
    Quarantine Inspection Program................................   182
Air and Marine:
    Assets.......................................................   381
    Interdiction.................................................   308
Air:
    Cargo Security...............................................   380
    Marshals...................................................317, 422
    Traffic Controllers........................................318, 423
Airport:
    Modification Funding Priorities..............................   292
    Screener Reductions..........................................   291
    Screeners....................................................   330
    Security Improvement Project.................................   420
All-Hazards Approach.............................................    31
Alternative Shoulder Holsters....................................   411
Anti-Dumping Authority (BICE and BCBP).........................321, 406
Anti-Missile Defenses............................................   132
AQI Fumigation Investigation...................................322, 407
Assistance to Firefighters.......................................    43
    Grants...................................................13, 14, 32
Baggage Screeners..............................................317, 423
BioDefense Countermeasures.......................................    40
Border:
    Issues................................................156, 312, 401
    Patrol.....................................................303, 395
        Airwing..................................................   410
    Security...................................................319, 405
        Gaps in Screening Entrants into the United States........   167
Budget Documents...............................................321, 407
Bureau of Immigration and Customs Enforcement: On-Going Operation   326
Bus Security.....................................................   424
Canine Units.....................................................   394
CAPPS II.........................................................   389
Cargo and Passenger Processing...................................   398
Cerro Grande.....................................................    41
Challenges.......................................................     6
    Of Under Secretary's Office..................................   271
Changing Agency Regional Headquarters............................   143
Citizen Corps Initiative.........................................   177
Coast Guard......................................................   150
    Grants for Port Security.....................................   275
COBRA Fees.......................................................   364
Code Yellow Terrorism Alert Level................................   164
Collaboration With Civil Air Patrol..............................   117
Community Emergency Response Teams...............................    20
Computer Assisted Passenger Pre-Screening System.....166, 294, 386, 420
Congressional Ability to React in Emergency Situations...........   129
Consolidated:
    Information Technology.......................................   284
    Issues.......................................................   394
    Procurements.................................................   284
Container Security...............................................   375
    Initiative.................................................111, 400
Coordination Issues..............................................   298
Cost of:
    Protecting Infrastructure....................................   116
    Security Investments at Small Airports.......................   291
Counterfeit Identification Documents.............................   289
Crisis Training for Elected Officials............................   182
Critical Infrastructure:
    Grants.......................................................   101
    Information Requirements of the Homeland Security Act........   179
Cross-Check of Passenger Identity................................   318
Customs Import Specialists.......................................   170
Delay in Releasing Funds.........................................   379
Department Start-up Issues.......................................   296
    Investment Decisions.........................................   138
Departmental Operations..........................................   145
Deployment of:
    Rail VACIS...................................................   407
    Technology, Equipment, and Systems...........................   343
Detention and Removal............................................   323
DHS:
    Coordination with State Offices..............................   114
    First 100 Days.............................................321, 407
    Headquarters.................................................   144
Disaster Relief Fund.....................................11, 13, 30, 39
Drinking Water System Vulnerability..............................   165
Emergency:
    Food and Shelter.............................................    41
    Management Performance Grants................................29, 38
    Operations Centers...........................................   177
    Preparedness and Response....................................   153
    Program......................................................    26
    Response and Support Teams...................................    28
Emerging Technologies Relevant to Border and Transportation 
  Security.......................................................   276
Enforcement:
    Of Intellectual Property Laws................................   326
    Roles and Coordination under Reorganization..................   283
Entry-Exit:
    System................................................104, 109, 287
    VISA Tracking System.........................................   412
Equipment Standards and Guidelines...............................   182
Expiration of COBRA Fees..................................161, 320, 406
Explosive Detection Systems (EDS)..............................378, 419
Facilities Construction Master Plan............................360, 363
Federal Air Marshals:
    Retention Rates..............................................   425
    Training Location..........................................425, 437
Federal:
    Employee Rights under DHS....................................   121
    Flight Deck Officer Training.................................   379
    Law Enforcement Training Center (FLETC)...............157, 309, 313
Fee Revenue......................................................   392
Fire Grants and First Responder Funding........................165, 324
First Responders...............................................172, 316
``First Use'' Assurance for FLETC-Owned Facilities...............   372
Fiscal Year:
    2002 Accomplishments.........................................     6
    2003 Spending Plan...........................................   382
    2003 TSA Financial Plan......................................   325
    2004 Budget Request...............................90, 359, 362, 368
FLETC Facilities Expansion.......................................   366
Flexibility of First Responder Funds.............................   176
Flood Map Modernization..........................................23, 25
FOIA.............................................................   171
    Rules and Exemptions.........................................   103
Food Safety......................................................    24
Formula for State and Local Preparedness Grants..................   112
Freedom of Information Act.......................................   102
Full-Time Equivalent Screeners Cap...............................   424
Funding for:
    Departmental Management......................................   172
    EDS Installations............................................   292
    Entry-Exit...................................................   106
    Identified Homeland Security Vulnerabilities.................   135
Furloughing of Air Passenger Inspectors..........................   278
Hammer Training and Education Center.............................    19
Headquarters Building............................................   127
High Threat Urban Areas........................................118, 324
Highway Watch Program............................................   422
Homeland Security Advisory System................................    15
Immigration's ``Entry-Exit'' Visa Tracking System................   168
Information:
    Sharing......................................................   125
    Technology.................................................140, 398
        Investments and Integration..............................   300
INS:
    Construction Backlog.......................................325, 414
    Employees....................................................   109
Inspection:
    Documentation................................................   397
    Personnel....................................................   408
Integrated Investigation Strategy................................   307
Integration of:
    FEMA into DHS................................................    27
    Physical Assets..............................................   299
Intelligence Issues..............................................   147
Internal Reorganization..........................................    32
International Trade Data System..................................   399
Interoperable Communications.....................................21, 33
IT Transformation to Homeland Security Fund......................   408
Justice Department's Recent Decision Regarding Illegal Immigran163, 323
Lack of Construction Funding in Fiscal Year 2004.................   437
Law Enforcement Officers (LEOS)................................390, 421
Leadership Issues in Reorganization of Border Security Agencies..   282
Legacy Custom:
    Air-Marine Program...........................................   409
    Service and Immigration and Naturalization Service Fee161, 320, 406
Letters of Intent....................................162, 324, 390, 427
Lines of Communication...........................................   422
Longer Term Information Technology Priorities & Milestones 
  (Fiscal Year 2004-2005)........................................   142
Management of First Responder Initiatives........................   118
Maritime and Land Transportation Security........................   385
Master Plan Construction.........................................   437
Merging Agency Regional Structures...............................   302
Mitigation.......................................................     8
    Division.....................................................    34
Monitoring Untended Airstrips....................................   277
Most Significant Vulnerabilities.................................   170
National:
    Capital Region Airspace Protection.........................162, 321
    Guard........................................................   412
        Issue..................................................159, 315
    Infrastructure Simulation and Analysis Center (NISAC)........   158
    Strategy on Training.........................................    18
Near Term Information Technology Priorities & Milestones (Fiscal 
  Year 2003).....................................................   141
New Grant Program for ``Terrorism Activities''...................   176
New Technology...................................................   409
Non-Homeland Security Missions...................................   300
Northern Border Ports of Energy Staffing.........................   180
Office for Domestic Preparedness......................42, 154, 172, 309
    Grant-Making Process.........................................   276
Office of Homeland Security......................................   169
Operation:
    Greenquest.................................................162, 322
    Liberty Shield.............................................100, 178
    Of Emergency Response and Support Teams......................    21
    Safe Commerce..............................................110, 111
Outsourcing Federal Jobs.........................................   122
Overview of Operations.........................................359, 362
Parallel Emergency Management Efforts............................   116
Partnership with Bureau of Immigration and Customs Enforcement...   345
Pending Senate Legislation.......................................   171
Personnel:
    Breakout.....................................................   412
    Cutbacks.....................................................   415
    Impacts......................................................   301
    Issues.......................................................   411
Physical Assets..................................................   394
Planned Usage of the Cheltenham Facility.........................   438
Plum Island......................................................   181
Port:
    Of Entry Construction Backlog................................   169
    Security.....................................................   279
        Assessments............................................326, 428
        Grants................................................ 163, 293
    Vulnerability Assessments....................................   107
Pre- and Post-Disaster Mitigation................................    28
Pre-Disaster Mitigation..........................................    42
Preparedness.....................................................     7
Preserving Agency Mission Focus..................................   137
Priorities in Transportation Security Administration Budget......   274
Privacy Rights...................................................   388
Private Mail Radiation Detection Equipment................162, 325, 410
Privatizing Air Traffic Control..................................   278
Professionalism of Airport Screeners.............................   391
Project Bioshield................................................   128
    Vaccine Acquisition Program..................................   150
Projects Bioshield and Biowatch..................................    22
Proper Funding Levels............................................   183
Public Health Questions..........................................   126
Purchase of the Town of Playas.................................159, 315
Pushing:
    Our Zone of Security Outward/Partnering With Other Countries.   341
    Security Outward/Partnering With the Private Sector..........   343
Qualified Antiterrorism Technologies......................318, 404, 423
Rail Security....................................................   108
Recovery.........................................................    10
Reduction of Airport Security Screeners..........................   285
Remote Video Inspection System...................................   171
Response.........................................................     9
    Division.....................................................    35
Restructuring:
    Air and Marine Program.......................................   322
    Of Immigration and Customs...................................   281
Revised Department Pay Plan......................................   161
Risk Management..................................................   138
Role Within Department of Homeland Security......................   417
Rural Law Enforcement Training...................................   437
S. 165--Air Cargo Security Act...................................   429
S. 539...........................................................   372
Screener Reductions..............................................   384
Security Detail..................................................   412
Selected:
    Achievement Highlights.......................................   360
    Other Achievement Highlights.................................   363
September 11 Response............................................    39
Severe Acute Respiratory Syndrome (SARS)........................28, 287
Smuggling of Pseudoephedrine.....................................   286
Staffing.......................................................272, 344
    Increases....................................................   408
Standard for Rating the Department...............................   170
State of Readiness in Ports......................................   272
Strategic National Stockpile.....................................    22
Student and Exchange Visitor Information System (SEVIS)..........   305
Support:
    Contracts....................................................   428
    Teams........................................................   166
Targeting and the Necessary of Advance Information...............   339
Technology Investment............................................   178
Terrorist Threat Integration Center..............................   120
Threat Level 4 (Orange)..........................................   430
Threat Level 5 (Red).............................................   431
Townhall Meetings with INS Employees.............................   114
Toxic Substances--Cyanide........................................   182
Tracking of:
    Foreign Visitors.............................................   131
    Students and Exchange Visitors...............................   288
Training.........................................................   395
    Curricula....................................................   437
    Grants.......................................................    17
    Standards....................................................   111
Transfer of Funds................................................   411
Transportation:
    Resources for Maritime and Land Security.....................   273
    Response to Security Alert Levels............................   290
    Security Administration....................................164, 316
    Worker Identification Card (TWIC)..........................421, 428
Treasury Forfeiture Fund.........................................   168
Trusted Traveler Program.........................................   426
TSA:
    Business Assistance in Developing Security Plans.............   427
    Cruise Ship to Airlines Pilot Project........................   427
    Goals and Management.........................................   427
    Guns in the Cockpit..........................................   418
    Increased Threat Level.......................................   416
    Port Security Grants.........................................   419
    Screener:
        Reductions...............................................   365
        Workforce Reduction......................................   383
24-Hour Manifest Rule............................................   374
2004 Funding Level...............................................    43
2004 Highlights..................................................     7
U.S.:
    Border Infrastructure and Technology Requirements............   371
    Fire Service.................................................    42
    VISIT........................................................   366
        System...................................................   131
    Visitor and Immigrant Status Indication Technology System..148, 304
Unmanned Aerial Vehicles.......................................373, 374
    At the Las Cruces, New Mexico International Airport........311, 402
Use of Organized Labor...........................................    39
Vulnerability of Chemical Plants.................................   134
Watch Lists..........................................119, 124, 171, 181
Workload.......................................................359, 362
Wyden Amendment to S. 165--Air Cargo Security Improvement Act..326, 426

                   Science and Technology Directorate

Additional Committee Questions...................................    64
Adequacy of Existing Technologies and Capabilities...............    54
Application of Department of Defense Technologies, Experience and 
  Expertise to Meet Homeland Security Requirements...............    64
Biometric Technologies...........................................    59
Collaboration With National Laboratories.........................    57
Comprehensive Entry Exit System..................................    58
Concerns for Rural Areas.........................................    66
Cooperation With DHS and Non-DHS Entities........................    52
Criteria for Determining Centers Excellence......................    53
Critical Infrastructure Protection...............................    74
Defense Department's Biometrics Initiative.......................    60
Department of Health and Human Services Coordination.............    67
Development of Standards.........................................    65
Educational Programs.............................................    48
Fiscal Year:
    2003 Reprogramming Request...................................    62
    2004 Plans and Missions......................................    46
Homeland Security Advanced Research Projects Agency......47, 57, 61, 68
Identification of Science and Technology Needs...................    55
Manpad Strategy..................................................56, 60
Performance Measures.............................................    61
Radiological Attack..............................................    74
Role of the Plum Island Animal Disease Center....................    53
SAFETY Act.......................................................    71
Science and Technology Directorate Goals.........................    47
Standards for First Responder Equipment..........................    63
Technology Clearinghouse.........................................    59
Under Secretary for Science and Technology.......................74, 80
University-Based Centers.........................................    59

                            U.S. Coast Guard

Additional Committee Questions...................................   241
Automated Identification System..................................   256
C-130s and MPA Aircraft..........................................   255
Coast Guard:
    Activities New York Operation Tempo MARSEC II................   252
    Deployment of Assets in Iraq.................................   227
Competitive Sourcing at NVDC.....................................   219
Deepwater........................................................   250
Deficiencies in Search and Rescue Program........................   260
Dolphin Helicopter...............................................   250
Fiscal Year 2004 Budget Request..................................   243
Fisheries Enforcement............................................   215
Focus on Non-Homeland Security Missions..........................   224
110 Foot Cutter Hull Deterioration...............................   251
Has Operation Iraqi Freedom Further Diminished Coast Guard 
  Abilities in U.S. Waters?......................................   257
Homeland Security................................................   241
How Did the Coast Guard Respond to the Committee Directive to 
  Rebalance Missions?............................................   259
Importation of Gas from Foreign Entities.........................   225
Incursions in North Pacific......................................   222
Integrated Deepwater System....................................229, 247
Is Deepwater Patrol Boat Life Extension Program being 
  Reconsidered?..................................................   259
Maritime Domain Awareness......................................229, 248
Merchant Mariner Documents.......................................   242
Mission Requirements.............................................   253
National Vessel Documentation Center.............................   219
Non-Homeland Security Missions...................................   213
Port Security:
    Assessments................................................228, 253
    Grants.......................................................   234
Priorities of the Coast Guard....................................   205
Radiation Detection Equipment....................................   252
Relationship With the New Department.............................   225
Rescue 21........................................................   230
Research & Development Funding...................................   255
Search and Rescue Efforts........................................   230
U.S. Coast Guards Workload.......................................   216
Unmanned Aerial Vehicles.........................................   222
War on Iraq......................................................   243
Will Coast Guard be Able to Handle a Major Migrant Influx?.......   258
Women............................................................   216

                          U.S. Secret Service

Additional Committee Questions...................................   237
Al Qaeda Involvement in Counterfeit Activities...................   212
Budget Presentation..............................................   238
Capital Acquisitions...........................................191, 232
Computer Crime...................................................   191
Consolidation Savings............................................   238
Counterfeiting...................................................   192
    Operations in Iraq...........................................   212
Diversity........................................................   200
Electronic Crimes Special Agent Program..........................   187
Emergency Preparedness Program (EPP).............................   200
Fiscal Year 2004 Appropriation:
    Campaign.....................................................   231
    Request......................................................   190
Foreign Offices..................................................   211
Global Financial Crime...........................................   194
Human Resources and Training.....................................   200
Identity Theft...................................................   193
Information Resources Management Division........................   199
Intelligence Division............................................   197
Investigative Program............................................   191
James J. Rowley Training Center..................................   201
Missions of the Secret Service...................................   186
National:
    Center for Missing and Exploited Children..................195, 233
    Special Security Events......................................   240
    Threat Assessment Center...................................198, 240
Office of Protective Research....................................   197
Operating Expenses...............................................   191
Plan Colombia....................................................   210
Protective Program...............................................   195
Realignment of Personnel.........................................   233
Relationship With DHS............................................   232
Secret Service Personnel.........................................   187
Security of Identity Documents...................................   194
Technical Security Division......................................   199
U.S. Secret Service..............................................   217
USA Patriot Act..................................................   239
USSS:
    Special Agent Workforce & Quality of Life....................   239
    Uniformed Division Hiring....................................   239
White House Mail Screening and Processing......................235, 238
Workforce Retention/Workload Balancing Initiative................   200

                                   - 

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
